<html>
<title> - MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES APPROPRIATIONS FOR 2009</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
     MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2009

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION
                                ________
  SUBCOMMITTEE ON MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED 
                        AGENCIES APPROPRIATIONS
                      CHET EDWARDS, Texas, Chairman
 SAM FARR, California
 NORMAN D. DICKS, Washington
 ALAN B. MOLLOHAN, West Virginia
 PATRICK J. KENNEDY, Rhode Island
 ALLEN BOYD, Florida
 SANFORD D. BISHOP, Jr., Georgia
 MARION BERRY, Arkansas             ZACH WAMP, Tennessee
                                    ANDER CRENSHAW, Florida
                                    C. W. BILL YOUNG, Florida
                                    JOHN CARTER, Texas
                                    KAY GRANGER, Texas

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
 Carol Murphy, Tim Peterson, Walter Hearne, Donna Shahbaz, and Mary C. 
                       Arnold, Subcommittee Staff

                                ________

                                 PART 7

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
 Part 7--MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2009
                                                                      ?
?
                                                                      ?

     MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2009

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION
                                ________
  SUBCOMMITTEE ON MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED 
                        AGENCIES APPROPRIATIONS
                      CHET EDWARDS, Texas, Chairman
 SAM FARR, California               ZACH WAMP, Tennessee
 NORMAN D. DICKS, Washington        ANDER CRENSHAW, Florida
 ALAN B. MOLLOHAN, West Virginia    C. W. BILL YOUNG, Florida
 PATRICK J. KENNEDY, Rhode Island   JOHN CARTER, Texas
 ALLEN BOYD, Florida                KAY GRANGER, Texas        
 SANFORD D. BISHOP, Jr., Georgia    
 MARION BERRY, Arkansas             

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
 Carol Murphy, Tim Peterson, Walter Hearne, Donna Shahbaz, and Mary C. 
                       Arnold, Subcommittee Staff

                                ________

                                 PART 7

                                   S

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 42-754                     WASHINGTON : 2008

                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 JOHN P. MURTHA, Pennsylvania       JERRY LEWIS, California
 NORMAN D. DICKS, Washington        C. W. BILL YOUNG, Florida
 ALAN B. MOLLOHAN, West Virginia    RALPH REGULA, Ohio
 MARCY KAPTUR, Ohio                 HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana        FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York            JAMES T. WALSH, New York
 JOSE E. SERRANO, New York          DAVID L. HOBSON, Ohio
 ROSA L. DeLAURO, Connecticut       JOE KNOLLENBERG, Michigan
 JAMES P. MORAN, Virginia           JACK KINGSTON, Georgia
 JOHN W. OLVER, Massachusetts       RODNEY P. FRELINGHUYSEN, New Jersey
 ED PASTOR, Arizona                 TODD TIAHRT, Kansas
 DAVID E. PRICE, North Carolina     ZACH WAMP, Tennessee
 CHET EDWARDS, Texas                TOM LATHAM, Iowa
 ROBERT E. ``BUD'' CRAMER, Jr.,     ROBERT B. ADERHOLT, Alabama
Alabama                             JO ANN EMERSON, Missouri
 PATRICK J. KENNEDY, Rhode Island   KAY GRANGER, Texas
 MAURICE D. HINCHEY, New York       JOHN E. PETERSON, Pennsylvania
 LUCILLE ROYBAL-ALLARD, California  VIRGIL H. GOODE, Jr., Virginia
 SAM FARR, California               RAY LaHOOD, Illinois
 JESSE L. JACKSON, Jr., Illinois    DAVE WELDON, Florida
 CAROLYN C. KILPATRICK, Michigan    MICHAEL K. SIMPSON, Idaho
 ALLEN BOYD, Florida                JOHN ABNEY CULBERSON, Texas
 CHAKA FATTAH, Pennsylvania         MARK STEVEN KIRK, Illinois
 STEVEN R. ROTHMAN, New Jersey      ANDER CRENSHAW, Florida
 SANFORD D. BISHOP, Jr., Georgia    DENNIS R. REHBERG, Montana
 MARION BERRY, Arkansas             JOHN R. CARTER, Texas
 BARBARA LEE, California            RODNEY ALEXANDER, Louisiana
 TOM UDALL, New Mexico              KEN CALVERT, California
 ADAM SCHIFF, California            JO BONNER, Alabama                 
 MICHAEL HONDA, California          
 BETTY McCOLLUM, Minnesota          
 STEVE ISRAEL, New York             
 TIM RYAN, Ohio                     
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 BEN CHANDLER, Kentucky             
 DEBBIE WASSERMAN SCHULTZ, Florida  
 CIRO RODRIGUEZ, Texas              

                  Rob Nabors, Clerk and Staff Director

                                  (ii)




                             C O N T E N TS

                               __________
                                                                   Page

Quality of Life..................................................     1

Veterans Affairs.................................................   105

American Battle Monuments Commission.............................   169

Arlington National Cemetery and United States Soldiers' and 
  Airmen's Home National Cemetery................................   182

Armed Forces Retirement Home.....................................   197

United States Court of Appeals for Veterans Claims...............   218

Inspector General................................................   235

Central Command..................................................   349

VA Medical Care..................................................   389

Navy.............................................................   445

Pacific Command..................................................   515

Air Force........................................................   587

Outside Witnesses................................................   651

Veterans Affairs Information Technology..........................   895

DoD Overview.....................................................   949

Army.............................................................  1035

European Command.................................................  1083

Southern Command.................................................  1139

Special Operations Command.......................................  1169

Testimony submitted for the record...............................  1205

                                 (iii)


     MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2009

                               ----------

                                        Thursday, February 7, 2008.

                           UNITED STATES ARMY

                                WITNESS

KENNETH O. PRESTON, SERGEANT MAJOR OF THE ARMY

                       Statement of the Chairman

    Mr. Edwards [presiding]. Let me officially open the new 
year for our subcommittee. I want to welcome the witnesses and 
everyone here today.
    I am Congressman Chet Edwards, and this is my second year 
as the subcommittee chairman of Military Construction and 
Veterans Affairs Appropriations Subcommittee. It is a real 
pleasure for me to welcome back to our subcommittee Congressman 
Zach Wamp, who is a personal friend of mine. Zach and I have 
served in the House together for a number of years, including 
on the Appropriations Committee. He is not a new face to this 
subcommittee, previously served on this subcommittee. He has 
also been a ranking member of the Legislative Branch 
Appropriations subcommittee.
    Zach, welcome here. It is just great to have you. I know of 
your long record of commitment to veterans and their families 
and our troops and their families. We are honored to have you 
with us.
    Mr. Wamp. Thank you.
    Mr. Edwards. Would you like make an opening statement right 
now?
    Mr. Wamp. Go ahead, Mr. Chairman. I will go when it is my 
turn.
    Mr. Edwards. Judge Carter, welcome back.
    Mr. Carter. Thank you, Mr. Chairman.
    Mr. Edwards. Good to have you.
    Let me also make some other introductions and make a few 
comments as we begin here, before we have the testimony. I want 
to introduce the staff that is so critical on this 
subcommittee. We thank them. I consider the staff to be without 
equal of the committee staffs in the Congress, and we are proud 
to have them as our partners.
    I want to mention that Martin Delgado is not new to the 
Appropriations Committee, but new to this Appropriations 
subcommittee. Martin, where are you? Welcome. It is great to 
have you here.
    I also welcome back Liz Dawson, and I want to welcome Kelly 
Shea, who will work on the minority side. But let me say that 
one of the proud traditions of this subcommittee, and I know 
Zach and I want to continue this, is our tradition of working 
on a bipartisan basis. When it comes to taking care of veterans 
and our troops and their families, there is not a Democratic or 
a Republican program. They are programs for the great men and 
women who are sacrificing so much for our country.
    On the majority side, it is a true honor for me to work 
with critically experienced staff. Carol Murphy is our chief 
clerk. Carol? And we have Mary Arnold, who for nearly 20 years 
had a view of the basement of the Rayburn Building. Her view is 
now out on the mall of the United States Capitol, so life has 
improved for Mary. She does an outstanding job of handling the 
administrative work of the subcommittee.
    Tim Peterson and Donna Shahbaz, both have done outstanding 
work on Veterans' Affairs work. And then Walter Herne, who is 
by my side, who is just an experienced, talented, hardworking 
leader on military construction issues. So I know I speak for 
Zach and me, and he will comment later I am sure, but we 
consider it a real privilege to work with such a critical, 
professional, bipartisan staff. That is one of the real keys to 
the successes we have had in past years.
    In terms of our track record last year, let me just say for 
the record, we make this subcommittee by working together on a 
bipartisan basis. Truly, by any standard, we accomplished a 
great deal. First and foremost, we provided an additional $11.8 
billion beginning with the fiscal year 2007, that continuing 
resolution, the Iraq war supplemental, and then the fiscal year 
2008 appropriation bill.
    Together, we provided the largest single-year increase in 
the VA's entire history, and made critically needed investments 
in healthcare facilities, research, and claims processing for 
veterans. Our bill passed the House by an overwhelming vote of 
409-2, and we are going to try to work on those two this year 
and see if we can get that. But I think that vote is a 
reflection of the great tradition that we continued last year, 
with this committee working for the benefit of our veterans and 
our troops, not for partisan motivations.
    We have a great record to build on and we are going to keep 
fighting for veterans and the quality of life for servicemen 
and-women and their great families.
    To our witnesses, let me say that it is not by happenstance 
that we asked you to honor us by being the first witnesses in 
the first hearing each year, because over the years we have 
found that our top noncommissioned officers have been the most 
effective voices for our servicemen and-women and their 
families. There are probably times where you have the right to 
wonder when you leave this room, well, did anybody hear me or 
not? Let me just tell you tangibly that many of the 
accomplishments for military construction and our troops were 
the result of your previous testimony.
    Specifically, very specifically, it was your testimony over 
the last 2 years that convinced this subcommittee to make a new 
initiative, the Military Family Initiative, where you told us 
that one of the top quality of life challenges was finding 
affordable, accessible healthcare for families that are 
sacrificing an awful lot with the kind of op-tempo we are 
facing. As a result of your testimony, we put together $130 
million for 16 new childcare centers. Three of those were in 
the administration request, and 13 of those were added by this 
subcommittee. So we do listen to you. Your testimony is very 
important and that is why we are so glad to have you here 
today.
    Before we proceed in terms of introductions of our 
witnesses, let me offer the floor and room to my colleague, Mr. 
Wamp. Again, welcome to this great subcommittee. Welcome back.

                Statement of the Ranking Minority Member

    Mr. Wamp. Mr. Chairman, it is hard to put in words the 
emotion that I felt yesterday and today as I met these four 
great Americans one-on-one in my office and listened to their 
stories and asked about their lives, and realized that they 
represent so many that are willing to lay it on the line for 
our country and our freedoms and the principles that we hold so 
dear. Their faces and their eyes and their ears, and just 
listening to your lives, and each of you with a 30-plus year 
commitment to the service that you are in, at the ground level. 
It is just an inspiration.
    So I want to open by thanking you for your service and 
every single person that you represent for their service, 
saying that in my professional life outside of my wife and 
kids, this is the highest honor and the greatest privilege that 
I have ever had to be associated with this committee and the 
work that it is tasked to do, to serve those who serve our 
country.
    It reminds me of William Wilberforce when they asked him 
about the leadership role he wanted to take in the Parliament 
in Great Britain, and he basically said he wanted to be the man 
who served the men who influenced the nation, and not 
necessarily the man who influenced the nation, but the man who 
served the men who influenced the nation. That is the role that 
I feel like I can play.
    Chairman Edwards is exactly the right guy for his party to 
put in this chair at this moment in history because he is a 
patriotic blue dog Texas Democrat who appreciates the military 
and their role every minute of every day. I am just so honored 
to be at his side in a minority role to support the bipartisan 
work of this committee.
    I was born at Fort Benning, Georgia when my dad was on 
active duty, and my older brother cost $8 to be born and I cost 
$12 to be born. [Laughter.]
    My parents often joke if they got their money's worth. 
[Laughter.]
    My nephew is at Camp Bucca outside Baghdad right now with 
the First Field Artillery Brigade of the Tennessee National 
Guard. My other nephew will graduate boot camp at Parris Island 
3 weeks from tomorrow. That makes this close to home. It is an 
honor. It is a high privilege. This is such an important time. 
I want to commend Mr. Wicker, who is now a senator, and 
certainly the chairman, and this new majority, for the 
commitment that they made to these priorities last year, 
because I think that helped us bring the Congress together so 
that we could speak with one voice standing behind the men and 
women in uniform.
    When I heard these four leaders yesterday give personal 
examples and stories of what these dollars are doing for the 
quality of life, and how much better housing is today than when 
I served on this committee in 1997 and 1998, how many more Job 
Corps centers there are, and how many things that were 
absolutely unacceptable that are much better today, even though 
we have so many more needs and we are stretched so thin, and we 
are experiencing the pain of multiple long-term deployments. 
Yet, the quality of life is improving so that we can retain and 
recruit the best Americans in this all-volunteer force.
    It bodes well. We have a lot of work to do. I am committed 
to partnering with you. I understand going in that I am joining 
the best staff front office on Capitol Hill, either side, any 
committee, with this committee here. And man, it is a great 
opportunity to serve.
    Mr. Carter, Ms. Granger, Mr. Young, Mr. Crenshaw and I, 
this is a pretty good minority team we have over here, Mr. 
Chairman. So we look forward to working with you and the 
majority team in getting this work done. What a pleasure. I 
couldn't ask for more. I am grateful for the opportunity----
    Mr. Edwards. Very eloquent statement. Let me add to what he 
said about Mr. Wicker. We will miss Mr. Wicker, but he left an 
indelible mark for our veterans and our service-members and 
their families by his great leadership. I know he will continue 
that commitment in the Senate. Thank you for saluting him.
    At this point, let me go through some brief introductions. 
Understandably, if I were to give each of the witnesses the 
entire biography, we would be here most of the afternoon, 
because they would not have the positions they had it not been 
for an unbelievable distinguished record of accomplishment and 
service. I will introduce all four of you and then we will go 
to the opening statements.
    The first witness I would like to introduce is the sergeant 
major of the Army, Sergeant Major Ken Preston. He is a 
returning witness, and was sworn into his present position on 
January 15, 2004. He has over 32 years of service in the Army. 
Thank you for those 32 years, sergeant major. He served with 
the First Cavalry Division at Fort Hood; was command sergeant 
major for the Combined Joint Task Force 7 in Baghdad prior to 
becoming sergeant major of the Army.
    I anticipate Sergeant Major Preston will introduce them 
formally, but let me also note that there are others that are 
here that I want to recognize. Please excuse me up front, but I 
do want to note and salute their service, and thank them for 
being here: Command Sergeant Major John Gipe from the National 
Guard; and Command Sergeant Major Leon Caffie from the Army 
Reserve. Thank you both. We know this is a total Army today, 
and thank you for your tremendous leadership, for being here.
    Sergeant Major of the Marine Corps Carlton Kent. Sergeant 
Major Kent is a new witness. We hope you will choose to come 
back again.
    Sergeant Major Kent. I will do that, sir. [Laughter.]
    Mr. Edwards. You are in a friendly environment here, 
sergeant major. He became sergeant major of the Marine Corps on 
April 25, 2007. Congratulations to you for that distinct honor. 
He has over 31 years of service in the Marines. He served as 
sergeant major of the Marine Forces Europe and the First Marine 
Expeditionary Force at Camp Pendleton prior to his current 
position. Welcome.
    Master Chief Petty Officer of the Navy Joe Campa, Jr. We 
are sorry that your son could not be with us again this year, 
but you tell him we are thinking about him today. It was great 
having him here----
    Master Chief Campa. Thank you, sir.
    Mr. Edwards [continuing]. At your testimony last year. The 
master chief's wife, Mrs. Campa, is here. Mrs. Campa, where are 
you? I want to especially thank you. In my book, military 
spouses and children are the unsung heroes and heroines of our 
nation's defense, and we don't often enough thank you. While 
you may not wear the nation's military uniform, you serve and 
sacrifice every day. Thank you to you and your children for 
their contributions to our defense. In thanking you, we want to 
share that respect for every other military spouse here, or 
anywhere in our country. Thank you, Mrs. Campa, for being with 
us today.
    Master Chief Campa has 27 years of service in the Navy. He 
served as command master chief for the USS Curtis Wilbur and 
the USS Frank Cable, and command master chief of Joint 
Taskforce Guantanamo, and is a graduate of the Naval War 
College. Welcome back again.
    Master Chief Campa. Thank you, sir.
    Mr. Edwards. Chief Master Sergeant of the Air Force Rodney 
McKinley is a returning witness. Welcome back to the 
subcommittee. He was appointed on June 30, 2006 to his present 
position, and now has 28 years of service in the Air Force. He 
has served as command chief master sergeant at major wing 
command levels, and was deployed to Southwest Asia in support 
of OEF and OIF. Thank you for that, as well as your 
distinguished service as well.
    Thank you all for being here. Without objection, your full 
testimony will be submitted for the record. I would like to 
begin now and recognize you. If you could keep your testimony 
to approximate 5 minutes we will then turn it over to members 
for questions and discussion.
    Sergeant Major Preston.


             statement of sergeant major kenneth o. preston


    Sergeant Major Preston. Mr. Chairman, Congressman Wamp, 
committee members, thanks very much for the opportunity to sit 
before you today and represent the men and women of America's 
Army. Your support this past year has continued to support us. 
Your support today has had a tremendous impact on the Army. On 
behalf of the soldiers and their families and Army civilians, I 
want to start by saying thank you for what this committee has 
done for all of them out there, not only over the time that I 
have been up here and testified, but for all the years before 
this, so thanks very much.
    Mr. Edwards. Thank you.
    Sergeant Major Preston. I have with me today, sir, you have 
introduced the command sergeant major of the Army National 
Guard, Command Sergeant Major John Gipe. He is the senior 
enlisted adviser for Lieutenant General Clyde Vaughn, Director 
Army National Guard. And I have, of course, Command Sergeant 
Major Leon Caffie, who is the senior enlisted adviser for 
Lieutenant General Jack Stultz, Chief, for the Army Reserve.
    Both of them represent our citizen soldiers, and they 
represent 50 percent of America's Army. They play a vital role 
in defending our nation. Your Army today has more than 250,000 
soldiers forward-deployed to 80 countries around the world. We 
have more than 142,000 soldiers currently deployed in Iraq, 
Kuwait and Afghanistan.
    General Casey early in his tenure as the Army chief of 
staff searched for a way to describe the state of the Army, and 
he used the term ``out of balance.'' We are not broken or 
hollow, but the conditions of persistent conflict have strained 
our Army resources. Those resources are our soldiers, our 
families and our equipment. These resources are strained to a 
point where we are consumed by the demands of the current 
conflict and cannot do all the things we need to do to sustain 
the force and prepare for the future.
    With your continued support, we intend to restore balance 
to the Army. Our recruiting and retention programs are a 
success. Last year, we recruited over 170,000 men and women, 
and reenlisted more than 127,000 soldiers. We appreciate your 
continued support to our efforts, as they allow us to sustain 
the quality of the all-volunteer force.
    We are seeing indicators of stress on the force as we enter 
the 7th year of the Global War on Terror. Increases in suicides 
and post-traumatic stress disorder cases are two of these 
indicators. Our Army soldier and family programs mitigate these 
stresses, and we continue to resource and support these 
critical programs and initiatives. Last year, sir, Congress 
funded $900 million toward traumatic brain injury and post-
traumatic stress disorder. I want to say thank you up front for 
that support.
    Your support has provided improvements to the equipment, 
soldier and family housing, soldier barracks, child and youth 
programs, pay gains, and a host of other important quality of 
life initiatives. I ask your support for one more critical 
quality of life issue, medical care. Soldiers and families 
routinely identify access to quality medical care as a priority 
for them, and a primary reason they opt to stay with the Army 
team.
    We have invested heavily this past year in caring for our 
wounded warriors returning from combat. The medical challenges 
we faced a year ago were not limited to Walter Reed. We cannot 
have consistent world-class healing environments without proper 
investment in medical facilities and improved quality and 
access to care. Our medical facilities are well maintained and 
operated, but they are old and not configured or constructed to 
provide the full range of treatments available in modern 
medical facilities. Our soldiers and families deserve the best 
access and quality of care that we can provide, and I ask your 
support in achieving this goal.
    Over the last 4 years, one of the top five recommendations 
from our soldiers has been the transfer by soldiers of their GI 
bill benefits to their families. The 2002 National Defense 
Authorization Act gave the services the authority to allow 
service-members the ability to transfer Montgomery GI bill 
benefits to their spouses and children. This act allows spouses 
to begin using benefits immediately, while children have to 
wait until the soldier has completed 10 years of service.
    I ask for your support in amending the law to allow the 
transfer of benefits to eligible children when needed, without 
the prior 10-year waiting period, and your consideration of 
providing funding for this initiative. We would also at a 
minimum like this law to immediately apply to the spouses and 
children of fallen soldiers. That is really where we see the 
emphasis in order to help.
    Mr. Chairman, committee members, thank you, and I look 
forward to your questions.
    [Prepared Statement of Sergeant Major Kenneth O. Preston 
follows:]

[GRAPHIC] [TIFF OMITTED] T2754A.001

[GRAPHIC] [TIFF OMITTED] T2754A.002

[GRAPHIC] [TIFF OMITTED] T2754A.003

[GRAPHIC] [TIFF OMITTED] T2754A.004

[GRAPHIC] [TIFF OMITTED] T2754A.005

[GRAPHIC] [TIFF OMITTED] T2754A.006

[GRAPHIC] [TIFF OMITTED] T2754A.007

[GRAPHIC] [TIFF OMITTED] T2754A.008

[GRAPHIC] [TIFF OMITTED] T2754A.009

[GRAPHIC] [TIFF OMITTED] T2754A.010

[GRAPHIC] [TIFF OMITTED] T2754A.011

[GRAPHIC] [TIFF OMITTED] T2754A.012

[GRAPHIC] [TIFF OMITTED] T2754A.013

[GRAPHIC] [TIFF OMITTED] T2754A.014

[GRAPHIC] [TIFF OMITTED] T2754A.015

[GRAPHIC] [TIFF OMITTED] T2754A.016

    Mr. Edwards. Thank you, Sergeant Major.
    Sergeant Major Kent.
                              ----------                              

                                        Thursday, February 7, 2008.

                       UNITED STATES MARINE CORPS


                                WITNESS

CARLTON W. KENT, SERGEANT MAJOR OF THE MARINE CORPS

              Statement of Sergeant Major Carlton W. Kent

    Sergeant Major Kent. Thank you, Mr. Chairman, Congressman 
Wamp, and all the members for what you do for our service-
members today.
    At the Marine Corps, we are focused on taking care of our 
warriors and their families. That is the key for us, especially 
in operational tempo that stresses the force that equates to 
stress on the families. With their contribution to the mission, 
comes great sacrifice, and our families can be the most brittle 
part of the deployment equation.
    It is our moral obligation as a Marine Corps to ensure that 
their needs are provided for. I am pleased to report that the 
Marine Corps continues to make positive changes for Marines and 
their families that will benefit them for generations to come. 
We are making investments in our quality of life, and 
particularly our family support programs. Actions are underway 
to broadly refresh, enhance and improve installation 
infrastructure and support mechanisms.
    Additionally, housing and infrastructure are key quality of 
life components. Marines and their families are grateful for 
your continued support and attention to the condition and 
states of our housing, our barracks, our childcare centers, 
dining facilities, and fitness centers. Particularly, we are 
most appreciative of your attention to the barracks and your 
support of the commandant's bachelor quarters. Barracks are a 
critical element in supporting our warfighters. Providing 
appropriate and comfortable living conditions positively 
impacts the morale and the development of these dedicated young 
men and women.
    On behalf of your Marines and their families, I thank you 
for being such strong quality of life advocates. Your 
unwavering support and interest in the welfare of Marine 
families continues to be vital to our mission accomplishment. I 
have submitted my written statement for the record, and I look 
forward to your questions.
    [Prepared Statement of Sergeant Major Carlton W. Kent 
follows:]

[GRAPHIC] [TIFF OMITTED] T2754A.017

[GRAPHIC] [TIFF OMITTED] T2754A.018

[GRAPHIC] [TIFF OMITTED] T2754A.019

[GRAPHIC] [TIFF OMITTED] T2754A.020

[GRAPHIC] [TIFF OMITTED] T2754A.021

[GRAPHIC] [TIFF OMITTED] T2754A.022

[GRAPHIC] [TIFF OMITTED] T2754A.023

[GRAPHIC] [TIFF OMITTED] T2754A.024

[GRAPHIC] [TIFF OMITTED] T2754A.025

[GRAPHIC] [TIFF OMITTED] T2754A.026

[GRAPHIC] [TIFF OMITTED] T2754A.027

[GRAPHIC] [TIFF OMITTED] T2754A.028

[GRAPHIC] [TIFF OMITTED] T2754A.029

[GRAPHIC] [TIFF OMITTED] T2754A.030

[GRAPHIC] [TIFF OMITTED] T2754A.031

[GRAPHIC] [TIFF OMITTED] T2754A.032

[GRAPHIC] [TIFF OMITTED] T2754A.033

[GRAPHIC] [TIFF OMITTED] T2754A.034

[GRAPHIC] [TIFF OMITTED] T2754A.035

[GRAPHIC] [TIFF OMITTED] T2754A.036

    Mr. Edwards. Thank you very much, Sergeant Major.
    Master Chief Campa.
                              ----------                              

                                        Thursday, February 7, 2008.

                           UNITED STATES NAVY


                                WITNESS

JOE R. CAMPA, JR., MASTER CHIEF PETTY OFFICER OF THE NAVY

       Statement of Master Chief Petty Officer Joe R. Campa, Jr.

    Master Chief Campa. Thank you.
    Mr. Chairman, Congressman Wamp, distinguished members of 
the subcommittee, thank you for the opportunity to speak today. 
It is with great pride that I come before you on behalf of our 
Sailors and their families. Joining me is my wife, Diana. In 
addition to being my wife and the mother of my children, she 
serves as the Ombudsman-At-Large for our Navy, representing 
over 223,000 Navy families. Also joining me is the Force Master 
Chief of our great Navy Reserve, Master Chief Dave Pennington.
    From combat operations to humanitarian relief efforts, our 
Sailors continue to meet the high expectations the American 
people have of them in defense of our great nation. I wish to 
express their gratitude for the hard work of Congress in 
supporting the many initiatives over the last year that have 
directly improved their quality of life. Our Navy has moved 
beyond the blue waters of our oceans, and as of January this 
year has contributed over 63,000 individual augmentees since 
the beginning of ground operations in Iraq and Afghanistan.
    Due to the high demand of our maritime forces and with the 
continued role of these non-traditional ground support 
missions, pillars of support such as healthcare, childcare and 
housing are more critical than ever. My wife Diana and I have 
seen firsthand the impact on family stability and peace of mind 
that these traditional pillars of support provide when a Sailor 
is deployed.
    Navy families are strong, resilient and proud of their 
contributions during this critical time in our nation's 
history. Surge deployments, individual augmentation, and duty 
in places our Navy has never been has resulted in the need for 
strong family support. The programs and initiatives we 
presently have in place to support our families must continue 
to evolve as the needs of our families change.
    In my travels throughout the fleet, I continue to be 
inspired by the dedicated efforts and the patriotism of all our 
men and women. They are succeeding because they believe in who 
they are and in what they do. Our total force of active duty 
and Reserve Sailors continues to rise to the challenges of 
world events, as they always have. They do this because they 
are keenly aware of the trust, confidence and responsibility 
that the American people have in them, and because they believe 
in the rich tradition of our Naval service.
    Mr. Chairman, committee members, I am honored for the 
opportunity to speak here today, and I look forward to your 
questions. Thank you.
    [Prepared Statement of Master Chief Petty Officer Joe R. 
Campa, Jr. follows:]

[GRAPHIC] [TIFF OMITTED] T2754A.037

[GRAPHIC] [TIFF OMITTED] T2754A.038

[GRAPHIC] [TIFF OMITTED] T2754A.039

[GRAPHIC] [TIFF OMITTED] T2754A.040

[GRAPHIC] [TIFF OMITTED] T2754A.041

[GRAPHIC] [TIFF OMITTED] T2754A.042

[GRAPHIC] [TIFF OMITTED] T2754A.043

[GRAPHIC] [TIFF OMITTED] T2754A.044

[GRAPHIC] [TIFF OMITTED] T2754A.045

[GRAPHIC] [TIFF OMITTED] T2754A.046

[GRAPHIC] [TIFF OMITTED] T2754A.047

    Mr. Edwards. Thank you very much, Master Chief.
    Chief Master Sergeant McKinley.
                              ----------                              

                                        Thursday, February 7, 2008.

                        UNITED STATES AIR FORCE


                                WITNESS

RODNEY J. McKINLEY, CHIEF MASTER SERGEANT OF THE AIR FORCE

         Statement of Chief Master Sergeant Rodney J. McKinley

    Chief Master Sergeant McKinley. Good afternoon, Mr. 
Chairman and committee members. I am honored to speak to you on 
behalf of the 685,000 Airmen proudly serving our nation. They 
are active, Guard and Reserve, officers and enlisted and 
civilians. I am honored to collaborate with my fellow warriors 
on quality of life issues impacting all our military members 
and their families.
    Sir, I want to thank you and this committee for your 
invaluable support. Thank you for supporting pay raises and 
continuing reenlistment bonuses. We are having successes with 
our privatized housing efforts, and we appreciate the authority 
you gave us to pursue this new avenue to better house our 
Airmen and their families. Thank you for visiting our wounded 
warriors and their families, and thank you especially for 
taking time and effort to visit our deployed Airmen, Soldiers, 
Sailors, Marines and Coast Guardsmen.
    Your efforts pay huge dividends for all military personnel 
and their families. Because we are an all-volunteer force and 
because the Air Force mission especially depends on highly 
educated, trained and focused and experienced Airmen, your 
support has a direct impact on our recruiting, retention and 
overall combat readiness. America's Airmen are in the fight.
    Our Airmen have been continuously and globally engaged in 
combat and contingency operations for over 17 years, from 
Operations Desert Shield and Desert Storm, throughout the 
1990s, to ongoing engagements in the Global War on Terror. In 
total at any given moment, over 208,000 active duty Guard and 
Reserve Airmen directly contribute to combatant commands, 
contingency operations, humanitarian efforts, and joint and 
coalition combat operations around the world.
    Spreading their wings over America following 9/11, Airmen 
of Operation Noble Eagle continue to protect our nation's air 
corridors and maritime approaches, having flown more than 
51,000 missions. Nearly 7,000 Airmen continue to serve in lieu 
of ground component personnel in Iraq, in addition to the 
27,000 Airmen deployed to 112 worldwide locations to fight in 
the Global War on Terror.
    They are taking the fight to the bad guys. Over the past 12 
months, Air Force strike missions against enemy locations and 
forces have increased 171 percent in Iraq and 22 percent in 
Afghanistan, proving their effectiveness in counterinsurgency 
operations. But we also believe the maxim: Where there are 
roads, there is progress. Therefore, your Airmen have directly 
taken on projects to rebuild Iraq and Afghanistan, building 
schools, digging wells, building roads, rebuilding lives, 
winning trust, and forging enduring relations. Our Airmen 
interact daily with allies in host nations, and they showcase 
America's image of strength, freedom and hope.
    Quality of life is key to success. Our Airmen deserve the 
best support available, and we are committed to providing the 
highest quality of life standards possible, a commitment that 
points to our recruiting and retention successes. Our 
recruiting standards remain high. We have achieved tremendous 
recruiting success and continue to select airmen from among the 
most educated, motivated and highly qualified volunteers. 
Knowledge and innovation are hallmarks of Air Force heritage 
and service culture. We are particularly focused on training, 
education and professional development. Our Airmen are the most 
highly educated in our nation's history. We firmly believe this 
is an indicator of future mission success.
    America's Airmen now receive core and expeditionary 
knowledge and skills training throughout every phase of their 
career. We are also offering more numerous and specialized 
educational opportunities along the way. We are emphasizing 
post-deployment, support, and in assisting Airmen as they 
reunite with their families and return to their communities.
    We have had considerable success in providing care and 
assistance to severely injured Airmen and their families. We 
want to build upon those successes with more job placement, 
education and training opportunities for these great Americans. 
The civilian job market actively seeks our trained and 
technically qualified Airmen. We must continue to offer viable 
and competitive reenlistment bonuses and special duty pay in 
our critical job areas to retain our qualified Airmen.
    We appreciate continued congressional support as we work to 
meet our retention goals and resolve shortages we have in some 
critical Air Force specialties. Additionally, every Air Force 
leader understands we recruit Airmen, but we retain families. 
Airmen retention in the Air Force and effectiveness in 
executing their mission and professionalism representing 
America to the world directly reflects how well we support them 
and their families.
    We strongly advocate education and employment initiatives 
specifically targeted to mitigate some of the economic 
challenges our military families currently face. Nearly half of 
all service-members are married and have children. And of 
course, these families move frequently, this means things such 
as transfer of school credits, in-state tuition eligibility, 
and professional credentials for military dependents can become 
particularly difficult for military families and can easily 
affect a service-member's decision to continue serving.
    We are eager to work with Congress and the states to find 
solutions. Our Airmen and fellow service-members should never 
have to choose between caring for their family and serving 
their country.
    Mr. Chairman, we are working hard to continually improve 
how we develop and care for our Airmen and their families, with 
emphasis on families. Our base commanders and their local 
service providers are, of course, on the frontlines of our 
efforts to maintain and improve services to our Airmen, their 
families, veterans and retirees. Local control of real property 
and resources, combined with the natural responsiveness of 
direct customer feedback, has proven to be the most effective, 
efficient way for service providers to respond to customers' 
needs, prioritize projects, and tailor services.
    We are preparing for tomorrow's challenges. We must set 
conditions today to realize future victories. Nearly 17 years 
of continuous global operations have put extreme stress on our 
people and equipment. It has become exceedingly difficult, 
costly and time consuming to maintain aircraft and equipment of 
declining military utility. These are frustrations I hear and 
see every day, especially from our deployed airmen. Quality 
equipment and work environment have a lot to do with job 
satisfaction, and therefore impact morale and retention.
    To successfully meet future challenges, maintain our 
advantages, and maximize results, we must keep pace with the 
talent of our 21st century Airmen and ensure they have the best 
equipment, facilities, and resources available. With your 
continued support, we will maintain and sharpen our nation's 
global vigilance, global reach and global power advantages, 
America's edge.
    In closing, Mr. Chairman, I want to thank you and the 
committee again for the outstanding support you extend to all 
service-members and their families. We fully recognize the link 
between readiness and the issues that extend from our Airmens' 
quality of life, to their duties around the world, on the 
flightline, in the operations centers, and on the battlefield. 
America's Airmen, your Airmen, stand shoulder to shoulder with 
their fellow American warriors defending this great nation and 
our way of life.
    A new generation of America's Airmen continues to do what 
our Airmen have always done in peace, conflict, crisis and war. 
They set conditions for success across the entire spectrum of 
military operations. It has been more than a half-century since 
an American service-member has been attacked from the sky. 
Today, the airspace is secure.
    Thank you again for the opportunity to appear with my 
fellow warriors and represent America's Airmen before you 
today. I look forward to your questions.
    [Prepared Statement of Chief Master Sergeant Rodney J. 
McKinley follows:]

[GRAPHIC] [TIFF OMITTED] T2754A.048

[GRAPHIC] [TIFF OMITTED] T2754A.049

[GRAPHIC] [TIFF OMITTED] T2754A.050

[GRAPHIC] [TIFF OMITTED] T2754A.051

[GRAPHIC] [TIFF OMITTED] T2754A.052

[GRAPHIC] [TIFF OMITTED] T2754A.053

[GRAPHIC] [TIFF OMITTED] T2754A.054

[GRAPHIC] [TIFF OMITTED] T2754A.055

[GRAPHIC] [TIFF OMITTED] T2754A.056

[GRAPHIC] [TIFF OMITTED] T2754A.057

[GRAPHIC] [TIFF OMITTED] T2754A.058

[GRAPHIC] [TIFF OMITTED] T2754A.059

[GRAPHIC] [TIFF OMITTED] T2754A.060

[GRAPHIC] [TIFF OMITTED] T2754A.061

[GRAPHIC] [TIFF OMITTED] T2754A.062

[GRAPHIC] [TIFF OMITTED] T2754A.063

[GRAPHIC] [TIFF OMITTED] T2754A.064

[GRAPHIC] [TIFF OMITTED] T2754A.065

    Mr. Edwards. Thank you.
    Thank you all for your excellent statements, and even more 
importantly, for your lifetime of service to our country.
    Chief Master Sergeant McKinley, to test the effectiveness 
of your testimony today, while you were speaking about the need 
to try to guarantee in-state tuition, an amendment that Ms. 
Boyda and I had cosponsored on the Higher Education 
Reauthorization Act passed while you were speaking, that will 
say if your son or daughter has started college with in-state 
tuition, and then our country has asked your family to move to 
another state, your child will be able to continue in-state 
tuition at that college. Or if you are living at a post or 
serving at a military installation in any state in the country, 
you will qualify for in-state tuition. There are five states 
that don't even allow you to get in-state tuition even if you 
are living in that state as a result of your military service, 
so very effective testimony. [Laughter.]
    Thank you for mentioning that.
    Let me welcome Mr. Crenshaw and Mr. Young and Mr. Bishop.
    Before I make a few administrative comments, Chairman 
Young, we are so honored that you are on this subcommittee 
again this year. There is no member of this House, Democrat or 
Republican, who has done more for military families than you 
have as chairman of the full committee, and as ranking member. 
I would like to recognize you if you would like to make any 
comments before we start our 5-minute round.
    Mr. Young. No, sir. I will wait my turn.
    Mr. Edwards. Okay. A humble servant of our military. Thank 
you for being here, and thank you all for being here.
    Just a couple of administrative things, if I could, since 
this is our first hearing of the year. Everyone knows the 
process. We are going to begin every subcommittee hearing on 
time out of respect to the witnesses' time and schedules, and 
respect to other members' schedules.
    In terms of the questions, we are going to recognize 
members after the ranking member is recognized. We will go 
through questions based on seniority, based on whether you were 
here at the start of the meeting, and if you weren't here when 
we started the meeting, your order of questioning will be based 
on the order in which you came into the room.
    The only other administrative point I wanted to mention, 
out of respect, again, to everybody's time, is that we have 
invested in high technology this year. This is our 5-minute 
clock. What I am going to do is just do a light tap when a 
member's time is down to 1 minute left, and I will do a total 
tap when there are 5 minutes. I will ask each member if they 
can finish that thought or sentence quickly.
    At this point, I think it would be appropriate to start the 
first questions of this committee year with our ranking member, 
Mr. Wamp.
    Mr. Wamp. You are too gracious. One thing that I observed 
yesterday meeting with you, and then listening today, is that 
in the 10 years since I last served on this subcommittee, two 
things I think are profound. I may be wrong, but I think that 
these branches of our armed forces cooperate more today than 
they did 10 years ago.
    I was taken back 10 years ago to how much competition there 
was, and frankly sometimes that was pointed-elbow kind of 
competition. It sure does seem to me, and there are issues we 
will talk about today and in the future where you cooperate a 
whole lot more and are sharing a whole lot more, and more like 
a combined force team. I know war has a way of bringing people 
together, but it is noticeable.

                             FAMILY HOUSING

    The second thing is that the whole concept of privatizing 
housing and improving the housing on-base and off-base, off-
post, dramatically has changed. This was just beginning to 
start in 1997 and 1998 when I was on the subcommittee.
    So I want to start on that front and let each of you, say 
what is happening with housing and how important it is. I know 
Sergeant Major Kent, you told me a story yesterday about Camp 
Lejeune, I think.
    Sergeant Major Kent. Yes, sir.
    Mr. Wamp. And the radical transformation just in the last 
few years of housing, and what a difference it makes either 
retention or recruitment in knowing where you are going to live 
and where your wife and children or husband and children may be 
when you are away.
    Do you want to start?
    Sergeant Major Kent. Yes, sir. I will tell you, you know, I 
mentioned a story yesterday to the congressman. I mentioned I 
was stationed at a place called Camp Lejeune. It was Midway 
Park, back in the early 1980s. If you had seen that housing 
back then, I will tell you. That housing was some housing that 
no one wanted to live in. And just about a month ago I went 
past that same housing and that housing was torn down and brand 
new housing is up. If you asked the average Marine what do you 
think about housing today, they will tell you that it is the 
best of the best.
    We have our junior Marines living in housing today that 
would not touch the housing anywhere else. I will also tell you 
that the family members are very honored to live in the 
housing, and it is because of the members sitting here today, 
that the Marines and their families are able to live in such 
great housing. I would like to personally thank you for that. 
But we still have some work to do, so we are looking forward to 
it, but I will tell you today's housing is right on the mark.
    Mr. Young. Mr. Chairman, if I might?
    Mr. Edwards. Yes, absolutely.
    Mr. Young. I have met with the chiefs of the enlisted ranks 
prior to the meeting. We are meeting with the surgeon generals 
on the very important subject of PTSD, so I am going to go over 
to the other subcommittee and may have a few questions for 
them.
    Mr. Edwards. Mr. Chairman, are there any questions you 
would like to ask?
    Mr. Young. I am advised that the surgeon generals have 
already begun their testimony. I am sorry. I want to welcome 
these guys here. They are good. I had a chance to visit with 
them in the office personally. My wife can tell you some 
stories about a couple of them.
    [Laughter.]
    Thank you.
    Mr. Edwards. Thank you.
    Mr. Wamp. Well, then moving beyond housing, we may come 
back to that, but let me also ask, and I want to start, again, 
with you Sergeant Major Kent, because you have to grow your 
force rapidly.
    Sergeant Major Kent. Yes, sir.

                         HIGH SCHOOL GRADUATES

    Mr. Wamp. And I know we are not going to get into specifics 
of the president's budget request, but I was fascinated 
studying it on the dollars that go with this rapid increase 
here, and there are changes across the board. I want to get to 
the Air Force and the reductions in the president's budget 
request may be in the second or third round.
    But Sergeant Major Preston has had a challenge maintaining 
high school graduation rates in the Army, so that we can keep 
the quality as we meet the needs and face the challenges. So 
for both of you all, how do you ramp up that quickly and 
maintain that level of proficiency? And then how are you doing, 
Sergeant Major Preston, at continuing to improve that level of 
high school graduation rates among the people you enlist?
    Sergeant Major Kent. Sir, I would love to start. First of 
all, on the recruiting piece, we are doing really, really well. 
We are maintaining the standard. We have 96 percent high school 
grads, close to 96 percent. That says a lot about our force out 
there that is finding these young individuals and bringing them 
in. And we have some great individuals out there that actually 
want to join the Marine Corps.
    We are giving some type of bonuses to individuals in 
critical jobs just to get them in, but it is not a vast amount 
of money. I will tell you, our recruiters are selling a title, 
not the money. They are saying, okay, if you want to earn the 
title, you join the Marine Corps. I can tell you, last fiscal 
year which ended September 30, our goal was to increase by 
5,000, which would have put us at 184,000 Marines. But our 
recruiting force did better than that. They got us at 186,000 
Marines in the Marine Corps. So we are ahead by 2,000 Marines 
right now.
    And we are not low on quality, gentlemen. I can guarantee 
you that. Our commandant has made his focus at not lowering the 
quality in the Corps.
    Mr. Wamp. Sergeant Major Preston.
    Sergeant Major Preston. Sir, last year we recruited as an 
Army: active, Guard, and Reserve; 170,000 soldiers. 
Specifically, when you look at the active duty Army, 80,000 
soldiers, and 79 percent were high school graduates. The rest 
were GED equivalents. So as far as the standards for coming in, 
the quality that is there, they all met the DoD standard that 
is established. They all have to have a high school diploma 
graduate or the equivalent to come into the force.
    In the past, our benchmark has been 90 percent high school 
graduates, with 10 percent GED equivalents. As I said, we 
dropped to 79 percent that were high school graduates last 
year. But when you look across the force, there are five 
categories--category one through category five. We take no one 
from of category five. Historically, we have always limited 
ourselves to 4 percent or less in category four, and everybody 
else comes from category one through three. We are still on 
that benchmark.
    The only thing that we missed this last year was the drop 
in the high school graduates versus the GED equivalent. There 
are a lot more initiatives out there. We have a lot of 
recruiting programs that we put into place. We are now 
partnering with the Army National Guard and the Army Reserve. 
There are a couple of programs out there I will just talk about 
very quickly.
    When you look at the number of noncommissioned officers we 
have out there today that are recruiting, we have almost 7,000 
recruiters out there for the active duty Army. There are about 
5,100 for the Army National Guard, and about 1,800 for the Army 
Reserve. We are going to partner with those Army National Guard 
and Army Reserve recruiters. Under the Active First program, we 
are offering bonuses for young men and women to come in to 
serve anywhere from 2, 3, or 4 years in the active duty Army, 
and then once they finish that commitment, to transfer into the 
Army National Guard and the Army Reserve. So there are a lot of 
programs out there that we are working.
    Mr. Wamp. I need to go over my time by a few seconds.
    Mr. Edwards. The ranking member has that right, so very 
good. Take whatever time you need.
    Mr. Bishop.

                 PROGRAMS FOR VICTIMS OF SEXUAL ASSAULT

    Mr. Bishop. Thank you very much, Mr. Chairman.
    Gentlemen, thank you for your appearance. I, too, have an 
obligation across the hall at the other hearing with the 
surgeons general, but the testimony here is somewhat similar.
    The first thing I would like to get to, though, is on the 
Marine Corps particularly, but it will affect all of you 
gentlemen, I think, the recent murder of Lance Corporal Maria 
Lauterbach, with the investigators stating that the base 
authorities didn't consider Corporal Laurean, who was suspected 
of murdering her, and also accused of raping her at Camp 
Lejeune base.
    Can you explain once the services have someone accused of a 
sexual assault or domestic violence-type offense, what the 
military does to protect the victim? And is there a general 
policy for a victim of sexual assault or domestic violence? 
What kind of rights do they have? Do you have specific 
programs?
    Obviously, I assume that you have medical care, but if you 
could comment on that. And how do you deal with sexual assaults 
in combat zones? And what are the command responsibilities 
under those circumstances?
    Sergeant Major Kent. Thank you, sir.
    First of all, sir, that was a tragedy that happened to 
Corporal Lauterbach. But I will also tell you, sir, that we 
have some things in place starting with the leadership. If 
someone is accused of doing something that is sexual assault to 
an individual in the Marine Corps, first of all, the command, 
they will start and they will separate the individuals. Then 
from there, it is an investigation that will be started. From 
that investigation, it comes out, sir, then they decide if they 
put what we call a military order on this individual to ensure 
that this individual does not go up to the victim or anywhere 
close to the victim.
    I cannot really talk about this case because it is still in 
the legal process right now, but I can tell you, sir, there 
were things in place to actually protect the corporal. But I 
will also tell you that we are on top of this thing right now, 
and also with the state officials and federal officials. 
Legally, you know, I just don't want to touch on the process 
because there are a lot of legal things going on, sir. But I 
will also tell you that if a victim is accused of doing 
something, well, if someone is accused of doing something to 
the victim, then that person is separated from that victim, and 
then we start the legal process.
    Mr. Bishop. Does that pertain to the other services also?
    Sergeant Major Preston. Yes, sir. Sir, just to add to what 
Sergeant Major Kent said, we have trained advocates in all of 
our units, to specifically handle and work with a victim of 
sexual assault. We also have victim assault coordinators on our 
posts and installations. There are many different assets 
available to victims.
    And of course, to be able to sit down with a victim and to 
talk about confidentiality, or to open an investigation, the 
victim coordinator walks the individual through that whole 
process. We have had a lot of success over the last year since 
putting those programs into place.
    Master Chief Campa. For the Navy, sir, we have a similar 
process. Of course, you want to protect the victim. One of the 
things that is often put in place is a Military Protective 
Order that is issued by the Commanding Officer that directs the 
person that has been accused to stay away from the victim. On 
similar things, a command investigation is initiated, but like 
the Army, we have sexual assault victim advocates that work 
with the victim and help take them through the process. Those 
sexual assault victim advocates are members of the command, but 
we also have further resources at our Fleet and Family Support 
Centers that support that whole process.
    Chief Master Sergeant McKinley. Sir, in the Air Force, we 
have sexual assault response coordinators. If there is a sexual 
assault or sexual whatever, the member gets a person appointed 
to them, and we follow up with that person to make sure that 
they have someone they can continually talk to. Every Airman in 
the Air Force gets sexual assault prevention training every 
single year. We make sure this is a focus item on all 
commanders' calls. We have hotlines for anybody to call to have 
someone talk to them at any time. So we take this very 
seriously, and I think we are doing a good job on this right 
now.
    Mr. Bishop. Thank you.
    Is my time up?
    Mr. Edwards. Yes.
    Mr. Bishop. Okay.
    Mr. Edwards. Thank you, Mr. Bishop.
    Judge Carter.

                     POST-TRAUMATIC STRESS DISORDER

    Mr. Carter. Thank you, Mr. Chairman.
    Last year, we talked a lot about PTSD. We talked about 
health services for our military, the very sad story about the 
Marine who committed suicide while waiting in line to get 
treated. I think we all reacted very positively and attempted 
to try and do something about that.
    With the 15-month deployments and the other stresses that 
are being placed upon our military, I would like to know how 
you feel about this mental health component. Are we making 
progress on the things we talked about last year, and I would 
like to hear from you about that.
    Sergeant Major Preston. Sir, I will start. We started this 
last year specifically for post-traumatic stress disorder and 
mild traumatic brain injuries. We did a chain teaching program 
across the Army. It ran from July to October of 2007. 
Specifically, we started with the senior leadership, leaders 
taking their soldiers, their subordinate leaders, and that was 
driven all the way down to the lowest levels of command, down 
at the company and platoon levels.
    But the intent was to get leadership talking about the 
symptoms of mental health and post-traumatic stress disorder. 
But more importantly, what that chain-teach does is open the 
doors for soldiers within those commands to understand that 
their leadership supports the program. It helps break that 
stigma and the fear for a soldier to go and ask for help.
    We still see some stigma out there to seek help coming back 
for post-traumatic stress disorder, but it is a stigma that is 
two-sided. It is from an individual perspective, where an 
individual perceives that if he or she asks for help, they are 
seen as being weak, or that they are not effective as a 
soldier. And likewise, there is still a stigmatism out there 
where the individual perceives that their leadership would 
think less of them as a soldier, and potentially impact them 
for assignments and promotions.
    But we have a number of programs out there. The chain-teach 
was very effective last year to really drive that down to the 
lowest levels. You are a help, this committee, and the 
investment that has been put into hiring those healthcare 
professionals has also been a big help.
    Sergeant Major Kent. On PTSD, sir, I will tell you. The 
Sergeant Major hit it right on the head. It has to start from 
the top, the leadership. Our Commandant has focused on telling 
Marines it is okay to come forward. It is okay to come forward 
with your families. I will tell you, that message is throughout 
the Marine Corps. It used to be a stigma out there, and I can 
tell you, if you were to ask me back in 2001, sir, I would tell 
you that it was not good to come forward because it was a sign 
of weakness.
    Now, I would tell you, I know senior leaders in the Corps 
that have come forward and said ``I have PTSD.'' So it is 
really a positive change.
    Master Chief Campa. Sir, we work very closely with our Navy 
and Marine Corps team, starting with our Navy Corpsmen that 
receive training in how to identify these things. In the Marine 
Corps, they have units embedded at the battalion level that 
work with Marines in early identification.
    We, this last fiscal year, have put 13 post-deployment 
Healthcare Clinics in fleet concentration areas and Marine 
bases. But in addition to that, it is the education piece, in 
educating the senior enlisted, our officer community, and in 
our troops in general, in changing how it is viewed, and 
changing that culture. That is probably the most challenging 
piece. We could throw all the money and resources that we have 
at it, but until we change that culture, we are not going to 
get very far. But having said that, I think we are on the path 
to doing that.
    Chief Master Sergeant McKinley. Sir, I would like to add, I 
think the committee does a lot in helping with this PTSD, and 
we have come a long way. We can't rest on our laurels. We don't 
really know the effects down the road of how many troops are 
going to have PTSD. We are doing some great things. I know at 
Ramstein Air Base, Germany, the staging facility there, as many 
of our wounded are coming back, you know, we try to do surveys 
to find out PTSD from the beginning, but we also have to follow 
it. We have to keep investing and researching on PTSD.
    Also, we need to invest and go out and recruit and properly 
train mental health professionals. That is a key to make sure 
we have those professionals out there in our units to be there 
for counseling.
    Mr. Carter. Well, I think that is good news. The 
(INAUDIBLE) that came up last year, (INAUDIBLE). Right now, we 
ask them to come back and give us a statement. The one we heard 
was check, check, check, check, and go home. And the suggestion 
was that maybe in-theater, with their direct superiors. They 
also might be inquired of before they come back home. Is there 
any of that going on or is that being worked also?
    Sergeant Major Preston. Sir, in-theater, several things 
happen. One is the training to help soldiers over there that 
are redeploying back to home station really understand the 
dynamics of what they are going to come through. I mean, out of 
a combat zone, being forward-deployed, coming back home again, 
and re-integrating back with the family and back with their 
post, camp, or station.
    But then it is also the re-integration assessment. There is 
a health assessment. Specifically, they sit down and they have 
a chance to talk with a healthcare provider before coming back. 
And then we are also doing reassessment 90 to 120 days once 
they get back.
    Mr. Edwards. Thank you, Judge Carter.
    Mr. Crenshaw.
    Mr. Crenshaw. Thank you, Mr. Chairman.
    And again, thank you all for being back. Good to see you 
again.
    Just to follow up on the question about PTSD, it is my 
understanding that not only you encourage people to talk, to 
kind of talk about it, but are we doing what we should be doing 
in kind of making everyone aware? It is almost like treatment 
is one thing, but finding out early, kind of self-diagnosis, or 
just understanding what it is. I imagine a lot of people, you 
can ask a lot of questions, and they don't know exactly what 
you are getting at.
    Is it something we ought to be looking at in terms of just 
some of the basic training in all the new age of terrorism, all 
the new things we are doing in the various services? Is that 
something? Are we doing enough to kind of help people 
understand what it is on the front end, so that maybe they 
recognize it in themselves? Not just not be afraid to stand up 
and say ``here is the way I feel,'' but maybe even help him 
understand where he is on the front end, to see it is common 
and it is all part of that being able to come forward. Are we 
doing enough there, do you think?
    It sounds like we are recognizing the problem. I just want 
to make sure that we kind of can catch it on the front end 
maybe, as opposed to waiting until everything is over and 
somebody comes home and so many questions they are asking, and 
you realize, good grief, this stuff has been building up. Can 
you touch on that?
    Sergeant Major Kent. Well, we actually educate them through 
the chaplains, medical and the leadership, sir. I mean, down at 
the lowest level, to the squad leader level, it is education 
all the time. I will tell you, even family members, we bring 
them in and we educate them. And people are getting a full 
understanding of this PTSD. So I am confident.
    Mr. Crenshaw. That is good to hear. You know, I imagine we 
start out that you didn't recognize it, and then all of a 
sudden 20 years later, somebody--it sounds like we are really, 
because I know that is on the forefront of a lot of the members 
and has been for the last couple of years, so I think that is 
wonderful.
    Sergeant Major Preston. Sir, one of the things that we are 
doing is we have introduced what we call Battlemind training. 
It starts in basic training for new soldiers coming in the 
Army. It is done for those soldiers as part of the unit 
organization prior to them deploying. It also is done, too, for 
the post-deployment, coming back from the deployment. It really 
helps soldiers, not necessarily telling them what to think, but 
how to think, and how to understand the dynamics of what is 
going on, the anxiety, and what they are feeling inside and how 
to overcome that and work through it. That has been very 
successful the last 2 years since it was introduced. It has 
continued to grow and we have expanded on those programs.
    Master Chief Campa. The education--Sergeant Major brought 
up a good point in educating the family members to recognize 
those things also. One of the things that we have tried and I 
think we need to strengthen in this area is our Reserve Force, 
because those folks, instead of coming back to a fleet 
concentration area where they are around those great networks 
of support, they go back oftentimes to the heartland of 
America, and we don't see them as often. So there is follow-up 
with them, but that is an area that we still need to strengthen 
our connection with those folks as they re-integrate back into 
the society and go back into their civilian jobs.

                         QUALITY OF HEALTHCARE

    Mr. Crenshaw. Okay. Let me ask you a quick question about 
just healthcare in general. Everybody touched on it. It is 
something that everybody knows and understands. I know that 
along with our DoD colleagues, we have done a lot in the past 
few years just to improve the quality of the healthcare that 
folks get in the military. When I talk to the senior civilians 
and officers, they seem to agree. I certainly see that, but I 
don't get to always talk to the enlisted guys that you talk to 
every day.
    I would like to hear what you all have to say, because it 
is interesting to me not only because I am on this committee, 
but I come from Jacksonville, Florida, where we have a military 
hospital and there have been some big high profile medical 
malpractice situations. So it is on people's minds in terms of 
what is the quality of healthcare.
    So talk a little bit about it, and maybe mention your 
overall assessment, what maybe one or two things you think you 
are doing well, that you hear you are doing well, and maybe one 
or two things that maybe from time to time you hear a guy 
saying maybe I wish they did better. I know they are talking 
about OB/GYN, having babies, but apart from that, just the 
general quality of healthcare, give me your general assessment 
and where you think we are doing good and where you think we 
can do better.
    Sergeant Major Kent. I will speak on the positive first, 
sir, and that is the wounded warriors. I will tell you, our 
wounded warriors are getting great healthcare. As we visit 
them, even family members, they say this is the best healthcare 
in the world. And that is the positive.
    A negative is the family, as far as them getting in, and 
they need appointments, it could take a long time for them to 
get an appointment on a military installation, so they have to 
go outside most of the time, because we have a shortage of 
doctors, and that is the issue, sir.
    Sergeant Major Preston. Sir, healthcare is the number one 
concern when you talk to family members. It is accessibility 
and the quality of the care. A lot of the facilities on-post, 
not necessarily the doctors, but also the facilities are 
conditioned to providing the care that they need, so of course 
you push them off to civilian communities. One of the things as 
I look at it, we have 25 major hospitals or medical centers in 
the Army, and of the 25, 8 of the 25 are now over 50 years old, 
and another 11 are somewhere between 25 and 50 years old. So 
there are aging medical facilities.
    On the good side, the Army medical action plan, what we 
have done over the past years to take care of the wounded 
warriors and to get the care, to rehabilitate, get more of them 
back on duty, or to help them with their transition, has been 
very positive.
    Chief Master Sergeant McKinley. Sir, I would like to just 
briefly talk about the great job the medical community is doing 
in taking care of the wounded warriors. If we get the wounded 
to a medical treatment facility, they now have a 97 percent 
chance to survive, which is unbelievable. We have Critical Care 
air transport teams that get them back stateside very quickly.
    I have flown on those missions and I have seen the 
capabilities of what they do. It is absolutely incredible, from 
the battlefield to the time that we now can get them stateside 
for medical treatment is about three days, versus in the 
Vietnam era, it was about three weeks. They are doing a 
fantastic job on the medical side.
    One area in the Air Force where we do need some help is, 
once again it goes back to equipment. Our equipment is aging. 
We need to update all of that.
    Master Chief Campa. Sir, I will just add something real 
quick. I don't hear very many complaints on the quality of care 
within our military treatment facilities. I don't. I know the 
cases you are speaking of that might have blocked out a lot of 
press attention. What I do hear complaints about is the access 
to care when a family member cannot get into that military 
treatment facility, understanding the process outside of that.
    There is frustration at times with understanding that. So 
what do they do? They go into the emergency room, and then that 
creates a whole other problem. So the education piece, and 
maybe improving how we do that is something that is a 
consistent theme that I hear. My wife and I recently had some 
calls with the family members, and that was one of the big 
frustrations--accessing the care.
    Mr. Crenshaw. Thank you.

                     TOP QUALITY OF LIFE PRIORITIES

    Mr. Edwards. Thank you.
    Let me follow up on that. Sergeant Major Preston, you 
already mentioned healthcare as the number one concern. The 
question I would like to ask each of you, and I would ask again 
now, is if you think of the quality of life concerns that you 
hear from the men and women you represent and their families, 
aside from pay and time away from family--we know how important 
pay is and we know you can't put a price tag on the time away 
from family--but on the quality of life issue we can have a 
great impact in this committee, and the Defense Appropriations 
committee. We have a lot of members on this committee that also 
serve on Defense Appropriations.
    Let me ask you, among the choices of healthcare, housing, 
daycare and education--those four--which would you rank as your 
top three? Healthcare, housing, daycare and education? And if 
there is another one you would put in the top three that I 
didn't mention, please feel free to do that.
    Sergeant Major Preston, we will start with you, and then 
just go down the line.
    Sergeant Major Preston. Well, probably the one, sir, that I 
would say now is healthcare, waiting to get into it.
    Mr. Edwards. I heard that at Fort Riley. Okay.
    Sergeant Major Preston. Childcare is number two, and we 
have been working that very hard this past year. And education 
has always been an issue. We specifically look at soldiers and 
families, and education is a big priority. It is continuing 
education for the soldiers. It is also education for the 
children.
    Mr. Edwards. Okay. How about, do you know how many soldiers 
are living in barracks today that don't meet Army standards for 
barracks?
    Sergeant Major Preston. Right now, today, for permanent 
party, 35,400.
    Mr. Edwards. So there are 35,000 soldiers.
    Sergeant Major Preston. About 35,000 soldiers.
    Mr. Edwards. About 35,400 that are not living in barracks 
that meet the Army 1-plus-1 standard?
    Sergeant Major Preston. Yes, sir.
    Mr. Edwards. Okay.
    Sergeant Major Kent.
    Sergeant Major Kent. Sir, I would first of all say housing 
is number one. The reason housing is number one, when I speak 
of housing, sir, I am talking about the single Marine barracks. 
We need to really focus on the single Marine barracks. I spoke 
with you about some barracks up at Camp Pendleton that a Marine 
made a comment, ``I would rather be over in Iraq than to be 
living in the barracks here,'' which is a flat-top single 
barracks. So our focus is taking care of the single Marine 
barracks. That would be number one.
    Mr. Edwards. Do you happen to know the number, and it is 
okay if you don't, that are inadequate?
    Sergeant Major Kent. Inadequate? It would probably be about 
3,300, sir.
    Mr. Edwards. About 3,300.
    Sergeant Major Kent. Yes, sir.
    And then the second one would be healthcare.
    Mr. Edwards. Because of the waiting lines?
    Sergeant Major Kent. Yes, sir.
    Mr. Edwards. Not the quality so much as the waiting.
    Sergeant Major Kent. Yes, sir.
    Mr. Edwards. Okay.
    Sergeant Major Kent. And then third would be childcare, 
building more childcare facilities, and then the last one would 
be education, sir.
    Mr. Edwards. Okay. And not to downplay education. We know 
anything less than third or fourth ranking, our military troops 
and families ought to get quality services in all four of these 
areas, but this does help get a sense of priorities.
    Master Chief Campa. Yes, sir. I would have to say that 
number one would be childcare consistently just about 
everywhere, especially in our fleet concentration areas. Number 
two, I would say access to health care. And number three would 
be our single Sailors that live onboard ship. We have a program 
called Homeport Ashore. We still have 9,000 Sailors across our 
Navy that still live onboard ship, junior Sailors, when that 
ship is in port.
    Congressman Wamp asked me the other day, we talked about 
the USS HARRY S. TRUMAN. I talked to the Command Master Chief 
this morning. They are at sea, and I asked him, out of your E4 
and below that would qualify to live in single Sailor barracks, 
how many do you have living there. He has none, because that 
program hasn't affected that command yet. We have plans to do 
that, but he cites that as his number one quality of life 
issue. They remember your visit. So he has about 600 that would 
benefit from that program. So those USS HARRY S. TRUMAN Sailors 
when they get back from their deployment, those that live 
onboard the ship will continue to live there when they get back 
in home port.
    Mr. Edwards. Would you happen to have a number, an estimate 
of the number of sailors living in housing that doesn't meet 
the standard set by the Navy?
    Master Chief Campa. The DoD standard is 90 square feet. We 
have a hard time meeting that standard because we typically put 
two and sometimes three in a barracks room, but it far 
surpasses the quality of life of having to live onboard that 
ship, but I could get you some numbers.
    [The information follows:]

    The number of shipboard unaccompanied Sailors currently living in 
inadequate BEQ conditions, as defined by either two or more per room or 
less than 90 square feet per sailor, is approximately 4,700.

    Mr. Edwards. Okay, if you could. We do appreciate it.
    Chief Master Sergeant.
    Chief Master Sergeant McKinley. Yes, sir. Without question, 
I would put number one as childcare. From base to base that I 
visit, that is the number one thing that always pops up. There 
are not enough spaces available. As I said earlier, with so 
many military working together on active duty in the Air Force, 
and also spouses having to work, not having the spaces 
available on base, it makes them go downtown, and some of the 
costs are just enormous. That would be number one.
    Number two, I would continue on with healthcare. Our focus 
is always taking care of the wounded and so forth, and making 
sure that we are taking care of PTSD, traumatic brain injury, 
securing a good future for the wounded after their injuries and 
so forth, but also making sure that we update our facilities as 
we go. We can go out and hire the healthcare professionals, but 
we do have some intruding issues with getting the doctors and 
dentists and so forth. So I think that would be number two.
    And number three is, education. I think that that probably 
might fly down the list a little bit after the good news that 
you gave us today, but continue to make sure that we go and we 
take care of students as they transfer from state to state, 
that they don't drop a grade lower because they didn't 
transfer. And also the possibility of the Montgomery GI bill 
that we can pass on to spouses and family members, that would 
be a great benefit to all Airmen.
    Mr. Edwards. Good. By the way, there are 17 states that 
will start charging out-of-state tuition if your son or 
daughter started college at a state university in that state, 
and then you were re-stationed in another state. In fact, I got 
some very powerful letters from some servicemen and -women 
whose children had to drop out of the college of their choice 
for the reason that our country asked their family to move to 
another place in service to all.
    Thank you all for that testimony.
    I would like to go to Mr. Wamp.
    Mr. Wamp. Well, two quick points, and two quick questions. 
One thing I will tell the master chief of the Navy is that they 
don't have enough space to live in, but they sure do eat well. 
[Laughter.]
    Master Chief Campa. Yes, sir.
    Mr. Wamp. It doesn't matter how far out to sea they are, 
they eat really well.

                           GUARD AND RESERVE

    Also, I want to make a point, looking at the 2009 budget 
request, of how grateful I am that the president recognizes 
these needs, and that he also recognized that the increases 
that the new majority put in last year become the new baseline, 
and that we don't retreat from where we got to. That hasn't 
been discussed, but I want to lay that out and compliment him, 
while he doesn't get many compliments much from some people, 
but I want to point that out.
    Because we are starting from a good place, because he 
recognized that what was done here last year was necessary, and 
then goes forward above that in his budget request does go 
forward. There are a few areas that Chairman Edwards has 
already brought to my attention that we are going to need to 
look at hard, to adjust, but overall I am pleased to be 
starting at that point.
    The third big area that has changed in 10 years for me is 
that 10 years ago the Guard and Reserve forces were not 
partnered with our active duty men and women, and today they 
are, big time. I heard that all day yesterday from you all. I 
just want to ask you in general, what are you doing? Sergeant 
Major Preston introduced the command sergeant major 
specifically with the National Guard, but what ways do you make 
sure that the Guard and Reserve know that the focus is not just 
on the active duty and this really is a partnership, and that 
everybody frankly is pulling the same wagon with the same 
string?
    Sergeant Major Kent. Sir, I can start off.
    Mr. Wamp. Sure.
    Sergeant Major Kent. Sir, first of all, it actually starts 
in boot camp. Every Marine is a Marine. Once they graduate, 
there is no separation between the Reserve and Active. And that 
is the focus coming out of boot camp. You are a United States 
Marine.
    From that, I mean, they go through the same training. Once 
they get called back on active duty, they go through the same 
training, and they get trained up to go forth. So we just let 
them know that they are a Marine first. We don't separate them 
at all, sir, and that is where we keep the focus.
    Sergeant Major Preston. Sir, same thing. All of our 
soldiers are all treated the same, and of course now with the 
Global War on Terror and with the way we are using the Guard 
and Reserve, it is really going in there and expanding on all 
the family programs and the services that are available for the 
Guard and Reserve to make it the same. It is one team. It is 
one fight.
    Master Chief Campa. Yes, sir, we could not do our mission 
if it wasn't for our Navy Reserve. When I go out and visit 
Sailors in-theater, onboard ships, you can't tell the 
difference between an active duty Sailor and a reserve Sailor. 
They provide that same quality-level of service across the 
board.
    But we take a different approach to our reserves over the 
last few years in how we train them. Gone are the days where 
they come to a reserve center and sit around and just give 
classes. They are out there doing meaningful training, mission-
specific training, and it is paying off tremendously as we 
integrate them into the total force.
    Chief Master Sergeant McKinley. Sir, I said it from the 
beginning. I represent all Airmen--active, guard and reserve. 
The Air Force is committed to total force integration. If you 
are flying a C-17 airlift, whatever, you don't know if that is 
a guard, reserve or active duty person on there flying that 
plane, and you really don't care because they are out there 
doing a mission. They are fully integrated and fully trained. 
We could not survive without total force integration.

                              JOINT BASING

    Mr. Wamp. Chief Master Sergeant McKinley, there may not be 
time to finish this question, but maybe on the third round you 
could continue, but I want to go ahead and start. I talked 
about the cooperation but there is one big issue that I don't 
think we have total agreement on, and that is joint basing. I 
know that it certainly affects the Air Force in a big powerful 
way.
    Can you just share a little bit without getting yourself in 
trouble what you shared with me yesterday? [Laughter.]
    Chief Master Sergeant McKinley. Thank you, sir. [Laughter.]
    You know, we as the Air Force are fully committed to joint 
basing. Anytime that we can get together in bringing all four 
branches of service together, to find ways to be more 
efficient, to spend the taxpayers' dollars more wisely, we are 
all for that. But I would also like to say that for the Air 
Force, one of the great recruiting and retention tools that we 
have is the quality of life, the standards that we have had on 
bases for a long period of time. And this didn't happen 
overnight.
    We have invested in the quality and standards of our bases 
for decades, and we just want to be able to maintain those same 
standards, sir.
    Mr. Wamp. And point out that you fight from those bases. 
You operate from those bases.
    Chief Master Sergeant McKinley. Yes, sir. That is where we 
train. That is where we get ready to go to war. That is why we 
need to make sure that that base is ready and fully capable. 
And we put a lot of money, a lot of emphasis, in taking care of 
those individual bases.
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Edwards. You bet. Thank you, Mr. Wamp.
    Judge Carter.

                   INTEGRATED FAMILY SUPPORT NETWORK

    Mr. Carter. Thank you, Mr. Chairman.
    Getting back to some of the challenges, I would encourage 
everybody that you talk to, my wife has a saying in Dutch that 
says it's not the mountain that you have to climb that gets 
you, it is the grain of sand in your shoe.
    It is the little things that can make families irritable, 
make soldiers and Marines and airmen worried about what is 
going on back home. And all of those little things are not that 
hard to fix. For example, I have a bill right now that we 
discovered that spouses have a hard time getting jobs--a pretty 
simple little thing we put in already for convicted felons when 
they get out of prison, is we give a one-time tax benefit to 
the employer who will hire that convicted felon. Well, if they 
can do it for convicted felons, I certainly think they ought to 
be able to it for our military personnel. Give a one-time tax 
benefit to the employer who hires them. I think that allows 
more jobs----
    I got that. So I got the wife of a soldier telling me that 
when her husband transfers, he gets to claim Fort Hood as his 
home base, so he is taxed under Texas law. This means he 
doesn't have an income tax. But when they get transferred to 
Virginia, she pays the income tax, and he doesn't, because he 
gets to claim Texas as his home and home base. To me, that 
seems fairly easy to fix, to allow the spouses also to claim 
the home base of the soldier.
    Soldiers are making good economic decisions on their future 
by doing that. These are little things. So if you have those 
little things, I would sure like to hear about some of them 
that can help--the tuition issues. Another one, General Taylor 
tells me all the time, is the students that are halfway through 
high school in North Carolina and then they get transferred to 
Texas, and they have all these things they lose, and their high 
school friends. We need to work out a uniformity for our 
military personnel on that, and I would like to hear anything 
you have to say about those kind of things. I am just looking 
for more avenues to help.
    Sergeant Major Preston. Sir, I will just talk a little bit 
about the new rolling out this year of our Army's integrated 
family support network. One of the things that families of 
soldiers told General Casey and Mrs. Casey as they came on as 
the chief of staff is that the Army has a lot of great 
programs. Instead of adding more programs, fund the programs we 
have. There are a lot of programs out there that in the past 
were funded at 100 percent, and we have talked about childcare, 
and we have talked about housing and barracks.
    Of course, there is a lot of investment now going in this 
year to bring that up to the levels that we want to achieve. 
But the Army's integrated family support is really a star-gate 
portal to pull together all the quality of life issues out 
there, and really push that information out to families.
    You specifically talked about spouse employment. We have 
partnered now with 31 different companies out there. These are 
Fortune 500 companies that are giving spouses preference for 
hiring. One of the companies out there that I am very proud of 
is the Army-Air Force Exchange which gives preferential hiring 
to military spouses, and that is on-base, as well as those 
Fortune 500 companies that you find off-base, like Home Depot 
and Sprint and those kind of things.
    So there are a number of those programs out there working 
very hard. You listen to what soldiers and families out there 
want, and then you try to put those programs in place, but the 
Army integrated family support network, it's really getting the 
information that is available out to the families. That is one 
of the things now that we are going to work at pushing that 
information out there to make more awareness.
    Sergeant Major Kent. Spousal preference, sir, as far as a 
federal job. When a spouse leaves from one duty station to go 
to another, and she is a GS worker, most of the time that 
spouse has to start all over again. You know, continuing moving 
up the ladder, they have to start from scratch. We have gotten 
a lot of feedback from spouses in reference to how can we fix 
that.
    Mr. Carter. (OFF MIKE)
    Sergeant Major Kent. Yes, sir.
    Master Chief Campa. Military spouses on average earn $3 
less an hour when they are employed, and they are also three 
times more likely to be unemployed, because of the fact that 
they move around. A lot of time they cannot take advantage of 
state-funded programs with job placement or job training 
because they are not a resident of that state. That is an area 
I think we can make a difference in also.
    The spousal preference in hiring is an initiative, but I 
think we need to make beyond the lifelines of DoD or the 
federal government and just create a greater awareness out 
there in the community about the talents that they have. There 
is a program that started this year. It is called Career 
Advancement Accounts. It started in eight states, 18 different 
military installations, which will give a military spouse 
$3,000 a year for education or vocational education. If they 
come back a second year, they can request to get a second year 
of funding.
    Now, from what I understand, it is supposed to be a 3-year 
pilot program, but the initial success of this program, the 
number of spouses going toward that, is very encouraging. It is 
focused to our spouses that are from E1 through E5, and I 
believe it is O1 through O3--a very great initiative. I think 
more publicity about that and programs like that would 
certainly help our military spouses.
    Chief Master Sergeant McKinley. Sir, I would like to echo 
what my peers have said. I would like to publicly thank all 
spouses for what they do to serve this great country of ours. 
They have sacrificed much and they do it silently. We have 
Permanent Change of Station (PCS) and travel so much, and many 
of them have passed on the opportunity to have a career because 
they know what we do is good for the country. We don't do 
enough for them. We need to find opportunities to employ them 
and thank them for the great service they give.
    Mr. Carter. Yes, sir. I agree.
    Mr. Edwards. Thank you.
    Before I recognize Mr. Crenshaw for his next round of 
questions, let me follow up on Mr. Wamp's comments about the 
president's request for daycare centers. For the record, 
compared to a 2008 request of $25 million to $26 million, the 
president for the 2009 budget has requested $168 million for 
daycare centers. So I don't know when you guys got into the 
Oval Office, but----
    [Laughter.]
    The president and the DoD leadership heard the daycare 
concerns that you mentioned.
    Mr. Crenshaw.

                       CHILD DEVELOPMENT CENTERS

    Mr. Crenshaw. Thank you, Mr. Chairman.
    On that point, in terms of childcare, we spent more money 
and now we are getting ready to spend even more money, but we 
are still not at a zero waiting list time. I just wonder, do we 
ever in localities where there is a long waiting list, do we 
ever outsource? Do we ever use some of the local daycare 
centers that are in the communities? And if we do that, I think 
that is appropriate, but how do we make sure that we have the 
same quality of care?
    And then maybe as you answer that question, what are some 
other options until we get, in terms of all the military 
construction we need, which is probably going to be--you know, 
it is always going to continue to grow and we may never get to 
the place where you don't have to wait. But if we are doing any 
outsourcing, are we making sure we have the same quality? And 
are there other options that we are looking at? I heard every 
one of you say you would rank it in the top two or three of 
issues.
    Can you talk a little bit about that? We know it is a 
problem, and appreciate that, and we are dealing with the 
construction side, but are there other things we can be doing?
    Chief Master Sergeant McKinley. Sir, I will start off. I 
know in the Air Force one of the things that we do is we kind 
of outsource to some spouses. We go out and we license them to 
make sure that they are ready to have a daycare set up in a 
room in a house for five or six children, whatever. We follow 
up and make sure they are educated and make sure this is a good 
home environment. So if someone cannot get on base, there are 
some opportunities that they can use some of these daycare 
spouses outside the gates.
    Master Chief Campa. Sir, in the Navy we have about 3,000 
home daycare homes set up, and that has been a successful 
program. But your comments about looking to the community, and 
this is something that I have asked about. Our standards for 
our daycare are very high. So as we go to look to the community 
to see that they have to meet state requirements, we have 
federal requirements that are higher.
    So when looking at this, we are looking for the options in 
trying to partner and leverage some of that that is out there, 
but some of the challenges are those higher standards that our 
daycares hold themselves to.
    Sergeant Major Kent. And that is the issue here, too, sir. 
We have a lot of home childcare, and it is working great in the 
Marine Corps. It really is. But the thing is just sourcing 
outside the base. Most of the spouses, they actually do the 
home, and it is working fine, but the issue is finding a great 
place outside the military installation.
    Mr. Edwards. Mr. Crenshaw, if I slow down the clock, would 
you mind if I piggybacked with you on that?
    Mr. Crenshaw. No, sir. Please.
    Mr. Edwards. On a recent trip to Fort Riley and Fort 
Leavenworth--and I need to check my facts on this--I was given 
the impression that the costs of childcare on a post come out 
of the MWR program. Is that correct? In effect, they have to 
pay for themselves. I may be mistaken there, but you know, we 
don't ask our military families to pay for 100 percent of the 
cost of their healthcare. At a time when we are asking our 
soldiers, sailors, Air Force and Marines to spend so much time 
away from family in Iraq and Afghanistan, it just doesn't make 
sense.
    If I am correct, if we are asking them to pay for in effect 
100 percent of the cost of childcare other than maybe the 
construction costs that we pay for up front, that seems 
somewhat unfair. Maybe we need to talk to our defense 
appropriators about subsidizing that, because even where we 
have childcare, apparently it can be very, very expensive. So 
we are trying to address the accessibility issue through this 
subcommittee in the president's budget request, but there is 
still the affordability issue. Can you shed any light on that?
    Sergeant Major Preston. Just from as far as on-post and 
off-post, we have for the married soldiers--67 percent of our 
married soldiers and their families live off the post. So 
naturally, you wouldn't want all your childcare centers on the 
installation. So we partner with those childcare centers that 
are off the installations. There is an accreditation process 
they go through to make sure that they meet the high standards. 
Of course we subsidize that, so what you would pay for 
childcare living on Fort Riley would be the same thing that 
someone would pay living off-post.
    Mr. Edwards. We purposely met with enlisted spouses, and 
many of these were first sergeant spouses, and they were having 
to pay $500 a month for childcare. On a sergeant's salary, that 
has got to be a pretty big hit. I hope that is something we 
could follow up on.
    Mr. Crenshaw, thank you for letting me in. You still have 
several minutes left.
    Mr. Crenshaw. Okay, good. [Laughter.]

                          FINANCIAL COUNSELING

    Let me ask on kind of a related issue dealing with finance. 
You know, when you ask the question, what are some of the 
issues--housing, healthcare, childcare--I don't know. You hear 
people say, well, one of the problems is just overall 
financing, and then it gets into this whole issue that we face 
in terms of payday loans. We finally, I think, got a handle on 
it to say, look, we are going to limit that to 36 percent. That 
is still pretty high, but before that it was a whole lot 
higher. If you ask them what the interest rate is and they say 
it is only 4 percent, and then they tell you that is 4 percent 
a week, and it is just astronomical.
    So I know that is brand new law and it has just kind of 
been put in place, but can you talk about now that we have 
that, are we trying to kind of offer financial counseling to 
some of these enlisted guys who probably aren't as savvy as 
they could be about finances. Now, they have some protection, 
but also like how we can deal with that alternatively within 
the services.
    But also, do we have any information yet on how it is 
working? I can envision a lender saying, well, I am not going 
to lend it to you because they capped me at 36 percent; I would 
rather go gouge somebody else; I can't gouge members of the 
military. And then you might envision some guy in the military 
saying, well, I really need to borrow the money, so I am not 
going to tell him I am in the military because then they won't 
lend me the money.
    Are we looking at ways to deal with that? We have that law 
in place, but it seems like we have a ways to go in terms of 
really helping folks understand this picture of finances.
    Sergeant Major Preston. Sir, it is education. It really 
starts from day one when we bring a soldier in going through 
basic training and advanced individual training. It is 
financial counseling. One of the things that I use as a 
yardstick to help gauge the successfulness of that training is 
the thrift savings program.
    We have had a very high success now with those soldiers 
that sit through the training that are investing in the thrift 
savings program. It is up to about 90 percent of those now 
investing. That has been a very successful program. Of course, 
we do financial counseling and training in all of our units and 
organizations. We also push that out and make it available for 
families as well.
    Mr. Crenshaw. Has anybody--can you comment--has anybody 
found any issues with now that we have the new payday loan cap? 
I mean, would it ever be too much of a reach for us to say in 
geographic areas, you hear about people that are members of the 
military, and when they go in, then you know they are members 
of the military and they know they can't be charged more. And 
if they try to get a loan by saying they are not in the 
military, can they kind of get around it on either side? Is 
there something we ought to be doing there, or is it too new to 
really know? Can you talk about that along the way?
    Sergeant Major Kent. It is actually new right now, sir. I 
know California is a high-cost place. It is actually working 
out there, because I will tell you a lot of those payday 
lenders outside of Camp Pendleton, they are feeling the pain. 
So thank you very much, gentlemen.
    But I will also tell you that it is the education process. 
It starts from day one. So that is the key, sir, is the 
education.
    Master Chief Campa. We are still assessing the impact that 
the law has had. I think it will take a little bit of time to 
see what the full impact is. I think if we start to see less of 
those institutions around our bases, maybe that will be an 
indicator, because if you go into Norfolk or one of the fleet 
concentration areas, you see those places. They are all around. 
So maybe as we see them disappear, that may be an indicator.
    But education--but an alternative for the Sailor also, and 
maybe the lending institutions that are on-base and looking at 
the ways that they lend to our Sailors, to provide an 
alternative instead of seeking those places outside the gate. 
Our Navy-Marine Corps relief has just started some quick 
assistance loans that are a lot easier to get than the loans 
that we traditionally give them. We typically make them go 
through counseling and try to get to the root of the problem. 
These quick-assistance loans are meant as a quick alternative, 
because you go into those places and you could walk out of 
there with money pretty fast.
    Chief Master Sergeant McKinley. Sir, the same in the Air 
Force. It is about education. We start it in basic training, 
technical school. They get to their first duty station, and the 
first term, Airmen center, we get them financial counseling 
from the very beginning. When the Airman moves into the dorms, 
the last thing we want him to do is go out and buy a 42-inch 
plasma TV in the dorm room and a brand new car with $350 a 
month car insurance.
    So we try to educate them on making wise choices, having a 
budget, setting up a savings plan and save for the future and 
not live for the moment.
    Mr. Crenshaw. Great.
    Thank you, Mr. Chairman.

                EFFECTS OF BASE REALIGNMENT AND CLOSURE

    Mr. Edwards. Thank you.
    Can I ask you about the challenge of BRAC on top of going 
forth, particularly going forth as it affects Marines and the 
Army? And then global repositioning, added to the fact that we 
have inflation factors for military construction projects that 
are far beyond the 2.4 percent inflation that the OMB 
bureaucrats dictate that we follow.
    Can you comment on whether there is a pattern of real 
shortages? If so, in what areas? Is it housing barracks 
particularly, as those installations that are growing as a 
result of BRAC and grow-the-force and global repositioning?
    Sergeant Major Preston. Sir, as you know, one of the 
biggest installations that is growing, that has seen a influx 
of soldiers and families is Fort Bliss, Texas. That will be the 
future home of the First Armored Division, and there will be 
six brigade combat teams going there.
    I sit down and I talk to the BRAC folks. Everything is 
online. When you go out there onto the airfield, behind the 
Sergeant Major Academy, that entire desert floor now is under 
construction. It is amazing to see the work that is going in. 
As for what is going on right now at Bliss construction-wise to 
take care of the brigade combat teams that are going to be 
based out of here, that is on-target.
    Mr. Edwards. Is there a lot of temporary housing, though, 
as troops are coming back from Iraq or Afghanistan, and being 
stationed out there and having to live in temporary housing?
    Sergeant Major Preston. Yes, sir. We have a brigade set of 
temporary barracks that we have used, and that is because 
military construction takes so long to get stood up. We are 
growing units quicker than we are building.
    I was just down at Fort Hood a couple of months ago and 
visited Third Brigade of the First Infantry Division. That 
brigade will be based out of Fort Knox, Kentucky. With the 
surge that went in last year, we knew that we needed that 
brigade a year sooner, which was originally planned to be stood 
up this year.
    The barracks and the facilities at Fort Knox are still 
under construction. We are standing that brigade up at Fort 
Hood, Texas, so that is where the brigade is going to be 
equipped, manned and trained. They will deploy, and then when 
they come back we will move that brigade to Fort Knox. So there 
is some of that transition that is going on out there.
    Money-wise, as I look at the BRAC moves, and it really 
involves Fort McPherson and Fort Gillem in Atlanta. I am told 
that is on track, but I have concerns because we are getting 
closer to 2011, and we haven't started construction yet for 
those headquarters and those facilities that have to move. But 
right now as I sit down and talk with the BRAC people, they say 
we are still on track and everything is in line.
    Mr. Edwards. Let me follow up and ask if particular 
communities such as Fort Bliss and Fort Riley and Fort Carson 
that are going to receive such an influx, and maybe we haven't 
seen all the largest numbers of influx yet, but have you seen 
or do you expect to see off-post housing rental rates and 
housing costs to go up dramatically? Is there any evidence of 
that?
    Sergeant Major Preston. We have seen some of that at Fort 
Riley--off-post, some of the rental rates going up. Right now, 
Fort Bliss and the city of El Paso, have been phenomenal. They 
have been a great city and they have really embraced the 
soldiers and the moves that are now starting to come in.
    I talked with some of the senior leadership there, the 
parent-teachers organization, with the school districts in and 
around Fort Bliss. There was initially concern. They have put a 
lot of teachers into the schools to prepare for the influx of 
children that were coming in. Of course, when we stood up 
Fourth Brigade of the First Cav Division down there a year go, 
a lot of the soldiers that moved from Fort Hood or new soldiers 
that were coming in, because they knew that they were deploying 
within a year, they elected not to bring their families.
    So we have seen some of that transition, where families 
have stayed in place at previous duty stations because they 
were going to a unit that was getting ready to deploy, they 
didn't elect to move. So that has kind of thrown some of the 
numbers off. In the case of El Paso and Fort Bliss, it has been 
a great partnership down there. At Fort Riley, we have seen 
some of the rental rates going up, but I know that the 
leadership has been working very closely with the city 
officials in and around the installation.
    Mr. Edwards. Wouldn't you say that is one item we ought to 
watch in this subcommittee at these bases, at these 
installations that are receiving a huge influx of Marines or 
soldiers. Is it barracks or is it single family housing off-
post that we need to watch? Or is it family housing? How much 
temporary housing for barracks or families? Is there one issue 
more than any other that you think we need to keep an eye on?
    Sergeant Major Preston. Sir, I would say single family 
housing. You know, we have some single senior noncommissioned 
officers that are living off-post. We are starting some pilot 
program: for privatization of single soldier quarters for 
senior noncommissioned officers on some installations. We have 
67 percent of our married soldiers and their families that live 
off the base, so the concern is to make sure we take care of 
those families.
    Mr. Edwards. Okay.
    Sergeant Major Kent, any comments?
    Sergeant Major Kent. We have a younger force, sir, so most 
of our force is single. But we have a lot of Marines married 
also, but most of the force is single. As we grow over the next 
four years, it is important for the growth, too, as you know 
sir, so we can get on a cycle as far as deployments going over.
    Right now, we have 1-to-1 for most of the unit--7 months 
over and 7 months back. The Commandant's goal is to get them 
more dwell-time back in the states, which would give them 7 
months forward and 14 months back. And we really want to get 
them more than that, but as we grow the force, the barracks are 
the main concern because we have a younger force, sir. So the 
shortage for us would be the single Marine barracks.
    Mr. Edwards. Master Chief Campa of the Navy, in terms of 
BRAC?
    Master Chief Campa. Our numbers are continuing to go down 
in the Navy. We are more in shaping the force so we don't have 
some of the challenges that the Army and the Marine Corps has 
as they grow their force in that infrastructure part of it.
    Mr. Edwards. Any installations where BRAC may be bringing 
them in, while your numbers are going down? Or at a particular 
installation where the numbers are going up? Any we ought to 
keep an eye on?
    Master Chief Campa. Not that I am aware of, sir.
    Mr. Edwards. Okay.
    Chief master sergeant.
    Chief Master Sergeant McKinley. Sir, BRAC is on track in 
the Air Force, but it is highly dependent on timely revenue 
flow. So we are looking to this committee to reinstate the full 
request of the amount in 2008 if possible.
    Mr. Edwards. And as you know, last year we did replace 
dollar-for-dollar the money we took out of BRAC, frankly, to 
fund other priority military construction needs, including 
daycare centers and our VA needs, knowing that in a 
supplemental we could go back and replace BRAC. So I can't make 
any promises, I think we will see real bipartisan effort to 
replace the $933 million we had to frankly borrow out of BRAC 
to take care of 5.8 million veterans in the VA system and some 
of our other MILCON needs. But thank you for mentioning that.
    Mr. Wamp.
    Mr. Wamp. Well, Mr. Chairman, my final question is kind of 
directed at all of you, but Master Chief Campa has Diana back 
there, and I have been watching her, and man she is radar for 
the families and spouses, and interested in all these issues. 
[Laughter.]
    I was just going to say that encourages me. I know you all 
have to be the radar for all the men and women that you 
represent here at this table today. How do you do that? I mean, 
you have your wife and she is here today, and that is one 
really great example, master chief, but how do the rest of you 
stay connected to all the people? I mean, you have to represent 
so many different needs, and you seem so in touch, but how do 
you do that?
    Sergeant Major Kent. That is easy, sir. We have to get out 
of the Pentagon and travel around the Marine Corps. My spouse 
actually travels with me constantly, and she talks to the 
spouses and families on family issues. The Commandant and his 
spouse constantly travel. As a matter of fact, the Commandant 
is out in California right now visiting families right now. I 
will join him tomorrow out in California so we can talk to 
Marines and their families, just to find out what the issues 
are, sir.
    Sergeant Major Preston. Sir, Tuesday, myself, my wife, 
General Casey and Sheila Casey, were out at Fort Ladmore. We go 
out there each month. It is part of a pre-command course. He 
had all the new battalion brigade commanders and their spouses, 
and all the command sergeant majors and their spouses, that 
were out there for that course. We have a chance to go out 
there, and we do a joint seminar and we do separate sessions 
with them. Then, of course, with all the other travel to posts, 
camps, and stations.
    Master Chief Campa. Sir, I think we all operate very 
similarly in going out and seeing our troops, going out and 
seeing them as they operate, visiting families back in our 
fleet concentration areas and our bases. I think all our 
spouses play a pretty big role in keeping in touch with the 
families, because the families don't hold back on what they 
tell us. Often, a Sailor may be a little reluctant to bring up 
an issue, but we find that when we engage with the families, 
they are honest and forthright and they will let you know what 
their needs are.
    Mr. Wamp. Congressional families do that, too. [Laughter.]
    Chief Master Sergeant McKinley. We spend a lot of time on 
the road throughout the whole world, whether it be in Iraq, 
Afghanistan, or the Pacific or Europe, and meet with a 
tremendous number of Airmen and their families on a regular 
basis. In my house, I am not the Chief Master Sergeant of the 
Air Force. I am just a husband and she tells me to take the 
trash out and keeps me in line.
    Mr. Wamp. You all are an inspiration, I tell you. I feel 
good about our country sitting here listening to you and 
meeting with you. It has been a great 5 hours these last 2 
days. Thank you.
    Mr. Edwards. I will finish just a couple of points. First, 
on the public-private housing partnership, we have heard over 
the last several years the positive things. I am thrilled to 
hear that this subcommittee, working with this administration 
and the previous administration, really worked hard to change 
the old way of building military family housing.
    Let me just ask, though, the question: Are you hearing any 
complaints about the housing itself or perhaps the maintenance 
of the housing? We want to be sure that not only good houses 
are being built--and I have looked at a lot of them and I have 
heard wonderful comments back--but we want to be sure that the 
developers have incentive financially to maintain them well. 
Are any of you hearing any periodic systematic complaints that 
is not just maybe a one-shot deal? Anything out there?
    Sergeant Major Preston. Nothing systematic. Sir, as an 
invitation to the committee, Fort Belvoir is very close, and 
Fort Meade, but I would offer you the invitation to go down if 
you really want to see what residential communities initiative 
is all about, and really see the quality of housing out there 
now that is being provided for soldiers and families. I offer 
that invitation anytime you would like to come, sir.
    Mr. Edwards. Okay.
    Sergeant Major Kent.
    Sergeant Major Kent. No, sir.
    Master Chief Campa. One of the greatest initiatives, as you 
said, sir--no. We have with some of our partners. When we start 
out with these relationships, there are things to be worked 
through, but we have found that they have been very responsive, 
not only in the construction phase, but in the maintaining and 
being responsive to the needs of our family members.
    Chief Master Sergeant McKinley. Sir, we are not really 
getting any issues from the family members. I think 
privatization is a tremendous success. We have had some issues 
with some of the contractors, and we have to work through 
those.
    Mr. Edwards. Okay. My final question, I don't know how many 
protocol toes I will step on in doing this, but Mrs. Campa, you 
are an important voice for the families out there. I have found 
in my trips to military installations that I have learned an 
awful lot from listening to spouses. You have been kind enough 
to listen to all of us speak and talk today.
    Could I ask you if you wouldn't mind responding to the 
question of what are the two or three most common concerns? If 
you don't mind my asking, what concerns are you hearing? I 
probably need you to, if you wouldn't mind coming forward. I 
apologize for doing this without notice, but I have found 
unscripted conversation with spouses have oftentimes been the 
best conversations I have had.
    And for the record, if you wouldn't mind identifying 
yourself.
    Mrs. Campa. I am Diana Campa, and I am the Ombudsman At 
Large for the Navy.
    Mr. Edwards. Right.
    Mrs. Campa. I guess I would say what Joe would have to say 
is that childcare is a big issue. I don't know about the 
programs that the Army has that fund the additional costs of 
going to a civilian provider, but in talking with families in 
the Navy, we don't see that, and that is one of the reasons why 
they will opt to not work because they can't afford the 
childcare on-base.
    And also our deployment cycles for the Navy. Our families 
are really feeling that, with them going out longer, the surge, 
coming home and not spending as much time. That is taking a 
toll on our families. So that also is I believe a retention 
problem for our service.
    Then also the working, not being able to come into another 
area. Lots of times we are not here for 3 years. Sometimes we 
come in for one year, and we know we are coming in for a year 
and that is a hard sell for an employer. You know, if they ask 
you what brings you into the area, and I know they are not 
supposed to ask, but that is also difficult for somebody to 
come in and expect to get a really good job based on only being 
here for a year.
    Mr. Edwards. Right, right.
    Mrs. Campa. But overall, I think our families are 
resilient. We have a great program, our ombudsman program, that 
is all over the world wherever our Navy is at, and they really 
have a way of bringing the problems and addressing them at the 
regional levels, and then also as we go out and travel, being 
able to pick up on that in a town hall, and just sitting down 
with them.
    Mr. Edwards. Thank you for those insights.
    For families of enlisted personnel that have two or three 
children, and the spouse is working, what are they doing on 
childcare? How can they afford it? Or do many of them just quit 
their job because they can't make enough money in the job to 
just even pay for the childcare?
    Mrs. Campa. Well, it is difficult. I can speak for my 
family. I worked from the beginning when our kids were young, 
and sometimes I had to find somebody, and sometimes I would pay 
a lot more in childcare and bring home a lot less, but I knew 
it was part of the progression for me to be able to get the 
work experience. So we sacrificed in that way.
    Sometimes we looked at shortening our hours, things like 
that, and we would get creative with it. But for a lot of 
parents, and also there are some military that are having 
difficulty getting their children into the daycare because it 
is a priority for people that are deployed for their children 
to go to that daycare. So you have regular active duty that are 
on lists also, and when they are single parents, it is 
difficult for them also.
    Mr. Edwards. Well, I hope we are going to make real 
progress between the money we put in the budget for the 2008 
fiscal year, and what the president has asked for in 2009, to 
see real progress. I know it won't happen overnight. It will 
take a while to build the facilities. I want to further look 
into how we cost those out to our military families.
    Thank you for your testimony.
    Mrs. Campa. Thank you.
    Mr. Edwards. You know, listening to you speak and thinking 
of your son coming here last year, I guess it is probably 
better not to do this in a formal hearing. We wouldn't want to 
intimidate military children, but I think it would be important 
for members of our committee to sit down with some sons and 
daughters and ask them what the challenges are. I mean, they 
are such an important part of the sacrifice for our country. 
Maybe we can talk with some of you about arranging an 
opportunity to meet with some children of enlisted servicemen 
and -women.
    Mrs. Campa. He would have been here, but actually Hillary 
Clinton was going to be at their school today. So that is where 
he is.
    Mr. Edwards. He had to choose between Mr. Wamp and me and a 
presidential candidate. [Laughter.]
    Mrs. Campa. It wasn't his turn to come, so he is educating 
himself.
    Mr. Edwards. Well, congratulate him. It is a great 
compliment to the two of you. Your children have done so well 
educationally. Thank you, Mrs. Campa, for that eloquent 
testimony on no notice at all.
    Mr. Wamp, I have no additional questions. I just echo what 
Mr. Wamp said. It is an honor for us to just be at the same 
table with each of you. Thank you for your service to the 
country and for all the great families you represent so 
eloquently here. Thank you very much.
    We stand in recess at the call of the chair.
                                       Thursday, February 14, 2008.

                            VETERANS AFFAIRS

                                WITNESS

JAMES PEAKE, SECRETARY OF VETERANS AFFAIRS

                       Statement of the Chairman

    Mr. Edwards [presiding]. Secretary Peake, good afternoon. 
Let me welcome you to your first formal testimony before this 
subcommittee. I want to congratulate you for having earned the 
tremendous honor of being Secretary of Veterans Affairs. I want 
to thank you, as well as your colleagues, for the lifetime of 
service to our veterans and military troops and families. It is 
an honor to have you here.
    As we have our first hearing on the budget request for the 
Department of Veterans Affairs, on a personal note, a number of 
us this morning attended a very moving service for Congressman 
Tom Lantos. In the program, Mr. Lantos had a quote that was 
printed there, that said, ``Only in America could a penniless 
survivor of the Holocaust come here, raise a family and be a 
member of Congress.'' I think the tie-in to this is that today 
at this hearing we are honoring those who have made ours the 
kind of nation where a penniless Holocaust survivor could come 
to America, could be successful in every way--personal, family 
and public.
    And so that, to me, is the solemness of this subcommittee's 
responsibility, and your duties and your position. It is a 
privilege to honor those who have made the sacrifices so we can 
have the Tom Lantos's of this world truly live out the American 
dream. So for those reasons, I thank you, Secretary Peake for 
being here. I also want to thank Dr. Kussman, our Under 
Secretary for Health, for your presence here, and Admiral 
Daniel Cooper, Under Secretary for Benefits. Admiral, it is 
good to see you again.
    We also have the Under Secretary for Memorial Affairs, Mr. 
William Tuerk. There you are, Mr. Secretary. We also have the 
Honorable Paul Hutter, general counsel of the VA; the Honorable 
Robert Henke, Assistant Secretary for Management; and then the 
Honorable Robert Howard, Assistant Secretary for Information 
Technology. Thank you all for being here.
    I think it is also appropriate to mention that this is 
National Salute the Hospitalized Veterans Week. One of the 
things that I am proud of is that this committee, working 
together on a bipartisan basis last year, showed our respect to 
veterans not just with our words, but with our deeds as well. 
It was a privilege for us to be a partner in that effort.
    Last year, we were able to increase funding for veterans by 
$7.8 billion. That is $5.5 billion more than was requested by 
the administration. It represents the largest funding increase 
in the 77-year history of the department. What does that mean 
to veterans? It means increased health services. It will mean 
our veterans will wait less time to receive the benefits they 
have earned and the doctors' appointments they need.
    It will mean that Operation Iraqi Freedom and Operation 
Enduring Freedom veterans will be screened for PTSD and 
traumatic brain injury, including the non-visible forms of TBI. 
It will mean that the Department of Veterans Affairs will be 
able to address a significant backlog in facilities 
maintenance, and ensure that our veterans are cared for in a 
safe and healthy environment.
    I would like to take this opportunity to again thank our 
ranking member, now Senator Wicker, for all of his leadership 
in our work together last year. And again thank all the members 
of this subcommittee, both Democrat and Republican alike, who 
have worked on such a nonpartisan basis.
    The budget request for fiscal year 2009 totals $44.7 
billion in discretionary spending, and an additional $46.2 
billion in mandatory spending. On the discretionary side of the 
ledger, the amount requested represents an increase of $1.7 
billion over the fiscal year 2008 appropriations, when you 
consider the additional emergency funding that was included in 
the fiscal year 2008 bill.
    I want to salute the administration for requesting 
significant increases in medical services accounts, but I do 
have concerns about the very large cuts for VA research and VA 
construction, in both minor and major construction. I do have a 
number of questions. I am sure we all do. Some of those that I 
have include how the VA is dealing with what we are seeing 
across the country, whether it is in DOD or the private 
sector--high inflation rates for construction and how that is 
impacting our construction program and budgets; questions about 
whatever level of confidence the department has in its 
estimates in regard to the OEF/OIF population in our hospitals.
    I know that is not an exact science. It is always a 
difficult and challenging process to estimate; and inflation 
rates for the department in other areas such as health care. Is 
our budget, while going up on paper, actually allowing us to 
keep up with health care inflation and continue to improve 
service for our veterans?
    Mr. Secretary, we very much look forward to hearing your 
testimony in a moment, but at this point I would like to 
recognize our ranking member, Mr. Wamp, for any comments that 
he would care to make.

                Statement of the Ranking Minority Member

    Mr. Wamp. Mr. Chairman, thank you. I know we have a lot of 
witnesses and a lot of testimony to listen to, but I just want 
to say briefly, this week what I said at my first hearing last 
week, and that is the highest honor and greatest privilege of 
my adult life, outside of my family, is to be a part of serving 
those who have served or are serving in uniform for our armed 
forces.
    This is an extraordinary privilege, and I do compliment the 
chairman, the new majority, and this committee on the work that 
was done last year on both military construction and veterans 
affairs. The new baseline was established because of your 
strong advocacy, Mr. Chairman, and the president acknowledged 
that in the 2009 budget request. I do share your concerns with 
aspects of the budget request, but do compliment both the new 
majority last year for their commitment to these programs, and 
the administration request for 2009. We are setting some new 
standards for these programs.
    I think continuing reforms at the Department of Veterans 
Affairs are needed. Mr. Secretary, thank you for the courtesy 
of coming by to see me, and to everyone at this dais, 
particularly Under Secretary Tuerk, who has been to my district 
long before he knew I would be sitting in this chair. So I 
thank you for your personal attention and for what you do.
    With that, let us get on with the testimony. Thank you, Mr. 
Chairman, for the courtesies all along the way.
    Mr. Edwards. Thank you, Mr. Wamp.
    Mr. Young, I do want to give you the opportunity as a 
leader on defense and veterans issues and former chairman of 
our full committee, and now ranking member of the Defense 
Subcommittee, an opportunity to make any opening comments you 
would care to make.
    Mr. Young. Mr. Chairman, thank you so very much.
    I want to echo what my friend Mr. Wamp said. We appreciate 
the way that you conduct this chairmanship and this 
subcommittee, and your dedication to our veterans is 
unchallenged. I appreciate this very much.
    I have the privilege of representing one of the greatest VA 
hospitals in the whole system at Bay Pines. But I appreciate 
the opportunity, Mr. Chairman, to say a personal welcome to 
General Peake. We go back a long way, and we have talked about 
a lot of things. But I just want to mention one of those 
opportunities that we had to be together when our adopted 
Marine son Josh was shot in Kuwait, and General Peake, as 
surgeon general of the Army was one of the surgeons who saved 
his life.
    Shortly thereafter, after Josh had recovered--well, it 
wasn't shortly thereafter. Josh was in the hospital for 6 
months. I took Josh to a dedication of a Fisher House at 
Landstuhl Hospital in Germany. And sure enough, General Peake 
was there, and Josh was there in uniform. And I can tell you 
that the emotion of that moment, when the two greeted each 
other, was something that I can't really describe. It will 
always be in my heart forever, General Peake. I just thank you 
for that, and I thank you for your willingness to take on this 
job.
    As we discussed earlier, this is a massive bureaucracy, the 
Department of Veterans Affairs. There are some problems. We 
want to be your help. We want to be available to provide you 
with whatever you need to take care of our veterans. If we 
don't take care of our veterans, we haven't taken care of our 
country.
    So general, you know the strong personal feeling that I 
have for you, and I just really appreciate you. I talked to 
Josh last night and told him that I was going to see you today, 
and he asked me to extend his best wishes also to you.
    So Mr. Chairman, thank you for the opportunity to make 
those personal comments about the general.
    Mr. Edwards. Thank you, Mr. Young.
    Secretary Peake, I was going to go through a rather lengthy 
bio of your accomplishments, but I think Chairman Young's 
comments are the best and most genuine introduction anyone 
could ever offer you. Thank you for your 38 years of service in 
the military, and now your continuing service to our country. 
We are honored to have you and would like to recognize you for 
your opening comments now.

                   Statement of Secretary James Peake

    Secretary Peake. Thank you, Mr. Chairman.
    With your permission, sir, I have a written statement that 
I would like to submit for the record.
    Mr. Edwards. Without objection.
    Secretary Peake. Mr. Chairman, Congressman Wamp, Chairman 
Young, ladies and gentlemen of the committee, I am honored to 
be here as the sixth Secretary of Veterans Affairs, and now 
responsible for the care of our veterans. I appreciate the 
opportunity that the president has given me to make a 
difference.
    With me today to present the 2009 budget is the VA 
leadership of this department. You have already introduced 
them. It is indeed a great crew. I couldn't be more pleased 
with the people I have to work with, and many I have known for 
a long time.
    In my almost 2 months at VA, I have seen both the 
compassion and the professionalism of our employees. It is 
frankly just what I expected. The culture is one of deep 
respect for the men and women we serve. This group at the table 
and the VA at large understands that America is at war, and it 
is not business as usual.
    I appreciate the importance of, and I look forward to 
working with this committee to build on VA's past successes, 
but also to look to the future to ensure veterans continue to 
receive timely accessible delivery of high-quality benefits and 
services earned through their sacrifice and service, and that 
we meet the needs of each segment of our veterans population.
    The president's request totals nearly $93.7 billion, with 
$46.4 billion for entitlement programs and $47.2 billion for 
discretionary programs. The total request is $3.4 billion above 
the funding level for 2008, and that funding level includes the 
$3.7 billion plus-up from the emergency fund.
    This budget will allow VA to address the areas critical to 
our mission. That is providing timely, accessible and high-
quality health care to our highest priority veterans. We will 
advance our collaborative efforts with the Department of 
Defense to ensure continued provision of world-class service 
and an interoperable electronic medical records system. We will 
improve the timeliness and accuracy of claims processing, and 
ensure the burial needs of our veterans and their eligible 
family members are met, and maintain veterans cemeteries as 
national shrines.
    The young men and women in uniform who are returning from 
Iraq and Afghanistan, and their families, represent a new 
generation of veterans. Their transition and re-integration 
into our civilian society when they take that uniform off is a 
prime focus. Those seriously injured must be able to transition 
between DOD and VA systems as they move on their journey to 
recovery.
    This budget funds our polytrauma centers and sustains the 
network of polytrauma care that Dr. Kussman and his team have 
put in place. It funds the federal recovery coordinators 
envisioned by the Dole-Shalala commission report; and sustains 
the ongoing case management at all levels of our system.
    We know that our prosthetics support must keep pace with 
the newest generation of prostheses as our wounded warriors 
transition into the VA system. You will see a 10 percent 
increase in our budget for this. In 2009, we expect to treat 
about 333,000 OEF and OIF veterans. That is a 14 percent 
increase. With the potential of rising costs per patient--and 
we have seen some of that--we have budgeted a 21 percent 
increase to make sure that we can cover those costs. That is 
nearly $1.3 billion to meet the needs of OIF and OEF veterans 
that we expect will come to the VA for medical care.
    This budget will sustain our outreach activities that have 
ranged from more than 800,000 letters to the 205,000 
engagements that our vets center outreach personnel have made 
with returning National Guard and Reserve units as part of the 
post-deployment health reassessment process. VBA alone has 
conducted more than 8,000 military briefings to nearly 300,000 
servicemen and -women.
    This is also part of seamless transition. With the 
authority to provide care for 5 years now for service-related 
issues, we can, without bureaucracy, offer the counseling and 
support and care that might be needed to avert or mitigate 
future problems. I highlight the outreach because we want these 
young men and women to get those services. Mental health from 
PTSD, to depression, to substance abuse are issues that I know 
are of concern to you, and they are of great concern to us.
    This budget proposes $3.9 billion for mental health access 
across the board, a 9 percent increase from 2008. It will allow 
us to sustain an access standard that says if you show up for 
mental health, you will be screened within 24 hours, and within 
14 days you will have a full mental health evaluation if 
needed.
    It will keep expanding mental health access, according to a 
uniform mental health package, with trained mental health 
professionals in our CBOCs. And there are 51 new CBOCs coming 
on for 2009, in addition to the 64 that are coming on in 2008. 
Our Vet Centers will bring on yet an additional 100 OIF/OEF 
counselors, and Dr. Kussman is prepared as need is identified 
to add additional Vet Centers. We appreciate the issues of 
rural access in this arena, and our Vet Centers are budgeted 
for 50 new vans to be able to support remote access, as well as 
expanding telemental health in 25 locations.
    But this budget and our mission is more than just about 
those most recently returning servicemen and -women. We should 
remember that 20 percent of VA patients, who in general are 
older with more co-morbid conditions than our general 
population, have a mental health diagnosis. In fiscal year 
2007, we saw 400,000 veterans of all eras with PTSD. This 
budget will sustain VA's internationally recognized network of 
more than 200 specialized programs for the treatment of post-
traumatic stress disorder through our veterans medical centers 
and our clinics that serve really all of our veterans.
    We have a unique responsibility to serve those who have 
served before. You know, we still have some World War I 
veterans. One died about a week or so ago. The World War II and 
Korean veterans are recipients of our geriatric care, and our 
efforts in improving long-term care, noninstitutional care 
where in this budget we have increased our funding by 28 
percent. It will make a huge difference in their quality of 
life. We have currently 32,000 people served by home telehealth 
programs. This budget continues our work in this area and in 
the expansion of home-based primary care.
    Another facet of this complex problem is the issue of 
homeless veterans. Under this budget, our grant and per diem 
program continues to grow. We will have 13,000 grant and per 
diem beds funded by 2009. Our work with HUD for permanent 
housing vouchers continues, which we will support with case 
managers. And it sustains the 11 domiciliary facilities that 
have been coming online over the last 3 years, such that by 
2009 we will be up to about 10,000 domiciliary beds, with 
substance abuse treatment embedded with many serving otherwise 
homeless veterans.
    Our most recent study looking at homeless vets in 
particular shows a downward trend of about 20 percent, from 
195,000 on any given night, to 154,000--still too many, but 
real evidence of progress. What many don't know is that we 
provide a good deal of health care to homeless veterans--about 
$1.6 billion in 2007--and we anticipate $1.9 billion in 2009.
    Overall, the president's 2009 budget request includes a 
total of $41.2 billion for VA medical care, an increase of $2.3 
billion over the 2008 level, and more than twice the funding 
available at the beginning of the Bush administration. With it, 
we will provide quality care, improve access, and expand 
special services to the 5,771,000 patients we expect to treat 
in 2009. That is a 1.6 percent increase above our current 2008 
estimates.
    In April of 2006, there were over 250,000 unique patients 
waiting more than 30 days for their desired appointment dates. 
That is not acceptable. As of January 1, 2008, we had reduced 
the waiting list to just over 69,000--still not where we want 
to be. Our budget request for 2009 provides the resources to 
virtually eliminate the waiting list by the end of next year.
    Information technology cross-cuts this entire department, 
and this budget provides more than $2.4 billion for this vital 
function. That is 19 percent above our 2008 level. It reflects 
the realignment of all IT operations and functions under the 
management control of our chief information officer. A 
majority--or $261 million of the increase in IT--will support 
VA's medical care program, particularly VA's electronic health 
record.
    I emphasize it here because it is so central to the care we 
provide, touted in such publications as the book, ``Best Care 
Anywhere,'' as the key to our quality that is lauded worldwide. 
This IT budget also includes all the infrastructure support, 
such as hardware and software and communications systems, to 
include those 51 new CBOCs that I mentioned. There is $93 
million for cybersecurity, continuing us on the road to being 
the gold standard.
    IT will also be key as we begin to move our claims model 
down the road to a paperless process. It is an investment that 
we must make. This budget sustains the work in VETSNET that is 
giving us management data to get after our claims issues, as 
well as supporting our Virtual VA, our electronic data 
repository.
    In addition to IT, this budget sustains a 2-year effort to 
hire and train 3,100 new staff to achieve a 145-day goal for 
processing compensation and pension claims in 2009. This is a 
38-day improvement from 2007 and 24-day, or 14 percent 
reduction from what we expect this year.
    This is important because the volume of claims received is 
projected to reach 872,000 in 2009. That is a 51 percent 
increase since 2000. The Active Reserve and National Guard 
returning from OEF/OIF have contributed to an increased number 
of new claims, but also bring with them an increased number of 
issues per claim. This chart shows that, with the top line 
being issues per claim, each one of which has to be adjudicated 
separately and rated, while the claims you can see growing. I 
think it is remarkable that Admiral Cooper has been able to 
keep that average days to complete relatively constant, even in 
the face of that extensive growth. We want to do better than 
what we are doing.
    The president's 2009 budget includes seven legislative 
proposals totaling $42 million. One of these proposals expands 
legislative authority to cover payment for special residential 
care and rehabilitation in medical foster homes for OIF/OEF 
veterans with TBI. We again bring a request for enrollment fees 
for those who can afford to pay, and for a raise of the copays. 
Again, this does not affect our VA budget, just as last year, 
as the funds will return to the treasury. That is $5.2 billion 
over about 10 years. It does reflect the matter of equity for 
those veterans who have spent a full career of service, and 
under TRICARE do pay an annual enrollment fee for light care.
    The $442 million to support VA's medical and prosthetic 
research program--the lesson we have had from the augmented 
2008 budget is actually a little more than 7 percent above what 
we received in 2006 and what we asked for in 2007 and 2008. It 
does contain $252 million devoted to research projects, focused 
particularly on veterans returning from service in Afghanistan 
and Iraq, including projects in TBI and polytrauma, spinal cord 
injury, prosthetics, burn injury, pain, and post-deployment 
mental health. In fact, we anticipate with Federal and other 
grants a full research portfolio of about $1.85 billion.
    This budget request includes just over $1 billion in 
capital funding for VA, with resources to continue give medical 
facility projects already underway in Denver, Orlando, Lee 
County, Florida, San Juan and St. Louis, and to begin three new 
medical facility projects at Bay Pines, Tampa and Palo Alto, 
two of which relate to our polytrauma rehab centers and 
continue our priority in this specialized area of excellence.
    Finally, we will perform 111,000 interments in 2009. That 
is 11 percent more than in 2007. The $181 million in this 
budget for the National Cemetery Administration is 71 percent 
above the resources available to the department's burial 
program when the president took office. These resources will 
operationalize the six new national cemeteries that will open 
this year, providing a VA burial option to nearly one million 
previously unserved veteran families, and will maintain our 
cemeteries as national shrines that will again earn the highest 
marks in government or private sector for customer 
satisfaction.
    This budget of nearly $93.7 billion, nearly double from 7 
years ago, and with a health care component more than twice 
what it was 7 years ago, will allow us to make great progress 
in the care of all of our veterans, and will keep us on this 
quality journey in health, in management of an extraordinary 
benefit, and in ensuring excellence of our final tribute to 
those who shall have borne the battle.
    Sir, it is an honor to be with you, and I look forward to 
your questions.
    [Prepared statement of Secretary James Peake follows:]

    [GRAPHIC] [TIFF OMITTED] T2754A.066
    
    [GRAPHIC] [TIFF OMITTED] T2754A.067
    
    [GRAPHIC] [TIFF OMITTED] T2754A.068
    
    [GRAPHIC] [TIFF OMITTED] T2754A.069
    
    [GRAPHIC] [TIFF OMITTED] T2754A.070
    
    [GRAPHIC] [TIFF OMITTED] T2754A.071
    
    [GRAPHIC] [TIFF OMITTED] T2754A.072
    
    [GRAPHIC] [TIFF OMITTED] T2754A.073
    
    [GRAPHIC] [TIFF OMITTED] T2754A.074
    
    [GRAPHIC] [TIFF OMITTED] T2754A.075
    
    [GRAPHIC] [TIFF OMITTED] T2754A.076
    
    [GRAPHIC] [TIFF OMITTED] T2754A.077
    
    [GRAPHIC] [TIFF OMITTED] T2754A.078
    
    [GRAPHIC] [TIFF OMITTED] T2754A.079
    
    [GRAPHIC] [TIFF OMITTED] T2754A.080
    
    [GRAPHIC] [TIFF OMITTED] T2754A.081
    
    Mr. Edwards. Mr. Secretary, thank you for your excellent 
opening statement.
    Mr. Wamp, let me ask you, we have 4 minutes and 37 seconds 
on the vital vote on whether or not we are going to adjourn, on 
the floor of the House. I can miss that vote, but I don't want 
to ask any others to miss it. Would you want to go vote, and I 
can ask my questions while you are gone? Or do you want to 
continue on? How would you like to proceed?
    Mr. Wamp. I am concerned that this vote is going to be 
followed by other votes on the floor, and I think that I need 
to go.
    Mr. Edwards. Maybe what we could do is we could do a tag-
team here. Some members have gone to vote. I will go ahead and 
go through my initial questions while you are voting. And then 
if it turns out they are not having additional votes, then come 
back and maybe you could begin while I am gone. Would that be 
fair?
    I am a little bit concerned because we are having a series 
of procedural votes today. Also because of Mr. Lantos's 
funeral, we already cut the time for this hearing in half, so I 
am a little worried. If you don't object to that, we would 
proceed ahead.
    Mr. Wamp. Mr. Young will stay and I will vote, and that way 
we are covered. Thank you.

               IMPLEMENTATION OF FISCAL YEAR 2008 BUDGET

    Mr. Edwards. Mr. Secretary, let me just begin by asking 
you, there were legitimate concerns about the fact that given 
that the VA received so much additional funding last year for 
both supplemental as well as the 2008 budget year, and the fact 
that those dollars did not come initially on October 1, the 
beginning of the new fiscal year, that the VA might have a 
difficult time putting in place a plan to spend that money 
efficiently and effectively. Could you just make some 
observations about how you feel in terms of the VA's plans for 
implementing the budget that we passed and the president signed 
recently? Do you feel comfortable in how you have those 
resources allocated? Do you think there could be sooner, rather 
than in the last quarter of the year, a request for a transfer 
of funds in order to allow you to use that money most 
efficiently.
    Secretary Peake. Yes, sir. I think that we will be coming 
forward to talk about shifting some of that money around a 
little bit to make sure that we can use it most effectively. I 
do think that we have a good plan in place to be able to 
execute that, in what I have been able to see so far. Some of 
it is going to be things that don't require an ongoing 
sustainment. They are sort of one-timers as well. I think we 
can get those executed.
    But I think that we also have in this budget the ability to 
sustain the things that will have an out-year tail to them.
    Mr. Edwards. In regard to transfers, let me just say that 
this subcommittee would want to do careful due diligence in 
reviewing those requests from the VA to be sure they reflect 
the priorities that the Congress has set in its budget. At the 
same time, I would urge you to not have the department wait 
until the second or third week of August to ask for that 
transfer of funding.
    We understand you have a great deal of new funding and you 
got it late in the process. So given that process wasn't 
perfect, we know there may be some adjustments. The bottom line 
to us is that those adjustments be made whenever it can best 
help the most number of veterans.
    Secretary Peake. We will not be waiting until August. We 
will up here soon.
    Mr. Edwards. Okay. Great.
    Mr. Young.

                     POST TRAUMATIC STRESS DISORDER

    Mr. Young. Mr. Chairman, thank you very much.
    General, when the casualties began coming home from Iraq 
and Afghanistan, the military hospitals were pretty much 
overwhelmed. I remember seeing hospital beds in the hallways. 
But what happened was, that great influx of wounded heroes 
eventually came to the VA system. And all of a sudden, you were 
pretty much overwhelmed at a lot of places, especially your 
polytrauma centers.
    A lot of these young men and women swore to me, to others, 
that we don't have any kind of a post-traumatic stress problem 
at all. I think they were wrong. I think they are going to find 
out, and I think that the VA system is learning now that they 
might have felt that way when they came from Walter Reed or 
Bethesda, but as time went on they did develop the problems.
    Now, my question has to do with, do you have enough 
personnel in the VA system to deal with post-traumatic stress 
disorders? Are you able to give your patients sufficient time 
with a psychologist or a psychiatrist? Or do you need more 
psychologists and psychiatrists? And the answer is probably 
yes, because I know that time has been rationed for some of 
these cases.
    What do you need? What can we do? What can this Congress do 
to help you help our veterans by providing them the appropriate 
care for their post-traumatic stress situations?
    Secretary Peake. Well, sir, first let me comment about the 
great assistance we have had from the Congress in a couple of 
ways. One is giving us the money to move forward with the 
mental health strategic plan that Dr. Kussman put in place back 
in 2004, that started laying out the groundwork for what we 
needed to start to grow. We have better than 10,000 in the VA 
in terms of mental health professionals. If you look at all of 
the people that we have working in the mental health arena, it 
approaches 17,000, focused just on mental health.
    Part of the issue is being able to hire people in different 
places. Rural America has a challenge, and that is why I was 
pleased to find the fact that we are already budgeting 24 new 
telemental health access points. I think we did 43,000 mental 
health telemedicine consults last year, or something like that. 
So there are challenges to being able to find the psychologists 
and the psychiatrists where you need them.
    The ability to pay more and pay closer to going rates that 
has been authorized has, as I understand it, made a difference. 
So we are seeing less attrition of some of those folks than 
what we have seen in the past. But there is no question that it 
is a sub-segment of really a national issue of having enough 
mental health workers across this country.
    Mr. Young. General, I know that the American Red Cross has 
a program of working with medical doctors, surgeons, to 
volunteer their time in military hospitals. I have met a number 
of these doctors who are there gratis under the sponsorship of 
the Red Cross. Do you have a similar program in the VA system?
    Secretary Peake. Sir, let me ask Dr. Kussman, because I 
actually don't know the answer to that.
    Mr. Kussman. People can volunteer as Red Cross volunteers 
in the same manner that you just described, to provide 
services. So on a case-by-case basis, we will take advantage of 
that.
    Mr. Young. Does that include psychologists and 
psychiatrists?
    Mr. Kussman. Yes, sir, I believe that is true.
    Mr. Young. Well, let me go back to my question. Do we need 
to do anything? Do we need to do anything to help you fill this 
need?
    Secretary Peake. Sir, I don't have a good answer of a 
specific requirement. I think right now we have budgeted the 
money. Part of the issue of PTSD I think is breaking down the 
stigma. We are working on that with our Vet Centers. We are 
going to expand that. By bringing in OIF/OEF people to work in 
our Vet Centers, it starts to give the younger servicemember a 
chance to identify with somebody that is really of their own 
age group and their own experience set.
    The other thing that I want to be able to do is more in the 
way of outreach and try to get folks in. The opportunity to be 
able to have access to our system for 5 years after returning 
from overseas I think is a tremendous opportunity for us to be 
able to get somebody in to try and avert the potential for 
problems down the road. We are working with the post-deployment 
health reassessment, so we have to really link in with the 
military because that is really our feeder organization, if you 
will.
    Mike, did you have a comment?
    Mr. Kussman. Yes, sir.
    As the secretary said, we are aggressively hiring people. 
We have been quite successful in that. We have hired, in the 
last 2 years, 3,800 new mental health people, including social 
workers, psychiatrists and psychologists. One of the issues of 
the stigma of mental health is that people don't want to come, 
or they don't want to come to a mental health clinic.
    So what we have initiated is a very thorough and aggressive 
program of integrating mental health into primary care, where 
the individual might be more comfortable going to a primary 
care clinic for a backache or a knee ache, but really the real 
reason they need to come is for their mental health. That has 
been very successful as well. So there are a lot of initiatives 
to try to break down the barriers.
    Mr. Young. Well, I really appreciate what you just said, 
doctor. The week before last, Beverly and I visited the wounded 
warrior battalion, the Marine battalion at Camp Pendleton. We 
had an opportunity to visit with some of the Marines who were 
there rehabilitating that we had actually been with when they 
were at Bethesda when they first came from the war zone.
    I remember that when they left Bethesda, they were 
determined--``I don't have any mental or emotional problems.'' 
But a couple years later, being there at Camp Pendleton in the 
wounded warrior battalion, they finally admitted that, ``Yes, I 
do need help.'' These young guys are going to be coming to you 
very shortly, and your system, so I do worry. I do want to do 
anything that we can to make sure that when they get to your 
system that they are taken care of, because I think it is going 
to be a more serious requirement even than we recognize today.
    Thank you very much for what you do. I just appreciate the 
chance to see you again, and thank you for all of your service 
to the Army and to the Department of Veterans Affairs and our 
heroes. Thank you, sir.
    Secretary Peake. Thank you, Mr. Chairman.
    Mr. Edwards. Before we recognize Mr. Farr for his 
questions, one other person I would like to take the privilege 
of introducing is not at the front table, but who has been a 
tremendous leader for the VA, and that is Deputy Secretary 
Gordon Mansfield. Secretary Mansfield, I want to especially 
thank you for taking over the reins as acting secretary of the 
VA during a very important time when we were discussing large 
increases in the VA budget. That was a challenging process, and 
thank you for your leadership in that role and for your 
continuing leadership as deputy secretary. We are honored to 
have you here today. Thank you.
    Mr. Farr.
    Mr. Farr. Thank you very much, Mr. Chairman.
    I would like to begin this year's appropriation hearing, 
and especially thank you for upgrading the room that we are in. 
[Laughter.]
    Mr. Edwards. Don't get used to it. [Laughter.]

                       BURIAL NEEDS FOR VETERANS

    Mr. Farr. Mr. Secretary, as I read the budget, I see that 
the president has again cut the VA construction budget to half 
of what was appropriated in fiscal year 2008. I am sure you are 
aware that California has the longest list of potential major 
construction projects. If you add them up, they exceed the 
total proposed for the budget in all VA construction.
    So as a concerned Californian, particularly one that has 
been trying to really reach out to this expanded veteran 
community in the greater Monterey Bay area, I am wondering if 
you are aware of a major construction project in the out-years 
at the former Fort Ord which would serve as a community-based 
outreach, and if you would pledge to make sure that in those 
out-years planning, in the FYDP-type things, that there is 
adequate funding for this project at Fort Ord for the VA-DOD 
joint clinic there.
    Secretary Peake. Well, sir, I don't know the specifics of 
that clinic, or where it is in the out-years, but I am a 
proponent of DOD-VA sharing. I have been to that clinic on 
Monterey before, so I know that area. I have also walked the 
grounds of the old Fort Ord, so I am familiar with the area and 
the environment. I would certainly look to making sure that we 
can serve our veterans in the most effective and efficient way 
possible there.
    Mr. Farr. Well, if you walked it, that is incredible, 
because it is 40 square miles, but I think you are aware that 
it is the largest military base ever closed in a BRAC round, 
and there is certainly a lot of opportunity. The land is still 
in federal ownership, to use it for VA efforts.
    Part of that land has been set aside and designated as a 
cemetery. Mr. Tuerk has been out there for a wonderful meeting 
out there with everybody, and he certainly recognizes the value 
and the importance of it. I was just wondering, given your 
mention of the critical importance of burial needs for our 
vets, and the fact that there is a density threshold now--this 
170,000 veterans--and you do it by these 70-mile radii--that 
there is consideration of lowering that density threshold.
    Secretary Peake. Well, sir, as of this year I think we are 
going to be at about 84 percent. Our objective is to get to 90 
percent, and then I think when we hit that strategic objective, 
we start to look at how do we expand it and offer burial 
services to even a wider group of underserved veterans.
    Mr. Farr. Well, what we are talking about is how do you 
reach out to those rural areas. I am very critical of the fact 
that in California, if you went up the central valley, and if 
you draw a 70-mile radius, you go from Nevada to the Pacific 
Ocean, except that very few people live in the central valley. 
They all live along the coast, and we don't have any burial 
sites along the coast. Fort Ord is a place where we are putting 
together a private-public partnership to have a state grant. I 
don't need to consume the committee's time on that.
    The other issue, and I just want you to be aware of it 
because I am working on it, I am really intrigued by the fact 
that in your former position as Army surgeon general you have 
the unique skill-set of being in both DoD and now VA--if you 
are going to be able to break down the stovepipes that exist 
between those two agencies, particularly as it comes for VA 
health care. I wondered what changes you would make in how DOD 
deals with the VA or vice-versa. Have you got any ideas yet on 
how to break down some of those stovepipes?
    Secretary Peake. Well, sir, I think the chairman 
acknowledged Secretary Mansfield. He has been working 
essentially a weekly meeting or twice a week meetings with DOD. 
I think there has been a lot of progress in this area. I think 
there is more to be made. I think we need to work our IT 
systems, and in March I am expecting to see the study come back 
to talk about our way ahead in terms of our combined IT 
systems.
    If you go out to North Chicago, and I haven't been there 
yet, but I am going, where we are looking at a federal shared 
facility between VA, co-managed VA and DOD. There are a number 
of places around the country where that just makes eminent 
sense, and we need to really work through that North Chicago as 
a pilot to understand the issues. And there may be some 
legislative support that we need--I am not sure exactly yet--to 
be able to enable that kind of a cooperative effort.
    But I think there are great opportunities for us to move 
forward. I have met with the secretary of the Air Force just 
recently within the last 2 days, and I signed a joint agreement 
with the secretary of the Army. So I think we can move forward.
    Mr. Farr. Thank you. I am pleased to hear that. I look 
forward to working with you. That clinic at Fort Ord is just 
that. We still have about 7,000 uniformed personnel now at the 
Defense Language Institute at the Naval Postgraduate School and 
some of the other military footprints there. And we are trying 
to joint locate with the RCI, the residential community, so 
that essentially the families of soldiers and the veterans can 
share in facilities. I think we get a much bigger bang for the 
buck, so I appreciate your leadership on that.
    Mr. Chairman, thank you very much. I will have a few more 
questions in the second round.
    Mr. Edwards. Okay, thank you, Mr. Farr.
    Mr. Dicks.
    Mr. Dicks. Thank you.
    General Peake, we are glad you are there. We know you are a 
man of great skill and integrity, and yet this is a challenging 
job. I don't know why, but for some reason over the years we 
have never done quite as well by the VA as I think we should 
have. That last year was changed by Chairman Edwards to say, 
hey, we have to do better.
    For some reason, we have underfunded this area. I am very 
pleased about last year's budget and this year's budget. But I 
am concerned about two things. In the out-years after 2009--and 
I can understand, and I am not blaming you for this. I want to 
blame OMB. Let me blame OMB, okay? We see that over the next 5 
years, there is going to be--it is $20 billion below the levels 
needed to maintain what the VA is doing today. Is that correct? 
You are below current services?
    Secretary Peake. Sir, I have looked at that. My 
understanding is that that is a calculated placeholder by OMB. 
The way we will build our 2010 budget is based on our forecast.
    Mr. Dicks. What you think is really necessary?
    Secretary Peake. Yes, sir. And I think we are getting 
better at forecasting. It is one of the things that we have 
been asked about in the past. When I have looked at the data, I 
think we are getting better at being able to tell you what we 
are going to be asked to do in terms of work, and there be able 
to appropriately budget.

                       AMERICAN LAKE, WASHINGTON

    Mr. Dicks. Now, Mr. Farr brought up the construction 
funding. I think the need was $1.1 billion, Mr. Chairman, for 
this year, but the request is reduced to $587 million. Now, we 
have concerns in the Pacific Northwest. Mr. Farr is concerned 
about California, and rightfully so. We have concerns in the 
Pacific Northwest where we have seismic issues on some of our 
facilities, particularly at American Lake. For the record, Mr. 
Chairman, I would like to submit two or three questions about 
local projects so I don't take the time of the committee.
    Mr. Edwards. Without objection.

                            TRANSITION TO VA

    Mr. Dicks. These are of concern. But we have some seismic 
issues, and we are worried that if this thing gets delayed even 
further, at American Lake and at Seattle, we could have a big 
event out there, which we have had in the past. So I hope you 
can take a look at those things.
    The one thing that really bothered me in this whole 
discussion last year about Walter Reed and the VA is this 
transition. We were just talking about this. But it is so 
important to try to work out a way to make that transition. I 
think the Army has the most difficulty here. It is amazing to 
me how in the Army, the level of benefits is at one level, and 
then the Navy and the Air Force are up here. And the VA is up 
here, in terms of what these kids finally get.
    But the Army has low-balled this, and they can't get away 
with this anymore. But that transition from the Army wounded 
warrior units now, over to the VA, when they decide. They go 
through this process. They decide that he can no longer serve 
in the Army. There is not a place for him, and then he goes 
into the VA system. How is that working? I know that is where 
we added a lot of people to try to get that under control.
    Can you tell us how you think that is working?
    Secretary Peake. Sir, first of all, there is a pilot 
program that started on November 27, where those wounded 
warriors going through the physical evaluation board, the 
medical evaluation board to have their fitness for duty 
determined will have their fitness for duty determined by the 
military. However, all of their medical exams for rating 
purposes will include not only the unfitting condition, but any 
potentially claimable condition.
    We will do that evaluation, and then Admiral Cooper has 
centralized the rating for that down at St. Petersburg, so they 
will get a consistent rating.
    Mr. Dicks. Is this just the VA? Or is this the Army as 
well? I mean, is there a way to have one evaluation?
    Secretary Peake. That is the point. That is what this is.
    Mr. Dicks. Okay.
    Secretary Peake. The VA does the physical evaluation and 
the rating. The military just takes the evidence and says you 
are unfit or you are fit for military duty. If they are unfit 
for military duty, that particular unfitting condition, the 
rating that Admiral Cooper's people have done, will determine 
whether they have a severance or whether they get medically 
retired.
    So it is out of the hands of the military. It is one 
consistent rating with one medical examination process. So that 
is the pilot.
    Mr. Dicks. In the old days it was two. You would go through 
the Army process, and if you were let go, then you would go 
over to VA and they would start over.
    Secretary Peake. Yes, sir.
    Mr. Dicks. So we are trying to put that together?
    Secretary Peake. Absolutely, in this pilot.
    The other thing that we have done, really, is with the BDD 
program, the benefits delivery discharge program that has been 
going on for some time, but has only really picked up steam 
with the OIF/OEF experience, is that when a soldier, not 
necessarily being medically retired, but says ``I am getting 
out of the service, and I have some potentially claimable 
conditions, things that I want to get evaluated,'' then they 
can see a VA counselor 180 days before they leave the service.
    The VA counselor right there at the post, camp or station--
we do it in 153 different locations--that VA counselor can 
start working that claim, get the physical examination done, 
get them into a fast-track rating system, which we are doing. 
And by the way, those are two of our paperless evaluation 
pilots.
    So that by the time the soldier gets home, we are shooting 
for 60, where I think our time has been about 85 days. But they 
get a check right away, as opposed to when they finally go home 
and then start to try to pull all the stuff together, all their 
paperwork, and then get adjudicated, where that can really 
stretch out. So I think we are making some progress.
    Mr. Dicks. And one final thing. I know that community-based 
outpatient clinics are sometimes criticized at OMB again. But I 
think these things really work. We have a situation in the 
State of Washington where we have the entire Olympic peninsula, 
and a veteran at Neah Bay would have to get up at 2 a.m. in the 
morning to get to Port Angeles for the 4 a.m. departure to go 
all the way into Seattle.
    We just got started out there, and I appreciate the VA's 
work on this, where the VA works out of the hospital in Port 
Angeles and the Coast Guard clinic. This program is working 
very well. People really appreciate that. However, I think a 
full clinic would be better, and I put a bill in to authorize 
it and fund it. But to me, and we have had accidents on the 
roads out there, you get dangerous winter conditions on the 
roads. I think these situations for remote areas should still 
be a valid consideration. I know it has to cost less than 
sending people to Seattle.
    Secretary Peake. Sir, we agree with you.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Dicks.
    There is some question right now on whether there is a 
quorum being maintained on the floor. Staff is checking to see 
whether some of us might need to go over to the floor for that 
quorum, but in the meantime we will continue on until we get a 
clear message.
    Mr. Wamp, with my personal apologies for the inconveniences 
caused you by this process between the committee and the floor, 
I am privileged to recognize you for whatever time you would 
like to take for your questions.
    Mr. Wamp. Thank you, Mr. Chairman. You are a class act, and 
don't you apologize to me. But to you seven, we all apologize. 
We don't even really know what the rest of the afternoon is 
going to be like, but thank you very much for your time and 
your patience. Please remember, too, when I began, that I am as 
green to this subcommittee as this carpet.

                                 CARES

    This is new, so when I start in a parochial example, in 
that context, please understand I am not parochial, and I will 
try not to be. Everybody that represents a district for 14 
years has a lot of parochial interests. But I am going to use 
this example as part of a bigger picture, just to start on the 
front of reforms that I mentioned in my opening statement.
    Mr. Secretary, I am interested in CARES and some of the 
recommended changes with the CBOCs and with areas of service 
that are not fully and accessible. Mr. Dicks just talked about 
an example of travel. In my backyard, we have a very strong 
outpatient clinic, a CBOC that has been expanded--and is 
servicing a whole lot of veterans in 18 counties. It has been 
listed as one of the top five areas that doesn't have a 
hospital, but has a very strong outpatient clinic.
    In CARES, they recommended a couple of new CBOCs in that 
service area by 2012, but then I am looking at the 5-year plan 
and they are not there. So I just wonder how the reforms of 
CARES are going nationally in terms of trying to meet some of 
the goals that you have, and then I will follow up with another 
question you and I talked about in my office.
    Secretary Peake. Yes, sir. Regarding CBOCs and CARES, I 
think there were 156 new CBOCs that were part of the CARES 
process. We add the 64 that are going in, the 51 that are 
coming up in 2009. My understanding is that of that 56, there 
are 24 that have been decided, really because of changing 
demographics or whatever, are not needed. That would still 
leave 10 after 2009. I honestly don't know if that is yours or 
not, but we would certainly be willing to work through that.
    Mr. Wamp. Well, in a technical question, do the 
construction budget reductions affect even meeting the needs of 
these 10 or others?
    Secretary Peake. Sir, the CBOCs are generally not major 
construction. In many cases, we are leasing, which I think is a 
smart thing to be able to do, because then you can shift as the 
population needs shift and change. And we have actually seen 
some of that. So it isn't necessarily tied.
    Now, there are CBOCs that we have built. In those cases, if 
it is under $10 million, then it is minor construction. If it 
is over $10 million, it needs to be authorized as major 
construction.
    Mr. Wamp. Because I am under my 5 minutes, I may come back 
to that later, if the time allows, and they go vote or 
whatever, because I have other questions about the construction 
piece of it.

                MENTAL HEALTH AND TRAUMATIC BRAIN INJURY

    Let me jump back to mental health for a minute, because we 
have talked about this as well. There is a connection, everyone 
understands, between the mental health aspects of veterans care 
and the homeless population, which is in decline. And there are 
a whole lot of misperceptions about how many homeless people 
that are veterans are out there without benefits.
    But it is true, isn't it, that the benefits actually are 
there for these veterans, and in most cases if the veteran 
would take advantage of the benefits, or if they might need 
medication to take care of any mental health issue that they 
have, they would then be in the capacity to go and seek the 
treatment. Whereas, we end up with quite a few in our homeless 
veteran population that are either not on their medication, are 
incapable, or not coherent enough to come in and get the care 
that is available under these kind of numbers. Correct?
    Secretary Peake. Sir, you are absolutely right. I will tell 
you that we have had a push to get the homeless to be able to 
access their benefits. Admiral Cooper, if you have the numbers? 
I was talking to Pete Dougherty, our homeless director, and he 
talked about 17,000 homeless recently that were able to access 
their benefits.
    I will tell you also, when I was out at the homeless 
standdown at the VA medical center in Washington, D.C., I spent 
some time talking to our outreach person who goes under the 
bridges here in Washington, D.C. to try to identify homeless 
veterans and encourage them, pull them into the system, into 
the shelters and into the health care system. I think we got 34 
folks to sign up into our electronic health record, that are 
homeless people that can access these things.
    As I believe I mentioned in my opening comments, in 2007 we 
spent about $1.6 billion on health care for homeless veterans. 
Even though it is going down, it is still too many, but we are 
really aggressive in our programs and we will continue to be.
    Mr. Wamp. I know the chairman is concerned about the 
research piece of this, and I haven't even studied the research 
flow well enough to understand all the aspects of how it might 
be used, but one thing that you and I talked about is this head 
trauma issue coming out of Iraq and Afghanistan--particularly 
Iraq right now--and the long-term consequences of that.
    Are we spending enough? Does this committee need to try to 
do more for the research today to determine w we need to be 4, 
5, or 6 years from now based on head trauma and long-term 
problems from stroke to clots in the brain--all the aftermath 
of this kind of IED damage to not just the troops that are hit, 
but the troops that are close to the troops that are hit.
    Secretary Peake. Well, you know, our four polytrauma 
centers really started out as traumatic brain injury centers. 
That was their focus. Of the 487 patients that have come to our 
polytrauma centers from the active duty side, 460 of them 
really had predominantly traumatic brain injuries.
    So I guess my point is that we have a longstanding and 
aggressive interest in this issue. Further, we are working very 
closely with DOD because obviously we share a common interest 
there. You may have perhaps met General-select Laurie Sutton, 
who is going to be heading that. We are going to provide a 
deputy to her to make sure that we can continue to integrate 
our efforts in PTSD and TBI.
    There are about $252 million of our research budget that is 
focused on these OIF/OEF issues, to include TBI and MPTSD, and 
really that is something where we are looking for the overlap 
there. So we have I think in mental health across the board 
extra-mural funding, which was about $100 million. So we do 
have a very strong interest in it.
    Mr. Wamp. Mr. Chairman, why don't I yield back.
    Mr. Edwards. Okay. Thank you, Mr. Wamp.

                           BUDGET PROJECTIONS

    Mr. Secretary, back in 2005 and over a period of several 
years, one of the challenges we faced was that even though on a 
bar graph the funding each year for the VA discretionary 
budget, and particularly VA medical care, was going up, it was 
not going up as quickly as the increasing number of veterans 
needing health care, added to the medical inflation numbers 
which I guess traditionally had been 200 percent higher than 
the CPI.
    And I know the VA has worked very hard on its modeling, and 
again it is not an exact science. It is an art and a science 
and economics. But could you tell me how comfortable you are 
with the projections? What assumptions did you make in the 2009 
budget in terms of the increasing number of veterans needing 
health care, outpatient, in-patient? How comfortable are you 
with those projections, within a certain parameter? And what 
inflation numbers did you use, both for medical care and for 
construction?
    Secretary Peake. Sir, I can talk to the medical care 
projection.
    Mr. Edwards. Okay.
    Secretary Peake. If we could put that graph up. I know we 
have had a history where our projections have been questioned, 
and maybe for good reason. So what this shows is the variance 
from the original estimate for each year, going back to 2001. 
What you see is, as we have come to 2005, 2006, and 2007, we 
are within 1 percent of what was estimated.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2754A.082
    
    [GRAPHIC] [TIFF OMITTED] T2754A.083
    
    [GRAPHIC] [TIFF OMITTED] T2754A.084
    
    I asked the question, because I wanted to be comfortable 
when I came to you, that we had decent projections. This looks 
to me like it is. You know, most of this is from Millman, which 
is probably the best medical actuary available. They understand 
us and they know us. So they have been involved with doing 
these projections.
    There are 12 percent or so that is outside of the Millman 
projection, but this number includes even that 12 percent that 
is outside. So we have been accurate even with those that have 
to be taken off-model. So in terms of being able to come to you 
and say I think we have some confidence in where we are going 
in terms of our projections, this gives me some confidence.
    The other point I would make is that even within that now, 
the 333,000 OEF/OIF, you know, we have put some Kentucky 
windage in there because we want to make sure that we don't 
underestimate there. So we think we have 14 percent growth, and 
we have budgeted 21 percent in terms of the cost, because we 
want to make sure if something develops we are ready to do it.
    I think we are--again, if you have that other graph--we 
have confidence that we are going to not come in over the OEF/
OIF folks. Looking back now, you know, back in 2005 and 2006, 
my understanding is we may have missed it because we really 
didn't take it into account. But I think that we have the data 
to really support what we are doing.
    Mr. Edwards. What about the medical inflation factor? Is 
that something that the VA must follow OMB dictates? Or are you 
given the flexibility to estimate medical inflation? If so, 
what factor did you use for that?
    Secretary Peake. Sir, my understanding is the number is 
4.63 percent medical inflation. As you know, we are 5.9 percent 
more than really the augmented funding that you all gave us 
last year. So even if you say that 4.63 percent of that is 
going to be taken up by inflation, we are still a couple of 
percentage points above that for new initiatives and so forth.
    Mr. Edwards. For medical care?
    Secretary Peake. Yes, sir, for medical care.
    Mr. Edwards. Right. Okay. So 4.63 percent--do we know what 
the private health care sector uses?
    Secretary Peake. Sir, that is the national----
    Mr. Edwards. That is the national health care inflation 
factor?
    Secretary Peake. Yes, sir.
    Mr. Edwards. Okay. Who sets that? Does anyone know? Dr. 
Kussman, would you know who sets the national health care 
inflation factor? Is that an independent private group?
    Mr. Kussman. I am sorry. I don't know what company, but I 
think it is from----
    Secretary Peake. You know, my experience in the Army is 
that we would look for Millman. They do it for lots of people 
and they will tell you that they measure it.
    Mr. Edwards. Okay. Could I ask you about the inflation 
factor for construction? We are seeing it in highway 
construction, military construction--in some parts of the 
country inflation is as significant as 15 percent. At least on 
the MILCON side of our subcommittee's responsibility, we 
learned a couple of years ago that the OMB magically dictated 
that military construction inflation would be 2.4 percent per 
year. It doesn't pass the smile test or the laugh test.

                         CONSTRUCTION INFLATION

    Can you tell me what kind of a factor you are using for 
your construction inflation?
    Secretary Peake. Sir, I don't have that information. 
Perhaps somebody at the table does. I will tell you that we are 
concerned about the cost of cement, the cost of steel, and the 
cost in the competition with people that actually can do the 
labor. For us, it says wait a minute. Where--in the future, are 
we going to be running into billion-dollar hospitals, and who 
can afford them?
    So going back to Mr. Wamp's point and Congressman Dicks's 
point, this issue of maybe looking at how do we leverage these 
CBOCs in a different model is going to be important as we look 
our way forward.
    Mr. Rogers. Does OMB require you to use a certain inflation 
factor for construction?
    Mr. Henke. No, sir, not that I am aware of. We have a 
number of different commercial indices that range between 23 
percent and 37 percent in 2003 to 2007.
    Secretary Peake. I am just informed that we do market 
surveys of the local areas and we use a locality factor as we 
project our requirements.
    Mr. Rogers. Have your estimates for your major construction 
projects, such as in Las Vegas and around the country, are 
those updated in the 2009 budget using the best estimates? Or 
are we going to have to make some adjustments upwards on those 
projects because of inflation?
    Mr. Kussman. Mr. Neary, who works with our Office of 
Construction, says that for Las Vegas we used the latest 
information, which was in 2008.
    Mr. Neary. Las Vegas was funded in the 2008 budget, and we 
used the best information we had from a current market survey 
at the time, recognizing that when we come into a budget, we 
are some time away from a contract award.
    Mr. Edwards. Okay. Maybe what I would ask you is just that 
if you would monitor that. It is not the VA's fault that 
construction costs are going up significantly all across the 
country. As we need to make adjustments as to what the real 
costs are, it would be nice to plan ahead. Perhaps we need to 
build-in for some of that before we pass the 2009 budget 
through this subcommittee. Maybe that would be helpful and we 
could work together on that.
    Mr. Farr, we have 7 minutes and 52 seconds, would you like 
to take several minutes to ask questions before we go? And then 
I am going to turn it over to Mr. Wamp to take whatever time.
    Would this vote be the vote that you don't need to answer? 
Ms. Granger can then take whatever time she wants.
    Go ahead, Mr. Farr.
    Mr. Farr. Thank you very much.
    I bet they will love having us out of the room. [Laughter.]

                          PROSTHETIC RESEARCH

    My brother-in-law is disabled, and he has really worked 
hard. I really wanted to thank you for your support. We finally 
got DOD to admit, one, that there are golf carts on courses 
that have to meet ADA standard, and therefore have to buy the 
specialty carts. I think that is going to be great for vets all 
over the country, particularly those that have spinal cord 
injury.
    I don't know if it was last fall, DARPA had a demonstration 
downstairs in this building. What they are doing is remarkable 
research on prosthetics. I just wondered, I mean with your 
medical background, is VA doing anything to leverage the 
prosthetic research? We found that it is not a big private 
sector research area because there is not a big market.
    It is very expensive research, labor intensive, and there 
is certainly not a market big enough to support that. So it has 
to be subsidized research. I wonder if you have leveraged that 
with other federal agencies, DARPA and VA and others who might 
be involved to provide our wounded warriors with the latest 
advances in the DARPA research, and whatever research you are 
able to do also.
    Secretary Peake. Well, DARPA has its own funding. I have 
been involved with DARPA for a number of years in terms of 
their medical research. I know that they are into the 
myoelectric arms and the biofeedback mechanisms. I haven't seen 
their most recent stuff, but the collaboration between DARPA 
and DOD and the VA I think is----
    Mr. Farr. So when new technology comes out, it is very 
expensive. I think an arm was about $30,000. Is there an 
outreach to vets? I don't know enough about production and all 
of that, whether you call them in to get the training or things 
like that, on a prosthesis?
    Secretary Peake. It goes a little bit to what I was saying 
before about meeting the different needs of different veterans. 
I had something to do with the amputee center getting started 
out there at Walter Reed, because what I wanted was these young 
kids that really should be treated like world-class athletes--
they have their whole life ahead of them--to have every 
advantage that could go on.
    The VA's history then was more of taking care of the 
diabetic amputee that is older--my age and older. That is a 
different requirement set. So where I see us now is the fact 
that we are merging that continuum of care, and we are 
leveraging contract support to make sure that our VA has 
everything that we need to be able to support these new 
myoelectric arms and all of the new computerized legs and so 
forth.
    I would also point out that a lot of people think that 
there are thousands and thousands of these major amputees. 
There are about 701 at the last count of major amputees. So we 
can take care of them, and we can customize what we need to do 
for any one of them.
    Mr. Farr. That center you created, I visited it. It is 
fantastic. That is where I got the idea, because you are 
training people on golf as an indoor rehab, but when they went 
out to the courses, they couldn't get on them.
    Secretary Peake. You ought to come to our winter games and 
you will see these young men and women out there skiing.
    Mr. Farr. So the question I think goes back to whether 
there were any resources to bring these vets back, money to fly 
you back to Washington to outfit you. And I thought that is 
just a dumb-dumb--that we couldn't pay for a plane ticket?
    Secretary Peake. I couldn't agree with you more. I think 
that we have had some bureaucratic pieces there that we can 
overcome, given the numbers that we are talking about. Dr. 
Kussman is already addressing those on a one-by-one basis, but 
we can do a better job of making sure that people are enabled 
to do the right thing.
    Mr. Farr. Thank you. I like that answer. Thank you very 
much.
    Thank you, Mr. Chairman.
    Mr. Edwards. Thank you.
    We now have 2 minutes and 49 seconds, so we are going to go 
vote. Mr. Wamp waited 12 years to get this gavel, so if you 
will promise to give it back, I will proudly give it to you and 
recognize you for continuation. [Laughter.]
    Mr. Wamp. I won't even touch it, Mr. Chairman. It will be 
sitting right here when you get back. [Laughter.]
    Secretary Peake, let me just say anecdotally before I ask a 
brief question, and maybe move down the line here while the 
chairman is gone, you have been on the job for 6 weeks. I mean, 
I don't know of anybody with a life experience more well-suited 
for your position. However the president talked you into doing 
this, I just want to thank you for accepting this service.
    You sit here as if you have been in this job for years, 
because of your life experience. It really is impressive. It is 
nice every now and then in this city to see a round peg in a 
round hole, instead of a square peg in a round hole, which you 
see often.

                         INFORMATION TECHNOLOGY

    Back to the construction and the reforms, because I think 
in many ways this is at the heart of where we need to go. As I 
said to you, I was not as concerned about the president's 
budget request on construction as I was research, because I 
have somewhat of a built-in thought that veterans need as many 
options as they can possibly have on how to receive their 
health care, and the notion that it has to be inside of a 
veteran's ``box'' to me is like a 20th century mindset and we 
are in the 21st century.
    Number one, we have all of it, from telemedicine to, as you 
say, medical records, and all these transitions with technology 
and information that would allow people, frankly, to receive 
their care in a much more efficient way than traveling 
somewhere to get it in a veterans BOCs. And that is my problem.
    A couple of years ago we had a bad wreck in a van driven by 
volunteers, transporting our veterans from our out-patient 
clinic to the hospital 2 hours away, in very treacherous 
weather conditions. They have to go over the mountain, and it 
is one of those things that logic defies. Why would we do that, 
when in fact we have a $500 million public hospital in our city 
with available beds? Keep that veterans hospital in 
Murfreesboro, Tennessee open.
    Make sure that it is available so the veteran can go there 
if that is what they want. But if that veteran had a piece of 
paper in his hand that said, if I want to go to Erlanger 
Medical Center and get this care, it is going to be reimbursed 
at the proper Medicare reimbursement rate, or whatever we 
decide, but that gives the veterans more options, and then you 
don't have to worry about steel increasing by 20 percent and 
concrete increasing by 30 percent, and the availability of 
construction products.
    So that is a reform that would make sense to me--empowering 
veterans to use the providers that are available to them, 
because their family can come see them. Their quality of life 
and their recovery is much better. This danger of transport is 
eliminated, et cetera. Is that the philosophy of CARES that I 
thought was part of the reforms in the VA?
    Secretary Peake. Sir, I think that we have ways and some 
constituencies to work with to be able to do that kind of good 
work. There are areas that we are looking at that right now--in 
Harlingen, Texas, as an example, where we don't need a new 
hospital. We need to be able to take care of the folks locally. 
If they need something that we can do better than anybody up in 
San Antonio, we will move them.
    In Columbus, we have a super CBOC there because of the 
operating rooms and day surgery programs that are about to open 
here--September, I believe. We have a great model for doing the 
kinds of things that you are talking about. One of the things 
that we want to do is make sure that those veterans aren't just 
out there shopping, though--where we are paying for that care, 
that they are going to have the quality, and that we can assure 
the quality, and make sure that that information is part of 
their continuous longitudinal patient record.
    So there are some pieces to it that we need to work on, but 
I think it is the direction that we need to be going in.
    Mr. Wamp. I don't want to lead you, but wouldn't you say 
that political decisions on veterans construction in the past 
has led to certain inefficiencies today?
    Secretary Peake. One could ask why we have certain 
facilities in certain places. Yes, sir.
    Mr. Wamp. Okay. One other, and then I think Mr. Crenshaw 
will be ready.
    Blue Cross, for instance, one of their big offices is in my 
hometown as well, and really has a whole subsidiary now on IT 
and health records. Where is the VA compared to the private 
sector on this issue? As we make this a big issue today in your 
budget request, are we ahead or behind the private sector?
    Secretary Peake. Sir, we are ahead of the private sector. 
At a local level, you may find a good patient record and so 
forth. When you look at Blue Cross and Blue Shield, mostly that 
is billing information. When we talk about clinical 
information, Dr. Kussman and the team that he has is leading 
the way.
    Now, do we have an issue? Yes. We are on a must-pay system. 
It is not Web-based. We are going to need to migrate that 
system in the future, and that is going to take a lot of effort 
and a lot of dollars. When we get that done, it is going to be 
even better. It will allow us potentially to reach into the 
local doctor's office and allow them the opportunity to update 
the patient's record when we buy that care from them.
    And we really need to look with DOD, because as we migrate, 
there is an opportunity for us to come together in not 
necessarily the same system but to have absolutely computable, 
interoperable medical information on our patients.
    Mr. Wamp. Thank you, Mr. Secretary.
    I want to thank my Republican colleagues for coming and 
attending this important hearing today, and I yield to Mr. 
Crenshaw for any questions he may have.

               OUTPATIENT CLINIC IN JACKSONVILLE, FLORIDA

    Mr. Crenshaw. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. You will get thrown in the fire 
right away, and I appreciate your service.
    I have a couple of questions to start with that really 
relate to my district. Dr. Kussman, when you talk about health, 
it seems like every year I ask this question and try to get 
updated on a couple of things. One is the outpatient clinic 
that has been proposed for Northeast Florida. Everybody knows 
how important outpatient clinics are. We kind of move in a way, 
just like the health arena is, from in-patient to outpatient.
    And 11 years ago, as you probably know, the decision was 
made to expand an outpatient clinic in Jacksonville, Florida--
probably one of the largest populations of veterans are in 
Northeast and South Georgia. It has kind of been a combination 
of changing plans, bad luck with hurricanes, increasing costs 
of construction, some political disagreements back in the 
community. But it has been 11 years and people are so 
frustrated. I ask about this every year.
    Part of it, I guess, you can attribute to the general 
bureaucratic problems, but some of these things are maybe 
beyond your control, but it is almost embarrassing sometimes 
when people say, well, how are we doing on the clinic. The 
plans are great. Actually, the plans get better and better, but 
nothing happens.
    So I guess my question is, can you kind of give us an 
update on where we are? Maybe any benchmark dates that you can 
give us some encouragement as to where we are?
    Secretary Peake. Yes, thank you for the question. As you 
alluded to, it is a long, drawn-out story of efforts and not 
getting to exactly where we want to be. As you know, we are 
going to increase the clinic by about 30 percent in size. But 
to give you some dates, I think there is an end in sight here. 
The dates that I have been informed--we have been working with 
the city. We very much appreciate what the city has done with 
the Shands Medical Center and others related to parking and all 
those different things.
    My understanding is that in March of this year, we will 
finalize the contract with Shands. A few months later, we will 
issue the solicitation for offers. We are going to lease the 
property, or have a developer develop it and not build it 
ourselves. It will be leased property. And then we hope that by 
next year, we will have awarded the lease, and this will be 
completed by September, 2011.
    Mr. Crenshaw. And we are kind of on-track as far as that 
goes?
    Secretary Peake. I just got this today. If we don't make 
it, let me know. We will monitor it.
    Mr. Crenshaw. Well, I will see you again next year.
    Secretary Peake. No, no. [Laughter.]
    Mr. Crenshaw. Well, we have a few years. But that is 
encouraging. I know it has been a combination of things, but 
you can imagine that the metro population is pretty frustrated. 
So thank you for that update.

                   VETERANS CEMETERY IN JACKSONVILLE

    And the other is another kind of local issue. As you know, 
we have been working on the--I guess I will ask Under Secretary 
Tuerk about this--the veterans cemetery, which we authorized 
back in 2000. We have made progress. We went through all the 
site selections, environmental studies. I think we are about to 
acquire the land. And then originally if the land is acquired, 
I think in this year's budget there is money to kind of fast-
track the construction. The hope was that by the end of this 
year, if everything goes according to plan, we could actually 
have the fast-track take place, and actually have some burial 
sites open by the end of the year.
    So from your perspective, I try to talk to the city from 
time to time. I know that there are some negotiations going on. 
But could you give me an update from your perspective on how we 
are doing? Can we get to that point in terms of the fast-track 
construction and actually--because I know there is already 
someone there to over-see this--so everything is moving in the 
right direction. But I just want to see what you have to say 
about where we are.
    Under Secretary Tuerk. I am happy to give you an update, 
Congressman. It is a pretty good story. We are on track. We 
don't yet own the site. As you know, the city of Jacksonville 
owns the 568-acre site that we are going to develop. We expect 
to have received an offer to sell title to the property from 
the city by the end of February. We will then be in a position 
to actually take title in late spring or early summer.
    We are not waiting, though, to get title before we started 
design of the cemetery. In fact, we let the contract for design 
activities last August. I have some materials here I can share 
with you after the hearing if you would like to see the 
sketches and drawings. Design is not final yet, but we are well 
along.
    Right now, we anticipate breaking ground in August of this 
year. We are on track. It is going to be close. It is going to 
be tough, but we are on track to have our first burials before 
the end of this year. Right now, we are scheduling December, 
2008 to have our first burials in the so-called fast-track, or 
the early turnover, area. So we are moving along crisply. There 
is a lot that can go wrong, but so far so good. It is my 
objective to get that cemetery open before this year is over.
    Mr. Crenshaw. That is great news. I have been kind of 
pushing the city. The city council is still--and I think they 
are on track to have the title transferred.
    Under Secretary Tuerk. I appreciate that. We appreciate 
your support and help. We had some issues to work through with 
the city in terms of the boundaries, but we have resolved those 
matters. I think we are in good shape now. If I may, we will be 
in communication. If we could use some help in dealing with the 
city council, I would like to be able to call on you, if 
possible.
    I might also note that the cemetery director, one of my 
leaders in the NCA headquarters office of a construction 
business here, and a representative from the design firm, the 
AE firm that is designing the cemetery, are going to escort 
some of your staff members around the grounds on Monday, so you 
will have a good feel through your staff about what this site 
is going to look like.
    Mr. Crenshaw. Right. Thank you so much.
    Mr. Wamp. Thank you, Mr. Crenshaw.
    The gentlewoman from Texas will be recognized, but let me 
say there are 13 minutes left on the first of eight suspension 
votes. We may be able to finish on this side.
    Ms. Granger.

                      SUICIDE RATE AMONG VETERANS

    Ms. Granger. Great. Thank you.
    I know that we are all alarmed at the increase in seeing 
the suicide rate among veterans. There was recently a story in 
the Dallas Morning News about two veterans who committed 
suicide in the Dallas-Forth Worth area just within days of 
being released from the Dallas VA Medical Center.
    So I have two questions. The first one is what is the VA 
doing to determine what is causing this rise in the suicide 
rate, and of course what steps you are doing to address it. The 
other part of it has to do with the percentage of those 
veterans who are members of the National Guard and Reserve.
    According to the DOD data, approximately 28 percent of the 
forces deployed to Iraq and Afghanistan were National Guard and 
Reserve members. But a recently released report found that over 
half the veterans who commit suicide--half--were guardsmen and 
reservists. So I would ask if you are also looking at that 
particular problem and what you are finding out.
    Secretary Peake. Yes, ma'am. If I could address the second 
issue first.
    Ms. Granger. Yes.
    Secretary Peake. I am familiar with this data. What we did 
to get that data was to look at everybody that was separated 
from the service. Of those that are separated from the service, 
those are the ones that become veterans and then we can get 
information on. And really, that is about half and half, active 
and reserve. So you still have a lot of active duty guys and 
gals on active duty.
    This study you are talking about where we had 144 suicides 
was about split between active and reserve. So it really 
doesn't show that there is a much larger number among the 
reserves. It looks like it is about similar, pretty close.
    Ms. Granger. Thank you for that.
    Secretary Peake. Yes, ma'am.
    The other thing is to tell you that we really are doing 
quite a lot about this. We are very concerned about it. Even 
144, and we really look at age, match and controls with the 
general population. It is not way out of bounds if you just 
look at the young men in that cohort. It is similar to what the 
civilian population is, so it is not way out.
    But you say, boy, these are our soldiers, sailors, airmen 
and Marines and we shouldn't have anybody committing suicide, 
is what we would like. So we have the suicide hotline that has 
been put in place; 23,000 calls to the suicide hotline; about 
400 rescues; 250 active duty members have called that, or in 
that ballpark.
    We feel very good that has been put in place. Dr. Kussman 
has put suicide prevention coordinators in every single one of 
our medical centers. There has been a policy to train all of 
our VA employees about the issues of suicide. People get asked 
about it, so they can get screened for that, as well as PTSD 
and TBI, when they come in to see us.
    So there is a concerted effort. I think part of this 
outreach piece is to get people in. It is very interesting that 
that study did suggest to us that if you come in and avail 
yourself of being seen at the VA, that it is a lower incidence 
of suicide. Now, you have to look at the numbers carefully in 
terms of statistics, but we want more people to come and avail 
themselves of our services, so we want to push our outreach.
    There have been 1.5 million people deployed. About 800,000 
overall have separated from the service. About 300,000 have 
come in to be seen by the VA. That is 500,000 out there that 
haven't yet, but we can see them under the way the rules are. 
So we want to encourage those that need it, and educate their 
families to say, hey, you maybe ought to go. It is okay. We 
want to break down the stigma.
    Ms. Granger. Thank you. And thank you for your service. I 
am like Congressman Wamp, very impressed with your background 
and how much good you can do in the position you are in right 
now. Thank you.
    Secretary Peake. Thank you, ma'am.
    Mr. Wamp. Mr. Carter.

                        OVERPAYMENT OF BENEFITS

    Mr. Carter. Thank you very much.
    First, let me thank everybody for being here, and what you 
do for the veterans. There is nothing more important, as far as 
I am concerned where I live, in taking care of our veterans and 
making sure they have the best. I just have a question that 
came up last year. We talked about overpayment of benefits. 
Admiral Cooper, we talked about it last year. At that time, 
there was some indication that--and we had a follow-up visit 
about that also--that it really wasn't an issue at the time.
    But then on September 28, 2007, the IG report indicated 
that wasn't necessarily the case. This report stated that delay 
on the part of the VA regional office employees resulted in 
$5.8 million for only 209 cases. There were an additional 
$481.4 million in overpayments, of which Veterans Benefits 
Administration staff could have avoided $50.8 million had they 
processed adjustments promptly. VBA's emphasis on incoming 
claims created a priority list, and adjusting existing claims 
was low on that list. And last year, this committee provided 
for 3,100 new claims processors.
    Now, in light of that information, first I guess I would 
like to know how many more claims processors are involved in 
this process of that 3,100 than we had last year when we 
discussed this. How are these new processors helping address 
this backlog? And if the IG found $55 million in avoidable 
overpayments so easily, why is it that we were told last year 
that this wasn't a problem?
    Mr. Cooper. I can tell you that we have looked into it, and 
are continuing to look into it. We are taking some of those 
people coming aboard, the 3,100. We have been hiring very fast, 
having gotten a start on that at the beginning of January of 
last year. We have to do a lot of training to get those people 
to be able to fully contribute to the total process.
    On your question about overpayment, it is a matter of 
quality. We are looking at it very closely. It continues to 
happen. Hopefully, we see it less than in the past, but I can 
only assure you that we continue to look at it, and are doing a 
lot of training with these new people coming on board.
    Mr. Carter. Well, these overpayments create a crisis in the 
veteran's life, because he gets overpaid. He operates on that 
money. And then he gets a notice that he was overpaid and he 
needs to reimburse, and it creates a crisis for the veteran. I 
am not trying to say I don't want to pay a veteran as much as I 
can get in his hands, but then to get him out there with 
something he owes the government, and then tell him he has to 
put it back, puts a crisis on the veteran and his family.
    I think quite a few in my district have raised this issue 
with me. It has caused a real domestic crisis in their families 
with their wives and children. So that is why the question was 
asked last year. I think it really needs to be looked at 
because they have enough stress in their lives without having 
to owe the government a bunch of money. I think it is really 
important that we try to be accurate on that. So I just wanted 
to raise that issue again this year.
    Secretary Peake. I appreciate it. It does talk a little bit 
to the complexity of our disability system, and why we need to 
figure out how to simplify it. One of the things that we have 
done is put an RFI out for rules-based engines to get into this 
paper, this process that I mentioned in my opening remarks, so 
that we can start to have this stuff digitized with rule-based 
engines. Hopefully, with a more simplified system, we will be 
able to have more accuracy and more automated checking, instead 
of just somebody looking at reams and reams of paper. So I 
appreciate the point.
    Mr. Carter. I thank you. My whole point is to make sure 
that that veteran's life is better. That puts a crisis in his 
life.
    I thank you, Mr. Ranking Member.
    Mr. Wamp. Well, thank you.
    Now, we have 4 minutes left on this first vote. I am going 
to go vote. The chairman has indicated from the floor that he 
does desire to come back. Hopefully, the remaining seven votes 
will be reduced to 2 minutes each, which will shorten the time 
that you will have to wait.
    [Clerk's note.--Questions for the record submitted by 
Chairman Edwards follows:]

                              Vet Centers

    A year ago the Department announced that 23 new Vet Centers would 
be opened to make ``vital services more accessible for returning 
veterans.'' Can you tell me what criteria are used to determine the 
location of Vet Centers? What resources do you need for a successful 
Vet Center in terms of space, people, and services? Why doesn't the 
budget request contain any new Vet Centers for FY 2009?
    Question. Can you tell me what criteria are used to determine the 
location of Vet Centers?
    Response. The site selection was based on an evidence-based 
analysis of demographic data from the U.S. Census Bureau and the 
Department of Defense Defense Manpower Data Center (DMDC) and with 
input from the seven Readjustment Counseling Service Regional Offices. 
The main criteria for new Vet Center site selection are the veteran 
population; area veteran market penetration by Vet Centers; 
geographical proximity to VA medical centers; and community based 
outreach clinics in the Vet Center's Veterans Service Area (VSA). This 
analysis included information from the DMDC as to the current number of 
separated OEF/OIF veterans and the reported distribution of home zip 
codes of separated OEF/OIF veterans as well as the number who were 
married and those with children. Special consideration for relatively 
under-served veterans residing in rural areas at a distance from other 
VA facilities is given in site selection for some of the new Vet 
Centers.
    Question. What resources do you need for a successful Vet Center in 
terms of space, people, and services?
    Response. Vet Centers are small community-based leased facilities 
with a staff of 4 to 5 team members including a team leader, office 
manager, and 2 to 3 counselors. Space requirements are approximately 
600 square feet per staff member, and include confidential office space 
suitable for provision of professional counseling services for 
individuals, groups and families. The annual cost for a new Vet Center 
is approximately $380,000. Funding for these centers are covered in the 
Medical Care appropriations.
    Question. Why doesn't the budget request contain any new Vet 
Centers for FY 2009?
    Response. It is anticipated that the 23 VET Centers coming on line 
in FY 2008 will be adequate through FY 2009. VA will monitor the change 
in workload for the VET Centers to ensure that actual experience is in 
line with estimates.

[GRAPHIC] [TIFF OMITTED] T2754A.085

[GRAPHIC] [TIFF OMITTED] T2754A.086

[GRAPHIC] [TIFF OMITTED] T2754A.087

[GRAPHIC] [TIFF OMITTED] T2754A.088

[GRAPHIC] [TIFF OMITTED] T2754A.089

[GRAPHIC] [TIFF OMITTED] T2754A.090

[GRAPHIC] [TIFF OMITTED] T2754A.091

[GRAPHIC] [TIFF OMITTED] T2754A.092

[GRAPHIC] [TIFF OMITTED] T2754A.093

[GRAPHIC] [TIFF OMITTED] T2754A.094

[GRAPHIC] [TIFF OMITTED] T2754A.095

[GRAPHIC] [TIFF OMITTED] T2754A.096

[GRAPHIC] [TIFF OMITTED] T2754A.097

[GRAPHIC] [TIFF OMITTED] T2754A.098

                Major Construction--Gravesite Expansions

    The budget includes $83.4 million for gravesite expansion at three 
existing National Cemeteries. What were the criteria used for selection 
of these three sites for expansion? What other sites are also 
candidates for gravesite expansion?
    Response. Usually, only our large national cemeteries are 
candidates for major construction ($10 million or more). Most gravesite 
expansion projects are addressed through the minor construction 
appropriation.
    The principal criterion for selecting a site for a gravesite 
expansion project is the expected depletion of casketed gravesites. It 
is NCA's top priority to prevent the closing of a cemetery and the 
interruption of burial services. The sites where we propose major 
construction expansions in the FY 09 budget--Calverton (NY), 
Massachusetts and Puerto Rico National Cemeteries--will close to first-
casket interments by 2012 if we do not expand those cemeteries with the 
requested funds. The projects at these cemeteries will provide an 
estimated nine to ten years of burial capacity. Infrastructure needs 
are also included in the scope of each project to take advantage of 
economies of scale.
    The following national cemeteries are projected to deplete 
available gravesites between FY 2013--2018 and are potential candidates 
for future major gravesite expansion projects: Indiantown Gap (PA), 
Quantico (VA), Fort Mitchell (AL), Houston (TX), Dayton (OH), Abraham 
Lincoln (IL), Jefferson Barracks (MO), Tahoma (WA), National Memorial 
Cemetery of Arizona, and Riverside (CA).

    [Clerk's note.--End of questions for the record submitted 
by Chairman Edwards.]
                                        Tuesday, February 26, 2008.

                  AMERICAN BATTLE MONUMENTS COMMISSION

                               WITNESSES

BRIGADIER GENERAL JOHN W. NICHOLSON, U.S. ARMY RETIRED, SECRETARY, 
    ACCOMPANIED BY BRIGADIER GENERAL WILLIAM J. LESZCZYNSKI, JR., U.S. 
    ARMY RETIRED, CHIEF OPERATING OFFICER AND EXECUTIVE DIRECTOR;
TOM SOLE, DIRECTOR OF ENGINEERING AND MAINTENANCE
MIKE CONLEY, DIRECTOR OF PUBLIC AFFAIRS
ALAN GREGORY, DIRECTOR OF FINANCE AND ACCOUNTING
MATTHEW BECK, BUDGET OFFICER.

                       Statement of the Chairman

    Mr. Edwards [presiding]. Let us call the committee to 
order.
    This afternoon, the subcommittee will hear testimony from 
four agencies related to the issues of concern to retired 
military personnel and other veterans. Our first panel is from 
the American Battle Monuments Commission, with a request of 
$47,470,000 for salaries and expenses, and $17,100,000 for the 
foreign currency fluctuation account.
    For salaries and expenses, this budget is $2.87 million 
higher than the fiscal year 2008 appropriation. The foreign 
currency fluctuation account request is $6.1 million above 
fiscal year 2008 appropriation.
    As we know, the American Battle Monuments Commission is 
responsible for the administration, operation and maintenance 
of cemetery and war memorials commemorating the achievements 
and sacrifices of the American armed forces. The commission 
maintains 24 permanent American military cemetery memorials and 
34 Federal and Non-Federal monolith memorials, markers and 
offices in 15 foreign countries.
    Representing the commission today is its Secretary, 
Brigadier General John Nicholson, retired. General, welcome 
back to our subcommittee.
    General Nicholson. Thank you, sir.
    Mr. Edwards. And Brigadier General, retired, William 
Leszczynski, Executive Director and Chief Operating Officer. 
General Leszczynski, welcome back as well.
    Thank you both for your distinguished service to our 
country in the military. General, please give your brother our 
very best, and let him know we are deeply grateful for not only 
his service to the military, but his tremendous work on behalf 
of America's veterans as VA secretary, and we wish him all the 
best.
    General Nicholson. Thank you, sir. I will.
    Mr. Edwards. In a moment, I will recognize you for your 
opening comments, but I would like to first recognize our 
ranking member, Mr. Wamp, for any comments he would care to 
make.

         Opening Statement of Ranking Minority Member Mr. Wamp

    Mr. Wamp. Mr. Chairman, if I could just open by saying that 
we too, join your friends and associates in expressing our 
condolences for the loss of your father, who lived 90 
outstanding years, and whose son is a living testament to what 
kind of a man he was. And so, we are with you, and I know that 
this is a time of loss, but at the same time a time of 
celebration for 90 outstanding years, as you shared with me as 
we walked off the floor just a minute ago. I have the highest 
admiration for you and that speaks volumes about what kind of 
guy your dad was.
    Mr. Edwards. Thank you. He was a naval aviator in World War 
II and a great father. Thank you for that. He wrote the last 
chapter in his book and lived life to the fullest, like so many 
of the greatest generation. Thank you for your kind words and 
thoughts.
    Mr. Wamp. And to these two generals, welcome and thank you 
again for the courtesy of coming by my office and just getting 
to know me and talking a little bit about your work and these 
important assets. I just want to share publicly that, as I said 
in my office, having been at Normandy and stood among the white 
crosses, you really don't need to do any more than that to 
understand the importance of what these facilities that you are 
charged with taking care of, and we are charged with 
resourcing, mean in the world.
    There is no greater sense of pride that an American can 
have than to stand in one of your cemeteries in one of these 
places, on this hallowed ground, on foreign soil, than to know 
how important it is for us to maintain them and to give these 
places the proper resources to honor the sacrifices of the men 
and women that are interred there. For any American who has not 
done that, it is a breathtaking moment of patriotism and pride.
    I think, while we might split hairs from time to time over 
exactly where the money goes, we stand completely united in 
this Congress behind the missions that you represent and carry 
out for these incredible places. Thank you for your appearance 
here today, and I look forward to your testimony.
    Mr. Edwards. Thank you. So very well said.
    It is going to be my tradition to also recognize Chairman 
Young, who has been such a leader on this committee, the full 
Subcommittee on Defense Appropriations, and our full committee. 
Mr. Chairman, any comments you would care to make?
    Mr. Young. Mr. Chairman, thank you very much.
    I would like to join the comments of my ranking member 
about your father.
    Mr. Edwards. Thank you, sir.
    Mr. Young. I certainly agree with everything that Zach 
said, and also his comments about visiting the cemeteries 
overseas. I have had the chance to visit many of these American 
cemeteries overseas and I can tell you, you come away with just 
a special feeling that it is hard to describe, the inspiration 
and the feeling of humbleness leaving one of those cemeteries 
that are really beautifully maintained. If there is anything 
that you need to make sure that they are maintained up to the 
standards that you have established, let us know. The chairman, 
I am satisfied, would be more than happy to fix it.
    Mr. Edwards. Mr. Young and Mr. Wamp said it well for all of 
us on this subcommittee.
    Thank you both for your service. General Nicholson, your 
full testimony will be submitted. I would like to recognize you 
now for your opening comments.

            Statement of Brigadier General John W. Nicholson

    General Nicholson. Thank you, Mr. Chairman and members of 
the subcommittee.
    Before I begin my opening remarks, I would like to request 
that my written statement be entered into the record.
    Mr. Edwards. Without objection.
    General Nicholson. On behalf of our chairman, General 
Franks, and our commissioners, I would like to thank you for 
the opportunity to appear before you regarding the fiscal year 
2009 appropriations request for the American Battle Monuments 
Commission.
    Since its creation in 1923, the American Battle Monuments 
Commission has served as guardian of America's overseas 
commemorative cemeteries and memorials. Our purpose is to 
preserve for future generations the 24 cemeteries and the 
memorials, monuments and markers we maintain around the world 
to honor America's war dead, missing in action, and those who 
fought at their side.
    These cemeteries and memorials are symbols of America's 
willingness to fight for our freedom and the freedom of others. 
They inspire patriotism. They evoke gratitude, and they teach 
important lessons of history to all who walk those hallowed 
grounds.
    Our fiscal year 2009 request provides $47.47 million for 
salaries and expenses. Our request also includes $17.1 million 
for our foreign currency fluctuation account, which has become 
a significant issue. This account is used to defray losses due 
to changes in the value of foreign currency against the U.S. 
dollar. With the funds in this fluctuation account, maintain 
our purchasing power to operate and maintain our commemorative 
sites, which is critical when you consider that 80 percent of 
the commission's annual appropriation is spent overseas using 
foreign currency.
    Since the summer of 2006, the U.S. dollar has fallen 
steadily against the European euro and the British pound. This 
drop in the value of the dollar has serious implications on our 
ability to maintain our cemeteries and memorials. To lessen the 
impact of the declining value of the U.S. dollar on our 
overseas operations, we are requesting that the committee 
modify the commission's appropriation language to read as 
follows: ``Such sums as may be necessary.''
    This change would ensure that we have the funding we need 
when we need it to maintain our purchasing power overseas if 
the dollar becomes weaker than estimated, while maintaining the 
committee's oversight of these expenditures. The commission's 
fiscal year 2009 request fully supports our strategic goals and 
continues our commitment to honor the service, achievements and 
sacrifice of America's armed forces and to fulfill the promise 
of our first chairman, General of the Armies John J. Pershing, 
who wrote that ``time will not dim the glory of their deeds''.
    I would like to close my remarks by introducing the staff 
that accompanies me today. I believe you know General Bill 
Leszcynski, who is the Chief Operating Officer and Executive 
Director. Tom Sole is the Director of Engineering and 
Maintenance. Mike Conley is the Director of Public Affairs. 
Alan Gregory is the director of finance and accounting. And 
Mathew Beck is our Budget Officer.
    Thank you, Mr. Chairman. This concludes my opening 
statement. I will be pleased to respond to your questions.
    [Prepared Testimony of Brigadier General John W. Nicholson 
follows:]

[GRAPHIC] [TIFF OMITTED] T2754A.099

[GRAPHIC] [TIFF OMITTED] T2754A.100

[GRAPHIC] [TIFF OMITTED] T2754A.101

[GRAPHIC] [TIFF OMITTED] T2754A.102

                              SUPPLEMENTAL

    Mr. Edwards. Thank you, general.
    Let me just begin on the foreign currency fluctuation 
issue. It just seems to me it would not be the intent of 
Congress to want the hallowed ground that you have 
responsibility for to be impacted for the worse because of 
foreign currency fluctuations that are simply not under your 
control. Do you know if OMB has any intention of requesting in 
a supplemental appropriation bill the money needed to make it 
up? I think you have a $6.1 million shortfall you are 
projecting for the present fiscal year 2008. Do you know if OMB 
has signed off on any request to ask Congress for that 
supplemental funding?
    General Nicholson. Let me ask Alan to answer that. I think 
I know the answer, but I want to make sure.
    Mr. Gregory. I am Alan Gregory, the Director of Finance. 
OMB has not indicated or identified any supplementals 
specifically for that. However, they have supported our efforts 
to identify that requirement.
    Mr. Edwards. Okay. Can you briefly explain the kind of 
cutbacks you would have to put in place to make up for a loss 
like this? A $6.1 million cut relative to your budget would be 
a 15 percent cut in your budget, with a lot of fixed expenses. 
What would you have to do to make up for a $6.1 million loss?
    General Nicholson. We would have to take that money out of 
projects that we have planned to implement to maintain the 
standards that were described here and that you have seen.
    Mr. Edwards. Right.
    General Nicholson. We don't want to cut into salaries. That 
would be the last resort. So we would make our cuts in the 
engineering and maintenance.
    I would like to ask my chief of engineering and 
maintenance, Tom, to speak to it.
    Mr. Sole. It would be a very difficult cut for us to make. 
In fact, we were having that conversation on the way here. As 
you know, most of our budget is taken up by fixed costs, like 
personnel, so it is very difficult to change in the short term. 
And so things like equipment purchasing to replace outdated 
equipment or engineering, a lot of what we have worked on as to 
infrastructure modernization, I think a lot of what this 
committee has given us in the past and this year, would be 
sacrificed for this.
    Mr. Edwards. Would you be able in the next week or two to 
put together a list of maybe not the exact projects, but the 
most likely projects you would have to cut back on for the 
total $6.1 million so we could look at the specifics of what 
the impact would be? That might help us as we are going into 
the supplemental process perhaps as early as March. I don't 
know the latest plan, but it would allow us to present a case 
for this.
    Mr. Sole. Yes, sir.
    Mr. Edwards. Thank you very much.
    Mr. Wamp.

                      FOREIGN CURRENCY FLUCTUATION

    Mr. Wamp. Thank you, Mr. Chairman.
    Just a quick follow up on that. General, those words in 
your hands, ``such sum as may be necessary,'' are not troubling 
to me, but I think those should be troubling words to any 
appropriations subcommittee when a request is made to include 
language ``such sums as may be necessary,'' because that 
certainly in some areas of government spending could get out of 
control.
    I wonder if there is another way, or did you all consider 
other language recommendations besides that that might somehow 
peg the amount to the fluctuation in currency? Or is there just 
no way to do that?
    The second part of my question is how do you forecast into 
the future in any way what the value of the dollar is going to 
be? I know this year it was the biggest issue when you came to 
see me, but I just wondered at the hearing here today what our 
options are, or if you have already exhausted them all and you 
think this language change and this amount of money is the only 
option that we have?
    General Nicholson. Thanks. That is a real good question. 
Let me give you two points, and then ask Alan to help me out 
here.
    This is not unprecedented, this ``such sums as necessary.'' 
It is used elsewhere in the United States Government and it is 
successful. Secondly, OMB backs that.
    Now, how about some more details, Alan?
    Mr. Gregory. Several years ago, this committee asked the 
GAO to examine what our process was for estimating. They deemed 
it reasonably appropriate after their study. The process we go 
through is we look at the rates and we look at the projection 
of those rates, and we have to lock them in at a certain point. 
That point is usually the last calendar date in the year prior 
to the submission. So for the fiscal year 2009 budget, we did 
it on December 31, for this budget that we are looking at for 
fiscal year 2009. For fiscal year 2008, it was the year prior. 
So when we block it in, the rate was .82, and now it is .69. So 
it has dropped considerably. So that is where that delta amount 
comes in.
    We looked at other alternatives and numbers, to time it to 
the fluctuation account, but we couldn't find any other means 
within the appropriation language, and we looked at a number of 
appropriation titles from the Department of Agriculture and 
several others that use ``such sums'' as appropriate. Our 
purpose was to look at this from the standpoint of not being 
allowed to go directly to the Treasury without Congress, and 
using a justification. In those years that (INAUDIBLE) we would 
not seek that.
    Mr. Wamp. One other question, the capital security cost 
sharing program is a 97 percent increase. While it is only $1 
million, in this city that is not much money. It is a 97 
percent increase and I just wanted you to tell the committee 
basically what services you get from the State Department for 
this money to begin with, and why the increase.
    General Nicholson. Well, that is a good question. This has 
hit us, this assessment, but we are implementing it by paying 
it. I would ask some of my colleagues here to tell you 
specifically what is hitting us here. Alan?
    Mr. Gregory. Sir, the capital security cost sharing part of 
the law came up in 2005 under the consolidated appropriations, 
which requires all of the agencies who have an overseas 
presence to participate in the program. Because we have people 
designated overseas within that, 398 are overseas, we have to 
pay an updated proportion share to that.
    Mr. Wamp. And the increase comes just from what?
    Mr. Gregory. We did not have the budget for that previously 
and we have lost our exemptions and now we have to participate 
in the program.
    Mr. Wamp. You have nowhere to turn?
    Mr. Gregory. No, sir.
    Mr. Wamp. Okay.
    Thank you, Mr. Chairman.
    Mr. Edwards. Thank you.
    Mr. Boyd.
    Mr. Boyd. Pass, Mr. Chairman.
    Mr. Edwards. Okay.
    Mr. Bishop.
    Mr. Bishop. No questions.
    Mr. Edwards. Well, that's the greatest compliment I have 
ever heard to any federal agency--three members of Congress 
passing up the opportunity to ask questions--a great 
compliment.
    Mr. Young.
    Mr. Young. Mr. Chairman, I don't have any questions. I have 
read the statements. I believe that they are very, very total 
and thorough, and I just offer our support to maintain the 
cemeteries and the battle monuments to the extent that is 
necessary. It is a proud part of America.
    Mr. Edwards. Okay. Thank you.
    Mr. Crenshaw.

                          SECURITY AT NORMANDY

    Mr. Crenshaw. Just a brief question. Last year, we were 
getting ready to open the visitor center at Normandy, and I 
haven't had a chance to go there, but I understand it has just 
been wildly successful. At the time, we talked about since it 
is such hallowed ground and of such great interest to 
Americans, as well as folks from all around the world, the 
question kind of came up last year about security, because in 
this unfortunate age in which we live, even a place like 
Normandy would be so prominent and such a focus for some sort 
of terrorist attack.
    I am wondering what kind of implementation was put in place 
dealing with security, and has that affected people's freedom 
to really appreciate everything. Can you just touch on that, 
because I know we talked on that last year?
    General Nicholson. Yes, sir. Let me give a quick answer, 
and then let these experts give more detail.
    The security was dictated by the arts. The security officer 
from the embassy said you need to put pylons here so they can't 
drive into your building. You need some guards and the whole 
nine yards.
    Secondly, I don't think that it has impeded the visitors 
very much. It is not something we can't deal with. So that is 
my quick answer to your question. I would defer to Bill. You 
know more about what is involved that I do.
    General Leszcynski. The secretary has mentioned a few 
things that have been put in place. Certainly, the most visible 
one is the security guards that we have over there to basically 
monitor the people that are coming into the building, so we do 
have a security check to make sure that everything is fine. We 
try to low-key it as much as we can because we certainly don't 
want that to be a deterrent to anybody to come and visit, 
because we think the message that we have portrayed in the 
Normandy visitor center, the sacrifice of the men and women 
that took part in the Normandy invasions is one that is very, 
very important.
    So we have a good security force there. They are blended in 
with the other host nations and U.S. personnel that are working 
there in the Normandy visitor center, but they are a visible 
deterrent. If you go there, you are going to see people that 
are obviously security guards. So that in itself has a good 
effect if there was anybody out there that was thinking about 
making it a likely target.
    Mr. Crenshaw. Good. Thank you.
    Thank you, Mr. Chairman.
    Mr. Edwards. Thank you.
    Let me be brief on one other point, because I know we have 
three other hearings this afternoon. General, I think the quote 
that you used from General Pershing is really powerful, ``time 
will not dim the glory of their deeds.'' That is more eloquent 
than I could have put it and it that makes me so passionate 
about protecting Pointe du Hoc and honoring the incredible 
courage of Colonel Rudder and the Rangers on D-Day. I know how 
both of you care so deeply about preserving that historic site.
    I know you have been working hard on that project. Let me 
just, without getting into all the details of it, compare it to 
where we were a year ago. Does it look as if the conclusion is 
there is a possible way to protect that site from literally 
falling into the ocean at sometime in the next several years?
    General Nicholson. The answer to that question is yes. A 
few details--we don't have a complete study yet, but we think 
we know where it is going.
    Mr. Edwards. Right.
    General Nicholson. We can't be presumptuous totally on 
that, and we will get that this summer, and then we will come 
up, look at the plan, what is feasible, and look at the cost, 
and get the French involved. That is what it is going to take.
    Mr. Edwards. Right. We already had some interaction with 
the French on this.
    General Nicholson. Yes.
    Mr. Edwards. Are they aware of what we are doing? And so 
far, have they been open to trying to preserve this site?
    General Nicholson. Bill will take that.
    General Leszcynski. I can answer that one. We have kept the 
French informed all along the way, so they know everything that 
we are working on. We are hopeful that there is an engineering 
solution, but we are also very well aware of the politics that 
are involved. So we have been very, very careful to keep the 
French involved along the way.
    We have had meetings, a number of meetings with the 
Suprefite of Bayou who is very, very supportive. He is an 
engineer himself. He is also getting some great support from 
his boss, who is the Prefect. I attended one of those meetings, 
along with Tom Sole, and people from ABM&C and there were 
representatives from Texas A&M over there before Christmas. You 
could tell from that meeting that the Suprefite wanted to move 
the process ahead.
    On January 19, there was another meeting over there 
attended by somebody from Texas A&M, Jean-Louis Briand. There 
were representatives from American Battle Monuments Commission. 
There were also the Suprefite who hosted the meeting. There 
were representatives from the Conservatoir Literal, and another 
agency called the DeRente. The presentation was given by Jean-
Louis Briand to bring people up to date on the technical 
aspects of the project.
    There was also some discussion initially about moving the 
bunker, so he gave a presentation to convince people why that 
was not such a good idea. That idea is not going anyplace 
because the Suprefite said it wasn't, and the Prefite said it 
wasn't. So that is off the table. But there was some discussion 
there at that meeting, and the final results of that meeting is 
that the representative from the Conservatoir Literal made the 
recommendation and a package was put together to be forwarded 
to what is known as the scientific committee for review.
    We think that this is a very, very positive step. So I 
guess to summarize, we think it is moving forward. We have 
tremendous support out of two people who are key players, the 
Suprefite and the Prefite. In fact, the Suprefite directed that 
ABMC prepare the construction documents, which is a very, very 
positive step. So we will wait for the final results of the 
study from the people from Texas A&M and the--communities, and 
hopefully we can bring things together at the end of the 
summer.
    Mr. Edwards. Thank you for your hard work on that.
    To my colleagues, if any of you haven't been to Pointe du 
Hoc, the German observatory and even the monument dedicated to 
Earl Rudder and Rudder's Rangers, where Ronald Reagan probably 
gave one of his finest speeches ever, perhaps one of the most 
powerful presidential speeches in history, that is off limits 
to tourists now because of wind and water erosion. It would 
just be a tragedy, in my thinking, to lose that to future 
generations and all that stands for.
    I have one request, and I will finish with this. I 
understand that the final report, the engineering study, may 
not come out until July of this year. If in the March-April 
timeframe, you have even some early estimates of what it would 
cost, or what would be a first-year effort, if it looks like 
you have a plan that might well work, if you could just give us 
some estimate, so that maybe we can plug that figure in our 
markup on this bill. We can't let time defeat us on this and 
the quicker we move, the greater the chance of saving that 
hallowed ground. Thank you both for what you have done on that.
    Mr. Wamp. No more questions, Mr. Chairman.
    Thank you for your service.
    Mr. Edwards. Any other questions, members?
    If not, thank you both for the great work you do.
                                        Tuesday, February 26, 2008.

ARLINGTON NATIONAL CEMETERY AND UNITED STATES SOLDIERS' AND AIRMEN'S 
                    HOME NATIONAL CEMETERY

                               WITNESSES

JOHN PAUL WOODLEY, JR., ASSISTANT SECRETARY OF THE ARMY, CIVIL WORKS 
    ACCOMPANIED BY JOHN C. METZLER, JR., SUPERINTENDENT, ARLINGTON 
    NATIONAL CEMETERY
CLAUDIA TORNBLOM, DEPUTY ASSISTANT SECRETARY OF THE ARMY

                       STATEMENT OF THE CHAIRMAN

    Mr. Edwards. Secretary Woodley, Mr. Metzler, welcome to 
both of you back to our subcommittee. It is very good to have 
you here.
    We will now take testimony on the fiscal year 2009 budget 
submission for the Department of the Army, specifically 
Arlington National Cemetery and the U.S. Soldiers' and Airmen's 
Home National Cemetery. We welcome back Mr. John Paul Woodley, 
Assistant Secretary of the Army for Civil Works, to testify on 
behalf of the cemeteries. Mr. Woodley is accompanied by Mr. 
Jack Metzler, second-generation superintendent, as I recall, of 
Arlington National Cemetery, and Ms. Claudia Tornblom, Deputy 
Assistant Secretary of the Army. Welcome to all of you and your 
staff as well.
    The fiscal year 2009 budget request is $31.23 million, the 
same amount as the appropriation that Congress approved for 
fiscal year 2008. Mr. Woodley, your entire statement will be 
printed in the record, and in a moment I will ask you to 
briefly present your oral testimony, but we would like to first 
recognize Mr. Wamp, the ranking member.
    Mr. Wamp. I thank you, Mr. Chairman.
    I just want to welcome you both. I am the new kid on the 
block. Mr. Woodley and I go way back, though, on energy and 
water, as I am sure he also does with our chairman. I thank you 
for your service and look forward to your testimony and the 
questions that follow.
    Mr. Edwards. Thank you.
    Mr. Young.
    Mr. Young. Mr. Chairman, I just want to echo what Mr. Wamp 
said and what you have said. I thank them for being here and 
thanks for taking care of Arlington National Cemetery. 
Unfortunately, we have had a chance to do that too often in the 
last few years. I do have a couple of questions that I will 
ask.
    Mr. Edwards. Okay, very good.
    It is hard to put in words that meaning of those hallowed 
hills of Arlington.
    Secretary Woodley was appointed as Assistant Secretary of 
the Army for Civil Works in 2005. He previously served as the 
Deputy Under Secretary of Defense for Installations and 
Environment, and retired from the Army Reserve in 2003 as a 
lieutenant colonel.
    Mr. Secretary, thank you for those years of military 
service. It is good to have you back before our committee, and 
we would like to recognize you now for your opening comments.

           Statement of the Honorable John Paul Woodley, Jr.

    Secretary Woodley. You are very kind.
    Let me introduce, if I may, Mr. Thurman Higginbotham, 
Deputy Superintendent of Arlington National Cemetery; Mr. John 
Parez, who works on many of these important issues on my staff; 
and Lieutenant Colonel Duane Smith, who is here also as my 
military assistant. He was here last year as a major and has 
been promoted in the meantime, and has been selected for 
battalion command, and will take that up after he serves next 
year as the professor of military science at the West Virginia 
University Mountaineers, in West Virginia.
    My statement, as you have said, is that we are asking, or 
the President has proposed a budget of $31.2 million. We 
believe that is sufficient to maintain the buildings and 
grounds, acquire necessary supplies and equipment, and provide 
the standards of service expected of this national shrine.
    There are two items of particular significance I would like 
to highlight in my testimony. First, the budget includes 
approximately $5 million to partially fund construction of the 
Millennium Project, which consists of the development of 36 
acres of land into gravesite areas, roads, utilities, 
columbarium walls and a boundary wall with niches for the 
placement of cremated remains.
    Approximately 14,000 additional gravesites and 22,000 
niches would be provided when development is complete. Burial 
capacity would be extended to the year 2045, and niche capacity 
to the year 2027. In the long term, this project is very 
important to extend the useful life of the cemetery. In the 
short term, it is essential to alleviate the crowding of 
funeral services that is occurring in the concentrated areas of 
the cemetery.
    I would like to extend an invitation to the subcommittee 
and staff to visit the cemetery for an on-site briefing so you 
can see first-hand the importance of this project. I know that 
many of you have been there, but it is a real special privilege 
to walk the grounds with Superintendent Metzler and to 
understand the significance of this new project and how it will 
improve the actual operation of the cemetery on a day-to-day 
basis.
    Secondly, the budget includes $500,000 to develop a 
comprehensive cultural resources management plan so that the 
cemetery will be in compliance with the requirements of the 
National Historic Preservation Act. It will be used as a 
management tool to facilitate the preservation of historic 
resources at ANC, and a programmatic agreement will be 
developed between ANC and the appropriate resource agencies to 
address all routine operations at ANC.
    The agreement will establish a procedure for future 
undertakings that may be excluded from the detailed 
consultation process under the Act. The goal is to reduce ANC's 
consultation requirements and to establish procedures that ANC 
will follow to ensure preservation of its historic resources in 
accordance with federal law. I have to say, I think that is a 
little overdue, but we are finally getting around to it.
    In summary, Mr. Chairman, our 2009 budget is adequate to 
maintain existing infrastructure, to provide services to the 
visiting public, continue making some of the capital 
investments needed to accommodate future burials and preserve 
the dignity, serenity and traditions of these great cemeteries.
    That would be my summary of my full remarks, which we ask 
that you insert in the record.
    Mr. Edwards. Without objection.
    [Prepared statement of the Honorable John Paul Woodley, Jr. 
follows:]

[GRAPHIC] [TIFF OMITTED] T2754A.103

[GRAPHIC] [TIFF OMITTED] T2754A.104

[GRAPHIC] [TIFF OMITTED] T2754A.105

[GRAPHIC] [TIFF OMITTED] T2754A.106

[GRAPHIC] [TIFF OMITTED] T2754A.107

[GRAPHIC] [TIFF OMITTED] T2754A.108

[GRAPHIC] [TIFF OMITTED] T2754A.109

    Mr. Edwards. Thank you, Secretary Woodley.
    Mr. Wamp.

                        CEMETERY MANAGEMENT PLAN

    Mr. Wamp. Thank you, Mr. Chairman.
    I will repeat what I said at my first hearing, just for Mr. 
Bishop's sake down there, and that is the day I was born at 
Fort Benning, Georgia 50 years ago, my father was a lieutenant 
in the United States Army wearing those tassels on his lapel as 
a member of the Corps of Engineers. So Lieutenant Colonel, it 
is an honor to look at you and see those and know that that is 
part of my life as well, with my father, on the day that we 
honor your father's life.
    Also, I want to say that this is an unusual budget request 
because it is flat from last year, which we don't see very 
often. It is good to see that you can live within your means 
and do what you have done. I was at Arlington for the funeral 
of a soldier from my district in November. It was unfortunately 
a very, very busy day there.
    I have to ask, Mr. Metzler, things are not as busy, I would 
think, in the last 2 months as they were last fall, but then to 
just ask you to go into phase one and phase two of your 
cemetery management plan, as we know that your modernization is 
underway, and then just touch on the federal water main issue 
while you have the floor, please sir.
    Mr. Metzler. Thank you.
    Well, under the current cemetery operation, it is not quite 
as busy, as you mentioned. We are doing about 27 funerals a day 
on average. This time of year, it is a little bit slower in the 
winter months. We are doing 22 to 25 funerals. However, it will 
pick up here in just a few weeks as the spring months start to 
come on to us.
    As far as active duty funerals, we did last year 123 active 
funerals. We are not nearly as busy, thank goodness, in this 
current year. However, we are still seeing active duty funerals 
about every other week at the cemetery.
    The Potomac interceptor is a sewer line coming through 
Arlington Cemetery from Rosslyn, so it traverses all the way 
through the cemetery. That project isn't quite ready to get 
started yet, but we are lined up at our end, in the middle, if 
you will, of the project--and we hope that that project gets 
through this summer. They are still doing some additional work 
with the community on lands and rights-of-way with the National 
Park Service and other people who own the land that they are 
crossing over.
    Mr. Wamp. Do you foresee future-year requests for Arlington 
National Cemetery from this subcommittee for any involvement in 
this project or not?
    Mr. Metzler. For the Potomac interceptor, I believe we are 
covered at this point unless something comes up that is 
unforeseen. The challenge we have is moving the utility lines 
that were in the green space to underneath the roads. So as 
this project moves forward and the new sewer line comes in, we 
want to have all the utilities either abandoned, removed, or 
moved. So that is what we are trying to do, and have told the 
utility company to get that accomplished.
    Mr. Wamp. And then anecdotally, your father served prior to 
you--while we are talking about fathers? Is that right?
    Mr. Metzler. My father was there from 1951 to 1972, and I 
came on board in 1991.
    Mr. Wamp. Well, 21 years plus 17 years is 38 years of 
service between you and your father.
    Mr. Metzler. Yes, sir.
    Mr. Wamp. Thank you, sir.
    Mr. Edwards. Mr. Boyd.
    Mr. Boyd. Mr. Chairman, I don't have any questions. I would 
like to associate myself with the remarks of you and 
Representative Wamp and Bill Young. I think they say it best 
for all of us.
    Thank you, gentlemen, very much.
    Mr. Edwards. Thank you, Mr. Boyd.
    Mr. Young.

                   CARE OF THE HONOR GUARD AND HORSES

    Mr. Young. Mr. Chairman, thank you.
    I just have to ask a jurisdictional question first, and 
depending on the answer, I have a follow-up. Who is responsible 
for the care and feeding of the members of the honor guard and 
the care and feeding of the horses that they work with for the 
funerals?
    Mr. Metzler. I am very happy to report the United States 
Army, the Old Guard at Arlington Cemetery.
    Mr. Young. Okay. Well, then my next question would go to 
them, then. It has to do with soldiers and their honor guard, 
who have responsibility for caring for the horses. Apparently, 
the mess facilities were open at a certain time that didn't 
coincide with their responsibility, and they went all day 
without food. I did think that was up to the Army, but I just 
wanted to ask if all that was corrected. Well, I will go back 
to the Army and ask the colonel.
    Mr. Edwards. I will circle back with you on that, Mr. 
Young. Thank you very much for raising that.
    Mr. Berry? Okay.
    Mr. Bishop.

                          TOMB OF THE UNKNOWNS

    Mr. Bishop. Let me just associate myself with the remarks 
of my colleagues. I just have one question, and that is with 
regard to the Tomb of the Unknowns, with the crack that has to 
be addressed in terms of the--what are the plans for that and 
how is that going to take place, and what, if anything, will 
that do to adjust, alter, disrupt the changing of the guard 
there, which is such a prized opportunity for tourists to come 
to this city?
    Secretary Woodley. Mr. Bishop, the authorization act for 
national defense called for the secretary to make a report on 
that matter. That report is not yet due, but it is almost 
finished, I believe, and will be submitted to the committees as 
soon as possible. And then once that is provided, hopefully we 
will get some future guidance on what is the Congress's 
pleasure with respect to options on that historic monument.
    I can assure you, though, that whatever options are 
undertaken, they will be undertaken with a minimum of 
disruption, and I believe that we are prepared under any 
circumstances to proceed at a time when the public would not be 
confronted with something that they do not expect to see when 
they come to pay their respects to the unknown soldiers. So 
whether everything is accomplished at night or in some way 
where we can do that, we would not allow a disruption of the 
honors paid to the unknown soldiers.
    Mr. Bishop. Do you have the changing of the guard 24 hours, 
or is it only during the daylight hours?
    Mr. Metzler. The formal guard change starts at 8 o'clock in 
the morning when the soldiers are in their dress uniform and it 
is open to the public. The last guard change this time of year 
concludes at 5 o'clock at night. We are about to change in 
April to 7 o'clock at night, and then on March 15, we will 
start \1/2\-hour guard changes, on the hour and on the \1/2\ 
hour, because the crowds are so large at the cemetery. We 
receive about four million visitors a year on the grounds of 
the cemetery, and at the beginning of the spring months, the 
crowds just balloon in the cemetery. So that everybody will 
have that opportunity to see the change of the guard, we start 
the \1/2\-hour guard changes.
    At night, the tomb is still guarded, but it is not open to 
the public, and the soldiers are dressed in their non-
ceremonial uniforms. The guards practice at night. The less-
proficient guards have an opportunity to get proficient out of 
the public's eye, all the while the tomb is guarded, and they 
do have a cycle where they change the guard.
    Mr. Bishop. So that would be the time of day for the 
repairs to be made.
    Mr. Metzler. Right. We would do it during the non-public 
hours. We have done a repair at the tomb in the past. As an 
example, we did this repair back in the 1980s, one night we 
removed all the grouting from the tomb, cleaned it all up, and 
came back the next day and everything was normal. The next 
night, we came in and then we would apply the grout and clean 
everything up before 8 o'clock in the morning and the tourists 
wouldn't know anything had happened.
    Mr. Bishop. Thank you.
    Mr. Edwards. Thank you, Mr. Bishop.
    Mr. Crenshaw.
    Mr. Crenshaw. Just on that point, as I understand it, it is 
kind of a sensitive issue whether to replace or renovate. I 
guess that is all part of that study. But to follow up his 
point, is there anything that this subcommittee can do to help 
as you go through that process? Anything you need from us as it 
relates to the tomb of the unknown soldiers?
    Secretary Woodley. Well, other than to reassure your 
colleagues that I have consulted with this subcommittee with 
respect to that matter as it was going forward, during the time 
when we were studying the options, because I received a letter 
from some members of the other body that appeared to be unaware 
that I had submitted testimony and other materials and I felt 
was keeping the Congress aware of the decision-making process 
as it unfolded, but that is just a personal matter to me.
    I don't really think that matters in the long run, but I 
think that it is a very interesting question, and I think a 
close question, and I am delighted that the Congress has 
decided to relieve me of the burden of making the decision. We 
are waiting for the benefit of your wisdom on that very, very 
interesting and difficult decision.

                              AMPHITHEATER

    Mr. Crenshaw. Just one real quick question. Last year, I 
remember we talked about the amphitheater and it kind of being 
a priority. I don't think it is part of this year's budget. Is 
there any particular reason? I think you ought to be applauded 
for setting your priorities, and I am just curious because I 
know it was discussed last year. What went into the decision to 
wait a little bit longer in terms of it, because I know it is 
used for all the ceremonies, and it is obviously very much a 
part of the overall appearance.
    Secretary Woodley. Sir, Jack can address that better than I 
can, but I think the reason we are suggesting our priorities is 
that we really are facing an operational issue with crowding in 
terms of having multiple ceremonies undertaken in a relatively 
small area of the cemetery. That is not ideal and it is not the 
experience that we want to provide for our veterans and their 
families. So that is our highest thing to do right now.
    The amphitheater, the public areas of the amphitheater 
which are used in ceremonies on Veterans Day and Memorial Day 
are in very good shape. They are not the part of it that needs 
attention right now. The part that needs attention is the 
interior that is not seen by as many members of the public or 
used in as many ceremonies. So it is on our list. We are not 
saying it doesn't need attention, because it does, but it is 
just slightly back in the queue.
    Mr. Metzler. If I could just add on to that a little bit, 
when you come out for the tour, and we certainly want you to do 
that, we would like to show you the amphitheater. And we have 
had two major projects there to help restore some of the 
problems we have had with water. As we have done these 
projects, we have discovered other things we need to 
accomplish. This is an old structure that was completed in the 
1920s, and is subject to all the environmental issues of being 
outside.
    Our main emphasis right now is the millennium project. The 
amphitheater renovation, the amphitheater repairs that we need 
are still a high priority. It is our fifth item, but the number 
one item for the operation of the cemetery is this money for 
the millennium project and we want to continue to push this 
forward and have this project--to get this done, as Mr. Woodley 
explained, not only to relieve the overcrowding that we have, 
but also to add gravesites and columbaria.
    Mr. Crenshaw. Thank you, Mr. Chairman.
    Mr. Edwards. Thank you.
    We have four votes. So rather than keeping you here, Mr. 
Secretary, if I could just ask you to bear this in mind. While 
we added $4.2 million above the president's request for your 
budget for Arlington Cemetery last year, and this is a flatline 
budget, I would be interested in knowing, given mandated salary 
increases and utility increases, if you are going to be able to 
maintain your operations and maintenance, and basically defer 
major capital expenditures. What will you have to do in order 
to keep within a level budget? Our committee wants to know that 
you don't have to move backwards in terms of the maintenance on 
the hallowed ground that you have responsibility for.
    With that, thank you very much for being here. Thank you.
    Members, just come back immediately after the last vote.
    [Recess.]
    [Clerk's note.--Questions for the record submitted by 
Congressman Farr follows:]

                      Arlington National Cemetery

    Your budget request for $22,218,000 indicates you will be able to 
condct an average of 27 funeral services per day.
    Everyone knows our country is losing upwards of 1,000 veterans a 
day.
    1. Question. Please explain how you determined that there would be 
an overall increase of only 32 internments at Arlington National 
Cemetery from FY07 to FY08?
    1. Answer. According to demographics published by the Department of 
Veterans Affairs, the death rate of World War II veterans is 
approximately 1,000 per day. Most of these veterans are buried in their 
home cemeteries, with relatively few interred at Arlington National 
Cemetary (ANC). The estimated increase of 32 interments, from 4,052 tom 
FY 2007 to 4,084 in FY 2008, is based on the past 15 years of burial 
records at ANC, and the expectation that the peak period for World War 
II veterans' deaths will be drawing to a close in FY 2008.
    2. Question. How do you figure an increase of only 11 interments 
from FY08 to FY09?
    2. Answer. As mentioned above, World War I veterans deaths are 
expected to peek during FY 2008 and then level off, so the impact on 
funerals at ANC is expected to be minimal in FY 2009. The small 
increase projected in FY 2009 is primarily attributed to an upward 
trend that ANC is experiencing in spousal deaths.
    3. Question. You state that in FY07, there were only 124 interments 
related to the war on terror. Please tell us how many interments you 
project from OEF to OIF for FY08 and FY09?
    3. Answer. Based on funerals that have already occurred and those 
scheduled through the end of March 2008, ANC will have had 41 active 
duty funerals associated with Operation Enduring Freedom (OEF) and 
Operation Iraqi Freedom (OIF). If the number of funerals in the second 
half of FY 2008 is the same as the first half, the total for the year 
would be 82. However, the number could be somewhat less than 82 because 
the trend in the monthly rate of funerals for the war on terror is down 
so far this year. Funeral projections for the war on terror is beyond 
FY 2008 have not been made, due to the many variables associated with 
the war.

    [Clerk's note.--End of questions for the record submitted 
by Congressman Farr.]

    Mr. Edwards. I would like to call the subcommittee back 
into order.
    Our third hearing this afternoon will be on the budget 
request of the Armed Forces Retirement Home, which has a fiscal 
year 2009 budget request of $63 million in the trust fund, an 
increase of over $7 million when compared to the fiscal year 
2008 appropriation.
    Representing the home is once again before our committee, 
Mr. Timothy Cox. Mr. Cox, welcome back.
    Mr. Cox. Thank you.
    Mr. Edwards. Chief Operating Officer of the Armed Forces 
Retirement Home.
    He is accompanied by Mr. Steven McManus, Chief Financial 
Officer of the Home. Mr. McManus, welcome. Good to have you 
here.
    Mr. Cox, we know that in past years we have had a lot of 
challenges at the Armed Forces Retirement Home, as you have had 
to cope with the aftermath of Hurricane Katrina, absorbing 
those residents into the Washington facility and adapting the 
facility to satisfy the new demands.
    Before we hear your statement, Mr. Cox, I would like to 
yield to Mr. Wamp for any opening comments he would care to 
make.
    Mr. Wamp. I thank the chairman.
    Just briefly, I thank you for your appearance here and your 
service to our country. I just now got to meet you, and look 
forward to working with you in the future.
    Mr. Edwards. Mr. Wamp, thank you.
    Mr. Cox, I would now like to recognize you for your opening 
statement. Without objection, your full statement will be 
submitted for the record.
                              ----------                              

                                        Tuesday, February 26, 2008.

                      ARMED FORCES RETIREMENT HOME


                               WITNESSES

TIMOTHY COX, CHIEF OPERATING OFFICER ACCOMPANIED BY STEVEN MCMANUS, 
    CHIEF FINANCIAL OFFICER

                        Statement of Timothy Cox

    Mr. Cox. Thank you, Mr. Chairman, and I appreciate the 
opportunity to be able to speak with you and with the committee 
members.
    Briefly, I will go over what the budget entails, just in 
synopsis, and get to the questions I think you may have.
    As you know, we are asking for $63 million, $8 million over 
last year, and $63 million is all coming from the trust fund. 
The $8 million difference refers to capital improvements that 
we need to do. We need to do a study on one of our dormitories, 
and we need to actually do some physical maintenance on one of 
those dormitories as well. So that is the difference. It is not 
an increase in our costs.
    Congress is supporting our home with two major commitments. 
The $76 million major dormitory renovation, and that is part of 
the $8 million to do the study and the planning for that $76 
million. That $76 million is scheduled in 2010 to come out of 
the trust fund. And then as you know, the rebuilding of the 
Gulfport campus is going on, and that is through supplemental 
money, a total of $240 million that we received.
    The rebuild is on track. On March 3, we are actually having 
our groundbreaking ceremony, so we have demolished the existing 
facility in Gulfport and on March 3 we will be down there for 
the groundbreaking. Again, that will be available the last 
quarter of 2010, which is as expected. We also are submitting a 
report no later than March 1 on planned services and how we are 
adapting our program, including Green House initiatives, which 
are important to Senator Wicker, as well as important to 
residents. A residentially-based model, Green House, 
particularly as it pertains to long-term care nursing home 
functions, but we really are looking at a residentially based 
model for all continuing care of our home, which we have done.
    We have done our multi-year financial plan that went out 
and looked at trust fund solvency, while addressing capital 
requirements. It includes a financial plan that we are doing 
for that independent revenue piece. We have engaged a 
nationally known engineering construction firm to look at our 
structures and our campus infrastructure, that cost of repair 
is not just in the Scott Building, but we are using this $76 
million to look at other buildings as well, at a total cost of 
$134 million.
    With the president's efforts to improve housing for retired 
veterans, we felt it was really important to begin to do some 
of those deferred maintenance issues in our buildings. That 
dormitory hasn't gone under a major renovation since it was 
completed in 1954, so we have plumbing issues. We have heating 
issues, and we have electrical issues. So that is what the bulk 
of the money is for, and specifically the $8 million is out of 
the increase; $5.6 million is for planning and design for those 
renovations, and $2.4 million is for facility upgrades.
    Congress, we also are thankful to you all for the $800,000 
that you have given us to be able to study the trust fund long-
term viability, so that $800,000 will be used, I should say 
some of that $800,000 will be used for looking at how that 
master plan with the funds that will come in once that 
development is started, and how we are spending the money for 
the renovations, so we make sure we don't get into that 
negative cycle that the trust fund was in before.
    Past problems, as you know through paper and through 
communication with your staff, we have received some unfair 
criticism over the last couple of years. All of our 
investigations, both internally, by OSD, by Health Affairs, as 
well as by JCAHO, have proved all those allegations unfounded. 
We received JCAHO's gold seal of approval in 2005, and with two 
unannounced visits last year, they found no health care 
problems at our home.
    We have established a hotline and routinely the AFRH 
inspector general cooperates with the Department of Defense 
inspector general. The residents have the DOD hotline, OSD 
hotline, and our internal inspector general's hotline so they 
can call those numbers, as well as reach out to anyone on 
campus as well. That seems to have improved communication with 
the residents.
    The trust fund had declined to $94 million in 2002. We have 
now created over $65 million of growth, so after the end of 
fiscal year 2007, our trust fund was $159 million. We are very 
proud of that. And we have become much more business-savvy. We 
have looked at our new budget, our guidelines established by 
Congress in 2002 and we operate within those guidelines now.
    Our financial performance is probably the one that has 
improved the greatest, and we received our third unqualified 
audit. The first one was in 2005, and received in 2006, as well 
as 2007. We were named GSA's Customer of the Year in 2007, and 
just to go on a little bit about the Green House part, because 
I know that is of interest, too, there are 10 initiatives. I 
won't go through all of them, but the whole premise is really 
residential homelike environment, and really matching what the 
residents' needs are.
    Our needs are unique. Usually, long-term care population is 
75 percent to 85 percent women, ours is 92 percent men. The 
women traditionally at the age of 82, cooked, cleaned, bake. 
Our men do none of those things. So to look at an environment 
that really has socialization with other than seven or eight 
people, which for our gentlemen, who usually eat with people 
that don't live on their floor, because they do like to 
socialize. They like big group activities. So we are really 
making the best of both worlds both in Gulfport, as well as the 
renovation in D.C.
    We have made steady progress. The trust fund balance, I 
told you, has risen to $159 million. GSA selected Jacobs 
Engineering to rebuild Gulfport. The contractor has been 
selected, that is Yates Construction out of Mississippi. We 
have launched our own in-house channel 99, which includes 
communications such as continuous feed of everything from menus 
to announcements to bus schedules. Residents on any TV can go 
to channel 99 from their room, or we have one outside the 
dining room that just keeps telling everyone what is going on. 
It is another way to get information out there.
    Staff was trained in over 136 hours of health and wellness. 
We have really focused to make sure that we are not just 
reacting to the health care needs, but prevention is coming in, 
too. That is with introducing tai chi, weight training, walking 
courses--all those things are really healthy and extend the 
longevity of our residents. A resident satisfaction survey this 
past year found that 75 percent of those surveyed either ranked 
our services very good or excellent.
    Mr. Edwards. What percent was that?
    Mr. Cox. It was 75 percent very good or excellent.
    In conclusion, I want to thank members of this committee 
for what you do for us, and Congress, because of your continued 
support for the Armed Forces Retirement Home and the veterans 
we serve. I look forward to answering any questions that you 
have or comments, or anything you would like me to go into more 
specifically.
    [Prepared Statement of Timothy Cox follows:]

    [GRAPHIC] [TIFF OMITTED] T2754A.110
    
    [GRAPHIC] [TIFF OMITTED] T2754A.111
    
    [GRAPHIC] [TIFF OMITTED] T2754A.112
    
    [GRAPHIC] [TIFF OMITTED] T2754A.113
    
    [GRAPHIC] [TIFF OMITTED] T2754A.114
    
    [GRAPHIC] [TIFF OMITTED] T2754A.115
    
    [GRAPHIC] [TIFF OMITTED] T2754A.116
    
    [GRAPHIC] [TIFF OMITTED] T2754A.117
    
                           HOMELESS VETERANS

    Mr. Edwards. Thank you, Mr. Cox, for your statement.
    Let me begin by asking you about the recent Washington Post 
article regarding the facility that you have leased out to a 
group that provides housing for homeless veterans. As I 
understand it, that facility will be either knocked down or 
renovated, so it won't be available for those homeless 
veterans. Have you had any discussions with the VA or anyone 
else about what kind of plan could be put in place so that 
those homeless veterans are simply not left out on the streets 
of Washington, D.C.?
    Mr. Cox. Right. As you know, our intent is never to let any 
veteran be out on the streets. Part of why we were into this 
venture was because Secretary Abell knew someone who was going 
to look for temporary housing in the D.C. area for vets in 
transition. It is not a homeless shelter. It is actually vets 
who have gone through a training program, are substance-free, 
and this is their last step before they have a home of their 
own.
    So when USVets initiative, which is out of California, Los 
Angeles, they came to us asking if we had temporary housing. We 
said we did. We had this building. Take it as-is, and we had 
reduced our footprint. This is one of the buildings that is 
going to be torn down because it needs so much maintenance. 
They took it as-is, and we have had four leases with them. The 
first lease was for 1 year, and the second lease was for 1 
year, and then two 6-month leases because our master plan has 
taken a longer period of time.
    They always knew that it was temporary. They chose not to 
have a business plan to look for a transition, but maybe to 
force us to keep them. As you know, by law, we can't have them, 
because Congress sets the four criteria for admission to the 
Armed Forces Retirement Home, and the vets that live there 
don't fit the criteria to live in the Armed Forces Retirement 
Home.
    So with that being said, we have reached out----
    Mr. Edwards. What is that criteria?
    Mr. Cox. The criteria are four. They are just, again, set 
by Congress and each one is independent on their own, so a vet 
only has to fit one. The first category is retiree, with 20 
years of service, and that one has an age attached to it. So 
you have to be a minimum of 60 years of age. The remaining 
three don't have any age restrictions.
    The second category is you served in a theater of war, and 
in all of these you have to be honorably discharged. The second 
category is you served in a theater of war, so you actually had 
to be in the Pacific in World War II or in Europe, and you 
couldn't be here in the states.
    The third category is you have a service-connected 
disability because of your service at the time of war, and you 
are 100 percent disabled and unable to earn a livelihood.
    The fourth category is a female who served prior to 1948. A 
lot of the women who served in World War II, even in combat, 
weren't considered active duty combat, so they didn't get the 
same retiree benefits. So Congress felt that would catch them. 
Women obviously qualified in the other three categories as 
well.
    What we have done is we have actually reached out to the VA 
and to community partnerships, as vets get most of their money 
through HUD, and HUD funds the community partnerships division, 
and they give a monthly lease allowance to the vets who live in 
the USVets initiative houses. So we have coordinated now weekly 
calls with USVets, with Councilman Thomas, with the 
representative from VA, and a representative from community 
partnerships to really look at options to ensure that those 
residents know that they could be moved to a USVets initiative 
program in Houston. They might not like that, but they don't 
have a job here. There are 29 of their transition housing 
providers in D.C., and we will work with them, but they have to 
vacate by the end of July. Everyone will either be placed or 
USVets will find a new place for them.
    Mr. Edwards. So by the end of July, they will have to 
vacate.
    Mr. Cox. That is correct.
    Mr. Edwards. So as of today, there is no specific plan in 
play for somewhere those veterans will go?
    Mr. Cox. No. What USVets have looked at is they have a 
facility in Houston, and they could absorb the 50 persons there 
based on if a person wanted to relocate there. They haven't 
talked with the other providers because they would like USVets 
initiative-D.C. to still stay an entity, but of course that 
comes knowing that they have an ultimate deadline and the 
building will be destroyed.
    Mr. Edwards. Do you know how many veterans are there all 
total?
    Mr. Cox. Fifty.
    Mr. Edwards. Fifty. And how many of these have jobs?
    Mr. Cox. I don't know. When we met with Tim Cantwell, who 
is the president of Cloudbreak, that supervises this, he said 
he felt that only 37 of them had jobs, but he hasn't given us a 
roster. We asked for a roster on who had jobs and who doesn't.
    Mr. Edwards. Who is your key VA contact on this?
    Mr. Cox. The VA contact right now, we don't know. Tim 
Cantwell is giving that to us, or Susan Marshall through the 
HUD program. But we had a meeting just with Tim Cantwell on 
Friday and he is supposed to get that to me by March 3. It has 
been Secretary Mansfield, who has been calling Dr. Chu, but I 
don't know if Secretary Mansfield would be the one who is on 
our weekly calls.
    Mr. Edwards. Okay. I will follow up on this, because while 
there are criteria and there are responsibilities and different 
purposes and different groups, public and private, the public 
will not understand any explanation that it takes 50 homeless 
veterans and ends up putting them out on the streets.
    Mr. Cox. I can assure you that is not going to happen.
    Mr. Edwards. I am not sure they would be excited about 
taking 37 veterans that have jobs here in Washington as they 
are rebuilding their lives, and shipping them off, as much as I 
love Texas, shipping them off 1,500 miles away to Houston. We 
will follow up on that.
    Mr. Cox. That is why we want to talk with community 
partnerships, who runs similar programs so they could stay 
here. USVets just hasn't done that, so we are willing to work 
with them to be able to identify appropriate accommodations 
locally.
    Mr. Edwards. Okay. Well, would you please keep us informed 
on any progress on that.
    Mr. Cox. Yes. I will give you updates.
    Mr. Edwards. Thank you. We welcome that.
    Mr. Wamp.

                           GULFPORT FACILITY

    Mr. Wamp. Thank you, Mr. Chairman.
    All of a sudden, it kind of hit me like a ton of bricks. I 
should have realized this before today, but I have been to your 
Gulfport facility, when we went down with the leadership team, 
and Speaker Pelosi led that group 2\1/2\ years ago. When we got 
off the helicopter in Gulfport, we went by the home on our way 
to Biloxi. Then-Representative Wicker was with us, but wasn't 
the ranking member of this subcommittee at the time, 
interestingly enough, and Governor Barbour was with us as well.
    Mr. Cox, the barrier islands issue off the coast--is that 
being addressed at all with the continuing Katrina response? I 
mean, we are going to rebuild your facility, yet we still have 
the issue of another hurricane event like that. Or is your 
construction much, much different this time, as are the gaming 
facilities in Biloxi, which are now all-masonry and built back 
and not floating, and on and on, right?
    Mr. Cox. Correct. Barrier islands hasn't been resolved, as 
far as I know. And GSA just keeps us in the loop on those 
communications. What we have done is actually built to a storm-
surge level that actually our first floor will be washout. So 
on the grade that we have built up 20-some feet, then we are 15 
feet above that, and the first floor is just parking, storage, 
really wash-through. So residents will be above the storm surge 
area where living space will occur.
    Mr. Wamp. So you break ground on March 3. How long is the 
construction period?
    Mr. Cox. Until the fall of 2010.
    Mr. Wamp. So 2\1/2\ years.
    Mr. Cox. About 2\1/2\ years. It is construction, hurricane-
proof windows, so it is built to category-5 for wind, rain and 
storm surge, we are hoping.
    Mr. Wamp. But the construction is funded in the 
supplemental?
    Mr. Cox. Correct.
    Mr. Wamp. All of it?
    Mr. Cox. All but $20 million, which we were going to ask 
some larger units, ADA compliance, Americans with Disabilities 
Act-compliant units, and we had set aside $20 million in the 
trust fund. That we will spend at the end should it be needed. 
So in that $240 million is included $20 million from the trust 
fund.
    Mr. Wamp. That would be great to see it come to fruition.

                           GREEN CONSTRUCTION

    Mr. Cox. Well, there is huge progress now.
    Mr. Wamp. You were talking about green housing, which helps 
the quality of life. What about green construction in terms of 
environment? We are doing it here at the Capitol. Are you doing 
it there?
    Mr. Cox. That is a very good question. We are. We are 
looking to be LEEDS-certified at least gold, but striving for a 
platinum. But if you look at green roofs, some of our outside 
space will be on the parking deck roof level, where you will 
have putting greens, items like that. We are looking at 
recirculating water. In fact, I just talked to one of the 
architects last week when I was in Roanoke about the 5-gallons 
of rainwater that will collect after a storm, and that could be 
recycled for use in the building. So yes, we are working 
heavily with Yates to be able to get LEEDS certification for 
that building as well.

                       OTHER PRIVATE DEVELOPMENTS

    Mr. Wamp. The whole construction process is completely 
private in terms of the bidding? You talked about Jacobs, and 
obviously they are a large contractor from Mississippi who won 
the competitive bidding of the master general contract on the 
entire facility. Are there any other reforms in procurement of 
the construction?
    We have witnessed tremendous privatization in housing, and 
this is one exception to that. Of course, this is very 
different from just regular housing for active duty men and 
women. This is much more in the line of nursing care, 
retirement living, et cetera. But are there other private 
developments underway in your business? Or is this kind of 
unique?
    Mr. Cox. Well, we are doing a master plan here in D.C., but 
to back up, actually GSA did--this was competitively bid, so 
GSA ran through it to be competitively bid for design, because 
it is design-build. We also bid for the design-build component, 
not really the construction component, but design and build for 
that.
    In D.C., we actually went through a competitive process as 
well to select Crescent Resources, who will be the developer of 
77 acres in D.C., so it is a revenue source. That is the only 
other one.
    Mr. Wamp. That is privatization.
    When you say you are more business-like, in what way?
    Mr. Cox. We are. When you look at how wisely we are 
spending our dollars, we have looked at what we do best, which 
is really focused on care. We necessarily didn't do 
transportation well, so transportation, to hire a bus company 
to do that for us made much better business sense, just to have 
that available to us. So we really looked at the roles of what 
outside groups could do to help our business, so we could 
really focus on our core business, which is providing care for 
the residents.
    And that, as you will see, was a reduction in our requests 
for operating maintenance year over year until this year. And 
also our services have improved and increased, where we are 
able to get great IG reports and we are able to get great JCAHO 
reports, which were inconsistent at best. So it is really a 
business-like approach to how we are operating, so that we 
don't have to do everything as a government entity. We can 
partner.
    We also partner with other government agencies. For 
instance, the Bureau of Public Debt, which is an entity of 
Treasury, does all of our accounting for us. So when my 
managers couldn't get on a computer to call up their daily 
profit-loss statements to see where they were today, or budget 
for the month, or budget for the year, and it took me 8 weeks 
when I first came to get a profit-loss statement. Now it is 
real-time, 24/7, you can access your account from any computer 
with your access code, because Treasury does that for us. So I 
was able to reduce FTEs, but we get a better quality of 
product, because we are using another federal agency that has 
expertise in accounting for us.
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Wamp.
    Mr. Bishop.

                          WASHINGTON FACILITY

    Mr. Bishop. Thank you very much.
    Welcome back, Mr. Cox. I appreciate the progress that you 
have made. In Gulfport, you are moving right along. Very good. 
How are things in Washington at the facility there?
    Mr. Cox. Washington is going great. We are very grateful 
for the money that we have. We need buildings repaired or 
replaced. We have had some ongoing maintenance problems because 
of deferred maintenance for over 20 years. They are biting us 
now, so we are being able to focus on those. It is very 
helpful. Thank you.
    Mr. Bishop. Last year, we talked about some of the measures 
we have provided the residents, including the golf course.
    Mr. Cox. That is correct.
    Mr. Bishop. We talked about, last year you hadn't costed it 
out, but it was the cost of the sprinklers on the fairways, 
doing some of them up. You said you were going to cost that 
out.
    Mr. Cox. We notified the Committee that we did not have the 
money to adequately cost it out by private correspondence. 
However, we plan to make it part of our capital study. We also 
want to look at if there is a way to connect it to our 
development, so some of the development requirements could be 
there as well. So we haven't forgotten that. That is on our 
list, and we actually are looking at that as part of the master 
plan. We need a way to fund it. We have to do the study because 
we have realized that doing that now really wasn't fair, 
because we don't have water in significantly 90 percent of 
where the golf course is.
    Mr. Bishop. That is all I have.
    Mr. Edwards. Okay.
    Mr. Farr.
    Mr. Farr. Well, thank you very much. Thank you, Mr. 
Chairman.
    I am very impressed that a young articulate person would be 
so concerned and confident in answering question dealing with 
the elderly population. It is refreshing to see.
    How many soldier homes do we have in the federal 
government?
    Mr. Cox. Currently, only one in operation, the D.C. site. 
In Gulfport, no one is living there because we tore down the 
building. But one in operation, and the other 1,100 residents 
in D.C.
    Mr. Farr. Well, 1,100. So on a $94 million budget----
    Mr. Cox. About $63 million.
    Mr. Farr. So on a $63 million budget, we are helping 1,100 
people.
    Mr. Cox. Correct.
    Mr. Farr. What is the goal to house how many in federal 
jurisdictions?
    Mr. Cox. The goal really would be to, when we open 
Gulfport, there would be 500 people. There wouldn't be 1,600 
people because we would look at, with the reduction in the 
building that we are going to renovate, Scott, we would be 
looking at a population of about 800.
    Mr. Farr. What is the total goal?
    Mr. Cox. The goal would be about 1,200.
    Mr. Farr. About 1,200 addition to the 1,100?
    Mr. Cox. No, 1,200 total in the two homes.
    Mr. Farr. Total in the whole nation?
    Mr. Cox. Correct.
    Mr. Farr. And how many state homes? I know California has 
some.
    Mr. Cox. California does. I don't know how many state homes 
there are. I have spoken to them quite a few times at their 
conferences about what we have done.
    Mr. Farr. Do all states have veteran retirement homes?
    Mr. Cox. Some states have several.
    Mr. Farr. We have had testimony here that there are about 
200,000 veterans on the streets in America--200,000 veterans 
that are homeless. We are only taking care of 1,200. Somebody 
has to pick up that gap. What you find in dealing with a 
homeless population is you can't get them to deal with an 
individual problem until you get them a safe place to sleep.
    The shelters are essential to getting them off the streets 
and getting them in treatment, though they will not always 
accept the help. What I have seen in my district is that that 
responsibility has just gone to local government, so homeless 
shelters are being built by cities, with public and private 
funding.
    I would be interested, it seems to me that if the 
responsibility here that our committee has taken would be in 
essence leave no vet behind, then we are falling really short.
    Mr. Cox. I actually gave a report to Congress back in 2006 
that had five options. One of the options--and this is just my 
personal opinion, not the department's opinion nor AFRH's 
opinion, the department being OSD--but one of the options there 
was to look at AFRH forming a nonprofit, and being able to 
leverage funds to be able to have home four, home five, a home 
ten, a home twelve. That plan was not accepted.
    Mr. Farr. And the $63 million to help 1,200--I mean, you 
could give them vouchers through the housing authorities to get 
a better value for your buck.
    Mr. Cox. We could. Part of it is that is why we want to 
renovate, and as you will see in our financial analysis that we 
do, our costs continue to come down because we are in buildings 
that have outlived their usefulness, that haven't been updated. 
We have so much square footage that really we don't need. So 
yes, we can----
    Mr. Farr. So how much land do you own?
    Mr. Cox. We own 272 acres.
    Mr. Farr. That is it in the whole nation?
    Mr. Cox. Well, in Gulfport, it is 49 acres.
    Mr. Farr. Has there been any discussion of using what the 
Department of Defense is using, and what they call RCI, the 
residential community initiative, where you essentially have 
private dollars build on public land, and then they get the 
rent from the BAH. And you could work out a voucher kind of 
payment that other authorities use, plus the private sector 
would take all the risk and puts up all the capital, and 
essentially designs it as state-of-the-art. It's beautiful.
    Mr. Cox. That is what we are doing in part, not to replace 
what we have, but we are developing 77 acres on the premise 
that that income from there, the developer, Crescent Resources, 
is responsible for all of the development there, and will pay 
us rent. We get rent in three ways. We get rent just based on 
the sheer lease of the ground because we didn't sell it to 
them. We are leasing it to them. Second, we participate in rent 
for every lessor they have on the campus, 4.3 million square 
feet of rentable space there. And then third, whenever they 
refinance and have a savings, we split in that savings as well.
    Those funds will come in the trust fund, and my hope, again 
personally--not my professional opinion--or the AFRH's chief 
operating officer in the department, but then we would be able 
to use funds to be able to look at private-public partnerships 
and have like a Del Webb build us 150 units in Arizona, of 
which then we could voucher people to go there.
    Mr. Farr. What, of these requirement that you have, the 
four criteria qualifications, how many vets out there fit that 
criteria in one way or another? What is your unmet need, who 
qualify, but have no space available for them?
    Mr. Cox. There are people who make application to us, 
usually we accept because they look right, so we don't deny 
people if they meet our criteria.
    Mr. Farr. How is it you only have 1,100 or 1,200 units?
    Mr. Cox. Well, because our people don't sign an annual 
lease. They don't have to give a month's security deposit. So 
we turn over about 30 a month, with residents coming in. So the 
wait list is really continuous, that people usually only have 
an extended time of 90 days to wait from when they make 
application to get in because of the turnover we have. People 
come. They get better. They go back to their home.
    As I testified in the past year, the number one reason 
people leave, other than they are able to die at our facility, 
is they go back to where their family is, because they are 
growing frail and they can't travel back to Texas, and can't 
travel back to California. So that is the impetus in the report 
that we should have----
    Mr. Farr. What is the percentage? I mean, you do have 
people who just live with you until they die.
    Mr. Cox. Correct. We do. The vast majority--over 80 percent 
of our deaths are people--80 percent of our discharges are 
people by death, not by choice to leave--but 20 percent leave 
because they want to go home because they are too frail to 
travel back and forth to see their children and grandchildren, 
family members and friends.
    Mr. Farr. But if we have 200,000 homeless, and we are 
housing 1,200, and of those homeless, maybe not all of them fit 
this criteria, particularly people who retire, and I am not 
sure they all have 20 years of service.
    Mr. Cox. That is only one category.
    Mr. Farr. Yes, but you also have served in-theater, war 
disability, injury. A lot of them can't prove that either, or 
females prior to 1948. It is a very, very narrow niche of 
people that qualify to live there. The only reason I am asking 
these questions is that it seems to me that Congress has 
created this responsibility to take care of essentially people 
that are in this narrow niche, and who are financially in need, 
and yet we find this huge population out there that is in need 
and either doesn't fit this criteria or there is no room.
    I would be willing to look at how we should expand it. You 
are the administrator. You are smart about the ``how.'' How do 
you get better? Do we just work with housing authorities to 
make sure that people get housing vouchers or rental vouchers? 
Is there a better way in which we can pick up the unmet need, 
because you are serving less than 1 percent.
    Mr. Wamp. Will the gentleman yield?
    Mr. Farr. Sure.
    Mr. Wamp. The secretary of veterans affairs pretty well 
told us last week, 2 weeks ago, that it is about 130,000. I 
know that is still a huge number, but of the 130,000, a very 
large part of the population is either frankly on some kind of 
medication. There is a tremendous percentage of them with no 
illness. And so you can kind of start to see.
    The question that I would have, which is very related, 
because I am like the same as those on this subcommittee, I 
don't want to leave the veterans behind. I want to find a way 
with vouchers to empower these people to find a place to go, 
and then make sure the ones that need medication are on 
medication so that they will have the wherewithal to understand 
what is available to them. Because a whole lot of them--I would 
say the majority of them--don't understand what is available to 
them.
    What kind of waiting list do you have? You said 30 days. 
Are there thousands of people waiting to get in your facility?
    Mr. Cox. No, sir.
    Mr. Wamp. That speaks to what I want to point out, is that 
the real challenge is not to have the facilities or even the 
voucher, but figure out how to corral the ones that need help 
and get them diagnosed properly and treated properly so that 
they can pursue the health, because most of them frankly have 
mental health issues.
    Mr. Farr. Yes, some of them don't want any help.
    Mr. Wamp. I know some don't.
    Mr. Farr. But that is a treatment problem, too.
    Mr. Cox. We would love to look at our admission criteria. 
One of the things that we have talked about before is that 
spouses are not permitted by law to come to our facilities 
unless they independently qualify. So a person moves to our 
facility usually at a time of trauma because the number one 
reason why they moved is their spouse died. That is the worst 
time to make a lifestyle change is when your spouse dies. So we 
would love to entertain looking at alternatives to our criteria 
that we feel needs to evolve to something better.
    Mr. Farr. Have you made those recommendations?
    Mr. Cox. We have. They are in the report that we gave to 
Congress.
    Mr. Farr. When was that report?
    Mr. Cox. In February, 2006, and we gave five different 
options, and one was pretty aggressive, to give us 18 months to 
explore who we need to serve and expand that; look at perhaps 
privatizing and partnering with some other retirement housing 
developers; and that was not accepted. I would be happy to re-
visit it.
    Mr. Farr. What do you mean, it wasn't accepted?
    Mr. Cox. It wasn't accepted. The only option in that report 
that was accepted was just to go back to Gulfport proper and 
rebuild new, and that was option two out of five.
    Mr. Farr. The authorizing committee--I mean, who?
    Mr. Cox. The House Armed Services Committee. We can 
certainly bring that information back out to you.
    Mr. Edwards. If you could provide that to us.
    Mr. Cox. Yes. And if you want more than the six-page----
    Mr. Edwards. We could talk to our colleagues on the House 
Armed Services Committee.
    Mr. Cox. Great.
    Mr. Farr. Mr. Cox, I just have one other question. That is, 
when you finish completion, or when you complete the 
renovations on the Scott building, do I understand you are 
going from three floors to two floors. So what will that mean 
in terms of your capacity?
    Mr. Cox. With the Scott renovations, and our study will be 
completed in the end of April about utilization at the Scott 
building, and what most likely--if I had a crystal ball--the 
Scott building will come out to be renovated assisted living 
and long-term care because we can join two rooms to make one, 
rather than joining three rooms to make one, so we don't lose 
as much of the volume, and because our infrastructure for 
dining, so much of the activities are in that lower level in 
Scott, to reproduce that would probably be exorbitant.
    Mr. Farr. Right.
    [Clerk's note.--Questions for the record submitted by 
Congressman Farr follows:]

    Question. Is the study of Renovation of Existing/Previously 
Existing Structures complete?
    Answer. Yes, the report was submitted to Congress on February 28, 
2006 and contained five options. Options 1 and 2 proposed rebuilding on 
the Gulfport property, either a renovation or a total rebuild. Options 
3, 4, and 5 did not propose rebuilding on the existing Gulfport campus. 
The Department approved option 2, to rebuild the Armed Forces 
Retirement Home (AFRH) on AFRH property. Congress provided the funding 
to support this decision and construction is underway. The Department 
of Defense does not support revisiting any options contained in the 
report AFRH initially delivered to Congress on February 28, 2006.
    Question. If so, did the study recommend a reduction in the AFRH 
footprint of either facility?
    Answer. No, the study provided options to enhance capabilities.
    Question. If not, what do you mean in your testimony about reducing 
the ``footprint.''
    Answer. The terminology ``footprint'' recognizes divesture of 
excess infrastructure at the Armed Forces Retirement Home (AFRH)--
Washington. Over the past four years, AFRH--Washington has consolidated 
operations to create better support for aging residents. The footprint 
of the AFRH has been reduced by over 600,000 square feet, but continues 
to serve the same number of residents.
    Question. Please update the committee on the scope and status of 
the privatization plan for the DC Old Soldiers Home?
    Answer. We are not privatizing the Home or supporting a change in 
governance or eligibility. The Armed Forces Retirement Home (AFRH) is 
seeking final approval for the AFRH-Washington Master Plan from the 
National Capitol Planning Commission by May 1, 2008. As part of the 
master plan process and competitive bidding, Crescent LLC was selected 
as the preferred land developer, pending Department of Defense approval 
and Congressional notification.
    Related to this master plan, the Department has directed Mr. Cox to 
work with US Vets, the Veterans Administration, Housing and Urban 
Development, and the DC Community Partnership for the Prevention of 
Homelessness to find a suitable alternative for the approximately 50 
homeless veterans currently residing at Ignatius House as part of a 
lease agreement between US Vets and AFRH. Ignatius House is part of the 
AFRH redevelopment plan and is expected to be turned over to the 
developer in August 2008. Furthermore, US Vets is also in discussion 
with the AFRH developer about being the transitional housing provider 
within the future AFRH development.
    Question. (Congressman Farr) commended AFRH for developing new 
``Green House'' dorms at the Gulfport facility that will foster more of 
a community environment with supportive services rather that the 
traditional dorm/barracks house. Will these facilities ever be located 
outside of AFRH properties?
    Answer. At the request of Congress, the Gulfport AFRH Project Team 
performed due diligence to ensure we successfully incorporated the best 
facets of numerous retirement home concepts, including the Green 
House<SUP>TM</SUP> and Small House concepts at AFRH--Gulfport. The AFRH 
Project Team, comprised of environmental gerontologists, architects, 
retirement home designers, engineers, and residents, has designed 
Neighborhoods of Care that will provide an unparalleled quality of life 
for all of our veteran residents and the staff that serve them. AFRH--
Gulfport has been designed to meet the specific needs of AFRH residents 
while maintaining the intent of our statutory charge to incorporate the 
principles of the Green House approach. We have designed a facility, 
staffing plan, and program that provides privacy where needed, values 
individuality, fosters spiritual well-being, provides meaningful 
activities, and, above all, sustains the veteran's dignity; all 
concepts embodied within the Green House approach. With the General 
Services Administration as our lead construction agent, we expect the 
facility to open in 2010, on time, within budget, and on target in 
meeting the intent to provide the best level of care possible to meet 
the needs of our proud veterans. Similar design concepts will be used 
when renovating the Scott Building at AFRH--Washington. There are no 
plans to employ this design outside of AFRH properties.

    [Clerk's note.--End of questions for the record submitted 
by Congressman Farr.]

    Mr. Cox. So what we are looking at is is there an 
opportunity then to build a residential living component. So we 
would be looking at perhaps a replacement facility. It could be 
the Grant building, that sits on Harewood right across from the 
cemetery, or would we build something new? It most likely 
wouldn't be a care facility. It would be for those with 
independent living. That is part of the master plan as well.
    Mr. Farr. Okay. I hope that we can look at that report and 
perhaps make some recommendations in report language, but 
working to see if we can find ways to meet that unmet need out 
there.
    Mr. Cox. Great. We would love to have your help with that.
    Mr. Edwards. Thank you for coming. I will look forward to 
updates, if you would, on the homeless veterans issue.
    Very good. Thank you both.
    Mr. Cox. Thank you, Mr. Chairman.
    Mr. Edwards. Judge Greene, welcome back to our 
subcommittee. It is good to have you back. Thank you for all of 
your service on the court, and thank you for your distinguished 
career as Army judge advocate in the judge advocate general's 
corps. It has been, I understand, 25 years, having retired as a 
colonel. We are deeply grateful to you for your public service.
    This is our final panel for the afternoon, the United 
States Court of Appeals for Veterans Claims. The budget request 
for fiscal year 2009 is $23,975,000, of which $1.7 million is 
for the pro bono program. The request is an increase of $1.285 
million when compared to the fiscal year 2008 appropriation.
    Judge Greene, rather than my continuing on, let me just 
recognize Mr. Wamp for any comments he would care to make, and 
then we will recognize you here.
    Mr. Wamp. Judge Greene, I wasn't here last year. I am the 
new kid on the block, but thank you for your distinguished 
service and career. I look forward to working with you and 
supporting the improvements that I read are already underway. 
Thank you very much for your testimony today, sir.
    Mr. Edwards. Judge Greene, we will without objection submit 
your full testimony for the record. I would like to recognize 
you now for any summary comments you may have.
                              ----------                              

                                        Tuesday, February 26, 2008.

           UNITED STATES COURT OF APPEALS FOR VETERANS CLAIMS


                                WITNESS

CHIEF JUDGE WILLIAM GREENE

           Statement of the Honorable William P. Greene, Jr.

    Chief Judge Greene. Thank you very much, Mr. Chairman, 
Ranking Member Wamp, and Mr. Farr. I want to thank you for the 
opportunity to be here again today. I brought with me my Clerk 
of Court, Norm Herring, Mary Anne Marcot, who is my financial 
manager, and Alice Kerns who is the counsel to the Board of 
Judges. These people help me each and every day in the running 
of the court and especially preparing the budget.
    Fortunately, this year the budget was pretty easy to 
prepare. It is a pretty straightforward budget from last year. 
We are asking for, as you say, $1.25 million more than we 
received for the 2008 appropriation. Of course, we thank you 
very much for providing us $1 million more than we asked for 
last year. Your recognizing that the Department of Veterans 
Affairs and the Board of Veterans Appeals received more money 
to increase their productivity, and the ripple effect that will 
come from that, certainly will enable us to prepare for the 
inevitable growing caseload. Those executive agencies are 
rendering decisions at record pace.
    We have the obligation to conduct that judicial review, and 
we are doing so to the best of our abilities with the seven 
judges that we have and the very competent administrative and 
judicial staff.
    The $1.25 million increase that we are asking for in FY 
2009 is wrapped up basically in the $510,000 dedicated to 
covering the anticipated personnel costs that are associated 
with pay raises and benefits that will occur simply because of 
inflation. For basic operating costs, we are asking for an 
increase of $258,000 to cover the anticipated increases in the 
rent of the location where the court is located, and the 
continuing operation site, as well as payroll services from the 
National Finance Center in the Bureau of Public Debt and the 
security expenses that we have as a court.
    That basically is our request in a nutshell. We certainly 
appreciate the support that you can give us in that regard. I 
do want to tell you that we have been very successful in our 
productivity at the court. This past fiscal year, fiscal year 
2007, we decided 4,877 cases. We received about 4,600 cases. 
That is an all-time record high. Some of that is associated 
with one particular kind of case, but if you subtract the 900 
cases that involved that issue, we still decided more cases 
than the court has ever decided in its 20-year history.
    There is every indication, however, that we will continue 
to receive 4,000 to 5,000 appeals each year. As a result, we 
have to ramp-up our resources to take care of that caseload, 
and at the same time develop efficiencies that will allow us to 
dispose of these cases timely and efficiently.
    Thank you for the support that you have given us in our 
electronic filing plan. That is now in effect. We started in 
November requiring representative attorneys to file Equal 
Access to Justice Act applications electronically, and that has 
shown great dividends to us in terms of administrative ease in 
which we are able to make decisions.
    We are this summer going to require electronic filing for 
all pleadings that come to the court, and that certainly will 
streamline our administrative process. Probably, as those 
documents become readily available to the judges sooner, then 
more cases, of course, will all of a sudden come to chambers 
for decision.
    We are doing things to develop our record of trial to make 
it easier to obtain. Right now, it takes about 90 days just to 
get a record established for us to review, or for the case to 
be briefed. If we can condense that time by changing the way in 
which we develop the record, it will also pay dividends in 
terms of cutting down the time it takes to get to decision. 
Those procedures will take effect in April.
    With the money provided by the committee, we also hired 
additional attorneys for our Central Legal Staff. The 10 
attorneys that we now have have all received formal mediation 
training that will allow them to come to the table with the 
parties, improve briefing, and hopefully resolve the disputes 
before they have to be presented to the judge. Again, when you 
are receiving 3,600 or 4,000 or 5,000 appeals a year, that is a 
critical piece of our process.
    These innovations are significant. Changing how the 
relevant record is created doesn't cost anything. That is 
something that we are doing in-house. It may cost VA some 
things because it requires them to get into the business of 
scanning records. Also, we have been recalling our retired 
judges to assist us in deciding cases. The five retired judges 
available come in for 90 days at a time to help us there. 
Again, that cost is minimal as well. I have one judge who is 
located out of town in Utah, and I bring him back for 90 days 
to do that.
    What is coming up in the near term that we need your 
tremendous support on is the courthouse. We are getting very 
close now to providing to the Congress a feasibility study by 
GSA on the options available for the courthouse. We are the 
only federal court in the system without its own dedicated 
courthouse. We are putting in place plans to try to alleviate 
that unflattering distinction.
    GSA, as I said, has done a follow-on feasibility study that 
examined our current location, a commercial office building. 
That study accesses whether or not it is feasible for us to 
take over that entire building, or in fact build at some other 
location that is considered to be appropriate and feasible.
    There is no better time than now to make this happen if we 
are going to let the public know that there sits a courthouse 
that demonstrates the public's respect and gratitude to 
America's sons and daughters for their service, and also that 
is a beacon of justice for the veterans and their families. So 
we look forward to working with you to make this a reality.
    That is all I have. I would be happy to answer your 
questions.
    [Prepared statement of the Honorable William P. Greene, Jr. 
follows:]

[GRAPHIC] [TIFF OMITTED] T2754A.118

[GRAPHIC] [TIFF OMITTED] T2754A.119

[GRAPHIC] [TIFF OMITTED] T2754A.120

[GRAPHIC] [TIFF OMITTED] T2754A.121

[GRAPHIC] [TIFF OMITTED] T2754A.122

[GRAPHIC] [TIFF OMITTED] T2754A.123

[GRAPHIC] [TIFF OMITTED] T2754A.124

                            BACKLOG OF CASES

    Mr. Edwards. Judge, thank you. It was very well presented.
    Let me just ask you in terms of your backlog, based on the 
historic number of cases that you decided this year, it looks 
to me like you handled more cases, closed more cases than came 
in, so you reduced your backlog. How long is the backlog in 
terms of the waiting list? Or in terms of if I were a veteran 
today and I filed a case before the court, when would I 
generally have my case? How many months later would I have my 
case considered?
    Chief Judge Greene. It is very hard to speak in terms of 
backlog with an appellate court, but let me, if you recall from 
last year, I provided an overview of how the process works at 
the court. I think our median time for the fiscal year 2007 was 
416 days. That was high--higher than previous years--because I 
had certainly put pressure on all my colleagues to make sure 
that we got rid of the oldest cases at the court, and therefore 
reduced the time that cases have been waiting for decision. We 
were successful in that.
    I think right now we have very few cases in chambers that 
have been there over 4 months. Now, how does a case get to 
chambers? Because of this record of trial issue that I 
presented, that it takes 90 days just to get that, and then 
after the 90 days the parties file their briefs, and they have 
another 90 days to 120 days to do that. In essence, it takes at 
least 254 days for a case to even get ready for the Central 
Legal Staff to look at it to see what kind of case it is really 
going to be. They take about 2 or 3 months to do that, so you 
are already at 1 year before a case can actually come to 
chambers.
    There is just no way you can really reduce that too much. 
We can reduce it by changing the way we develop the record on 
appeal. Through electronic filing, there will be 24-hour 
access, to file briefs via the cyber-space, and e-filing will 
be at the court very soon.
    So as we work this, we are going to see how that improves 
the efficiencies of getting the case to a judge. But just like 
any other appellate court, once you get the case to the judge 
then you get into the deliberative process and the legal 
process. The time to disposition just depends upon the 
arguments raised by the parties, what effect the case may have 
on other cases pending at the court at the time, what the 
federal circuit is deciding at a particular time, and whether 
or not we are going to render a decision on an issue that is 
being also considered by the federal circuit--all those factors 
play into our ability to dispose of a case. But we are working 
to reduce that median time.
    Mr. Edwards. Okay. You said you have hired five retired 
judges to come back for a certain period of time to help reduce 
the backlog. If you had additional budget funding, would you be 
able to hire additional retired judges? Or is that a limit?
    Chief Judge Greene. No. I have six retired judges. One is 
not able to participate right now because he has had a terrible 
accident. So the other five are coming in, and by statute, once 
they make themselves available to be recall-eligible--and I as 
the chief judge decide to call them--they must serve 90 days. 
They can serve longer than that if they volunteer to do so.
    As it has been working out, I have taken the five judges 
that I have and have spread their service over the year, so 
that there are always one or two available to help the other 
seven judges with the cases.
    Mr. Edwards. Good. Thank you.
    Zach.

                          PRO BONO CONSORTIUM

    Mr. Wamp. Thank you, Mr. Chairman.
    Besides both Mr. Farr and I wearing our pastel spring 
colors today, we have both agreed to a shared goal of leave no 
veteran behind. I was wondering--and forgive my naivety because 
I am a beginner here--but with your 41 percent increase in 
basically your pro bono work, can I assume that that is a 
population of veterans that are so indigent that they are 
coming through your court and might fit into some of this 
population that we are talking about where the goal would be to 
not leave these veterans behind? Who are these people?
    Chief Judge Greene. An appeal to the court is an appeal by 
right. In other words, when a veteran is dissatisfied with the 
Board decision, that veteran can appeal the decision. There are 
no preconditions to doing it. So if they want to appeal, they 
just write a piece of paper to us, and we accept the appeal.
    So that is why when you think in terms of 5,000 or 4,000 
veterans doing that, it is inevitable that many of them, who 
haven't had legal representation because up until last June, a 
lawyer couldn't represent a veteran before VA and charge a fee. 
Now, they can. So perhaps that is going to change 
substantially.
    But at any rate, we do have a high rate of individuals 
initially filing pro se. But then as the appeal works through 
the system, we have a pro bono consortium that screens the 
cases, and then they look at cases that appear to be viable, 
and thus assign an attorney to represent these veterans. There 
are other veterans organizations that come in and represent 
veterans from that same pool of unrepresented veterans that was 
41 percent at the beginning.
    That is why in our annual report at the end of disposition, 
that number of unrepresented appeals reduces to about 19 
percent.
    Mr. Wamp. But then they still have a $490,000 one-time 
increase, right?
    Chief Judge Greene. I am sorry?
    Mr. Wamp. The $490,000 increase in your representation 
program, your pro bono work, is a 41 percent increase. Do you 
expect that to continue?
    Chief Judge Greene. Well, I don't normally comment on the 
Pro Bono Consortium's budget, so I am not sure. I am sorry. I 
misunderstood you when you said pro bono. You were talking 
about the Pro Bono Consortium. Well, as I mentioned the 
consortium, in fact, screens the cases and as more cases come 
in, there are more cases to choose from as to whether or not 
they are going to assign the many lawyers that have signed up 
to represent veterans.

                         FULL TIME EQUIVALENTS

    Mr. Wamp. On a little history, you talked about $1 million 
that this committee gave last year. Of course, I wasn't here, 
so I don't know. That was above the 2008 request?
    Chief Judge Greene. That is correct.
    Mr. Wamp. And so, did that increase your FTEs once you got 
that money?
    Chief Judge Greene. As I indicated in my prepared 
testimony, it increases our FTEs to 112.
    Mr. Wamp. From what?
    Chief Judge Greene. From 105.
    Mr. Wamp. Okay. So seven FTEs followed the increase. Were 
you going to increase that without the $1 million? Or did that 
prompt it?
    Chief Judge Greene. That prompted it.
    Mr. Wamp. That prompted the FTE increase?
    Chief Judge Greene. That is correct.
    Mr. Wamp. Okay. So that then established a new baseline 
that you have to have going forward.
    Chief Judge Greene. Exactly.
    Mr. Wamp. So it wasn't really a one-time thing. You came to 
that level because you needed to.
    Chief Judge Greene. Well, we had asked to increase to [I 
think we were going] up to 105 FTES for 2008. Then with the 
ripple effect coming from all the resources that were being put 
into VA, I guess it was nice to think about the court and say, 
well, there is going to be some residual effect on the court, 
and that gave us an ability to at least increase our resources.
    Mr. Wamp. Well, I am learning, and I appreciate the lesson 
here today.
    Chief Judge Greene. I would be glad to come by and talk to 
you.
    Mr. Wamp. Very good. Thank you.
    I yield back.
    Mr. Edwards. Mr. Farr.

                            APPEALS PROCESS

    Mr. Farr. Thank you, Mr. Chairman.
    Judge Greene, thank you for coming. I am not a lawyer, so I 
want to ask you just a little bit about the process.
    Chief Judge Greene. Sure.
    Mr. Farr. The way a veteran gets in--a veteran applies for 
a disability through the Department of Veterans Affairs, and 
they make a decision on rating and payment.
    Chief Judge Greene. That is correct.
    Mr. Farr. And if they are not satisfied, they appeal that 
to the Board. So that is the first instance of an appeal from 
an administrative decision.
    Chief Judge Greene. That is correct.
    Mr. Farr. Then your court is the second tier from the Board 
to you, and you are the supreme court of the decision.
    Chief Judge Greene. In a sense we are, but really for 
questions of law only, the veteran can appeal again to the 
United States Court of Appeals for the Federal Circuit. And 
then the veteran can appeal from the Federal Circuit to the 
Supreme Court.
    Mr. Farr. Have there been any of those cases this year?
    Chief Judge Greene. No. I think there have been three cases 
to the Supreme Court in history. Well, there have been two 
accepted by the Supreme Court. We had one that went up on cert. 
It was a big case, but the Supreme Court decided not to take 
it.
    Mr. Farr. So essentially these 4,000 to 5,000 appeals that 
come to your court are people that have lost twice. They have 
lost in the preliminary decision. They have lost in the Board 
decision, and now they are in this third strike, right?
    Chief Judge Greene. That is correct.
    Mr. Farr. Now, what I am concerned about is that I think 
there is a tsunami of appeals coming with PTSD. Do you think 
that we will be able to predict how much they are going to get, 
how much disability they have, the ratings? Is that what they 
are usually appealing is the rating itself?
    Chief Judge Greene. Well, that is why I said in a sense. 
Anything may be appealed that can be considered by the veteran, 
to be an adverse decision. That could be, obviously, a 
straight-out denial of all benefits, or it could be a 
dissatisfaction with what has been awarded. So the veteran 
could very well receive 50 percent for PTSD, but believe he 
should get 100 percent, and therefore a case coming to us would 
be the veteran's allegation that the Board erred by not 
applying the rating schedule correctly in only giving him 50 
percent when he should have received 100 percent.
    Mr. Farr. When you have pretrial conferences, do you 
resolve a lot of those in the dispute resolution?
    Chief Judge Greene. We do. I think the Clerk ends up acting 
on about 75 to 100 cases a month--it is about 40 percent of the 
conferences, historically.
    Mr. Farr. Let us just take the 5,000 figure--would you deny 
some of those or would you hear all of them?
    Chief Judge Greene. No. Pre-briefing conferences are 
designed to get the parties to resolve the issue. Generally, 
what happens is that they agree that an error has been 
committed by the Board and therefore the matter is returned to 
VA for them to do it over again.
    Mr. Farr. What is the success rate of making an appeal? Is 
it 50 percent or 20 percent? If you appeal to your court, does 
the appellant have a pretty good chance of getting a favorable 
decision?
    Chief Judge Greene. Yes. I was just looking at our annual 
report. I thought we had a percentage here of remands. A remand 
is considered a win.
    Mr. Farr. That is what I have gotten into some casework on 
is the remand.
    Chief Judge Greene. Right.
    Mr. Farr. And the time consumed and the fact that people 
then have to go through that to find a regional record. It just 
seems like a paper nightmare and big administrative costs.
    Chief Judge Greene. We do not fact-find, so consequently in 
some cases we can reverse the case as a matter of law and fact, 
and as a result say that under no circumstances could there be 
any other outcome but an award for the veteran. Make it happen.
    But in many cases, there has been some screw-up by the 
Board that they didn't do something correctly, and had they 
done it correctly, it would have changed the outcome of the 
facts in the case. As a result, we return it for them to do 
just that, to readjudicate the case correctly, and then if they 
don't, I guess it does come back.
    Mr. Farr. Do you see an increase in the number of appeals?
    Chief Judge Greene. Absolutely. We have gone from roughly 
2,400 a year up to 2005, to now from 3,600 a year, to 4,600 
this past year.
    Mr. Farr. You have said the chances of getting a better 
benefit from appeal seems to be there. Is there feedback to the 
lower board? Is it a board? Is it a hearing board? What is the 
equivalent to the trial court?
    Chief Judge Greene. The Board of Veterans' Appeals.
    Mr. Farr. The Board of Veterans' Appeals.
    Chief Judge Greene. Well, the trial court, if you put it in 
that sense, the regional office is the first entity that 
adjudicates the claim. Then you have an intermediate 
appellate----
    Mr. Farr. Is that an administrative process?
    Chief Judge Greene. Absolutely, as well as the Board, 
although it is quasi-judicial in that they have veterans----
    Mr. Farr. Does the Board have to approve that, or unless 
there is an appeal, it is a decision? I am a veteran. I think I 
have PTSD. I think I am 80 percent disabled, but I get denied.
    Chief Judge Greene. So you appeal to the Board because a 
veteran has one right of appeal to the Secretary of VA, and 
that is to the Board. And the Board looks at the case de novo, 
as we say, and looks at the facts, and even will determine if 
there are other facts to be considered. If there are other 
facts to be considered, the Board generally would return it to 
the regional office for them to consider those facts, or ask 
the veteran to waive that requirement and let the Board make 
those considerations of fact.
    Mr. Farr. So how many of these 5,000 cases end up being 
recycled, versus final decision?
    Chief Judge Greene. Normally, 50 percent are remanded by 
us.
    Mr. Farr. Here is what I see happening--you are going to 
get this increased workload. If you are, in fact, remanding 
them because you have found error, shouldn't they be learning 
something so there won't continue to be that much error? 
Because you are going to be overloaded and you are not going to 
have the resources to do this.
    Chief Judge Greene. Chairman Terry will tell you--he is the 
chairman of the Board of Veterans' Appeals--that he is learning 
from our decisions, and that he has placed emphasis on his 55 
to 75 veterans law judges that they are going to prevent these 
remands coming back to us because they are going to do it 
correct the first time.
    Mr. Farr. And you are seeing that happen?
    Chief Judge Greene. Oh, absolutely. At the same time, we 
are seeing a tremendous output of productivity by the Board as 
well. Now, Chairman Terry would tell you in that situation, if 
the Board does 90 percent correct the first time, there 
shouldn't be any appeals to the Court. That would be great for 
us, but that doesn't mean it is going to be so, because as I 
said, the veteran could still appeal to us if he gets 50 
percent and believes he should get 70 percent.
    Mr. Farr. My whole point is that your full workload is 
dependent on what happens at the ground level. If the veteran 
is feeling that they are being fairly judged or fairly rated, 
they won't make the appeal. It seems to me that we ought to 
make sure that all the professionalism is necessary, because a 
lot of our casework at our local office is about the product of 
the bureaucracy.
    Chief Judge Greene. I will say that I think it was last 
year, the Board had 18,000 cases that were totally denied--
18,000. And all of those potentially could have come to the 
court, but they didn't. And so for whatever reason, those 
veterans decided to say, okay, that is the decision and I 
accept it. We are always concerned about the fact that there is 
a pool of cases out there that just don't come to us that 
certainly could.
    Mr. Farr. Why do you need your own courthouse?
    Chief Judge Greene. Well, we are a federal court. All other 
federal courts have a courthouse. I put it as simply as that.
    Mr. Farr. Does that mean you have to travel here to 
Washington, DC?
    Chief Judge Greene. No, no, no, sir, because at appellate 
courts, counsel appear. A veteran is certainly entitled to come 
to his hearing from wherever, but we are a national court and 
we go to other places and conduct hearings. I was just in 
Florida last week conducting a hearing. It is part of our 
outreach program, and is something that we do.
    But having a federal courthouse, is designed to demonstrate 
the public's respect and gratitude to veterans as a symbol of 
justice for them. That is the main reason I think we should 
have a courthouse. Soldiers who are court martialed and 
convicted of serious offenses can appeal their cases to the 
Court of Appeals for the Armed Forces, which has a courthouse. 
What about veterans with honorable discharges? So I think it is 
time for that to happen.
    Mr. Edwards. Judge Greene, could I just ask one last 
question? Based on the first quarter, the first 3 months of 
2008 versus 2007, there were in 2008 first quarter a little 
over 300 per month filings and 387 in the same time period in 
2007. Are you projecting any downward trend based on that, or 
is that just an anomaly?
    Chief Judge Greene. No, I think we are really still on the 
same trend that we were in 2007, except for the class of cases 
that involved bilateral tinnitus. We ruled one way and the 
Federal Circuit ruled the other way, and that caused almost 
1,000 cases to get worked in the system.
    Mr. Edwards. Okay.
    Mr. Wamp. No more questions. Thank you for your statement.
    Mr. Edwards. Judge Greene, thank you for your service. It 
is great to have you back here.
    The meeting is adjourned.

           United States Court of Appeals for Veterans Claims

    Question 1. For FY 09 you ask for $1.7 million for the Veterans' 
Consortium Pro Bono Program. How many veterans requested or required 
the services of the Veterans' Consortium Pro Bono Program last year?
    Response. Although the budget estimate for the Pro Bono 
Representation Program (Program) is an addendum to the Court's budget, 
the Program is a separate and distinct entity from the court and the 
funds appropriated for it are deposited through the Court to the 
Program. Therefore, I have referred your question to the Chairman of 
the Program, Mr. Jeffery A. Stonerock, and asked that he respond to 
your question.
    Question 2. Electronic Filing of Claims. I've read your testimony 
and it seems that your Court is one of the few branches of the Federal 
Government that has been successful at records integration. Can you 
also access the veterans' claims and medical records electronically?
    Response. No. The Court's Electronic Filing and Case Management 
Syustem does not have direct electronic access to records maintained by 
VA. However, under the Court's Electronic Filing initiative, when an 
appeal is filed with the Court, VA will copy the entire Record Before 
the Agency and furnish a complete copy to the veteran. All medical 
records and other documents from the Record Before the Agency relevant 
to the issues on appeal will be provided to the Court electronically.

    [Clerk's note.--End of questions for the record submitted 
by Congressman Farr.]
                                      Wednesday, February 27, 2008.

                      OFFICE OF INSPECTOR GENERAL

                               WITNESSES

JOHN DAIGH, JR., MD, ASSISTANT INSPECTOR GENERAL FOR HEALTHCARE 
    INSPECTORS
JAMES J. O'NEILL, ASSISTANT INSPECTOR GENERAL FOR INVESTIGATIONS
BELINDA FINN, ASSISTANT INSPECTOR GENERAL FOR AUDIT
MAUREEN REGAN, COUNSEL TO THE INSPECTOR GENERAL

                       Statement of the Chairman

    Mr. Edwards [presiding]. I will call the subcommittee to 
order.
    Dr. Daigh, Mr. O'Neill, welcome to our subcommittee. At 
least in my years in the subcommittee having jurisdiction over 
the VA, this is the first time to ask for a hearing 
specifically to meet with the Office of Inspector General. We 
thank you for being here.
    I think we are all proud of our work last year to add $11.8 
billion in a 12-month period to the VA budget. I think one of 
the things that we all accepted was that this subcommittee 
carries with that additional funding the responsibility of 
being sure that it is spent wisely and effectively.
    We have all talked to our constituents back home about 
finding waste, fraud and abuse. To me, the operation of this 
office is where the rubber meets the road. I thank you both for 
taking on the important responsibility and seeing that our tax 
dollars are spent wisely and efficiently. Where there is waste 
or even criminal action, as you have uncovered in some cases, 
that is vetted.
    As many of you may recall on the subcommittee, we added 
$7.9 million last year to this account for the VA Office of 
Inspector General. The reason was to give them extra resources 
to be able to keep up with the kind of oversight that we felt 
was so crucial to see that this significant increase in funding 
level was spent wisely.
    Let me just for the record give the subcommittee a little 
bit of track record information on the OIG's office. In their 
last two semiannual reports to Congress, OIG identified $820 
million in actual and potential monetary savings from proposed 
efficiencies. They issued 217 reports on VA programs and 
operations and--this is amazing to me--achieved 580 arrests, 
336 indictments, 242 criminal complaints, 389 convictions, 
1,711 administrative sanctions, and 45 pretrial (INAUDIBLE).
    OIG, according to their numbers, their operations provided 
a return on investment of $12 to $1. That is not based on 
overly optimistic assumptions. I wish I could get that kind of 
return on my family's investments.
    The president's budget for 2009 did not help us maintain 
the funding level that we provided in 2008. In fact, it would 
cut the OIG budget by 5 percent, resulting in an 11 percent 
decrease in staff. I hope during the discussion today we can 
talk about what the impact was. I respect the fact that the 
administration asked for some significant increases in some 
areas of the budget, particularly VA medical services, and we 
all agree that should be the highest priority. I would like to 
delve into how many people do you have to lay off or how many 
people could you not hire, and what would be the kind of work 
you couldn't do that you can do if you have them.
    We will not put you in the unfair position of asking you if 
the administration budget is fair or not. I respect the chain 
of command and once OMB has signed off on a budget, it is 
everyone's responsibility in the administration to say we are 
going to do the best we can with what we have been given. But I 
think we will ask in a fair manner what actions you have to 
take to implement that budget cut, or what actions could you 
not take with the additional funding that we provided last 
year.
    At this point, I would like to recognize the ranking 
member, Mr. Wamp, for any comments he may have.

                Statement of the Ranking Minority Member

    Mr. Wamp. Well, thank you, Mr. Chairman. Thank you for your 
leadership on all these hearings, just the general way that you 
present yourself and the leadership that these two major 
priorities of federal spending deserve.
    The chairman said that this was the first hearing at this 
subcommittee for the inspector general to come in. Well, every 
hearing that I go to is the first one that I have been to, so 
we have that in common. [Laughter.]
    I would also say that I can't think of an inspector 
general's office that would be more important than this one, 
because the covenant that our nation has to the veterans and 
with the veterans, and frankly the bureaucracy and the agency 
association with that covenant, are very, very important that 
we squeeze every dime in efficiency out of the precious 
resources that we dedicate to our veterans, and that we root 
out any waste any fraud, and any abuse. Because this is a 
covenant relationship between our country and the men and women 
in uniform that have stood in harm's way on our behalf, your 
IG's office is about as important as any you can find.
    So I welcome you here on that tone. I thank you for your 
service, and commit myself to help the chairman find the 
resources to ensure that you can meet these responsibilities in 
the coming year regardless of what point we are starting from 
with the president's budget request. I look forward to your 
testimony.
    Thank you, Mr. Chairman.
    Mr. Edwards. Well said, Mr. Wamp.
    We have two panels today. The methodology here was we 
wanted to bring in the assistant inspector generals that have 
the hands-on experience, for example, Dr. Daigh in healthcare 
and Mr. O'Neill in investigations. So rather than bringing in 
the inspector general, we thought that we would get the people 
who really have the boots on the ground.
    Let me just briefly introduce our two witnesses today. Dr. 
John Daigh was appointed Assistant Inspector General for 
Healthcare Inspections at the VA in January of 2004. He has 27 
years of active duty service in the United States Army. Dr. 
Daigh, we thank you for those distinguished years of service. 
He obtained his medical degree, and Judge Carter and I would be 
proud of it, even though I am an Aggie, from the University of 
Texas Southwestern Medical School--it is a great institution, 
highly respected--after graduating from the U.S. Military 
Academy in 1974.
    Mr. James O'Neill was appointed in July of 2006 as the 
Assistant Inspector General for Investigations. Before joining 
the OIG, Mr. O'Neill had a distinguished career in the U.S. 
Secret Service--thank you for that--where he held leadership 
positions in the Office of Investigations, candidate nominee 
for the Protection Division, and the Information Resources 
Management Division.
    I think we are very fortunate to have people of your 
experience and qualifications to serve in these two very, very 
important positions. I would like to recognize each of you for 
any opening comments you would care to make. Without objection, 
your full testimony will be submitted for the record, so if you 
could in your initial comments address what you think are your 
key points, then we will open this up for discussion.
    Dr. Daigh.

                      Statement of John Daigh, Jr.

    Mr. Daigh. Sir, thank you very much.
    Mr. Chairman, Mr. Ranking Member, it is an honor to be here 
to represent the people in the Office of the Inspector General 
that work with me to try to ensure that veterans get quality 
care. We spend our days walking through the wards of the 
hospitals meeting with veterans, meeting with providers, trying 
to either inspect hospitals or deal with the issues that 
stakeholders bring to us through hotline complaints. While 
collecting data, it allows us to publish what we consider 
national reviews.
    I think that we have had a significant impact on the VA's 
performance, and I hope that I can respond to your concerns 
through that discussion. I would say to you that I think 
veterans do receive quality health care at the VA system. I am, 
however, concerned over the last year, where I have had a spate 
of what I consider, and VA considers, really quite unfortunate 
incidents that we have published as hotline complaints in 
general. There is a complaint that arose at Martinsburg, West 
Virginia where a veteran was unable to get an adequate airway. 
There are some issues that we testified in a House Veterans 
Affairs Subcommittee regarding Salisbury surgery service. We 
recently published a hotline regarding the San Antonio VA 
intensive care unit, and then most recently we published the 
Marion, Illinois hotline addressing the significant issues in 
Marion.
    So I believe that there are some control issues that need 
to be attended to in order to assure that veterans do in fact 
get quality health care. We publish, and I think make important 
recommendations during the year. There are about 57 FTEs that 
would work for me in 2009 under the current budget proposal, 
which would be about 15 less than the 2008 proposal. My current 
workload outlook is to publish a CAP review, which would be a 
review of a medical facility about once a week; publish a 
hotline about once a week; and publish a national review about 
once a month. We would continue that publication pattern at 
about the same level.
    Of the reports that people expect to come from us, from my 
office, most of them deal with the quality of health care. But 
there is one I would like to make you aware of that I think 
will change our ability and improve our ability to address the 
issues that VA has to deal with. That is called the LC dataset 
report. We have a problem of universes. The VA is 150 hospitals 
of varying sizes at varying places. It is a collection of 
nursing homes of different sizes and different places.
    We have had a particular issue in coming up with a way to 
think about the returning veterans from OIF and OEF. So the LC 
dataset essentially creates a series of cohorts--a cohort being 
everyone who leaves DoD in a given year. So if you understand 
the health care that has been provided and basically the 
disease burden that that group of individuals has as they leave 
DOD and transition to VA, one can then in the epidemiological 
view look and watch as VA tries to treat that disease as it 
comes across.
    So patients diagnosed with PTSD on the DOD side will have 
to be treated on the VA side as well. Similarly, one can look 
at that cohort of patients and see who is paying for their 
care. You can see for that population are they getting their 
care in-patient or outpatient or fee-basis VA? Fee-basis 
TRICARE, which many of them are eligible for. Are they in fact 
disabled such that they cannot--some would view them as 
unemployable? They may in fact be receiving Social Security 
income and have Medicare as their primary care. And some of 
these individuals are in nursing homes and have Medicaid as 
their care.
    So one can look at the epidemiology of it. One can look at 
the financing of it, and then one can also look at the 
disability penetration of these patients as the cohorts leave 
DoD. I think that that will allow us to know with much better 
precision how close we are to truth when we say that health 
care is truly representative of what the VA is doing.
    I would like to end my statement there.
    [Prepared statement of the Office of Inspector General 
follows:]

[GRAPHIC] [TIFF OMITTED] T2754B.001

[GRAPHIC] [TIFF OMITTED] T2754B.002

[GRAPHIC] [TIFF OMITTED] T2754B.003

[GRAPHIC] [TIFF OMITTED] T2754B.004

[GRAPHIC] [TIFF OMITTED] T2754B.005

[GRAPHIC] [TIFF OMITTED] T2754B.006

[GRAPHIC] [TIFF OMITTED] T2754B.007

[GRAPHIC] [TIFF OMITTED] T2754B.008

[GRAPHIC] [TIFF OMITTED] T2754B.009

[GRAPHIC] [TIFF OMITTED] T2754B.010

[GRAPHIC] [TIFF OMITTED] T2754B.011

    Mr. Edwards. Thank you, Dr. Daigh.
    Mr. O'Neill.
                              ----------                              

                                      Wednesday, February 27, 2008.

                    OFFICE OF THE INSPECTOR GENERAL


                                WITNESS

JAMES J. O'NEILL, ASSISTANT INSPECTOR GENERAL FOR INVESTIGATIONS

                     Statement of James J. O'Neill

    Mr. O'Neill. Thank you, sir.
    I represent the 149 members of the Office of 
Investigations. We will be growing to 163 in FY 2008.
    We have 120 special agents and administrative investigators 
in 25 locations around the country. We are opening up an office 
in Las Vegas and in Tallahassee in the coming year, so that 
will bump it up a couple. We have full authority to arrest, 
conduct investigation--as any other special agent in government 
does. In the last 7 years we have averaged somewhere about 6.5 
arrests per special agent, and monetary recoveries of $1.3 
million per special agent.
    I thought I would tell you about some of the criminal 
investigations that we conduct. We are most interested, of 
course, in any sort of patient abuse, whether that is 
intentional homicides which have happened in VA hospitals, and 
on a couple of occasions, negligent homicide cases. If there is 
a suspicious death, we investigate it.
    We investigate allegations of serious assaults, rape, and a 
variety of assaults--we investigate threats against VA 
employees and facilities. We focus on drug diversion by medical 
personnel and by drug dealing on medical campuses that 
threatens the rehabilitation of those with substance abuse 
problems. We investigate identity theft by people who are 
getting benefits either at the hospital or the monetary 
equivalent. We are involved in a number of investigations which 
are typically civil investigations.
    In terms of the monetary benefits of investigations, we 
work on fraud committed, either by fiduciary or by survivors 
and deceased beneficiaries. We look at investigations of 
veterans who fabricate or grossly exaggerate service-connected 
disabilities such as blindness or paralysis compensation.
    We also investigate veterans who have fabricated or grossly 
exaggerated combat experience to support PTSD claims. We 
investigate people who pose as veterans and get some sort of 
benefit from the VA, or ineligible veterans and non-veterans 
who have assumed the identity of a veteran in order to get 
monetary benefits, and fraud against the loan guarantee 
program. There are many other types of investigations, but 
these are the highlights.
    We are proactive when possible. We have the Fugitive Felon 
Program in response to a law passed in 2001, where benefits are 
denied to fugitives who have committed a felony. In that case, 
what we do is we get the fugitive felon data from the FBI's 
National Criminal Information Center, NCIC, and 14 or 15 other 
states. And we compare it with beneficiaries, and if there is a 
warrant for their arrest, then we provide the warrant holder 
with the last known address and other information from VA 
systems so that will expedite the arrest.
    For safety reasons, we wait 60 days and then we notify VBA 
and VHA, and then they initiate their due process procedures 
where they notify the beneficiary of an arrest warrant and that 
their benefits will be terminated as long as they are a 
fugitive, and that they will owe the payments for any benefits 
received while they were a fugitive. So it inspires them to 
either surrender or have their benefits cease.
    During the time that this program has been in existence, 
since late 2002, the program has resulted in 1,700 arrests, of 
which 112 were VA employees, because we also match VA employee 
information against these fugitive warrants just to make sure 
we don't have someone working at a facility who is a fugitive 
felon.
    We also match the VA beneficiaries against the Social 
Security Administration's death file--to make sure that the VA 
is not providing monetary benefits to someone who is deceased. 
This program has resulted in 250 arrests, recovery of more than 
$27 million, and a 5-year cost avoidance of more than $72 
million. The monetary benefits associated with the Fugitive 
Felon Program approached $1 billion because that is for the 
period of time that they are not able to get benefits----
    We investigate allegations of bribery, contractor fraud, 
and data loss. You probably know we investigated a data loss 
last year in Birmingham. We have actually investigated about 50 
data losses over the last 2 years. We provide fraud awareness 
briefings to about 8,500 VA employees a year, where we try to 
give them some sense of what are some of the indicators of 
fraud, and what they should be reporting to us.
    And finally, we do conduct administrative investigations of 
wrongdoing that is not criminal, but administrative, by GS-15s 
and SES employees of VA. These typically focus on use of public 
office for private gain, inappropriate use of resources, 
nepotism, and abuse of authority.

                      HIRING ADDITIONAL PERSONNEL

    Mr. Edwards. Thank you, Mr. O'Neill.
    Thank you, Dr. Daigh.
    Let me begin by just asking you, Dr. Daigh, and then you, 
Mr. O'Neill, how many people were you able to hire as a result 
of the additional $7.9 million that we added to the 
administration request for 2008? And then, have you hired all 
of those people? Are you in the process of hiring them? And 
then, how many of those would you have to fire or not hire if 
we went to the budget proposed in the administration's budget 
request? And then maybe more specifically, and most 
importantly, what would be examples of the kind of tradeoffs 
you have to make?
    We all know we have to make tradeoffs. We don't have an 
unlimited checkbook here, but given the important work that the 
two of you and your offices do, what would be some of the 
tradeoffs that might, you know, cause priorities to get lost in 
the shuffle if you didn't have those additional funds?
    Dr. Daigh, we can begin with you.
    Mr. Daigh. Let me try to answer that. We have not fully 
hired all the people in that when we were told we could hire. 
We are in the process of hiring those people.
    Mr. Edwards. And that would allow you to hire fully funded, 
or when you spent that money or hired those people, how many 
people would that allow you to hire?
    Mr. Daigh. That would be 57 plus 15. So that would be----
    Mr. Edwards. So that is 72 additional?
    Mr. Daigh. No. My office would be 72 total--would be my 
office.
    Mr. Edwards. Okay.
    Mr. Daigh. Under the president's budget, I would be at 57 
in 2009. So the delta is 15 people, and those 15 have not 
totally been hired. They are in the process of being hired.
    Mr. Edwards. Okay.
    Dr. Daigh. I have a mandate to try to ensure that veterans 
receive quality care, so I try to look at a portfolio of issues 
every year all the time. So I try to ensure that the 
institutions within VA ensure quality and are performing 
properly by going to hospitals. I try to look at acute care. I 
try to also look at VA programs designed for elder-care, which 
would be the nursing home programs and the various--programs to 
provide opportunities for veterans to receive care outside of 
nursing homes.
    We also look at the programs that are VA-specific, like 
care for the homeless and other programs that are not really 
health care related and not really institutional care. So even 
if I were to lose FTE. I would try to still cover all those 
programs every year through the CAP inspections or hotline or 
national reviews. I don't focus entirely on the issue of the 
day. I think that is not the direction we need.
    What would become difficult is it would become difficult to 
look in detail at issues that I think are important, and to put 
the emphasis on them that we need. For instance, I think 
credentialing and privileging are two of the issues that are of 
high importance right now; the ability for me to go directly 
into facilities and spend the time it takes to take a sample, 
and in the credentialing process to ensure that detail work has 
been done correctly, is time-consuming.
    What we currently do is we go in and we ask the VA what 
they do in the credentialing process. We look at their records. 
If the records appear to be reasonable, and we have been told 
that they do things correctly, then we move on. If you want us 
to go in and actually look at the applications for hire at the 
VA, to read the documents that allow one to be hired, to go and 
check and validate that each of the steps was taken--that is a 
much more time-intensive procedure than we currently do.
    We realize there are credentialing issues, and we have 
asked that through our marion report court that VA change their 
processes to improve those credentialing procedures that we 
have identified that need to be improved. So that would be an 
issue.
    Peer review is another issue that is important. When an 
event occurs at a facility where the outcome is not what is 
desired, there needs to be a review of that. So we have 
identified a number of problems with the peer-review process. 
We have identified VISNs we think are probably not properly 
supervising and applying the controls that one would like to 
see over the movement of quality data. So again, a detailed 
look at that would be difficult.
    The kind of work that the LC dataset would let us use to 
bring power to the data that we have and turn it into much more 
actionable, useful information for the VA, would be difficult 
to do.
    Mr. Edwards. Dr. Daigh, let me interrupt. I want to try to 
stay to the 5-minute rule. We have an informal committee and a 
small number of people, so we can do multiple rounds. And then, 
Mr. O'Neill, later I will go back to you.
    Just quickly, as briefly as you could, we bumped up your 
budget significantly for 2008. If we were to maintain that 
level or inflation-adjusted amount for that level of staff, 
would you be able to give us a pretty good report within 12 
months and say, this is what we think we could have done; this 
is what we think we were able to accomplish that we might not 
have been able to accomplish before.
    Basically, the question is can we, just as you measure the 
VA, would we be able to measure some of the results of that 
extra money? Rather than a 1-year bump-up and go back, if we 
hit the high level for 2 years, do you think you would be able 
to give us a pretty good, honest, objective analysis of what 
extra results?
    Mr. Daigh. I think that where you would see that extra 
result is in the 800 CBOCs and 200 Vet Centers that are out 
there that essentially get no coverage.
    Mr. Edwards. They get no coverage?
    Mr. Daigh. Well, minimal coverage, almost no coverage. In 
the CAPs, which is our review of ongoing facilities, we for a 
year went out and look at the CBOC that happened to be the 
closest to the hospital, but that is essentially no coverage. 
Of 800 CBOCs, we look at a very small amount--50 of them or 60 
of them. We have paid no attention to the 200 Vet Centers. Vet 
Centers I think provide peer-to-peer counseling, which is in my 
view not health care----
    Mr. Edwards. Right.
    Mr. Daigh. But they also provide suicide prevention 
counseling and social workers provide a therapeutic 
interaction. So we have not looked to see that if in fact the 
standard of care in there is the same as the standard of care 
at a facility.
    We would have a very difficult time addressing hotlines 
that are in detail or in-depth that Members of Congress or 
stakeholders would present to us. So a Marion--I have a 50-
person staff and it takes 10 or 15 people several months 
actually, to crank through the data, to interview the people 
involved, put together a meaningful report and drive change.
    So the number of hotlines I could do, the detail that I 
would be able to do, the quality of the national reports, and 
CBOC and Vet Centers we can do.
    Mr. Edwards. Okay. Thank you.
    Mr. Wamp.

                            INADEQUATE CARE

    Mr. Wamp. Thank you, Mr. Chairman.
    I know the purpose of this hearing is to make sure that 
your office has the resources to meet its responsibilities and 
carry out oversight effectively. The chairman has touched on 
the what-if scenarios if you didn't have enough money, or if 
you had to honor the president's request. Because of my newness 
here, I need to ask a couple of questions while I have you here 
about the work that you do and what you find out there.
    Do you see in VA health care, Dr. Daigh, across the 
country, areas of less than adequate service? I will give you 
an example. This is a little parochial. We have a large 
outpatient clinic, but people have to drive 2 hours to receive 
hospital care. At one time, I was interested when Mr. O'Neill 
said that you opened offices in Las Vegas and Tallahassee--and 
I will ask you in a minute why--but Las Vegas was one area that 
only had an outpatient clinic, and I think now there is a 
hospital there.
    We still are in a large service area with only an 
outpatient clinic that they have expanded with an imaging 
center and extended hours, but it is a really, really active 
place with no hospital. It is very dangerous transporting our 
veterans 2 hours to a hospital. As a matter of fact, a couple 
of years ago there was a really awful wreck where veterans died 
in a van transporting them from Chattanooga to Murfreesboro, 
Tennessee, through the mountains in the winter, in the ice.
    It is still a problem, but to us it is an area of 
inadequate service. Do you see that throughout the VISNs?
    Mr. Daigh. We do. The problem that I have is coming up with 
a way to present that data in a meaningful way. In other words, 
when you explained the story to me, which I understand and 
which I agree with, how can I take 100 stories like that and 
make that picture that will drive people to do something about 
it? So the current problem that we are addressing first is with 
this LC dataset I am talking about, is access the mental health 
care.
    So if I can paint a picture of everyone who left DOD--
several hundred thousand people in a year--and I know where 
they are by zip code or census track, and I know where the VA 
is, and I can see how these people are getting health care, 
then we can describe through various metrics, for instance, the 
penetration rate, the percent of veterans who actually get 
their care at this or that facility, or who do not use the VA.
    So I think that through the methodologies that I am talking 
about, which I think we can get to the issues that you are 
addressing, that is a population that is due care that is not 
receiving care. We can find those pieces through the various 
health care----
    Mr. Wamp. You are the most objective source that we may 
actually get on some of these questions. That is why I would 
ask you to be as candid as you can be when you are talking 
about your CAP reviews and through your cycle that you do 
these. What percent of your VA facilities are actually at risk 
under your review process?
    Mr. Daigh. I would say that--I have been there about 5 or 6 
years now--and I would say that every year we find one or two 
facilities that I am going to say is at risk, where the 
maintenance or the performance or the quality assurance 
activities within that hospital do not meet standard. We report 
that. In the CAP report, we say this facility has significant 
problems, and we itemize specifically the major flaws that they 
have.
    Not uncommonly, when we write that report, there is a 
leadership change or a significant impact on the leadership of 
that hospital. So we write the report. We give it to the VISN 
director to make sure that the VISN director and the facility 
director agree that we have the facts right. We write 
recommendations about how to fix it. There are a number of 
times when we have made that statement and changes occurred.

           LAS VEGAS, NEVADA AND TALLAHASSEE, FLORIDA OFFICES

    Mr. Wamp. I have other questions for the next round for 
you.
    Mr. O'Neill, then, why did you open offices in Las Vegas 
and Tallahassee?
    Mr. O'Neill. Well, we are opening them, they are not open 
yet. They will only be a two-person--office.
    Mr. Wamp. Why did you choose them?
    Mr. O'Neill. Because we reviewed the likelihood of getting 
an increasing number of referrals from there. So if our agents 
have to travel, spend the night in Las Vegas, for example, the 
nearest office is Los Angeles. So in order to, one, grow our 
presence at a facility, we tend to get more referrals if we are 
physically at a facility. Las Vegas, of course, has an 
increasing number of veterans. It will save us some money in 
the long term. And then to address a quality of life issue of 
reducing frequent--travel. That is why we chose Las Vegas.
    I think, again, there is an increasing amount of work in 
that area, and we have one of our agents spending most of his 
time in Tallahassee. Our office is in the Tampa-St. Pete area, 
so this new office will help us cover the panhandle and 
Jacksonville, as well as southwest Georgia and Alabama, and we 
just will have a much better presence.

                              RECRUITMENT

    Mr. Wamp. Where do you recruit most of your talent from?
    Mr. O'Neill. Well, to give you some sense of that, we do 
very well. I believe we are fairly well regarded by the 
investigative community. For example, in San Francisco, which 
is a fairly large area--because of the cost of living, we had 
63 qualified applicants who were GS-13 special agents. We have 
hired from the Secret Service. We don't recruit them, but we do 
attract them. [Laughter.]
    Because, a lot of people know that I used to work there. I 
have a son in the Secret Service so I am pretty well informed 
as to what is going on there. They are dealing with a 
tremendous amount of traveling, and a lot of them wanted to be 
criminal investigators. That is one of the reasons they became 
a special agent. Instead, they are being constantly asked to 
work protection.
    So we are able to attract many qualified Secret Service 
applicants, because of a fairly effective network to determine 
whether they would be interested in us--so we actually have 
done well.
    We have found other OIGs, and we make sure that when we 
find someone from another OIG that they recognize that we are a 
full-featured criminal investigative unit, an not an OIG that 
focuses on administrative misconduct. So we want to see that 
they have had experience in conducting complex criminal 
investigations, that they are well-rounded.
    So I would say DEA is another source of applicants. We also 
try to attract a smaller number of younger folks who have a lot 
of promise. We recognize that succession planning is important, 
so we try to sprinkle younger people who lack experience, but 
have great talent.
    Mr. Wamp. Mr. Chairman, I yield back until the next round, 
please.

                      STAFF RESOURCES AND WORKLOAD

    Mr. Edwards. Okay. Thank you, Mr. Wamp.
    Mr. Farr.
    Mr. Farr. Thank you, Mr. Chairman.
    You say that your workload is divided into two main 
categories. One is proactive and the other is reactive.
    Mr. O'Neill. I would say that realistically it is mostly 
reactive. What we do is----
    Mr. Farr. How many cases did you open last year?
    Mr. O'Neill. Approximately 1,100, sir.
    Mr. Farr. How many of those did you get resolved--1,100 or 
11,000?
    Mr. O'Neill. About 1,100, we would have opened, and we 
basically----
    Mr. Farr. Eleven-hundred, one-thousand-one-hundred?
    Mr. O'Neill. Yes, sir.
    Mr. Farr. You have 488 positions and you only did----
    Mr. O'Neill. I have effectively about 95 special agents 
actually conducting investigations. The 488 is the entire OIG.
    Mr. Farr. And how many of those reactives did you solve--I 
mean, our office is a reactive office, too. We have district 
offices. Well, I have two staffers, and we process about 3,000 
cases a year, so I am a little surprised that with your staff 
what you do is so low.
    Mr. O'Neill. Well, I will give you an example. We are in 
the middle of a major investigation in which we have devoted 
9,000 hours already. So the----
    Mr. Farr. Yours are more complex.
    Mr. O'Neill. Yes.
    Mr. Farr. But some of these are just--these are allegations 
that you said you have received through a variety of sources, 
including Congress.
    Mr. O'Neill. Yes.
    Mr. Farr. Our offices would call and say this----
    Mr. O'Neill. Frequently, a staff member of a Member of 
Congress will receive an allegation. For example, John Doe is 
said to have never served in the military and he is getting VA 
benefits. And then that may get referred to us----
    Mr. Farr. And then you would refer that to the VA?
    Mr. O'Neill. We get a lot of them directly--involved in 
that kind of work, but that is just one example--complaints 
that your staff may receive about abusive behavior, so we may 
launch an administrative investigation based upon that 
allegation.
    Mr. Farr. Is that the responsibility of your office? Or 
would that just be the responsibility of the VA's normal 
management of office managers?
    Mr. O'Neill. Most of the time, it would be the 
responsibility of VA. It is when the allegation is serious 
enough to devote resources to, and it is against a senior level 
VA official, that is when we will accept it for an 
administrative investigation. If it is a criminal allegation, 
that somebody is accepting bribes, for example, then it is 
clearly our responsibility to investigate that, as opposed to 
the department.
    We as the OIG routinely refer allegations to VA that we 
receive on the hotline, which is really the source of most of 
the allegations we receive.
    Mr. Farr. So the proactive input to these 1,100, not all of 
them are criminal issues. They just might be----
    Mr. O'Neill. Well,--1,100 criminal investigations, as 
opposed to administrative----
    Mr. Farr. Okay. You indicated in your testimony that there 
are some 800 clinics out there. I know I represent two of 
them--community-based outpatient clinics. And you haven't been 
able to review these clinics. Our problem is VA always wants to 
shut them down or squeeze them. We are constantly trying, 
because what they would do if they shut them down is require 
patients to go a lot further. The idea was to try to handle the 
issues close to home so they wouldn't have to go all the way to 
the VA hospital, in this case in California, to Palo Alto.
    I am curious, because I don't think we have ever used your 
office--what kind of issues would we report to you?
    Mr. O'Neill. Well, regarding the clinics----
    Mr. Farr. Do you inspect them for inspection purposes? Or 
is it all based on complaint basis?
    Mr. Daigh. No, sir. I proactively go out and look at 
medical centers on a schedule. I look at them. So what I am 
saying is those 800 clinics I think should in some way be at 
risk if we aren't going out and looking at them. The reason I 
say this is that the clinics were established with clear goals 
in mind. For instance, they should provide a certain set of 
services, and the providers at those clinics ought to have a 
certain set of credentials and capabilities, and they ought to 
have the same standard of care at that clinic as they have at 
the local hospital.
    So we think that looking at what they are actually doing at 
those clinics will improve the quality of care the veterans 
receive--not assuming that the care there is good or bad. We 
are just trying to make sure that they are doing what they are 
supposed to be doing.
    Mr. Farr. Whose law do you follow? California has higher 
standards than other governmental entities, so do you follow 
the federal standard or do you stick to the state standard?
    Mr. Daigh. For the review of medical facilities, we follow 
VA directives and we follow, where inspections of hospitals are 
concerned, we also use Joint Commission JACAHO guidelines, 
which are generally accepted hospital standards. So we do not 
use individual state guidelines.
    Mr. Farr. Thank you.
    Mr. Edwards. Judge Carter.

                              DATA-MINING

    Mr. Carter. Thank you, Mr. Chairman.
    We have a little university in my district that did some 
data-mining of projects on the crop insurance program and saved 
about $1 billion in fraud for the federal government. I am 
looking over some of the programs that you use in a small way--
program is a data-mining sort of program, as is the death-match 
program, in looking and comparing and seeing trends now where 
we are finding people in those ways, if I understand it 
correctly.
    But to me, this is what some people would term data-mining 
as a negative connotation, when in reality in law enforcement, 
it would seem to me that in the inspection of these clinics and 
hospitals, that you could establish in a computer program 
trends that make indications of mismanagement like excessive 
drug use in one clinic over another clinic might give an 
indication that there might be somebody stealing drugs. Are you 
all doing any of that type of data-mining as you look at both 
the health care side and the criminal investigation side of the 
VA, to try to establish these trends so that you are regularly 
looking with a computer at these issues?
    Mr. O'Neill. That happens with data-mining, the VA tries at 
a number of facilities to use software programs that flags 
suspicious drug disbursement for patients. It helps us to focus 
in on either a nurse or a pharmacist who may be either stealing 
drugs from inventory or stealing drugs pretending they are 
given to a veteran. So we do use technology when it is 
available.
    Now, for example, in that one particular case, that 
software works with only one of VA's dispensing software 
programs, but not with the two others. So we are working with 
VHA to help develop a more effective tool to identify 
suspicious drug disbursement-type of activities.
    We actually are waiting for the Department of Defense, 
DMDC, Defense Manpower Data Center, to do a match for us now 
that will look at VA records and Department of Defense records 
and try to highlight the discrepancies between the type of 
discharge that may be shown in VA records, or the discharge 
records of the individual--so they may not be eligible for VA 
benefits or even more important, I guess, is identifying non-
veterans getting treatment and benefits which we don't think is 
epidemic.
    To give you another example, in Florida we matched--now, to 
be honest with you, we can't match databases without a data-
matching agreement. However, you can go in one record at a 
time, so we identified in Florida, VA beneficiaries who were 
listed as blind, and then went into Florida driver's license 
database and went one by one until we found somebody, and that 
led to an investigation that the individual may have received 
benefits, by fooling VA into thinking he was blind.
    So we are looking for that sort of opportunity because with 
our limited resources, we don't want to waste our time trying 
to do things manually if data can lead us to the fraud.
    Mr. Daigh. It is clear to me that some facilities are 
privileging people to do things beyond what that facility can 
support, allowing for instance physicians to do surgeries they 
may well be capable of doing, that anesthesiologists can 
support, but the hospital itself is without 24-hour services in 
a variety of areas and may not really be capable on a regular 
basis of taking care of that.
    So we are looking at the data that VHA produces in terms of 
workload data by, again, the right kind of medical billing 
codes, CPT codes, to identify facilities that are at risk and 
that we should go look at and talk to, and say, hey, should you 
guys be doing these procedures? That basic issue is what the 
Under Secretary of Health has agreed to address in our Marion 
report where we identified and said, hey look, you have to call 
time out; you have a small facility doing many complex things; 
you all need to match, in a sense, what you are allowing these 
facilities to do with what they are capable of supporting. So 
we are trying to leverage that----
    Mr. Carter. Well, you know the VA has a reputation now on 
their medical records of having a very superior computerized 
medical records program. At least in the experience of the 
little program that we funded and financed, it really saves 
manpower and it gives you a clear picture. That picture is an 
ongoing picture that is being delivered to you every day. All 
you have to do is pull it up on the computer and it is kind of 
running in the system all the time.
    And the fact that you are doing those things caused those 
who are cheating to say, wait a minute, they are looking for me 
now. And they back off. So you can't maybe catch $500 million 
worth of actual theft, but you head-off $1 billion of people 
who are not going to steal anymore. It would seem to me that 
that would be money well spent for this committee as far as 
oversight is concerned, to look into data-mining to try to tie 
your systems together so that we could have clear pictures.
    I just raise it because I think it is a thing of the future 
in government that is going to make a difference in government. 
So I am glad that you are working in small ways. I would like 
to help you work in bigger ways.
    Mr. O'Neill. If I could add a little bit, sir. We have a 
staff in Austin, Texas that spends their entire day mining data 
from VA systems.
    Mr. Carter. Good. I am glad they are in Austin. [Laughter.]
    Mr. O'Neill. So I didn't want to let that pass.
    Mr. Carter. Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Judge Carter.
    Members, let me ask you, I know some members have some 
other commitments, perhaps starting as early as 3 o'clock. I 
have a number of other questions I would like to ask. I am 
wondering if, and Zach, I will proceed in however way you feel 
comfortable, if we would like to get Ms. Finn and Ms. Regan to 
make their opening statements, and then on the conclusion of 
that, I will just recognize anyone for as many questions as you 
would like, and then those of us who can stay on, we can 
continue on.
    Mr. Wamp. Mr. Chairman, you are very gracious.
    It would very much be a great way to proceed the way you 
have proposed. That way, the questions can then be directed at 
any of our witnesses.
    Mr. Edwards. Okay. Then if there is still remaining time 
left for Ms. Finn's and Ms. Regan's testimony, I will recognize 
the two of you for any follow-up questions you would like to 
ask of Dr. Daigh and Mr. O'Neill or Ms. Regan and Ms. Finn.
    Might it be okay if you exchange seats, and then we will 
get all four of you up here?
    Let me just say briefly as we welcome you both to our 
subcommittee, Mr. Wamp used the term ``covenant.'' I feel as if 
we are meeting with the guardians of the covenant. I just thank 
all four of you for your tremendously important work. You are 
the kind of federal employees working day-in and day-out 
without attention and public acclaim, but what you are doing is 
seeing to that covenant to spend our tax dollars to help our 
veterans, and not with waste, fraud or abuse, or helping those 
who are ineligible for benefits. The work you do is so 
important.
    Ms. Belinda Finn was appointed Assistant Inspector General 
for Audit in January of 2007. Prior to joining the VA-OIG, Ms. 
Finn was the Deputy Assistant Inspector General at the 
Department of Homeland Security. She has also worked as an 
accountant and auditor with the Department of Treasury, the 
Department of Defense IG, the Department of Energy IG, and the 
U.S. House of Representatives IG.
    Ms. Maureen Regan was appointed counselor to the Inspector 
General in 1989. Ms. Regan is a 1982 graduate of the Columbia 
School of Law, and The Catholic University in Washington, D.C. 
She began her government career in 1984 as a staff attorney 
with the Department of Veterans Affairs, Office of District 
Counsel, here in Washington.
    Thank you both for your service and for being here today. 
As you heard previously, your full statement will be submitted, 
without objection, into the record. If you could summarize in 5 
minutes or less your key points, and then we will open this up 
for questions.
    We will begin with you, Ms. Finn.
                              ----------                              

                                      Wednesday, February 27, 2008.

                    OFFICE OF THE INSPECTOR GENERAL


                                WITNESS

BELINDA FINN, ASSISTANT INSPECTOR GENERAL FOR AUDIT

                       Statement of Belinda Finn

    Ms. Finn. Chairman Edwards and members of the subcommittee, 
thank you very much for having me here today. I am delighted to 
be here to represent the Office of Audit. We conduct 
independent financial and performance audits that address 
economy and efficiency across the VA operations. We are the 
only OIG component that provides programmatic reviews across 
all of our five strategic areas, in health care, benefits 
delivery, financial management, procurement, and information 
management.
    In 2009, we will be authorized 175 people. This will be a 
reduction of four from our current authorization: We are 
currently spread across headquarters and nine regional offices. 
We perform a mix of mandatory, reactive and proactive audit 
work across VA. We are required to perform three financial 
audits. These include the audit of the consolidated financial 
statement, the audit of the department's drug control 
reporting, and the audit of the department's report on their 
capabilities to provide care for special disabilities.
    We are also required to perform an annual information 
security program audit. This is a requirement under the Federal 
Information Security Management Act, known as FISMA. Our work 
in this area has resulted in numerous recommendations to 
address systemic IT control weaknesses.
    In 2009, we are planning to report on 23 national audits, 
with a potential for about $100 million in monetary benefits. 
In the area of health care, we plan to review and report on 
resource allocation for clinical services, outpatient 
scheduling process, and safeguards in domiciliary residential 
programs.
    We also review the VA's benefit processing system. This 
provides benefits and payments to about 3.7 million veterans 
and their beneficiaries. We will assess VBA's training 
programs, the quality assurance program for ratings, 
compensation and pension disability examinations, controls over 
regional office operations, risk-management processes for 
housing assistance programs, and independent living services 
for veterans with service-connected disabilities.
    We all know VA continues to face major financial management 
challenges. It lacks an integrated financial management system, 
and has material weaknesses that impact its ability to provide 
sound financial stewardship. So in addition to our mandatory 
work, we will report on the development of the financial 
management system known as FLITE--financial logistics 
integrated technology enterprise system; the integration of 
budget and performance information to allocate resources; and 
the fee basis program billing and collection activities.
    The VA has had a longstanding problem with managing its 
contracting activities because it doesn't have the visibility 
or the corporate database to know exactly what it is buying and 
how much it is spending on goods and services at locations. 
Both we and GAO have continued to identify significant 
continuing deficiencies in VA's procurement activities.
    We have a number of issues we would like to report on in 
2009, including acquisition efforts across VHA VISNS, 
standardization initiatives, community nursing homes contracts, 
the electronic contract management system that hopefully will 
provide some visibility, capital asset management issues, and 
also high-cost medical equipment--the acquisition thereof.
    In information management, we are always concerned about 
the IT governance issues, as well as information security. In 
addition to our FISMA work, we would like to take a look at the 
HealtheVet initiative, VHA's efforts to develop a new 
scheduling software, and their enterprise architecture.
    We have a long list of areas that we think we could provide 
oversight over, but right now we are just able to touch the 
surface. Other areas would include VHA's enrollment process for 
health care, the accuracy of benefits, security of data 
exchanges with DOD, and the quality and repair of prosthetic 
devices.
    That would end my prepared statement. I would be glad to 
answer any questions.
    Mr. Edwards. Thank you, Ms. Finn.
    Ms. Regan.
                              ----------                              

                                      Wednesday, February 27, 2008.

                    OFFICE OF THE INSPECTOR GENERAL


                                WITNESS

MAUREEN REGAN, COUNSEL TO THE INSPECTOR GENERAL

                       Statement of Maureen Regan

    Ms. Regan. Thank you, Mr. Chairman, members of the 
subcommittee. It is a pleasure to be here today to talk to you 
about the OIG.
    The Office of Contract Review is an independent group 
within the Office of Inspector General, staffed by 25 auditors 
and analysts, and it is actually reimbursed through an 
agreement with the department's Office of Acquisition and 
Logistics. What our group does is we primarily conduct pre- and 
post-award audits of federal supply schedule contracts. We also 
do pre-award audits of health care resource contracts awarded 
by VA medical centers.
    In addition, the Office of Contract Review conducts special 
reviews of individual contracts either at the request of 
Congress or at the request of VA or the Department of Justice. 
Our current program began in 1993 and it has really proven 
beneficial to VA. Since October of 2002, we have issued 420 
reports with a federal monetary impact of $2.1 billion.
    Pre-award reviews. A pre-award review provides contracting 
officers with vital information they need to negotiate fair and 
reasonable prices on our contracts, as well as on contract 
terms and conditions. With respect to health care resource 
contracts, we also provide advice to contracting officers on 
how they can improve the contract document itself, such as, 
performance and what they can do to make sure that VA gets what 
it pays for.
    In addition, we provide services to contracting officers 
during the negotiation process. We will assist them in 
explaining the results of our review to the vendor. We also go 
out and do training for contracting officers on a lot of these 
issues.
    The federal supply schedule and health care resource 
contracts are awarded sole-source and are noncompetitive 
contracts. The vendors are required to provide certain data to 
the VA to satisfy their pricing. We review that data during the 
pre-award process. We very often find that the data they 
provide is not accurate and complete. When a pre-award is not 
done, contracting officers rely on that data to award a 
contract at the offered prices, and very often we pay very high 
prices, much higher prices than we should pay for the same 
commercial items and services.
    Since October 2002, we conducted 282 pre-award reviews with 
recommendations for approximately $2 billion in cost savings. 
We plan to conduct 45 pre-award reviews in fiscal year 2009.
    A post-reward review, of course, is done after a contract 
has been awarded. When we have not conducted a pre-award 
review, we will go back and look at the data that was provided 
to see if it was accurate and complete. If it was, and we felt 
that VA was misled into award of certain prices, we calculate 
the damages. It is called defective prices, and we will 
recommend the contracting officer get back that money.
    We also during post-award look at whether or not the 
contractor complied with other terms and conditions of the 
contract. In particular, federal supply schedule contracts 
contain a price-reduction clause. The vendors are required to 
give us a price reduction under certain circumstances, and we 
find that very often they don't.
    Also, our post-award and our pre-award reviews include 
whether or not VA's drug pricing is accurate. As you know, the 
Veterans Health Care Act set statutory limits on how much 
manufacturers can charge VA. We have a very active program to 
look at whether or not they are complying with that statute.
    In the post-reward area, since October 2002, we have done 
138 post-award reviews and we have returned back to VA, that is 
deposited in the VA supply fund $8.2 million. I can tell you 
that this year, we negotiated and collected $20 million. We are 
expecting to have a good year.
    We plan on conducting 25 post-award reviews in 2009. Our 
post-award reviews can be done on our own initiative, but many 
of them are reactive. Because we have an active post-award 
program, we actually make contractors accountable. VA has one 
of the most successful and active voluntary disclosure programs 
at this point in time, where contractors can come in and tell 
us, we have overcharged you; we haven't complied with contract 
terms and conditions, and we have overcharged you.
    Since October of 2002, we have had 75 voluntary disclosures 
and that represents $64.1 million--in recoveries. In fact, our 
voluntary disclosure program takes up a lot of our post-award 
time, as opposed to proactive post-awards.
    Although all of these involved individual contracts and we 
deal with individual contracting officers, we periodically 
analyze the data that we have in all of these reviews and look 
for systemic issues. We then issue a report to the department 
on systemic issues in various areas in order to have them make 
corrections and improve contracting overall.
    In 2005, we issued a report on sole-source health care 
resource contracts. The department put together a task force 
and issued VA Directive 1663, which established a whole new 
process for awarding these contracts and what is required. We 
have already seen it saving money. We are paying a lot less on 
some of these contracts than we were before.
    We conduct special reviews on large-dollar procurements. 
These reviews have identified procurement failures that 
resulted in significant dollar losses to the government. These 
failures were due to multiple deficiencies such as lack of 
communication, inadequate acquisition planning, poorly written 
statements of work, inadequate competition, failure to obtain 
fair and reasonable pricing, and poor contract administration. 
Many of these reviews involve multiple problems.
    The work that we do in the Office of Contract Review only 
looks at a very small percentage of VA contracts. There are 
large numbers of contracts at VA facilities and other VA 
contracting activities that are not subject to any definitive 
oversight.
    That is the end of my statement.
    Mr. Edwards. Thank you, Ms. Regan.
    Thank you, Ms. Finn.
    Mr. Bishop, would you mind moving over? Mr. Dicks and Mr. 
Mollohan aren't here.
    If I could ask Mr. O'Neill and Dr. Daigh to sit in those 
two seats, and then members could direct their questions to 
either all of the witnesses or to one in particular.
    Mr. Bishop, let me ask you, the Republican Conference has a 
meeting at 3 o'clock. So I was going to recognize our 
colleagues first on this round of questions, but how tight is 
your schedule? Do you need to leave by 3 o'clock?
    Mr. Bishop. I will be flexible, sir.
    Mr. Edwards. Okay. Then let me start with Mr. Wamp.

                         VISN MANAGEMENT ISSUES

    Mr. Wamp. Thank you, Mr. Chairman, especially for your 
courtesy.
    Ms. Finn, two things in your testimony we heard, but I will 
repeat them to ask this question. You said VA continues to face 
major challenges in financial management, as it lacks an 
integrated financial management system and has material 
weaknesses that impact VA's ability to safeguard and account 
for financial operations. And then you said VA cannot 
effectively manage its contracting activities because it has no 
corporate database that provides national visibility over 
procurement actions or identifies contract awards and 
individual purchase orders, credit card purchases, or the 
amount of money spent on goods and services.
    You know, at the budget request that we see, and then to 
hear these words, obviously that is a troubling statement. I 
just wonder if you can recommend solutions for this problem to 
us.
    Ms. Finn. Solutions to correct VA's system issues?
    Mr. Wamp. Yes, ma'am.
    Ms. Finn. System development issues are a very tough 
problem all across the government. The department had a 
historic effort to create or develop a new financial management 
system that was called the Corel FLS. It was before I arrived 
at VA, but it kind of went down in flames, in very flagrant 
terms. But again, this is not an unusual problem across the 
government. System development is very, very tough.
    VA is currently working on a new financial management 
system, the FLITE system, to integrate the financial and the 
logistics information in one system. There are a lot of 
difficulties in that because they have different architecture 
and different systems all across VA.
    Mr. Wamp. For you and Dr. Daigh both, are these problems 
that you have pointed out VISN problems or national problems, 
or are there some VISNs that are worse in terms of adequate 
comprehensive health care delivery?
    Ms. Finn. It is a national problem, but it is worse in some 
VISNs.
    Mr. Wamp. Which ones?
    Ms. Finn. I can't tell you specifically.
    Mr. Wamp. Okay.
    Dr. Daigh?
    Mr. Daigh. My concern is that VISNs are not involved enough 
in ensuring that hospitals in their VISN provide quality care. 
I think they clearly are on the train stop for money moving 
out, because I think it goes from the VISN to the facility, but 
we don't see their involvement in the peer-review process. We 
will be publishing a report very soon which I think will 
highlight that.
    So when I see hospitals fail or have significant problems, 
I don't see them fail by VISN. I don't see them pass by VISN. 
So what I don't see is adequate input by the VISNs to make sure 
that the problems are addressed.
    Mr. Wamp. In your objective opinion, are VISNs a good 
organizational structure? Is that a good model for the VA?
    Mr. Daigh. My recommendation is that they be reviewed as to 
whether or not--I don't believe they are with respect to 
ensuring quality care. So I do think that the VISN structure 
ought to be reviewed as to whether or not it is at this date 
and time providing the kind of oversight that we would like to 
see.
    Mr. Wamp. Ma'am?
    Ms. Finn. As far as acquisition, that is one of the things 
that we try to look at, as we are going to be looking at 
acquisition and management across the VISNs. I guess the common 
wisdom in VA is if you have gone to one VISN to see how it 
works, you have gone to one VISN. That is what you know. There 
is not a lot of consistency in the procedures and the processes 
that they follow and no sharing of best practices.
    Mr. Wamp. Did CARES recommend changes to this VISN 
organizational structure?
    Mr. Daigh. I don't believe so. I believe CARES is a 
facility-by-facility review.
    Mr. Wamp. And then, Ms. Regan, two quotes in your 
testimony. It says a lack of communication between program and 
procurement officials results in higher than necessary contract 
costs and VA health care resources contracts lack adequate 
oversight provisions to ensure VA has received the services 
paid for.
    What can we do in bill language to help with these problems 
that you have identified?
    Ms. Regan. I believe that one of the things we have seen 
out there is that VA believes they are at the mercy of the 
affiliate--VA's attitude is that we need them more than they 
need us, so we will pay whatever. So to keep everybody happy, 
there is no incentive to monitor procurement or anything else.
    So some of the things that we thought of is that we believe 
that because it is a sole-source contract to benefit the 
education mission that we have for residents, that we should 
only be paying costs. Why should we pay a huge profit to 
somebody that is so competitive that they are going to do that? 
So that is something that could be considered if we limited the 
type of payments that we could make, that we will pay for the 
costs of the doctor. The only reason we are going to the 
affiliate to begin with is that we allegedly don't pay enough 
in order to recruit doctors to work at our facilities.
    The second one would be there would need to be payment for 
procedure-type contracts at Medicare rates, or adjusted 
Medicare rates depending on where it is done. Those are two 
things that could be done legislatively that we have suggested 
in the past.

                              CONTRACTING

    Mr. Wamp. And a final question, does VA health care system 
contract enough with local providers to be efficient? Or is 
there still room for more local contracting with private health 
care providers instead of having to provide the services 
through the VA facility?
    Ms. Regan. You mean sending the patients to a local 
provider?
    Mr. Wamp. Or contracting out. Sometimes doctors are brought 
into the outpatient clinics that are not VA doctors, to do 
certain things.
    Mr. Daigh. I don't like to answer questions without having 
a report to show the data, but I would suggest to you that if 
the VA has a full-fledged Cath lab and it is a relatively small 
VA in a relatively rural location, I doubt that there is enough 
volume of patients to make the operation of that Cath lab 
efficient.
    So whether or not the physicians from the outside come to 
the VA, the VA physicians have privileges at the local facility 
like anybody else has privileges and contracts for time in 
their lab. I am not sure what the legality is. It does seem to 
me that there isn't an efficiency where we have a space 
dedicated to a use for which it can't be used--so I think there 
is room for work there, it is just sorting out the best answer.
    Mr. Wamp. Ms. Regan.
    Ms. Regan. In looking at the contracting side and what we 
have seen, I think if you have a service that is needed 
intermittently, for example you need a dermatologist once a 
month or something like that, that they do try to use local 
people to come in and do it or send patients to private 
facilities.
    But I also think that you have a problem when you have 
full-time people coming into your hospital to provide care to 
veterans, and they can't act as our employees, because VA 
doesn't have personal services authority. We have recommended 
in the past that they get personal services contracting 
authority, so that we can supervise these people and we can 
monitor the care provided, and we can take action if they don't 
provide quality care.
    So I have a little bit of a concern from the health care 
standpoint of just bringing people in and out, who see our 
patients without VA having some control over what they do when 
they are there. That is where the full-time people come in.
    There are a lot of mammograms done outside a facility. A 
lot of radiation oncology services are being done under 
contract. A lot of radiology now is being done via telemedicine 
that is contracted out. So there is a lot of that going on out 
there. You have full services coming in to VA facilities--
surgical services and anesthesia, ophthalmology are some--all 
of their services are provided by contractors at the VA.
    Mr. Wamp. Great.
    Thank you, Mr. Chairman.
    Mr. Edwards. Thank you.
    Since Mr. Crenshaw hasn't had an opportunity to ask 
questions, Judge Carter if it is okay with you----

             CONTRACTING WITH PRIVATE HEALTH CARE PROVIDERS

    Mr. Crenshaw. Thank you, Mr. Chairman.
    Let me just follow up on that line of questioning about 
contracting with private health care providers. I have heard 
discussions--well actually, I think there is some legislation--
if not, it has been talked about--about in an area, say, where 
they didn't have a rehab hospital or an area where it was a 
large community where the rehab hospital was overcrowded. I 
have heard veterans groups talk about it, and heard some of the 
private rehab hospitals talk about it, the possibility of 
contracting with those private facilities, either because you 
don't have the service or it is hard to get because of the 
overcrowding.
    And then listening here and reading the testimony about the 
inspections that you all go about are really important in terms 
of looking at the VA facilities and carrying out the proper 
inspection. Is that one of the impediments to doing that? You 
mentioned contracting more bringing people in.
    I am just thinking, and I think some of the proposed 
legislation speaks to actually utilizing the separate 
facilities that are in these overcrowded areas or underserved 
areas. Is that something you all look at? Is one of the 
problems making sure that you are able to inspect those as you 
would your own facility? Where are we in that process?
    It does seem to maybe make sense from time to time, rather 
than having somebody drive a long, long way, or wait a long, 
long time if there are other facilities. And what would you 
think about doing some sort of pilot project? The only reason I 
mention the rehab is because I have heard the veterans talk 
about that. Is that an area that we ought to pursue, do you 
think? Or are there problems inherent in that?
    Ms. Regan. They have contracting authority to contract with 
private facilities or public facilities, to send our patients 
someplace else. And there are some areas--Reno for example is 
one where they have a number of contracts with private 
hospitals because they don't have enough providers at the VA. 
So they can do it, and they can always build into the contract 
that we would be able to come and inspect. We can go and 
inspect nursing homes that we have contracts with, private 
nursing homes. So it is a matter of a contractual issue.
    Mr. Crenshaw. Is it being done very much? Is it working?
    Ms. Regan. I haven't seen that many contracts with private 
facilities for anything other than--well, we usually see the 
affiliate contracts where VA is sending somebody there for 
cardiac surgery or other health care. We have seen some nursing 
home contracts, but I haven't seen that many. For example, I 
have never seen one for a rehabilitation center. So I don't 
know if it works--but anything is possible from a contract 
standpoint--authority, so they can contract----
    Mr. Crenshaw. But would that be a way to save money, 
instead of building a facility in a small community, to serve 
those individuals, that if there was a private entity there? I 
mean, is that something that you all think about? Or do you 
kind of watch what the VA is doing and saying we can't build 
facilities everywhere; if they are already there, we will 
contract with them? Is that something you oversee, encourage or 
discourage?
    Mr. Daigh. Well, sir, in my office, we focus on the quality 
of the care provided. Care provided off-site or off of the VA 
facility, I am not sure that I have the authority to go off of 
a VA facility and review the care provided, as you are 
envisioning. Certainly, where we have had cases, and hotlines, 
where they have received care both on the civilian side and in 
various other places, we have gone and talked to civilians and 
gotten the records, but we have done it completely collegially. 
We could look at this and talk with you about the authority we 
have at the VA.
    [The information follows:]

    The OIG can review quality of care that veterans receive from non-
VA facilities only when VA reimburses the facility for the care 
provided. However, non-VA facilities are regulated by the states, and 
the Centers for Medicare and Medicaid Services also have oversight 
authority over these facilities if they receive Medicare and Medicaid 
funds.

    The other point I need to make is that we don't, in my 
office, make decisions on these issues, nor do I. So it would 
be very difficult for me to advise if one is better than the 
other. It just seems to me that there is in fact space that 
could be better used.
    Mr. Crenshaw. But the inspection you undertake, that can be 
part of the contract. That wouldn't be a particular impediment.
    Mr. Daigh. It would not be, to me at all. We just need the 
authority. I think I would need the authority to do that.
    Mr. Crenshaw. Thank you very much.
    Ms. Finn. My office would potentially review make-or-buy 
decisions, and also the oversight of facilities. But we haven't 
done too many, at least not to my knowledge, we have not done 
any particular reviews on make-or-buy decisions for facilities.
    Mr. Crenshaw. Thank you.
    Thank you, Mr. Chairman.
    Mr. Edwards. Judge Carter.

                          BENEFIT OVERPAYMENTS

    Mr. Carter. I want to change questions a little bit. In 
2007, we talked about benefits overpayments. The reason I have 
concern about benefits overpayments is I look at this 
overpayment to the VA regional office report. The chairman and 
I share a VA facility in Waco, where our soldiers go, and we 
have the largest percentage-wise of benefit overpayments in the 
nation at the Waco facility--two benefits overpayments on 
first-party notification in the amount of $159,000-plus, and 11 
benefit overpayments of third-party notification to the tune of 
$404,000-plus. Looking up and down the list, we are the champs.
    Now, I don't want to be the champs in benefit overpayments. 
We have added 3,100 new claims processors. My question is, are 
you seeing improvement because of what we gave to try to fix 
this problem? And what else can we do to try to fix the 
benefits overpayment problem?
    Ms. Finn. Presently, I can't tell you that we have seen 
improvements because we haven't been able to get back out there 
and start looking. Plussing-up your workforce 3,100 people 
presents a number of issues in recruiting and training, which 
is why we plan to look at the training program, especially for 
the new-raters over the next year.
    But certainly the overpayment issues resulted because you 
were diverting all the workforce trying to get at the backlog 
of claims, and therefore you didn't have as many people taking 
a look at those compensation benefit issues that resulted in 
the overpayments. We plan to take a look at that training 
program to see how effectively that new workforce is to be 
developed, and we will go back in the future and hopefully 
assess the effectiveness of that workforce in reducing the 
backlog and improving the overpayments issue, too.
    Mr. Carter. This issue is not only an issue to those of us 
who are trying to be good stewards of the federal dollar. It is 
also an issue that when the find the benefit overpayment, then 
they go to the veteran and say, oh, by the way, you owe us 
$85,000; pay up. And they come screaming to their congressman 
saying, what am I going to do? I didn't know I was getting a 
benefit overpayment; I just took what they gave me.
    Ms. Finn. Exactly.
    Mr. Carter. It makes a real crisis in the life of veterans 
when they get these notifications that they have these huge 
payments they are expected to return to the federal government. 
So it is important that we police this before the fact, not 
after the fact, if we can, as good as we can.
    Ms. Finn. And we did provide recommendations to VBA to 
monitor the timeliness of the processing, because we didn't 
have any incorrect decisions. These were just the time it took 
the process.
    Mr. Carter. Thank you, Mr. Chairman. That is it.
    Mr. Edwards. Thank you, judge.
    Mr. Bishop.
    Mr. Bishop. Thank you very much.
    Let me welcome you. I would like to follow up on Mr. Wamp's 
question relative to the effectiveness and the proactivity of 
the community health clinics. I have a pretty spread-out 
district which in land area takes up probably about one-fifth 
of the land area of the state of Georgia. It is the southwest 
portion of the state. We have veterans that are served by three 
community clinics.
    In Valdosta, there is one that is apparently a subsidiary 
of Lake City in Florida. In Albany, there is one which operates 
under Dublin, which is about 1\1/2\ hours or 2 hours away. And 
then in Columbus, which is the other major city, there is 
Tuskegee/Montgomery. All of those seem to serve some purpose as 
a primary care center, but the veterans are very, very 
dissatisfied because anything other than rudimentary stuff, 
they have to go to one of the hospitals, which requires a great 
deal of inconvenience and travel.
    How effective are those clinics? I think several years ago 
when we established them, it was expected that a veteran could 
get to some primary care within 40 or 45 minutes from anywhere. 
It was designed to be from anywhere in the country. That 
doesn't seem to be working well. Have you considered co-
location of some military facilities and VA facilities?
    For example, I think you have some hospitals at some 
military bases where there are a great deal of retirees around 
the military base who could get some of their heavy--I guess 
you could call them med centers--and could get some heavy 
treatment, specialist treatment at those if, for example, they 
were co-located with some military facilities. Of course, we 
have a hospital in Atlanta also, but southwest Georgia, it has 
put a heavy burden on our veterans.
    Mr. Daigh. Sir, I just would have to answer it this way. I 
have 57 or 60 people working for me, something like that, and 
there are 800 clinics, CBOCs out there. So I guess when you ask 
what would I do with additional resources, it is try to take a 
look at what is going on at these 800 CBOCs and 200 Vet 
Centers.
    So we simply have not had the people to address the issues 
that you are talking about--I just simply haven't been able to 
do that. There are 155 medical centers out there. So we have 
unfortunately not attended to this issue like I think we 
should.
    Mr. Bishop. When you come before the committee, have you 
requested those additional people?
    Mr. Daigh. Well, sir, in the normal budget process, the 
idea that we would spend more time looking at CBOCs and Vet 
Centers has been forwarded in the normal chain of command. I 
address the priorities that I am given with the people I have, 
and I just haven't been able to address the 800 CBOCs out there 
at all like I wish we could.
    Mr. Bishop. You could do it if you had additional 
resources?
    Mr. Daigh. If I had additional resources, the care provided 
at CBOCs and Vet Centers would be the number one new item that 
we do not currently look at in a comprehensive way. And we 
would also be able to look at mental health issues in more 
detail, and apply the data capability that we currently have in 
more detail to the problems the VA faces.
    Mr. Edwards. Mr. Bishop, could I pull you back just for a 
second?
    Would you be able, Dr. Daigh, to give our subcommittee over 
the next several weeks just a good-faith estimate of if you had 
how many more dollars, how many more people could you hire to 
oversee the CBOCs and the Vet Centers, and how many visits 
could you make with those employees.
    Mr. Daigh. I would be more than happy to.
    [The information follows:]

    The Office of Inspector General would need an additional $4.5 
million for 20 full-time equivalent positions to review the care 
provided by the more than 800 community based outpatient clinics 
(CBOCs) and 200 Vet Centers. These resources would provide for a review 
of these facilities on a 3-year cycle. For many veterans, especially 
those in rural areas, these facilities are their primary access to 
medical care. It is only through a review of the medical needs of this 
population can we ensure they are receiving quality care. For example, 
these reviews would assess mental health care provided at CBOCs and Vet 
Centers to ensure that veterans receive the same standard of care that 
they would receive at a primary medical clinic.

    Mr. Edwards. Okay.
    Thank you, Mr. Bishop. Please go ahead.
    Mr. Bishop. Thank you.
    One of the two other areas I would like to explore, one is 
the co-location issue. If you have a major DOD facility in an 
area where there are lots of retirees, for example, and lots of 
veterans, at one point there was some consideration given to 
co-location of veterans hospitals/clinics and military 
facilities. Is the VA still open to some memorandums of 
understanding on co-location of facilities so that if you have 
a facility there, that it could also serve veterans as well as 
DOD personnel?
    Ms. Finn. We did a little bit of review work last year 
looking at the department's use of interagency agreements with 
DOD and found they were not using them very much at all. They 
were very rare.
    Mr. Bishop. Who are the ``they'' now?
    Ms. Finn. The VA. I am sorry--VHA.
    Mr. Bishop. Okay.
    Ms. Finn. They really were not using the agreements for a 
lot of reasons. It didn't seem to work out well for them. The 
larger issue of determining the allocation of health care 
resources for areas and stuff is, as I think I said, really 
complex. Changing demographics make it complicated, VA's 
uncertainty of where the population is going to be from year to 
year. So this is one of the things I am hoping to take a 
programmatic look at over the coming year to see how VHA is 
allocating its resources across the country.
    Mr. Bishop. You do have a facility, at least one in Texas, 
I believe, where----
    Mr. Daigh. El Paso is a dual. Las Vegas has also been an 
Air Force/VA. We do in our hospital inspections cycle do go 
inspect the VA portion of that.
    Mr. Bishop. Have those worked fairly well?
    Mr. Daigh. Again, from our point of view, yes, they have 
been working, from what we see.
    Mr. Bishop. Okay. And the third area of inquiry I would 
like to ask you has to do with the VA medical health and the 
electronic records and the interconnection and interoperability 
with the DOD records. One of the biggest challenges that our 
caseworkers have in the congressional office is being able to 
get military records in terms of medical records, to have them 
available for veterans who are applying and seeking upgrades, 
disability services from the VA.
    The record exchanges of medical records between DOD and the 
VA medical system presents a serious problem, and also the 
storage of records and the care of records within the VA 
system, where veterans submit their paperwork and its gets lost 
or they go for one appointment and get referred, and of course 
their records can't be reviewed and they can't get the services 
they need because the records are still located at the last 
provider or the last place where they went to get some 
specialized test.
    How are you, and do you have the resources necessary to try 
to bring some interoperability with your own recordkeeping? Are 
you doing it electronically? Do you have the resources to 
convert to electronic medical records in the VA system so that 
anywhere in your system, that if a veteran presents, that you 
can access his or her records?
    Mr. Edwards. I am going to ask you to keep it to 2 minutes 
or less, and save any additional answer for the following round 
so we can continue our rotational questions. It is a very 
important question.
    Mr. Daigh. Sir, in the IG's office we believe that the 
interoperability of these two records is extremely important. 
We have asked and commented on where it has failed, as you 
indicate, over a number of years. I have personally used the 
military medical records system when I was a doctor. I have 
access to the VA side now. The VA side is wonderful. Why--I 
don't know.
    It is such a huge dollar issue, actually, on the health 
care side. I am unable to force these two sides to get together 
and agree on what they are going to do. And I don't understand 
why it doesn't work right now.
    Ms. Finn. We have the resources. We can take a look at the 
issue. We can't fix it within the OIG.
    Mr. Bishop. You say you have enough resources to do it?
    Ms. Finn. If we didn't do something else, yes.
    Mr. Bishop. Well, in order to do what you need to do and to 
accomplish that, can you give us some idea of what it would 
require to do that in terms of resources?
    Ms. Finn. Can we make that for the record?
    Mr. Bishop. Oh, certainly, certainly. I wouldn't expect you 
to do it right now, but I would like you to put a little bit of 
thought into it.
    [The information follows:]

    The inter-operational between DoD and VA medical records present 
highly complex and difficult technical and management challenges, 
particularly since they are not within VA's exclusive control to 
resolve. The OIG cannot effectively address these issues because we 
lack the authority to review DoD's health care operations and 
information technology. This issue could be addressed more effectively 
by the Government Accountability Office.

    Ms. Finn. Okay.
    Mr. Bishop. But Mr. Chairman, do you think that would be 
appropriate for our committee to have that kind of information 
and know what kind of resources would be needed?
    Mr. Edwards. I think it is a tremendously important issue. 
Chairman Murtha and I have even discussed the possibility of 
having a joint subcommittee hearing with your Defense 
Appropriations Committee and ours to bring DOD and VA officials 
together to face both committees, and let them know how serious 
we are about moving ahead with this, and not just keep talking 
it to death for the next 20 years. Very, very, good. Thank you.

                     BUREAUCRATIC MANAGEMENT ISSUES

    Mr. Farr.
    Mr. Farr. Thank you, Mr. Chairman.
    I know we have a vote, so I will be quite fast. If you have 
been listening here today, I am not sure I even would want to 
come to this meeting, because I think you busted my bubble 
about being such a great advocate for VA. Frankly, the clinics 
in my district have been the best thing for veterans.
    But one of the things that I am concerned about, and it is 
just that I see this happening in the federal family, is that 
we tend to want to federalize everything. Many of us served in 
the state legislatures and--in California where everything is 
codified and every profession really has to be licensed and 
there is a lot of inspection.
    What I worry about is that we sometimes forget that these 
veterans, and in this case patients, all live somewhere. I 
mean, they live in a community. If we just create a federal 
pipeline that you must stay in, it is going to make it very 
inconvenient because some veterans can't travel great 
distances. It is sort of like, we can't solve your problem 
here, you have to go there. We are doing too much of that in 
government right now.
    So I think this contracting out at the local level--the 
example you gave of the dermatologist--is exactly what we need 
to do more of. But I do agree with you that you have to have 
some quality assurance, without becoming too bureaucratic about 
it, because that may be overduplicating what states are doing. 
Maybe we ought to be working into some kind of joint inspection 
contracts like we have been doing with joint lotteries and one 
audit can solve a lot of problems, as long as you are 
addressing the issues, and we might be able to do that.

                  INTEROPERABILITY BETWEEN DOD AND VA

    The other thing that I share this concern. We have been 
bragging about the VA's electronic records, but what we find is 
that DOD doesn't do a very good job of it. The VA has sort of 
invented for the medical community the state-of-the-art of 
electronic records, but they are not interoperable.
    In your report, you indicate that you made over 500 
recommendations for corrective action. Did the VA--I guess 
those were in the VA in the audit and health care inspection 
contract review reports--did they implement those 
recommendations?
    Mr. Daigh. I think they do. We make recommendations of 
varied severity, so there are some recommendations we make that 
we follow up on and--to see if they did do what they said they 
would do. By and large, they do do what they say they are going 
to do.

                    VA STANDARDS OF DELIVERY OF CARE

    Mr. Farr. I would like to ask a general question. You start 
out by saying that the OIG seeks to help the VA become the 
best-managed service delivery organization--compared to other 
delivery organizations, how does VA rate? We put a lot of money 
into it last year and this committee is real pro VA.
    Mr. Daigh. I think they provide excellent care. I have said 
that here and I have said it to the House Veterans Affairs 
Committee. In the care that we see on a day-to-day basis in the 
hospitals, veterans are happy with the care they receive in 
general and give VA very high marks. In every CAP, we report in 
each of those reports what the patient satisfaction is for both 
in-patient and outpatient care. There are places where it is 
not high, but in most places it is very good. I believe VA 
provides excellent care.
    To the point that you were making earlier, when I was in 
the military, I would have liked the chance to compete, because 
I thought if our doctors actually worked or had an opportunity 
to work in other hospitals, we would have patients coming to us 
to have us take care of them. I thought we would take patients 
from the private sector. I wasn't worried about competing 
against them. I was worried about having a quality place to 
work with the support staff that would let me do what I needed 
to do, and the efficiency to get it done well.
    So I don't think the VA should be afraid of competing at 
all. They have very high-quality people. But you run into 
places where just on size and economics, you just simply can't 
compete in certain situations. I don't think the VA has 
anything to be ashamed of. In fact, I think they are the 
premier large medical system in this country hands down.

                          COST OF PRESCRIPTION

    Mr. Farr. I have found that our VA clinic has the cheapest 
drugs of any system. I don't care what it is out there.
    Mr. Daigh. And Maureen Regan works to make that happen.
    Ms. Regan. The issue with the drugs is that we have statute 
that sets a price. There is a formula set price for covered 
drugs. The comparisons you always see, though, are between what 
the customer pays, not what the facility pays.
    Mr. Farr. So are we in essence subsidizing those drugs for 
the VA?
    Ms. Regan. No, we are only paying a certain amount.
    Mr. Farr. Then why can you get them cheaper than the 
Medicare program?
    Ms. Regan. Well, the Medicare program is set up much 
different. It is a different formula.
    Mr. Farr. It is the same taxpayers' money.
    Ms. Regan. But you don't know at the point what the actual 
cost is, because you would have to compare, for example, what 
the hospital pays. If you are going to look at Georgetown, how 
much is Georgetown paying for the pills versus what you pay in 
Georgetown for the pills, because I can't tell you there is a 
whole lot of difference between our prices and theirs, if you 
look at how the manufacturers' sell to somebody.
    So the comparison is not with the customer base. It is 
going to be what the actual price is for a manufacturer to the 
customer, which is the VA or DOD or any government facility, 
versus a hospital or buying group.
    Mr. Farr. Do you think that the VA model for drug 
acquisition is probably the best we have?
    Ms. Regan. The VA model is working very well now. We have 
it pretty homed in and we have a good price. Is it the same 
model that should be used for Medicare and Medicaid, I don't 
think so. I think there are some differences in the way the two 
programs are run.
    Maybe what the government would pay, but you are going to 
have your markups because you have middlemen in there. You have 
physicians giving the drugs in some cases, and in some cases 
you have pharmacies involved. And those mark-up costs are not 
included in the costs that you see for us.
    Mr. Farr. Thank you.
    Mr. Bishop. Will you yield for just a moment?
    Mr. Farr. Sure.
    Mr. Bishop. Isn't that difference in terms of the VA--
doesn't the VA negotiate with the manufacturers or the 
wholesalers for the price of the drugs?
    Ms. Regan. No. Actually, if it is a covered drug, covered 
under the statute, it is a formula that sets the price. They 
have to offer the government on a federal supply schedule 
contract a price that is not higher than what this calculated 
price comes out to be. If they don't have a federal supply 
schedule contract or they haven't offered that calculated 
price, then they can't get paid by any other government entity. 
In other words, they can't get Medicare dollars, even though it 
is not all for contract, no other government money can go for 
it. But it is actually a calculated price.
    Now, we could try to negotiate better prices, but 
technically they don't have to give us a better price than 
the----
    Mr. Bishop. But you have a formula which results in a low 
price.
    Ms. Regan. Right. It is a formula that results in that 
price, but it is not a negotiated price. It is statutory.
    Mr. Bishop. But other agencies don't have that kind of 
formula, though.
    Ms. Regan. Nobody has the same formula that we do. Medicaid 
has a formula that comes up with a base price, and then 
quarterly they have to use best price. One of the two 
differences between us and Medicare and Medicaid and HHS is our 
statute gives us oversight. We conduct audits of the pricing. 
The VA Secretary has the authority and we do the audits. 
Medicare and Medicaid do not have the same authority we do. So 
you don't know if manufacturers are cheating or not.
    Mr. Bishop. Right. That is the report I was trying to read. 
Thank you.
    Mr. Farr. This is a welcome discussion. I think we have 
learned a great deal today, and it would be very helpful for me 
and the committee if you could prioritize one or two or three 
most important things that this committee ought to be doing. We 
can write report language that the agency has to work on, and I 
would really appreciate your suggestions of what are the 
priority things that we need to do.
    Mr. Edwards. I agree. In fact, I was going to ask, and will 
just ask for the record, if each of you could put together your 
top 10 or 20 recommendations. If you could implement them, you 
would do it, in descending order of priority, with top priority 
one, second priority two, on down the list. These would be 
recommendations that have not already been implemented.
    Ms. Finn. To improve VA operations.
    Mr. Edwards. Yes. I think this has just been one of the 
most interesting, productive hearings we have had. There are 
1,001 questions I have.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2754B.012
    
    [GRAPHIC] [TIFF OMITTED] T2754B.013
    
    [GRAPHIC] [TIFF OMITTED] T2754B.014
    
    [GRAPHIC] [TIFF OMITTED] T2754B.015
    
    [GRAPHIC] [TIFF OMITTED] T2754B.016
    
    [GRAPHIC] [TIFF OMITTED] T2754B.017
    
    Just so you know, members, we will have to go up and vote. 
This is the end of a 15-minute vote. There will then be a 10-
minute debate. I know Mr. Wamp can't come back, and I 
understand if the two of you can't come back. I will stay here 
with staff and continue on. I promise everyone on both sides of 
the aisle, I won't do anything dramatic by unanimous consent 
while I am here by myself. [Laughter.]
    With that, why don't we stand in recess until after the 
beginning of the 15-minute motion to recommit. I will be back 
down, so please relax and we will be back.
    Thank you.
    [Recess.]
    Mr. Edwards. Let me go back, as we call the subcommittee 
back to order, and ask, does that put any of you in any kind of 
a difficult situation for us to ask as a follow up on our 
request to give us 10 or 20 of your top proposals for changes, 
whether it is ensuring quality of care or management 
efficiencies?
    Mr. Daigh. I will give you a list that has the data that I 
think can support it, and then there will be some that I don't 
have data on.

                    AUTHORITY OVER INSPECTOR GENERAL

    Mr. Edwards. Okay. I think that would be helpful.
    I was talking to Mr. Wamp when we went out to vote. I know 
you are constantly sending us reports, but one of the things we 
don't do very well in Washington is let the taxpayers know when 
we do implement efficiencies. So maybe from time to time when 
the VA does implement efficiency programs that save tax 
dollars, particularly when we put a dollar number on it, 
perhaps we ought to communicate in a way that maybe some of us 
in Congress can help get that word out. I think it is 
important.
    I think it is particularly important since we have just 
provided the largest increase in history for the VA, that we 
are not just going to make this a one-way street. We are 
providing the money, but we are going to ask for accountability 
as well.
    Let me ask you, too, explain the level of independence that 
you have. Or maybe put another way, does the VA secretary--what 
direct authority does the VA secretary or deputy secretary or 
the central office have over either your positions or your 
office operations?
    Ms. Regan. None.
    Mr. Edwards. None?
    Ms. Regan. I guess I will speak as the counselor.
    Mr. Edwards. All right, Ms. Regan. [Laughter.]
    Ms. Regan. Under the IG Act, the secretary has general 
authority over the IG, but not any specific authority. The 
Secretary is specifically not allowed to tell us to start or 
stop a review or issue a subpoena.
    We have over the years become very, very independent. I 
know when I started in 1989 and the general counsel assigned 
one attorney to work with the OIG. Now, we have an independent 
counsel's office and we are independent. We work with general 
counsel, for example, but they don't represent us in any of our 
cases. We represent ourselves in any case, even if Justice has 
the case and it involves the OIG.
    Mr. Edwards. Okay.
    Ms. Regan. We issue our own subpoenas. We now have our own 
performance review boards. The only thing that--if somebody is 
nominated for one of the rank awards, that has to go through 
the secretary.
    Mr. Edwards. Right.
    Ms. Regan. We are very independent. We make our own hiring 
and firing decisions as we are allowed to under the IG Act.
    Mr. Edwards. How about your budget submission to OMB? Is 
that done through the secretary?
    Ms. Regan. It has to go through the secretary. That is 
required by law. There is no other way to get it done.
    Mr. Edwards. So if I were to assume a world where a VA 
secretary is wanting to send a message to an effective, 
aggressive, independent OIG, then I guess the secretary could 
cut your budget?
    Ms. Regan. That has happened in some agencies. I can't say 
it--but it has happened in other agencies.
    Mr. Edwards. Okay. So does that answer pretty well reflect 
all of you?
    Mr. O'Neill. I can tell you that in the 4\1/2\ years I have 
been involved with the Office of Investigations, they have not 
interfered in a single investigation.

                      WHISTLEBLOWER PROTECTION ACT

    Mr. Edwards. That is great to know.
    What kind of whistleblower system do we have within the VA? 
Are there clear protections? Or do you have any recommendations 
for better protections? Do we even go so far as to provide 
monetary benefits if somebody comes up with an idea that helps 
us bring about deficiencies or stops criminal actions, Mr. 
O'Neill? What are the whistleblower protections within the VA? 
How good are they?
    Mr. O'Neill. I can answer some of it, but I guess in terms 
of whistleblower protection, that would be more in Maureen's 
backyard.
    Ms. Regan. Well, the Whistleblower Protection Act covers 
all VA employees, including physicians, because I think there 
was an amendment to the original statute that would include our 
Title 38 employees. There is policy. People have to take 
training every year on the issue.
    How effective is it? That is an individual case issue. I 
mean, it is going to be the managers and the supervisors at the 
lower level and whether or not whistleblowers are retaliated 
against. Whistleblowers first have the right to go to the 
Office of Special Counsel to seek relief. We don't do as many 
whistleblower cases because we can't give the whistleblower any 
relief.
    We can issue a report but the Office of Special Counsel can 
mandate corrective action and take the case to the Merit 
Systems Protection Board on behalf of the individual employee 
and MS&B can order disciplinary action against the people who 
retaliated against the whistleblower. So the protections are 
there and the system works as it should. I think it works just 
as well as it does in the other agencies.
    Mr. Edwards. Okay.
    Mr. Daigh. Can I make a comment, sir?
    Mr. Edwards. Dr. Daigh.
    Mr. Daigh. I have a current case that may be of some 
interest. A gentleman called in and made an allegation that 
monies--were not being spent appropriately. The VA then 
subsequent to our starting a hotline, basically started a board 
of investigation regarding those allegations and others about 
the person who called in to us on that hotline.
    So I then called the under secretary of health to say this 
is not right. And so they then agreed to stop the board 
investigation until after they had done a report. So there are 
some informal mechanisms. We are aware of that and where it 
interferes with--we will try and make sure that that----
    Mr. Edwards. Okay, good.
    Staff, was that a new vote? If somebody could get me a note 
when we have 3 minutes left on the final vote, that would help.

                        PATIENT ADVOCATE SYSTEM

    Okay. How about the issue of getting a key part of the 
checks and balance system. Since you, no matter how much 
funding we gave you, you couldn't have a large enough staff to 
be a complete check and balance as you would want to be, if you 
didn't have help from the actual veterans themselves.
    Dr. Daigh, when a veteran goes to a VA hospital and has 
problems, how good or bad, in your judgment, is the feedback 
system? Is it readily available in most hospitals to find an 
800 number or a patients' advocate they could contact? Is the 
patient advocate system working well? What happens with those?
    For example, does the complaint go to the local hospital 
administrator, who might have every incentive to want to bury 
that in a trash can when we do our feedback? We follow up on 
our casework with a questionnaire in my congressional office 
once or twice a year. The answers don't come back to the 
caseworkers that do the work. The answers come back to our 
office here in Washington.
    So I would welcome your feedback on that.
    Mr. Daigh. Yes, sir. I would say that in the hospitals that 
are functioning correctly, and that would be most of them, the 
patient advocate system works. They should have a database of 
the complaints that they have seen. They should maintain that 
database and there should be records that they have presented 
that data once analyzed to management. Most of the time, we see 
that ongoing.
    As an organization, we get 10,000 or 20,000 hotlines a 
year. So veterans have our number. That would be veterans 
calling in or their families calling in with complaints. So in 
that way, there is a process. So I think that most of the time 
the advocate system works. We do go to facilities occasionally 
where it is broken. In our CAP report, we say it is broken, so 
fix it. And I believe they do take steps to fix it most of the 
time. So I believe it is an active and usually successful 
program.
    Mr. Edwards. Good, good.
    Have you looked at the Internet? Many veterans are very 
literate on the Internet, and go to the VA website. I know at 
one point in this past year I looked at it. It is pretty 
difficult for me to find where I would go on the web on the VA 
site to lodge a complaint if I had been a patient.
    Mr. Daigh. There are two sites. One is on our website where 
you can lodge a complaint, and we do take hotlines by email, so 
we do that.
    Mr. Edwards. Right.
    Mr. Daigh. I would also agree with you that VA website have 
become much more user-unfriendly in the past couple of years. 
You used to be able to log on and see who was the leadership 
and who was working there, and click and find their office 
phone number. So I could navigate my way around the system more 
easily, so that has become much more difficult.
    I put all of my reports on the web to the public, so you 
can get all our reports anytime. I hope that helps answer the 
question.

                            HIRING PERSONNEL

    Mr. Edwards. Very good. That is helpful.
    Ms. Finn and Ms. Regan, I want to be sure I am clear on 
what with the additional budget funded by Congress last year, 
how many employees did that allow you to be able to hire? Have 
you hired those? And how many will you have to let go if you go 
back down to the proposed president's budget for 2009? Tell me 
as best as you can what would be the kinds of initiatives you 
couldn't take if you don't maintain inflation-adjusted current 
services in the budget in 2009, compare to 2008.
    Ms. Finn. In the Office of Audits, our staffing increase 
with the additional funds for 2008 was a little less than the 
rest of the organization proportionally because we have had a 
great deal of attrition during 2007, and we are down already 
about 15 positions. Hiring auditors can be very difficult 
because we are looking for people with an accounting 
background, and those people are in high demand and they can 
make a lot more money elsewhere. So it is a difficult thing for 
us to hire auditors. We also try to hire analysts, but it is 
still a difficult issue. So we have been slowly trying to hire, 
and that is why for us the impact is only about four positions. 
Okay?
    Mr. Edwards. The impact being, what you have already hired 
or what you would hire once you use all the money allocated to 
you.
    Ms. Finn. The difference between our 2008 and 2009 
allocations on paper is only about four positions. However, how 
an actual reduction would be allocated across the board could 
be a much more severe impact on us. Certainly, it is going to 
mean that some of our more difficult, more theoretical, longer-
term work, we might not be able to do because it is not going 
to be quite as productive.
    For example, trying to look at the department's enterprise 
architecture systems, and really help them come up with the 
hardware and software architectures that will help them to 
manage their information management more effectively. We may 
not be able to do that. In every case, we would have to look at 
our priorities and see what can we not afford to do.
    Mr. Edwards. Yes.
    Ms. Regan.
    Ms. Regan. My contract review group is not affected at all 
because they are paid for by the VA Supply Fund.
    Mr. Edwards. They are paid for.
    Ms. Regan. Yes. It is a reimbursable agreement, so all the 
money we put back in is--some of that goes to pay for those 
people.
    In my own legal office--an attorney, a paralegal, the FOIA 
officer and I am not sure at this point if a change in the 
budget next year will affect that work.
    Mr. Edwards. So who actually decides your budget level for 
your office?
    Ms. Regan. The IG.
    Mr. Edwards. The IG does.
    Ms. Regan. Yes. I mean, what funding out of our 
appropriation I get?
    Mr. Edwards. Right.
    Ms. Regan. Yes, the IG does.
    Mr. Edwards. Okay.
    Ms. Finn, on the issue of reviewing the training within 
DVA, given we provided so much money for so many new hirees. 
Have you started that?
    Ms. Finn. No, we have not. We hope to start that later this 
year.
    Mr. Edwards. Do you have any idea how long you think that 
will take?
    Ms. Finn. We will do it on a national basis where we will 
try to look at a number of regional offices to have a systemic 
picture. So our goal is to complete all of our audit work 
within 10 to 11 months. So I know it will be sometime within 
that time window. And that is the best estimate I can give you 
right now.
    Mr. Edwards. Okay. I might ask you, if you wouldn't mind, 
sometime in late summer or first of September, July to the 
first of September, if you are at the point where you are 
getting some anecdotal feedback that seems to be consistent, I 
will understand that you have to draw limited conclusions from 
limited data, but even some anecdotal feedback would help us.
    We really want to reduce that backlog, but we worked with 
the VSOs last year. They had some recommendations on a huge 
number of increased employees. We talked to them and said our 
concern. We liked the goal, but the concern was what do you do 
if you are taking people off of healing cases and train a new 
employee, where is the right balance between getting those new 
people in the pipeline, versus taking too many people out to 
train them. So I hope we keep going in the right direction 
before we have another huge increase in employees. It would be 
nice to at least get some anecdotal feedback about how we are 
doing.
    Ms. Finn. I will make it a point to plan our work so we can 
provide you some feedback at that time.
    Mr. Edwards. Okay, great. I will welcome that.
    I would just say, I know there has been dialogue between 
your offices and our staff and my staff, but I think my 
colleagues would agree that you guys are a gold mine of 
experience and knowledge, and you can provide the kind of 
objective, well-informed information that we desperately need 
if we are going to be part of this check-and-balance system.
    The truth is, we have been so busy over the last several 
years, it has been hard for us to exercise the kind of checks 
and balances system. So I hope we can continue an ongoing 
dialogue, and not just at formal hearings, but in just informal 
discussions with all of you as we come across some issues. And 
we may follow up with you after you have presented what you 
think are your best proposals to us.
    Mr. O'Neill, do you ever find as you are investigating 
these criminal cases, do you come up with systemic problems 
where it wasn't just an individual who was a crook, but a flaw 
in the system, and therefore we need to correct that flaw so it 
doesn't happen over and over and over again all over the 
country? And if so, how has the VA been generally about looking 
at those recommendations?
    Mr. O'Neill. When we conduct a criminal investigation that 
has that sort of systemic ramification, we do provide the 
department a memorandum that outlines what we have found. To be 
honest, we just don't have the resources to follow up to see if 
they corrected it, but we have at least provided them 
information, when it is an issue that we think will impact 
other areas.
    We arrested two different directors in the mail out 
pharmacy program. That led us elsewhere, and we are working 
with the department. In fact, there is going to be an audit of 
the whole program.
    Ms. Finn. There is an ongoing audit. Yes.
    Mr. O'Neill. So basically, if there is something, I will go 
to Audit with it, and then if it is not something that would 
merit a full-scale audit, then we would share it with the 
department, so they can fix the problem. If there is money 
going out the door and we can stop it, that is our effort to 
make sure it doesn't continue.

                             DRUG DIVERSION

    Mr. Edwards. How large of a problem is drug diversion in 
the VA?
    Mr. O'Neill. Well, it is hard to quantify how big a problem 
it is. I can tell you that over the last 4 years, we arrested 
about 430 folks for drug diversion offenses. It is a wide-
ranging thing. You have a nurse or pharmacist who is either 
stealing the drugs from the inventory, or worse yet, from the 
patient, and may be diluting it. We even had one withdraw 
Fetanol from a patch that was on a patient and things like 
that.
    So when we get these indicators, when we get allegations, 
and frequently they come from either patients who say that they 
are not getting the proper medication, or are still in a lot of 
pain and the treating physician thinks that they are getting 
the dosage that they prescribed. So I would say that if you 
look at arresting 400 people over 4 years as a significant 
problem, which I do, but I couldn't quantify it because it is a 
crime that you can subject easily to, say, data-mining as much 
as you can line up individual--programs and help give you some 
leads, but you get an awful lot of false positives with those.
    Mr. Edwards. Right.
    Mr. O'Neill. So each one has to be investigated 
individually, unlike the death match where they can really 
fine-tune your work to maximize your effort. Here, you have to 
look at each one individually. So I don't think I could fairly 
give an accurate answer in terms of how widespread a problem it 
is.
    Mr. Edwards. Okay.
    You collect money as a result of your investigations. Where 
does that money go? Does that go back in the general treasury?
    Mr. O'Neill. It depends if the funds can be returned to a 
revolving fund issue. In other words, if the funds can be 
returned to VA to some revolving fund, because most often when 
we get these settlements, it is years after the money has been 
spent, then it is returned. But probably the fact is, if you 
are talking about court-ordered restitution and recoveries of 
benefits, it is money that we get because the payee is deceased 
and it has been sitting in a bank. There is no criminal 
behavior, but we find the money has been piling up. I think it 
goes back to Treasury, if I am not mistaken.
    Ms. Regan. The rule is that anything other than single 
damages has to go back to Treasury. If it is the actual damage 
amount and it is an expired appropriation that hasn't been 
closed, you can put it back in there if they have some basis to 
use it. If there is a revolving fund involved such as the 
Federal supply fund, and I think there are some better benefits 
funds. I think there is a loan guarantee fund when we had some 
loan issues, we put money back in there.
    So each time we get a settlement, we look to see if there 
is someplace we can put it in VA, but a lot of times it just 
goes back to Treasury.
    Mr. Edwards. Okay.
    Ms. Regan. Now, the recoveries we have almost always to the 
supply fund. If it is a contract issue, if it was coming out of 
general contract, you can try to get it back there.
    Mr. Edwards. Okay.
    Dr. Daigh, one of the questions I have had as we begin to 
go out and visit VA hospitals, and I think we are going to get 
subcommittee members doing that more than we have done in the 
past, would you please at my request present to our committee 
the best 10 or 20 questions we ought to ask? It is so easy for 
us to walk through a hospital. They have cleaned the floors. 
They have fixed the restrooms and they put on a good show. I 
was pretty good when I knew my mom was going to check my 
bedroom to see if I had made my bed.
    I want us to get out in the field more and see what is 
going on first-hand. But it would be helpful to know some of 
the things to look for, that you would look for as you are 
going out there, so we don't have to reinvent the wheel that 
you have been able to build with all of your expertise and 
experience.
    Mr. Daigh. I would be more than happy to do that.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2754B.018
    
    [GRAPHIC] [TIFF OMITTED] T2754B.019
    
    [GRAPHIC] [TIFF OMITTED] T2754B.020
    
    Mr. Edwards. Great.
    Could I also ask you, Dr. Daigh, about the LC data program? 
Perhaps we need to change the name. I have heard there is an 
interesting explanation for that. But give me an example of 
what is wrong with the present system and specifically what you 
would like to do to change it.
    Mr. Daigh. If we take the issue of veterans who commit 
suicide. I get a complaint or a hotline or notification that a 
veteran is a suicide. The allegation is that the VA didn't 
provide proper care. That is one tragic event. Does that tragic 
event mean that the VA is failing in delivering mental health 
to returning veterans or not? You have to have a universe that 
you understand, that you can sample in a statistically 
meaningful way, to understand whether those discrete events 
that you see represent the behavior of the entire population, 
or are they really a random event.
    So by obtaining access to DOD data feeds, so that we have a 
list of everyone who left DOD in a given year, we have a 
universe that we understand. We know what their health care 
history is, because we have access to that.
    Mr. Edwards. Since DOD doesn't have electronic patient data 
systems, do they?
    Mr. Daigh. Well, they do. They have TRICARE records, so 
they have in-patient records. They have CHCS. They have in-
patient records, outpatient records.
    Mr. Edwards. Computerized?
    Mr. Daigh. Computerized. Well, you really just need the 
business records to do most of what we are doing, because 
diagnosis is made in ICD-9 codes or CQT-4 codes. So with the 
business data that is available at a hospital, to understand 
what they are doing, you can describe patients or populations 
in terms of the disease burden they have.
    So for this group, we know, for instance, who DOD diagnosed 
with PTSD on their side of the wall before they left DOD. If 
you have that kind of information, then you can begin to make 
meaningful statements about the quality of VA health care. 
Right now, I am limited to what happened to the patient at one 
facility, where people who are enrolled to that facility may 
not get their care at that facility. They may get their care 
through--enrollment just means you are privileged to use it, 
not that you use it.
    Mr. Edwards. Would you hold that thought, and then we will 
get in to what you would do, what it would take to provide an 
adequate system of information.
    Let me go vote and I will be right back.
    Mr. Daigh. Absolutely.
    [Recess.]
    Mr. Edwards. Mr. Daigh.
    Mr. Daigh. The House Veterans Affairs Committee is very 
supportive of our effort in this, and we currently are working 
with VA in putting together an organizational group that would 
include DOD, VA, the IG, and VBA to take what is a very 
elegant, but simple, formulation that we have published, and 
turn it into a relational data set so that government users, or 
the appropriate people then, can use that information and turn 
that data into information.
    So that process right now we are driving as fast as we can 
with VA to make this an operational and usable data set that 
builds cohorts backward and continues to build cohorts forward. 
What I crave are the few people to help me do the analysis from 
that data. You know, you get information and you need to 
understand what that is. So where I have taken a few precious 
resources and invested them in this is to help us, again, 
understand the data, make sense of the data, and then work to 
offer reports that drive change. So that is my goal in this.
    Mr. Edwards. How soon should we be able to implement a new 
system that does what you would like it to do?
    Mr. Daigh. I believe, and I will provide you with what I 
got from VA on this, but I believe that within the next year, 
this should be up and going, and probably within the next three 
quarters. My staff meets with the developers on this on a 
regular basis, and we are trying to get them as quick as we 
can. So this is in real-time moving forward. Geoff Bester, who 
is a staffer on the House Veterans Affairs Committee has a 
meeting on Monday with me, Dr. Clegg, VA, to see where we are 
on this proposal. He is very interested that this move forward 
also.

                     POST TRAUMATIC STRESS DISORDER

    Mr. Edwards. Good.
    One last question I would like to ask you, and that is, I 
came across a case where I think he was an OEF veteran came 
back to my district and he had clear need for PTSD counseling. 
At one point, he was even suicidal. But because he hadn't 
kicked the drinking problem, he was in effect locked out of the 
PTSD program at the Waco VA. Haven't you made a recommendation 
that would not require a sobriety test to be passed in order to 
work and help the veteran with his or her PTSD issues?
    Mr. Daigh. Yes, sir. The sustained sobriety requirement, 
that is that you be basically sober when you get mental health 
counseling, has been a tenet of many, both VA and civilian 
mental health programs harken back to the veteran population 
which is now much older, and many civilian facilities won't 
really accept you for mental health counseling if you are not 
sober or you are not free from drug abuse.
    In a number of the suicide cases that we have reported on 
in the last year or two, sobriety has been a problem in 
addition to suicidality. When patients have at times presented 
to the civilian component, outside of VA care, they have been 
refused care if they weren't sober.
    So we made the recommendation through a number of hotlines, 
and then in our review of VHA's mental health plan, they agreed 
that they would remove the requirement that patients be sober, 
and allow patients to get both mental health care and sobriety 
treatment at the same time, which I think is important and 
which I hope makes a difference. Although, that combination is 
a very lethal combination and difficult to deal with.
    Mr. Edwards. Thank you for that.
    Well, you have been very patient in being here a long time. 
I want this to be just the beginning, and not the end of our 
dialogue. So we will draw the subcommittee hearing to a close.
    I will just finish with a thought. I just feel personally 
very grateful that we have people of your caliber and your 
experience and your dedication in these vitally important jobs. 
I was so thrilled last year that working together we were able 
to add $11.8 billion in funding to the VA. But you, as Zach 
Wamp said, this is a covenant and you are the guarantors of the 
covenant.
    If we don't oversee the VA programs and weed out the 
mistakes and spend the dollars wisely, then we won't get a 
second or third opportunity to keep increasing VA funding. It 
would only take one 60 Minutes program and one 20/20 program to 
convince Americans that we are lavishing waste on the VA 
programs and the money is not helping veterans.
    So not only the direct dollars you save, the crime you 
stop, but all the other benefits of your work, I am deeply 
grateful for that.
    Thank you for being here. We will make this a tradition of 
our subcommittee.
    [Clerk's note.--Questions for the record submitted by 
Congressman Farr.]

     Questions for Dr. John Daigh, Assistant Inspector General for 
                         Healthcare Inspections

                             I. VET CENTERS

    I have heard from some employees at the VA that some older veterans 
are being turned away or put to the back of the line in favor of 
veterans from the Global War on Terror (GWOT). The last thing we want 
to see is vets competing for services among themselves.
    A. What can you tell us about access to care being received at 
local Vet Centers?
    We have not done any work regarding access to care at Vet Centers 
due to other higher priority work. With additional resources, we would 
review access to care at Vet Centers.

               II. SEAMLESS TRANSITION BETWEEN VA AND DOD

    When an active duty soldier is honorably discharged, the Department 
of Defense (DoD) must transfer that soldier's records to the VA. There 
have been problems in the past making this a timely action, and some 
soldiers discharged with a service-connected disability have discovered 
that the DoD and the VA do not always use the same disability ratings 
ystem.
    A. Does the IG have any recommendations to improve sharing of 
medical records or disability ratings?
    DoD and VA have different goals in the determination of disability 
ratings. However, the medical examination for disability determination 
should be the same, that is, providing a single examination for the 
collection of data required for the disability determination for 
continued employment by DoD and a general disability evaluation by VA. 
The Office of Healthcare Inspections (OHI) has not evaluated the 
technical issues that must be resolved to improve this process, and 
thus have no specific recommendations.
    B. Do you think that the VA and DoD are making progress connecting 
their disabilities ratings?
    VA and DoD are making progress in the transfer of medical 
information. We have seen progress in the flow of medical record 
information from DoD facilities to Veterans Health Administration (VHA) 
facilities in connection with medical treatment. The Office of Audit 
recently noted an issue with the Veterans Benefits Administration (VBA) 
not receiving information from the DoD that identifies seriously 
disabled OEF/OIF veterans. This lack of information means that VBA 
cannot readily identify all veterans who need expedited processing on 
disability claims. We expect to issue a final report concerning this 
issue in June 2008.

                          III. VISN STRUCTURE

    As you are aware, the Veterans Integrated Service Network (VISN) is 
the system that oversees the operation of regional veterans' hospitals 
and outpatient service centers.
    A. Dr. Daigh, please tell the committee your views on the 
effectiveness of the VISN structure for providing health care.
    I do not believe the current VISN structure is as effective as it 
should be in assuring that veterans receive quality health care. VHA 
provides veterans with quality health care. However, the variation in 
quality among the many facilities is a recent concern to me. Our 
Combined Assessment Program (CAP) reviews of VA medical centers 
continue to report problems with the peer review process, credentialing 
and privileging of physicians, and adverse event disclosure. In 
addition, we continue to find individual facilities in noncompliance 
with VHA policies in the area of environment of care on mental health 
wards that place patients at risk of harming themselves.
    Recent complaints to the OIG Hotline have identified quality of 
care issues in Martinsburg, West Virginia, San Antonio, Texas, and 
Marion, Illinois. From the data at my disposal, the VISN's impact on 
medical facilities is limited to management of financial resources; I 
do not see a significant effect of the VISN upon the quality of care 
provided at medical facilities.
    B. If you think the structure is ineffective, please explain why.
    A central tenent of the current management structure is the idea 
that health care is best provided at the local level. Thus the chain of 
command extends from VACO to 21 VISNs with each VISN responsible for 
their share of the 150 medical centers, 800 community-based outpatient 
clinics, and 200 Vet Centers. VHA therefore has an organizational bias 
in favor of local decision makers over national leaders which impedes 
the provision of one standard of excellent medical care for all 
eligible veterans. The lack of a standard organizational structure 
leads to differences in financial systems, medical data systems, and 
management and committee structures from VISN to VISN.
    VISNs are important control points in the financial chain of 
command. The result however is that there are now more than 20 entities 
within VA that must come to agreement on business practices that 
address common issues. This duplication seems unnecessary.
    In OHI's report in January 2008 on the VA Medical Center (VAMC) in 
Marion, Illinois, we identified several issues that the Undersecretary 
for Health agreed to address on a national level. Our report identified 
a dysfunctional facility quality management structure. The 
Undersecretary for Health agreed to create a uniform structure to be 
used at each facility to manage the quality assurance process. Our 
report demonstrated that the Marion VAMC was performing surgeries where 
the expected risk to a patient at a smaller hospital with limited 
staffing is significantly different for the same procedure performed at 
a more sophisticated medical facility. The Under Secretary for Health 
agreed to review the method used to determine which diagnostic and 
therapeutic procedures are appropriate to perform at VHA facilities, 
and to ensure that the privileging of physicians for these procedures 
is matched with available resources.
    Both of these issues are symptomatic of the current structure that 
tilts in the favor of local control of resources and decisions. With 
changing conditions, organizations need to adjust. The current 
organizational structure needs to be adjusted to more efficiently 
ensure veterans receive quality health care.
    C. What recommendations can you give to the committee to improve 
the VISN system?
    I believe that the current management structure would not be the 
best for VA health care in 2015. I would engage management experts to 
review and affirm the mission of VHA (health care, training, research, 
emergency medical preparedness) and suggest alternatives to the current 
structure of VHA to accomplish the desired mission as envisioned by 
national policymakers. Veterans receive their health care from a 
variety of sources that include VA, TRICARE, Medicare, Indian Health 
Service, Medicaid, and third party insurance. A review that considers 
the interaction of these sources of funding and community needs would, 
in my view, ensure that veterans get excellent quality health care and 
that taxpayers get the maximum return for their dollar.

      Questions for James O'Neill Assistant Inspector General for 
                             Investigations

                       IV. INFORMATION MANAGEMENT

    Your office is responsible for conducting criminal and 
administrative investigations of wrongdoing in VA programs and 
operations.
    A. Has the OIG ever been refused any request for information from 
the VA?
    The OIG has not been refused any request for information from VA.

    Questions for Belinda Finn Assistant Inspector General for Audit

                     V. BACKLOG OF BENEFITS CLAIMS

    Currently, it takes an average of 657 days to process a disability 
appeal. The VA is working to reduce the time for a disability claim to 
145 days.
    A. Do you have any recommendations to help the VA deal with the 
backlog of disability claims?
    VBA needs to strengthen control processes over various aspects of 
disability claims processing. In recent audit work related to non-
rating claims and compensation and pension changes, we identified 
avoidable delays that occur because claims are handled more times than 
necessary. We also found instances where VBA procedures did not ensure 
that staff processed compensation adjustments promptly. We have 
recommended improved performance measures and additional oversight to 
ensure that veterans and their dependents receive timely and accurate 
benefit payments.
    VBA also needs to ensure its Systematic Technical Accuracy Review 
Program provides the comprehensive oversight needed to assure the 
consistent application of policies and procedures. Lastly, the 
complexities inherent with the rating schedule need to be addressed in 
order to improve the consistency of claims decisions.
    Several Subcommittee Members expressed interest at the hearing on 
the effectiveness of funding provided to VBA for FTE to help address 
the backlog of claims. As stated in my testimony and in a later meeting 
with Subcommittee staff, we are currently reviewing how VBA hires and 
trains new claims processing personnel. We will share our findings and 
any recommendations with the Subcommittee upon completion of this 
review, which is expected no later than August 31, 2008.

                   VI. Request for Copies of Reports

    Office of Audit mentions reports on the timeliness and quality of 
prosthetics provided to veterans and activation of major construction 
projects.
    A. I would appreciate any copies of current reports on these issues 
and copies of any future reports on these issues.
    We have no current reports on the timeliness and quality of 
prosthetics provided to veterans and activation of major construction 
projects. As discussed in our written statement, we believe these are 
high-risk areas that would benefit from future review, but we cannot 
perform those reviews with our current resources because of higher 
priority work. If we are able to review these areas in the future, we 
will provide copies of the reports.

                        VII. BENEFITS PROCESSING

    One of the ongoing top priorities for the Congress has been to see 
the backlog of claims for disability benefits reduced. Last year this 
Subcommittee and the Congress included funding for the hiring of 1,500 
additional claims processors. The Office of Audit indicates in your 
testimony that for FY 2009 you plan to release six reports on the 
benefits processing process.
    A. Inspector Finn, how responsive has the VA been in implementing 
the OIG's recommendations for addressing the backlog?
    While we have not made recommendations that are specific to the 
backlog of disability rating claims, during the past year we have 
recommended that VBA increase its oversight and monitoring of 
processing actions in other areas such as non-rating claims and 
compensation and pension changes to ensure that actions are completed 
in a timely manner. VA has concurred with our recommendations and taken 
action to institute further controls and improve oversight. Because of 
the recency of these recommendations, we have not performed follow-on 
reviews to determine if the increased controls are effective in 
improving processing timeliness.
    You mentioned that you would be doing six reports in benefits 
processes in FY 2009.
    B. How many have you done in the years since the beginning of GWOT?
    We have issued eight reports on benefit processing since FY 2002.
    <bullet> Audit of Veterans Benefits Administration Benefit Payments 
Involving Unreimbursed Medical Expense Claims (September 30, 2002)
    <bullet> Summary of the Benefits Review of the VA Regional Office 
in San Juan, Puerto Rico (March 7, 2005)
    <bullet> Review of State Variances in VA Disability Compensation 
Payments (May 19, 2005).
    <bullet> Audit of Adjustments of Hospitalized Veterans' 
Compensation and Pension Benefits (February 1, 2007).
    <bullet> Audit of Veterans Benefits Administration's Pension 
Maintenance Program Administered by the Pension Maintenance Centers 
(March 30, 2007)
    <bullet> Audit of Veterans Benefits Administration Controls to 
Minimize Compensation Benefit Overpayments (September 28, 2007)
    <bullet> Audit of the Effectiveness of Veterans Benefits 
Administration Compensation Writeouts (December 19, 2007)
    <bullet> Audit of Veterans Benefits Administration Non-Rating 
Claims Processing (February 7, 2008).

                 VIII. STAFFING ISSUES AT VA FACILITIES

    It has been brought to my attention by people within the VA that 
the process for hiring health care employees is very complicated and 
can take several months. Obviously this presents problems when meeting 
shortfalls that currently number in the thousands nationwide.
    A. Has the OIG recently conducted a review of the hiring practices 
within the VA? If yes, could my office get a copy of that report?
    OHI last addressed this issue in a national report, Healthcare 
Inspection, Evaluation of Nurse Staffing in Veterans Health 
Administration Facilities, dated August 13, 2004. A copy is attached. 
The Office of Audit has not completed any audit on VA hiring practices; 
however, in March 2008 we began an audit to assess the effectiveness 
and timeliness of VBA's hiring process and overall progress 
assimilating new employees into the claims processing workplace. We 
will provide a copy of our final review upon completion, which is 
expected no later than August 31, 2008.
    [A copy of the report follows:]

    [GRAPHIC] [TIFF OMITTED] T2754B.021
    
    [GRAPHIC] [TIFF OMITTED] T2754B.022
    
    [GRAPHIC] [TIFF OMITTED] T2754B.023
    
    [GRAPHIC] [TIFF OMITTED] T2754B.024
    
    [GRAPHIC] [TIFF OMITTED] T2754B.025
    
    [GRAPHIC] [TIFF OMITTED] T2754B.026
    
    [GRAPHIC] [TIFF OMITTED] T2754B.027
    
    [GRAPHIC] [TIFF OMITTED] T2754B.028
    
    [GRAPHIC] [TIFF OMITTED] T2754B.029
    
    [GRAPHIC] [TIFF OMITTED] T2754B.030
    
    [GRAPHIC] [TIFF OMITTED] T2754B.031
    
    [GRAPHIC] [TIFF OMITTED] T2754B.032
    
    [GRAPHIC] [TIFF OMITTED] T2754B.033
    
    [GRAPHIC] [TIFF OMITTED] T2754B.034
    
    [GRAPHIC] [TIFF OMITTED] T2754B.035
    
    [GRAPHIC] [TIFF OMITTED] T2754B.036
    
    [GRAPHIC] [TIFF OMITTED] T2754B.037
    
    [GRAPHIC] [TIFF OMITTED] T2754B.038
    
    [GRAPHIC] [TIFF OMITTED] T2754B.039
    
    [GRAPHIC] [TIFF OMITTED] T2754B.040
    
    [GRAPHIC] [TIFF OMITTED] T2754B.041
    
    [GRAPHIC] [TIFF OMITTED] T2754B.042
    
    [GRAPHIC] [TIFF OMITTED] T2754B.043
    
    [GRAPHIC] [TIFF OMITTED] T2754B.044
    
    [GRAPHIC] [TIFF OMITTED] T2754B.045
    
    [GRAPHIC] [TIFF OMITTED] T2754B.046
    
    [GRAPHIC] [TIFF OMITTED] T2754B.047
    
    [GRAPHIC] [TIFF OMITTED] T2754B.048
    
    [GRAPHIC] [TIFF OMITTED] T2754B.049
    
    [GRAPHIC] [TIFF OMITTED] T2754B.050
    
    [GRAPHIC] [TIFF OMITTED] T2754B.051
    
    [GRAPHIC] [TIFF OMITTED] T2754B.052
    
    [GRAPHIC] [TIFF OMITTED] T2754B.053
    
    [GRAPHIC] [TIFF OMITTED] T2754B.054
    
    [GRAPHIC] [TIFF OMITTED] T2754B.055
    
    [GRAPHIC] [TIFF OMITTED] T2754B.056
    
    [GRAPHIC] [TIFF OMITTED] T2754B.057
    
    [GRAPHIC] [TIFF OMITTED] T2754B.058
    
    [GRAPHIC] [TIFF OMITTED] T2754B.059
    
    [GRAPHIC] [TIFF OMITTED] T2754B.060
    
    [GRAPHIC] [TIFF OMITTED] T2754B.061
    
    [GRAPHIC] [TIFF OMITTED] T2754B.062
    
    [GRAPHIC] [TIFF OMITTED] T2754B.063
    
    [GRAPHIC] [TIFF OMITTED] T2754B.064
    
    [GRAPHIC] [TIFF OMITTED] T2754B.065
    
    [GRAPHIC] [TIFF OMITTED] T2754B.066
    
    [GRAPHIC] [TIFF OMITTED] T2754B.067
    
    B. Does the OIG have any recommendations to address the staffing 
shortfalls within the VA?
    With respect to nursing shortfalls, OHI has encouraged VHA to 
determine a staffing standard to ascertain the magnitude and location 
of their shortfall. VHA has not established such a standard for nurses, 
despite the requirements of Public Law 107-135, Department of Veterans 
Affairs Health Care Programs Enhancement Act of 2001.
    Where there is a shortfall, creative solutions should be explored. 
VA has taken a number of new actions, from supporting nursing education 
to creating a traveling nurse corps to address temporary nursing 
shortages. OHI will report on staffing issues and the impact of various 
methods to address staffing shortfalls in upcoming Combined Assessment 
Program reviews.
    Additionally, it has been brought to my attention by people within 
the VA that newly hired individuals at Palo Alto, California, and San 
Francisco, California, are receiving different levels of pay for the 
same work. Additionally, some newer employees are being paid more than 
current staff for the same work.
    C. Has the OIG investigated any reports of this nature at these 
locations or elsewhere?
    We have not performed any audits addressing position classification 
or pay issues as cited.
    D. If so, can my office receive a copy of that report? If a study 
has not been done, would the OIG initiate a study immediately to 
investigate pay disparities throughout the VA?
    We believe that a study of pay disparities across the VA is more 
appropriately conducted by VA, rather than the OIG. If VA agrees to 
undertake such a study, we are willing to discuss a possible role for 
the OIG.

    Questions for Maureen Regan, Counselor to the Inspector General

                       IX. PROCUREMENT ACTIVITIES

    The Office of Audit is very clear in its testimony that the VA 
cannot manage its contracting activities and does not offer a 
centralized database of its procurement and contract activities.
    A. How long has the OIG been working with the VA to address this 
problem and what progress, if any, has been made?
    The OIG has identified procurement as one of VA's major management 
challenges for many years. Some actions have been taken to address the 
issues but progress has been slow. As one example, VHA took action to 
centralize contracting and/or contracting oversight at the VISN level. 
However, this has not been fully implemented in all VISNs. We have not 
evaluated whether this action has been effective in those VISNs in 
which it has been fully implemented.
    With respect to the centralized database, VA has established a 
national electronic database, Electronic Contract Management System (e-
CMS), to generate and manage new procurement actions over $25,000. On 
June 15, 2007, the VA Office of Acquisition and Logistics issued 
guidance regarding the mandated use of e-CMS. An OIG audit of e-CMS is 
currently ongoing to determine the extent of the system's 
implementation throughout VA and whether e-CMS will provide needed 
information for VA to manage and report the cost of procurement more 
effectively. We will provide you a copy of the audit report, which we 
plan to issue in September 2008.
    B. Does it make sense that the VA would make changes to its policy 
for resellers when it's not clear what effect these resellers have on a 
national level?
    The implementation of the recommendation in our report, Final 
Report, Special Review of Federal Supply Schedule Medical Equipment & 
Supply Contracts Awarded to Resellers, dated October 15, 2007, will not 
have any national level effect on the ability of VA or other Government 
agencies to purchase the medical and/or surgical supplies needed to 
provide quality health care in a timely manner. It will, however, 
ensure that VA and other Government agencies purchase these items at 
fair and reasonable prices that are comparable to what commercial 
customers pay for the same items.
    The only ``resellers'' that could be impacted by the implementation 
of the recommendation are those who do not have significant commercial 
sales. These vendors do not have significant commercial sales because 
they do not sell the items they offer the Government on Federal Supply 
Schedule contracts to commercial customers. They are used by large 
manufacturers to broker a contract with the Federal government to avoid 
giving the Government purchasers the same discounts and concessions 
that the manufacturers give their commercial customers. As a result, 
the Government is paying higher prices than commercial customers are 
paying for identical products. More importantly, we determined that the 
arrangements are not a commercial practice because the Federal 
government is the only customer required to purchase these commercial 
items through a third party.

    [Clerk's note.--End of Questions for the record submitted 
by Congressman Farr.]
                                           Thursday, March 6, 2008.

                            CENTRAL COMMAND

                                WITNESS

ADMIRAL WILLIAM J. FALLON, U.S. NAVY, COMMANDER, U.S. CENTRAL COMMAND

                       Statement of the Chairman

    Mr. Edwards. I would like to call the subcommittee to 
order.
    Admiral Fallon, welcome back before our subcommittee.
    Chairman Young, thank you for letting us appear in the 
committee room. We appreciate that very much.
    Mr. Young. Mr. Chairman, you are always welcome in this 
committee room.
    Mr. Edwards. Thank you, sir.
    I would like to recognize Mr. Wamp.
    Mr. Wamp. Thank you, Mr. Chairman.
    I move that the classification will be Executive Session on 
all material to be discussed.
    Mr. Edwards. All those in favor will say aye. Aye.
    Those opposed, no.
    The ayes appear to have it.
    I would like for Members and staff to please check your 
cell phones, pagers and BlackBerrys to make sure they are 
turned off, and also remind everyone that if notes are taken of 
the classified parts of this discussion, that those must be 
kept in a secured place if you take those notes out of this 
room.
    Admiral Fallon, again, welcome back to our subcommittee and 
in your position now as Commander of the U.S. Central Command. 
And we were also privileged to have you here as head of Pacific 
Command.
    Today we are here to discuss CENTCOM's fiscal year 2009 
budget request for military construction as well as the 
impending fiscal year 2008 budget model. CENTCOM's fiscal year 
2009 request for its responsibilities is $109 million, not 
including the Combined Joint Task Force in the Horn of Africa 
and Djibouti, which has moved to the African Command area. The 
fiscal year 2008 supplemental request is far larger, $1.5 
billion, again, not including Djibouti. This request includes 
$976 million for MILCON in Iraq, the largest single-year 
request that we have received thus far.
    CENTCOM is engaged in two wars. It is also trying to 
posture itself for the long-term challenges in the Persian Gulf 
and Central Asia. We will have much for us to talk about today. 
And thank you, Admiral Fallon, for taking the time to be with 
us here for these important discussions.
    Before we proceed, I would like to first turn to the 
Ranking Member Mr. Wamp for any comments he would care to make.

                Statement of the Ranking Minority Member

    Mr. Wamp. Mr. Chairman, I am very grateful. I won't take 
any time except to note that this is the portion of our 
hearings this year where the hair stands up on the back of your 
neck with extraordinary pride and understanding of the 
importance of what we are doing, and to be in the presence of a 
man like Admiral Fallon is a tremendous privilege.
    Thank you for your service, sir. Thank you for your 
appearance today. I look forward to the give-and-take of this 
discussion, and I appreciate you very much, sir.
    Thank you, Mr. Chairman.
    Mr. Edwards. As will be my tradition, I am honored to 
recognize Mr. Young for any opening comments he would care to 
make.
    Mr. Young. Mr. Chairman, thank you very much.
    It is great to have Admiral Fallon here. I take notice to 
the fact that unlike most of our witnesses that come into this 
room and your subcommittee room, he doesn't bring a whole 
busload of staff. I mean, he is here. You will find that he is 
responsive, and we had an outstanding hearing with the admiral 
yesterday in the Defense Subcommittee room.
    Admiral, welcome. I am glad to have you back again today. I 
look forward to your testimony.
    Mr. Edwards. Admiral, I am going to dispense with the 
reading of the bio of your distinguished service to our 
country. We are all familiar with your tremendous contributions 
to our Nation's defense on so many different fronts. Again, 
welcome back.
    I would like to, without objection, say that all of your 
testimony will be submitted for the record.
    I would like to recognize you now for any opening comments 
that you would care to make.

                 Statement of Admiral William J. Fallon

    Admiral Fallon. Chairman, Mr. Wamp, Mr. Young, Mr. 
Crenshaw, thanks once again for the opportunity to be here. It 
is a very important subcommittee because we would not be able 
to do the things that we are trying to do in Iraq, Afghanistan, 
and the region without means to do it. We have got phenomenal 
people, but we need facilities, and this is how it is made 
possible.
    If I could, with the great tradition, if you will bear with 
me, I will start off this morning with a comment. As some of 
you know, there is this morning an article in The Washington 
Post that talks about me, alleges certain things, and it makes 
reference to a magazine article that is coming out in the 
coming days. As usual with these things, there is some truth, 
there is some fact, there is some fiction, and there are some 
twists.
    My feeling right now is one of disappointment and, frankly, 
disgust because the upshot of this is that it causes 
embarrassment, I believe, to the President, to him personally, 
to the institution. It also distracts from the very, very 
critically important business of trying to wrap up these 
conflicts in the Middle East, and it has a tendency--I think 
overshadows what is really important today, and that is the 
phenomenal work that is going on by our people and task in 
front of us.
    The principal issue here is an allegation that I am in 
contravention or opposed to the administration policy regarding 
Iran, and that is not true. In fact, I have had several 
discussions with the President directly on this subject. It 
stems from a swirl of media activity last fall in which a big 
deal was being made, a couple statements that I made publicly 
in which it was construed that I was not going to support the 
President in some way in what we were trying to do in Iran. 
That is not true. This has taken on a life of its own; kit has 
been embellished to the point where it is pretty embarrassing.
    Just to let you know, I believe that Iran is a difficult 
challenge for us. We know that. There are lots of opinions 
about how we might be able to move forward. Everybody is 
entitled to their opinion, but the real issue is that we have 
national interests here of the highest order with a country 
that is very opaque in its nuclear development program. ------. 
But the fact is, they are not openly forthcoming and have 
disdain for the U.S., the U.N. Security Council resolution and 
so forth. They also, by their behavior, have been killing and 
wounding our people in Iraq and Afghanistan. It is obvious to 
us. We have had fingerprints all over this. And they have also 
seemingly gone out of their way to poke their fingers in the 
eyes of other countries in the region.
    So for all these reasons, we need to have, to the best of 
our ability, a coordinated approach to this, and that has been 
my efforts along those lines. And so if you just bear with me, 
I know there is going to be a lot of swirl about this. There is 
a lot of politics at play here, and it is just a shame. But I 
didn't want to begin this hearing without at least making a 
statement to address this issue.
    Mr. Edwards. Thank you.
    Admiral Fallon. If I could move on to the business of 
today, again, I appreciate the opportunity to be here. I am 
here representing our people because they are the folks who are 
getting the job done. They have just been working in a 
phenomenal fashion this year. Since I arrived here, and, of 
course, I was privileged to testify about a year ago, there has 
been a dramatic turnaround in the security in Iraq. It has been 
to the benefit of many of the people in that country and by 
virtually every single measure. Violence is down. Security has 
increased, and we are moving down the road to the time when we 
can continue to withdraw our forces, turning responsibility 
over to Iraqis, and being able to assume a more normal 
relationship with that country.
    Part of this directly impacts this subcommittee, because as 
we make these adjustments, you know, we are going to have to, 
in my opinion, make some adjustments to the facilities that we 
are using in Iraq. The big picture here is that we are going to 
come down, to bring our forces down to consolidate our presence 
there to a few enduring facilities, and eventually I would 
expect that we will reduce our presence there at some time to 
the point where it is relatively minimal and it is really 
engaged in the kinds of things we do in other countries around 
the world, training, mentoring, things that are supportive of 
them.
    The Iraqis have made some big decisions this year, 
particularly regarding their finances. This year they are 
putting three times as much money into their security than we 
are. And that is just in 3 years time, it has gone from the 
complete opposite.
    They are buying U.S. equipment, and that is good in several 
ways. I think, first of all, it ties them much closer to us. 
And this has been made very clear by the Minister of Defense, 
who told me that one of his principal intentions in pushing the 
government to buy in the U.S. forces more cooperation, 
coordination just because of the intimate ties that will 
result. And I think that is a really good step.
    In terms of facilities, there are many, 60-some places, 
bases and other major outposts in the country of Iraq, right 
now that our forces are using. Our intention is to over the 
next months and years withdraw down to a handful of facilities, 
and that will, I think, come out in due course as General 
Petraeus gets back here and gets a chance to put his next 
phase, his plan in public display.
    By way of how that is working, I tasked him several--a 
couple months ago to come back to me with a plan for what we 
would do in Iraq or what he proposed to do in Iraq after July, 
and this is a follow-on to the already ongoing drawdown of the 
surge forces. And I gave him three scenarios to look at; one in 
which security continued to increase, one in which things 
stayed about the same, and one in which it might regress 
somehow for whatever reason; and to tell me in those 
circumstances what he would propose and how we would set 
ourselves up to be in that position. And I expect to get that 
back--in fact, sometime later today it is due back to me.
    We will then look at that ourselves. We will talk about it. 
They already have a couple of times. And we will then talk to 
the Joint Chiefs about it and to the Chairman and then the 
Secretary of Defense, and then, over the next couple of weeks, 
take it to the President, give him our recommendations, and we 
will also have a decision to make.
    We have heard a lot of speculation about this, what are we 
going to talk about, this cost thing? I am not sure that is 
really a good word because it brings up--everybody has got 
their own interpretation of what that might be. To my mind, 
what is probably going to be prudent here is in about the July 
timeframe, we will have completed a very rapid pull-out of ----
-- brigade combat teams which are now in July. At the same time 
we will also be turning over ------ other remaining combat 
teams of troops. Those troops are coming out, but there are 
replacements for those ------ units going back in, and then a 
host of smaller movements that will be under way at the same 
time. This will be an awful lot of movement.
    If I could try to give you an example of what this looks 
like on the ground. If you were to look at a map of Iraq, 
looking at it from a God's-eye view, you would see coalition 
forces have divided up the entire country into regions of 
responsibility, given those to our divisions, brigades all over 
the country. As the forces come out, what is going to happen is 
that the lines that separate these units are going to come to 
change, and fewer units are going to be responsible for more 
territory. And at the same time, there are significant numbers 
of Iraqi forces that are being fielded and are taking 
responsibility for their areas.
    For example, right now it is really difficult, unless you 
are there on the ground, to understand how complex this is. For 
example, in an area like Anbar Province, the largest province 
in the country, Marines are generally in charge of that. To an 
increasing degree, Iraqi Security Forces are actually doing the 
day-to-day things. Our Marines are now generally drawn back to 
their bases, and they certainly patrol, they certainly engage 
with what the Iraqis have. In certain cases the Iraqis are 
pretty much doing this all on their own. In other cases their 
companies, battalions are out there, and our people are right 
there with them. It is a really interesting checkered 
tablecloth, if you will, of all these activities.
    All this is going on this summer, and it seems to me that 
it is probably going to be prudent to let the dust settle for a 
bit for some, I would think, shorter rather than longer period 
to see if the stability is as we want it. And clearly 
everybody's intention is to get back on drawdown and bring our 
forces back, but take it very careful--paying close attention 
to what frontiers are ready to expand so that we don't lose the 
stability that we have got. I think it is quite possible; not 
possible, I think we are going to get it done, but it is very 
complex, and I suspect that General Petraeus is going to come 
back and say, let us have a little bit of time to take a look 
at this before we start pulling more troops out.
    We are also very mindful of the fact that the Army wants to 
get off a 15-month rotation. General Casey has made that very 
clear that we need to get off it, and I agree. So the sooner we 
can get this moving, the faster we will be able to let our 
people go.
    Thank you very much for the opportunity to speak with you 
and to be here. I will turn it over for whatever questions you 
might have.
    Mr. Edwards. Admiral, thank you for your testimony and, as 
Mr. Wamp said, for your lifetime distinguished service to our 
country.
    [Prepared statement of Admiral William J. Fallon follows:]

    [GRAPHIC] [TIFF OMITTED] T2754B.068
    
    [GRAPHIC] [TIFF OMITTED] T2754B.069
    
    [GRAPHIC] [TIFF OMITTED] T2754B.070
    
    [GRAPHIC] [TIFF OMITTED] T2754B.071
    
    [GRAPHIC] [TIFF OMITTED] T2754B.072
    
    [GRAPHIC] [TIFF OMITTED] T2754B.073
    
    [GRAPHIC] [TIFF OMITTED] T2754B.074
    
    [GRAPHIC] [TIFF OMITTED] T2754B.075
    
    [GRAPHIC] [TIFF OMITTED] T2754B.076
    
    [GRAPHIC] [TIFF OMITTED] T2754B.077
    
    [GRAPHIC] [TIFF OMITTED] T2754B.078
    
                           LONG TERM SECURITY

    Mr. Edwards. Let me just make a brief editorial comment 
from one person in this House, and that is that I hope our 
military leaders always are in a position to be able to speak 
openly and honestly with the Secretary of Defense, with the 
Commander in Chief and without it always getting in the press. 
We know you are loyal to the chain of command. but we also 
respect the fact that whatever viewpoints you have offered--and 
I don't want to get into the viewpoints of that today--vis-a-
vis Iran, whatever views you have expressed are honest and 
sincere and well informed.
    And the press is always looking for conflict. If it is not 
conflict, it is just not news in this town. And that is 
disappointing for all of us. I have great respect, though, for 
the leadership that you have shown.
    Let me just ask, for the skeptics that are out there that 
say that there is more security now since we have got such a 
huge presence of U.S. forces in Iraq, but as soon as we leave, 
the Shia and Sunnis are just waiting to go after each other, 
and then the arms of the Sunnis will just be used to turn 
against the Iraqis. How would you respond to those skeptics and 
suggest that perhaps there is reason for you to believe that 
there would be long-term security if we pullout 2 years from 
now, 3 years from now or 7 years from now?
    Admiral Fallon. Well, I think that the truth is that there 
are always going to be some extremists in every society. 
Because of the situation in Iraq, there has been more of these 
folks who have been in front than maybe some other countries.
    But the situation has significantly changed now, and I 
think that it is not just the mindset that I would offer. The 
picture is not us withdrawing, and now we are just gone, and 
they are in charge. This process of gradually turning this over 
to the Iraqi Security Forces who are increasingly competent and 
increasingly willing to pick this up. Just the steps they have 
taken; from the investment decisions that I mentioned 
previously, to their continued build-up of their forces, to 
some really good decisions that I have seen in putting good 
leaders in charge and making assessments of how people have 
done over the past year or so and making changes where it is 
appropriate.
    In the South, for example, where we have a very, very light 
presence, all those provinces down there have been turned over 
to the Iraqis for their political control and security control. 
And a couple of times here in the past 6 months, there have 
been indications that trouble was brewing, that the extremists 
were trying to take back over or force things to happen. The 
Iraqis have dealt with this, and we have not had to put a 
significant rescue force, if you would, or response force in 
place. We have helped them. We have given them enablers. We 
have flown some troops around for them, and we have provided 
some of our Special Forces people, who are very effective. They 
are close to the Iraqi Security Forces. They mentor them.
    But increasingly we are seeing the Iraqis with SWAT teams, 
which they have mirrored on ours, with commandos and with some 
of the Army units that are responding. They have made 
adjustments. They realize that the South, it is trouble. It is 
not a place where there is a lot of open conflict, but there is 
a continual grinding, and most of it is Shias. It is different 
than other places. It is almost all Shia down there, and there 
are factions that are, frankly, vying for political domination, 
and so they have their times when they go at it and try to 
intimidate. But what we are seeing, Iraqis responding, and they 
are dealing with it.
    One town I will mention, Diwaniyah, I was concerned about 
twice, once in the last 6 or 8 months. It looked like trouble 
was brewing, and one time we said, oh, we will have to go down 
there and clean it up. We did not have to. They took care of 
it. They brought people in from other parts of the country, and 
they cleaned it up.
    I think they are stepping up to the plate, and if we do 
this in a smart fashion, I think we are going to be able to 
effect this. It is not going to be the U.S. It is their 
culture. It is going to be different. But they are dealing with 
things.

                             SYRIAN BORDER

    I will give you another example. I was out in the West in 
the Sunni area a couple of weeks ago, and the marines there had 
tipped me off that there was trouble brewing out at one of the 
entry points on the Syrian border, and the issue was that the 
border police, Iraqis, out there had not been paid and were 
given--they were being short-sheeted by the central government. 
At least that was their complaint. And the story was, well, the 
Shia government's not paying enough attention to us. They don't 
care what happens out here.
    Just last week a delegation from Baghdad went out there, 
visited with the gang, listened to the complaints, had the 
usual lubrication in that part of the world, a bag of money, 
handed it out, paid off all the debts, and folks were left with 
smiles on their faces and back to work and business as usual.
    In another area, Diyala Province, where you have a mix of 
Shia and Sunnis, there has been a lot of trouble. Colonel 
Townsend with the Army, who just came back from Iraq 15 months 
after being Commander out there, his troops fought the battle 
of Baquba this past summer, house by house, street by street, 
very courageous actions that retook the city, and now it is 
generally back in the hands of the Iraqis.
    One of the things that has been a real success is this rise 
in the citizens which stood up and said, we want to take 
responsibility for our neighborhoods, and they have been moving 
along. But they went on strike a couple weeks ago because they 
were unhappy with the leadership and the police. And again, a 
delegation from Baghdad went out, negotiated. They removed one 
of the key leaders, put a new one in, and they are moving on. 
This, to me, is the type of accommodation that is essential to 
moving forward. It is happening. It is not perfect, it is not a 
straight line, but it is moving.
    Mr. Edwards. Thank you, Admiral.
    Mr. Wamp.

                              AFGHANISTAN

    Mr. Wamp. Thank you, Mr. Chairman.
    Can you touch on Afghanistan just for a minute? My 
colleagues that just came back echoed your encouragement about 
Iraq, but are not as encouraged with Afghanistan. Can you touch 
on that just for a second?
    Admiral Fallon. Yes, sir. Afghanistan, I believe, is 
significantly different than Iraq. I have to be careful myself 
that I don't take whatever we are learning in Iraq and try to 
put it on top of Afghanistan, or to take the news clips and the 
snippets of information I hear from Afghanistan and put it in 
the same context.
    First of all, the scale of violence in Afghanistan is 
substantially less. These are countries that are about the same 
size of population. The number of incidents in Afghanistan are 
on a different scale, lower than in Iraq, just to set the 
scene. The majority of the violence in Afghanistan takes place 
in a minority of the locales. Our troops over there are using a 
figure of about 70 percent of the violent activity takes place 
in about 10 percent of the provinces.
    Now, there are reasons for that. First of all, getting 
around the country in Afghanistan is extremely difficult. Those 
of you that have been there, you know that there is really only 
one road, and you can't call it a highway, and it loops almost 
a circle around a central mountainous area, with very few 
people in that central area. A majority of people live 
somewhere around this so-called ring road. And the contested 
areas, the areas where the Taliban who have never been 
completely eradicated and probably aren't going to be, their 
heartland, if you will, is in the South, in provinces of 
Kandahar and Helmand. These are very populated provinces as 
well. So there is a continual incursion down there in that 
area.
    We have another challenge, and that is that the good news 
is lots of people have come to help. The bad news is, you know, 
there are so many people there with different agendas, some of 
them not necessarily nefarious, but they come from different 
perspectives, and they are trying to achieve different things. 
The coordination on the ground is challenging, and particularly 
regarding the development aspects of the country. So lots of 
folks here to help, in many cases tripping over each other, in 
my opinion, and, frankly, distracting in some regards, because 
everybody wants to go see President Karzai. And this is a 
fragile government with very immature institutions, so the 
amount of time he has to spend, I think, every week--because he 
wants to--he is a very outgoing, charismatic guy who wants to 
listen to all the stories--how do you run the country? And it 
is still running in many cases by a cell phone call to the 
Governor to done.
    That said, the future of Afghanistan is going to be two 
things. One is the development of the government and their 
ability to actually govern. This is a challenge because 
traditionally the place has been very locally governed and 
locally run by tribal chiefs, elders and villagers. I think we 
have to remember that 70 percent of this population is still 
illiterate. They don't know anything except what they hear. 
Most information comes from word of mouth and rumors.
    And but that said, I believe that the majority of people 
still support President Karzai as their national leader, and 
that is really a very strong plus. You don't have this extreme 
factionalism that we saw in Iraq, which is also being 
mitigated, but you don't have it in Afghanistan.
    The other thing is that the Afghan Security Forces, they 
are much smaller than Iraq. The army is building towards a goal 
right now of 80,000. That is probably not enough, but we are 
trying to do this smarter and more methodically than we did in 
Iraq. And, by the way, we are paying for it. U.S. taxpayers are 
very much footing the bill for the Afghan Security Force. I 
think it is a good investment, in my opinion, because we could 
use stability in this country. And, frankly, the more they do, 
the less we have to do. And the cost of putting U.S. forces 
over there is much greater than these things.
    These guys are coming along. I like them a lot. They have a 
good leadership. They are tough guys. These are really rugged 
people, as you might expect growing up in that environment. The 
leaders are all veterans of the mujahedin wars against the 
Soviets, so they know how to do business. They have a good 
vision, and they want to do things smartly.
    Another thing I like about it, when you go down and see the 
average unit, you will see Pashtuns, you see Tajiks, Uzbeks, 
Hazaras, these various sects. They are integrated, and they 
work together inside these units, and they have taken pains to 
make sure that it is a well representative institution.
    So I think the army has really come along, and they want 
desperately to be in charge, smartly. They want to take 
responsibility. They actively seek every day more and more 
responsibility. You have got to love it.
    I will be frank with you. The police are a different 
matter. The police are about 80,000 and the Army is about 
50,000 now, climbing to 80,000. Police are about 75,000 or so 
folks on the payroll right now. A lot of them are the wrong 
people, in my opinion, or they need to be trained to a much 
higher degree of competence. Corruption is endemic. It is just 
the way life is. Very little by the way of economic activity in 
the country other than subsistence agriculture, and if you 
can't grow your own food, raise the money to feed your family 
that way, you have to get it some other way. So sticky fingers 
are widespread.
    This is a big challenge. It is related to the drug culture. 
Why poppies in Afghanistan? Because they grow there like wild 
flowers do in Montana, and they just bloom, and it is an 
engrained cultural activity. So that has got to change.
    Activity, the other negative thing that is getting a lot of 
press, in the past year the bad actors over here have realized 
the value of suicide bombers. They have gone from a dozen or so 
incidents last year--the previous year in 2006 to last year 
about 140 throughout the country. Now, just to put this in 
perspective, every day in Iraq we are dealing with 40, 50, 60 a 
day. There were 140 the entire year in all of Afghanistan. 
Nonetheless this is troubling because this rise in this kind of 
activity is certainly destabilizing, and frankly, in my 
opinion, as I walk around Afghanistan and talk to people, they 
are concerned about it. I can sense their nerves. They don't 
like it; they just feel uneasy. If you are in Kabul, 4 million 
people or something, the odds of you getting blown up by an lED 
are pretty slim, but it is still unsettling for people. They 
have never had this before, and they don't like it. So that is 
an issue.
    The flip side of that, in my observation, the Iraqi--I'm 
sorry, the Afghan intelligence folks are pretty darn good, and 
several times this year they have actually come to us and said, 
we have got a tip that there is a bomber out there, and he is 
driving a white Toyota, and we are on the lookout for him. And 
they have in many cases cut this stuff off when they knew about 
that.
    Probably too much rambling here, but it is very complex. 
The number of incidents is clearly up, but the scale of these 
incidents is, I think, not even close to Iraq. And there are a 
lot of things that are moving forward to try to snuff it out. 
We still have a lot of work to do because this is not just 
Afghanistan. You cannot, in my opinion, isolate this country. 
The Pashtun tribal belt includes a good chunk of Pakistan. They 
don't recognize the border. They feel that they need to come 
back and forth all the time. And the Taliban are really 
Pashtun-centric. They take advantage of this. They know that 
the western part of Pakistan is basically ungoverned, it is 
really rugged, and so they hide out and take advantage of it.
    The good news here is that in the past 6 months or so, the 
cooperation between the Pak military, Afghan military, there 
has been a lot of friction in the past, it has got a lot 
better, and the reason is because we are in the middle of it, 
and we are bringing them together, and this has been very, very 
helpful to us. In the east of Afghanistan where on paper it 
will be the worst, toughest territory because of the proximity 
of these sanctuaries and traditionally a lot of kinetic 
activity, the violence levels have come down significantly in 
the past 4, 5 months, and I am convinced that a big piece of 
that is better cooperation between the two countries along the 
border.
    What we are looking for this summer, I went to the 
Secretary and asked him if he would consider putting additional 
troops into the country. I know we are stretched really, really 
thin. I looked at it, talked to folks who thought we might be 
able to identify a couple of Marine units that could do this. 
Secretary agreed, President okayed it. And so we are going to 
deploy a new Marine maneuver force with all of their enablers, 
the aviation and artillery and all those things that can make 
them very effective, and I think that is going to be a real 
boon for NATO. They are going to work for NATO, for General 
McNeil and the ISAF chain of command. There is another 
battalion of Marines that are going to work for me, the U.S. 
chain of command, and their mission is to train Afghan Security 
Forces. That is it. And to the best of their ability, this is 
not an ideal match-up. A lot of young Marines. But we are going 
to figure out how to make this work, and they will be over 
there working through most of this year and should give us a 
boost, and again try to make them more competent.
    That is Afghanistan, and I pretty much touched every aspect 
of it.
    Mr. Wamp. Mr. Chairman, am I on the 5-minute rule, or can I 
ask another question?
    Mr. Edwards. It is your choice.
    Mr. Wamp. Just briefly I will say, I had a nephew in Iraq, 
and as of last Friday my nephew, who just graduated from boot 
camp in the Marines, said he is going to Afghanistan by the 
summer. So I will have both these theaters covered by 
relatives, which many of us have. That was a great 
comprehensive answer.
    But on the CENTCOM organization, we are going through some 
changes with AFRICOM. And the President just got back, talked 
about mil bases. You shared a little bit of this. I am very 
interested.

                          COUNTRIES IN CENTCOM

    First, I am fascinated, have you been to all the countries 
in CENTCOM as you have been Commander, one; and two, give us a 
little of the needs through this transition, talk about 
Djibouti and where the line is. And I know we are all supposed 
to know this, but just kind of go through the basics of the 
CENTCOM reorganization.
    Admiral Fallon. Yes, sir. I have been to most of the 
countries. There are a handful that are either not hospitable 
or impractical. I haven't been to Iran, haven't been to Syria, 
and have not been to Eritrea or Somalia, but I think just about 
every other place I have been to on several occasions.
    In Africa, the northeastern part of the continent, the so-
called Horn includes Sudan, Kenya, Ethiopia, Djibouti, Somalia, 
and Eritrea, and Egypt. Egypt is going to stay in CENTCOM. The 
other countries that are now in CENTCOM are going to transition 
to AFRICOM. But we have in place over top of all of these 
countries except Egypt another command subordinate to me called 
JTF, Joint Task Force, Horn of Africa, which works this region. 
Our intention is to transition that command to AFRICOM, that 
Commander to AFRICOM, and so he will report directly to them in 
a new arrangement next year.
    But our intention is to stay connected because, frankly, we 
have a lot of resources that AFRICOM is not likely to have any 
time soon, and we will try our darnedest to continue to do work 
as we are going on.
    I have to tell you that in, I think, probably 6 years now 
since that joint task force began operations, there has been a 
very, very substantial growth and affinity between the 
countries of that region and this task force. Every one of the 
leaders in the countries, except Eritrea and Somalia, tell me 
they are very, very happy with what our people are doing there. 
Most of what they do is not military, direct military things. 
They are supporting, they are doing medical things, they are 
trying to train their military, they are helping in schools and 
so forth. That is going to continue.
    But the key enabler for all that activity is this base. It 
is an airstrip. It is called Camp Lemonier. For those who 
haven't been there, it is really an airstrip with a small area 
around it in which all of our people, a couple thousand of 
them, are embedded down, and the critical feature there is the 
airfield. It is a single runway, doesn't even have a taxiway. 
It has got a parking ramp. It is shared with the French. It has 
squatter--fighters there. It is shared with the Djibouti 
Government and their commercial air terminal and our people. 
And this is the one facility.
    And I think it is most pertinent to your committee here 
that we really need to, I think, transition from really 
expeditionary, rudimentary, not particularly people-friendly to 
something that is more appropriate to our people being there 
for a while.
    So we would hope they are going to be there for a while. 
They are very welcomed. The country of Djibouti welcomes them. 
I have met with the President several times. He is very 
supportive of our presence, and this is the enduring location.
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Edwards. Mr. Crenshaw.
    Mr. Crenshaw. Thank you, Mr. Chairman.

                                  IRAN

    Thank you, Admiral, for your service. It is great to see 
you again. We kind of touched on the present issues that you 
deal with, and you have got--obviously you have got your hands 
full not only with Iraq and Afghanistan, but I wanted to ask 
you a little bit about your thinking as it relates to Iran and 
what kind of changes we might need in terms of force structure, 
in terms of MILCON, but primarily just how you see that 
developing.
    As we rotate ships through there, are we going to need any 
kind of different aspects of that? The issue back in January, I 
guess, early this year, the Straits of Hormuz, I guess those 
kind of ships we have got over there, they are kind of fast-
moving. They don't have the protection maybe that they need. 
And maybe get to that kind of engagement, kind of speed up your 
thinking about how we handle it, just your overall view, 
because I know you have to balance the knowledge of present 
what you are dealing with, but I am sure you spent a lot of 
time and energy thinking about the future because of all the 
difficult hot spots there. Can you talk about that and some of 
the thoughts you have about how you are dealing with the 
future?
    Admiral Fallon. Yes, sir. I would be happy to.
    A couple of things that are pertinent to remember; first, 
that we have had no relationship with Iran since 1979, no 
formal way to engage to discuss, no ambassador, no embassy, 
none of the normal ways in which countries communicate. And 
during that period of time, there has been a pretty obvious 
friction, to put it mildly, between the two countries, and that 
has continued unabated. The vocal rhetoric out of Tehran is 
U.S. go home. It has been the same since 1979, and this stems 
from the perception among the segment of the population that 
the U.S. supported the Shah. He was corrupt. He was deposed by 
the ayatollahs. And it has endured.
    However, my observation is that a large number of Iranian 
people, the individuals, have a great affinity for the U.S., 
and that is demonstrated most obviously, I think, by the number 
of people that are here in the U.S. who have come from Iran and 
live here. Nonetheless, we have got this enduring public 
distaste and continual friction.
    There are issues of Iranian behavior that I think are 
really important. Their nuclear program, which they claim is 
for peaceful purposes, very opaque. ------. They still kept 
their nuclear development program coming, which will enable 
them to use it for peaceful purposes, and that was their 
choice.
    It is curious, because this country has huge energy 
reserves of oil and gas, and of all the countries in the world 
that might need nuclear power, it doesn't seem like this ought 
to be the top priority, given their other challenges, ------.
    The other issue is the way they engage in the world. The 
Iranians have a curious behavior, bad behavior pattern of using 
surrogates to cause trouble. Why do they do this? In my 
opinion, this is a Shia-Sunni thing again. The Iranians and the 
people who live in the southern part of Iraq are predominantly 
Shia. They are a distinct minority in the greater Arab world, 
and there has been friction for a long time. Aside from that, 
the history is that when they want to, they can live and they 
can accommodate what they have. there are many exteriors there, 
but there is a perception among the Sunnis that the Persians 
who are not arab--most of those ayatollahs are not Arab, they 
are Persian, different ethnic background--that they would love 
to recreate the Persian Empire and be the kings of the Middle 
East again. Who knows?
    But that is a fear in the minds of the neighborhood. So the 
Iranians for their part have an open campaign of, we are the 
nice guys, we are only here to help, we love you all, our 
neighbors. But their actions belie that. They have instigated 
trouble in Iraq. It is very clear. They have propagated weapons 
into Afghanistan, even supported the Taliban, who are 
ideologically the other extreme.
    Taliban are Sunni extremists on one side, and the Shia 
extremists are on the other. They are meddling in a really 
negative way. Hezbollah is a clone of Iran, surrogates. And 
Gaza Strip same thing, Hamas. They get most of their support 
from Iran. And the Iranians have installed a group within their 
country, within their security apparatus, called the Iranian 
Guards and the external aspect of that they call Quds Forces. 
These are the people who actually do the dirty work in all 
these countries. It seems to us that they have a very strong 
voice in decisionmaking inside of that country.
    It is really difficult. I had a tutorial from some British 
diplomats several months ago, and my head spun as they tried to 
explain to me how the decisionmaking is actually done inside 
the country. It is a Ph.D.-level exercise, believe me.
    Anyway, that is Iran. Difficult for the neighbors to figure 
it out. Most of the neighbors are suspicious, and this includes 
neighbors from Central Asia as well. Their demonstrated 
behavior, whether it is contested naval presence, ours or 
anybody else in the Gulf, to the way they engage the neighbors, 
decidedly unfriendly. The things they do are destabilizing to 
the neighbors. They persist in this activity.
    My opinion is that we need to come at this in a 
comprehensive manner. We need to maintain a strong demonstrated 
ability to withstand their pressure. We ought to stand tall 
with the neighbors who are looking for our help in standing up 
to Iran. At the same time, we have got to figure out a way to 
deal with these guys, because they are probably going to be 
around for a long time, and they represent a significant number 
of people as well as a big economic force in that region.
    So it is a difficult chore for us, and we have got to 
figure out a way to move ahead on it. All this swirl about Iran 
policies and stuff is trying to figure out what is--how do you 
do this? I don't think anybody has the perfect answers. So 
there is lots of discussion, lots of debate. That is my 
assessment of Iran.
    Mr. Crenshaw. Can I have a quick follow-up?
    Mr. Edwards. I will ask staff how many minutes we have.
    We have 6 minutes. About 3 more minutes or so.
    Mr. Crenshaw. You mentioned in Iran there is kind of a 
group who are really friendly toward the U.S. You know, you 
have the students, you have women, upper middle class, and I 
know that the reformers, you know, over the years have kind of 
come and gone. And it seems to me that the thing that I can 
understand right now is there is kind of a renewed suppression 
of some of the reform movements.
    As you plan kind of how to deal with this, what is your 
sense of the people within Iran in terms of--as I understand 
it, they don't have very much refining capabilities. So they--
gasoline, inflation ramp. Ahmadinejad is not doing everything 
he says he is going to do, so it seems there is more or less 
right now--but it seems there is more kind of suppression of 
the unrest.
    In your judgment, do you see a time when you know there 
could be, you know, within the country the kind of reform that 
began to take place and then gets pushed back, or is that 
almost kind of impossible? Are we looking at too much money and 
too strong a military, all these kind of things for us to kind 
of have any kind of hope that someday within that country there 
would be folks rising up and maybe make a change?
    Admiral Fallon. I don't know, to be honest with you, 
whether that is wishful thinking. There are clearly other 
voices in the country. There was ineptitude apparently from the 
outside in running aspects of the country like the economy; 
might be the thing that instigates more unrest within and among 
the people. It is really difficult for us to tell.
    What I am learning from looking at decisionmaking, and it 
is very different from ours, they have all kinds of layers of 
groups who meet. One common thread is mullahs have put a lot of 
their own people at these different levels. They really keep 
good control of this. How long it might take to develop some 
kind of an internal resistance that might be effective in 
changing I don't know. I suspect at the end of the day the best 
bet will be to work hard at opening the country to as much 
interaction with others outside, and thereby forcing the regime 
to change and giving people options. The more they know, they 
more they might be inclined to kind of do things a little 
differently. This is including what is going on now.
    Mr. Crenshaw. Thank you.
    Mr. Edwards. Thank you, Mr. Crenshaw.
    Members, why don't we take a brief break. We have got a 
previous question vote that is kind of winding down now, then a 
5-minute rule vote. Maybe we could vote early in the rule vote 
and continue on. Mr. Young will be next. Okay.
    Mr. Edwards. I call the subcommittee back to order.
    Mr. Young.
    Mr. Young. Mr. Chairman, thank you very much.

                                DJIBOUTI

    Admiral, in looking at your military construction request, 
I find that actually your request for dollars is not all that 
big, but most of the construction that you request is not 
within the United States, in some of your outposts stations 
around the world.
    I want to ask you specifically about a comment you made in 
your prepared statement about maintenance facilities in Africa 
and the bad weather and the temperature extremes, that you 
don't really have adequate facilities to protect the aircraft 
that you might be--that might be maintained there. Let's take 
Djibouti, for example, one of the cases you mentioned in your 
prepared statement. Does your budget provide what you think you 
need for that type of maintenance facility in Africa?
    Admiral Fallon. Yes, sir, Mr. Young. The issue in Djibouti 
is that there really isn't any hangar facility except for one 
of these temporary things they call a clam shell, and it is not 
big enough to take a C-130 or the heavy helicopter, the 53s, 
that we have down there. This place is hot and dusty, 
sandstorms. It is a tough environment. So to do the 
maintenance, you have to actually fly the aircraft out 
somewhere else. Now, if the aircraft can't be flown out, then 
you have a problem, and you have to figure out how to do it in 
pretty bad conditions. So that is why the request for a hangar.
    My sense of this before I got here was that the view had 
always been that this is just a real temporary place and may be 
gone tomorrow literally, so don't put anything in there. And I 
have to tell you I agreed with it a couple years ago, but now I 
think we are at a point where this is the one location we have 
in all of Africa. It is critical in the Horn, and I think we 
ought to start thinking about some of these events. So the 
answer is yes, we do have some of these things in. The hangar 
is one that is definitely needed.
    Mr. Young. We are, the committee, the whole Congress is 
pretty much concerned that we don't want to establish permanent 
bases in a lot of different parts of the world. So what we are 
talking about here would not be considered a permanent base of 
any type, just to take care of us while we are there?
    Admiral Fallon. Yes, sir. The only permanent bases I think 
we ought to put in that category are bases in the U.S. or our 
territories. All these other facilities are, I believe, at the 
option of the governments that host them. Some of these 
facilities I would anticipate certainly would desire to be able 
to have access to or use longer than others. Djibouti, the more 
we operate there, the more I think this is probably one of 
those places. So doing a couple of things, some of the things--
the dining facility there is pretty decrepit. I was in there a 
couple weeks ago. We need a few of these things. And, again, it 
is not big money. But I understand the issue is it is a foreign 
place, how much do we really invest there, and my sense is we 
ought to certainly desire to have that kind of construction.

                              AFGHANISTAN

    Mr. Young. Admiral, with the 3,200 Marines increased in 
strength in Afghanistan, do you need any military construction 
to care for them, to house them or to feed them? Is there 
anything in your budget request that would relate to those 
3,200 Marines?
    Admiral Fallon. The short answer is no, but I think if I 
can use this to maybe illustrate one of the items that we would 
like for you to consider.
    In our MILCON budget process, you know that it takes really 
a couple of years from the time we conceive of an idea to get 
it all through the process and then get it moving into 
construction. In the very fast-paced environment which we are 
operating in Iraq, Afghanistan, other locations, there are 
things that will come up inside that cycle, that window, that 
really need action. And we have been using the provision of 
CCA, the contingency support option, to take operations and 
maintenance money and convert it into--for us to be able to use 
these things.
    These things are being used all the time, and there are two 
issues that have come to the fore here. One is there is a $200 
million annual cap. Now, most of these projects are nowhere 
near $200 million, but there are enough of them that come up.
    I will give you one that has just come up in Afghanistan. 
We have a detention facility there in which we have kept the 
bad actors that our Special Forces and other folks have rolled 
up in the country. The numbers are a fraction of Iraq. But we 
have got pushing 800 of these people in our custody now. It is 
a long process to get them dealt with through the judicial 
system, either ours or the Afghans'.
    I went in to look at this facility last month, and it needs 
to get fixed. We will have to physically replace it for a 
number of reasons. We are going to have to do this right now, 
in my opinion. I don't want to wait. And so we are going to 
have to reprogram money within our own assets, and we would do 
this. And so this $200 million cap a year is something we would 
really like you to consider pushing up to something higher, 
anything.
    The other aspect is that in the language there is a use of 
the word ``enduring'' facility. And I understand the rationale 
that if it is an enduring facility, it is going to be around 
for a while, the desired process would be through the regular 
MILCON system. But there are some bases like Bagram in 
Afghanistan which is our main base that we envision as 
enduring, but there is so much going on so quickly now, we 
really need an exception. I would ask you to consider an 
exception. I would ask you to consider an exception. So if you 
could look at this word and maybe contemplate giving us a 
little more room there, because as soon as--it is a kind of an 
immediate lightning rod here, and also at OMB and other places. 
Even at OSD they said, well, we are not sure we can support 
this because it will be viewed as enduring, and the Congress 
isn't going to like it. So these are the two aspects of it.
    But back to your immediate question. We can deal with the 
Marine deployment this year within the existing authority to 
meet our existing needs.

                    PARKING AT CENTCOM HEADQUARTERS

    Mr. Young. Admiral, 2 weeks ago I was at MacDill, drove by 
your headquarters. I didn't visit your headquarters. I was 
going to another location at MacDill, a lot of activity, and I 
know that the last previous 2 years we appropriated funding for 
your new headquarters. Talking to some of the folks there, as I 
say, a lot of activity and a lot of people, a lot of vehicles, 
looked like it was pretty crowded with vehicles. Do you have a 
parking problem there? Are we going to need to do something to 
help ease the parking problem?
    Admiral Fallon. Yes, sir.
    Mr. Young. Because people come to work, and they need 
somewhere to put their cars.
    Admiral Fallon. Sir, when the original headquarters were 
put in, it was up at the front end of the base. As you know, it 
wasn't very large, not many people there. Now the staff has 
expanded by three, four times what it was originally. We have 
cars parked allover the place. They would be in my driveway if 
they didn't have a wall to go through to get there.
    Yes, we could use the facility. We have looked at the 
construction plans. We think that would be something that would 
be very, very helpful, and we probably can't get to it until 
maybe 2 years down the road. But that would be very helpful.

                         MACDILL AIR FORCE BASE

    Mr. Young. Mr. Chairman, I think we should visit that 
issue. There is a lot of activity at MacDill. I don't know if 
you have been there or not. I would like to suggest that you 
take the subcommittee to MacDill and see what this is and what 
happens there. The Central Command operation is unbelievable; 
the Special Operations Command, which is also located there. 
There are some unbelievable things that we couldn't even talk 
about in this room, and I think Members would really have an 
eye-opening education there.
    Mr. Edwards. I look forward to that. If you lead that 
effort, I would be proud to join with you.
    Mr. Young. Admiral, thank you very much.
    Chairman, thank you very much.
    Mr. Edwards. Admiral, last year the committee was told that 
CENTCOM's consolidation plan for Iraq ultimately involved 
drawdown in four major contingency operating bases, I think was 
the term: Camp Victory, Balad, Al Assad and Camp Speicher; plus 
four convoy supports centers. Is that still basically your 
plan?
    Admiral Fallon. I think so. When I say ``I think,'' it is 
because General Petraeus has not come back to me with a 
modification. We talked about this extensively during the past 
year. They seem to be the most logical places to do it. Big 
bases all have an airfield. We need that kind of access in and 
out. They have reasonably large perimeters, so they ought to be 
pretty defensible. And I have seen nothing to change that.

                         U.S. FOOTPRINT IN IRAQ

    Mr. Edwards. Without getting into a debate of when we draw 
down troops, this year, next year, go out into the future, 
whether it is--we won't be time specific--whether it is 10 
years, 20 years or 30 years from now, what is our footprint? 
What is our final footprint in Iraq after the country is 
stabilized and we put security back in the hands of the Iraqi 
leadership and Government?
    Admiral Fallon. I would think that we will get to the point 
over time, if this moves in the direction that I would like it 
to go, that the bases in Iraq will be Iraqi bases, not ours. We 
might share in a couple of these facilities for exercise 
activity or facilitating our training and equipping of the 
Iraqi Security Forces, but my sense is that these--as our 
footprint comes down, the Iraqis will assume responsibility for 
these bases, and they will become, over there, their 
facilities.

                           DAILY LIFE IN IRAQ

    Mr. Edwards. I think it is important as we make MILCON 
decisions to understand what is going on from your perspective 
in Iraq. What is life like for the average Iraqi? Power, how 
many hours per day; unemployment levels, has the professional 
class started coming back in; can you get a doctor? The things 
that we care about for our families, our day-to-day lives, 
health care for our kids, and schools, and a job and 
electricity, what is the status for the average Iraqi family 
right now compared to where they were 4, 5 years ago?
    Admiral Fallon. It is different depending where you go in 
the country. If you were in the north in the Kurdish area 
around Irbil, it is very nice, really no security concerns. 
They go about, it is booming, construction everywhere from the 
airfield to downtown. In other parts of the country, less 
visible.
    But the average person that I engage, and I do this every 
time I go over there, every month, voices virtually no concerns 
about security today to me. And last summer, this time last 
year, it is all I got: You have got to stop this killing. You 
have to help us.
    That is not their concern now. It is about day-to-day 
things, their lives, the economy. Jobs are, I believe, the 
number one issue. They are scarce, lots of folks that don't 
have enough to do, lots of people running around, and that is, 
I think, the number one issue in terms of the future.
    There are other things that are aggravations, electricity.
    First of all, they have enough food. That is not an issue. 
There are two reasons for that: One, they have a system. Saddam 
was pretty clever. That is how they kept control. He instituted 
a system of subsidies nationwide all over the place, and that 
works. It still works today. Every week they come in, they give 
them the basics, the rice, the cooking oil, things like that. 
But as I walk through the cities and towns now, increasingly 
they are loaded with fresh food. I ask, where it is coming 
from? A lot of it from Iran, Syria, things they grow 
themselves. I see more and more of that going on. Our AID 
people are giving them seeds, and things are booming. Food is 
not a problem.
    Electricity is probably the most common complaint. It bugs 
me because I have been pushing this button myself now most of 
the time. I think we are-poised to see it increase 
substantially. It got to the point where in fall, October 
sometime, it reached an all-time high. It had never been that 
high during Saddam's era. And then it dropped off. Some of it 
is seasonal because they do a lot of maintenance when the 
temperatures cool off. It is coming back. That is the number 
one issue.
    But there are a number of projects under way to address 
this. A lot of them are security related because, frankly, the 
bad guys went off after this with a vengeance. They started 
blowing up towers all over the country, the pylons fell down, 
the power grid. It is an antiquated system. Maintenance was 
almost nonexistent in the Saddam era, and so the infrastructure 
needs a lot of work.
    There are some new power plants coming on line. There were 
some power plants that were never functional they're coming on 
line. I could bore you for an hour. That is the issue.
    The one thing if I had a wand to put on top of this, if we 
could fix electricity in a major way throughout the country, I 
think people would be very happy, and a lot of other things 
would happen because it is so essential. They spend a lot of 
money on fuel for generators. Fuel is scarce, and the price is 
high, and everybody knows it, so it gets to them.
    I walked through the streets in a neighborhood in Baghdad 
back about a month and a half ago. I was there last summer just 
after some pretty horrible bombings. Buildings were still 
broken and shattered. I walked down the street, and I found 
booming activity, people out of their shops, out of their 
stores, working themselves, putting new storefronts up, a lot 
of construction. The center of the street was a mess. There 
were piles of dirt and mud for good reason. They were putting 
in a new sewer into the street, and the reason they needed 
sewers is because when they put the new water lines in, they 
discovered the sewer couldn't handle it. So this was ongoing.
    People came up to me on the street. In fact, a woman came 
up to me, which was really unusual in this area. She pulled out 
an ID card and said basically, I am a city council member here 
in this part of Baghdad. I would like your help. The sewer over 
here is wonderful, but we need one over here, over here; can 
you help me? They said, see these kids over here? They need a 
job.
    One of the things that has been most helpful in the country 
has been the initiative of the people to join us in these 
things that we call CLCs, concerned local citizens. The name 
has been changed now to Sons of Iraq. They are all male. About 
80 percent of these folks are Sunni, and it started in Anbar 
Province, but now increasingly the Shia are picking this up. 
These people are deputy sheriffs, if you would. They are in the 
neighborhoods.
    Everybody--by the way, this is interesting--everybody has a 
gun. You are authorized in Iraq to have one AK-47. So they are 
authorized to do this. They bring their own weapons. We outfit 
them with ID cards and rudimentary equipment and some kind of 
way to distinguish them. In some cases they are just orange 
construction vests, sometimes it is certain kind of headgear, 
and they go out and do their thing.
    It has been the most remarkable initiative in the country, 
I think, in turning the local people. We have 90,000 of these 
people at last count. General P is trying to throttle back the 
growth of them because what are we going to do with them? A lot 
of them would like to become regular members of the army and 
police. It is not practical. Thousands of them have been 
brought in, but it is really not practical to bring them in. So 
what are we going to do with the rest of them?
    Lots of initiatives, retraining programs. There are a 
couple of the schools that have just started for vocational 
training to try and get these folks. But this is really 
something that is bringing a smile to people's faces because it 
is about jobs, it is about having a future.
    And so I think that the assessment I have is that in most 
parts of the country, they want to move on. Security is much 
better. It is not perfect, but it is to the point where they 
are not concerned with that nearly as much as they are about 
getting a job and moving on.
    Mr. Edwards. Mr. Wamp.

                              MACDILL AFB

    Mr. Wamp. One specific question: If you are going to build 
the parking garage in 2011 at MacDill, don't you need money in 
2009? Are you going be to asking for money in 2009 for that 
parking garage, sir?
    Admiral Fallon. The year 2010 would be the first, because 
the ongoing construction now, we physically can't do it or else 
we would have to shut the headquarters is my understanding. We 
have to complete the headquarters structure before we--there is 
not enough land. It has got to go in the same place.

                              BEYOND 2009

    Mr. Wamp. The general question is really like three 
variables that I see after talking to you this morning and then 
listening for the last hour. The variables are redeployments 
that are not yet official or are to come, and then the 
supplemental that is moving; and then the variable of the Iraqi 
Government standing up by the end of the year and that sandwich 
flipping, as you said earlier, those type of variables. But do 
you foresee for the MILCON appropriations subcommittee any 
specific supplemental request that we can expect beyond the 
2009 request that we see today that are pretty straightforward?
    Admiral Fallon. I don't have any visibility beyond what has 
already been teed up. I think that the idea is to try to put--
give due consideration to all the possibilities, put it in a 
package and move on. I recognize this is a challenge because we 
are coming down, and that is a good thing, and at the end it 
will result in a heck of a lot less money going out to support 
this. But we need some construction to accommodate our ability 
to withdraw, and, of course, there are other things that pop up 
from time to time. We are still burning a lot of money in 
operations, but the level of that activity, my observation, it 
is really beginning to come down.
    General Petraeus made a good point. He said, you know, some 
people complain about all this money you are paying to CLCs, 
those Sons of Iraq. I look at it a different way. Look at how 
much we are not spending now to replace ripped-up vehicles, 
tanks, and MRAPs and Humvees that were shredded 6 months ago. 
That is just not happening now, not to mention the lives.
    By the way, last month was the lowest casualty figure in 
Iraq since 2004, and we still unfortunately lost 27 people, but 
compared to what it was several months ago, a year ago, it is 
all moving in that direction. A little bit of investment here 
relative to the big scheme of things enables us to do this.
    Mr. Wamp. While I don't expect the CENTCOM Commander to 
speculate, if you did look beyond later this year, do you think 
that some of those redeployments would stay within CENTCOM? In 
terms of planning for future MILCON needs, would it be logical 
that some of them would stay in CENTCOM, or would they likely 
rotate back here or to Europe, to some other place?
    Admiral Fallon. I would anticipate that most of those 
forces will come back here to the U.S. I think we are in pretty 
good shape. All things being equal, we would like to have a 
couple thousand more people in Afghanistan, but that is 
relatively small compared to other things.
    Mr. Wamp. Mostly Marines?
    Admiral Fallon. For now, and some force replacement next 
year primarily for training. But most of these forces are 
coming back. They are Army forces, Marine forces that are based 
in U.S., and that is where we want them to come.
    Mr. Wamp. Does AFRICOM mean an increase in troop strength 
in AFRICOM or just an organizational----
    Admiral Fallon. The idea here would be they will need some 
staff personnel, but that is really small potatoes. The forces 
that would engage in Africa would be deployed periodically from 
other places, just like in the Pacific a lot of the force that 
is engaged in countries like the Philippines and Southeast Asia 
were based in the U.S. They just go out, do their missions and 
come back.
    Mr. Wamp. If you had to guess at the cost of making 
Djibouti from temporary to more permanent, but not permanent, 
what kind of costs do you think would be involved in that?
    Admiral Fallon. Certainly in the hundreds of millions, I 
think, at the top end. These are 20-year, 15-year; these are 
not huge investments.
    Again, we have to balance this one. I am not looking to 
build big facilities. I just want things so our people can live 
in something other than tents, they can eat in a decent 
facility, and they can move aircraft around on the field.
    Mr. Wamp. And the President made clear no permanent bases 
in Africa.
    Admiral Fallon. No permanent bases, in my opinion, anywhere 
except in the U.S.

                              HOST NATIONS

    Mr. Carter. Thank you, Mr. Chairman. I apologize, but I 
have conflicting hearings this morning, and I had to use some 
information about the border. It is my understanding you gave 
testimony mentioning OSD approved a master plan that leverages 
host nations in these construction contributions. Now, can you 
tell me exactly what will be the contribution of the host 
nation and how these agreements work?
    Admiral Fallon. Yes, sir. I will give you an example, 
probably the best one. We have been allowed by the Government 
of Qatar, in the center of the Persian Gulf, to use two 
facilities there. One is an airbase that was originally built 
for them which has now become our principal hub for land-based 
air operations in the entire region of--both in Iraq and 
Afghanistan, as well as transport aircraft. It is the airbase 
at Al Udeid. There is another facility in that country called 
As Sayliyah about 10 miles away. Our Army uses that to 
refurbish a lot of torn-up equipment, heavy equipment, in Iraq, 
refurbish it, and send it back into the country or go back home 
once it is repaired. And I have a headquarters; forward 
headquarters is actually there in As Sayliyah.
    The country of Qatar spends $6 for every dollar that we 
spend on all those facilities. So, for example, we have asked 
for a couple of things. Qataris want part of the aircraft ramp 
back because they are buying U.S. C-17s, and they would like to 
have that ramp back to use for their aircraft. We have flooded 
the place with airplanes right now. So we would like to build 
an additional ramp. We have suggested--and this is not 
formalized yet, but it is a single runway. We have B-1s, we 
have C-17s, fighters, you name it, as they do as well. One 
runway, to me, is pretty dicey when you get that level of ops. 
They ought to have a parallel taxiway and another runway. They 
are interested in doing that. So they are going to pay for the 
vast majority of it.
    We have very few real facilities in this part of the world: 
Al Udeid in Qatar. We have naval facilities in Bahrain, and we 
have a small piece of the airfield there that we use in Kuwait, 
and they help us with that. In Kuwait we have facilities near 
the border that enable us to move our people in and out of 
Iraq. Kuwaitis have been magnificent and marvelously welcoming 
in allowing us to do this. This summer over the next 6 months, 
the truck traffic, the heavy equipment, the Humvee tanks and so 
forth that are going to be coming to that country, it is just a 
steady stream, they say, fine, go do it. We have some 
facilities in the northern part of the country, and we have a 
shipping facility in the port to load things on and off the 
ship.
    As I look around the region, the bases in Iraq, the bases 
in Afghanistan really are the only two, Bagram and Kandahar; 
and we have a facility up in Kyrgyzstan, a modest airbase, 
their airfield, they have allowed us to use, modest facilities; 
and then the place in Djibouti, and that is about it. 
Everyplace else over there, we rely on the host country for 
anything we need and anything we get. So it is a pretty modest 
footprint. The host either paid for it directly like the 
Qataris, but decided they would like to have the land back that 
houses my headquarters now. On their nickel entirely they are 
building the new headquarters, complete hardened facility, $150 
million, a block long, pretty ``Gucci'' place. They just said, 
what do you need? So we will put the electronics into it for 
communications, but it is their facility. They help us a lot in 
this region.
    Mr. Carter. Thank you. The oil business is good, sounds 
like.
    Admiral Fallon. Yes, sir. If we can take care of the wars 
here, we will be in good shape.
    Mr. Carter. Thank you, sir.
    Mr. Edwards. Ms. Granger.

                       BANKING AND MAIL DELIVERY

    Ms. Granger. Just a very short question. Thank you for 
giving us a good picture of what life is like. Thank you, Mr. 
Chairman, for asking that question.
    Two things you didn't mention, that when every trip that I 
have been there, electricity was a big problem, banking, and 
just delivering the mail. What about banking and the mail?
    Admiral Fallon. It is coming along. The Iraqis have not had 
a kind of banking system like we do. I just saw something, a 
fellow named Paul Brinkley. You may have heard of him or met 
him. He works for the Secretary of Defense now in development, 
and he has been over there in Iraq the better part of this past 
year trying to get things moving again, get the factories 
restarted, get people employed, get private investment in, and 
he has had remarkable success.
    He sent me a note, I don't remember the details, but the 
banking system is coming along. He listed hundreds of places 
that now actually have banks facilities in cities, that they 
were beginning to pick up on this thing and come up into the 
modern age. Iraq had--it was an absolutely noncomputerized 
paper transfer.
    The facts are one of the reasons I have discovered after I 
got into this job that life was so challenging with the Iraqi 
Army, for example, is when they are paid, they are paid in 
cash. And I got a chance, by the way, some months ago to see--I 
was up in Baquba after Colonel Townsend, behind me, had 
liberated the place of al Qaeda, and a couple of these guys 
took me downtown to visit the Bank of Baquba. I was very 
interested. I saw a couple of dusty old buildings, and I said, 
where is the bank? He said, right here. It was a big Conex box, 
a 20-foot trailer, and it was filled to the brim with dinars. 
It is all cash and carry.
    And so the soldiers are paid once a month, and they are 
paid in a big pile of cash, and the money has to get home. They 
carry it home. They literally get on a bus or a truck, or we 
have been providing an airplane to fly them home, spend a week 
or so with the family, and then go back to their unit.
    So now I understand. It accounts for why we have all this 
activity, why there are only about 80 percent of the people who 
are supposed to be there are always there and so forth.
    It is going to be a slow process. It is coming along. The 
international community is beginning to take notice. A couple 
of weeks ago, Paul sent me an ecstatic note. He said that they 
had just completed the first of the private investment 
turnovers in Iraq; three big formerly state-owned cement 
factories in different places in the country had been purchased 
by a combination of international and Iraqi investors, into 
private hands, $3 billion, modest by a lot of measures, but 
significant. This is the start of getting this place up and 
running economically.
    Paul has been running around; while he is trying to get 
these big long-term deals going, he has been trying to jump-
start some other things. There are dozens of old plants, 
factories that mostly made ammunition for Saddam, trying to get 
these converted to do something for the people; and a couple 
small refineries, getting them up. Banking has a long way to 
go, but at least they are getting started.
    Ms. Granger. Thank you very much.
    Mr. Edwards. Thank you, Ms. Granger.
    Mr. Young.
    Mr. Young. Admiral, we are going to respect your schedule 
and wrap up here soon, but if I could ask one last question, 
and any other Members will try to respect your schedule, I 
think if you leave at noon, you can make your next appointment.

                              AFGHANISTAN

    Mr. Edwards. Mr. Wamp had talked about Afghanistan, and he 
went into some lengthy discussion of that. Let me ask you about 
General Jim Jones' analysis of Afghanistan. I have great 
respect for him, his experience and judgment. In terms of his 
analysis, what would you agree with and what would you disagree 
in his conclusions on where we were and where we need to go in 
Afghanistan?
    Admiral Fallon. I would say that one of the things I have 
learned here in the past year is that activities are 
accelerating at a pace that is difficult to keep track of if 
you are not there every day watching it. Certainly in Iraq it 
has changed dramatically, and every visit I see more and more 
things going on. I believe that that is the case in 
Afghanistan.
    And there are a couple of key points. When General Jones 
and his team went over there and looked at this several months 
ago, they highlighted a deficiency in troops. That was one of 
their big points, not enough troops over here. I agree. The 
numbers are something we could debate. But, at the time, there 
was no plan to send any additional U.S. forces over there. 
About the same time he was making his assessment, I had come to 
the same conclusion and had asked for additional troops. So 
that number one concern of theirs is being addressed in a 
significant way by this deployment.
    Mr. Edwards. Did he have a specific recommendation in terms 
of the number of troops, increment of forces?
    Admiral Fallon. He mentioned to me there were two 
outstanding requests that were already on the books, one from 
the NATO Command to provide General McNeil with a couple of 
maneuver--I think a total of two brigades of troops.
    When you talk with, deal with NATO, it is not exactly the 
same as just dealing with the U.S., so he is also mindful of 
the fact that, frankly, they haven't been particularly 
effective. In many cases they are inhibited from performing the 
functions that, in my opinion, they ought to be doing. They 
have lots of boots on the ground, but they are not getting the 
job done, and primarily because they are constrained by a long 
list of ``caveats,'' as they are called, restrictions on their 
activities, that range from going out at night to going out 
without certain protections, and actually going out at all 
without asking the capital back in Europe before they get 
permission. This really hobbles General McNeil's ability to 
work.
    Nonetheless, we recognized last summer that putting a small 
maneuver unit--we put a battalion of U.S. troops in the 
southern area where we had not had U.S. troops before. Those 
folks did wonderful work. And it seems to me, after watching 
this go on, if we could put a maneuver unit down there, it 
would help out. So the Marine group with around 2,300 troops 
that are headed over there, they come complete with all the 
enablers. They have aircraft. They have tanks. They have 
trucks. They have all those things, the communications, the 
whole kit and caboodle, because they are designed to be very 
expeditionary. I think that is worth maybe double the regular 
NATO contingency because they are self-contained. That is going 
to be very helpful.
    The other outstanding requirement for my own chain of 
command, about 2,500 people to help train the Iraqi Security 
Forces, that has been an outstanding request for now at least a 
year, maybe a little over a year. We have been unable to fill 
that, trying to balance the competing demands, sending people 
to Iraq and not sending them back to Afghanistan. So we are 
going to meet about half of that requirement with the 
deployment of battalion brigades this summer.
    I think those two injections of capability is going to be 
significantly helpful for us, because as we start this in 
Afghanistan, the weather really drives the operations tempo as 
the snow melts over the next month or so, and Taliban and other 
bad actors begin to move. Our intention is to move in front of 
them to cut them off, be in front of any annual offensive. They 
keep talking about their spring offensive. Last year it really 
wasn't an offensive by them, it was us. Now that we have the 
additional manpower to work this, I think we are going to be 
ahead of the problem.
    So back to the basic question. Afghanistan is not as bad as 
I think some would have you believe. It is, however, in dire--
not dire, it is in need of real coordination, particularly in 
the development phase. Too many nations are over there doing 
little bits here and there, and to make it coherent so this 
country can move forward. And this development stuff can fill 
in behind troops and put security in place. So I think it is 
coming along.
    The other major thing I highlighted earlier is capability 
of the Afghan Army and Police, our number one challenge. That 
is where we are going to spend most of the efforts to fix it. 
We are learning lessons. We brought them on, thought they were 
trained, put them loose out there in the little towns, and a 
lot of them turned out to be ineffective for different reasons.
    So what we come up with now is to go out to the most 
problematic areas, pull the police out temporarily, put in a 
special well-trained national Afghan police force to hold the 
fort--they are actually doing a lot better than that--immersion 
for a couple of months; the other police, put more mentors--
and, frankly, it is U.S. people that are shouldering the burden 
of this--and put these folks back in. And we are getting really 
good reports. We started this about 6 months ago, and we are 
working our way around the country in the most problematic 
areas.
    So this combination of factors, I expect to make this much 
less of a concern. We will see as we go. I don't want to do too 
much talking ahead of the results here, but I am very confident 
we will take a turn for the better here.
    Mr. Edwards. Thank you, Admiral.
    Admiral, thank for your distinguished service to our 
country. You are a tribute to the men and women who serve with 
you and under your command. We are honored to be with you 
today. Thank you.
    [Clerk's note.--Questions for the record submitted by 
Chairman Edwards.]

    Question. The four major ``overwatch'' bases in the consolidation 
plan are described as ``contingency bases''. What distinguishes a 
``contingency'' base from an ``enduring'' base?
    Answer. Contingency bases are required to support an operation for 
a finite amount of time with access and support requirements tied to a 
specific operation. When the operation is complete, CENTCOM no longer 
requires access.
    Enduring bases include three categories of bases (Main Operating 
Bases, Forward Operating Sites, Cooperative Security locations). These 
locations provide support required to execute multiple military 
missions assigned to a Combatant Commander. Access to these locations 
and the establishment of steady state and surge capability at these 
locations provides the commander an ability to respond immediately and 
expand rapidly to anticipated and emergent requirements in theater.
    Question. What role would bases in the GCC countries play in an 
``overwatch'' posture in Iraq?
    Answer. (S)------.
    Question. The consolidation plan does not call for any of the four 
contingency operating bases to be located in the northernmost parts of 
Iraq where Kurds are predominant. However, Kurdish leaders have made 
public statements indicating that they would welcome enduring U.S. 
bases in their region. Is it still your intent not to locate enduring 
bases in this area?
    Answer. I'd like to make it clear that the United States does not 
seek permanent bases in Iraq. As the situation in Iraq develops, our 
strategy to posture forces and adjust basing structure will continue to 
be driven by operational requirements. Currently, those requirements 
revolve around how best to support U.S.-led counter insurgency 
operations. Over the next year, these requirements will transition to 
optimizing support to the Iraqi forces which increasingly lead these 
efforts.
    To date, the situation in the northernmost, mainly Kurdish areas of 
Iraq have not required the deployment or basing of large U.S. forces 
there. This is likely to be the case for the foreseeable future. As the 
security situation improves and the U.S.-Iraq relationship matures, it 
is of course possible that basing locations could be adjusted.
    Question. The fiscal year 2008 supplemental request includes $43 
million for an urban bypass road at Mosul. Since none of the final 
bases in the consolidation plan are at Mosul, why is this project 
needed?
    Answer. U.S. forces operate in and around Mosul, using Qarrayah 
West as the primary consolidation location while using various other 
bases in the region as required. We anticipate U.S. and coalition 
forces will continue operating in the vicinity of Mosul.
    The primary purpose, however, of the bypass is not to support sites 
in Mosul, but to support movement along our primary North-South main 
supply route. The project will allow convoy traffic to bypass the Mosul 
city center, where lED and small arms attacks are more prevalent. By 
providing an alternate route, the bypass will reduce that threat and 
reduce potentially contentious U.S. presence and friction within the 
city.
    Question. In a recent interview, General Petraeus stated that 
``There will be detainee releases on both the coalition and Iraqi side. 
They just passed an amnesty bill last week along with their 2008 budget 
and the provincial powers law. It will be a very active period.'' 
(Defense News, 2/25) Other information indicates that the detainee 
population will continue to grow. Assuming that the current security 
situation stays roughly constant, do you anticipate that the detainee 
population will increase or decline over the next year?
    Answer. Over the course of the remaining year, we anticipate the 
detainee population will slowly decrease. This reduction however, is 
contingent on the Government of Iraq along with MNF-I to stabilize and 
restore security to the country.
    Question. Do you plan ultimately to turn over coalition detainee 
facilities to the Government of Iraq?
    Answer. MNF-I detention facilities, located at U.S. Forward 
Operating Bases within Iraq were constructed to meet MNF-I detention 
requirements. Facilities will be individually evaluated for 
reutilization, real property transfer, or foreign excess personal 
property transfer in accordance with the appropriate policies and 
procedures as part of base closures or transfers.
    Question. One of the projects requested in the fiscal year 2008 
supplemental is $11.7 million for a Juvenile Theater Internment 
Facility Reintegration Center (TIFRIC). How do you define a juvenile 
for this purpose? How many juveniles are currently detained by the 
coalition? Are juvenile detainees currently segregated from adult 
detainees?
    Answer. Juveniles are defined as anyone 17 years and younger and 
are segregated from the adult population. As of 6 Mar 2008, there were 
582 juveniles in U.S. detention facilities.
    Question. In a written response last year to a question from the 
Committee regarding Bagram, you stated that ``CENTCOM sees a 
requirement for a permanent base in Central Asia to support [Operation 
Enduring Freedom] and the full spectrum of military operations beyond 
OEF.'' What are the specific national security interests that require a 
permanent base in Central Asia to support such operations beyond OEF?
    Answer. This Combatant Command, like others, is assigned specific 
military tasks. This includes, but is not limited to responding to 
situations where U.S. personnel must be evacuated (NEOs), humanitarian 
assistance and consequence management missions, and peacekeeping and 
peace enforcement missions. Additionally, we anticipate requiring 
access in the region so that we can combat violent extremist 
organizations that are focused on attacking U.S. interests in the 
region and globally. Sustaining access is a critical enabler for an 
immediate response and rapid expansion as required. Access to basing in 
Central Asia will also be used to support Theater Security Cooperation 
activities in the region to advance bilateral relationships and garner 
support for U.S. policy objectives.
    Question. Bagram is highly dependent on fuel supply lines 
traversing the Central Asian republics and the northwest sector of 
Pakistan. I understand that much of the fuel for Bagram is brought in 
by individual contract truck drivers. If you intend to establish Bagram 
as a ``permanent base in Central Asia'', are you studying options for 
mitigating the fuel supply problem over the long term (beyond 
increasing storage capacity at Bagram)?
    Answer. We have studied many options but they all route through 
either Pakistan or Central Asia. With no refinery or natural production 
of crude in Afghanistan we must rely on outside sources of supply.
    When studied geographically, there are only three cost effective 
alternatives to bring fuel into Afghanistan. One alternative is via 
Iran which is not viable given current diplomatic barriers and trade 
restrictions. The other alternatives are through Central Asia and 
through Pakistan.
    A commercial solution may exist to improve this area of operations 
but will require State and USAID intervention. ------.
    Question. The fiscal year 2008 supplemental request includes $30 
million to build a strategic ramp at Manas Air Base in Kyrgyzstan. The 
fiscal year 2009 budget request includes $6 million for a hot cargo 
pad. There have been tensions with the Government of Kyrgyzstan over 
recent incidents and demands from that government for an increase in 
U.S. payments for access to Manas. What is the importance of Manas to 
operations within the CENTCOM AOR? What are the terms of current 
arrangements with the Government of Kyrgyzstan regarding access to the 
base, including U.S. payments?
    Answer. (S)------.
    Question. In fiscal year 2007, Congress appropriated $370 million 
in emergency supplemental funds to pave roads in Afghanistan as a 
counter-IED strategy. The fiscal year 2009 request includes $70.5 
million for two more such projects. Have you seen any empirical 
evidence so far that this strategy is effective at reducing the 
frequency and lethality of IED attacks?
    Answer. The Funding for the roads did not come through until late 
fiscal 2007 and IED emplacement data collected in Afghanistan thus far 
does not differentiate between paved and unpaved roads.
    However, C-IED analysts conclude that paved roads serve as a 
deterrent for IED emplacement. Coalition vehicles travel with much 
greater ease and speed along paved roads thus, making them more 
difficult targets for insurgents. As such, paved roads reduce the 
effectiveness of IED attacks and are an important counter-IED Tactic, 
Technique, and Procedure (TTP). Moreover, road pavement programs 
provide needed infrastructure improvements and job opportunities for 
Afghanis, who otherwise would depend upon insurgents for financial 
support.
    Question. It was reported recently that the Turkish military set up 
at least 11 ``temporary bases'' in northern Iraq following its 
incursion into Iraqi territory. (Today's Zaman (Istanbul), 2/29) Has 
the Government of Turkey informed you of the locations of these bases, 
their populations, their assets, or their specific purpose?
    Answer. All Turkish temporary bases in northern Iraq were removed 
following the Turkish forces incursion in February 2008.
    Question. January 2008, France announced that it would establish a 
new military base with about 400 personnel in the United Arab Emirates, 
with an additional 150 French naval personnel stationed in Abu Dhabi. 
Did the French military coordinate with CENTCOM on the establishment of 
this base? Will the U.S. military have access to it? Does the French 
military have access to any U.S. bases in the Persian Gulf area?
    Answer. The French are in the early stages of establishing co-use 
of existing UAE locations to support a small air, ground and naval 
presence. No bases are being built for their use in UAE.
    Generally in the area, access and use are coordinated on a 
bilateral basis with the host nation. The French attache in UAE did 
provide information on their plan immediately after the announcement, 
but this was not coordinated with the U.S. ahead of time. The U.S. does 
not have a base in the UAE. We share existing UAE bases and have 
coordinated use of specific areas on UAE bases by use by air and naval 
components. The French do not have access to any U.S. bases in the Gulf 
and do not share any existing facilities with the U.S.

    [Clerk's note.--End of Questions for the Record submitted 
by Chairman Edwards.]
                                           Thursday, March 6, 2008.

              DEPARTMENT OF VETERANS AFFAIRS--MEDICAL CARE

                                WITNESS

MICHAEL J. KUSSMAN, UNDER SECRETARY FOR HEALTH

                       Statement of the Chairman

    Mr. Edwards. I call the subcommittee to order.
    Mr. Secretary, thank you for being back and for your 
service to VA and our military throughout your lifetime.
    Mr. Kearns, thank you, it is good to have you here, as 
well.
    This afternoon, the subcommittee will have our hearing on 
medical care in the Department of Veterans' Affairs.
    Our witness for this hearing, obviously, is Dr. Michael 
Kussman, the Undersecretary for Health.
    As Undersecretary for Health, Dr. Kussman directs a health 
care system which employs more than 198,000 health care 
professionals and support staff at more than 1,400 sites of 
care.
    I would also like to welcome back Mr. Paul Kearns, Chief 
Financial Officer.
    Is Mr. Baker here, also?
    Mr. Baker, good to see you, sir. Chief Business Officer of 
VHA.
    Congress provided more than $37 billion to the Veterans' 
Health Administration for fiscal year 2008. This appropriation 
was $2.6 billion more than the president's request, and this is 
impressive.
    It has resulted in an additional 1,335 physicians and 4,968 
new nurses and nursing assistants.
    Additionally, the total workforce for the medical services 
account was increased by more than 15,000 personnel, a result 
of Congress' budget increase.
    I was pleased to see that our total fiscal year 2008 
appropriation came to the new baseline for the medical services 
account. Miracles still happen in Washington and how that one 
got through OMB, I don't know, but I won't ask questions. I 
will salute our leadership in the VA and those at OMB that saw 
the importance and Congress' clear intent that $3.6 billion or 
$7 billion above the president's request for 2008 became the 
new baseline, and that helped us greatly.
    I might just report, for those that don't know, that at 
12:30 this morning, we voted on a budget resolution out of the 
Budget Committee in the House that would increase VA 
discretionary funding for fiscal year 2009 by $4.9 billion over 
the historic level we set in fiscal year 2008.
    That is actually about $3.2 billion above the president's 
request for fiscal year 2009. So we are off to another 
potentially historic year of standing up for those who have 
stood up for our country.
    I do have some concerns about some of the decreases within 
some of the VA accounts proposed for 2009, but I want to salute 
the administration for its significant increases in medical 
health care services.
    Particularly, I do have some questions about the proposed 
cuts in medical research and construction, and we will have a 
chance to discuss that.
    Before we hear from Dr. Kussman, I would like to recognize 
my colleague from Tennessee, Mr. Wamp, for any comments that he 
would care to make.

                Statement of the Ranking Minority Member

    Mr. Wamp. Just very briefly, so we can get on with it.
    I thank you for your service and I concur with the chairman 
on virtually everything he said. I am very encouraged by what 
is going on.
    But we do face many new challenges and I have got keen 
interest in continuing reforms in VA health care, as well as 
just the entire head trauma frontier that we face in the future 
and what that is going to do to our system of addressing these 
problems when these veterans come home.
    So thank you for your service. I look forward to a great 
afternoon.
    Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Wamp.
    Dr. Kussman doesn't need a long introduction before this 
subcommittee. But for those who don't know, he was confirmed as 
Undersecretary of Health for the VA Health Administration in 
May of 2007.
    We are particularly grateful for his 28 years of active 
duty service in the U.S. Army, culminating in his assignment as 
a commander of Europe Regional Medical Command.
    He also commanded the Martin Army Community Hospital at 
Fort Benning, Georgia.
    Dr. Kussman, welcome back. It is great to have you here.
    Your testimony will be submitted for the record.
    We would like to recognize you for any opening comments you 
would care to make.
    Mr. Kussman. Thank you, Mr. Chairman, for the warm welcome 
and it is nice to be back.
    Mr. Edwards. It is good to have you here.

             Statement of the Honorable Michael J. Kussman

    Mr. Kussman. Thank you.
    As you mentioned, sir, I would appreciate the full 
testimony being put into the record.
    I have a very short oral statement that I am prepared to 
read, and then we can go on to your questions.
    As mentioned, I have Paul Kearns, retired, Air Force--I 
won't hold that against him--Paul Kearns, and I want to make a 
comment.
    Paul was in San Francisco yesterday on official business 
and flew back last night. So if he falls asleep, we will give a 
kick. But I appreciate his dedication----
    Mr. Edwards. I am glad he is back.
    Mr. Kussman [continuing]. And his getting here this 
morning. His deputy was very frightened that he wouldn't be 
here and would have to be sitting at the table.
    Mr. Edwards. Well, if you fall asleep, we will blame us.
    Mr. Kussman. The President's 2009 request includes total 
budgetary resources of $41.2 billion for VA medical care, an 
increase of $2.3 billion over the 2008 level and more than 
twice the funding available in 2001.
    Our ongoing commitment to those who have faithfully served 
this country in uniform is clearly demonstrated through this 
request.
    Our total medical care request is comprised of funding for 
medical services $34.08 billion, medical facilities $4.66 
billion, and resources for medical care collections of $2.47 
billion.
    Our top legislative priority is implementing the 
recommendations of the President's Commission on Care for 
America's Returning Wounded Warriors, otherwise known as the 
Dole-Shalala commission.
    VA is working closely with officials from DOD on the 
recommendations of the Dole-Shalala commission that do not 
require legislation to help ensure veterans achieve a smooth 
transition from active military service to civilian life.
    For example, the VA and DOD signed an agreement in October 
of 2007, creating the federal recovery coordinating program to 
ensure medical services and benefits are provided to seriously 
wounded, injured and ill active duty service members and 
veterans.
    VA hired the first federal recovery coordinators in 
coordination with DOD. Three of these federal recovery 
coordinators are stationed at Walter Reed Army Medical Center, 
three at National Naval Medical Center, and two at Brooke Army 
Medical Center in San Antonio.
    They will coordinate services between VA and DOD and, if 
necessary, private sector facilities, while serving as the 
ultimate resource for families with questions or concerns about 
VA, DOD and other federal benefits.
    During 2009, we expect to treat about 5,770,000 patients. 
This total is nearly 90,000 or 1.6 percent above the 2008 
estimate. Our highest priority veterans, those in priorities 
one through six, will comprise 67 percent of the total patient 
population in 2009, but they will account for 84 percent of our 
health care costs.
    We expect to treat about 330,000 OEF/OIF veterans in 2009. 
This is an increase of 40,000 or 14 percent above the number of 
veterans from those two campaigns.
    We will provide timely, accessible and high quality medical 
care for those who bear the permanent physical scars of war, as 
well as compassionate care for veterans with less visible, but 
equally serious and debilitating mental health issues, 
including traumatic brain injury and post-traumatic stress 
disorder.
    Our treatment of those with mental health conditions will 
include veterans' family members, who play a critical role in 
the care and recovery of their loved ones.
    The department's resource request includes $3.9 billion in 
2009 to continue our effort to improve access to mental health 
services across the country. This is an increase of $319 
million, over 9 percent above the 2008 level.
    These funds will help ensure VA continues to deliver 
exceptional accessible mental health care. The department 
places particular emphasis on providing care to OIF and OEF 
veterans with PTSD.
    Our strategy for improving access includes increasing 
mental health care staff and expanding our telemedicine health 
program, which allows us to reach about 20,000 additional 
patients with mental health conditions each year.
    In April of 2006, there were over 250,000 unique patients 
waiting more than 30 days for the desired appointment date for 
health care services. As of January 1st of this year, we had 
reduced the waiting list to just over 69,000.
    Our budget request for 2009 provides the resources 
necessary for the department to virtually eliminate the waiting 
list by the end of the year, and, I can tell you, as of the end 
of February, we were down, I think, at 37,000. And so we hope 
that we will be able to eliminate the list by the end of the 
year.
    Improvements in access to health care will result, in part, 
from the opening of new community-based outpatient clinics, 
CBOCs, during the next 2 years, bringing the total number to 
846 by the end of 2009.
    The President's budget request for VA contains $252 million 
devoted to research projects focused specifically on veterans 
returning from service in Afghanistan and Iraq, including 
research in TBI and polytrauma, spinal cord injury, 
prosthetics, burn injuries, pain, and post-deployment mental 
health.
    I look forward to working with the members of this 
committee to continue the performance tradition of providing 
timely, accessible and high quality benefits and services to 
those who have helped defend and preserve liberty and freedom 
around the world.
    That completes my statement.
    [Prepared statement of the Honorable Michael J. Kussman 
follows:]

[GRAPHIC] [TIFF OMITTED] T2754B.079

[GRAPHIC] [TIFF OMITTED] T2754B.080

[GRAPHIC] [TIFF OMITTED] T2754B.081

[GRAPHIC] [TIFF OMITTED] T2754B.082

[GRAPHIC] [TIFF OMITTED] T2754B.083

[GRAPHIC] [TIFF OMITTED] T2754B.084

[GRAPHIC] [TIFF OMITTED] T2754B.085

[GRAPHIC] [TIFF OMITTED] T2754B.086

    Mr. Edwards. Thank you, Dr. Kussman.
    Mr. Wamp, do you want to begin the questioning this 
afternoon?

                       ELECTRONIC HEALTH RECORDS

    Mr. Wamp. Yes sir, Mr. Chairman.
    As we go through these notes, I am open for however you 
want to tag-team this to maximize efficiency of the afternoon. 
Whatever your plan is, I am on board, and thank you for your 
leadership.
    Dr. Kussman, VA health care is known around the world as 
having maybe the most sophisticated records management system 
in health care.
    But the inspector general came to us and said that you have 
got many challenges on financial management.
    So how can the same organization that is so sophisticated 
on medical records have problems with financial management and 
what is underway to cure that problem?
    Mr. Kussman. Sir, thank you for the question.
    And let me just say I appreciate your comment about the 
electronic health record and we believe it is, arguably, the 
best electronic health record in the world.
    We have a ways to go in our business management. As you may 
or may not know, I have four major things that I am interested 
in in my time as the under secretary.
    One is continuing to improve patient care. The second is 
leadership. One is improving new performance measures, and 
fourth is business processes.
    I believe we can provide the greatest care in the world, 
but if we don't provide this in an efficient and effective 
manner and cannot account for all the money that you so kindly 
and the taxpayers of this country give us, then we are in 
danger.
    So we have some material deficiencies and we are working 
hard. And I don't disagree with the IG on this. We are working 
hard to fix those.
    Let me just say, and, in fact, yesterday, we just had a 
briefing from DeLoitte, who is the contractor for the IG, and I 
was gratified to see that they said that we are getting better.
    But we still have a very long way to go. And one of our 
problems is that we are a socially-driven system, not an 
economically-driven system, and, for a long period of time, the 
issues that are important weren't important to people and to 
put in place the mechanisms that would allow us to answer the 
questions that the IG or Deloitte would ask us.
    And so when you are a socially-driven system and you are 
focused on health care delivery, some of these other things 
don't get done.
    And I think what we have seen is that you can't continue to 
run this business known as the Veterans' Health Administration 
without starting to put processes in place that are 
economically-driven standards to account for what you do.
    And so we are working very hard to start working with the 
IG and with DeLoitte and IT and resource managers to start to 
put in place--to hire enough people to do the process the right 
way.
    It is not that we don't know what to do. It is just that we 
haven't had, historically, the infrastructure to do this well. 
And we are committed to doing that.
    Mr. Wamp. Let me just say, as we leave that topic, that if 
we don't get our arms around it and the Congress continues to 
spend these record amounts of money on these very important 
needs, we do a disservice to the veterans of the future, 
because there will be a real backlash with the kind of 
reporting that you have seen on these organizations that claim 
to be working in veterans' best interest, that are serving 
their own self-interest, and what a tragedy that is.
    And we don't want the VA to be seen as an inefficient 
organization. And I don't mean to lecture. I just know this is 
a real problem as we ramp up the funding, because it will come 
against all of us that we are not efficient enough to handle 
increase in funding.
    So I just want you to make that the top priority as you go 
forward.

                   COMMUNITY-BASED OUTPATIENT CLINICS

    On CBOCs, I have got a big one in my backyard, and it is a 
good one and it has improved dramatically in the last decade. 
And 846 is a better number and I do agree with your testimony 
that they meet needs in a very efficient and effective way.
    I also think that we shouldn't be caught in the you have to 
get your health care in a VA box around the country, because 
that has politically kept certain facilities open longer than 
they probably should have been open when there was a more 
efficient way to deliver that health care, and we have got to 
get over that.
    And CARES, I thought, was going to bring about more 
sweeping reforms than it did. And I want to kind of ask you, as 
we look at CBOCs and the need to fund them, are we considering 
further reforms?
    For instance, where we have--all of us know VA health care 
from our district first and then maybe whatever we have learned 
outside of our district.
    But in my district, people have to go from the CBOC service 
area 2 hours for inpatient care in a hospital, and it is 
through the mountains and there are wrecks and it is dangerous.
    And a lot of our veterans like to have a third option 
besides the CBOC or driving 2 hours to get inpatient care, and 
that is to have the ability, with a Medicare reimbursed voucher 
type approach, to go to the local public hospital and receive 
their care so their relatives can come see them while they are 
in the hospital.
    And how much of that are we considering or is that down the 
road or are there just too many reasons why it can't be done? 
Because my veterans would like to have all three options--go to 
the CBOC, if that will suffice, go to Murfreesboro and get the 
health care, if that is what they want, but, frankly, 
Murfreesboro stays full.
    Yet, there are local providers that would take that 
Medicare reimbursement voucher if that veteran chose to go 
locally, so they could stay close to home and get that 
inpatient care.
    Mr. Kussman. A very complex question and I will do my best 
to answer it as quickly as possible.
    I think that we are always looking at options on the 
continuum of care and, as you know, we spend--Paul, correct 
me--close to $2 billion on fee-based care.
    So we are already buying a significant amount of care 
around the country.
    One of the things that we are very proud of, as you know, 
sir, is the quality of care and the electronic health record 
and all those things together that make us if not the best, 
clearly near the top of the best of health care in this 
country, perhaps the world.
    And one of the challenges we have is fragmented care, where 
people will, even now, use their Medicare benefit and then use 
the VA and then they may use TRICARE for things, and that care 
gets fragmented and there is no way to coordinate that care.
    And so when that happens, inadvertently, we can actually do 
harm to people, because one of the values of our integrated 
system, and keeping people in the system, it doesn't make any 
difference where they go if you can pull up their record and 
find out what is going on, know what medication they are on. 
You saw that in Katrina and other instances.
    So we will continue to emphasize people in our system. On 
the other hand, we want to be sure that we aren't 
inappropriately hurting people or creating situations that are 
inappropriate.
    And not only are we looking at continuing to expand the 
CBOCs and make them larger and expanding the capabilities, more 
and more care is done in this country in the outpatient 
setting. You really don't need a hospital for something like 90 
to 95 percent of why people go to a hospital.
    So we are looking at that to provide more services closer 
to home. We are even looking at what we call outreach clinics, 
smaller clinics that are open in rural areas, maybe not every 
day, but a couple days a week or a certain number of days a 
month. So there are more and more access points.
    So I think we are looking at the continuum of care to 
provide more and more services within our system, but, where 
appropriate, we don't hesitate to buy it.
    But if you do that across the board, I worry about the 
quality of what we do will start to degenerate, because one of 
the big problems in the civilian community and other health 
care systems is there is no way for them to talk to each other 
and people get fragmented care, and I certainly don't want to 
contribute to that.
    Mr. Wamp. I will yield back.
    I would just say, on my way out, we have an MG center now 
as part of our CBOC, which is exactly what you are talking 
about, more and more services.
    And I agree with you in concept, but I also believe that as 
we have the Iraq-Afghanistan veterans coming back and we have 
these long-term issues, like head trauma and mental illness and 
everything else now, we are going to have to consider reforms 
and not be quite so quick to defend the status quo or defend 
why things can't be done and look at what the alternatives are, 
because the same efficiencies you are talking about, by having 
a CBOC approach, there are other efficiencies that we might 
want to follow as well.
    So I would encourage you to stay open-minded and not 
closed-minded that you have to get your care in a VA box.
    And I yield back for now.
    Mr. Edwards. Thank you, Mr. Wamp.
    Mr. Farr?
    Mr. Farr. Thank you, Mr. Chairman.

                   TRANSFER OF RECORDS FROM DOD TO VA

    I want to first of all thank you for your leadership on the 
Budget Committee to get that budget allocation for veterans. 
You ought to be thanked by the whole nation for that.
    I am very interested in following up on--to use the term 
from another committee--the interoperability of people being in 
active duty military and then, particularly with the injury 
cases, transferring out to Department of Veterans Affairs.
    I don't need any numbers right now, but I wondered if you 
could provide for the committee how many of those new 
electronic files for these new vets are being initiated in DOD 
since they can no longer serve in the military because of their 
injury and then being turned over to you.
    How many new electronic files are just the historical 
veteran, the old vet, who had records in the VA and you 
transferred them to electronic records?
    What I hear is that the DOD has not yet got into the 
system. They are not doing their work and, therefore, this 
transition from them to you has been difficult.
    Perhaps you could get some numbers for us and tell us what 
we have to do to get back to DOD. If they are going to give you 
the patients, then they ought to give you the medical records 
and it ought to be on their dime to have to create that medical 
record.
    The interoperability issue is one that I would like to talk 
about, because that is the only way we are going to get local, 
state and federal government to work together.
    The individual living out there lives in a community and 
doesn't know which government is which. They have just got a 
problem.
    And we traditionally have been saying we don't fix it here, 
you have got to go someplace else. I think what we are trying 
to do is get one stop to fix many problems. In my district, we 
have all the military land from the closure of Fort Ord, and 
the DOD has a lot of active duty military families.
    DOD doesn't have enough outpatient services for them in 
their clinic. So what we are trying to do locally is figure out 
how we could combine both DOD active duty military and veterans 
in building a clinic, an outpatient clinic.
    And I think you are aware this is a major construction 
project in the out years at the former Fort Ord, which would 
serve as a CBOC for the region's underserved veterans.
    I want to encourage you to make sure that there is adequate 
funding in the fiscal year 2010 budget to get this joint VA-DOD 
project moving.
    Mr. Kussman. Sir, I am aware----
    Mr. Edwards. Dr. Kussman, before you answer. Rather than 
have you have to give a short answer, if we could recess just 
for a moment, go vote.
    We have got a motion to recommit after this, if you don't 
mind, if we could just go vote, come right back and have just a 
little bit of time. That way, you can give the full answer.
    [Recess.]
    Mr. Edwards. Let's go back. I am going to defer your answer 
to him and let me ask a question or two, if I could, and then I 
will stop when he gets here.
    The 2009 administration budget request significantly 
reduces medical construction, it reduces medical research, all 
relative to fiscal year 2008, and then a small reduction in the 
homeless program.
    Is it fair for me to conclude that it wasn't as if the VA 
were saying there aren't needs in these three areas, but I 
assume the administration and OMB had to set priorities and it 
chose to put the medical services account as a top priority?
    Mr. Kussman. That is what takes place in all the budgetary 
planning.
    What you articulated so well already is that there may be 
some decrease from 2008 to some of the line items in 2009, but 
they are still significantly greater than what the 2008 
original budget was or 2007 budget.
    So we are moving in the right direction and there is still 
a marked commitment to all those programs that you listed.
    Mr. Edwards. While we are waiting for Sam to come back, let 
me just get to what Mr. Wamp said and what you and I have 
talked about privately, and I would say for the record, is I 
hope every person within the VA health care system understands 
that this is a golden historic opportunity to raise the bar so 
much higher in terms of our baseline for VA health care 
funding.
    And I hope everyone who has authority over a single dime of 
spending understands that it only took one bridge to nowhere to 
taint the entire process.
    And so it is just absolutely vital and I can't emphasize it 
enough, it is vital that not one dime of this be spent on a 
$20,000 mahogany desk or--and I have been out to the hospitals. 
It is thrilling to see the changes that have been done with 
even some of the minor construction, the nonrecurring 
maintenance money.
    And I have not heard one example yet and that is great news 
and I compliment you and your people for that, but, please, I 
hope that filters down to every level.
    If there is any hospital director that had real patient 
care needs, but they quadrupled the square footage in their 
director's office and spent a massive amount of money on fancy 
furniture, then they will have hurt millions of veterans.
    And I appreciate Mr. Wamp emphasizing that, and I know you 
understand that better than we do, given your service in the 
Army medical program, as well----
    Mr. Kussman. Well, I am grateful for that--as you know, and 
we are working hard at it. There are some admin and facility 
things that do need to be repaired, but not to make 
administrators better and it is really all related to how do we 
take care of the most deserving patients in the world, people 
who have been hurt in defense of their country, and that is 
what we are all about. That is all we are about.
    Mr. Edwards. And do you think that sense of responsibility 
has filtered down to the grassroots level, that everybody knows 
how critical this is?
    Mr. Kussman. If they do not, they are tone deaf or they 
can't hear. Mr. Feeley, who is not here, who is the deputy 
Under Secretary for Operations and Management, doesn't take too 
well to people who don't understand our mission.
    So we are pushing real hard and, as you know, the new 
secretary is just as aggressive as we all are. So I think that 
anybody who doesn't understand that probably needs to find a 
new job. We don't hesitate to ask them to do so.
    Mr. Edwards. That is good to hear.
    Now that you have answered Mr. Farr's question, we are 
going to----
    Mr. Farr. Wait a minute, wait a minute.
    Mr. Kussman. I am well aware of the issues on the--and the 
partnering and things that are going on there with DOD.
    I know that both clinics, our clinic and the DOD clinic, 
are kind of maxing out on their capability. We are sharing as 
much as we can there.
    As you know, there was a project that got put through the 
joint incentive funds, the JIF fund.
    Mr. Farr. The VA funded the feasibility study that is going 
on right now.
    Mr. Kussman. No, I was just going to say. But that money 
came out of the VHA money. Who came out of Bob Weibe, who is 
the VISN director, $250,000 that was funded to look at that 
feasibility study and come back with a recommendation that we 
can then partner with DOD to move forward on that, because I 
think it is a good idea.
    Mr. Farr. You think it is a good idea.
    All these questions essentially--Mr. Wamp's issue about 
where we have these clinics and hospitals geographically 
located in one place and we have got people into this system 
that is a silo system, essentially.
    You are in the VA and you go to the clinics and, as you 
say, probably you don't need to have as many people going to 
the hospitals, and we send the serious specialty cases to a 
hospital.
    On the other hand, there are people who are a long way 
away, and how can we also utilize existing providers that are 
there in the community, and I think that is kind of a new area 
to open up.
    Last year, our bill enacted a law which required the VA to 
add a marriage and family therapist to its list of service 
providers, but I understand, to date, no action has been taken.
    And the question is really how and when will the VA add the 
marriage and family therapist to the list of service providers.
    Mr. Kussman. That has been looked at critically by our 
people and there are some issues of certification and quality 
that have to be looked at when we--at our vet centers that are 
run by--have people who are trained in family counseling.
    We have people in our facilities that are in social work, 
psychology, are trained in that same discipline. And so from a 
clinical perspective, I think it has been determined that we 
didn't think we needed to do that.
    Mr. Farr. Well, Congress has asked you to do that and the 
reason why, is that these are trauma issues, psychological 
issues, and a lot of vets, as you know, don't want to go to a 
VA facility. They don't want to go into a quasi-military 
situation.
    They want to have access to therapists that are in their 
local community who are licensed by their state as professional 
doctors, the same way you would send a vet to the hospital. I 
don't think you check the credentials of the doctor that is 
seeing them, the local doctor.
    It sounds like there is more of a scope of practice issue, 
a fight between those that are in the VA clinics and those that 
are outside providers.
    Mr. Kussman. Well, I would differ with you in the sense of 
if it was determined to be clinically needed and we couldn't 
provide the services for people, then we would consider----
    Mr. Farr. Well, that was determined and that is why 
Congress ordered it. It was required in that law to add 
marriage and family therapists to the list of service 
providers, and you are saying that you decided they don't need 
to do that.
    Mr. Kussman. No, I certainly wouldn't be in violation of 
the law. And so let me go back and look and see specifically 
what was said.
    Mr. Farr. And would you find out how and when and if? Thank 
you.
    Another technology out there is something that has come to 
me in my district, it is called HeartMath. It is a behavioral 
therapy, with a sister technology that helps reduce stress and 
anxiety, and, as I understand it, DOD is using it to help 
military personnel returning from combat who may have mental 
health issues.
    There are 18 VA clinics around the country and 10 DOD 
facilities where the doctors are using HeartMath to assist the 
servicemen and veterans with PTSD and other mental health 
issues.
    However, since HeartMath is not an official treatment 
technology under the VA formulary, these doctors or patients 
themselves are paying for the treatment out of pocket.
    And I wonder if, one, you are familiar with this 
technology, and, two, as I understand, Bob Ireland is familiar 
with this and I wondered if you would meet with him at DOD and 
ask him about the DOD's experiences with HeartMath.
    Essentially, what I am trying to do is see if HeartMath can 
be approved treatment.
    Mr. Kussman. I would be happy to do that.

                        VISION-IMPAIRED VETERANS

    Mr. Farr. Thank you.
    And then the last one on this round is blind veterans. VA 
operates training and rehab centers to help blind or vision-
impaired veterans adjust to the loss of vision.
    Palo Alto has a polytrauma center--I think you have several 
centers in the United States.
    I am wondering, how many blind, vision training and rehab 
centers does VA operate?
    Mr. Kussman. I don't have the actual number. But we have 
four and going to be five polytrauma level one rehabilitation 
centers. These are state-of-the-art complexes for the 
polytrauma.
    Mr. Farr. The National Federation of the Blind has 
comprehensive training facilities, and their complaint was that 
yours is a very short course. Theirs is more of a comprehensive 
course.
    Mr. Kussman. I can't comment on theirs. We have been 
recognized as really a leading organization in the country 
dealing with blind rehabilitation. We have been doing that for 
years.
    We have several centers around the country that do the very 
complex care and then we have what we call HIST and GLOS, the 
different levels of blind----
    And we developed a new program called coordination and 
continuation of care that the blind advocacy groups have asked 
us to do and are very appreciative and complimentary of the 
sophisticated care that we----
    Mr. Farr. Do you know if you contract with any?
    Mr. Kussman. I don't know this particular company, but even 
in our systems, we have all that available in multiple sites 
around the country. I can't give you the exact number. I could 
try to find out that for you.
    Mr. Farr. Maybe we could just look into this training for 
the blind, because the National Federation of the Blind, who is 
a very highly respected organization, has some concerns that 
they think they can do, in some cases, a better job than the 
VA. They would like to provide those services to you, or you 
may already be contracted with them. I am not sure.
    Mr. Kussman. I am not sure. I will find out.
    Mr. Farr. Thank you.
    Mr. Edwards. Zach.
    Mr. Wamp. I am going to go back to the issue, after talking 
with Mr. Farr during the vote about other options, because I 
want to be a little more graphic in the dilemma that we face, 
because in our service area, we have got 16,379 vets that use 
the CBOC in Chattanooga, from our whole 18-county service area.
    And a little contrary to something you said a minute ago, 
if they have a gall bladder that needs to be removed, many 
times, they have to wait in order to get in and out of 
Murfreesboro, 2 hours away, by van, driven by volunteer 
veteran, many of whom are pretty old, and equipment that is not 
exactly the most sophisticated transportation available to 
veterans.
    This is how it works. This is the real life.
    A few years ago, snowy, rainy, sleety afternoon, a van 
wrecked, veterans died. To me, it is like why is that necessary 
to get health care when--and I will just call it by name--
Erlanger, the $500 million a year local safety net public 
hospital, not only, in 1999, it went into effect in 2000-2001, 
I set up a 2-year demonstration, like Dave Weldon did in 
Florida, like Dave Hobson now wants in Ohio, where, under VISN-
9, a little carve-out, small amount, for the CBOC doctors to 
refer veterans that want to go and have their gall bladder 
removed at Erlanger, a public hospital, instead of driving 2 
hours to have that alternative.
    And over 2 years, a grand total of 58 patients were 
referred under this pilot program. We had a field of play of x 
dollars. They didn't even use a small portion of it, because 
there was just a complete reticence, reluctance to refer 
anybody to a local provider, even though the veterans wanted to 
do that. They wanted to go there.
    They are the ones that came to me on this. I didn't dream 
it up. They said, ``We want to be able to go and get this.''
    So these are real live situations. This is a safety issue, 
it is a time issue, and it is not as simple as we have quality 
care. If you have to wait, then access is an issue, not just 
the quality.
    I am not going to argue with you about the quality, because 
I don't get the quality complaints that I got 15 years ago. I 
don't get those. It is much better. I believe that. And I 
believe there are a lot of--but I don't want to beat the drum 
too loud--but I can tell you that there are many more members 
like Hobson out in Ohio who says, ``We have degraded care from 
an access standpoint from our region,'' because there is the 
inpatient care that the outpatient clinics can't meet.
    And then what are the veterans' options? I just feel like 
these veterans', our greatest citizens, need as many options as 
possible, not fewer options. And I don't want any bureaucracy 
to defend their existence by saying, ``No, that is only a VA 
responsibility,'' when the VA, in this world, can provide some 
of this.
    Matter of fact, if we had telemedicine and now things that 
should not require transporting certain patients 2 hours to go 
to get their health care. It takes them out of their family, 
out of their community, and, I have got to tell you, through 
the mountains of east Tennessee, it is not safe.
    And I know we are an area of degradation. There were the 
top five areas in the country, we were one of them, and I just 
happened to end up as ranking member on the subcommittee, so 
you get to hear about it.
    But I hope that we can fix these problems.
    I also have a pain medicine doctor who contracts with you 
who has prescribed pain medications to veterans who then see 
another doctor in the VA system who says to them that under the 
VA Directive 2002-074-VHA, they do not have to take the 
prescription prescribed by this other doctor, because he is a 
private provider, which is probably one of your fee-based 
statements you said a minute ago.
    I know you all contract out services to local providers. 
They come in to the VA center. They see the patients at the 
outpatient clinic. They end up happening to be in the hospital 
in Murfreesboro and another VA doctor says, ``No, you are not 
going to take these.'' Yet, they have seen this local provider.
    And I don't want to give his name out, but I can tell you 
he has complained now over and over that there is not a 
consistent standard for pain medication in the VA system.
    I would just make you aware of that. And then a whole other 
frontier of questions on head trauma, but I will get to those 
in the next round, if you want to just keep going.

                              HEAD TRAUMA

    Mr. Edwards. Do you want to go ahead on head trauma?
    Mr. Wamp. Well, I just feel like--and I will give an 
example. In Erlanger, the president of the United States came 
there last year, because they had fished out clots in the brain 
with this new procedure, going into the brain, and it avoided 
stroke and then they fished out the largest clots and the most 
clots.
    It is the place in the country to go. Now, unless the VA 
duplicates that ability, this is going to be a great need from 
IED explosions and head trauma.
    You have a lot of stroke now caused in the brain from head 
trauma and it is an aftereffect. I am not talking about when 
they get hit by an IED, but people that are around head 
trauma--I am not a doctor, I am just telling you what I 
learned.
    I am concerned about this. Will head trauma lead to a lot 
of these other procedures and, if so, this is--Erlanger is the 
place, in not our region, but in the country. The president of 
the United States went there to see it.
    If they get to you in a certain number of hours and they 
fish out the clots in your brain, you recover from a stroke in 
2 weeks instead of 2 years, and the rehab time and everything 
else, and then just the overall prognosis.
    Many of our agencies, we talked about this at our earlier 
hearing today, they don't look down the road--then the next 
thing you know, they are not even set up to deal with it.
    What is coming down the road in VA health care with head 
trauma and IEDs and the asymmetrical wars that we are fighting 
now, given the needs of these veterans, because Walter Reed, 
you know, that was a painful experience, but what about the VA 
system in the future to keep up with the medical needs of these 
veterans coming home after experiencing the kind of head trauma 
that they are exposed to?
    Mr. Kussman. Complex questions and there are several 
aspects of it, sir.
    One is the standard treatment for strokes, regardless of 
where it comes from, is now known as a brain attack. They are 
trying to get people to be sensitive around the country, it is 
nothing new to VA itself, this is standard of care, to be able 
to assure that people, the physicians, the health care 
providers and the community realize that a brain attack is 
equally as critical as a heart attack.
    And the underlying pathophysiology is the same, is it a 
clot or an embolism--someplace. And so the whole evolution of 
the care for strokes is changing to try to get people within 20 
minutes or a half-hour, just like we do with heart attack, that 
they can provide this and a lot of that care can be done in--I 
don't know enough about the Erlanger clinic to know 
specifically, but around the country, everybody is moving 
toward that paradigm.
    Now, specifically related to OIF/OEF people and veterans, I 
have heard that term bandied about about strokes related to 
traumatic brain injury. I am not aware of any literature that 
actually says that.
    Now, I am not denying it. I just don't know if there is any 
evidence that shows that.
    But if it were going to happen, it would happen more in the 
severe traumatic brain injury. And so far, in the whole war, 
and I am not minimizing this at all, there are under 500 people 
who have suffered moderate to severe traumatic brain injury.
    They have all come through our system. A couple have gone 
out into the civilian--they have chosen to use the civilian 
rehabilitation program.
    The big concern, I think that what you have been talking 
about, even before and now, is the mild traumatic brain injury. 
And we were concerned about that, too.
    I mean, the civilian literature or the medical literature 
on mild traumatic injury is extremely anemic, I would call it. 
It is not very robust in the literature. And most of the 
literature has been done in car accidents and the football 
field--and it appears from the literature that most people who 
have mild/concussion get better on their own. Now, it may be a 
little bit--mild concussions, that is the Troy Aikman, the 
football player, the quarterback for the Dallas Cowboys, 
retired early because he had had eight concussions and the best 
clinical advice was, ``Hey, Buddy, you know, enough is enough. 
I don't know what will happen with the ninth and the tenth.''
    There was a very recent study that came out, it was a lead 
article in the ``New England Journal of Medicine,'' 30 January 
of this year, and we can certainly get it to you. I am not 
suggesting you have to read through all the medical stuff.
    But the important thing was the conclusions. This was done 
by Chuck Hoge, who works at the Walter Reed Institute of 
Research, specifically looking at the sequelli of mild 
traumatic brain injury, the aftermath of mild.
    And what he was saying is something that we have all been 
semi concerned about, is in the context of when you call 
something traumatic brain injury, there is a connotation of 
this that is pretty scary.
    And in the medical literature, mild traumatic brain injury 
is nothing--I won't say nothing more, I am not trying to 
minimize it. It is really a concussion.
    And he says we ought to stop talking about mild TBI, but 
talk about concussions, because that has a different 
ramification in everybody's mind, because many people have 
suffered concussions, including myself.
    Maybe I am not what I could have been, but the fact is that 
most concussions, people get better right away or over a period 
of days.
    What his study showed is that the sequelli from this 
concussion/traumatic brain injury, he maintains, has nothing to 
do with the head bump.
    It has to do with how the individual responds to the 
environment under which that head bump took place. In other 
words, if the person has PTSD afterwards or is depressed or 
can't sleep and has--it is related to the fact that he or she 
was in this blast or IED thing and they saw their friends, some 
of them killed or significantly maimed in this, but not due to 
the head trauma itself.
    And his conclusion is that under these concussions, at 
least one or two of them, there is no significant long-term 
sequelli from that.
    Now, time will tell about this and we are trying to put 
registries together so we can follow people, but if that turns 
out to be true, which is consistent with the civilian 
literature on the similar types of injury, then, hopefully, I 
keep my fingers crossed, we are not going to have a major, 
major problem of long-term neurological problems related to 
this mild TBI/concussion.
    I am not trying to minimize it. It is just this new finding 
in the literature.
    Mr. Wamp. Mr. Chairman, if I could just close by telling 
you a quick story.
    One of our former colleagues and one of my best friends in 
the world, his name is Steve Largent, and he was an NFL Hall of 
Fame football player. He had six of those concussions in the 
NFL.
    In absolutely perfect health, 3.5 years ago, he had a 
stroke. They told him the same thing you just said. And then 
when I was in Chattanooga with the foremost experts on this 
particular procedure at Erlanger Hospital, they said that is 
not right.
    Head trauma causes clots in the brain. So if there is a 
warning flag that goes up for you to say look down the road and 
be careful, I would say the data may not be accurate and you 
may see other things, because there is no other explanation in 
Steve Largent's case, none.
    It doesn't meet any of the other categories, except the 
trauma in the head. And the first thing Coach Osborne said when 
that happened to Steve Largent was six concussions in the NFL.
    So I just think these are the kind of problems that we need 
to all be sensitive to and the data may change and I understand 
studies are done and you are hanging your hat on the latest 
that you have, but I am telling you, people that fish these 
things out, they see a lot of this and they believe that a lot 
of it is caused by head trauma.
    Mr. Edwards. Would you like to--could you hold any response 
to that? Are you comfortable, each of you, if we go vote, come 
right back, miss the debate on the motion to recommit--We will 
stand in recess for a few moments.
    [Recess.]
    Mr. Edwards. We will call the committee back to order.
    Zach, did you want to followup the direct question to Dr. 
Kussman----
    Mr. Kussman. Well, I don't have--I mean, what I was trying 
to allude to is I don't dispute what you are saying, because I 
think that time will tell and that the important thing for us 
is to not make mistakes like we did in the past and make sure 
that we do epidemiologic studies and have good registries so we 
can follow.
    And if it turns out, 5 or 10 years now, suddenly, more 
strokes are happening, we certainly would want to know that and 
be prepared to deal with it.
    Mr. Edwards. Thank you.

                        PRIORITY EIGHT VETERANS

    Dr. Kussman, let me ask you about priority eight veterans. 
It has been since 2003 that we have said, no, that we didn't 
have the capacity.
    My assumption would be if, overnight, we opened the doors 
of our VA hospitals to all the priority eight veterans, you 
could end up having such a dramatic increase in demand that you 
end up compromising quality, increasing waiting lines for 
doctors' appointments for millions of veterans, including those 
presently using the system.
    But short of having all or nothing, does the VA have any 
data that would suggest that if you raise the income level 
$5,000 or $3,000 or $10,000, what the increased demand would be 
for VA care?
    I know under the present scenario, in some parts of the 
country, a single veteran, say, making under $30,000 would be 
considered too wealthy to get VA care if he or she is not 
service-connected.
    And we all know, in this day and age, that is not very 
wealthy. I know in higher income areas and higher expense 
areas, that that threshold is higher and whether they are 
married or single, too.
    But any data that would allow our committee to take a look 
at that and see if there is even a demonstration project 
approach or if you just incrementally raise that so we could 
begin to, not overnight, but over time, maybe open the doors to 
middle income veterans without opening the floodgates?
    Any thoughts on that?
    Mr. Kussman. You are exactly right, Mr. Chairman, that we 
would predict that if we opened it the way we were before 
January 2003, my recollection, and somebody can correct me, but 
I think we were projecting something like 750,000 new uniques 
and somewhere around 1.4 million, 1.5 million enrollees.
    But as you have articulated, that was overwhelming, the 
system in a bolus. And it is not that we wouldn't want to take 
care of these people. The problem would be there is no 
infrastructure that could absorb it.
    Now, one other thing we are looking at, with all the 
largess that we have gotten last year and hopefully this year, 
is to more efficiently and better take care of the people we 
are taking care of.
    And as you know, we are still growing, not as rapidly as we 
were before, because the net increase is about 1.6 percent, but 
it is actually more new people coming in and it is because of 
the vets of World War II, the Korean veterans, and, much to my 
chagrin, my age group of people from Vietnam are starting to 
die. And the number of deaths is somewhere probably about 1.5 
thousand a day all together, the majority being World War II 
veterans.
    So if they were all to come in, we couldn't absorb them. 
And so we would either have to fee-base it or find some other 
way to take care of them, or let the waiting times and all 
those other things go back, which was what, as you recall, 
drove Mr. Principi into making that decision in January 2003.
    And it was a decision that Congress said that the secretary 
is supposed to do every year and decide what groups of people 
can--so I don't think we have any specific numbers for you, but 
it is something we certainly could look at or consider what 
would happen and some kind of changes, but we haven't----
    Mr. Edwards. But you would agree that immediately opening 
it up to all priority eights would swamp the----
    Mr. Kussman. It is not a matter of not wanting to do it. It 
is just that there is no way to take that number of patients.

                               INNOVATION

    Mr. Edwards. One other line of questioning. We have tried 
to resist tremendous calls for earmarking VA bills. I think I 
like not doing that.
    But one of the things that happens is we all have different 
people coming in, presenting ideas that they think are 
innovative ideas that could save the VA money and provide 
better care to veterans.
    I will give you one case, and I do not have the facts. I 
couldn't tell you whether this particular company's product is 
better than others or makes sense or not.
    But a Member of Congress brings a group in and they claim 
they have a system that would send out a message to either 
somebody's cell phone or their cell phone in their home and 
their pager, and you must respond back, one, on when you have a 
VA doctor's appointment, so you don't miss your doctor's 
appointment, and, two, when you need to take critical 
medication.
    In this particular company's case, I think there are a 
couple of major Fortune 500 companies that have used this 
system and claim that it is a cost savings.
    My question isn't so much about that particular product, I 
just use that as an example. But do you have a corpus of money 
where you can try innovative demonstration projects that might 
benefit the entire VA health care system if they worked out, 
but it would be otherwise an expense to a VISN or to an 
individual hospital?
    For example, if I am director of the VA hospital in Houston 
and somebody approaches me with this idea, I might think it is 
a great idea, but with budgets always being stretched, I don't 
want to take money out of my operating expense of the Houston 
VA DeBakey Center in order to do a demonstration project that 
might save the VA millions of dollars and save a lot of 
veterans' lives and improve the quality of their care.
    Tell me how the VA system is evaluating innovative ideas 
from the private sector and is there a system of funding when 
you do come across some ideas that really are worthwhile.
    Mr. Kussman. Thanks for the question. It is an interesting 
one. We get buffeted--that is maybe not a good word. We get 
challenged on this regularly. People come to us for a whole 
litany of things, some good, some not so good, and some 
terrible.
    Frequently, they come that the product needs to be tested 
and it is not ready for prime time and they would like the 
government/VA to provide them dollars to test their product.
    We don't do that. We don't support people's testing a 
product. What we will do is, if they have a product that has 
been tested and they want to do some research on whether that 
product is effective or not, they can apply to our research 
program, through DeBakey or the Temple VA or Waco VA or whoever 
it is----
    Mr. Edwards. What would be? Would you go to the research 
program or would you go to an individual hospital?
    Mr. Kussman. Well, there are two ways to go. We want to 
determine if the innovation is effective, and we don't know if 
it is effective, then that would be a research project, I 
think, and we will entertain requests for research if they can 
find a VA--a principal investigator at a place that would 
support it, and we would fund it and they would have to compete 
for other research dollars out of pot.
    This can be done in conjunction with industry, as well as 
directly with our--as you know, our total research budget is 
about $1.8 billion and it is a mix of appropriated dollars and 
DOD, NIH, and industry.
    If it is a proven product and they come to me, and 
frequently they come to the secretary or myself or somebody, 
and they--I am always willing to talk with them, because I 
never know when this is going to be a great--And afterwards, I 
usually will refer it to the subject matter expert. If it is a 
neurologic thing or what you are describing, IT and other 
things, to see if this could work.
    If there is good interest in that, because, as you know, 
this has been done and Fortune 500 companies and things are 
using it and it is very effective and we would like to try it, 
then there is money available either through the VISNs or 
through the central office for pilot studies.
    I have a contingency fund that we can use for different 
things, if it is appropriate, or it could be, as I said, into 
research.
    And so there are multiple ways that we can do it. If they 
want us to buy the product, which is a slightly different 
thing, then they frequently will come to me asking for a 
corporate purchase, and I don't usually, at the central level, 
drive how the care should be done in one way or the other.
    And if it is a good modality, then they really need to go 
to the VISNs or facilities, who would then want to add that to 
their armamentarium.
    Mr. Edwards. If they went to the VISN, would that have to 
come out of the VISN's operating and maintenance money?
    Mr. Kussman. See, that is different than putting the 
product on the list of things that we can use versus they want 
us to test the product for them or do a pilot study. Then it 
would be our money testing an individual's product.
    So there are different ways to do it, but we are always 
willing to consider, on a case-by-case basis, something that 
would benefit the veterans.
    Mr. Edwards. And if you would have your staff look at this 
system, all I want to be sure of, because I don't have the 
expertise to evaluate, when somebody comes into my office 
today, whether it is a worthwhile idea or not.
    I just want to be sure the system isn't so biased against 
innovative ideas because of money coming out of a particular 
hospital's operating budget, and if you have decided that we 
needed an innovation fund so it doesn't come out of the VISN 
budget or doesn't come out of the local hospital budget.
    That may not be a good idea, I don't know, but----
    Mr. Kussman. The under secretary----
    Mr. Edwards. How much money for innovative ideas?
    Mr. Kussman. Well, it is a mix of things. If there is 
something new that happens someplace and it was an emergency, 
there are all kinds of different things----
    Mr. Kearns. We keep about $400 million at the beginning of 
the year for initiatives that Congress may direct, or that the 
secretary or the under secretary might direct--and 
unanticipated requirements, or a new idea that has merit.
    Mr. Edwards. If you would just take the time to review the 
system to just be sure. You think you have got a good vetting 
system so that if there are some great ideas out there that 
help us save dollars, I think we need to send a message to the 
taxpayers, we are not only spending more for the VA, the 
veterans' health care system, but we are being innovative and 
have a system that encourages innovation, at the same time, 
being able to ferret out the frivolous----
    Mr. Kussman. And I think Mr. Wamp basically asked the same 
question.
    Mr. Farr. So did I, the HeartMath.
    Mr. Kussman. And it is very easy to get lazy in an 
organization and just say, ``Okay, this is the way to do it.'' 
And part of my job is to be sure, and many of the people 
sitting here, is to be sure that when news ideas come up, they 
get a fair shake.
    But if it is a good thing, we should make it available to 
the veterans. The veterans should not take second-class care on 
anything.
    Mr. Edwards. Thank you.
    Sam.

                   THE FUTURE OF HEALTHCARE RESEARCH

    Mr. Farr. Yes, please. I would just add a HeartMath to that 
same list.
    Mr. Kussman. You got it.
    Mr. Farr. I want to share with the committee, I had the 
privilege of listening to some people that are real big 
thinkers of where society is going and combining technology 
with medical breakthroughs.
    And essentially, with the genome project, the future of 
mankind will be the ability to do this kind of assessment of 
your being and then come up with a plan and the idea with this 
plan is that you will heal by yourself, because you will know 
what you are susceptible to and aware of things that your body 
lacks that you need to be healthy.
    And the emphasis will be on that and it is fascinating. The 
whole direction of politics right now is universal health care. 
If you listen in this town, it is health care that is busting 
the Federal Government. It is the largest continuing 
inflationary cost of government.
    Without change, it is going to bankrupt us. And so it seems 
to me that one of the advantages you have in this incredible 
system is being in the forefront of the public health debate.
    Do you treat more people than the Department of Defense 
does?
    Mr. Kussman. Well, there are more veterans in the country--
--
    Mr. Farr. Than there are active duty.
    Mr. Kussman. Of veterans in the country, about 10 percent 
are retirees. And then if you look at active duty and the 
family members and everything, I don't know--what is it--about 
10 million or something for the whole--but the systems aren't 
too far apart.
    Mr. Farr. The retirees, if they are in places like 
Washington, DC they will go to Bethesda for space available, 
and they always seem to have it, at least when I am out there.
    Mr. Kussman. TRICARE for life, which is a very good 
program. But to answer your--I think the question is----
    Mr. Farr. Well, I haven't asked it yet. A friend of mine 
created a company where he goes out to counties and assesses 
all of the inputs in a particular field, like what is all the 
mental health, where does it all come from, all the moneys, 
private, public sector, what kind of services are out there, 
and provides essentially the service model for every kind of 
field and he has done this now 600 sites in 25 states.
    And what is interesting is you can set up a case management 
system. So, essentially, you can take that electronic record 
that you have compiled and put it into this system.
    I want you to just look at this. It isn't going to cost you 
anything, because he doesn't charge for that. But it is a way 
of really helping case management electronically and giving-
back to the patient so they can know what kinds of incredible 
options are.
    And why I think it is important for veterans is that this 
discussion we have had about what about this vet who is not 
living in an urban area, who lives way out on the boonies, in a 
small town, and he has come back with severe disabilities. The 
VA doesn't know where there is a support group in that town, or 
what kind of expertise might be there.
    It is a little community. The civilian community knows 
that. The family may not, because you usually don't know those 
things until it hits you and then you ask questions. If you ask 
the right question, you end up getting a lot of help. You ask 
the wrong question, you still don't know what is going on.
    This program, called Network of Care, is that one that will 
allow every community in these 25 states, these counties, to 
give you this kind of comprehensive information.
    It seems to me it is just information that ought to go into 
a packet for the vet and say, ``Okay, when you go home, look 
this up and you will be able to find like kinds of folks with 
similar kinds of problems,'' and you can also find out who the 
docs are and what the specialties are there and so on.
    And I have tried to encourage you to look at it before and 
I think the department has said, ``We are not interested,'' 
although now they are just putting out grants to do this rural 
outreach.
    So maybe this is a way of checking out what the right hand 
and left hand want to do.
    Let me get into somewhat of a specific question, though. It 
is about the polytrauma operations at VA hospital. I understand 
we have three polytrauma hospitals that are running at full 
capacity and the Palo Alto is running under capacity.
    What is the problem there?
    Mr. Kussman. Well, I don't know if there is a problem. Each 
of our centers have, I think, 12 beds each and, at any given 
time, there may be full or not full, depending on the flow of 
patients and geographically where they want to go.
    We are in the process of building a fifth one in San 
Antonio. It will be online in 2010 or 2011. But the money is 
there to build it, I think $66 million, $67 million for it.
    So the number of people who are in there vacillates on the 
clinical situation. If there is a place that is filled and the 
next one comes in, we have never turned anybody away. We will 
create another bed for the period of time that we need it or, 
generally, what we use is one of the spinal cord beds or some 
other bed that is available in the institution.
    I am not aware that we have ever turned anybody away.
    Mr. Farr. They are under-capacity at the facilities in Palo 
Alto, but at your other polytrauma--centers, they are at full 
capacity.
    Mr. Kussman. I don't think there is any sinister plot 
there. I think it is really a matter of who wants to go or not 
wants to go, and they will take the patients as appropriate.
    Mr. Farr. Well, if we are having a problem there of not 
getting enough patients, maybe outreach could be provided in 
our area, because we have clinics.
    Mr. Kussman. I will just give you a quick little piece of 
information, if you don't mind. We have transferred about 470-
480 patients in the total of 5 years into those four centers 
from OIF/OEF.
    The total number of patients who have transitioned through 
those centers is about 1,100. And what it says is that less 
than 50 percent of the patients that need this type of care are 
actually injured in the war.
    This is something that happens in car accidents and other 
training accidents and things, that is why we have this 
infrastructure that existed, to some degree, before the war, 
with traumatic brain injury centers, and we built on for this 
polytrauma.
    So there is a real need for this and it doesn't appear that 
there is a huge number of--more non-combat wounded veterans 
that are in this than combat.
    Mr. Farr. Do you prioritize that?
    Mr. Kussman. No.
    Mr. Farr. Because one of the other complaints--is that the 
old veterans feel that they are being put to the back of the 
line or being delayed because we are prioritizing Iraq-
Afghanistan vets.
    Mr. Kussman. When they are in the system, the decision what 
needs to be done is done by a clinical physician. It doesn't 
make any difference what your priority was or anything once you 
are in.

                        SUICIDE RATE OF VETERANS

    Mr. Farr. How about measuring suicide rate? We discussed 
that in a previous hearing here. I guess the records weren't 
there to be able to compare suicide rates among wounded 
warriors from different conflicts over time and that there is 
some work being done on that, but the data isn't comparable and 
hasn't been transparent.
    Mr. Kussman. I think this is a great challenge, because if 
you wanted to know how many veterans commit suicide, which is 
the basic question, remember, we only see a segment of the 
veterans population.
    So there are veterans who may or may not have committed 
suicide that we don't have any visibility of. We have 7.5 
million enrollees out of 23 million. So about a third of the 
people we might have some information on, but even the 
enrollees, we sometimes don't know. It is the people we are 
seeing.
    I am not trying to obfuscate it. It is just that when 
somebody says, ``Well, how many veterans','' we don't know. A 
lot of times, it is hard to collect data on suicides, because 
somebody might have driven into a tree or been drunk and they 
really were trying to kill themselves, but it doesn't get coded 
as a suicide, but as an accident.
    There are people who commit suicide by police, they do 
things, and it doesn't--and sometimes we don't even know that 
that happened, even though they were a veteran.
    What we have to do is we have to rely frequently on the 
Centers for Disease Control, because they keep a national death 
registry, of which suicide is part of that.
    And on all death certificates, there is a little box on the 
bottom that says, ``Was this patient a veteran or isn't this 
patient a veteran?'' If the coroner or other people will check 
it, then we have a chance of finding out what happened.
    Sometimes that doesn't happen. So we don't know. We have 
looked very hard at this, because there is a suggestion that 
all these suicides are happening and what is going on. It is a 
very important priority for us.
    We have had our epidemiologists look at OIF/OEF veterans, 
in particular, to see if we can get some sense of how many of 
them, that we know of, anyway, are committing suicide.
    Now, you have got to be careful you don't compare apples 
and oranges, because if you look at the national suicide rate 
and then look at the suicide rate of veterans, you get a skewed 
picture, because there are two groups of people who commit 
suicide more frequently than others.
    One is white males over the age of 60. Fifty percent of our 
population is over the age of 60. And so right away we have a 
skewed group.
    The other group are particularly males in the age of 18 to 
25. They do a lot of quick--they do things, they don't look at 
the ramifications of what they do.
    And so if you cull out those groups of people and compare 
apples and apples, because if you compare the whole population 
of the country, which includes, obviously, 50 percent women or 
more than 50 percent women and children, they don't commit 
suicide at the same rate that these other groups, which we have 
a high percentage of.
    And so if you compare and compare, the suicide rate, as far 
as we can tell, in veterans, is not significantly different 
than an age-adjusted population in the civilian community.
    Han Kang, who is our epidemiologist, looked back using 
state data and epidemiologic data from the CDC and looked at 
how many OIF/OEF veterans that we could find that committed 
suicide from 2001 to now, it was 114. Is that right? I think it 
is 114.
    And if you then do the statistics on that, there is a large 
variance. I don't want to get into statistics, but because the 
number is relatively small, that you can say that the number 
truly would fall, say, between .65 and .25, with one being 
the----
    Mr. Farr. Now, does that number differentiate from they are 
truly a veteran, they are not currently serving?
    Mr. Kussman. That is correct. That is correct. I am not 
commenting on people who are on active duty in the DOD. These 
are people who were on active duty, transitioned, have a DD-
214. They are veterans.
    And so if you look at that number, it is pretty consistent 
statistically with anybody else.
    So it is not that this isn't important. We think it is 
extremely--every suicide is a suicide too many. And we have put 
in place a very aggressive program where--you know of our call 
center, our hotline that is in Canandaigua, that 24/7, it is 
unique because it is staffed not by volunteers and things, 
which SAMHSA hotlines and other local hotlines for suicide are 
staffed by.
    These are staffed by mental health professionals and the 
beauty of this, not only are they mental health professionals 
who can talk to the person who calls, but they have access to 
the health record.
    So what gives us a leg up on that, that is, the person will 
talk to us besides just calling in sometimes--we have had about 
20,000 calls since last August, 20,000 calls. You say, ``Why 
the heck didn't we do this sooner?'' But I can't explain that. 
We were just stupid, I don't know.
    But the fact is it is obviously a need. We have had about 
500 saves. Now, we consider a save as someone that seemed to be 
really serious. I mean, most people, when they think about 
doing something, killing themselves, don't do it, 98 percent of 
the time they don't do it.
    But that 2 percent is still a lot of people. And we have 
been able to find out where they were. Here is an anecdote for 
you. This is one of the great stories.
    It is an individual who called, didn't want to tell us 
where he lived. He was talking to one of our people on the 
line. The conversation went on for quite a while.
    Finally, he admitted--wouldn't say who he was, but said he 
was in San Antonio and he was on a bridge and he was going to 
jump.
    So while one of our providers was talking to him, one other 
called San Antonio police and said, ``We have got a jumper.'' 
They said, ``It is a big city. Where would we go?''
    Finally, the guy mentioned his name. So quickly pulled up 
on the record where he lives and then went and Googled, got a 
map of San Antonio and looked where he lived and looked for the 
nearest bridge.
    Then they called the San Antonio police back and said, ``Go 
to bridge X and see if he is there.'' He was there. Saved this 
guy from jumping.
    Now, it is anecdotal and all that other stuff, but the 
point is having this service for veterans has turned out to be 
extremely, extremely valuable.
    Also, what we have done is we have put a suicide 
coordinator in every one of our facilities. They are not 
coordinating suicide. They are coordinating the fact that the 
services that are provided, we have educated all our primary 
care people and other people what to do when somebody mentions 
to you that they are thinking about killing themselves.
    So they have skills. It is like yelling ``fire'' in a 
crowded room and it is against the law. The same thing happens. 
Anybody says that, you have got to believe them and be very 
serious in that.
    So we have done a lot of things. We will never stop 
suicide, I am sad to say, because it is part of an illness and 
when people are determined to do it, they are going to do it.
    I have had a tragic situation in my own practice, where 
somebody came in, I talked to them and they were depressed. I 
said, ``Are you doing okay?'' ``Yeah, I am doing fine, Doc,'' 
and all this other stuff, and shake hands, ``see you next 
week,'' and they walk and shoot themselves in the parking lot.
    I said, ``What did I do wrong? What did I miss?'' Very 
unfortunate and we all have examples of those tragic things.
    So I believe we are really working very hard on trying to 
minimize suicide, though you know we----
    Mr. Edwards. Thank you. Thank you for that.
    We are through voting for the day and the week. They have 
pulled the bill down. In case anyone has to catch a plane or 
anything.
    Mr. Wamp.
    Mr. Wamp. Well, Mr. Chairman, I know this meeting has not 
been as specific about the funding request levels as normal 
appropriation subcommittee hearings.
    In a sense, it is bigger than that on some of the concerns 
that we have and there are forms that we desire.
    But I want to followup on Mr. Farr's comments, because I 
think he and I and the chairman agree on a whole lot of things 
and have the same kind of concerns.
    To pick up on what Sam said, I think if you add people that 
receive their health care through the VA system, the Medicare 
system, Medicaid system and SCHIP, you are now above half of 
the American people.
    Fifty-two percent of Americans receive some form of 
government health care. But that is why I think it is so 
important for the VA to demonstrate, because I don't know where 
we are going with this, this is an evolution, as Sam said, of 
health care.
    If we are moving to a single payer or two-tiered system or 
wherever we are headed, it is so important that the VA be a 
model for how you can deliver government health care in an 
efficient way.
    And so you almost have like a triple burden on you right 
now, not just the traditional VA paradigm and mindset, but this 
literally is going to determine, I think, whether the 
government can efficiently deliver it, because you have the 
advantages provided to you that Medicare and Medicaid don't 
really have, because of the way the money passes down and the 
state match on Medicaid and the fact that Medicare is 
reimbursing and the fact that the Balanced Budget Act of 1997 
has cut so many Medicare benefits.
    You have all your fingers on the buttons of the health care 
delivery system and if you go through reforms that make it 
efficient and prove through the VA system that government 
health care can be delivered, it changes the paradigm.
    It changes the possibilities of whether we embrace some 
kind of universal coverage. And that is why this is bigger than 
just your funding request and whether the VA works.
    But I am very interested in this committee playing a role 
in seeing that you are as successful as you can be.
    And to be honest with you, my history in 14 years here is 
that the authorization committee is awfully difficult to 
maneuver through. I know you have got to kind of suck up to 
both appropriations subcommittee and authorizing committee.
    But it is easier to get things done through the 
appropriations process than it is authorization process, and 
there are 100 reasons why things can't be done.
    I am interested, in thinking like that, in how you measure 
customer satisfaction, because when we have like the master 
sergeant in the Marine Corps here, his wife was back here and 
she had these meetings with the family members of people that 
are on active duty and keeps her finger right on the pulse of 
what it is that they need and whether or not their quality of 
life is acceptable and whether or not they might consider 
reenlisting. They have their antennae up.
    How does the VA really keep their finger on the pulse of 
the veterans to understand what it is they want, what it is 
they expect?
    My experience is I have been one of those people, because 
when the veterans beat my door down with our outpatient clinic, 
the next thing you know, we have extended hours and we have a 
larger waiting area and we have pharmaceutical this, that and 
the other. The dental guy works an extra day out of the week, 
because the veterans come through me and say this needs to be 
done and the representative goes there.
    But what are you doing to make sure that the VA is a state-
of-the-art customer satisfaction organization in health care in 
America today?
    Mr. Kussman. A very important question--so we have a whole 
litany of things, advocates and facilities where people can go 
to complain about it if we are not doing it.
    We have a ``secret shopper'' program, where people go out, 
don't tell anybody who they are, but pretend they are just a 
plain old customer and see what happens when they call for an 
appointment, and things of that sort.
    The national survey on satisfaction of people in health 
care that is done out of the University of Michigan, every 
year, it is done it and we, both inpatient and outpatient, get 
better scores than the civilian community.
    We do what is called SHEP, and, for the life of me, I can't 
remember what the S-H-E-P stands for, but we send out 600,000 
surveys periodically and ask all these questions to people and 
get them back, by facility and by clinic, to determine whether 
we are doing the job that we think we are doing.
    And by the way, as you are alluding to, you can provide the 
best care in the world, but if people are unhappy about it, 
then shame on us.
    So the other part of this is just plain old traditional 
patient satisfaction surveys. We do that and our satisfaction 
rate across the board is about 86-87 percent, which is right in 
there at the top of most systems.
    Now, the question is what about the other 12-14 percent of 
people, what are they unhappy about? And you have to drill down 
a little farther to figure that out.
    But one of the questions, ``Did you get an appointment when 
you wanted to,'' and the answer may be no, but they wanted it 
tomorrow and we gave it to them 3 days from now. So it is very 
subjective, but it is important.
    So we try very hard and I am very proud actually of all the 
numbers that we get back. It is not perfect, we have got to 
keep working at it, but most of the complaints that we have are 
really related to more access than they are once they are in, 
and people are very happy generally with the care, whether it 
is a CBOC or whether it is a main facility.
    And that is a problem I have been challenged with about 
access. When I took over August 12, 2006, I was acting for 9 
months--I remember the day, the moment, the hour.
    But the truth of the matter is I have been listening to 
what you all tell me and the VSO groups. People are unhappy 
about this, they can't get an appointment, and we are measuring 
it and thinking most people are getting appointments.
    So what is the disconnect? Why do you go out and have town 
hall meetings and hear that people are complaining? I am not 
critical that they are complaining. We don't see it on the 
basis of the accumulated data.
    And I have been very puzzled, I am still puzzled by it, and 
what I did is we have contracted with Booz Allen Hamilton. I 
have asked them--they are going to be through in June or July--
to do an assessment of our access, looking at our appointment 
schedule, you know the issue with the IG, things like that, and 
come back to me and tell me what is actually going on, because 
I am having trouble, quite frankly, getting my arms around 
something that the data isn't consistent with what I am 
hearing.
    And I believe that what we are hearing is a 
miscommunication. I would ask you, when you go out and ask--go 
to see your constituents, when they say they couldn't get 
something done, ask them what exactly is it. Is it an 
appointment or is it a procedure?
    And there is a difference here. For instance, could you--
within 30 days? It is not perfect.
    But the question then is how long does it take you to--that 
is a different question. And so now we are starting to measure 
hip replacements, knee replacements, cataracts, colonoscopies 
as a performance measure. Those are four big volume things that 
we do.
    It is to try to take those performance measures that we 
have been using in an outpatient setting and transfer them into 
the inpatient setting and find out maybe that is where the 
breakdown is, that you have to wait for your procedure, and 
that is what the people are upset about. But it is not that 
they couldn't get an appointment to see the orthopedic surgeon.
    I am not trying to split hairs. I think it is a different 
issue and we are working hard to get our arms around it.
    Sorry for the long answer.
    Mr. Wamp. I think it was an excellent answer and I thank 
you for that answer.
    Thank you, Mr. Chairman.
    Mr. Edwards. Mr. Berry.
    Mr. Berry. Thank you, Mr. Chairman.
    Mr. Edwards. And as you begin, let me--I am going to excuse 
myself. Mr. Farr is going to continue to gavel and please 
continue on.
    Mr. Bishop, thank you for coming.
    Dr. Kussman, as I leave, let me just thank you again and 
everyone that works within the VA health care system, for the 
hard work you do and for your particular leadership. Thank you 
for that.
    I look forward to following up on this and I know we will 
have a number of questions in writing----
    Thank you for being here today.
    Mr. Berry. Thank you for being here, Mr. Secretary. And I 
think everyone in this room and on this committee and I am sure 
everyone at the VA is primarily interested in being able to 
take care of our veterans, and I appreciate that very much.
    I wanted to ask you about one specific program that we have 
in Arkansas. One of our biggest problems is being able to get 
our veterans in rural areas into a place where we have got some 
clinics.
    But still, especially for mental health services and things 
like that, it is difficult to get them where they can be 
treated or where services are available from out in the rural 
areas.
    And as that has continued to develop as a result of the 
ongoing wars in Iraq and Afghanistan, we have begun to realize 
that it was a larger problem than we realized in the beginning.
    And the private sector has risen to the occasion and 
partnered with one of our universities there that has an 
extensive community college network in northeastern Arkansas 
and north central Arkansas.
    And we had one particular individual that contributed $1 
million to get this program started and they have put together 
an organization that helps with education assistance, all that 
that implies, rehabilitation services, mental health resources, 
and social services, and the ability to help with all of these.
    Now, their objective is primarily to help the veteran and 
to work with the VA or anyone else that is willing to work with 
them to get the job done and see that these people can return 
to as normal a life as possible.
    And they met with you and you basically told them, ``We 
hope it works out for you, but we are not interested.''
    And my question to you is: Is that going to be VA policy? 
Should they just pursue their goals on their own without any 
coordination or cooperation from the VA or what is your thought 
on that matter?
    Mr. Kussman. I would take umbrage, sir, with the fact that 
I don't think that was an accurate description that we are not 
interested.
    The issue was that they were, as I recall, and I see a lot 
of people--the exact everything. But they were looking for us 
to provide money to support that and it wasn't that we weren't 
interested in the concept, because I think it is a good one, 
but we don't give money out to--if we were going to do it for 
this university, what about any other university?
    And so the issue was how can we work together, but they 
were, as I recall, wanting a donation to help support the 
program, and----
    Mr. Berry. Well, I know that that is not the case today. Do 
you outsource anything like that? Does the VA outsource 
anything like that?
    Mr. Kussman. We outsource--earlier, we were talking, and I 
was actually corrected. I said $2 billion was the fee-based--I 
have been told it is $3 billion.
    We outsource a lot of stuff to people where it is 
appropriate to provide the care----
    Mr. Berry. And you would be willing to work with these 
people.
    Mr. Kussman. I am always willing to work with it. I think 
that what they need to do is talk to the nearest--in Arkansas 
and see what would be appropriate, because there is always--not 
from a national level, because--and I don't mean to--49 other 
states that have the same thing.
    So I can't necessarily condone or take one thing over 
another. If I gave a grant, then the next thing I know, we 
would have to have maybe 49 other grants.
    But I think the concept is good, because what we want to do 
is get these veterans back into school, provide them the full 
depth and breadth of resources that they need to maximize 
whatever capability they have.
    Mr. Berry. Well, I wasn't in pursuit of a grant for these 
folks. If there is an opportunity for the VA and they are going 
to do some outsourcing anyway, I don't know why these people 
wouldn't be qualified to apply to be a part of that as much as 
anyone.
    Mr. Kussman. Well, I think, again, when we buy services, it 
is usually for a specific service at a specific time. And so I 
would encourage them to continue the dialogue at the local 
level--see what can be done in a partnering locally.
    Mr. Berry. Well, they have not been well received, I can 
tell you. And I have spent some time with these folks and I 
know what they do and I don't see it.
    It would be pretty hard for me to find a problem with it, 
because they have done a good job. They are doing a good job 
for our veterans, even though they are not in cooperation with 
the VA at this time.
    So you think that they can expect to be at least heard from 
the folks in the local----
    Mr. Kussman. [Off mike]
    Mr. Berry. Okay. Thank you.
    Thank you, Mr. Chairman.
    Mr. Farr. You are welcome.
    Mr. Bishop.
    Mr. Bishop. Thank you very much, Mr. Chairman.
    Welcome.

                    JOINT VA/DOD MEDICAL FACILITIES

    Mr. Kussman. Nice to see you again.
    Mr. Bishop. That is a wonderful segue to my question.
    I am very interested in hearing your views on the--and the 
productivity of joint military-VA medical facilities, the ones 
that you now have up and operating, for example, in north 
central--San Antonio. You have got facilities in Chicago, 
Biloxi, and Alaska.
    How viable an option is it going forward, particularly as 
we begin to build more DOD military medical facilities, and 
there are some that will be coming up this year?
    Are there obstacles, pitfalls, other issues that we should 
know about?
    In the other subcommittee, I had an opportunity to meet and 
talk with--the under secretary of defense health affairs, 
General Schoomaker, the Army surgeon general, Vice Admiral 
Robinson of the Navy, and General Roudebush, who is the surgeon 
general of the Air Force, and all of them expressed very strong 
support for VA-DOD cooperative efforts.
    Is there a way that we can work together to try to 
facilitate that--we expect that Martin Army may be getting a 
new hospital. It is a 50-year-old facility, as you are aware, 
and we expect that this year they may be building a new 
hospital.
    The closest VA hospital is Tuskegee, which is aging, and, 
of course, they have to send people to Montgomery if it is 
anything other than a cold and if it requires any specialty, to 
Birmingham.
    I am from Georgia and, of course, that is Atlanta or 
Augusta or Dublin, and, of course, Dublin has downsized its--
the southern part of my district with the state of Florida.
    If we were--I should say, when we build this new military 
hospital at Martin Army, is there a possibility that we could 
get some kind of memorandum of understanding so that it could 
be a joint facility with VA?
    We have got a tremendous number of veterans in a 50-mile 
radius that could make good use of that right there at Fort 
Benning.
    Mr. Kussman. The issue of DOD-VA sharing is--part of the 
reason I came to the VA was to work on that and it is a very 
important issue.
    We stand ready in any way, shape or form to partner and 
look at it. I know that DOD is starting to look at its aging 
infrastructure or its medical hospitals.
    We have the same problem. We have 153 hospitals, average 
age is 57 years, and the challenge of building new full service 
hospitals is money--for us, it is anywhere from about $750 
million to $800 million to $1 billion a hospital, and, 
actually, we are worried it is pricing us out of business.
    I mean, how do you deal with that huge amount of money for 
one--and when the examples of north Chicago and Biloxi and 
other places, I think that we--I know all those people you talk 
about very, very well and----
    I believe that the partnering with DOD-VA--there is a lot 
of interaction and we are looking at partnering.
    So particularly at Fort Benning, that hasn't--I am not 
aware that that has come up on the radar screen of DOD wanting 
to build a hospital, requesting a partnering.
    Mr. Bishop. Well, DOD hasn't requested the partnering. But 
as the representative for Fort Benning and for the surrounding 
areas, with lots of veterans who are requesting a veterans' 
hospital, it seems to me like it would be economically feasible 
to, one, give the services to the veterans and DOD save the 
taxpayer dollars, if that was--to have a joint location there.
    Mr. Kussman. Well, there are all kinds of other options. We 
asked about--should be expanded and then partner with the new 
hospital----
    I don't know the answer to that, but certainly we stand 
ready to work with DOD.
    Mr. Bishop. Sir, I don't want to take up any more of this 
committee's time, but I would like to get with you or someone, 
your designee, probably ASAP, because I know that hospital 
building program is going to be--at this time.
    Mr. Kussman. We will get somebody to contact you, the 
appropriate associate, to get some insight----
    Mr. Bishop. Thank you.
    Mr. Farr. Thank you.
    The last question, Mr. Wamp, and then I have one quick one, 
and then we will adjourn.
    Mr. Wamp. Just a technical kind of question. The $3 billion 
that you referred to on private contract, does that include 
veterans that go get emergency are?
    Mr. Kussman. Sometimes.
    Mr. Wamp. Does the $3 billion that you referred to--
    It includes the emergency care. So it is basically all non-
VA healthcare is in that $3 billion category you have, because 
I figured that would push it way up.
    How much of that is emergency care and how much of it is 
actually contracting? And I say that, because like in our 
outpatient clinic, more and more, rightly so, you are 
contracting for services.
    So you don't have to keep doctors around for these 
particular procedures that you are able to get a guy to come in 
and do with a certain amount 2 days a week and you pay him or 
her, and that is the contracting.
    But wouldn't a majority of the $3 billion be emergency room 
care for veterans that just go and get health care or not? I am 
just asking.
    Mr. Kussman. We can get back to you. It is a mix. When we 
have a contract with somebody----
    Mr. Wamp. Because, see, like in a lot of these areas, and 
this is what gets to the CBOC challenge, if you are a veteran 
in my area and you need emergency room care, you are not going 
to the VA hospital, because it is 2 hours away.
    So by definition, you are going to be--that is going to be 
a big ticket item at a CBOC with a large service area, because 
they are going to go and get that at whatever hospital the 
ambulance takes them to when it is time to have an emergency 
exception here to the VA delivery system.
    Anyway, I think this committee maybe understands you all 
pretty well and I am really looking forward to working on 
reforms even through our bill to try to help you do your job 
and to improve the way you do your job and even maybe to set 
the new paradigm into the future as to the role the VA plays in 
the whole system and the new world that we live in, because 
wars are changing, veterans are changing, by definition.
    The challenges of keeping veterans or keeping our men and 
women in uniform, both Guard, Reserve and active duty, or all 
three, serving our country is predicated by what they see out 
into the future.
    Is this a--not only is it a worthy vocation and is it the 
right thing to do, but is it a long-term commitment I should 
make, because is the country going to be there for me. So it is 
all really tied in to patriotism in a big way. I don't mean to 
give a speech.
    But I thank you for your appearance here today. I think it 
has been helpful to everyone.
    And, Mr. Farr, I want to thank you especially, because I 
think you and I share a lot of the same goals here.

                         ACCESS TO QUALITY CARE

    Mr. Farr. I want to echo your sentiments. I think this 
committee, in the House and Senate, the incredible increased 
appropriations we made last year and, as Mr. Edwards said, we 
are going to continue it again with some additional money this 
year, the whole concept there is that we move VA from sort of 
that other organization to being probably the most respected 
medical service provider in the United States.
    What all states and providers are struggling with is: How 
you do this in a cost-effective manner that gives quality care 
and is using all the adequate technologies that are out there.
    So my last questions are essentially along those lines.
    One is as you expand your tele mental health care to people 
who do not live in the area that offers the broadband 
connection services, how are you going to do that?
    We struggle with this broadband issue here and what we find 
is rural America just gets screwed.
    Your effort is to expand your tele mental health. And have 
you got a system that will reach beyond the broadband service 
area?
    Mr. Kussman. Well, I am not an expert on those particular 
issues, but as you know, we stood up our new office of rural 
health. Our director is here with us today.
    And we are going to spend this year about $22 million 
looking at the whole concept of rural health--and, also, how we 
can outreach more.
    Mr. Farr. Some of those things we suggested will hopefully 
be looked at.
    Mr. Kussman. That is exactly correct.
    Mr. Farr. What about the non-institutional long-term care? 
As I understand it, the number of the non-institutional long-
term care patients in the VA is expected to grow in the next 
several years.
    You mentioned that VA is expanding the services provided by 
organizations and the community, essentially, contracting out.
    If you expect, as your testimony pointed out, approximately 
a 40 percent increase in the number of patients receiving non-
institutional long-term care, what criteria are using to 
project that increase? How do you determine that?
    And can you tell the committee, as a percentage, how many 
veterans receive some form of non-institutional long-term care?
    Also, how does this care, cost-wise, compare per patient to 
provide in-home services to veterans? Do you have any 
comparison?
    Mr. Kussman. What the cost is related to?
    Mr. Farr. Yes.
    Mr. Kussman. We can certainly get that for you. But the 
important thing here is that, as you know, the fastest growing 
part of our multi-pronged approach to long-term care is the 
home health care, going up, I think, 28 percent in this year 
alone.
    We provide long-term care in our own bricks and mortar. We 
have community nursing homes and state homes. And now the 
biggest and fastest growing is people staying at home, because 
we talk to the veterans, they would like to do that.
    They would like to stay home as much as possible, stay in 
their own communities, not have to go someplace where we have 
bricks and mortar or whatever it is.
    And so we are working very hard to be able to provide them, 
in conjunction with the communities, day centers and other 
things, including foster homes and other things, where people 
can stay in a much more conducive area and environment than to 
go to a traditional----
    Mr. Farr. It is a very cost-effective medicine.
    Mr. Kussman. It is both cost-effective and it provides a 
better service for the veteran. I mean, we are not doing it 
just because we want to save money.
    Mr. Farr. And I think what is going to happen, as you do 
more of that, is that you are going to have a lot of other 
service providers coming up and saying, ``We can do this more 
cost-effectively for you.''
    How are you going to select these service providers? I 
think that is the question we have been asking all day. How do 
you verify the quality of service from a non-institutional 
provider?
    Mr. Kussman. Well, we have our office of long-term care and 
geriatric care that sets standards and we then go out and check 
both the state homes and our own homes.
    When we have somebody enrolled in the community-based long-
term care, it is done at the local level, not from a central. 
They have the standards that we put out and the policies and 
procedures that are supposed to be done, and they will monitor 
that with their social workers and other people to ensure that 
the people who are providing the care are continuing to do 
that.
    If they don't, they won't get the contract or won't work, 
but there is a lot of granularity in the contract of what we 
expect them to do.
    Mr. Farr. Mental services, the licensed care providers, is 
there a federal standard that might be different from a state 
standard California is always arguing they upgrade these 
standards and the California standards are higher than the 
fed's. Is that true?
    Mr. Kussman. Which is a national standard. We would work 
with the standard--I mean, if there is a better standard of 
care in the state, we would certainly consider using that. We 
wouldn't use a worse standard.
    Mr. Farr. It is always these minimums. We know now that the 
military has to follow building codes of a local community. For 
a while, they didn't have to.
    They built a hospital in my district at Fort Ord and then 
when they closed, nobody wanted it, because they didn't build 
it to earthquake standards, because they just felt the federal 
standards were all they had to meet.
    I want to just thank you. We have had a long day. I am 
sorry that others missed it, because it is not often in these 
congressional hearings that you get as much interactive 
dialogue with the witnesses that we have had today, and I think 
we both appreciate the frankness of it.
    Certainly, it will lead to a stronger and better Veterans' 
Administration and particularly the health care. We are really 
looking forward to working with you.
    Mr. Kussman. Thank you.
    Mr. Farr. Thank you. The hearing is adjourned.

    [Clerk's note.--Questions for the record submitted by 
Chairman Edwards.]
                             WOMEN'S HEALTH

    In the fiscal year 2008 budget request, the Select Program called 
``Women Veterans'' was estimated at $78 million dollars. The fiscal 
year 2009 budget request estimates that VHA will spend $149 million for 
Women Veterans in fiscal year 2008 and requests $163 million for fiscal 
year 2009. Can you please give us your thoughts on what caused the 
growth in 2008 and how comfortable you are with the 2009 estimate?
    Response. The growth is directly tied to the increased number of 
women veterans from Operation Enduring Freedom (OEF) and Operation 
Iraqi Freedom (OIF) who are seeking health care from the VA. Five years 
ago, 7% of all veterans were women, but 14% of today's active duty 
military forces are women. Five years ago, 12% of eligible women 
veterans sought care from the VA, whereas, 41% of eligible women 
veterans from OEF/OIF are seeking VA care.
    VA uses an actuarial model to forecast patient demand and 
associated resource needs. The annual patient projections generated by 
the VA Enrollee Health Care Projection Model are a function of the 
projected enrolled population and the mix and intensity of workload for 
those enrollees as projected by the Model. The patient projections are 
then adjusted to account for those enrollees who seek only non-modeled 
services such as readjustment counseling. Components of the model 
methodology and data sources are continually updated, allowing VA to 
make accurate forecasts. VA believes the 2009 budget request for this 
program is a reasonable estimate.

                            MEDICAL ACCOUNTS

    Since 2004, the Veterans Health Administration has had three 
medical accounts in order to allow for greater visibility of how 
medical funding was spent. Can you tell me why the fiscal year 2009 
budget submission combined the Medical Services and Medical 
Administration accounts?
    Response. In the 2009 request. VA is proposing that the Medical 
Administration appropriation be consolidated into the Medical Services 
appropriation. Merging these two accounts will improve the execution of 
our budget and will allow VA to manage the delivery of health care to 
veterans more effectively.
    Prior to the establishment of the three medical care appropriation 
accounts in 2004, a medical facility director was allocated a single 
budget that could be used to address local operational priorities in 
the care of veterans as they occurred. For example, funds could be used 
to address critical vacancies in nurse staffing or personnel performing 
security, patient scheduling, or the medical collections functions as 
the need arose. All of these functions are critical to the successful 
care and treatment of the patient.
    Under the current appropriation structure, the facility director 
has limited management flexibility in making operational decisions. For 
example, a medical center director may need to hire additional clinical 
staff, which is paid from the Medical Services appropriation; however, 
in certain cases, to accommodate the additional staff the medical 
center director may need to hire additional staff to safeguard against 
unnecessary and inappropriate medical care, conduct quality assurance, 
or perform medical coding, which is paid from the Medical 
Administration appropriation. However, if sufficient funding is not 
available in the Medical Administration account at the facility to hire 
these supporting staff, the director cannot shift funding from the 
other medical care appropriations to support this function. Instead, 
the director must first seek a realignment of funds between 
appropriations at the network level, or at the national level if 
network funding availability and flexibility is also limited. If 
funding is not available at the national level, VA must notify the 
Office of Management and Budget and the Congress of an appropriations 
transfer request. This is one way the current multiple appropriation 
structure has added complexity to the management of health care at the 
facility level and increased the amount of time it takes to implement 
operational changes. By combining the two appropriations, the facility 
director could immediately hire additional clinical staff and the 
appropriate supporting staff.
    In addition, the multiple appropriation structure has significantly 
increased the volume of financial transactions needed to administer 
VA's health care system. Each appropriation is allocated to 
approximately 150 separate facilities or program offices. For example, 
in 2003, there were approximately 30,000 funding transactions to 
support the single medical care appropriation structure. In 2005, there 
were over 55,000 funding transactions required to support the three 
appropriation structure, and this has grown to about 91,000 in 2007. 
The significant growth in transaction volume has also increased the 
risk of errors and the potential for anti-deficiency violations.
    Can you help us understand why it has been so difficult for VHA to 
submit accurate budget requests for these accounts?
    Response. Since the creation of the three account structure in FY 
2004, there has been a series of significant changes that have made it 
very difficult to accurately estimate the exact amounts required in 
each appropriation approximately 23 to 24 months prior to the end of 
the execution year. For example, in FY 2004 it took until the start of 
the fourth quarter (July 2004) to fully implement the new three 
appropriation structure. The FY 2005 President's Budget request had 
already been submitted in February 2004 prior to any operational 
experience at the facility level under the three account structure. The 
FY 2006 President's Budget was submitted in February 2005 based on less 
than 6 months actual experience under the three account structure. 
Subsequently, an additional $1.5 billion was added to the FY 2005 
Medical Services appropriation and an additional $1.452 billion was 
provided by Congress to the FY 2006 Medical Services appropriation.
    In addition, we have had to continually adjust our estimates for 
the three medical care accounts to reflect actual operational 
experience in delivering care to veterans at the local level.
    If the accounts are combined, can you tell me what safeguards will 
be used to ensure that spending on Medical Administration does not grow 
at a greater rate in proportion to medical services?
    Response. VA already has cost centers established in its financial 
system that would allow us to monitor costs associated with Medical 
Services and Medical Administration. VA can separately identify the 
costs for Medical Administration and would be able to provide cost 
information to Congress upon its request.

                     LOUISVILLE, KENTUCKY HOSPITAL

    Mr. Secretary, last year the CARES priority list for major 
construction listed the Louisville, Kentucky project as #4 and this 
year it is #7. What has changed in the last year that would justify 
moving this project down the priority list? What is the status of the 
site selection process for this facility, and how quickly do you expect 
to be able to finalize site selection?
    Response. As part of the annual VA capital investment process, 
projects that have not received any funding through the appropriations 
process are resubmitted and evaluated along with any new projects that 
are added for the next budget cycle. This resubmission gives the 
medical centers an opportunity to update their application or provide a 
new one based on any policy changes regarding the delivery of health 
care and other external factors such as changes in workload 
projections.
    The main reasons Major Construction project submissions moved up or 
down in the ranking between FY08 and FY09 were due to the updates or 
changes that were made to the applications, new projects that were 
added, and adjustments that were made to the evaluation criteria 
definitions to include the latest special emphasis related programs 
such as traumatic brain injury and polytrauma care.
    The Louisville site selection process will begin when this project 
is prioritized for funding within the annual planning process.

                                HOMELESS

    Can you tell me why, after the fiscal year 2008 appropriation 
included $130 million for the Homeless Grants and Per Diem program, 
funding it at the fully authorized level, your fiscal year 2009 budget 
submission estimates $107 million for fiscal year 2008 and only 
requests $122 million for fiscal year 2009? Can you tell me what 
process is used to determine the priority of funding for additional 
grants?
    Response. Based on VA's review of homeless care programs in the 
private sector, as the FY 2009 President's budget was being developed, 
it did not appear that there were enough programs that meet VA 
standards for homeless care to effectively obligate $130 million in FY 
2008. Funding up to $130 million is available for the Grant and Per 
Diem (GPD) program in FY 2008, and any unobligated funds will be 
carried over into FY 2009 to be available for the GPD program. In 
addition, VA plans to spend $2.5 million to improve the infrastructure 
of the GPD program by adding GPD liaisons, program development 
specialists, and training initiatives.

                                  PTSD

    The fiscal year 2008 budget submission included an estimate of $171 
million to treat all veterans with Post Traumatic Stress Disorder. The 
FY 2009 budget submission estimates that VHA will spend $45 million in 
FY 2008 on Post Traumatic Stress Disorder for OIF/OEF veterans and $55 
million in FY 2009. Can you tell me why this year's budget submission 
only addresses OIF/OEF veterans and what the numbers are for all 
veterans for 2008 and 2009?
    Response. Post-Traumatic Stress Disorder (PTSD) estimates for all 
veterans are included in the Mental Health estimates found on page 1H-
13, Volume 2, Medical Programs and Information Technology Programs, but 
not as a separate line item. The estimates are as follows:

                     PTSD Estimates, FY 2008-FY 2009
                         [Dollars in Thousands]
------------------------------------------------------------------------
                                              FY 2008         FY 2009
------------------------------------------------------------------------
PTSD (All Veterans).....................         265,633         319,032
------------------------------------------------------------------------

                 DUAL DIAGNOSIS MENTAL HEALTH PROGRAMS

    In 2007, the Office of Inspector General reviewed the Veterans 
Health Administration's Mental Health Strategic Plan. The Office of 
Inspector General recommended that VHA should not require sustained 
sobriety for treatment in inpatient PTSD programs for returning combat 
veterans. Can you tell me what progress you have made in implementing 
this recommendation?
    Response. The Veterans Health Administration issued a memorandum to 
the Field in November of 2007 establishing principles for the 
assessment and treatment of all veterans presenting with a substance 
use treatment need. The memorandum clearly stated key principles that 
highlight VHA's recognition that substance use disorders (SUD) can be 
acute, episodic/recurring, or chronic conditions. The memorandum 
reaffirmed VHA's commitment to treat veterans appropriately during 
acute states of intoxication or withdrawal, whether at risk for 
suffering a withdrawal syndrome, whether abusing or dependent, and 
whether the SUD is co-occurring with other physical or mental health 
concerns. Key principles in the memorandum included:
    (a) VA facilities must not deny care to an enrolled veteran on the 
basis of intoxication, active abuse of or dependence on an illegal 
substance or alcohol, or withdrawal. If it is clinically appropriate to 
delay certain services or treatments because of these conditions, other 
services and treatments must be provided both to address the veteran's 
immediate needs and to promote his or her engagement in ongoing care.
    (b) All facilities must make medically supervised withdrawal 
management available as needed for enrolled veterans with substance use 
disorders. Although withdrawal management can often be accomplished on 
an ambulatory basis, facilities must make inpatient withdrawal 
management available for those who require it. This support can be 
provided in VA facilities or by referral to other facilities on a 
contract or fee-basis.
    (c) Facilities must not deny or delay appropriate care for 
substance use disorders to any enrolled veteran on the basis of the 
length of current episode; number of previous treatment episodes; use 
of prescribed controlled substances; legal history, or other mental 
health disorders. When it is clinically appropriate to delay a specific 
service or treatment, another must be provided that is specifically 
targeted to treatment of the current needs of the veteran.
    (d) Every medical center must have services available to meet the 
care needs of enrolled veterans with both substance use disorders and 
PTSD or other mental health conditions. When active treatment is 
required for both conditions, it can be provided in specially designed 
dual diagnosis programs with treatment planning, care coordination, and 
collaboration between providers or through services provided by both 
substance use disorder and mental health programs.
    These principles codify the requirement for patient-centered care. 
VHA facilities and providers can never adopt the position that a 
veteran is untreatable because substance use or dependence precludes 
addressing mental health conditions or that concurrent or complicating 
mental illness make it impossible to also address substance abuse or 
dependence. Services must be available to provide care for veterans 
with substance use disorders and mental health conditions, alone or in 
combination, regardless of acuity or chronicity. The services offered 
must be appropriate to the needs of the veteran suffering an SUD.
    VHA is in the process of making the principles of the memorandum a 
VHA Directive. VA also is in the process of doing site visits to 
monitor how this guidance is being implemented in the field and to help 
sites work out any problems in full implementation of this guidance.

                            MEDICAL RESEARCH

    We have heard in the past that most Medical Research projects last 
at least 3-5 years. We appropriated $480 million for Medical Research 
for fiscal year 2008. The fiscal year 2009 budget request reduces this 
amount by $38 million and applies that reduction to the research areas 
that most effect the OIF/OEF veteran population (for example, trauma 
and mental health). Can you tell me what steps you are taking to 
mitigate the impact of this reduction on research for these veterans?
    Response. VA remains committed to increasing the impact of its 
research program. VA's strong commitment to research that addresses the 
needs of veterans of Operations Iraqi Freedom and Enduring Freedom 
(OIF/OEF) has been reflected in the growth in the number of projects 
and project funding over the last few years. As a result of the 
supplemental appropriation in fiscal year (FY) 2007 and additional 
emergency appropriations in FY 2008, there have been considerable 
investments for expensive equipment such as high-resolution magnetic 
resonance imagers that will be used to enhance VA's OIF/OEF-related 
research. Over the next few years these investments will payoff in 
better understanding and treatments of these important disorders, but 
the very large increases were ``one-time'' expenses that have 
effectively met the immediate needs for enhancing the strong ongoing 
research programs.
    We have carefully prioritized our research projects to ensure they 
continue to address the needs of veterans of OIF/OEF in addition to 
other veteran populations. The FY 2009 budget request includes $252 
million for research directed at the full range of health issues of 
OIF/OEF veterans, including traumatic brain injury and other 
neurotrauma, post-traumatic stress disorder and other post-deployment 
mental health, prosthetics and amputation healthcare, poly trauma, and 
other health issues. Additional research funding priorities covered by 
the FY 2009 budget request include chronic diseases and health 
promotion, personalized medicine, women's health, and aging.
    Our ability to achieve the level of $751 million in other federal 
funding will be contingent upon the relative availability of the 
research funds and the degree to which our research proposals are 
accepted and funded by the other organizations.

                             LONG-TERM CARE

    In your statement you mention that the FY 2009 budget will support 
an average daily census of 61,000 for non-institutional care compared 
to a census of 44,200 in FY 2008. This would be a remarkable 38% 
increase in noninstitutional care while institutional care remains 
essentially flat. What could explain this remarkable growth in the use 
of long-term care resources? Is there really such an incredible waiting 
list for these services? And if so, why was it not addressed earlier?
    Response. The growth in non-institutional long-term care in the FY 
2009 Congressional Budget Submission reflects VA's long range plan to 
shift resources to home and community based services, while maintaining 
capacity in nursing home care. VA believes that a comprehensive 
approach of noninstitutional care can limit increases in the demand for 
nursing home care. This approach also reflects veterans' preference for 
home based services.
    VA's estimates of the demand for home care services are based on a 
model which measures actual home care utilization by age, disability 
level, marital status, and veterans' use of these services. Demand is 
expected to grow steadily for a number of years.
    The FY 2009 increase appears particularly strong because, for the 
first time.in the Congressional Submission, VA has added the long-term 
care portion of its Home Telehealth Program to the mix of non-
institutional care services. The Home Telehealth Program average daily 
census increases 80 percent from FY 2008 to FY 2009.

                           SMOKING CESSATION

    What progress has been made by the Department with regards to 
smoking cessation?
    To address the issue of tobacco use among veterans, the Veterans 
Health Administration (VHA) has adopted a number of measures to 
increase access to the evidence-based smoking cessation care for 
veterans who smoke.
    <bullet>  All FDA-approved smoking cessation medications, including 
over-the counter medications, are on the National VHA Formulary.
    <bullet> ln 2003, VHA issued national guidance that lifted previous 
restrictions on prescribing smoking cessation medications in order to 
make them available to any veteran who wanted to quit.
    <bullet> ln 2004, the revised DoD/VA Clinical Practice Guidelines 
on Management of Tobacco Use encouraged integration of smoking 
cessation treatment into primary care, dentistry, and other clinical 
settings.
    <bullet> In 2005, a Federal regulation was adopted to eliminate the 
co-payment for smoking cessation counseling for veterans seen in VHA 
clinical settings.
    <bullet> VHA developed smoking cessation programs to address the 
high rates of smoking among patients with psychiatric disorders, as 
this population smokes at nearly twice the rate of patients without 
psychiatric disorders and they are disproportionately affected by 
smoking-related illnesses.
    <bullet> The VHA electronic medical record is an important tool to 
support clinical reminders and national performance measures to help 
identify patients' tobacco use and to prompt health care providers to 
advise patients to quit and to offer them assistance.
    <bullet> In 2006, VHA revised the national performance measures on 
tobacco use. The national performance measures, in addition to 
screening for tobacco use, required all patients who smoked to be 
provided with counseling on how to quit and offered smoking cessation 
medications and a referral to a smoking cessation clinic at least once 
a year.
    <bullet> For fiscal year 2007, approximately 75 percent of smokers 
seen in VHA non-mental health clinical settings were provided with 
counseling and a referral to smoking cessation clinics and 71 percent 
were offered medications to help them quit.
    What steps are being taken to decrease OEF/OIF veteran tobacco use?
    VHA has taken the following steps to decrease OEF/OIF veteran 
tobacco use:
    <bullet> VHA has funded multi-site research trials looking at the 
linkages of posttraumatic stress disorder (PTSD) and tobacco use and 
the efficacy of a treatment model that integrates smoking cessation 
treatment into PTSD care to address the needs of these patients.
    <bullet> This year the Public Health Strategic Health Care Group 
has partnered with the Durham VA Medical Center Mental Illness 
Research, Education, and Clinical Center (MIRECC), which specializes in 
behavioral risks for OIF/OEF veterans to look at the unique treatment 
needs of this population to assist with the development of clinical 
programs that will be responsive to this veteran population's needs.
    <bullet> Because of continuing concerns about the higher rates of 
tobacco use among both military and veteran populations, VHA has 
collaborated with the Department of Defense to contract with the 
Institute of Medicine to convene a study to identify future policies 
and programs needed to help address the use of tobacco.
    [Clerk's note.--End of questions for the record submitted by 
Chairman Edwards.]
    [Clerk's note.--Questions for the record submitted by Congressman 
Wamp.]
 request to merge medical administration and medical services accounts
    Under Secretary Kussman, the VA is proposing legislative language 
that would consolidate the Medical Administration appropriation and the 
Medical Services appropriation. The budget justification says that 
merging these two accounts will improve the execution of the budget and 
would allow VA to respond rapidly to unanticipated changes in the 
health care environment throughout the year.
    What are the current challenges in executing the budget based on 
the current account structure, and how will merging these accounts 
improve the execution of the budget?
    On the point of allowing the VA to respond rapidly to unanticipated 
changes in the health care environment throughout the year, what 
unanticipated changes have you had to respond to in the past, how has 
the account structure hindered your ability to respond to those 
changes, and how will merging these accounts allow you to respond?
    Response. ln the 2009 request, VA is proposing that the Medical 
Administration appropriation be consolidated into the Medical Services 
appropriation. Merging these two accounts will improve the execution of 
our budget and will allow VA to manage the delivery of health care to 
veterans more effectively.
    Prior to the establishment of the three medical care appropriation 
accounts in 2004, a medical facility director was allocated a singe 
budget that could be used to address local operational priorities in 
the care of veterans as they occurred. For example, funds could be used 
to address critical vacancies in nurse staffing or personnel performing 
security, patient scheduling or the medical collections functions as 
the need arose. All of these functions are critical to the successful 
care and treatment of the patient.
    Under the current appropriation structure, the facility director 
has limited management flexibility in making operational decisions. For 
example, a medical center director may need to hire additional clinical 
staff which is paid from the Medical Services appropriation; however, 
in certain cases, to accommodate the additional staff the medical 
center director may need to hire additional staff to safeguard against 
unnecessary and inappropriate medical care, conduct quality assurance, 
or perform medical coding, which is paid from the Medical 
Administration appropriation. However, if sufficient funding is not 
available in the Medical Administration account at the facility to hire 
these supporting staff, the director cannot shift funding from the 
other medical care appropriations to support this function. Instead, 
the director must first seek a realignment of funds between 
appropriations at the network level, or at the national level if 
network funding availability and flexibility is also limited. If 
funding is not available at the national level, VA must notify the 
Office of Management and Budget and the Congress of an appropriations 
transfer request. This is one way the current multiple appropriation 
structure has added complexity to the management of health care at the 
facility level and increased the amount of time it takes to implement 
operational changes. By combining the two appropriations, the facility 
director could immediately hire additional clinical staff and the 
appropriate supporting staff.
    In addition, the multiple appropriation structure has significantly 
increased the volume of financial transactions needed to administer 
VA's health care system. Each appropriation is allocated to 
approximately 150 separate facilities or program offices. For example, 
in 2003, there were approximatelY 30,000 funding transactions to 
support the single medical care appropriation structure. In 2005, there 
were over 55,000 funding transactions required to support the three 
appropriation structure, and this has grown to about 91,000 in 2007. 
The significant growth in transaction volume has also increased the 
risk of errors and the potential for anti-deficiency violations
    Since the creation of the three account structure in FY 2004, there 
have been a series of significant unanticipated changes that has made 
it very difficult to accurately estimate the exact amounts required in 
each appropriation approximately 23 to 24 months prior to the end of 
the execution year. For example, in FY 2004 it took until the start of 
the fourth quarter (July 2004) to fully implement the new three 
appropriation structure. The FY 2005 President's Budget request had 
already been submitted in February 2004 prior to any operational 
experience at the facility level under the three account structure. The 
FY 2006 President's Budget was submitted in February 2005 based on less 
than six months actual experience under the three account structure. 
Subsequently, an additional $1.5 billion was added to the FY 2005 
Medical Services appropriation and an additional $1.452 billion was 
provided by Congress to the FY 2006 Medical Services appropriation.
    In addition, we have had to continually adjust our estimates for 
the three medical care accounts to reflect actual operational 
experience in delivering care to veterans at the local level.

                   COMMUNITY-BASED OUTPATIENT CLINICS

    The VA budget request includes $9.5 million for Community-Based 
Outpatient Clinics. You note that these clinics have shown to be cost 
effective and have improved access to high-quality health care for our 
veterans. The budget documents [page 1D-3] say that ``as part of the 
Strategic Planning process, VA has also initiated a review of 
nationwide access in rural areas. Nationally, VA had identified the 
underserved areas and will be developing plans to provide access in 
those areas.'' Please tell the Committee, for the record, where those 
areas are located. Explain more about how these plans will be 
developed, and is there funding in the budget request to fund these 
rural, underserved areas or are you looking to fund these areas at this 
as part of the fiscal year 2010 request?
    Response. VHA recognized that delivering health care closer to the 
veterans' place of residence was one way to better achieve our mission 
of being a patient centered integrated health care organization. As a 
result, one of the main focuses of the most recent Strategic Planning 
guidance cycle was improving access to care in underserved areas. These 
areas include urban, rural, and highly rural, but they are not 
differentiated in this process because an area often includes more than 
one designation.
    For the 2008-2012 Strategic Planning cycle, VHA provided VISNs with 
data that demonstrated their performance on drive-time access to 
guidelines for primary care (Table 1). VISNs were asked to develop 
solutions to meet the needs of veterans in these markets where travel 
time exceeded the access standards. Possible solutions included CBOCs, 
tele-health, and partnerships with DoD. VHA will proceed with 
developing business plans for the CBOCs identified in fiscal years 2008 
and 2009 and will re-evaluate the out-year CBOCs in a future cycle.
    VHA makes continuous improvements in the process it uses to 
identify the need for CBOCs. This most recent strategic planning cycle 
focused on improving access to primary care in underserved areas. VHA 
is planning to increase the sophistication with which it identifies the 
need for CBOCs by evaluating a combination of Geographic access data 
and with projections from VA's Enrollee Health Care Projection Model.

                                           Table 1:--ACCESS GUIDELINES
----------------------------------------------------------------------------------------------------------------
                Type of care                     Time criteria (minutes)            Threshold criteria (%)
----------------------------------------------------------------------------------------------------------------
Primary Care...............................  30 min.--Urban................                                  70
                                             30 Min.--Rural................
                                             60 Min.--Highly Rural.........
Acute Hospital.............................  60 min.--Urban................                                  65
                                             90 Min.--Rural................
                                             120 Min.--Highly Rural........
Tertary Care...............................  240 min.--Urban...............                                  65
                                             240 Min.--Rural...............
                                             Community Standard--Highly
                                              Rural.
----------------------------------------------------------------------------------------------------------------

             FEDERAL RECOVERY COORDINATORS/WOUNDED WARRIORS

    According to your testimony, the VA and DoD signed an agreement 
last October to provide Federal recovery coordinators to ensure that 
medical services and other benefits are provided to seriously-wounded, 
injured, and ill active duty servicemembers and veterans. I know this 
program is in its infancy, but please tell the Committee what you can 
about how this is being implemented. How many of these Federal recovery 
coordinators have been hired? How are they being paid? How many Federal 
recovery coordinators is there a need for, and how much funding is in 
the budget request for these coordinators?
    Response. ``The President's Commission on Care for America's 
Returning Wounded Warriors,'' co-chaired by Senator Robert Dole and 
Secretary Donna Shalala, endorsed the assignment of a Federal Recovery 
Coordinator (FRC), to serve as the primary point of contact for 
coordinating clinical and non-clinical care for each Operation Enduring 
Freedom/Operation Iraqi Freedom (OEF/OIF) severely wounded, ill and 
injured servicemember and his or her family. Although the Commission 
recommended that the Department of Health and Human Services (HHS) 
manage the program, VA volunteered to take the lead in establishing the 
program in coordination with the Department of Defense (DoD), HHS and 
the Public Health Service (PHS) Corps. DoD and VA, through the Senior 
Oversight Committee, established the Federal Recovery Coordination 
Program (FRCP) whose mission is to facilitate an efficient, effective 
and smooth rehabilitation and transition back to military duty or 
civilian life. The program is managed by the Care Management and Social 
Work Service, Office of Patient Care Services, Veterans Health 
Administration (VHA) and is comprised of representatives from VHA and 
the Veterans Benefits Administration (VBA), as well as four 
representatives from DoD.
    A Memorandum of Understanding (MOU) between VA and DoD was signed 
on October 30, 2007, for the joint oversight of the FRC Program. In 
December 2007, VA hired the FRCP Director and Supervisor. In January 
2008, VA hired eight FRCs; however, in March 2008 one FRC who was 
located at the National Naval Medical Center died, leaving the program 
with a total of seven FRCs in place. VA is actively recruiting two 
additional FRCs as soon as possible. These additional FRCs will be 
located at Brooke Army Medical Center, San Antonio, TX, and the Naval 
Medical Center, San Diego, CA. A third FRC will be selected to replace 
the now vacant position at National Naval Medical Center.
    Once hired, the current FRC staff attended a joint VA and DoD 
training session which was conducted over an intensive 2-week period 
which occurred in January 2008. After training, the FRC staff was then 
located at the following Military Treatment Facilities (MTFs) and are 
currently actively receiving patients:
    <bullet> 3 at Walter Reed Army Medical Center, Washington, DC
    <bullet> 2 at National Naval Medical Center, Bethesda, MD
    <bullet> 2 at Brooke Army Medical Center, San Antonio, TX

             DISABILITY EVALUATION SYSTEM/WOUNDED WARRIORS

    The VA and DoD are piloting a disability evaluation system for 
wounded warriors at major medical facilities in the Washington, DC 
area. The key features of this pilot project, according to your 
testimony, include one medical examination and a single disability 
rating determined by the VA with the goal of simplifying benefits, 
health care, and rehabilitation for injured servicemembers and 
veterans. This is one of two pilot programs that are mentioned in your 
testimony, and I applaud you for your work on these. Is there any 
concern that as you try to move to a comprehensive program as it 
relates to the Dole-Shalala report that these two programs will already 
be stovepiped, and the systems that you are setting up to run these 
programs won't be able to merge with some larger comprehensive program 
that might not be too far off in the future?
    Response. VA and DoD are piloting a Disability Evaluation System 
(DES) for all servicemembers referred to Medical Evaluation Board/
Physical Evaluation Board (MEB/PEB) in the National Capital Region. The 
current pilot program utilizes a single disability rating prepared by 
VA that is binding for both VA and DoD. Since this is a pilot, there 
are no permanent policies or information technology changes that would 
hinder flexibility to implement future comprehensive programs related 
to the recommendations of Dole-Shalala, or recommendations by other 
groups.
gao report on ``improved operational controls and management data would 

            ENHANCE VBA'S DISABILITY REEVALUATION PROCESS''

    As you know the GAO conducted a study on the VA's disability 
reevaluation process. The GAO found that the operational controls do 
not adequately ensure that staff schedule or conduct disability 
reevaluations as necessary. The GAO recommended, and the VA concurred, 
that VA needed to modify its electronic diary system to ensure that 
appropriate reevaluations are scheduled to occur; develop additional 
methods to ensure accuracy of completed and cancelled reevaluations; 
clarify its guidance so that all regional offices use the same criteria 
for measuring the timeliness of reevaluations and develop a plan to 
collect and analyze data on the results of reevaluations. Please tell 
the Committee what the VA has done since this report was released to 
address the GAO's findings.
    Response. In February 2008, the VETSNET suite of applications was 
enhanced to automatically establish electronic ``work items'' for 
maturing diaries and other system-generated messages. These electronic 
``work items'' remain in the system until resolved. Documentation of 
the resolution of the work items (e.g., claim established, due process 
notification sent, no action necessary, etc.) must be entered into the 
system, providing an audit trail of the disposition of the messages and 
diaries.
    With this enhancement, diaries and messages may now be managed with 
the VETSNET Operations Reports (VOR). These reports also allow regional 
offices and Headquarters to assess timeliness of action and 
disposition.
    Diaries and system messages for claimants paid through the Benefits 
Delivery Network (BDN) are still managed using paper VA Forms 20-6560, 
which are mailed to regional offices. Currently, over 800,000 veterans 
are being paid through VETSNET, and substantially all compensation and 
pension records will be converted to VETSNET by July 2009.
    As data is collected and accumulated through the VETSNET reports, 
we will use the additional information available to assess the 
reevaluation process and make appropriate changes.

            CHATTANOOGA AREA HEALTH CARE AND CARES DECISION

    Undersecretary Kussman, back in 1999 and I helped to create a pilot 
program in Chattanooga where the VISN 9 would contract for care locally 
that they could not receive at the Outpatient Clinic which is located 
in Chattanooga. The alternative was and still is to have my local 
veterans drive to Nashville or Murfreesboro for care the Chattanooga 
clinic cannot provide. For two years one of my local hospitals, 
Erlanger, participated in the pilot program, however they opted not to 
continue participating because the VA would not refer patients to a 
non-VA facility. (Over the course of the pilot project only 58 patients 
were referred to Erlanger.)
    In response to this, I worked with former Chairman Taylor to direct 
GAO to review the pilot project as well as access to care for 
Chattanooga area Vets. In regards to the pilot project the GAO found 
that the VA put significant restrictions on what vets were allowed to 
be referred to Erlanger.
    Additionally, and I think what speaks to the larger problem, GAO 
found that at the time 99% or the 16,379 enrolled vets in the 18-county 
Chatt area faced travel times that exceeded the VA's guidelines for 
accessing inpatient care. In addition 50% or Chatt area enrolled vets 
faced travel times that exceeded the VA's 30-minute guideline for 
outpatient care.
    As I am sure you are aware, since that time the CARES program has 
been developed to provide the VA with a national road map charting the 
way to better meet the healthcare needs of our veterans.
    The final CARES plan released in 2004 recognized the problems in 
the Chatt Area and recommended that the VA continue to work to contract 
with non-VA providers to meet the needs of the local community.
    Could you give me an update on two things: What the VA is doing to 
work with non-VA providers to ensure adequate local access to services?
    Response. VA has implemented a demonstration project, Project HERO, 
intended to assess VA's ability to leverage contracts on a large scale 
for these needed services. This project has been implemented in four 
VISNs. It requires vendors to meet these internal VA access standards, 
provides facilities alternatives to care when internal resources are 
not available, and improve sharing of clinical documentation associated 
with these external services.
    Additionally, VA does contract with available community providers 
for case by case fee basis.
    Could you update me on the VA's implementation of the 2004 CARES 
decision?
    Response. Campus Realignments--Tennessee Valley Healthcare System 
(HS) has moved all inpatient surgery to the Nashville Campus and 
completed the consolidation of all services.
    Inpatient Medicine and Surgery--The Commission recommended 
increasing inpatient medicine services through a mix of in-house 
expansions and community contracts.
    The cumulative occupancy rate for FY08 to date at Tennessee Valley 
HS--both Nashville and Murfreesboro is 76.4%. This occupancy level has 
not necessitated expansion of medicine beds at either facility.
    There has been a steady increase in the amount of inpatient care 
being contracted in the Chattanooga area:

                  REVIEW OF INPATIENT SERVICE UTILIZATION--PATIENTS IN CHATTANOOGA SERVICE AREA
----------------------------------------------------------------------------------------------------------------
                                                    FY 03        FY 04        FY 05        FY 06        FY 07
----------------------------------------------------------------------------------------------------------------
Patients Treated in the Community..............           84          122          212          201          267
Patients Treated at TVHS.......................          327          376          437          435          477
Total Patients.................................          411          498          649          636          744
Percent of Patients Receiving Care in the               20.4         24.5         32.6         31.6         35.9
 Community.....................................
----------------------------------------------------------------------------------------------------------------

    With the expected growth in veterans living in the Chattanooga 
service area, it is expected the need for continued contract and fee 
basis inpatient services will continue to grow.
    Outpatient Primary and Specialty Care--The Commission recommended 
expanding services at current sites of care and use community 
contracts.
    The Chattanooga CBOC is the most heavily utilized Tennessee Valley 
HS clinic, serving 12,682 veterans in Fiscal Year 2007. Tennessee 
Valley HS has submitted a concept paper for a new capital lease for a 
replacement clinic of 50,000 NUSF in the Chattanooga area. In the 
interim they are in the process of leasing administrative space near 
the CBOC to allow for additional clinical space.
    The following additional staff has been added at the existing site:
    <bullet> An additional primary care team
    <bullet> 8 additional mental health providers
    <bullet> A full-time Cardiologist
    <bullet> Contract provider for Orthopedics while recruitment is 
underway for a staff Orthopedic Surgeon
    <bullet> Ophthalmology, Podiatry and other subspecialties are 
referred to community providers or to one of the main Tennessee Valley 
HS campuses.
    In response to increasing demand for diagnostic services, in 
December 2005, a VA Imaging Center was opened in the same complex as 
the CBOC. The center offers diagnostic radiology, CT scans, bone 
density studies, ultrasound, and complete audiology testing. Pulmonary 
function tests are planned for the future, and possibly cardiac stress 
testing.
    [Clerk's note.--End of questions for the record submitted 
by Congressman Wamp.]
    [Clerk's note.--Questions for the record submitted by 
Congressman Farr.]

    Last year this Subcommittee and the Congress instituted the largest 
funding increase in the VA's history. Given that the VA had a previous 
$1.7 billion shortfall in their health care budget,
    <bullet> Is the VA accurately anticipating sufficient funding to 
meet the anticipated health care needs of an aging veterans' 
population?
    Response. VA's actuarial model accounts for the fact that enrollees 
will need more health care services as they age, and the utilization 
and expenditure projections reflect those services that they are 
expected to receive from VA. VA does an annual data match of enrollees' 
actual utilization in VA and Medicare that provides a fairly complete 
picture of the health care utilization patterns of the age 65 and older 
enrollee population.
    VA also recognizes that there will be a growing need for long-term 
care services as our population ages. VA's goal of improving the 
offering of long-term care services with an emphasis on home and 
community-based programs will assist VA in planning to meet the 
increasing demand for these services by our aging as well as our newest 
generation of veterans.
    To accomplish this goal, VA has increased its Medical Care budget 
obligation request for long-term care services, particularly home and 
community based services, in each of the past 4 years (reported in 
millions of dollars). VA has targeted its increased budget dollars 
toward rehabilitation and longitudinal home care as alternatives to 
institutional care. VA is also expanding existing capabilities in long-
term care, including care coordination and telehealth technologies; and 
will continue to improve services for traumatic brain injured veterans 
through targeted day health and respite care centers.
    Is the VA accurately anticipating sufficient funding for veterans 
returning from operations in Iraq and Afghanistan?
    Response. In FY 2009, VA estimates that it will treat over 333,000 
OEF/OIF veterans at a cost of approximately $1.27 billion. This 
estimate is based on the actual enrollment rates, age, gender, 
morbidity, and reliance on VA health care services of the enrolled OEF/
OIF population. OEF/OIF veterans have significantly different VA health 
care utilization patterns than non-OEF/OIF enrollees, and this is 
reflected in the estimates above. For example, when modeling expected 
demand for PTSD residential rehab services for the OEF/OIF cohort, the 
model reflects the fact that they are expected to need eight times the 
amount of these services compared to non-OEF/OIF enrollees. The model 
also reflects OEF/OIF enrollees' increased need for other health care 
services, including physical medicine, prosthetics, and outpatient 
psychiatric and substance abuse treatment. On the other hand, 
experience indicates that OEF/OIF enrollees seek about half as much 
inpatient acute surgery care from VA as non-OEF/OIF enrollees.
    Many unknowns will influence the number and type of services that 
VA will need to provide OEF/OIF veterans, including the duration of the 
conflict, when OEF/OIF veterans are demobilized, and the impact of our 
enhanced outreach efforts. VA has estimated the health care needs of 
OEF/OIF veterans based on what we currently know about the impact of 
the conflict. To ensure we are able to care for all returning OEF/OIF 
veterans, we have made additional investments in our medical care 
budget and we monitor actual expenditures against budget levels on a 
monthly basis.

                              VET CENTERS

    I have heard from some employees at the VA that some older veterans 
are being turned away or put to the back of the line in favor of 
veterans from the GWOT. The last thing we want to see is vets competing 
for services among themselves.
    <bullet> What can you tell us about access to care being received 
at local Vet Centers?
    Response. The Readjustment Counseling Service (RCS) mission is to 
provide outreach and readjustment counseling to all combat veterans of 
any war or armed conflict, and to the members of their families. The 
number of Vietnam veterans served at Vet Centers has actually increased 
over the last three years, and Vietnam veterans continue to make 
approximately 70% of all the visits provided by the Vet Centers. Also, 
Vet Centers continue to report having no waiting list for new veterans, 
of any combat era, to be seen and evaluated. Veterans without 
appointments are welcome to walk into a Vet Center, and our standard is 
for them to be seen by a counselor within 30 minutes for an evaluation 
and to schedule follow-up appointment.

                 SEAMLESS TRANSITION BETWEEN VA AND DOD

    When an active duty soldier is honorable discharged, the Department 
of Defense must transfer that soldier's records to the VA. There have 
been problems in the past making this a timely action, and some 
soldiers discharged with a service connected disability have discovered 
that the DoD and the VA do not always use the same disability ratings 
system. You mentioned in your testimony that the VA and the DoD need to 
``continue'' progress on interoperable electronic medical record 
systems.
    <bullet> What progress has been made previously?
    Response. VA and DoD have made significant progress toward the 
development of interoperable electronic health record systems. Since 
2002, DoD has transferred available electronic records on approximately 
4.3 millions service members that have separated from active duty. DoD 
transferred these records to a jointly developed secure repository, 
known as the Federal Health Information Exchange (FHIE), where the 
records are available for viewing by VA clinicians treating these 
veterans and VBA staff adjudicating disability claims. DoD also has 
transferred pre- and post- deployment health assessment and post 
deployment health reassessment forms in electronic format on over 
880,000 patients. These forms are also available for viewing in FHIE.
    In 2004, VA and DoD began sharing current electronic health data in 
viewable format bidirectionally through the Bidirectional Health 
Information Exchange. At present, VA and DoD have increased this data 
exchange to now include outpatient medication, allergy information, 
laboratory results, radiology reports, ambulatory encounter notes, 
problem lists, procedures, and discharge summaries. These data are 
exchanged on shared patients that receive health care from both VA and 
DoD facilities and are available at every DoD military treatment 
facility and VA medical center (VAMC), including key facilities 
treating wounded warriors, such as Walter Reed and Brooke Army Medical 
Centers, Bethesda National Naval Medical Center, and Landstuhl 
(Germany) Regional Medical Center. DoD also is sending clinical theater 
information electronically in order to address issues related to 
battlefield injuries.
    In support of our most seriously ill and injured, DoD is sending 
radiology images and scanning the entire medical record at these 
facilities and sending it to the four Level 1 VA polytrauma centers 
that are receiving these patients for recovery and rehabilitation.

                    NON-INSTITUTIONAL LONG-TERM CARE

    Dr. Kussman, you also mention in your testimony that there exists 
generational differences in providing long-term care to newer veterans. 
Accordingly, you list access to modern technologies as a means of 
addressing some of these generational differences.
    <bullet> Has the VA projected how many potential long-term care 
patients may enter the system from Iraq and Afghanistan--not 30 years 
from now but starting now and in the near future?
    Response. VA has not made formal projections of long-term care 
demand for Iraq and Afghanistan veterans. Currently, there are fewer 
than 500 veterans from these conflicts who require long-term care 
services. VA has sufficient capacity to meet both the nursing home and 
home and community based care needs of these veterans.
    The number of non-institutional long-term care patients is expected 
to grow by the VA in the next several years. In your testimony, Dr. 
Kussman, you mention that the VA is expanding the services provided by 
organizations in the community.
    <bullet> Your testimony mentions that you are expecting 
approximately a 40% increase in the number of patients receiving non-
institutional long-term care. What criteria are you using to project 
that increase?
    Response. The growth in non-institutional long-term care in the FY 
2009 Congressional Budget Submission reflects VA's long range plan to 
shift resources to home and community based services, while maintaining 
capacity in nursing home care. VA believes that a comprehensive 
approach of noninstitutional care can limit increases in the demand for 
nursing home care. This approach also reflects veterans' preference for 
home based services.
    VA's estimates of demand for home care services are based on a 
model which measures actual home care utilization by age, disability 
level, marital status, and veterans' use of these services. Demand is 
expected to remain robust for a number of years.
    The FY 2009 increase appears particularly strong because, for the 
first time in the Congressional Submission, VA has added the long-term 
care portion of its Home Telehealth Program to the mix of non-
institutional care services. The Home Telehealth Program average daily 
census increases 80 percent from FY 2008 to FY 2009.
    <bullet> Can you tell the committee, as a percentage, how many 
veterans receive some form of non-institutional long-term care?
    Response. In FY 2007, fifty percent of VA's total extended care 
patient population received some form of care in either non-
institutional or enriched housing settings. Of the total veteran 
population enrolled in VA for health care, two percent received non-
institutional long-term care services.
    <bullet> How much does it cost the VA, per patient, to provide in-
home services to veterans? How does this compare to the residential 
care rates at VA homes?
    Response: In FY 2007, the average cost to provide in-home services 
to veterans was approximately $42 per day. The average daily rate for 
care in VA nursing homes was $654 per day in FY 2007 . VA is unable to 
separate the ``residential'' cost of nursing home care from the total 
cost of that care.
    <bullet> How does the VA select the service provider for these 
services?
    <bullet> How does the VA verify the quality of service from 
noninstitutional providers?
    <bullet> Does the VA rate the quality and satisfaction with in-home 
services compared to institutionalized services?
    Response. VA chooses home and community based care providers on the 
basis of quality, geographic coverage, and cost. VA uses Medicare and 
Medicaid certified agencies to provide care. Certification is the 
accepted standard for ensuring a quality service. VA also examines the 
findings of State Health Departments on agencies and reviews the 
findings on the Centers for Medicare & Medicaid Services (CMS) Website, 
Home Health Compare. While VA does not ``rate'' the quality of care 
agencies provide or veteran satisfaction, VA does measure quality 
through CMS and the States and seeks veterans' reactions to the 
services provided and their satisfaction through telephone interviews 
of one-third of those receiving services.

                           RURAL HEALTH CARE

    Your testimony mentioned the expansion of the mental health care 
staff and the expansion of the telemental health program in order to 
reach additional patients.
    <bullet> How will the VA expand telemental health care to people 
who do not live in an area that offers the broadband connection 
necessary for delivering these services?
    Response. Telemental health services are provided by VA to veteran 
patients in two ways in areas where broadband services are an issue. 
First, telemental health services are provided between hospitals and 
clinics; and second telemental health is provided into the patients' 
homes via home telemental health. In terms of services provided between 
hospitals and clinics in areas that are under-provisioned with DSL/
broadband connectivity, video devices can be deployed utilizing 
integrated switched data network (ISDN) with 256K capacity to interface 
to VA ISDN gateways strategically located and consolidated throughout 
the VA enterprise network. Improvements in the past several years in 
video compression algorithms have provided higher quality video 
connection experience utilizing affordable basic rate interface lines 
where broadband is not available. In terms of providing home telemental 
health services directly into veteran patients' homes, VA is developing 
a business plan and service strategy to accomplish this through a range 
of telecommunications modalities. At this time, VA does not have the 
definitive solution to accomplish this. Legal, technical, and financial 
aspects are being further explored and developed as VA endeavors to 
extend health care as close to the veteran community as possible.
    <bullet> What does your outreach program advertising these services 
entail? Can you provide the committee with some specific examples?
    Response. Telemental health expansion is part of VA's overall 
mental health expansion. It is one way to allow veterans access to 
care; therefore it fits within general activities occurring nationally 
and locally to raise awareness among veteran patients about the 
availability of mental health services in VA. VA's Office of Care 
Coordination and associated staff at the Veteran Integrated Service 
Network (VISN) and local facility level market telemental health 
services internally to staff to promote the increased use of telemental 
health. Nationwide, VISN and facility staff members promote the use of 
telemental health services to Veteran Service Organizations.

                             VISN STRUCTURE

    As you are aware, the Veteran Integrated Service Network is the 
system that oversees the operation of regional veterans' hospitals and 
outpatient service centers.
    <bullet> Please tell the committee your views on the effectiveness 
of the VISN structure for providing health care.
    <bullet> What recommendations can you give to the committee to 
improve the VISN system?
    Response. VA's structural transformation from a hospital system to 
a health care system, commonly known as Veterans Integrated Service 
Networks (VISN) has been a success. This structural transformation 
facilitated the shift from an inpatient hospital based system to an 
integrated patient-centered health care system, which provides the most 
effective and efficient care for veterans.
    The VISNs provide broad and general operational direction and 
supervision to medical center field operations, which include fiscal 
and personal resource management, information technology, business 
operations, canteen service, clinical liaison, planning, quality 
management, safety, industrial hygiene, environment management, 
emergency management, engineering operations and policy. The span of 
control is reasonable and the geographical layout has worked well over 
the past 10 years.
    HeartMath is a behavioral therapy, with assistive technology, that 
helps reduce stress and anxiety. The DOD is using it to help military 
personnel returning from combat who may have mental health issues. In 
18 VA clinics around the country and 10 DOD facilities doctors are 
using HeartMath to assist servicemen and veterans with PTSD and other 
mental health issues.
    Are you familiar with HeartMath and how it is being employed at VA 
sites?
    Response. A phone meeting occurred between the Office of Mental 
Health Services (OMHS) in the Department of Veterans and the Department 
of Defense to review this request. VA had no prior knowledge of the 
Heart Math device, other than a review of the website for this device. 
DoD has some experience with it. According to DoD, HeartMath provides a 
measure of heart rate variability and balance of cardiovascular tone. 
DoD has some experience with its use on a trial basis in some settings 
that do relaxation training. Relaxation training has various uses, and 
DoD has used it as an adjunct to PTSD treatment, although only in a few 
sites and not routinely. VA is not aware of any evidence supporting its 
use as a treatment for PTSD per se, and DoD has not collected evidence 
regarding the efficacy or effectiveness of HeartMath for other 
problems.
    VA recommends that the vendor for this device be invited to make a 
presentation, particularly focusing on the scientific evidence that 
would support its efficacy in relation to specific medical or mental 
health conditions. VA will contact the vendor and extend an invitation 
for a presentation.
    In 2006 Congress enacted law that required the VA to add marriage 
and family therapists to its list of service providers. To date, the VA 
has not done so.
    <bullet> How and when will the VA add marriage and family 
therapists to its list of service providers? What is taking so long to 
implement the law?
    Response. Section 201 of Public Law 109-461 added Marriage and 
Family Therapists (MFTs) and Licensed Professional Counselors (LPCs) to 
section 7401 (3) of title 38, United States Code. This gave the 
Veterans Health Administration (VHA) the option of employing 
individuals with these credentials under our Hybrid Title 38 employment 
system.
    For many years, VHA has, and continues to successfully hire 
individuals with master's degrees in mental health counseling, marriage 
and family counseling, and related fields as readjustment counseling 
therapists in our Vet Centers. In accordance with guidelines 
established by the U.S. Office of Personnel Management, these positions 
are properly classified in the GS-101, Social Science series. Qualified 
LPCs and MFTs may be hired in this series. VHA is considering the 
possibility of utilizing individuals with these credentials in its 
medical centers to further enhance mental health staffing needs.
    In May 2007, VHA provided a report entitled ``Marriage and Family 
Therapy Workload'' to leadership on the Senate and House Committees on 
Veterans' Affairs, in accordance with the requirements of section 201 
of Public Law 109-461. As a follow-up to that report, a recently 
initiated occupational study is assessing the current and future use of 
therapists and counselors within VHA. During this endeavor, VHA has 
been in contact with key officials at the American Association for 
Marriage and Family Therapy, the American Counseling Association, the 
American Mental Health Counselors Association, and VA professionals in 
the areas of mental health, social work and pastoral counseling. The 
information we have obtained from these organizations, along with a 
survey of facility staffing and health care needs VHA will undertake in 
the next few months, will allow us to determine the most appropriate 
use of these professionals in our health care system. No changes to 
position descriptions or establishment of occupational series specific 
to MFTs or LPCs will be made until a complete evaluation of the study 
results has been finalized.
    The VA operates training and rehab centers to help blinded or 
vision-impaired veterans adjust to the loss of vision. The Palo Alto 
polytrauma center has one such center.
    <bullet> How many blind/vision training and rehab centers does the 
VA operate?
    Response. Current blind rehabilitation services are provided 
through ten residential Blind Rehabilitation Centers that provide 
comprehensive blind rehabilitation training. The locations are noted 
below:
          <bullet> West Haven, Connecticut
          <bullet> Augusta, Georgia
          <bullet> Birmingham, Alabama
          <bullet> West Palm Beach, Florida
          <bullet> San Juan, Puerto Rico
          <bullet> Hines, Illinois
          <bullet> Waco, Texas
          <bullet> Tucson, Arizona
          <bullet> American Lake, Washington
          <bullet> Palo Alto, California
    Thirty-eight blind rehabilitation outpatient specialists (BROS) 
provide blind rehabilitation training to veterans and their families 
who may not be able to travel to a Blind Rehabilitation Center. BROS 
services are provided to veterans in the most appropriate setting, for 
example, home, college, nursing home, work site, and assisted living 
environments. BROS are located at VAMC's and outpatient clinics and 
serve veterans at the Vet Centers.
    One hundred sixty-four visual impairment service team (VIST) 
coordinators provide case management for legally blind and severely 
visually impaired veterans. VIST coordinator duties include providing 
and/or arranging for the provision of appropriate treatment in order to 
enhance a blind veteran's functioning. VIST coordinators are located in 
VAMC's, outpatient clinics, and CBOCs and serve veterans at the Vet 
Centers.
    Two Visual Impairment Services Outpatient Rehabilitation (VISOR) 
Programs are outpatient, intermediate short-term rehabilitation 
programs. They provide safe overnight accommodations for veterans who 
are visually impaired and require temporary lodging. The programs are 
located in Lebanon, PA, and West Haven, CT.
      <bullet> Do blinded veterans have the right to choose to be sent 
to an intensive rehabilitation program outside of the blindness VA 
system, and have that vocational Rehabilitation funded by the VA?
    Response. Rehabilitation services provided by VA fall into the 
categories of ``vocational rehabilitation,'' which is provided by the 
Veteran Benefits Administration (VBA), and ``clinical blind 
rehabilitation,'' which is provided by the Veterans Health 
Administration (VHA). VA continually assesses the unique needs of all 
blinded veterans and when this is indicated in an individual patient's 
care, engages the private sector to provide care as a complement to the 
VA system of care. In circumstances where VA is not able to provide the 
needed services, or required services are geographically inaccessible, 
title 38 United States Code Sec.  1703 provides authority for VA to 
contract or purchase services from non-VA sources for certain 
categories of veterans.
      <bullet> If so, how many blind Veterans have been sent for 
training outside of the VA, and has the VA funded that rehabilitation?
    Response. Since 2003, VHA Blind Rehabilitation Program has referred 
228 blind or visually impaired veterans or service members for 
Vocational Rehabilitation training outside of the VA system. VA paid 
for 3 private Vocational Rehabilitation training programs, while 225 
veterans or service members received State Vocational Rehabilitation 
training in their home environment at no cost to the veteran.
      <bullet> Can you give me some sense of the kind of training or 
rehab that goes on in the VA centers and how that compares to the 
rehabilitation blind-centric organizations provide to newly blinded 
persons?
    Response. VA Blind Rehabilitation Services are provided by 
employees who are university-trained professionals in blind 
rehabilitation, optometry, psychology, social work, and nursing. 
Inpatient VA Blind Rehabilitation Centers (BRC) services are accredited 
by the Commission on Accreditation of Rehabilitation Facilities (CARF). 
VA BRCs provide assessment, evaluation, rehabilitation planning and 
training in the areas of:
      <bullet> Orientation and mobility--orientation to the 
environment, spatial awareness, safe movement, travel training, use of 
public transportation, effective use of technology such as global 
positioning systems.
      <bullet> Communication--the ability to send and read written 
materials to self and others, e.g. reading; writing; using 
organizational strategies such as notes to self; the use of Braille; 
and speech-output technology.
      <bullet> Activities of daily living--personal care, grooming, 
health care, care of clothing, household cleaning and management, meal 
preparation including shopping, financial management.
      <bullet> Manual skills--sensory integration, household repair, 
woodworking, small engine repair.
      <bullet> Computer technology--use of computers for word-
processing, access to Internet, email and other personal uses for 
computers.
      <bullet> Vision rehabilitation--provision of optical and 
electronic devices that magnify images so that they can be seen by 
veterans who retain sufficient vision to use their sight effectively 
for daily tasks. Training in the use of vision and devices that allow 
veterans to read, write, watch television, access computers, manage 
money, etc., using vision.
      <bullet> Counseling--adjustment to blindness, peer-support, 
individual counseling by psychologists and social workers.
      <bullet> Health management--lifestyle, fitness, exercise 
counseling and regimens, dietary and medication management and 
compliance (e.g., diabetes control), oversight for veterans who have 
medical conditions that require medical support (e.g., on dialysis, 
COPD), mental health services for veterans who require it (e.g., PTSD).
      <bullet> Leisure and recreational activities--participation in 
sports, hobbies and outings that provide opportunities to use skills 
developed in the classroom, and socialization with fellow veterans in 
the program.
      <bullet> Family training programs--Family members are invited to 
the program for several days of classes in understanding visual 
impairment and blindness, attend classes with their veterans, and 
receive counseling and support in understanding issues associated with 
the veteran's increased skill and independence.
    Blind-centric organizations provide training similar to that 
provided by VA Blind Rehabilitation Centers, with a similar philosophy 
to provide the milieu of assessment, instruction, and support services 
to help individuals regain skills, adjust to blindness, function 
independently. The primary differences between VA's program and blind-
centric organizations are:
      <bullet> VA BRC length of stay is determined by the veteran's 
goals for training and assessment of the veteran's current level of 
ability. Programs are an average of 6-8 weeks, and veterans may return 
for additional training. Blind-centric programs require clients to 
attend their centers for about 6 months.
      <bullet> VA BRCs hire only university-trained professionals in 
specific disciplines that are required for blind rehabilitation. Blind-
centric programs do not require university training for their staff who 
provide instruction, and frequently utilize instructors who are blind 
as having the requisite training and background to train others who are 
blind.
      <bullet> VA BRCs are CARF accredited. Blind-centric programs are 
not CARF accredited.
      <bullet> VA BRCs provide medical and nursing care for inpatient 
veterans. Blind-centric programs do not provide medical and nursing 
care for their clients.
      <bullet> VA BRCs provide vision rehabilitation services for 
veterans with limited sight. Blind-centric programs do not provide 
vision rehabilitation services, nor do they emphasize the use of vision 
in daily life for clients who have useful vision; instead, clients with 
vision are blindfolded and taught to use other senses.
      <bullet> VA BRC staff provides incremental training to emphasize 
safety. The difficulty of lessons are gradually increased to assure 
that veterans are challenged to learn without experiencing 
circumstances that could be adverse, particularly for elderly veterans, 
or those with traumatic brain injury. Blind-centric programs emphasize 
a ``discovery learning method'' that allows clients who are blind to 
resolve difficulties on their own; e.g., getting lost on a travel 
training lesson.
    [Clerk's note.--End of questions for the record submitted by 
Congressman Farr.]
                                           Tuesday, March 11, 2008.

                               U.S. NAVY

                               WITNESSES

ADMIRAL GARY ROUGHEAD, CHIEF OF NAVAL OPERATIONS GENERAL JAMES T. 
    CONWAY, COMMANDANT OF THE MARINE CORPS

                       Statement of the Chairman

    Mr. Edwards [presiding]. Good afternoon. I want to welcome 
everyone to our fiscal year 2009 Navy and Marine Corps hearing 
for military construction and family housing.
    Admiral Roughead, welcome to our committee.
    Admiral Roughead. Thank you very much for having me.
    Mr. Edwards. Thank you for your lifetime of service.
    Admiral Roughead. Thank you.
    Mr. Edwards. General Conway, welcome back to our 
subcommittee. It is good to have you back.
    And thank you both, and your families, and all you do for 
our families and our country.
    This will be another banner year for Navy and Marine Corps 
MILCON, especially the Marine Corps. The total request is $3.1 
billion, a 41 percent increase over last year's request. For 
the Marine Corps alone, the request is over $2 billion. I think 
it is safe to say it may be the largest MILCON budget the 
Marine Corps has ever requested.
    Many of these increases are due to the Marines continuing 
efforts to add another 27,000 personnel to its permanent end 
strength by 2011. The total request for growing the force in 
fiscal year 2009 is $1.4 billion. Much of this money would be 
invested in new barracks.
    We want to have a series of questions and discuss a range 
of issues today, but before we proceed with your opening 
comments, I would like to recognize our ranking member, Mr. 
Wamp, for any comments he would care to make.

                Statement of the Ranking Minority Member

    Mr. Wamp. Thank you, Mr. Chairman.
    And, Admiral, General, it is an honor to even be sitting 
here at the table with you. I appreciate very much your service 
to our country and the people that you represent sitting here 
today.
    The chairman and I have a great relationship. We are off to 
a very good start. And I am the new kid on the block, but I 
admire you, and I look forward to working with him to make sure 
that you have everything you need to meet the demands of today 
and tomorrow, especially given the changes that we know are 
underway with a ramped up force of the United States Marine 
Corps.
    I have read the background and look forward to today and 
then working with you in the months and years ahead to make 
sure that you have what you need.
    We are grateful for your service, and thank you for your 
presence here today.
    Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, sir.
    Admiral Roughead is appearing here before the subcommittee 
for the first time as Chief of Naval Operations. Briefly, for 
the record, let me say that he has 35 years of active service, 
including six operational commands, and is a 1973 graduate of 
Annapolis.
    He became the Chief of Naval Operations on September 29, 
2007 and was previously assigned as commander of Fleet Forces 
Command. He also served as the Deputy Commander of the Pacific 
Command, Navy Chief of Legislative Affairs--we apologize you 
had that responsibility--and commandant of the Naval Academy.
    General James T. Conway, before our committee once again, 
Commandant of the Marine Corps; has 38 years of service, and 
thank you again for that service.
    He was commissioned as an infantry officer in 1970. He has 
been the Commandant of the Marine Corps since November of 2006. 
He commanded the first Marine expeditionary force during two 
tours in Iraq. He served as president of the Marine Corps 
University at Quantico and commanded a battalion landing team 
in Desert Storm. A native of Walnut Ridge, Arkansas. Now, where 
is Walnut Ridge, Arkansas.
    General Conway. It is up in the northeastern part of the 
state, probably closer to Jonesboro.
    Mr. Edwards. All right. I used to spend summers in a little 
town called Warren, Arkansas, pine and tomato countries.
    Without objection, your formal testimony will be submitted 
for the record, and I would now like to recognize you, Admiral 
Roughead, for any opening comments you would care to make and 
then General Conway to follow.

                   Statement of Admiral Gary Roughead

    Admiral Roughead. Chairman Edwards, Representative Wamp, it 
is my honor to appear before you today, representing the 
dedicated Sailors and civilians of our Navy who are out and 
about carrying out our maritime strategy and doing essential 
work for our nation around the globe.
    For our Sailors to be forward, they must be individually 
ready and mission ready, and shore infrastructure is essential 
to their success. To support our mission, our bases must have 
scalable, agile and adaptive capabilities for our warfighters, 
our ships and our aircraft.
    For warfighters, that means facilities that provide 
innovative and relevant training. For our ships and aircraft, 
it means the ability to properly maintain, equip and prepare 
today and tomorrow the force structure, the force laydown and 
the operational concepts that we are going to use.
    To optimize individual readiness, shore installations must 
provide an environment which enables two things: A quality of 
work and a quality of life that our Sailors and Navy civilians 
deserve. Maintaining quality of work means we provide our 
Sailors and Navy civilians with the facilities and support to 
get the job done efficiently and effectively, such as optimized 
maintenance facilities, communications infrastructure and pier 
and airfield upgrades.
    Sustaining quality of life means that we must address not 
only the needs of the Navy Sailor and Navy civilian but those 
of our families as well. Those resources include quality 
medical facilities, fitness centers for health and physical 
readiness, child care facilities and housing where Sailors can 
enjoy their time at home and the assurance of safety of their 
families when they are far away.
    In recent years, our shore facilities deteriorated as our 
investments focused on field readiness. This deterioration 
impacts our ability to support our Fleet and thereby affects 
our Sailors' quality of work. Sailors need the piers and shore 
repair facilities to keep the Fleet ready.
    It also has a direct effect on our Sailors' standard of 
living. Housing is a crucial element to this, but lack of 
available, affordable child care is consistently ranked as a 
top readiness and retention issue.
    To address this need, we have requested funding for an 
additional 1,320 spaces at our child development centers and 
homes this year. We are grateful for your support of our 
public-private ventures, which satisfy critical housing needs. 
These and other important initiatives will improve recruiting 
and encourage Sailors, Navy civilians and their families to 
stay Navy.
    To recapitalize our facilities and sustain our operational 
requirements today and in the future, we must make the right 
investments and the right capabilities and services at the 
right installations now. Navy Installation Command has made 
progress by leveraging best practices and consolidating budget 
development. The Shore Readiness Board of Directors that I 
created in November, shortly after I became the Chief of Naval 
Operations, will further allocate funds to the appropriate 
capabilities.
    With the 2009 budget, we will have the necessary resources 
to maintain our readiness.
    I thank you and the committee again for your time today and 
for your continued support of the 600,000 Sailors, Navy 
civilians and our families.
    I stand ready for your questions.
    [Prepared statement of Admiral Gary Roughead follows:]

    [GRAPHIC] [TIFF OMITTED] T2754B.087
    
    [GRAPHIC] [TIFF OMITTED] T2754B.088
    
    [GRAPHIC] [TIFF OMITTED] T2754B.089
    
    [GRAPHIC] [TIFF OMITTED] T2754B.090
    
    [GRAPHIC] [TIFF OMITTED] T2754B.091
    
    [GRAPHIC] [TIFF OMITTED] T2754B.092
    
    [GRAPHIC] [TIFF OMITTED] T2754B.093
    
    [GRAPHIC] [TIFF OMITTED] T2754B.094
    
    [GRAPHIC] [TIFF OMITTED] T2754B.095
    
    [GRAPHIC] [TIFF OMITTED] T2754B.096
    
    [GRAPHIC] [TIFF OMITTED] T2754B.097
    
    Mr. Edwards. Thank you for your comments.
    General Conway.

                  Statement of General James T. Conway

    General Conway. Chairman Edwards and Congressman Wamp, it 
is my pleasure to always provide you with forthright analysis 
assessments here at the Marine Corps. I bear that in mind as we 
appear before you today.
    The Marine Corps retains the mission to provide a 
multicapable force for our nation, the two-fisted fighter, if 
you will, able to destroy enemy formations with our air and 
ground team in major contingencies but also able to fall back 
on our--and warfare skills all over decades of conflict.
    Our magnificent patriots have been extremely effective in 
disrupting insurgents and the Al Qaida in the Al Anbar 
province. In the spirit of jointness, I would note that it has 
been Marines and soldiers and Sailors in a composite effort 
over time that has brought success there.
    We are still supporting a surge in Iraq, and we have 
already shifted from population protection to transitioning 
security responsibilities to Iraqi security forces, and Iraq 
will be stepping up to the task. While it may not be our core 
competency, Marines have addressed the nation-building aspects 
of our duties with enthusiasm and determination.
    In answer to the most recent call from the Secretary of 
Defense, we are also deploying more than 3,000 Marines to 
Afghanistan. There, Marines will assist the joint force in 
either gaining or maintaining momentum there. We fall in on our 
expeditionary ethos of living hard and fighting well as part of 
an air-ground team.
    We do, however, have a significant issue with our families, 
though the Marines are doing extremely well. Simply put, they 
are proud of their contributions to this war, but they are 
tired. We owe it to those families to put our family service 
programs onto a wartime footing. For too long, our programs 
have been borne on the backs of volunteers, perhaps acceptable 
during peacetime, but untenable during a protracted conflict. 
The Congress has been exceptionally supportive in enabling us 
to make good on the promise to do more.
    Of course, we look forward to our obligations to the 
nation, and we have learned lessons in trying to build a force 
as we fight. We are growing our force, but it is more than just 
manpower. This growth requires training, infrastructure and 
equipment to meet the needs of our country. You have helped us 
meet those requirements with steady support and encouragement, 
and for that, we certainly thank you.
    For our infrastructure, the Marine Corps has dedicated 
funding more than eight times our historical average--your 
point earlier, sir--for barracks and construction; however, 
this increase is the result of more than just our growth. For 
the longest time, we placed some of our operational priorities 
above these projects. Frankly, we put ourselves in--with 
regards to our barracks. We now have a severe backlog of repair 
needs and construction requirements.
    I think the photos in my written statement will provide you 
an appreciation of the conditions of some of our most dire 
barracks, some of which were built actually during the Korean 
War.
    We are committed to providing adequate billeting for all of 
our existing, unmarried, junior enlisted Marines and non-
commissioned officers by 2012 and for our increased end 
strength by 2014.
    On behalf of your Marines, I extend a great appreciation 
for your support this year, and I thank you in advance for your 
efforts on behalf of our brave Servicemen and women who are in 
harm's way.
    I assure you that the Marine Corps appreciates the 
increasing competition for the nation's discretionary 
resources, and we will continue to provide a tangible return on 
every dollar spent.
    Thank you, Mr. Chairman.
    [Prepared statement of General James T. Conway follows:]

    [GRAPHIC] [TIFF OMITTED] T2754B.098
    
    [GRAPHIC] [TIFF OMITTED] T2754B.099
    
    [GRAPHIC] [TIFF OMITTED] T2754B.100
    
    [GRAPHIC] [TIFF OMITTED] T2754B.101
    
    [GRAPHIC] [TIFF OMITTED] T2754B.102
    
    [GRAPHIC] [TIFF OMITTED] T2754B.103
    
    [GRAPHIC] [TIFF OMITTED] T2754B.104
    
    [GRAPHIC] [TIFF OMITTED] T2754B.105
    
    [GRAPHIC] [TIFF OMITTED] T2754B.106
    
    [GRAPHIC] [TIFF OMITTED] T2754B.107
    
    [GRAPHIC] [TIFF OMITTED] T2754B.108
    
    [GRAPHIC] [TIFF OMITTED] T2754B.109
    
    [GRAPHIC] [TIFF OMITTED] T2754B.110
    
    [GRAPHIC] [TIFF OMITTED] T2754B.111
    
    [GRAPHIC] [TIFF OMITTED] T2754B.112
    
    [GRAPHIC] [TIFF OMITTED] T2754B.113
    
    Mr. Edwards. Great.
    Thank you, both.

                   SINGLE VS. MARRIED SERVICEMEMBERS

    Could I ask you, both, just for the record, what percentage 
of your personnel are married versus single?
    Admiral Roughead. Mr. Chairman, for us, it is in the--I 
want to say in the 70 percent range. I can find you the exact 
number, but it really is around 70 to 80 percent. And many of 
them, as you know, are dual-income families, which really is 
the driver behind a lot of the child care initiatives and 
family support programs.
    General Conway. And for us, it is much less than that. It 
is 40 to 45 percent.
    Mr. Edwards. Forty to 45 percent? Okay.

                           INADEQUATE HOUSING

    One of the questions that I ask every year, and I want to 
establish a track record so we can trace it, is based on DOD 
definitions, how many personnel do you have in families living 
in inadequate housing and/or inadequate barracks today?
    General Conway, you mentioned 2012 and 2014 as the end goal 
for having them in housing that meet standards. Could you tell 
me, if you have access to that, how many personnel are living 
in housing or barracks that don't meet basic DOD standards? And 
would you define what those standards are?
    Admiral Roughead. Yes, sir. For our family quarters, the 
definition of inadequacy is any unit that requires over $50,000 
in repair. In the continental United States, we do not have 
quarters that fall into that category, but we do have quarters 
outside of the continental United States that are considered 
inadequate, specifically 46 in Guantanamo Bay, Cuba, 736 in 
Sasebo, Japan and six in Guam.
    With regard to our single accommodations, single Sailor 
accommodations, the requirement for us is a one-plus-one 
configuration for our barracks with a 90-square-foot per person 
square footage. At the end of this year, we will have 
eliminated the inadequate accommodations for our permanent 
party Sailors.
    As you know, we are working to move our E-3 and below and 
E-4, less than four years of service, off of our ships and 
provide them with a homeport ashore. At the present time, I 
have 9,000 Sailors who do not have accommodations. By the end 
of 2010, I will have that number down to 2,100. That does not 
mean that they will be in a one-plus-one configuration. My 
priority is to give them an option off the ship first, and so 
that is what we are continuing.
    Mr. Edwards. Admiral, just for the record--and this is now 
a DOD-wide definition of adequate family housing, not a Navy 
unilateral decision--but, technically, under the definition of 
adequate family housing, a family, mother and dad with two 
children under the age of 10, could be living in a home, say, a 
two or three-bedroom home, and that home might need $49,999 
worth of repairs--a leaky roof, dishwasher and dryer don't 
work, floors are warped--but for $49,999 you could fix that 
home. But even if the Navy had no intention of fixing that 
home, that would technically be defined as adequate housing.
    I hope there are not many cases like that, but is it 
correct that technically that home would be defined as adequate 
housing, because for just $50,000 you could fix it and it would 
meet standards; is that correct?
    Admiral Roughead. That would be the technical definition. 
It would technically be under the adequate standard.
    Mr. Edwards. I hope we can work with you on this. I just 
think for obvious reasons that standard doesn't really give the 
services or the Congress the data we need to figure out how 
many people are truly living in housing that they shouldn't be 
living in. But I think you told me earlier, on average, you are 
putting about $8,000----
    Admiral Roughead. On average, it is about $8,000, which I 
think speaks to the quality and repair of the homes that our 
folks are living in.
    Mr. Edwards. Right.
    Admiral Roughead. And also, as we spoke, the authorizations 
that we have been given by the Congress to pursue public-
private ventures has, in my entire time in the Navy, which is, 
as you so kindly mentioned to be about 35 years, I have never 
seen our Sailors live in the kind of housing as they currently 
are. And I believe that has been made possible through your 
endorsement and approval of the public-private ventures.
    Mr. Edwards. That is great news to hear. Thank you.
    General Conway?
    General Conway. Sure. I will get back to you, if I can, 
with the exact numbers, but just to give you an overarching 
perspective, let me say that we do have substandard housing in 
both the United States and overseas for some of our families 
that are based there.
    [The information follows:]

    As of January 2008, there were 69 families remaining in inadequate 
government-owned family housing. There were another 2,915 families 
remaining in inadequate privatized housing.
    As of the end of Fiscal Year 2007 contracts were in place to 
eliminate all inadequate units. As of January 2008, there remained 175 
inadequate government-owned family housing units scheduled to be 
demolished as part of an FY 2007 MILCON project. As of the end of 
January 2008, there remained another 4,349 inadequate homes that are 
scheduled to be demolished through privatization.
    As of January 2008, there were 2,278 Marines living in inadequate, 
ganghead troop energy/surge barracks at Camp Pendleton (Camp Horno) and 
Camp Lejeune (French Creek).
    As of January 2008, there were 4,233 inadequate barracks spaces.

    But I would hasten to say that we are fast overtaking those 
issues with the public-private ventures. By this year, we are 
at about 96 percent of those public-private ventures that are 
effective, and in another couple of years it is going to be at 
97 percent. And the few exceptions that we have in the United 
States will be conscious exceptions for valid reasons. So this 
whole public-private venture concept has just been a tremendous 
windfall to us.
    When a Marine sergeant with four children can have a 2,300-
square-foot house overlooking the Pacific, you know that things 
are definitely looking up.
    I would add that I don't know how many Marines I have 
talked to overseas who say that they had a level of comfort 
leaving their families back on the base now because it is such 
a nicer community and a nice place, and the family is not 
thinking about going home for the duration of the deployment. 
So it really helps reduce the consternation given the tempo 
that we are experiencing.
    I wish I could say the same about the barracks; I cannot. 
We have barracks that were built well before the Korean War and 
World War II. I am not proud to say that as an institution we 
have done this to ourselves in a very real sense, to the degree 
that we have taken available monies and simply not put them 
against the housing. We have prioritized other things ahead of 
housing now for a long time to the point where we are 
currently, as I said in the statement--
    Unlike the other Services, we look to billet our young 
Marines, E-1 through E-3, in two-man quarters. After they 
become an NCO, then they can expect a single room with a head 
facility. But until that time, we think it is good for us as an 
institution, because we are the youngest of all the Services, 
by far, and it is also good for the nation, because we save 
some monies in not asking for that single-man kind of 
capability.
    We have a program that is built through 2012 that will take 
care of those billeting concerns. My predecessor finally 
slapped the table and said, ``We have got to do something about 
this, the time is now,'' and here is a program, certainly, that 
is underway.
    As you mentioned, sir, in your opening statement, we also 
funded now for some of those additional quarters we are going 
to have to have by 2012, 2014 as we bring new Marines onboard, 
those additional 27,000 Marines.
    So we are not out of the woods by any stretch of the 
imagination, but I think, comparatively, we are much better off 
than we were at one time, and we see some definite lights on 
the horizon.
    Mr. Edwards. Would you have a ballpark guess as to how many 
barracks right now don't meet what you would consider to be 
standards for Marines?
    General Conway. Sir, I would say it is probably at least 
half.
    Mr. Edwards. Half. What would that number--in real numbers, 
how many barracks would that be?
    General Conway. Sir, the program for new barracks is 
calling for 30, I think, so I hate to give you a rough 
estimation but if you are looking at essentially half of that 
being substandard at some point, you are----
    Mr. Edwards. 30 barracks?
    General Conway. Yes, sir.
    Mr. Edwards. Different barracks projects?
    General Conway. Different buildings; yes, sir.
    Mr. Edwards. Okay. You meant in terms of the number of 
individual Marines that are living in barracks that we don't 
believe meets modern standards.
    General Conway. Well, part of that would be a distortion 
because we have got so many people overseas, and so that would 
not be a correct detail. I can get all that for you----
    Mr. Edwards. Could you?
    General Conway [continuing]. And lay out those that are 
deployed and not----
    Mr. Edwards. Okay. If you wouldn't mind giving us the hard 
numbers, because I think each year we just want to compare how 
we are doing this year, and I think we are making progress. 
Everybody deserves credit for that, but if you could follow up 
with the hard facts, that would be great.
    General Conway. Absolutely.
    [The information follows:]

    As of January 2008, there were 69 families remaining in inadequate 
government-owned family housing. There were another 2,915 families 
remaining in inadequate privatized housing.
    As of the end of Fiscal Year 2007 contracts were in place to 
eliminate all inadequate units. As of January 2008, there remained 175 
inadequate government-owned family housing units scheduled to be 
demolished as part of an FY 2007 MILCON project. As of the end of 
January 2008, there remained another 4,349 inadequate homes that are 
scheduled to be demolished through privatization.
    As of January 2008, there were 2,278 Marines living in inadequate, 
ganghead troop emergency/surge barracks at Camp Pendleton (Camp Horno) 
and Camp Lejeune (French Creek).
    As of January 2008, there were 4,233 inadequate barracks spaces.

    Mr. Edwards. Thank you, both.
    Mr. Wamp.

                      BASE REALIGNMENT AND CLOSURE

    Mr. Wamp. Thank you, Mr. Chairman.
    Admiral, I think the chairman gives us a very good forecast 
on things, and I know that last year's bill and the coming 
budget request are favorable, but BRAC is still an issue in 
terms of meeting our 2011 deadline, and I know that the Navy 
shows in the out-years some savings that will be derived from 
BRAC, yet in the 2008 budget request versus the actual omnibus 
appropriation bill, there was a delta between the request and 
the final funding amount.
    What does that do to your schedule? Does that put a pinch 
on you? And is your 2009 BRAC request actually just trying to 
catch up with what you didn't get in 2008?
    Admiral Roughead. Yes, sir. Because of the rescission, we 
have put in jeopardy being able to fulfill the requirement to 
be complete by 2011. And it actually affects two projects: One 
for me in Seattle, and then Jim has one in Quantico. So that is 
very important to us if that could be restored.
    Mr. Wamp. General, do you need to speak to that or just, 
``Ditto''?
    General Conway. Pretty much the same, sir. We do have one 
other BRAC issue. There are only two, really, that affect us. 
The one that would bring together various intelligence agencies 
in Quantico, with BRAC already being looked at with regards to 
that, not the least of which is the traffic, because Quantico 
is a pretty busy place already.
    But the other thing is that we have a facility in Kansas 
City that is getting ready to move from there this year down to 
New Orleans ostensibly, but there will need to be construction 
started on the federal city in New Orleans or we won't be able 
to go there in town. We will wind up moving out.
    So both of those issues are BRAC-related and both----

                       MOVING FROM JAPAN TO GUAM

    Mr. Wamp. I am also interested in this Okinawa to Guam 
piece of the big transformation, and I say tongue-in-cheek, 
make sure that the island of Guam doesn't sink with all this 
construction and concrete going into it. Give us an update on 
that from your perspective in terms of the transition because 
it is a major shift, and a huge investment over the next 5 
years.
    General Conway. Yes, sir, it really is. And let me start 
with the investment aspect of it, sir. The reason, I think, 
that our government finds it so unattractive is that there is 
estimated to be a bill somewhere between $10 billion and $11 
billion, and the Japanese, at this point, are signed on to pay 
for $6 billion plus of that, and we would pick up the remaining 
$4 billion plus.
    What it would entail is, essentially, the movement of about 
8,000 Marines from Okinawa onto the island of Guam. Our major 
headquarters would go, the--headquarters would go, as would 
both the--and division headquarters.
    What we consider to be, I think, earnest money is the 
Japanese commencing construction on what we call the Futenma 
Replacement Facility. The Futenma Airfield right now is in the 
middle of a very popular area. It wasn't when it was built, but 
it has grown up around there a good deal, so the Japanese want 
to move that facility, as a part of the arrangement, off what 
we call Camp Schwab on the island, and they are in the process 
of, again, doing their own environmental aspects of that 
construction.
    We had come upon a mild problem--we hope it will be mild--
and that is the discovery of a little mammal called dugong, 
which lives in the coral off of Camp Schwab. Now, the Japanese 
are aware it is there, and they are not concerned about it, 
because there are tens of thousands of other dugongs elsewhere. 
It is actually one of our courts in the United States that has 
said that the Department did not give the dugong proper 
consideration in arriving at our negotiations with the 
Japanese. So although we don't have a halt work, we do have 
some judicial issues that we have got to get over.
    In terms of our spending, sir, and in terms of what is 
taking place on Guam, until such time as the Japanese start to 
build, we are only in the planning phase. My commander in the 
Pacific, Lieutenant General John Goodman, is looking at 
developing training opportunities. The Navy is looking at 
reinforcing that with some interconnectors, both high-speed 
vessels and perhaps some amphibs.
    We look at establishing some training bases around the 
Pacific region that will help us with engagement but also help 
to get the Marines off the island. I think you indicated it is 
very small, and there is not a lot of training opportunity 
there, so it concerns us some that our forward forces would be 
fully trained and ready for whatever might happen.
    But I would simply finish, I think, by saying, we are not 
going to be spending much of any money until such time as we 
see, again, proper investment on the part of the Japanese that 
would tell us that their series of governments now agree with 
it and support it.

                              AFGHANISTAN

    Mr. Wamp. General, a question in this round. Last week, we 
heard about the need for Marines in Afghanistan from Admiral 
Fallon. You are at 184,000 in 2007--184,000 on your ramp up, I 
think. What can we look for in 2008 in terms of your continued 
recruitment of these new Marines that are needed in the future?
    General Conway. Sir, we actually exceeded--our goal was 
184,000. We actually beat that by a couple of thousand. We 
think we can do that again this year based on every indication 
thus far. We think that we can be as high as 194,000 Marines 
based on this year's efforts. Our recruiters are just doing 
magnificent work out there.
    And, of course, I think you know that we are building those 
units first that are most highly stressed. And we have built a 
couple of infantry battalions. There is a third one that will 
be in the rotation soon. Other units, MPs, engineers, 
intelligence folks, we are trying to build those units to the 
greatest level of OPTEMPO for the--requirements, such as the--
--
    Mr. Wamp. Well, a week ago, Friday, my nephew graduated 
from boot camp at Parris Island, so my family is doing our part 
to help you all.
    General Conway. We will take care of him for you.
    Mr. Wamp. Thank you, sir.
    I yield back.
    Mr. Edwards. Thank you.
    As I recognize Mr. Farr, could I just follow up on the BRAC 
question, and you can have your staff submit it in writing, a 
summary of the negative impacts. You didn't get any of the--
$933 million, as I recall, was the amount that we used for 
other priorities, including veterans' health care, and we need 
to try to substitute all of it or the vast majority of that. If 
you could give us, in writing, what the real consequences are 
of the issues you discussed, that would be helpful.
    [The information follows:]

    Navy's share of the $939 million FY 2008 Congressional BRAC 2005 
reduction is $143 million. The lack of appropriations will result in a 
delay of awarding two BRAC construction projects totaling $97 million 
(Investigative Agencies Consolidation, Quantico VA; Reserve Center, 
Fort Lewis, WA) and delay move-related expenditures in the amount of 
$46 million (Operations & Maintenance) from FY 2008 to FY 2009. These 
delays add uncertainty and hardship for the Navy personnel and families 
affected by the move. These delays prevent achieving management 
efficiencies and savings that were the basis for the BRAC decisions. 
Without the prompt and full restoration of funds, Navy's ability to 
accomplish BRAC by the September 15, 2011 statutory deadline will be 
jeopardized.
    The FY 2009 budget submission does not address nor attempt to 
recapture the $143 million FY 2008 reduction.

    Mr. Farr?
    Mr. Farr. Thank you very much, Mr. Chairman.
    I want to commend both of you for your outstanding service. 
We are really proud that both of you command our military 
resources with such great capacity that you do.
    I want to just mention, General, that I represent the 
Defense Language Institute, and I am----
    Mr. Edwards. You do? [Laughter.]
    You have done a great, great job.
    Mr. Farr. It is all I ever talk about here, that and the 
Naval Postgraduate School.
    It is just fascinating to walk in and see those classes 
in--whatever language of the moment. They are small classes, 
but the young people who are there are our Army's best 
resource. DLI, which is under Army TRADOC Command, tells me 
that the first students to come for a new language are the 
Marines. They call up and say, ``We are sending seven Marines 
here to learn Pashtu,'' and they say, ``We will be ready for 
them,'' and hang up the phone and say, ``We need to better 
start a Pashtu class; we don't have one.'' And by the time the 
students get there, they have one set up. It is amazing.
    And I want to just tell both of you, because the Defense 
Department has been so supportive. We passed, last week, a 
``crisis corps'' for the State Department and USAID to attract 
the most talented people who are interested in serving, much 
like your talent in the military. These federal government 
civilians would come together in a single command with 
training, not defense training, but civil affairs and 
humanitarian operations training. I think the Senate is going 
to pass H.R. 1084. The president wants it badly, and you really 
ought to help him.
    General Conway. We need it badly.
    Mr. Farr. I appreciate your testimony, Admiral, about 
bringing together the Navy Installations Command, the idea of a 
one stop for running installations. What you and I talked about 
on the phone is you say we leverage the best practices and 
successes of individual installations as we provide shore 
operations support on a regional level.
    And the idea is that the best practices can all be brought 
into one common command like you pointed out was a response to 
the fires in California. The problem is that a lot of these 
installations are much alike, but, as you know, the Naval 
Postgraduate School is different. It is an academic 
institution.
    You are going to go out and talk with the school, I know, 
because you are going to address the graduating class. I hope 
you get into that issue and where the Installation Command 
doesn't follow through, where just small micro decisions don't 
get done or the delays are so long. Because it is a real 
problem for operating the Naval Postgraduate School.
    I also wanted to ask you, as we execute our 2009 budget, to 
abide by the following principles. First was aggressively 
identify and eliminate infrastructure identified as excess 
capacity. Hasn't it always been done internally, for instance 
when you got prepared for the last BRAC round? Do you have a 
lot of that information or they didn't go into excess capacity?
    Admiral Roughead. Actually, Mr. Farr, if I could just start 
with the NPS. Coincidentally, Dan Oliver happened to be in the 
building yesterday and he and I sat down for about a half an 
hour and talked about the school and also some of the things 
that I will be able to engage in when I go out there.
    But I would say, one of the things that has become apparent 
to me since becoming CNO about five months ago is that--and you 
point to an aspect of how we are managing and resourcing our 
shore installations--is that we still, even though our 
Installations Command manages the regions, within those 
regions, we still have other activities under different 
commands that are in there.
    And what we are doing is beginning to, still under 
Installations Command, but bringing in all of the issues of all 
of the participants and then looking at, what is the best 
approach given the different real estate tenants that exist 
there, and how do we make sure that we are covering and 
providing the types of services to meet the needs of all the 
various activities that may be in there. So I think that is 
going to help, getting to the point that you raised.
    The other aspect is that as we go into the development of 
the fiscal year 2010 budget, to be able to look at what I 
consider the three key institutions of learning and development 
in our Navy, and those are: Where we begin, which is the Naval 
Academy, where we then enhance and advance the academic 
qualifications, which is the Naval Post Graduate School, and 
then the Naval War College, where we then add the higher levels 
of operational art and strategic thinking to our officer corps.
    And in that 2010 budget, to look at how are we allowing the 
tide to lift all boats, if you will. So that is something that 
I am very interested in doing.
    Mr. Farr. Good. Good.
    Admiral Roughead. With regard to the excess infrastructure, 
yes, we did get ready for that on BRAC, but I travel around a 
bit. I commanded the Pacific Fleet, and then I had the 
privilege of then coming east and commanding the Atlantic 
Fleet. And we have a lot of bases, and sometimes to clear my 
head I go for runs around the bases, and I will run by a 
building that is vacant and not being maintained or by some 
pier space that is not being used and is beginning to fall down 
and create problems.
    So that is the type of excess infrastructure that I am 
talking about, not necessarily closing bases but how do we 
really get the infrastructure within our bases and within our 
structures, that which we don't need and it is either in 
disrepair and becomes a hazard or doesn't reflect well on the 
Navy. What should we do to get rid of that? And then also on 
those bases how do we make sure that we have the right type of 
infrastructure to the mission?
    Mr. Farr. Well, I applaud you for doing that. Because you 
mentioned the academic institutions that you have, what I have 
learned is that there is some excess capacity within those 
classrooms, and there is a demand out there, usually in the 
civilian section, or other federal agencies or, in some cases, 
in the private sector. I think that is one place the military 
has to look into to see where can we get a better bang for the 
buck. Can we invite these civilians into the classroom?
    It is not like applying to a regular public or private 
university. This is space available where there is a decision 
made by the Command that this will be an appropriate person to 
have in the classroom. Because I think you can get a better 
bang for your buck. You may have some Title 10 restrictions on 
that, but we may need to make some exceptions to those in the 
modern era.
    Admiral Roughead. I think, for example, our Chief of Naval 
Research estimates that we have a need for about 400 engineers 
a year, civilian engineers. And if there is capacity, for 
example, at the post-graduate school, he is an advocate of 
being able to bring those civilians in. I would say, as you 
mentioned, perhaps there needs to be some legislative relief, 
but, also, I believe those who are sending those for that 
engineering degree need to kick into the pot as well.
    Mr. Farr. Well, as we do in the IMET Program, we could do 
the same thing for civilian IMET.
    Mr. Edwards. Thank you.
    Mr. Berry.
    Mr. Berry. I wanted to thank you, gentlemen, for your 
service and all you do for this country. I don't have any 
questions.
    Mr. Edwards. Thank you. He is the smartest one on the 
subcommittee. [Laughter.]
    Mr. Crenshaw.

                          DISPERSAL OF ASSETS

    Mr. Crenshaw. Well, I have got a couple of questions.
    Welcome back, General, and, Admiral, it is great to have 
you in front of the subcommittee.
    Admiral, as you probably know, I have had a lot of 
discussion with senior Navy officials about dispersing our 
assets, including your predecessor, Admiral Mullen. And as you 
know, right now, on the East Coast, all our nuclear carriers, 
which soon will be all the carriers we have, are home ported in 
Norfolk, and when you look at dispersing assets, both nuclear 
and non-nuclear, that is a lot of eggs in one basket. I think 
there are six big amphibs as well in Norfolk.
    And then you look at the fact that on the West Coast, the 
Pacific fleet, we have got, I guess, six carriers and, counting 
Japan, you have got three different home ports.
    So you haven't been before the subcommittee before, and I 
would like to hear you talk a little bit about your view, what 
your perspective is on this whole issue of dispersal of assets, 
particularly in today's world of terrorism and all the kinds of 
things. You know, it brings back memories of Pearl Harbor. But 
I would appreciate your perspective.
    Admiral Roughead. Yes, sir. And thank you for that 
question, sir, because it leads to something that I charged my 
staff to do shortly after I became CNO, and that was for us to 
take a look at what I call our force laydown. Where do we have 
the ships, where do we have the airplanes, what is the command 
structure that we have in place, and do we have it in the right 
place? Does it best serve our response requirements? Does it 
best serve the presence requirements that we may be called upon 
to perform globally? And are we able to support our people in a 
way that they are the most competent and then their quality of 
life is as good as we can make it? So I have my staff working 
on that.
    As you know, we also have about ready to be put out for 
public comment the Environmental Impact Statement, specifically 
focused on the base in Mayport and the 13 options of the 
different force packages that we could put down there. That 
will be out for public comment with a decision to be made by 
the Secretary in January of next year.
    So I believe that when those two things come together, it 
will really inform us as to, do we have the laydown right and 
to be able to base that decision on a strategic underpinning of 
it is the best thing for the country and for the Navy if we 
position our forces in this way. And I look forward to getting 
that from my staff. I am very interested in doing the same in 
the Pacific as well.
    As General Conway mentioned, with his moving Marines there, 
what do we in the Navy have to change to be able to support the 
missions that the Navy and Marine Corps have to be performing 
in the next couple of decades?

                       ENVIRONMENTAL IMPACT STUDY

    Mr. Crenshaw. You mentioned the environmental impact study. 
As I understand it, there is a preliminary report that is 
supposed to be made public this Friday. Is that still the plan?
    Admiral Roughead. Well, my understanding, Mr. Crenshaw, is 
we are on track to release it here very, very soon, and I am 
not aware of any issue that will be an impediment to that.
    Mr. Crenshaw. And as you may know, last year, this 
subcommittee added language to the omnibus appropriations bill 
that said that the Navy would--as soon as the preliminary 
report is released, then the Navy would do a statement of just 
how much it would cost in terms of dredging and in terms of 
multi-construction if this environmental impact study, which is 
about Mayport, once that was completed, there would be a study 
to say, ``These are the costs that would be involved to make 
the upgrades to make Mayport capable of home porting a 
carrier.''
    Are you aware of that, and are they getting ready to--I 
think it was a 30-day timeframe to begin that study. Is that on 
track? I mean, once--is that still----
    Admiral Roughead. Yes, sir. What would be the dredging cost 
and impact in the basin to take it down to a depth, and that 
process will go forward.
    Mr. Crenshaw. And any other military construction. Because 
there has been a lot of non-nuclear upgrades done in Mayport--
--
    Admiral Roughead. Right.
    Mr. Crenshaw [continuing]. But I think everything else--
just last question, Mr. Chairman, and I don't presume to know 
what the EIS study is going to show or what the Navy is going 
to decide, but a couple of hypothetical questions: If the 
decision were made to home port a nuclear carrier at Mayport, 
obviously you would have to have the dredging done, but some of 
the military construction projects, like the nuclear facility, 
I think it is called a nuclear maintenance facility, would it 
necessarily have to be in place if a carrier came and wasn't 
due for an availability for a couple of years?
    Would it be within reason to say, once we have done the 
warf upgrades and the dredging upgrades, some of the military 
construction that might be nuclear-specific would need to be in 
place, not necessarily the day that the home port was announced 
but certainly in a reasonable time to do any availability.
    I mean, that is a hypothetical question, but, in general, 
is that precedent, I mean, when you home port a carrier other 
than times when not everything is in place that doesn't need to 
be in place until availability takes place.
    Admiral Roughead. As you said, Mr. Crenshaw, that is kind 
of a hypothetical question, but we, as a matter of routine, 
have not homeported nuclear carriers in very many places. I can 
say that the work that we are doing, for example, to prepare 
the USS GEORGE WASHINGTON's arrival into Japan, the work that 
we will have done there will be able to support the maintenance 
availability.
    As you know, in the Northwest, we have a nuclear certified 
shipyard. San Diego already has the infrastructure for nuclear 
aircraft carriers and submarines, and then, of course, Norfolk 
has significant nuclear repair and maintenance capabilities 
there. So that is kind of new ground that we are plowing, and 
we have to look at that very, very carefully and the type of 
support that would be required.
    Mr. Crenshaw. Got you. I mean, the dredging, obviously, and 
any kind of warp upgrades, but if there was something that was 
controlled maintenance facility that took a year to build that 
wasn't going to be needed, that might--again, that is 
hypothetical, it is in the realm of possibility.
    Admiral Roughead. Sure, but I also would say that it is 
very important because of very, very high standards that we 
place on the safety of our nuclear-powered warship that we 
really have to make sure that the requirement facilities are in 
place because of the safety issues that are involved.
    Mr. Crenshaw. Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Crenshaw.
    Mr. Kennedy.

                         HOUSING PRIVATIZATION

    Mr. Kennedy. Thank you, Mr. Chairman.
    Admiral Roughead, thank you very much for your service.
    General Conway, thank you for your service.
    I wanted to ask, sort of, military construction, first on 
that. With respect to housing, I know the chairman was 
mentioning it earlier, but I wanted to ask for your input on 
it, because it seems to be the big challenge in terms of moving 
to further accommodate our junior enlisted members with their 
barrack situations, and the move toward the privatization has 
been successful where it has been done.
    And, certainly, dealing with our operation and maintenance 
budget, this has been a program that has been quite successful. 
And yet because change is involved, there has obviously been a 
lot of reticence in the Pentagon to move very quickly toward 
expanding it all too far and wide.
    But I was wondering whether you could comment on your 
perspectives on it, given the fact that so far out there it has 
provided a pretty good method of providing quality housing for 
our soldiers, sailors, airmen, Marines and Coast Guardsmen, and 
yet it has certainly got a lot of potential for further 
application. And what you see is that application, and I know 
the Navy has done a great deal with it. Do you think we can 
expand it to some of our junior enlisted for their barracks?
    Admiral Roughead. Yes, sir. You will have to look far and 
wide to find a stronger proponent of public-private venture 
housing and barracks.
    I have seen the quality of life of our Sailors increase 
dramatically since we moved into that program. Personally, I am 
about ready to move into my own fourth PPV house, and I think 
it is a great success for us.
    Most recently, I was struck during a visit in San Diego 
with the new Pacific Beacon PPV venture. I would move in there 
tomorrow myself, because it really is not only a wonderful 
facility but it provides the types of services that young men 
and women expect when they come into the Navy, and we are able 
to do that through PPV.
    I would encourage continued use of the PPV for not only our 
married Sailors but also for single Sailors and the 
authorizations that we have in place for the three single-
Sailor PPVs--San Diego, Norfolk and Mayport--but then to see if 
we could ride on the authorizations in San Diego should we be 
able to expand that single-Sailor PPV. In other words, I would 
like to see the authorizations that we already have in place to 
be the authorizations that allow us to expand it in the future. 
It is wonderful, and it is a huge difference in quality of life 
for our people.
    General Conway Sir, we are watching it carefully. The 
concern that we have has to do with occupancy rates.
    Mr. Kennedy Right.
    General Conway As much as we deploy and as much as we are 
forward based right now, we are concerned that we could build 
something that would then be unfair to the owners and unfair to 
the Marines----
    Mr. Kennedy Right.
    General Conway [continuing]. In terms of the payment 
arrangements.
    So we are watching the Navy experiment very closely. I 
think there is the potential there for better quality of life. 
There is the potential that maybe our supporting establishment, 
our bases who are not expected to deploy, could live in 
something like that.
    Mr. Kennedy Right.
    General Conway But those are determinations we are going to 
have to make and I think probably maybe even before this year 
is out.
    Mr. Kennedy Well, we certainly look forward as a committee 
to work with you and see that quality housing comes to every 
single person wearing a uniform.

                                DDG 1000

    Admiral Roughead, while you are here, if you could comment 
on the issue of DDG 1000 and what we see in the future as far 
as--and application of this, kind of, one-size-fits-all command 
and control that we have managed to finally put in place now, 
these new systems, command and control that we are off and 
running on but yet, obviously, we are facing this initial bow 
wave of costs, and people may look at that and say we should 
redo this all over again when all the work has been done to set 
us off in this course.
    What is your feeling? I know Admiral Mullen was very much a 
part of the initial move to get this going.
    Admiral Roughead. Well, I am pleased that in the last 
couple of weeks we have been able to put two of the DDG 1000s 
on a contract and begin moving forward with that ship. Because 
unlike previous ships, and particularly combatants, that we 
have built in the past, where we would introduce, perhaps, two 
new technologies, the DDG 1000 has 10 that we are moving 
forward.
    The one that I believe is critically important, has the 
technology that has allowed us to decrease our staff, I think 
that what we will derive from the DDG 1000 is we will clearly 
shape the future of how we build the follow-on, for example, 
the cruiser follow-on that we have, but getting these ships 
going that will allow us to put those technologies into play 
and then from that I believe that then just feed future 
programs.
    Mr. Kennedy. Well, that is encouraging to hear. Obviously, 
a lot of constraints in our capital budget for shipbuilding and 
so forth, but this is obviously a big program, and we want to 
make sure we don't stumble as we get started, because it has 
been an investment we have made for years, and it is just about 
to pay off, so you have got to keep going.
    Thank you.
    Mr. Edwards. Thank you.
    Judge Carter?

                        FAMILY SERVICES PROGRAM

    Mr. Carter. Thank you, Mr. Chairman.
    Thank you, both, for being here. I apologize for being 
late. Way too much stuff going on here.
    It is my understanding the Marine Corps has expressed a 
real desire to increase the family services support for the 
Marines and their family members, especially those folks who 
are coming back from being deployed and while they are 
deployed. How does this budget help to meet that goal?
    General Conway. Sir, our family services programs for years 
has relied on virtually next to nothing, $5 million a year in 
the budget for family programs. Now, to contrast that, we were 
spending $50 million a year more for college education 
programs, assistance programs, if you will.
    So comparing the bases, you can see right away that we 
didn't have it right. We relied on the practice of volunteers 
to do most of the heavy work, and perhaps in peacetime that 
gets you through, but that certainly doesn't get you through a 
protracted conflict like this.
    So we recently decided to reprogram about $30 million of 
our own monies in order to be able to put more against the 
requirement that we saw through our family services program and 
then probably two weeks after that walked in to see the Deputy 
Secretary of Defense, Gordon England, on something entirely 
different, and he asked me, could we use--could the Marine 
Corps use $100 million of GWOT monies in order to be able to 
really jumpstart this family program.
    The Army was going to get six or seven times that, although 
a lot of theirs was associated with some level of MILCON and 
that wasn't our intent. But he said it seemed like a fair 
apportionment, and if I could spend it--I assured him we 
could--that it would be likely in fact and would really be 
appreciated.
    Mr. Carter. And is this budget addressing those needs and 
as we continue down the road to approve these family services, 
are we sending it to them and do we even know how we want to go 
forward? Because I think this committee wants those family 
services to be there for our Marines.
    General Conway. Sure. My officer, my three-star general who 
works the programs and resources, said to me just the other 
day, you can see that we are creating a level of expectation 
here to meet a dependent need. But we are going to need to get 
some of this, I think, into the top line. He doesn't think that 
even with the, perhaps, GWOT money this year and next that we 
can sustain even the efforts with $30 million over the course 
of future years. So he feels like we are going to have to ask 
for more in that context to be able to support our families.
    Mr. Carter. Well, I think we will certainly want to hear 
about that as it comes down the pike.
    Now, it is my understanding that the Marine Corps has been 
pretty successful in the growing the force project; kind of 
ahead of schedule.
    General Conway. We are being incredibly successful, and I 
attribute that to the great young Americans out there who want 
to fight for their country. They, I think, have that 
expectation when they join the Marine Corps.
    Mr. Carter. Well, of course, as we do this, we want to make 
sure that we are adequately providing facilities and barracks 
and all the other things as we grow the force, because I think 
all of us see the necessity to grow the force across the board 
is very important.
    General Conway. Yes, sir.
    Mr. Carter. And as you have said, and others have said, 
these are family folks that are fighting wars for us these 
days, and we have to provide this privatization in housing that 
we have been talking about and other things. We need to stay 
ahead of the curve, not playing catch up. This is my personal 
opinion. I think that makes a better corps, it makes a better 
fighting force.
    General Conway. I agree with you.
    Mr. Carter. And so I am hopeful that you will highlight 
these things in this budget and other budgets to come, as we 
move down this line and growing the force so that when we put 
these Marines into fight, we also are giving them the services 
and the lifestyle when they get home.
    General Conway. Sir, we project that we are going to see 
$4.6 billion go into the top line in 2009, and it is about that 
same amount on through 2012. Now, there is this concern that we 
have got that because of our success that we are seeing, with 
the additional 2,000 last year and what we think will be an 
additional 2,000 this year, we are getting a little bit ahead 
of our planning curve.
    Mr. Carter. That is kind of why I asked the question.
    General Conway. But, again, my three-star general who 
managed that thing is very good, and I think he is doing some 
visitations and some of those types of things to make sure that 
we are resourcing----
    Mr. Carter. Well, I just wanted to express my concern.
    Thank you, Mr. Chairman.

                       CHILD DEVELOPMENT CENTERS

    Mr. Edwards. Thank you. And let me just ditto that Judge 
Carter speaks for all of us in saying this subcommittee wants 
to stay firmly committed to and focused on improving quality of 
life for families. No one is more aware than the two of you and 
the sacrifices that children are making and the spouses are 
making.
    That leads me to my question. For the record, could each of 
you submit how many child care centers would be needed to meet 
100 percent of the need? And also same question, vis-a-vis 
youth activity centers.
    General Conway. Yes, sir.
    [The information follows:]

                              INFORMATION

    In addition to the 13 MILCON Child Care Centers that are planned 
across the FYDP to meet 80 percent of the child care need, Navy 
requires 12 more Centers to meet 100 percent of the need. The extension 
and higher threshold limits of the expiring NDAA authority that 
increased the minor construction authority for Child Care Centers 
(serving ages birth through 12 years of age), in addition to MILCON, 
would greatly assist us in meeting expansion goals for our families.
    The current OSD goal for all Services is to achieve 35 percent 
participation for our Youth programs. Currently the Navy averages 
between 19 and 24 percent and we project to meet the OSD goal within 
the next two years. Our ongoing Youth program improvements include: (1) 
Utilizing our non-appropriated fund construction program, Navy has 
successfully funded/completed 22 new Youth Centers since 1997 and we 
will continue to do so to meet the needs of our military Youth; (2) our 
national partnership contracts with organizations like the Boys and 
Girls Clubs of America and 4H that allow our youths to participate in 
recreation center in the local communities; and (3) new innovative 
programs that capture pre-teen and teenagers interests, as well as 
programs that focus on deployment stress and specific related subjects. 
Other than our planned non-appropriated fund recapitalization 
construction program over upcoming years, we currently assess that no 
additional facility infrastructure footprint is required to meet our 
goals.
    To achieve 100 percent of potential need (the Marine Corps is 
currently at 71%), using exclusively Child Development Centers (CDC) 
(MILCON), the Marine Corps would need 22 MILCON projects to account for 
an additional 6,565 spaces. Of that number, the following projects are 
currently being planned:
    --In response to the President's State of the Union guidance, we 
are advocating for acceleration of six CDC MILCON projects (one at 
Marine Corps Base Hawaii, three at Marine Corps Base Camp Lejeune, and 
two at Marine Corps Base Camp Pendleton).
    --In addition, four other CDC MILCON projects are also beginning 
initial planning (one each at Marine Corps Base Camp Lejeune, Marine 
Corps Air Station Cherry Point, Marine Corps Air Station New River, and 
Marine Corps Base Quantico).
    If these MILCON projects are funded, the Marine Corps will need an 
additional twelve unplanned MILCON projects in order to achieve 100 
percent of the potential need. Plus, in order to properly staff and 
operate these 22 facilities, the Marine Corps would require an 
additional $48.6M annually, based on an annual per space operating cost 
projection of approximately $7,400.
    It should be noted, however, CDC construction via MILCON will not 
be the exclusive means today to meet the child care needs of Marine 
Corps parents. We continue to seek partnerships with public and private 
organizations that meet our established standards (e.g., the National 
Association of Child Care Resource and Referral Agencies) to expand our 
off-base care options and contribute to our space and capacity 
solutions.
    With regard to youth activity centers, in accordance with OSD 
Policy, MWR Youth Centers must be constructed with non-appropriated 
funds. Marine Corps Youth Centers compete for funding as part of the 
larger Marine Corps Community Services Non-appropriated Fund 
Construction Program. There are no OSD prescribed potential need 
formulas or standards for program capacity as are prescribed for child 
development programs. Therefore, facility requirements are identified 
by installation commanders based on local assessment of need for 
afterschool, evening or weekend recreation needs of the on-base youth 
population. It is additionally expected that youth recreational needs 
will be supported by off-base community support programs such as YMCAs, 
local school programs, community sport programs, etc.

    Mr. Edwards. I would like to ask you about inflation. I 
don't know if in your MILCON planning process it has changed, 
but in years past OMB dictated a 2.4 percent inflation package 
per year for military construction, which, frankly, we all know 
doesn't even meet the laugh test in the Pacific Northwest, the 
Southeast, other parts of the country and the world.
    Are you still having to operate under that assumption? Are 
you allowed within the Pentagon planning process to make more 
realistic assumptions about inflation in the out-years?
    Admiral Roughead. Well, Mr. Chairman, there is no question 
that inflation is having an effect on what we are able to build 
and how quickly we are able to build it. I would see it, and my 
staff engineer would reluctantly come in and tell me about the 
growth and how it was kind of pricing us out. But we do follow 
the templates that are provided. We plan the projects, but we 
are feeling the tension with inflation. The growth in some of 
the countries around the world in things like steel and the 
demands for cement and what have you is producing an inflation 
pressure.
    Mr. Edwards. Right. Does OMB still demand that you use a 
2.4 percent inflation factor?
    Admiral Roughead. In our budgeting process, yes, sir, we 
follow the standard.
    Mr. Edwards. So that basically means the second, third, 
fourth and fifth years FYDP are underestimated relative to the 
true cost of construction.
    Admiral Roughead. If the predictions are accurate.
    Mr. Edwards. Right.
    General Conway.
    General Conway. I will say I just went to St. Louis this 
last week for a presentation, and I saw my brother-in-law there 
who is in construction. He said that raw materials are down, 
and we talked about it some. He said it runs sideways but, 
generally, it is the Northeastern, so your concern is still 
correct, sir, but it is seasonal, it is regional and runs 
sideways. So there are a lot of variables in all of that.

                             REPROGRAMMINGS

    Mr. Edwards. Okay. Maybe I will finish not with a question 
but just a comment to get this on the record. There has been 
discussion about seeing that all individually listed projects 
be put in the statute, not in the report language of our 
appropriations bill. It has a certain ring with the public, 
want to hide this in the report language.
    The report language is out there to the public and the 
press to see anyway, but given you have unexpected inflation in 
some parts of the country, if we put these projects in the 
statute, then no longer can we and the Senate subcommittee 
approve reprogrammings to move money from one project where one 
installation will say it came in under budget.
    And under the present system, you ask us to move that money 
to another project where in the Pacific Northwest you are 
facing maybe a 15 percent inflation rate per year. And in order 
to please the public out there, we put all this in the statute. 
We will no longer have that authority.
    So I say that for the record. If that is to be the case for 
the 2009 appropriation bills, we need to think seriously about 
how we give you the flexibility to be able to handle that.
    You could end up with a project that is 90 percent 
completed, the day care centers or barracks, but you can't 
complete it for an entire year, because we can't sign our name 
on the letter and give you that reprogramming authority. So I 
hope we will keep that on the table as we move forward this 
year.
    Mr. Wamp.

                                AFRICOM

    Mr. Wamp. Mr. Chairman, thank you.
    Admiral, we were fascinated with Admiral Fallon's testimony 
last week. I think the AFRICOM proposal is on the table, 
investments in Djibouti, I think, in your budget request of $31 
million. For a non-permanent facility, that is getting into 
some real money, and we know that there is more to follow, but 
you talk about securing the maritime assets. What do you 
foresee there? What will your role be?
    Admiral Roughead. Yes, sir. With regard to AFRICOM, we are 
in the process of providing the manpower to man the staff that 
is taking place and thinking through what the right command 
relationships are for my Naval Component Combatant Commander 
and supporting General Ward and the work that he is going to do 
down there. We have already had more activity on the African 
continent in the last couple of years than probably in the 
previous couple of decades.
    But with regard to Djibouti, I do believe that Djibouti 
will be a point of presence for quite some time. As you know, 
we have a lease there, and I think that there will be presence. 
It is a critical area and a critical fight that we are involved 
in. So the improvements that we are making there are to enable 
the joint force--and it is not just Sailors but Marines, Army 
and Air Force--to be able to better perform their missions that 
I think are important in that very critical area of the world.

                              JOINT BASING

    Mr. Wamp. Let me ask you all both a question about joint 
basing. I flew back from China and other ends of the world with 
Representative Clyburn in January, and we stopped at Hickam, he 
hadn't been there before. But I remember when chief enlisted 
men came in here. The Air Force really has a beef with joint 
basing. From your perspectives, where is the joint basing 
process right now?
    Admiral Roughead. I will speak from some experience out in 
the Pacific, because I have had responsibility for Pearl 
Harbor, and, as you know, Pearl and Hickam are together. Also, 
looking out toward Guam. I think at the local level, we have 
had some good efforts by the commanders in doing these tabletop 
exercises that allow us to identify where some of the issues 
would be and how we work our way through the bases. 
Particularly, I think it is important to never lose sight of 
what the missions of those bases are and can we support that.
    OSD has recently issued some guidance that the Services are 
taking aboard and working our way through. I do believe that 
there are some efficiencies and benefits to the joint basing 
process, but each base is going to be different, and it is a 
function of mission, it is a function of population, it is a 
function of the location, where it is. And so I don't believe 
that one size fits all and that we have to look very hard at 
that.
    Where we are in trying to prejudge what the standards of 
living or the core levels will be, I think it is a little 
premature to determine whether somebody is going to win or 
lose. I think we have to work our way through it. We have to 
keep in mind that the objective is to provide the right mission 
support for whatever that joint base is there to do and also to 
provide the quality of life for our people, whether they be 
single or married.
    Mr. Wamp. General Conway.
    General Conway. Sir, I was just thinking as the CNO was 
talking, we have very few of our bases that are joint in any 
way. Probably the closest you come to it is on Okinawa where we 
share some facilities there with respect to BRAC 2005--Joint 
Basing Guidance, the Corps has one participant, HQMC Henderson 
Hall. And as you were saying, I think all those factors play, 
as well as, sort of, the personalities of the local commanders 
and how well they are able to coordinate. Because it is 
essentially at that level where joint basing takes place.
    Now, I think in the future it is going to be more driven 
with us. We are going to be on Guam with Air Force, with Navy 
and, most recently, even some Army will be there, and I think 
we will look at Guam as one big base in some ways.
    And, of course, the Joint Strike Fighter, some of the noise 
factors and so forth, some of the closing of certain bases, the 
enhancements of others, we may see it more. But I still tend to 
think it will be pretty much a local type of thing as opposed 
to something of a Service headquarters or even----
    Mr. Wamp. General Conway, in closing for my questions, Mr. 
Chairman, a new guy like me wanted to see some real needs in 
housing and child care and then even see some things that 
showed the past and the future of the Marine Corps. I think 
your master sergeant recommended Camp Pendleton. Would you say 
the same thing, that would be a good place to go to see, kind 
of, where we have been and where we need to go?
    General Conway. Sir, there are places--yes. If you wanted 
to see it all, the whole spectrum, Camp Pendleton is probably 
the place to go. If you wanted to see it at its worst, I am not 
sure that Camp Pendleton and our major bases aren't the first 
to make some fairly major strides forward.
    What I have experienced in my travels about the Corps in 
just over a year now is that at some of our secondary bases and 
stations they really need the most help. When we sent out word 
on what the needs were for this $100 million and how it should 
be allocated and assigned out, our secondary bases and stations 
were the people that really needed help at that point, as 
opposed to Pendleton, Lejeune or even being----
    But I think Pendleton is still the best.
    Mr. Wamp. Thank you, sir.
    Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Wamp.
    Mr. Crenshaw.

                             BLOUNT ISLAND

    Mr. Crenshaw. Thank you, Mr. Chairman.
    General Conway, let me ask you a little bit about Blount 
Island. A lot of hard work went into changing that from a lease 
facility now to be owned by the Department of Defense, and some 
exciting things are happening there. There are some security 
challenges, there are some organizational challenges, but it 
seems that has all been--as I understand it, there is going to 
be a master plan coming from the Marines.
    And then can you share with us a little bit about that, and 
how it is--are there any infrastructure needs that are going to 
be part of that? The new ship is going to be part of that. Is 
it going to change anything that we need to do with Blount 
Island? Can you, kind of, just give us an overview of that?
    General Conway. Yes, sir, I can. Blount Island is 
absolutely critical to us, because even as we speak, they have 
got one of our MPS, Maritime Prepositioning Squadrons, in a 
rehab kind of role, and they do marvelous work offloading the 
ships and starting the equipment and getting everything back up 
to speed.
    When we offloaded that equipment in 2003, about 95 percent 
of it was just ready to go. So they do marvelous work between 
them and the squadrons, and so therefore it is an absolutely 
critical facility to us and what we do for the nation.
    There are 10 major projects that need to be managed to turn 
it into the facility that we would like it to be and to keep it 
doing what it is going to do now for the long term. That comes 
to a total of something around the order of $150 million to 
$155 million that at this point is essentially on our unfunded 
list. We don't have the money ready and available to do the 
things that the commander and his boss--we regionalized all the 
bases and stations. He works for the Major General overall, but 
both the commander there and General Williams agree that these 
are exactly the things that we need to do to bring it up to a 
world class kind of facility.
    So we are going to work hard to try to find that money in 
the future to, again, keep the general--for us.
    Mr. Crenshaw. Great.
    This one may be, Admiral, more for you. It was mentioned 
about the bachelor housing, and I think it was originally going 
to be San Diego and Norfolk and Bremerton and now Mayport is 
kind of in that mix.
    Just a couple of kind of specific, and I don't know if you 
have all the details, but as I understand it, it depends on 
whether those facilities are going to be on the base or off the 
base. I think in San Diego they are on the base--no, they are 
off the base, and then in Norfolk, on the base. And issues 
about, like, in Mayport it would be on the base, and then there 
is some issue about when you sell land, a private entity, on a 
military base, you need to have some sort of easement, egress 
and ingress, that kind of thing.
    Do you know much about--I mean, I would be curious to know 
how it is going because some of the housing that was kind of 
geared toward the basic housing allowance, and you have got 
kind of an income strain where the developer could come in and 
say, ``Well, I know the money is coming in,'' but when you have 
got some of these younger sailors that probably don't have a 
basic housing allowance, how does that impact a developer when 
he says, ``I am going to build a facility.'' He doesn't really 
have any guaranteed income stream.
    Are those questions that you are familiar with? Anybody 
that could talk about those things?
    Admiral Roughead. Yes, sir. I think with that, I wouldn't 
even begin to get into the easement laws and what have you on 
that, but as you pointed out, the models are different, and I 
think that is what is important as we go in and put in the type 
of accommodations for Sailors, is to look again specifically at 
the installation, where can it best be placed? And in the case 
of San Diego, it is off, but there is very easy access.
    So I think each one has to be looked at and we will see how 
the--with regard to the public-private for single Sailors, 
there is BAH that is provided, and that is why--you know, it is 
not a free lunch, because even though the private contractor 
picked it up, that now creates a manpower bill because of what 
we are doing.
    But it is clear to me that the contractors that are 
involved and meeting with them seem to be pretty optimistic 
about the future. I think it is important that the facilities 
that we build are properly sized for the Fleet that we expect 
to be there for some time so that we don't get into a period 
where there is vacancy. So all those go into the mix, and I 
think the two that we have in place now are moving ahead, and 
that is why I am very interested in the third one.
    Mr. Crenshaw. Are they actually in place? You have got 
people living there now?
    Admiral Roughead. Well, in San Diego we have Sailors living 
in a converted building, the Pacific Beacon, which is the four-
tower complex that is being built. It is still under 
construction but moving ahead very, very rapidly. And the 
quality of work, the quality of the rooms--every room in those 
four towers that a Sailor will live in looks out on San Diego 
Bay. Not many people who live in San Diego can see that.
    Mr. Crenshaw. Probably a pretty good recruiting tool. I 
know I have seen the married housing out in San Diego, and, I 
will tell you, it is just magnificent.
    But I wonder, with the single sailors, would there ever be, 
or have you thought about, issues about discipline and just 
kind of cohesion? Because if you are on a ship, obviously, you 
are there all the time, and if you are out somewhere, are those 
things that you have heard complaints or has there been 
discussion about how----
    Admiral Roughead. Mr. Crenshaw, so far it has gone very 
well, and I give the credit to our young men and women who live 
there. When you give them a quality place to live, they will 
take care of it. And the contractor has an interest in 
maintaining it so that their maintenance costs are down.
    I would also say that one of the things that struck me 
about the effort that we have on the way in San Diego is the 
way the contractor has worked with other providers--phone 
providers, Internet providers--that really are tailored to the 
types of schedules that our sailors are on. So that, if for 
example, they get called away on a mission, that they are not 
penalized with trying to terminate a service before they leave.
    And that is why I think it is really a program that is 
providing quality of life for our people that is very 
important, and it is going to be very important to attract 
young men and women into--but I think all the Armed Forces. If 
they come in and they see a great place to live with the types 
of things that are part of their life today, the kind that 
could meet with friends and family that is so important to 
them, that is huge, and I really appreciate your support and 
everything you have done to make that possible.
    Mr. Kennedy. If I could add, I have heard stories where the 
contractors actually give a smaller stipend to some of the 
dorm, if you would say, or some of the guys that are going to 
be the, kind of, watch out for everyone else on the floor, and 
in exchange they pay half the rent in order to keep everyone 
else, kind of, in line. And it's like those kinds of informal 
bargains that they make with----
    Mr. Crenshaw. It is like a hall monitor. [Laughter.]
    Mr. Kennedy. Hall monitor. That kind of stuff they have 
figured out works.
    Mr. Crenshaw. One quick question: I was looking at this, 
Admiral, the right places. It is a chart that shows some East 
Coast and it talks about the possible homeport of the LCS and 
DDX. It shows a possible homeport at Norfolk, and like other 
places, it doesn't say possible homeport. Has any decision been 
made about that?
    Admiral Roughead. No, sir. That is what I have my staff 
working on now is to go out and look at where do we want the 
capabilities and the capacity to the numbers to be for the 
world that we envision in the next few decades. It is trying to 
look into the crystal ball and then saying, ``We believe the 
capability that we are going to need.''
    Mr. Crenshaw. So you could have put possible homeport in 
other places.
    Admiral Roughead. Yes, absolutely.
    Mr. Crenshaw. Just checking. Thank you.
    Mr. Edwards. Mr. Kennedy.

                           NAVAL WAR COLLEGE

    Mr. Kennedy. Just looking forward to having you up to the 
Newport, Rhode Island War College. We have got huge transitions 
as a result of BRAC, as you know, a lot of MILCON issues 
because of the absorption there for the Marines that are coming 
up, 700 Navy and Marine personnel, from supply school, and we 
are doing the best we can absorbing them all. But for 40 years 
there wasn't an anticipation there that that would be 
necessarily the place for quite the hub of activity that it is 
going to be now for the next 50.
    I knew the War College would always be there as an anchor, 
but as far as everything else, the surface warfare and the 
naval undersea warfare, NAFs and everything else. That was 
never quite a guarantee. So all those old buildings, I mean, we 
have still got--our sailors are living in and buildings that 
are vintage World War II, so we are going to be working to try 
to bring that up to snuff. That is our challenge, so we will be 
working with you to try to do that.
    Admiral Roughead. Thank you, and thank you for your 
support. The War College has just continued to do great work, 
not just in our operational and strategic thinking and putting 
in place some new courses of instruction that are important to 
our future but also really expanding nationally. They are doing 
some really good things, and thank you for your support.
    Mr. Kennedy. Thanks.
    Mr. Edwards. Mr. Carter?

                          INCREMENTAL FUNDING

    Mr. Carter. I guess I have got one last question. It just 
seems like they have recently changed the rules for having 
incremental funding for large MILCON projects. How does that 
affect each of your service's planning, both currently and in 
the future, as you look down the road, how are we going to plan 
these large MILCON projects?
    Admiral Roughead. Yes, sir. It is somewhat out of step in 
that we fully fund and then when it is incrementally funded and 
the change is made to incrementally fund, that is money that we 
no longer have available. So in subsequent years, we have to go 
ahead and reprogram the other increments. So it is one that, I 
believe, of reconciliation of how we budget and move forward 
would be very helpful to us, and I think we would be able to 
benefit greatly if that were to happen.
    General Conway. Same is true, sir, for our Corps. I think 
it is true across the Department of the Navy. It caught us a 
little unaware. We would like to counter back, if you will, and 
see if we can get some things changed.
    Mr. Carter. Yes. It seems troublesome to me.
    Thank you, Mr. Chairman. That is all.

                          GUANTANAMO BAY, CUBA

    Mr. Edwards. Okay. I will just quickly ask one question.
    Guantanamo, in this budget, there is a request for $63 
million for new family housing and $21 million for a new 
fitness center. I don't know who the next president is going to 
be, and I don't know what our policy is going to be regarding 
the detainees in Guantanamo. Without getting into that debate, 
would you make this request even if the policy were to be not 
to continue keeping the detainees in Guantanamo?
    Admiral Roughead. Yes, sir, I would, because, to circle 
back around, I think that our interests in the Caribbean are 
significant. The amount of infrastructure, particularly the 
energy infrastructure in the Gulf of Mexico, and what we have 
on Guantanamo and the folks that we have there, I do believe 
these investments are worth it for the Navy.
    Mr. Edwards. I saw that housing down there last year. It is 
pretty questionable.
    Mr. Wamp.
    Mr. Wamp. I am through, Mr. Chairman. Thank you.
    Mr. Edwards. Mr. Kennedy.
    Mr. Crenshaw.
    Well, if not, on behalf of the entire committee, let me 
thank you for your service to our country and for being here 
today.
    [Clerk's note.--Questions for the Record Submitted by 
Chairman Edwards.]

              Unaccompanied Housing Construction Strategy

    Question. The navy has indicated its intention to have ashore 
quarters for the roughly 9,000 E1-E3 sailors who currently live aboard 
ship while in port. I understand that many of the sailors who are 
quartered ashore do not have living arrangements that meet the 
Department of Defense standard for 90 square feet of living space per 
person, even if the barracks themselves technically meet the 1 + 1 
standard. Does the Navy have a construction strategy for completing the 
Homeport Ashore initiative and meeting the DoD space standard for 
unaccompanied housing?
    Answer. Although the Navy intends to provide quarters that meet the 
DoD privacy standards (where each member has their own sleeping room), 
to get Sailors ashore quickly, we are currently housing Sailors at two 
or more per room as an interim step to achieve its Homeport Ashore 
initiative. The Navy intends to achieve the Homeport Ashore initiative 
through a combination of military construction (MILCON), privatization, 
and host country agreements where applicable. The last MILCON project 
required as part of the Homeport Ashore initiative (based on current 
ship home porting projections) was authorized and appropriated in 
Fiscal Year 2008. While this does not meet the full DoD privacy 
standards, it does provide housing ashore for the vast majority of our 
junior Sailors on sea duty. The Navy is developing a Master Bachelor 
Housing Plan which will include a strategy to provide unaccompanied 
personnel with housing that meets applicable standards.

                       Unaccompanied Housing FYDP

    Question. What has the Navy programmed for sailors' unaccompanied 
housing in the FYDP?
    Answer. The Navy has programmed the following projects for Sailors' 
unaccompanied housing in the FYDP:

------------------------------------------------------------------------
                                 Project
           Location               number      Description       ($000)
------------------------------------------------------------------------
FY 2009
NALF San Clemente IS CA......          740  Bachelor              34,020
                                             Enlisted
                                             Quarters (BEQ).
NAVSTA Great Lakes IL........          744  RTC Special           62,940
                                             Programs
                                             Barracks.
NAVMARIANASSUPPACT Guam......          469  BEQ, Main Base.       62,360
                                                            ------------
      Total FY 2009..........  ...........  ...............      159,320
Fy 2010
NAVSUPPACT Bahrain...........          935  Transient             24,700
                                             Quarters III.
NAVSTA Newport...............          451  BEQ Replacement       35,370
                                                            ------------
      Total FY 2010..........  ...........  ...............       60,070
FY 2011
NAVSUPPACT Bahrain...........          938  Bachelor              31,800
                                             Enlisted
                                             Quarters III.
NAVSUPPACT Bahrain...........          936  Transient             24,700
                                             Quarters IV.
NAS North Island.............          742  Bachelor              13,760
                                             Enlisted
                                             Quarters.
                                                            ------------
      Total FY2011...........  ...........  ...............       70,260
FY 2012
NAVSUPPACT Bahrain...........          937  Bachelor              32,273
                                             Enlisted
                                             Quarters II.
NAVSUPPACT Panama City, FL...          379  Joint Diver           10,658
                                             ``A'' School
                                             Dormitory.
NAVSTA Newport...............          482  Bldg 1269 SEA          6,500
                                             Improvements.
                                                            ------------
      Total FY 2012..........  ...........  ...............       49,431
FY 2013
NAVSUPPACT Bahrain...........          934  Transient              3,420
                                             Quarters II
                                             Addition.
NAVSTA Great Lakes IL........          713  ``A'' School          36,505
                                             BEQ
                                             Replacement.
NAVUNSEAWARCNDET AUTEC.......          200  Bachelor               9,630
                                             Enlisted
                                             Quarters.
NSS Portsmouth NH............          285  Construct              9,699
                                             Addition to
                                             CBQ #373.
                                                            ------------
      Total FY 2013..........  ...........  ...............       59,254
------------------------------------------------------------------------

                              Barracks PPV

    Question. Is the Navy seeking expansion of the barracks PPV 
initiative beyond the three pilot projects? If so, will this contribute 
to the Homeport Ashore program?
    Answer. The Navy has not included a request for the expansion of 
the barracks privatization authority in this year's budget submission. 
To date, the Navy has executed two of the three projects and is 
developing a concept for a third project in the Jacksonville/Mayport, 
Florida area.
    Given our experience with the pilot authority to date, we believe 
the privatization authorities can be a useful and effective tool in 
improving housing for our single Sailors, especially as a complement to 
the Homeport Ashore program. I would like to see the authority expanded 
beyond its pilot status, if the three pilot projects are successful and 
financially feasible.

                            Barracks MILCON

    Question. Is the Navy requesting MILCON funding in FY09 for 
barracks at any locations that are being considered for barracks PPV?
    Answer. No, our only FY 2009 MILCON projects are in Guam; Great 
Lakes, IL; and San Clemente Island, CA. The three pilot PPV locations 
are Norfolk, VA; San Diego, CA; and the Jacksonville/Mayport, FL area.

                           Inflation Figures

    Question. What has the Navy done to incorporate more realistic, 
regionally adjusted inflation figures in its FY09 military construction 
and family housing program?
    Answer. For projects in the PB09 program, the Navy used the best 
available pricing source and did not solely rely on the DoD Facilities 
Pricing Guide Guidance Unit Cost. This enabled consideration of the 
latest market condition information and DoD direction available at the 
time of budget submission. Listed below are the pricing sources 
utilized in preferential order from highest to lowest:
    --User-Generated based on 100 percent designs or Architectural/
Engineering (A/E) studies and current market conditions.
    --User-Generated based on historical cost data from same type of 
facility constructed recently.
    --User-Generated parametric cost estimates using costing models for 
common types of facilities.
    --DoD Facilities Pricing Guide Guidance Unit Cost (GUC).
    Additionally, through a formalized Cost Consistency Review Board we 
have incorporated lessons learned, made adjustments to address recent 
trends, and ensured that pricing for key features were appropriately 
considered for all projects. Key pricing features included:
    --Incorporating adjustments to ensure seismic requirements were 
appropriately considered.
    --Adding a line item to ensure Leadership in Energy & Environmental 
Design (LEED) and Energy Policy Act (EPACT) 2005 compliance was 
appropriately considered.
    The inflation rate used to escalate projects from program lock to 
the program mid-point of construction (average OCT 2009) was 2.2 
percent per year which is consistent with the DoD Facilities Pricing 
Guide.

                        Special Weapons Security

    Question. Last year, the Navy provided a rough estimate of $1 
billion for special weapons security requirements under the Strategic 
Systems Program pursuant to Presidential Directive 28. What is the 
current estimate?
    Answer. The current MILCON requirement for Nuclear Weapons Security 
(NWS) in the FYDP (FY09-13) is $495 million of which $477 million is 
budgeted in the President's Budget 09 FYDP. The President's Budget for 
FY 2009 includes funding for one NWS project, a $51 million increment 
to P-973; Limited Area Production and Support Complex. While a number 
of projects remain unfunded, the Navy has taken steps to mitigate the 
lack of available facilities by implementing interim solutions to 
ensure Navy provides security as directed in Presidential Directive 28. 
The President's Budget 09 FYDP also includes $1.3 billion budgeted in 
other appropriations for both shore side and transit protection NWS.

                   PPV--Child Development Facilities

    Question. Marine Corps has been able to include new schools in some 
of its family housing PPV projects. Has either the Navy or Marine Corps 
considered the possibility of including child development facilities as 
a part of PPV?
    Answer. To date, no Navy housing privatization project has included 
the construction of child development facilities. The Navy budget 
includes a robust program for the construction of child development 
centers (CDCs) as part of the overall military construction (MILCON) 
program. The inclusion of CDC construction in a military housing 
privatization project, as a complement to the MILCON program, may be 
considered on a case-by-case basis where it can be supported by project 
cash flows without sacrificing quantity or quality of the housing or 
other amenities.

                Youth Activity Needs--Department of Navy

    Question. The Department has set a goal of meeting 35 percent of 
youth activity needs by 2009. What are Navy and Marine Corps doing to 
meet this goal?
    Answer. Current youth participation rates range between 19 percent 
and 24 percent. In order to achieve the newly established 35 percent 
goal, we must increase availability of programs and services to meet 
the emerging needs of our dependent military youth. Our long standing 
national partnership with the Boys and Girls Clubs of America has 
increased participation in the Department of Navy. The Navy recently 
entered into a similar affiliation agreement with the National 4-H 
program. Also, we are making numerous improvements to our military 
operated programs to attract youth members. These improvements include 
technology lab hardware/software upgrades that provide homework 
assistance programs, youth fitness program such as the on-line 
FitFactor program (navygetfit.com), and increased transportation and 
hours of operation for youth programs. Additionally, through an OSD 
joint services contract, the Navy is providing on-site counselors to 
assist staff members with identifying and assisting youth with 
deployment and family separation stress.
    This summer, the Navy is coordinating a joint Service Teen Forum 
that will bring together military youth from all Services to identify 
their top issues and brief our senior leadership so we can continue to 
make service delivery improvements that meet their unique needs.

                        MILCON Requirements Guam

    Question. Has the Navy fully scoped the MILCON requirements for all 
elements of forward-basing vessels at Guam? What are the total 
outstanding (FY09 and beyond) MILCON requirements for the three SSN's, 
SSGN, T-AKE, and transient carrier berthing?
    Answer. Yes, the Navy has scoped MILCON requirements for all 
current berthing needs of forward-basing vessels at Guam as follows:
          P-431 Alpha/Bravo Wharf Extension (FY06 Incr 1 [$25.4M]/FY07 
        Incr 2 [29.8M]) meets SSGN and 3 x SSN berthing requirements
          P-502 Kilo Wharf Extension (FY08 Incr 1 [$50.9M]/FY09 Incr 2 
        [$50.9M] is designed specifically to meet ordnance handling 
        requirements for the new 
        T-AKE
          P-518 X-Ray Wharf Improvements [$33.4M] (unprogrammed) meets 
        nonordnance logistics handling requirements for the new T-AKE
          P-583 CVN-Capable Wharf [$390.1M] (unprogrammed) meets 
        transient carrier berthing requirements
    The Guam Joint Military Master Plan (GJMMP) and Global Shore 
Infrastructure Plans (GSIPs) are currently under development and will 
include all Amphibious Ready Group (ARG), Expeditionary Strike Group 
(ESG), and CVN infrastructure and berthing requirements. The Navy will 
continue to address these requirements in future budget submissions.

                Environmental Impact for LCS Homeporting

    Question. When will the environmental impact statement for 
homeporting of the Littoral Combat Ship be complete? When does Navy 
anticipate making final homeporting decisions for LCS?
    Answer. The homeporting decision process is deliberate and 
balanced. This process takes into account national security 
requirements; operational availability; training, total cost and other 
programmatic implications such as impacts on Sailors and their 
families; the effect on local economies and National Environmental 
Policy Act (NEPA) requirements.
    The Environmental Assessment and Finding of No Significant Impact 
for the initial LCS Flight Zero ships was completed in Dec 2005 and 
Naval Station San Diego was selected as the homeport. Lessons learned 
from the initial flight zero ships will help determine long-term 
requirements and basing. Additional environmental planning efforts are 
planned in the upcoming fiscal years pending a finalized LCS 
acquisition schedule. The potential homeport locations have not yet 
been fully determined. Once initiated, these NEPA efforts will 
typically conclude within 12-18 months.

                           Flag Housing Guam

    Question. The family housing request includes $1.695 million to 
reconfigure the interior of six flag housing units on Guam, which 
equates to a cost of $282,500 per unit. How do you justify this 
reconfiguration versus whole house replacement construction?
    Answer. The proposed project involves extensive work, encompassing 
repairs in addition to reconfiguration, which will result in the 
revitalization and modernization of these homes and an extension of 
their useful life at a cost that is approximately 25 percent of the 
cost to construct a replacement unit. Accordingly, the proposed work is 
more cost-effective than replacement.
    The area cost factor for Guam is 2.64 which means that construction 
costs in Guam would be over 150 percent more than the cost of 
comparable construction in Washington, DC. To illustrate this point, 
the Guam project cost exclusive of contingency and supervision, 
inspection, and overhead is approximately $1.5 million (or $253,000 per 
unit). Adjusting for geographic cost differences, the same project in 
Washington, DC would cost approximately $100,000 per unit.
    Although the units are located at Flag Circle, they are designated 
for senior (paygrade 0-6) officers.

                  Grow the Force--Temporary Facilities

    Question. You have noted that the Marine Corps is actually 
recruiting beyond its targets to meet the personnel required for 
Growing the Force. This will put additional strain on your facilities 
until the permanent construction for GTF is completed. I understand 
that the Marine Corps intends to rely on approximately $900 million in 
temporary facilities for three to seven years until permanent 
facilities are finished. To what extent are you relying on facilities 
temporarily vacated by deployed units?
    Answer. Existing facilities will be utilized to the largest extent 
practical. However, the majority of our interim facility solutions will 
be temporary and relocatable facilities.

                        Grow the Force--Reserves

    Question. Is there a GTF impact on the Marine Corps Reserve? If so, 
is there a milcon requirement.
    Answer. The current Marine Corps Reserve end strength of 39,600 is 
sufficient. There are no plans to include the Reserves in the Grow the 
Force effort.

                      Grow the Force--Construction

    Question. Does your Grow the Force plan fully account for all of 
the permanent construction necessary for the end state of growth?
    Answer. Our plan fully accounts for the permanent construction 
necessary to support Grow the Force.

                       Grow the Force--Barracks 

    Question. How many additional permanent party barracks spaces are 
needed due to Growing the Force? What is the total military 
construction estimate for this requirement?
    Answer. Approximately 10,600 additional spaces at a cost of $800 
million will be needed to support Grow the Force requirements.

             Grow the Force--Barracks Acquisition Strategy

    Question. You have requested a large number of barracks projects to 
execute in a single year. For example, you have requested 19 projects 
at Camp Pendleton alone. What is your acquisition strategy for 
barracks?
    Answer. These bachelor quarters projects will be packaged into 
small and medium-size contracts, attractive to a range of small, 
medium, and large contractors. Additional projects will be set aside 
for small business concerns to ensure achievement of small business 
award goals. To speed the delivery of facilities and simplify facility 
sustainment in the future, we are using a consistent design adaptable 
to specific sites.

                           Training Barracks

    Question. What is the state of Marine Corps training barracks? Do 
you have a program to bring all of these up to current standard?
    Both MCRD Parris Island and MCRD San Diego have Military 
Construction in FY 2009 for new Recruit Barracks. We also plan 
additional recruit barracks to support Grow the Force recruit 
throughput. At the completion of these projects, all recruit barracks 
should be adequate. However, keeping recruit barracks adequate is an 
ongoing process:
    <bullet> In 2007 and 2008 the Marine Corps is investing over $18 
million in repair and modernization projects for recruit barracks at 
MCRD San Diego that include replacement of toilets/showers, drains, 
roof repairs, replacement of floor and wall tile, and installation of 
fire sprinkler systems.
    <bullet> Between 2007 and 2009 the Marine Corps invested (or plans 
to invest) over $14 million in similar repairs to MCRD Parris Island 
recruit barracks.
    The Basic School (TBS) at Quantico, which provides training for our 
new Marine Corps officers, will be totally recapitalized and replaced 
over the next 10+ years. The vast majority of existing facilities are 
classified as inadequate and beyond economical repair. This 
construction supports the TBS master plan.
    The Officer Candidate School barracks at Quantico have been 
replaced and refurbished and no other new barracks projects are needed 
at this time.

                  Aged Barracks--Replacement Projects

    Question. In written response to the Committee last year, you 
provided a table that identified 43 barracks built between 1920 and 
1944 and indicated replacement projects for those facilities that had 
been programmed. Please provide an updated version of this table.
    Answer. Table Attached.
    [GRAPHIC] [TIFF OMITTED] T2754B.114
    
    [GRAPHIC] [TIFF OMITTED] T2754B.115
    
             Guam Relocation--Futenma Replacement Facility

    Question. What is the impact to the Marine Corps' capabilities on 
Okinawa if the Futenma Replacement Facility is not completed?
    Answer. If the Futenma Replacement Facility is not completed, the 
following will result:
    --Japan will have not fulfilled the key provision of the Agreed 
Implementation Plan on Okinawa Reorganization that the U.S. concluded 
with the Government of Japan (GOJ) in 2006. As a result, the U.S. would 
not be obligated to relocate approximately 8,000 Marines off of Okinawa 
to Guam.
    --II MEF forces could continue to base and operate from the island 
of Okinawa as they have for decades.
    --The Marine Corps could continue to use MCAS Futenma for air 
operations in Okinawa, but the following constraints apply:
    The maintenance of facilities at Futenma has been minimal since the 
1996 Special Action Committee on Okinawa (SACO) Agreement. This was the 
original agreement between the U.S. and Japanese governments to 
construct a Futenma Replacement Facility. Since Futenma was to be 
replaced, little was invested in maintaining the facility. If the 
Futenma Replacement is not built, the existing Futenma facilities will 
require substantial investment, or the facility would become unusable 
in the near future.
    Operating from Futenma, the USMC would still be faced with 
opposition on the island to the continued use of Futenma, perpetuating 
an on-going source of discontent in the vicinity of the airfield and 
with the Okinawa Prefectural Government.
    The political viability of continued, long-term use of the airfield 
is in question, because the Okinawan population, which encroached on 
Futenma Air Station after it was built, is vocally opposed to continued 
operation of the facility.

             MV-22--Military Construction Cost for Bed Down

    Question. What is the total outstanding (FY09 and beyond) Marine 
Corps military construction requirement for bed-down of the MV-22?
    Answer. The current planning estimate for Marine Corps MILCON 
requirements for MV-22 support is approximately $141 million.

    [Clerk's note.--End of Questions submitted for the Record 
by Chairman Edwards.]
    [Clerk's note.--Questions for the record submitted by 
Congressman Wamp.]

             Guam Realignment--Admiral Roughead's Response

    Question. The budget continues detailed studies, plans, and 
environmental analyses for the United States and the Government of 
Japan DPRI to relocate about 8,000 marines and dependents from Okinawa 
to Guam by 2014. Please tell the Committee what your sense is of the 
planning process and the vast number of decisions that would have to be 
made, and is 2014 a realistic goal? How much does the budget request 
include for studies, plans, and environmental analyses for the Guam 
realignment? Is there funding in the Navy budget request for this work 
or is the funding elsewhere in the budget?
    Answer. The Joint Guam Program Office (JGPO) in the Office of the 
Assistant Secretary of the Navy (Installations and Environment) is 
coordinating this initiative, as directed by the Deputy Secretary of 
Defense. The Master planning process is progressing well. The draft 
Master Plan will be available at the end of this month and will show a 
conceptual laydown plan. The working-level Guam Joint Military Master 
Plan is being developed in parallel with the Environmental Impact 
Statement (EIS) and should be available this summer.
    Natural and cultural resources and socioeconomic studies are 
underway on Guam and in the Commonwealth of the Northern Marianas 
Islands (CNMI), and additional studies are set to begin this summer. To 
support the final EIS document, the JGPO is coordinating with Federal 
and local regulatory agencies in quarterly partnering sessions to 
identify and resolve potential hurdles. JGPO is also the champion of a 
Lean Six Sigma project that aims to streamline the review process. 
These efforts support the approval of the EIS Record of Decision in 
January 2010.
    The Department of Navy's FY 2009 budget includes $62 million for 
the DPRI initiative. Of the $62 million, $28 million is in the Military 
Construction Navy appropriation for construction planning and design, 
$25 million in Operations and Maintenance, Marine Corps and $9 million 
in Operations and Maintenance, Navy accounts for continued master plan 
and EIS studies, plans, and analyses for the Guam realignment. Although 
programming and budgeting for the Guam realignment program remains a 
Service responsibility, JGPO coordinates those Service funding 
requirements.
    Aside from the costs directly associated with the realignment, 
there are many infrastructure needs on Guam that may directly or 
indirectly impact the execution of the program. JGPO continues to work 
closely with the Government of Guam and other Federal Agencies and 
Departments to identify their respective funding requirements. JGPO has 
partnered with the Department of the Interior to monitor and address 
the Federal response in meeting these funding requirements as part of 
an Interagency Work Group.
    DoD and the Government of Japan continue to strive toward a 
completion date of 2014.

  Guam Relocation--Plans, Decisions, Budget--General Conway's Response

    Question. The budget continues detailed studies, plans, and 
environmental analyses for the United States and the Government of 
Japan DPRI to relocate about 8,000 marines and dependents from Okinawa 
to Guam by 2014. Please tell the Committee what your sense is of the 
planning process and the vast number of decisions that would have to be 
made, and is 2014 a realistic goal? How much does the budget request 
include for studies, plans, and environmental analyses for the Guam 
realignment? Is there funding in the Navy budget request for this work 
or is the funding elsewhere in the budget?
    Answer. Moving approximately 8,000 Marines and associated family 
members to Guam by 2014 entails planning the echeloned movement of 
designated units from Okinawa to Guam in such a way as to match the 
construction progress on Guam and to maintain operational viability 
during the relocation. Marine Forces Pacific (MFP), planning with 
Headquarters, U.S. Marine Corps and on behalf of the Commander, U.S. 
PACOM, has created a timeline of execution that is matched to 
requirements and obligations of the Agreed Implementation Plan (AIP).
    The existing timeline is aggressive and will require coordination 
of the Governments of Japan, the United States, and Guam, as well as 
industry partners. The Department of the Navy PB09 budget request 
includes the required funding for studies, plans, environmental 
analysis as well as planning and design for the Guam realignment in 
addition to previously appropriated FY08 totals.

----------------------------------------------------------------------------------------------------------------
                                                                                    FY07       FY08       FY09
----------------------------------------------------------------------------------------------------------------
Military Construction, Navy....................................................  .........     $11.0M     $28.1M
Operation and Maintenance, Marine Corps........................................  .........      $9.0M     $24.8M
Operation and Maintenance, Navy................................................     $21.6M     $18.8M      $8.8M
                                                                                --------------------------------
    Total......................................................................     $21.6M     $38.8M     $61.7M
----------------------------------------------------------------------------------------------------------------

    Efforts are proceeding apace to complete the Environmental Impact 
Statement and obtain the Record of Decision (ROD) in FY 2010 in order 
for the construction of facilities to begin.

                 BRAC 2005--Admiral Roughead's Response

    Question. According to your testimony, BRAC 2005 continues the 
process of improving efficiencies and reducing footprint, and that the 
Navy has started to implement business plans that account for $893 
million in annual savings for steady state operations starting in 
fiscal year 2012. The Navy budget request includes $871.5 million to 
continue implementation of the 2005 BRAC recommendations. How much were 
you cut between the fiscal year 2008 request versus the 2008 
appropriation, and what type of adjustments is the Navy making due to 
the rescission? Does the fiscal year 2009 request try to recapture the 
cuts that were made in fiscal year 2008? How do these cuts impact 
planning, execution and the 2011 deadline?
    Answer. Navy's share of the $939 million FY 2008 Congressional BRAC 
2005 reduction is $143 million. The lack of appropriations will result 
in a delay of awarding two BRAC construction projects totaling $97 
million (Investigative Agencies Consolidation, Quantico, VA; Reserve 
Center, Fort Lewis, WA) and delay move-related expenditures in the 
amount of $46 million (Operations & Maintenance) from FY 2008 to FY 
2009. These delays add uncertainty and hardship for the Navy personnel 
and families affected by the move. These delays prevent achieving 
management efficiencies and savings that were the basis for the BRAC 
decisions. Without the prompt and full restoration of funds, Navy's 
ability to accomplish BRAC by the September 15, 2011 statutory deadline 
will be jeopardized.
    The FY 2009 budget submission does not address nor attempt to 
recapture the $143 million FY 2008 reduction.

Marine Corps-Grow the Force (Navy Support)--Admiral Roughead's Response

    Question. Does this budget request adequately address the fiscal 
year 2009 requirements as it relates to the Grow the Force Initiative 
in the Marine Corps?
    Answer. The Navy has no military construction requirements to 
support the Marine Corps' Grow the Force initiative and none are 
included in the FY 2009 budget request.

      Grow the Force--FY09 Requirements--General Conway's Response

    Question. Does this budget request adequately address the fiscal 
year 2009 requirements as it relates to the Grow the Force initiative 
in the Marine Corps?
    Answer: Yes, the FY09 budget request adequately addresses the 
funding necessary to implement the Marine Corps' Grow the Force plan.

       Camp Lemonier--Budget Request--Admiral Roughead's Response

    Question. You mentioned the conduct of operations to dissuade and 
counter piracy off the West African coast to provide a secure maritime 
environment. In the budget request, there is a total of about $31.4 
million for three projects at Camp Lemonier in Djibouti. Is the Navy 
assuming a larger role there and do you anticipate the transition to 
AFRICOM to be moving in the right direction? What kind of impact do you 
think your presence will have on your ability to counter piracy off the 
West African coast?
    Answer. The Navy is not assuming a larger role at Camp Lemonier. 
The three projects, an aircraft maintenance hangar, a parking apron for 
that maintenance hangar, and a telecom facility, will replace the 
inadequate infrastructure (i.e., tents and outdated C4I electronic 
systems). These structures will enhance maintenance capabilities for 
current aviation forces in Djibouti. While there is no direct link 
between these projects and counter-piracy operations off the Horn of 
Africa, improved aircraft maintenance and communications will enhance 
our maritime capabilities in the area.
    The transition to AFRICOM will further our efforts to implement the 
new cooperative Maritime Strategy and increase the security and 
stability of the surrounding maritime domain. AFRICOM will be 
responsible for regional initiatives such as Global Maritime 
Partnerships that seek a cooperative approach to maritime security in 
the region to counter piracy, terrorism and other illicit activities. 
Additionally, Africa Partnership Station is a tailored, routine 
presence in West and Central Africa that integrates various entities to 
build capability and capacity in partner nations to address common 
challenges in the region.

           Joint Basing Process--Admiral Roughead's Response

    Question. Your testimony indicates that there is much work to be 
done on the Joint Basing process, but would you give the Committee an 
update on the status of the Joint Basing process.
    Answer. Over the past few months we have made significant progress 
on Joint Basing. The Office of the Secretary of Defense (OSD) issued 
the Joint Base Implementation Guidance (JBIG) on January 22, 2008, 
directing Total Obligation Authority (TOA) and real property assets 
transfer from the supported component to the supporting component. OSD, 
with full Service participation, is developing specific guidance and 
performance standards to enable each Joint Base to develop site 
specific Memoranda of Agreement (MOAs). These MOAs will further define 
the relationships between components and commit supporting components 
to deliver approved output levels.
    The JBIG has two implementation phases: Phase I begins January 31, 
2009, and Phase II on January 31, 2010. The Navy has the lead on the 
following joint bases:
          <bullet> Joint Base Anacostia-Bolling, DC
          <bullet> Joint Base Pearl Harbor-Hickam, HI
          <bullet> Joint Base Little Creek-Story, VA
          <bullet> Joint Region Marianas, Guam
    All actions will be completed by September 2011.

          Basic Housing Allowance--Admiral Roughead's Response

    Question. Currently, sailors have the opportunity to buy or rent 
homes if they receive Basic Allowance for Housing. How does a sailor 
qualify for a Basic Housing Allowance, and what percentage of sailors 
receive a Basic Housing Allowance?
    Response. Under the provisions of section 403 of title 37 of the 
U.S. Code, any Sailor who is entitled to basic pay and does not 
permanently reside in government quarters is entitled to a full Basic 
Allowance for Housing (BAH) based on his or her pay grade, dependency 
status (i.e., a member with, or without dependents), and permanent duty 
location. This includes Sailors and their families who reside in 
housing built, maintained, and/or operated under a public-private 
venture. However, the law also stipulates that members in pay grades 
below E-6 without dependents are not entitled to BAH if assigned 
afloat. The law goes on to provide that the Secretary concerned may 
authorize BAH for these members if they are serving in pay grades E-4 
or E-5. Navy policy limits this authority regarding Sailors in pay 
grade E-4 to those with at least four years of service. Thus, the 
effect of the law and Navy's policy is that members without dependents 
in pay grades E-l to E-4 (with less than four years of service) may not 
receive a full BAH if they are assigned to a tour of duty aboard a ship 
or submarine. As of February 2008, 68.89 percent of Sailors who receive 
basic pay also receive BAH.

           Family Housing Budget--Admiral Roughead's Response

    Question. The budget request includes $123 million for family 
housing construction, improvements, planning and design. For the 
record, please breakout each of these items, by location and dollar 
amount.
    Answer. The requested information follows:

----------------------------------------------------------------------------------------------------------------
                                                                                                  Appropriation
                Location                         Project No.                 Description           Request ($M)
----------------------------------------------------------------------------------------------------------------
Family Housing Construction:
    NS Guantanamo Bay, Cuba............  H-541.....................  Replace 38 units..........            $16.5
    NS Guantanamo Bay, Cuba............  H-543.....................  Replace 60 units..........             23.7
    NS Guantanamo Bay, Cuba............  H-544.....................  Replace 48 units..........             22.4
                                                                                                ----------------
    Subtotal...........................  ..........................  ..........................             62.6
Family Housing Improvements:
    NCBC Gulfport, MS..................  H-06-92-2.................  Privatization.............             $8.4
    NB Guam, Marianas Islands..........  H-02-03...................  Revitalize 6 units........              1.7
    CFA Sasebo, Japan..................  HD-16-02..................  Revitalize 224 units......             32.4
    CFA Sasebo, Japan..................  HD-15-02-1................  Revitalize 68 units.......              8.8
    CFA Sasebo, Japan..................  H-2-02....................  Revitalize 44 units.......              7.2
                                                                                                ----------------
    Subtotal...........................  ..........................  ..........................             58.5
Family Housing Planning & Design--       ..........................  ..........................              2.0
 Various Locations.
      Total Family Housing Construction  ..........................  ..........................           $123.1
       Request ($M).
----------------------------------------------------------------------------------------------------------------

     Family Housing--Construction, Improvements, Planning & Design

    Question: The budget request includes funding for family housing 
construction, improvements, planning and design. For the record, please 
breakout each of these items, by location and dollar amount.
    Answer: By location, the budget request included the following 
funding for family housing construction, improvements, and planning and 
design.

------------------------------------------------------------------------
                                                                 Amount
                           Location                              ($000)
------------------------------------------------------------------------
Total USMC Family Housing Construction.......................          0
MCB Camp Lejeune, NC.........................................     81,987
MCAGCC Twentynine Palms, CA..................................     49,600
MCB Camp Pendleton, CA.......................................     59,026
MCB Hawaii, HI...............................................     60,000
MCAS Iwakuni, JA.............................................      8,910
                                                              ----------
    Total USMC Family Housing Improvements...................    259,523
MCAS Iwakuni, JA.............................................        156
                                                              ----------
Total USMC Family Housing Planning & Design..................        156
    Total USMC FHCON.........................................    259,679
------------------------------------------------------------------------

 Family Housing Budget Overseas Locations--Admiral Roughead's Response

    Question. The fiscal year 2009 budget request includes funding to 
renovate, replace and sustain 7,800 hosing units in foreign/overseas 
locations. How much does the budget request include for these 
activities? Please provide, for the record, a listing by location and 
dollar amount for these units.
    Answer. The budget request includes $333 million for these units. 
Table below provides breakdown.

------------------------------------------------------------------------
                                                     FY09
            Installation              FY09 Owned    Leased      FY09 $K
------------------------------------------------------------------------
Marianas Is., Guam..................       1,505           0      40,967
                                     -----------------------------------
    US Overseas totals..............       1,505           0      40,967
London, UK..........................         131           0       2,560
Madrid, Spain.......................           0           0         208
Rota, Spain.........................         781           0      16,230
Atsugi, Japan.......................       1,033           0      13,030
Sasebo, Japan.......................         661           0      57,251
CNF Japan HQ/Yokosuka...............       2,940           0      32,694
Chinhae, Korea......................          50           0         553
Guantanamo Bay, Cuba................         719           0      83,718
CNR Europe HQ.......................           0           0       2,721
Naples, Italy.......................           1       1,126      38,738
Sigonella, Italy....................           8         930      34,541
Gaeta, Italy........................           0           0         428
St Mawgan, UK.......................           0           0         264
Valencia, Spain.....................           0           0         141
Lisbon, Portugal....................           0           1         342
Larissa, Greece.....................           0           1         610
Souda Bay, Crete....................           0           1         624
Cairo, Egypt........................           0          16       1,016
Dubai, UAE..........................           0           1          59
Hanoi, Vietnam......................           0           1          50
Hong Kong, China....................           0           4         509
Jakarta, Indonesia..................           0          13       1,048
Kuala Lumpur, Malaysia..............           0           1          31
Lima, Peru..........................           0           8         437
Manama, Bahrain.....................           0           2         232
Manila, Phillipines.................           0           4         230
New Dehli, India....................           0           3         204
Oslo, Norway........................           0           1          42
Singapore, Singapore................           0         118       3,827
Tel Aviv, Israel....................           0           1          37
Vientiane, Laos.....................           0           2          57
    Foreign totals..................       6,324       2,234     292,431
                                     ===================================
    Navy totals.....................       7,829       2,234     333,398
------------------------------------------------------------------------

    Family Housing--Renovate, Replace, Sustain Housing in Overseas 
                  Locations--General Conway's Response

    Question. The fiscal year 2009 budget request includes funding to 
renovate, replace, and sustain housing units in foreign/overseas 
locations. How much does the budget request include for these 
activities? Please provide, for the record, a listing by location and 
dollar amount for these units.
    Answer. By location, the Fiscal Year 2009 budget includes the 
following funding to renovate, replace, and sustain housing units in 
foreign/overseas locations.

        Location                                           Amount ($000)
MCB Hawaii, HI (Section 802 units)............................    15,600
MCAS Iwakuni, JA..............................................    *8,910
Total FHCON Improvements......................................    24,510
 
MCAS Iwakuni, JA..............................................     3,071
Total FHOPS Maintenance.......................................     3,071
  
Total Family Housing..........................................    27,581

    * Note: The total Hawaii project is $60M. $15.6M to purchase/
improve existing Section 802 units, and $44.4M for PPV seed money to 
build additional housing units.

   Family Housing--O&M and Leasing Costs--Admiral Roughead's Response

    Question. The fiscal year 2009 budget request includes $339 million 
for the operation, maintenance, and leasing of Navy family housing. 
Please tell the Committee how much is included for each of these 
activities.
    Answer. The table below shows line-item detail of the $339 million 
dollar request.

                          [Dollars in millions]

        Account                                          FY 2009 Request
Utilities.........................................................  41.9
Operations
    Management....................................................  54.0
    Services......................................................  12.5
    Furnishings...................................................  14.2
    Miscellaneous.................................................   0.7
Maintenance.......................................................  83.4
Leasing........................................................... 116.7
Privatization Support.............................................  15.5
Navy Totals....................................................... 338.9

   Child Development Center Construction--Admiral Roughead's Response

    Question. The fiscal year 2009 budget request includes funding for 
the construction of 5 new child development centers. Please tell the 
Committee what the cost to construct for each of these centers and how 
many spaces will be created at each of these 5 centers.
    Answer. The following Child Development Center MILCON projects were 
included in PB09:
          <bullet> NAS Jacksonville (Project Number: 192) at $12.89M 
        providing 302 total spaces
          <bullet> NS Pearl Harbor (Project Number: P019) at $29.30M 
        providing 302 total spaces
          <bullet> NAF El Centro (Project Number: P211) at $8.90M 
        providing 98 total spaces
          <bullet> NAS North Island (Project Number: P503) at $14.27 
        providing 302 total spaces
          <bullet> NS Norfolk (Project Number: P923) at $10.50M 
        providing 302 total spaces
    Summary: A $75.86 million total investment in Child Development 
Centers yielding a total of 1,306 spaces.

 Child Development Centers Expansion Plan--Admiral Roughead's Response

    Question. According to testimony the Navy has developed an 
aggressive child care expansion plan, adding over 4,000 new child care 
spaces within the next 18 months. Of these 4,000 spaces within the next 
18 months, how many of these spaces are included in the fiscal year 
2009 budget request?
    Answer. All 4,000 spaces are included in the FY 2009 budget 
request. The 4,000 additional spaces will be accomplished through four 
expansion initiatives: 1) previously funded minor construction child 
development centers (CDCs); 2) military home-care expansion; 3) 
temporary modular classrooms; and 4) commercial contract spaces.
    1. Minor construction: We are opening 1,300 new spaces.
    2. Military home-care expansion: 400 additional subsidized, 
military certified home care spaces which will be accomplished through 
standardized/increased subsidies Navy-wide.
    3. Temporary modular classrooms: 2,150 spaces will be added by 
installing temporary units adjacent to existing military CDCs. These 
units will be replaced in out-years with additional planned 
construction.
    4. Commercial contract spaces: Through a national contract, the 
budget request resources 150 subsidized contract spaces in nationally 
accredited commercial child care centers.)

    [Clerk's note.--End of questions for the record submitted 
by Congressman Wamp.]

    [Clerk's note.--Questions for the record submitted by 
Congressman Boyd.]

                    Camp Lejeune Water Contamination

    Question. General Conway, my District Office has been 
contacted by or advised of 7 different families in my District 
that are seeking medical records, birth records, or other 
information directly related to the Camp Lejeune Water 
Contamination. I am requesting a written response from your 
agency to me that addresses the efforts that are being made to 
look deeper into the issue, and the overall direction that your 
agency is headed in the handling of this issue.
    Answer. The Marine Corps remains committed to finding 
answers to the many questions surrounding historic water 
quality at Marine Corps Base Camp Lejeune, NC, and providing 
this information to the public. Prior to 1987, some of the 
drinking water at Camp Lejeune contained unregulated chemicals, 
primarily solvents used in dry cleaning and degreasing 
operations. Drinking water wells that contained these chemicals 
were closed in the early 1980s with the last well closed in 
1985.
    Exposure to these chemicals in the drinking water at Camp 
Lejeune has not been linked to any illnesses, at this time. The 
Marine Corps has worked closely with the Agency for Toxic 
Substances and Disease Registry (ATSDR), the Environmental 
Protection Agency (EPA), the General Accountability Office 
(GAO), and the National Academy of Sciences (NAS) to study and 
address the issue. Since 2003, the Marine Corps has spent over 
$10 million supporting the efforts of these agencies to 
determine whether our Marines may have been adversely affected 
by the water.
    Presently, the ATSDR is attempting to project when the 
drinking water was first impacted, who may have consumed the 
impacted water, and whether there is any association between 
exposure to the chemicals in the drinking water and certain 
adverse health conditions in children born to mothers who lived 
at Camp Lejeune between 1968 through 1985 (thought to be the 
most sensitive population). They estimate that this study will 
be completed in mid 2009. In April 2007, the Marine Corps 
contracted with the National Academy of Sciences (NAS) to 
conduct a comprehensive review of available scientific 
literature in order to recommend future actions that could be 
taken (estimated completion Oct 2008). Other completed studies 
include a review by the GAO, a Department of Justice 
investigation, an EPA Criminal Investigation Division 
investigation, as well as a panel review commissioned by the 
Commandant of the Marine Corps.
    The Marine Corps fully supports the efforts of these 
agencies, and is providing data, access, and logistical 
assistance to them; upon completion of their studies, the 
Marine Corps will publicize the results. The Marine Corps has 
made it a top priority to identify and contact the potentially 
impacted population (individuals who lived or worked at Camp 
Lejeune between 1957 and 1987) so that they can be notified of 
their potential exposure and updated as additional information 
becomes available. Unfortunately, the Marine Corps does not 
have complete personnel records covering this entire period.
    To this end, in September 2007 the Marine Corps established 
a Notification Registry to inform former Camp Lejeune residents 
that they may have been exposed to impacted drinking water and 
receive additional information when ongoing studies are 
complete. The registry can be accessed at www.usmc.mil/clsurvey 
or via the toll-free hotline at 1-877-261-9782. Interested 
parties can also e-mail questions to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0e6d62796f7a6b7c4e7b7d636d20636762">[email&#160;protected]</a>
    To reach former Marines not contained in our records, the 
Marine Corps has placed advertisements in internal and military 
publications, articles in local newspapers (nationwide) and 
radio announcements (nationwide). Additionally the Marine Corps 
has funded paid advertisements in National publications such as 
``USA Today''. These efforts have enabled the Marine Corps to 
identify thousands of individuals and mail over 50,000 letters 
notifying them of their potential exposure, informing them of 
the issue and providing contact information so they can learn 
more.
    The Marine Corps and Department of the Navy continue to 
clean up environmental contamination aboard the base and fully 
cooperate with other state and federal agencies. The drinking 
at Camp Lejeune today is safe to drink and is tested more 
rigorously than required.

    [Clerk's note.--End of Questions for the Record submitted 
by Congressman Boyd.]
                                         Wednesday, March 12, 2008.

                          U.S. PACIFIC COMMAND

                               WITNESSES

ADMIRAL TIMOTHY KEATING, U.S. NAVY COMMANDER, U.S. PACIFIC COMMAND
GENERAL B.B. BELL, COMMANDER, REPUBLIC OF KOREA--UNITED STATES COMBINED 
    FORCES COMMAND, AND COMMANDER, UNITED STATES FORCES KOREA

                       Statement of the Chairman

    Mr. Edwards [presiding]. Good morning.
    Admiral Keating, General Bell, welcome to the committee.
    We are here today to discuss the fiscal year 2009 military 
construction and family housing request for U.S. Pacific 
Command, including U.S. Forces Korea.
    The total amount of requested military construction 
supporting PACOM is $2.9 billion. This includes $675 million in 
overseas construction and $2.2 billion in U.S. construction 
supporting PACOM and its components.
    Pacific Command's force posture is undergoing what is 
perhaps its greatest transition since the early post-war era. 
The transition involved a major realignment of bases in Japan, 
including the eventual transfer of 8,300 Marines and their 
dependents from Okinawa to Guam.
    In Korea, the U.S. military has reduced its presence, I 
believe, by about one-third. The remaining forces are 
relocating and consolidating south of Seoul.
    Finally, the Army, Navy, Marine Corps and Air Force are all 
realigning forces to increase their presence in the Pacific.
    Before we proceed with the opening comments and my 
introduction of our witnesses today, I would like to recognize 
Mr. Wamp, our ranking member, for any opening comments you 
would care to make.

                Statement of the Ranking Minority Member

    Mr. Wamp. Well, Mr. Chairman, let me just thank you for 
your leadership and for these two great military leaders' 
presence here today.
    It is inspirational to be in your presence. I know you both 
now and have great confidence in you.
    General Bell and I have known each other for a long time. 
He went to school at the University of Tennessee-Chattanooga 
and is a property owner in my district.
    I don't know of a more gung-ho American soldier than 
General Bell. I have known a bunch of them, and he is here in 
the flesh.
    General Bell. I will not get on the table today, I promise.
    Mr. Wamp. And, Admiral Keating, your leadership is very 
much appreciated.
    We have got many challenges ahead, but it is a great 
privilege to be a part of this process. And even this morning 
there was commentary in the press about the many challenges we 
face, trying to spend $14 billion in Guam, and the kind of 
support long term that we need.
    So that, in and of itself, is earth-changing and paradigm-
shifting for the United States military.
    But it is a great time of opportunity for us and I 
particularly appreciate PACOM, because I have been through a 
lot of this part of the world and I know the importance 
historically there and it is as important today as it has ever 
been, even just thinking of North Korea and the kind of 
presence and consistent leadership we need in your part of the 
world.
    So it is a privilege to see you here in your nation's 
capital and I can't thank you enough for your service. And all 
the people sitting behind you, you are their representatives 
today.
    And we so we compliment you.
    Mr. Edwards. Thank you----
    What is amazing to me is to look at you two great leaders 
and think that you represent 76 years of public service to our 
country and to our service men and women and their families.
    Thanks to you both for that distinguished service.
    By way of brief introduction, Admiral Keating assumed 
command of PACOM on March 23rd of 2007, nearly 37 years of 
service after graduating from the Naval Academy in 1971.
    And thank you for every one of those years, 37 years of 
service.
    He is a naval aviator with over 5,000 flight hours, 
probably flew planes faster than my dad in World War II, flew 
those PDYs. I am told 100 knots, climbing 100 knots, straight 
level, 100 knots, more or less.
    He has served as commander of the Northern Command and 
NORAD from 2004 to 2007. A native of Dayton, Ohio.
    General B.B. Bell is commander of U.S. Forces in Korea, has 
been in that post since February 2006. He also was commander of 
U.S. Army Europe prior to his current post, 39 years of 
service.
    He also--and I have always saved the best for last--served 
as III Corps commander at the great Fort Hood in Texas.
    And, General Bell, let me just tell you, as someone who has 
considered myself privileged to be your friend for so many 
years now, this will be your last time to testify before our 
committee, as you retire in June.
    Thank you for your lifetime of service. I have never known 
any general officer who has fought harder for our service men 
and women and their quality of life to support them than you 
have, and you have been a tremendous fighter every step of the 
way.
    If your troops weren't being treated right, you saw to it 
that they would be.
    And I can't say enough about your leadership and the 
sacrifice that you and Katie have made for our country.
    How many moves in all those years of service?
    General Bell. Sir, you wouldn't believe it if I told you. 
You would conduct an investigation.
    We have made 33 moves.
    Mr. Edwards. Thirty-three moves in 39 years.
    General Bell. It will be 34 here before too long, and that 
is it.
    Mr. Edwards. Well, I think that underscores the point I 
would make. I consider the unsung heroes and heroines in our 
nation's defense to be our military spouses and children and 
the sacrifices your families make in all those years.
    It just makes me proud to be at the same table with you. 
Thank you for that service.
    General Bell. Thank you, Chairman, I appreciate it. It is 
an honor.
    Mr. Edwards. Thank you.
    Without objection, your full testimony will be submitted 
for the record, but I would like to recognize both of you, 
beginning with you, Admiral Keating, to present your opening 
remarks and then we will go into questions and answers.

                Statement of Admiral Timothy J. Keating

    Admiral Keating. Thank you very much, Chairman, for the 
pleasure and the privilege of appearing before you for my first 
opportunity today.
    I would like to add, with emphasis, for your record, Mr. 
Chairman, the Pacific Command's gratitude and thanks to B.B. 
Bell and Katie. It has been my great personal and professional 
privilege to work with B.B. on a couple of different occasions 
and, as you say, there is no more fierce advocate for our men 
and women in uniform than General B.B. Bell.
    We will miss him. His kind doesn't come along often.
    Behind me, Mr. Chairman, I would like to introduce one 
gentleman in particular, our senior enlisted leader for the 
United States Forces in the Pacific, Chief Master Sergeant Jim 
Roy, United States Air Force.
    I am glad that he could join us today. His efforts on 
behalf of enlisted men and women in the Pacific Command are of 
the same quality as General Bell's have been, as you mentioned.
    I am sure you would feel the same sense of pride that I do 
as I sit before you representing those 350,000-some men and 
women in uniform and the civilians who support our efforts in 
Southwest Asia, Southeast Asia, and all throughout the Asia-
Pacific Region.
    In a couple of words, Mr. Chairman, our region is stable, 
thankfully. Security is improving and it is perhaps best 
characterized by the significant economic engine that is 
churning, running on all cylinders out in the Asia-Pacific 
region.
    We have had several elections recently in our area of 
responsibility. They have gone well, I believe, for our command 
and certainly for our country.
    In Japan, the Republic of Korea, Australia and Thailand, 
new governments are in place and, in each case, they are 
supportive of our strategy at the United States Pacific 
Command.
    There is a collaborative mindset amongst all those 
countries where we work throughout our region, with a couple of 
notable exceptions, most prominent, North Korea and China, 
People's Republic of China, of course, and more on those in 
just a second.
    But all of us in the region agree that we can improve our 
security through multi-lateral efforts, trying to leverage 
bilateral relations, build on the very solid set of relations 
we have in that area, but expand them to a multilateral effort.
    We have had 23 chiefs of defense come to our headquarters 
and we have been able to visit 21 countries in the year that we 
have had the privilege of command.
    So we are getting out, we are moving around, and we are 
spending time with folks to emphasize maritime security systems 
and try to improve the information sharing and collaboration so 
as to reduce, if not eliminate our own concern, and that is 
violent extremism throughout area of responsibility.
    We have had, through your support, the opportunity to 
provide humanitarian efforts to tens of thousands of people 
throughout the Asia-Pacific region. The United States' Naval 
Ship Mercy is coming again this summer, our hospital ship.
    She was through two summers ago. Last summer, the USS 
Peleliu, an amphibious ship from our United States Navy, who 
took most of the Marines off and put a number of doctors and 
dentists and nurses on, and they saw about 30,000 people 
throughout the Southeast Asia area, over 1,000 major surgeries 
performed, and that is where goodwill and humanitarian 
assistance, of course, goes a long way to improving peace and 
stability in our region.
    The money that you give us has been very helpful in our war 
on terrorism. In particular, in the countries of Indonesia, 
Malaysia, and the Republic of the Philippines have used--it is 
not a king's ransom, but it is a significant effort.
    It allows them to collaborate in significant ways to 
improve maritime security, in particular, through the Strait of 
Malacca, a significantly important strategic chokepoint for us 
in our theater, and security has been significantly enhanced 
because of the money that you have given us to reduce the 
movement of terrorists and the flow of the financial support 
that they need.
    So we are hopeful for progress throughout our region. As 
you saw, no doubt, in the paper, Ambassador Chris Hill is 
engaged with the North Koreans tomorrow, I think, this time in 
Geneva, trying to move that ball a little bit closer to the 
goal line for six-party talks, which would--he is, of course, 
closer to this problem--we watch with him very carefully as we 
strive for peace in the peninsula.
    The People's Republic of China, I have been there twice--
it's slow going with them, but we think we are making progress. 
We are emphasizing, again, not just transparency, but statement 
of intent.
    We are not as near where we want to be with them, but I am 
encouraged. It is a gradual progress, but I think it is 
measurable and it is, in the long run, of significant 
importance to the United States----
    I am, once again, grateful for your support, Mr. Chairman, 
Congressman Wamp. We will be happy to take your questions.
    [Prepared statement of Timothy J. Keating follows:]

    [GRAPHIC] [TIFF OMITTED] T2754C.001
    
    [GRAPHIC] [TIFF OMITTED] T2754C.002
    
    [GRAPHIC] [TIFF OMITTED] T2754C.003
    
    [GRAPHIC] [TIFF OMITTED] T2754C.004
    
    [GRAPHIC] [TIFF OMITTED] T2754C.005
    
    [GRAPHIC] [TIFF OMITTED] T2754C.006
    
    [GRAPHIC] [TIFF OMITTED] T2754C.007
    
    [GRAPHIC] [TIFF OMITTED] T2754C.008
    
    [GRAPHIC] [TIFF OMITTED] T2754C.009
    
    [GRAPHIC] [TIFF OMITTED] T2754C.010
    
    [GRAPHIC] [TIFF OMITTED] T2754C.011
    
    [GRAPHIC] [TIFF OMITTED] T2754C.012
    
    Mr. Edwards. Thank you, Admiral Keating.
    General Bell.

                     Statement of General B.B. Bell

    General Bell. I would like to make an opening statement, 
and I appreciate it.
    Chairman, thank you for letting me be here today.
    Congressman Wamp, sir, it is great to see you and I look 
forward to seeing you down in and around east Tennessee. It 
would be a great honor.
    On February 25th, a man named Lee Myung-bak was inaugurated 
as the president of the Republic of Korea. It was a landslide 
victory.
    This is a radically different individual than the 
individual we have been dealing with for the past 10 years, 
actually, two individuals we have been dealing with for the 
past 10 years.
    In his inaugural address before international heads of 
state, diplomats, dignitaries, they were all there, and 45,000 
Koreans assembled in front of him in an outdoor ceremony, he 
really spoke eloquently of the United States of America.
    He singled us out in front of all these heads of state and 
they were a little nervous, because he is talking about one 
country instead of perhaps all those countries.
    He said, ``We will work to develop and further strengthen 
traditional relations with the United States into a future-
oriented partnership based on deep mutual trust that exists 
between the two peoples. We will also strengthen our strategic 
alliance with the United States.''
    Our partnership with the Republic of Korea, which is now a 
solid 58 years old, since the beginning of the Korean War, is 
entering, in my view, an extremely positive era, wherein the 
South Koreans strongly desire to reinvigorate the traditional 
alliance with the United States.
    In recent State Department polling, and they hire companies 
to do this and they are very credible polls, 75 percent of the 
South Koreans believe that the American military presence was 
important to their national security and they want us to stay 
there.
    Interestingly, 68 percent of the citizens of the Republic 
of Korea believe that the mutual defense treaty between the two 
nations should be maintained even if there is resolution with 
the North Koreans, and I found that very interesting.
    The bottom line is that, today, we are indeed welcome and 
wanted and expressed so by the Korean government in the 
Republic of Korea. Of course, this alliance is a full 
partnership with both nations committing a lot of resources.
    Under the 2004 bilateral Yongsan Relocation Plan, and 
Yongsan is where we are located right now in the heart of 
Seoul, dead center in their city, it is the old Japanese 
garrison from 1910 to 1945, and we moved in there at the end of 
World War II and had a few fist fights in 1950 to 1951 to stay 
there. But we have been there since 1953 now.
    But at any rate, South Korea agreed to shoulder the 
majority of the infrastructure expenses associated with moving 
our forces out of Yongsan garrison, farther south in their 
country, down to a place called Garrison Humphreys at 
Pyongtaek.
    And already, in that physical process, South Korea has 
spent about $2 billion in that effort. It is of the magnitude 
of the Guam move, but it is local and inside Korea and 
certainly not a U.S. possession, and it doesn't get as much 
publicity.
    For our part, we agreed to do one thing, and this was back 
in 2004, and that was to provide the family housing and senior 
officer and senior enlisted quarters at Garrison Humphreys 
commensurate with those that we already owned and had in 
Yongsan.
    We estimated that would be a bill, over 15 years, of about 
$1.4 billion, over a 15-year lease period.
    So that was our going-in position. They were going to pay 
the majority of our costs to move from Seoul and we were going 
to spend about $1.4 billion, and ours would be amortized over a 
15-year period, and both nations signed up to that in 2004 in 
an international agreement.
    To be honest with you, we have not made any progress in 
fulfilling our share of the agreement at this point, because we 
have not found a way successfully, either within DOD and 
certainly here in Congress, to convince you all of the process 
that we were pursuing as being a valid, legitimate process.
    In other words, we are dead in the water right now on 
executing our responsibilities that we agreed to almost 4 years 
ago. The Koreans are moving out smartly, and have been.
    I will just leave that on the table, sir, and we might talk 
about that a little bit more.
    But in addition to their financial commitment to that 
Yongsan Relocation Plan, South Korea also provides us with 
annual burden sharing dollars to defray large parts of our 
labor, maintenance and construction costs.
    In 2007, they gave me $770 million cash to put in the bank 
and in 2008, this year, $787 million to defray these expenses. 
And we use those moneys for labor costs and for maintenance and 
sustainment, but, also, military construction, built to 
Department of the Army and DOD standards, but with their money, 
not appropriated funds out of Congress.
    By the way, Congress does approve these projects, but not 
for funding. They just have oversight of the projects to make 
sure we are not doing something dumb, like building a casino or 
something.
    I mean, you all have oversight of that process.
    But at any rate, in the past year alone, with those burden 
sharing moneys, we have funded the construction of an $8.5 
million vehicle maintenance facility at the Marine camp in 
Mujak, an $8.3 million upgrade to 22 hardened aircraft shelters 
at Osan Air Base.
    We began construction of a $41.8 million barracks complex 
for enlisted personnel at Kunsan Air Base, and we are in the 
process of approving the construction of a $35 million 
humidity-controlled warehouse to support our prepositioned 
combat equipment stocks at Army Garrison Carroll, and a $39.4 
million senior NCO dormitory at Osan Air Base.
    Our South Korean partner and our ally is funding all of 
this at no cost to the United States.
    I guess my point is that they are in financial partnership 
with us in funding a majority of the bills that we accrue down 
there in the Republic of Korea.
    I would like to end now, because I know you want to get to 
questions, but I would conclude by saying that this partnership 
that we have with the new administration over there, only been 
in office--quite frankly--has been phenomenal.
    I have had personal engagements with the President of the 
Republic of Korea since he took office. That was not the case 
with the last president. He has sent his national security 
advisor to see me at various places, extolling the benefits of 
the relationship, and even went so far, in our just completed 
very major theater exercise, called Key Resolve/Foal Eagle to 
seek me out in an underground bunker and deliver a personal 
letter to me from the Republic of Korea, thanking the United 
States for running the exercise and helping defend their 
country, an extremely positive outreach program.
    President Lee Myung-bak will come to the United States in 
April. President Bush has already issued an invitation to him 
to go up to Camp David so that they can have a good engagement.
    I have been a strong advocate for the Congress of the 
United States to offer this man a joint session. I don't know 
if that will happen, but he would be honored to have that 
opportunity.
    If the Congress, Senate and the House see fit, it would be 
a forum for him to come in here and explain his views and how 
different they are than the past administration over there, and 
they are radically different to the positive.
    Sir, I would like to stop with that and I would be honored 
to take your questions.
    [Prepared statement of General B.B. Bell follows:]

    [GRAPHIC] [TIFF OMITTED] T2754C.013
    
    [GRAPHIC] [TIFF OMITTED] T2754C.014
    
    [GRAPHIC] [TIFF OMITTED] T2754C.015
    
    [GRAPHIC] [TIFF OMITTED] T2754C.016
    
    [GRAPHIC] [TIFF OMITTED] T2754C.017
    
    [GRAPHIC] [TIFF OMITTED] T2754C.018
    
    [GRAPHIC] [TIFF OMITTED] T2754C.019
    
    [GRAPHIC] [TIFF OMITTED] T2754C.020
    
    [GRAPHIC] [TIFF OMITTED] T2754C.021
    
    [GRAPHIC] [TIFF OMITTED] T2754C.022
    
    [GRAPHIC] [TIFF OMITTED] T2754C.023
    
    [GRAPHIC] [TIFF OMITTED] T2754C.024
    
    [GRAPHIC] [TIFF OMITTED] T2754C.025
    
    [GRAPHIC] [TIFF OMITTED] T2754C.026
    
    [GRAPHIC] [TIFF OMITTED] T2754C.027
    
    [GRAPHIC] [TIFF OMITTED] T2754C.028
    
    [GRAPHIC] [TIFF OMITTED] T2754C.029
    
    [GRAPHIC] [TIFF OMITTED] T2754C.030
    
    [GRAPHIC] [TIFF OMITTED] T2754C.031
    
    [GRAPHIC] [TIFF OMITTED] T2754C.032
    
    [GRAPHIC] [TIFF OMITTED] T2754C.033
    
    [GRAPHIC] [TIFF OMITTED] T2754C.034
    
    [GRAPHIC] [TIFF OMITTED] T2754C.035
    
    [GRAPHIC] [TIFF OMITTED] T2754C.036
    
    [GRAPHIC] [TIFF OMITTED] T2754C.037
    
    Mr. Edwards. Great. It will take us about a minute or less 
to go up and vote and come back. It is a motion to adjourn. So 
we can do that pretty quickly and come back and then start the 
Q-and-A, if we could.
    General Bell. Great, yes, sir.
    [Recess.]
    Mr. Edwards. Thank you again for your excellent opening 
statements.
    I would like to begin the questioning by recognizing Mr. 
Wamp, out of respect for the fact that General Bell is going to 
be your constituent and your neighbor.
    General Bell. Sir, property taxes are too high----
    Mr. Wamp. There will be a time and place for that, man. I 
am with you. I am with you completely.
    General Bell. I have no idea what they are, Congressman. I 
am just----
    Mr. Wamp. Probably lower than the rest--high quality of 
life and low cost of living.
    Chairman Edwards and I were just talking, I don't want to 
overdo this, but on the way up to the floor and back about who 
you all represent and who you are and your incredible 
patriotism, and we just can't say enough about it.

                          SOUTH KOREAN ECONOMY

    General Bell, when we think about South Korea, what is the 
economy like there? Is this a good time for them to be doing 
this? Is this a sacrificial kind of investment or they just 
feel real good about the future and are willing to do it?
    General Bell. Congressman, the South Korean economy is 
bustling. They are the 11th largest economy in the world today.
    This new president's goal is to be one of the top 10 and I 
would not be surprised if he makes that.
    South Korea has come, in just 30 years, from a still third 
world, war ravaged country, just 30 years ago, much less 55 
years ago, to today to be a modern first world country.
    The days of MASH are long gone, to say the least.
    I am extremely impressed when I look at the economic 
vitality of the Republic of Korea, the way they entered the 
world market, and, also, the way they compete in the world 
market.
    They are world marketeers. Obviously, a small country the 
size of Korea, which is about the size of our state of Indiana, 
but only about 20 percent of which is habitable, because the 
rest of South Korea is mountains.
    So when you take 20 percent of Indiana and plop down 50 
million people, you get what is going on in South Korea today, 
this unbelievable economy. So they are doing very well.
    The new president--they are chunking along at about a 4.5 
percent annual growth rate, and his goal is 7 percent. He is a 
businessman. He ran three Hyundai heavy industry companies. He 
was also a national assemblyman, congressman, and he was also 
the mayor of Seoul. He has run a large city, 22 million people 
in the greater Seoul metropolitan area.
    So their focus is totally on the economy. They are a 
wealthy nation. They are our seventh largest trading partner 
and they produce, along with other countries in that area, both 
Japan and China, 25 percent of the world's gross domestic 
product, and growing.
    So this is a bustling area and they are willing to defray 
these costs to ensure that they retain this partnership with 
America.
    Mr. Wamp. And the person on the street feels the same way, 
not just the new leadership?
    General Bell. Clearly. I will tell you, this is a--I don't 
want to get too longwinded, but this is a maturing democracy. 
It started really, real democratic principles, about 30 years 
ago.
    There were a lot of pretty strong-armed guys before but 
world democratic principles began, as we would recognize them, 
about 30 years ago.
    If you could imagine our country, sir, 30 years after our 
founding, it probably wasn't as smoothly running as it is 
today, and you all might even ask how smooth it really runs 
today.

                                  GUAM

    So they have sorted out a lot of schisms in how a democracy 
operates in the Republic of Korea, and I think that is why we 
have seen some left and right turns amongst the electorate in 
terms of the kind of leadership that they want leading it.
    Right now, the turn they have made, you cannot describe, in 
our terms, like republican and democrat and conservative and 
liberal. It doesn't mesh up that way.
    But they have gone from being very nationalistic and very 
self-centered and very ideological, just recently--to a 
realization that if they were going to compete in the real 
world and have real friends, they needed to swing back and pick 
their partners.
    And so they have come back to a point where they want to 
partner with their best long-term friend, the United States, 
and they are willing to risk a lot to achieve that.
    That is radically different than just a year ago, and that 
is the electorate. I mean, you look at these polls and that is 
the way they spoke. They are not kidding.
    Mr. Wamp. Admiral Keating, I want to talk on the next round 
about Guam and about terrorism from Indonesia to Malaysia.
    But right now I want to follow up, while we are on this 
topic, and shift over to China.

                                 CHINA

    I read excerpts of your testimony in the Senate here a 
couple of days ago and I met with you. But my wife and I and my 
chief of staff were with Representative Clyburn and we were in 
Shanghai a couple months ago, speaking of a city with 20 
million people that doesn't do it right, to be honest with you, 
whether it is the environment or just controlled growth.
    I think I heard what you said is that the potential 
military buildup in China is not as great an imminent threat as 
some would have you believe.
    I think there is still a lot of chaos in China in terms of 
the explosive growth in the major cities and environmental 
issues, and the government is not really in command of a lot of 
the infrastructure requirements, and so they are not even 
capable of putting together, frankly, a full-scale military 
buildup.
    But I would like for you to pick up on what kind of threat 
China really is to us right now in your region.
    Admiral Keating. Thank you, Congressman, for the question.
    We watch China carefully--inspirational wisdom, but I 
believe there is no worry about--the number of folks--it must 
keep awake at night as much as China, it doesn't. Their 
military buildup does not keep me awake at night.
    It is a cause of concern. They are developing technologies 
that indicate a strategy that goes beyond harmonious 
integration and peaceful rise.
    Their strategies and their bumper stickers all sound good, 
but the commitments they are making in their defense budget are 
of concern--weapons. They are fielding missiles that are very 
sophisticated technologically, that have range in excess of 
1,000 kilometers and have pretty effective countermeasures, 
electronic countermeasures.
    They have, of course, demonstrated their ability to shoot 
down a satellite in space and they are developing submarine 
technology that is of concern to us. They have 64 or 65 
submarines, about a half a dozen nuclear powered. They are 
quiet. They are stretching or they are expanding the areas of 
blue water Pacific. They are coming outside their littoral 
waters.
    So their navy is getting to be more forward deployed. The 
air force, they are developing missiles and they have jets that 
are very sophisticated technologically.
    Their army is about 1.5 million strong. They are finding 
out, to their surprise, it costs a lot of money to recruit, 
train and equip a first rate military force.
    I am not saying they are first rate, but they are finding 
out it costs a lot money to do that.
    I mentioned Chief Master Sergeant Jim Roy a minute ago. 
They do not have a senior noncommissioned officer corps. It 
doesn't exist in the People's Liberation Army.
    They have asked Jim Roy to come over and talk to them about 
our senior noncommissioned corps. When he goes there to meet 
his counterparts, he sits down with--they just don't have a 
senior NCO corps.
    So they are very interested in our military, how we 
recruit, train and equip, the moneys you give us. They are 
developing appreciation for the costs getting there.
    So we are watching them very carefully. We are attempting 
to sustain and improve the dialogue. We want more personnel 
exchanges. We want them to come see how we do business. We want 
to go see how they are developing their capabilities.
    We are working closely with all countries in the region so 
as to develop an appreciation for the benefits of multilateral 
engagement with them.
    I am optimistic, but we have a long way to go with it.
    Mr. Wamp. I will wait for the next round.

                                HOUSING

    Mr. Edwards. Admiral Keating, let me ask you. Our committee 
has tended to focus a lot on quality of life, because there is 
no shortage of lobbyists running around on Capitol Hill when 
you are fighting for a nuclear aircraft carrier.
    But when you are fighting for better housing for your 
servicemen and women and their families, daycare centers, youth 
activity centers, there are not a lot of lobbyists running 
around D.C. fighting for those.
    Could you give me an overview of how you think we are doing 
in terms of housing and meeting DOD standards for housing in 
the area under your command?
    Admiral Keating. Thank you, Chairman.
    A couple of points come to mind. Our aide, a flight 
lieutenant, he and his wife and two daughters just moved into 
brand new housing on Oahu. I was the flag lieutenant to Admiral 
Crowe in 1985 and the housing, my wife and I chose not to 
occupy government housing.
    If J.T. were here, he would tell you it is first rate. It 
is--and good. It is brand new. The schools that his kids attend 
are very good.
    Mr. Edwards. Is the housing the new public-private housing?
    Admiral Keating. Yes, it is and it is going very well, from 
our perspective.
    And there are hundreds and hundreds of units. We are 
building, even as we speak, on Ford Island. So the young 
enlisted member who might have been somewhat reluctant to come 
to Hawaii for duty because of the cost of housing and the 
quality of education is happier now to get orders to Hawaii.
    We have more people wanting to come to our command 
headquarters staff than we have billets available.
    So it is a--situation for us.
    In Japan, we lived in Japan for a couple years. Our son and 
our daughter both lived there separately for months. The 
barracks were good in Japan. They are good and getting better.
    Our daughter lived on the economy for a while and we moved 
to housing in Japan and found it to be very comfortable. So we 
had firsthand family experience with housing in Japan.
    B.B. can speak to Korea.
    Throughout the rest of the area, including Alaska, and you 
are giving us money this year, we are going to build some 40 
new housing units and barracks in Alaska and California, in 
particular.
    So the improvements that you are going to allow us to make 
are significant--quality of life is good in Pacific. With your 
support, it is getting better and our bill this year includes 
some significant funding for it.
    Mr. Edwards. And would you mind following up, after this 
hearing, and just answer in writing, with the help of your 
staff, the question of how many personnel under your command 
are presently living in housing that does not--housing or 
barracks that do not meet DOD standards?
    And then, secondly, what kind of waiting lists are there 
for daycare centers or youth activity centers?
    Admiral Keating. We will get back to you.
    [The information follows:]

    In the USPACOM area of responsibility, approximately 4,500 families 
live in housing units that need to be renovated or replaced to meet DoD 
standards. 4,500 housing units represent about 6 percent of the total 
USPACOM inventory. The number of inadequate homes is down substantially 
from a high of 75,000 in 1997. With continued congressional support, we 
anticipate eliminating substandard family housing by 2009.
    Regarding barracks in the command, approximately 5,200 personnel 
reside in spaces that are considered inadequate. All Pacific Air Forces 
dormitories met standards in FY07. With approval of the USPACOM FY09 
request, USPACOM will make significant progress in reducing the number 
of inadequate barracks, to include the elimination of substandard 
spaces for U.S. Army Pacific soldiers.
    There is an estimated shortfall of 58,000 spaces for day-care DOD-
wide; the DOD goal is to have a childcare wait time of three months or 
less. In the USPACOM AOR, wait lists vary by Permanent Change of 
Station (PCS) cycles, but DOD childcare goals are met at most bases. 
Exceptions are in Hawaii, Alaska and Japan--especially in the infant 
and pre-toddler age care.
    In Hawaii, waiting time for the Navy, Army, and Air Force is 
greater than 6 months for infant care. The Army also has shortfalls in 
Hawaii for pre-toddlers and school age care.
    In Alaska, Elmendorf AFB has a waiting list over six months for 
school age care. Additionally, the Army requires additional spaces for 
infant, pre-toddler and school age care in Alaska.
    Waiting lists for the Navy at Atsugi, Japan exceed 6 months. There 
are also Marine shortfalls in capacity at Iwakuni and Camp Butler for 
infant and pre-toddler care. At Camp Zama, there is shortage of Army 
slots for school-aged care.
    Efforts are ongoing to decrease the waiting time and increase 
capacity. The Navy plans to have sufficient spaces by 31 Dec 08 to 
achieve the goal of three months or less wait time at all facilities 
throughout USPACOM. Planned Marine MILCON projects will expand the 
existing Child Development Centers (CDC) in Hawaii by 150 spaces. 
Several PACAF bases have received OSD funds to expand their capacities 
in their CDCs and School Age programs. Planned Army MILCON projects 
will add over 1,500 spaces at Ft. Richardson, Ft. Wainwright, 
Schofield, and Ft. Shafter between FY07-FY12.
    Staffing challenges, primarily in Japan, are being met by 
recruitment and retention initiatives to minimize staff turnover due to 
normal PCS. Efforts to increase the number of Child Development Homes 
are also on-going in Japan.

    Mr. Edwards. We could just follow up on that.
    And one comment I will make that I have made in our other 
hearings, but just so you know, it is an issue that we are 
going to keep pushing.
    I understand now that DOD has a DOD-wide policy that says 
adequate housing for families, military families, is defined in 
a way I find almost ludicrous.
    If DOD spent $50,000 to fix the leaky roof, take the old 
washer and dryer out that aren't working and fix the warped 
floors, if we spent $50,000 and that brought the house up to 
standard, then, technically, that family is living in 
``adequate'' housing, even if the military never spent a dime 
of that $50,000.
    It just doesn't pass the common sense test and somehow we 
have all got to work together in a responsible way to figure 
out how to better--so that you, as commanders, and we, as 
members of Congress, can get the data we really need to find 
out how many families are truly living in houses or single 
troops living in barracks that don't meet standards.
    That is not much good for a family, and this wasn't your 
decision--say, ``Well, listen, you ought to feel better because 
we spent $50,000 so you would be living in adequate housing, 
and, therefore, we define your house as adequate.''
    We will keep looking at any ideas you have in the future 
and how we can work together to get the data we really need to 
see that every serviceman and woman and their families are 
living in quality housing. I would be deeply grateful to you 
for that.
    General Bell, I know we have had some deplorable housing 
conditions in the Republic of Korea in years past. How are we 
doing? What are your thoughts there?
    General Bell. Well, Chairman, it is a mixed bag. Obviously, 
we are building some new barracks and a couple of new family 
housing units with this host nation money.
    So whenever we can do that, we build to DOD standards and 
these are very fine quarters.
    But on balance, I think we are letting our service members 
down. I make no bones about that. It is no revelation, sir, for 
your committee. I say it to DOD, Department of the Army, and to 
all the committees.
    There is uncertainty in our government about our future in 
the Republic of Korea. That is unfortunate, because, in my 
view, it is such a strategic location, given the rise of China 
and the resurgence of Russia, the economic powerhouse that is 
Japan.
    Korea is right in the nexus of all of that. In fact, Seoul 
is 100 miles closer to Beijing than it is to Tokyo. This is an 
incredibly strategically important location for us.

                              1-YEAR TOUR

    And I argued, not very effectively, but certainly argued 
that we need to stop looking at Korea 1 year at a time in view 
of the North Koreans as though, when that problem is solved, we 
will take our troops and go home.
    We need to look beyond North Korea and recognize the 
strategic importance of South Korea and form a strategic 
partnership with them that normalizes our relationship.
    And that one act would allow us then to articulate to you 
and others the kinds of family housing that we need and the 
kinds of facilities and then you could see why we wanted them 
more clearly than the current 1-year-at-a-time notion, next 
year we might just leave, because North Korea--we might have a 
peace treaty or something and then the war will finally be 
over.
    The war of democracy versus totalitarianism and free market 
economies and peace and security is going to be something this 
nation fights forever, and fighting it in South Korea is a good 
place for us.
    Ten percent of my service members are authorized to bring 
their families to Korea. The other 90 percent are not. They are 
on 1-year short tours.
    Of the 10 percent who can bring them, most live in 
substandard quarters provided by our government, and you would 
not be proud to walk in them. You would not be proud and you 
would not tolerate some of the quarters that I could show you 
that good sergeants and young officers are living in today.
    We have a chance to turn that around, and I won't belabor 
this too long, with this relocation. And with the relocation, 
for just those who are currently authorized, not withstanding 
my belief that we need to normalize over there--but for those 
that are moving, if we do resource the new family quarters, 
which I hope that we will eventually, we can ensure that they 
are provided to DOD standards and take care of the long-term 
problem of inadequate quarters for both senior enlisted, 
noncommissioned officers, officers and family members who are 
authorized to be in Korea today.
    We have a one-time opportunity to do this right. We are 4 
years behind the power curve, straight up. We agreed to do this 
in 2004 and we have not done it yet.
    But we haven't screwed it up yet either, because we still 
have options where we can do this correctly.
    So I put in my posture statement with some clarity what I 
believe needs to be done and how we need to pursue it.
    I will say this in conclusion. DOD, in recognizing that we 
are unable to get congressional support for the build to lease 
options in Korea, has asked for $125 million of military 
construction for Army family housing, this year.
    The Army is the executive agent for this, even though it is 
multi-service housing, Army, Navy, Air Force, Marine.
    That will build us 216 of the more than 2,000 required 
units that we must put up at Garrison Humphreys, about 10 
percent. It will start the process.
    I strongly recommend and ask for your consideration to go 
ahead and ensure that $125 million makes it through the markup 
process and is ultimately approved in the next defense 
authorization bill and appropriated accordingly.
    It will allow us to get started. It will show good faith 
with our ally. It will allow us to put up good housing and put 
our service members into it.
    And then if we have to work different approaches for the 
remaining 90 percent, whether it is build to lease, whether it 
is additional military construction or even a privatization 
approach that the Army is investigating now, and I support 
their----
    They are looking at getting Korean companies to accept the 
privatization approach that we have done in the United States 
and assume the risk of the United States leaving, moving or not 
showing up.
    But that is not stupid. It is worth pursuing and they are 
trying that.
    So there are three approaches and my recommendation is we 
go ahead and fund the $125 million that we have asked for. It 
will build three towers. These are all towers, by the way. They 
are not like--on the ground.
    And we should continue, I believe, the proper approach--I 
think that is a right approach. It amortizes costs over a long 
period of time.
    It allows us to be in control of the standards and we ought 
not to walk away from the potential for privatization where 
Korean or other international companies assume the risk.
    That is kind of where we are, sir. Sorry I was so long.
    Mr. Edwards. No, no, I appreciate that. I will follow up in 
my second round of questions. Thank you.
    Mr. Berry.
    Mr. Bishop.

                                 TAIWAN

    Mr. Bishop. Welcome. I have got a couple questions.
    First of all, in written testimony before the Armed 
Services Committee, Admiral Keating--military buildup will 
require Taiwan to improve its own defenses to detect potential 
aggression from the Chinese mainland.
    Do you--of Taiwan by the Chinese as a result of the 
buildup? And the follow up question is to what extent do we 
have fixed assets in Taiwan and to what extent, if any, will we 
need to, if we have them there--military construction to 
fortify those?
    Admiral Keating. We have no troops stationed in Taiwan, 
Congressman. So we do not have any MILCON request for Taiwan.
    The threat that China poses is increasing, in my opinion, 
for the folks who are our friends in Taiwan. There are hundreds 
of surface-to-surface missiles in garrison across the strait 
between Taiwan and China.
    The Chinese are developing slowly and it is in its very 
nascent states and it could be a--capability that could pose a 
threat for and there could be an invasion of Taiwan.
    So in several respects, the Chinese military are developing 
systems and capabilities and technologies that cause us to view 
that with concern as it presents itself as a threat to Taiwan.
    Mr. Bishop. What is that we are doing to counteract that?
    Admiral Keating. We as?
    Mr. Bishop. As the U.S.
    Admiral Keating. To counteract China's----
    Mr. Bishop. As an ally to Taiwan.
    Admiral Keating. Several things. We participate in--we 
provide trainers for Taiwan's military. We participate in 
their--they have a couple of big exercises a year.
    We send observers to help them develop the capabilities 
that are resident in their systems, and they are becoming much 
more well versed in joint operations, not just stovepipe army-
navy operations.
    So they are improving there. We are also working----
    Mr. Bishop. When you say joint operations, you mean joint 
operations with us?
    Admiral Keating. No, sir. Just the Taiwan forces 
themselves. They had not done much of that and we are 
encouraging them to participate in military operations in a 
joint fashion, as we do here in the United States.
    Mr. Bishop. The strategic agreement that we have with 
Taiwan, what does that require us to do? What are our 
obligations under that agreement?
    Admiral Keating. Our obligations are to provide--to help 
Taiwan provide for their own defense. We do not commit forces 
on a day-to-day basis in Taiwan, but we help them through the 
American Institute, which is an embassy counterpart there in 
Taipei, and to help them develop their defensive capabilities.
    Mr. Bishop. And do we have any pushback internally on that?
    Admiral Keating. Yes, we do, significant.
    Mr. Bishop. So how have we responded to that?
    Admiral Keating. In our visits, personally, two visits to 
China, when we get the Taiwan lecture, and it happens in every 
meeting, we cite our longstanding balanced approach to 
diffusing tensions in the strait.
    We have had since 1979 a policy that recognizes one China. 
We emphasize that to the People's Republic of China and to the 
folks on the island of Taiwan.
    So we have had a constant, steady strategy for Taiwan and 
for China.
    Mr. Wamp.

                       OKINAWA TO GUAM TRANSITION

    Mr. Wamp. I want to follow up a little bit, looking at 
Guam.
    I am the new kid on the block here. So explain to me, as we 
transition, from Okinawa to Guam, I think 8,300 Marines, 9,000 
dependents, what the difference is between the dependents 
moving with the Marines versus Seoul, where virtually--or the 
vast majority of the soldiers do not have their dependents with 
them.
    What separates those two paradigms in terms of our presence 
in Guam? And I assume that is the way it was in Okinawa, as 
well. It is more of a permanent situation where your families--
in Guam.
    Admiral Keating. B.B. might be in a better position to 
answer that question, Congressman, but I will start, if I 
could.
    In the early days of our committing troops to Korea, the 
likelihood of conflict was much greater there. So it was an 
intentional withhold to keep families----
    The notion that every morning, in Seoul, they would wake up 
with 1,000 long-barreled artilleries facing them, that is not 
the situation in Okinawa then nor is it now, and it certainly 
isn't the case in Guam.
    Mr. Wamp. Right. But it has changed dramatically and it is 
more like a Guam situation in South Korea.
    General Bell. It certainly is. I don't want to get rambling 
here again. My son was born on the east-west German border 
facing two Soviet divisions, both equipped with tactical 
nuclear weapons, whose mission was to overrun us, kill all of 
us and show up at the ocean.
    Yet, our nation gladly invited my family over there in a 
command sponsored role and wanted us to be with our families 
and accepted the risk--accepted the risk. Of course, a family 
had to agree to that.
    Now, we are moving south in South Korea, out of harm's way 
physically, and I believe that it is time to change from that 
55-year-ago war footing and recognize that South Korea is a 
first world country.
    They are, and they know it, they have got a much better 
military than North Korea. They can fight North Korea with our 
help easily and North Koreans know that. That is why they have 
been developing weapons of mass destruction, because they are 
trying to seek another way to coerce and influence, because we 
are not afraid of their conventional military anymore in terms 
of defeat.
    They could kill a lot of people, I will admit that and that 
is a tragedy, but in terms of defeating the alliance, they 
can't do that. It is not going to happen and they know it.
    So it is time to, in my view, change the paradigm in Korea 
and recognize that the alliance is worth more than just dealing 
with North Korea every day.
    Mr. Wamp. One word, though, General Bell, as you are having 
conversations with your successors in the days ahead, the $125 
million request just--I was on this subcommittee 10 years ago 
and the change from 10 years ago until now on privatized 
housing in this country is significant.
    General Bell. And it is for the better.
    Mr. Wamp. That is exactly right.
    General Bell. No question.
    Mr. Wamp. And we hear it every time we have a hearing about 
housing.
    General Bell. True.
    Mr. Wamp. And it can work globally. I mean, again, I just 
came from Shanghai. There are investors all around the world 
that would like the kind of deal that U.S. developers have on 
privatizing military housing.
    And if that can be done, just to reduce the appropriations 
obligation here is a creative approach, as it can be pursued.
    And I don't want to slow it down, but if it can be done at 
the same tempo, then we would prefer that.
    General Bell. Here is the challenge. By the way, I agree 
with you totally. I am open for any innovative thinking and, 
believe me, the South Koreans are a wealthy country and they 
have got big investors who have lots of money.
    They continue to be a growing country. So if you were a 
builder and you were concerned that the U.S. might leave and 
you had no lease guarantees from any government, you would have 
to know, in your mind, that if America leaves, I can fill that 
up with Koreans.
    And so when you build those, you want, in your heart, to 
build them to Korean standards so that Koreans would feel 
comfortable in those apartments based on their culture.
    Meanwhile, I want to build these things to DOD standards, 
including force protection, thickness of walls, kinds of glass, 
that go into the glass, green space for our kids, because we 
are a green space kind of society and Koreans are different.
    So we want to put all these requirements on them in an 
overseas environment so that it accommodates our service 
members, and my concern is they will say, ``Too expensive for 
us to take aboard with no lease guarantee and we just can't go 
down this path. We will build them to Korean citizen standards. 
If you want to live in them, have a nice day.''
    We tried that in Hannam Village in Seoul. I would love to 
take you to Hannam Village and show you the results of that. 
That is a losing strategy for sergeants and young officers.
    But I am still semi-optimistic that there is a pony in here 
somewhere, as we say in these things, and I am in no way trying 
to stall this out. I am an advocate of it and just gave the 
Army another advocacy letter about it.
    But I have also given them five hardcore requirements that 
must be achieved by these Korean investors to accommodate our 
families that will make this a little tougher than to say, 
``Well, that is okay, we will take that aboard.''

                   PACOM GLOBAL WAR ON TERROR EFFORTS

    Mr. Wamp. Admiral Keating, I have been to Australia a 
couple times, was there in January with the new prime minister, 
Kevin Rudd, a personal friend of mine. He will be here the end 
of this month to meet with the president.
    As we were there and in New Zealand, and there are a lot of 
conversations still from Bali bombings forward. The focus is 
kind of off the Indonesia to Malaysia, but that is a zone that 
we should be concerned about in terms of proliferation of 
terror and these groups that are supporting terrorist 
activities there.
    It is a threat to our country.
    Admiral Keating. The threat is lower today than it was at 
the time of the Bali bombing, for a couple reasons.
    As I said in my opening statement, there have been some 
moneys that we were able to direct to Indonesia and to Malaysia 
that have provided for an improvement in the maritime security, 
and that makes it tougher for some of these terrorists to move 
around.
    In addition to being able to move around, that is a wide 
open area down there and very difficult to patrol, if not 
impossible to patrol all the coastline.
    So cameras and radars that we have been able to provide to 
Indonesia and Malaysia have helped them increase their 
security.
    The information sharing we--some intelligence, where we 
take off the source of--and Australia is a significant ally 
with us in this contest.
    The information sharing and intelligence gathering has 
helped them develop an ability to track and apprehend or 
sometimes kill the terrorist leaders who thought they had 
sanctuaries in Indonesia, increasingly tough for them in 
Malaysia, as well, and so, too, in the southern Philippines.
    We have--forces of the United States Pacific Command who 
are deployed to the southern Philippines, helping, not doing 
the action themselves, but helping the armed forces of these 
get better at finding terrorists who are seeking sanctuary in 
southern Philippines.
    So a number of initiatives underway, better security in the 
maritime domain, information sharing, and training their own 
counterterrorist forces with our Special Operations forces.
    I think we are making it much tougher for terrorists.
    Mr. Wamp. Other than what we have talked about here today 
with Guam and Marines, are there any other major redeployments 
in the PACOM region?
    Admiral Keating. One that I would like to mention, 
Congressman, and--it is not so much a redeployment, but it is 
kind of a watershed for our changed force.
    You gave us some money that allows us to--with the Japanese 
help, we will bring the United States Ship George Washington, a 
nuclear powered aircraft carrier, that will be permanently 
homeported in Japan.
    Ten years ago, when we were living there, I would have said 
that--Japan will allow us to put a nuclear powered aircraft 
carrier permanently in Japan. It is underway from Norfolk, 
Virginia and it will switch out with the USS Kitty Hawk in 
Pearl Harbor this summer.
    Kitty Hawk will retire and George Washington will go for a 
permanent deployment in Japan.
    So about the same number of sailors in the battle group, 
but that is a watershed change for us in the Pacific.
    Otherwise, absent the movement of Marines from Okinawa to 
Guam and those troop situations B.B. described, we are fairly 
static.
    There are three nuclear submarines that are now home ported 
in Guam, attack submarines, and we are deploying the SSGN. It 
is an older Trident missile submarine, where the 
intercontinental ballistic missiles have been taken out and 
Tomahawk missiles have been inserted in their place, and there 
are about 150 of those PLAMs and a module of the missile tubes 
is now available for Special Forces, and the USS Ohio is on its 
maiden deployment as an SSGN in the Pacific as we speak.
    General Bell. I just exercised with that ship, had my 
Special Forces on board. I went to it, also, as part of an 
exercise--capability, phenomenal capability, and it gives me 
all kinds of good, warm, fuzzy feelings about a lot of things.
    Having that thing sitting in Guam is perfect.
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Edwards. Could I ask staff, would you let us know when 
there are 3 minutes left for this vote?

                           LONG TERM LEASING

    Admiral Keating, since we are making improvements in 
housing in Hawaii, and I would like to focus on Korea for a 
minute and follow up and make sure we get a handle on where we 
are and how we break this logjam.
    As I understand it from staff, the administration asked 
last year for authorizing language to raise the cap on leased 
houses----
    General Bell. That is correct.
    Mr. Edwards. In Korea.
    General Bell. Yes, sir.
    Mr. Edwards. And the House Armed Services Committee did not 
put that language in their bill, which meant we have no 
authority to appropriate it, since they had not authorized it.
    So I understand that the administration did not request 
that language this year. Perhaps one of the reasons is the 
Congressional Budget Office estimated the first-year cost of 
that housing cap increase as $300 million for 1 year.
    I don't know what they estimate it would be in the out 
years. I don't know if that is a true reflection of the cost of 
the U.S. taxpayers or that is just accounting.
    General Bell. Sir, it is accounting. It is mostly 
accounting. I get very emotional about that.
    Mr. Edwards. So the out year leasing costs and pushed those 
back to the front year.
    General Bell. There are two things at issue, Chairman. 
First, these service members are in the military today. They 
actually exist. They are in Yongsan Garrison. We are real 
people.
    And we are paying leases for them now today. Now, I will 
admit those leases where they live are certainly not of the--I 
mean, for whatever reason, South Korea has become a real major 
world power in the last 20 years.
    So the last time we did a big lease agreement there, the 
cost of living was much lower than it is now. But we are 
paying, on average, for leases, about $700 million today over 
the lease period of the buildings that we are leasing.
    So when you look at what--if we did build to lease down in 
Garrison Humphreys, that is not new money. Now, part of it is 
new money, because the leases are going to be--if we did 
leases--are going to be more expensive than our current leases, 
no question about that. I surrender. They will be.
    But you have to subtract what we are currently paying for 
leases and it is about 50 percent of what these future leases 
would be. So half the bill is off the table. It is real money 
already being paid by you, by our Congress.
    So when CBO and OMB both, CBO starts marking this up as 
though it were new money, that is not fair. It is not correct 
and it is inappropriate.
    I have made this point repeatedly. But, yes, the leases 
today are going to cost us more than they did 20 years ago. I 
would say that the good news is that these are long-term 
leases, 15 years.
    We got that language approved several years ago here by 
Congress. So that is a 15-year amortization period for about 
$750 million of new dollars over a 15-year period.
    Well, divide 750 by 15 and you are not breaking the bank. 
It is, in my view, almost pennies. And at the end of the 15-
year lease period, the leases are paid up and we retain that 
property for as long as we are there, without any lease payment 
requirements.
    All we have to do is pay for maintenance of the buildings.
    So I have always believed, the 2 years that I have been 
there, that the lease potential is a good deal for America. It 
gives us control of the standards.
    In fact, we give the companies our DOD drawings and say 
build them this way. It takes care of all these issues about 
quality control and what Americans deserve versus perhaps the 
way another culture builds their things, and it is amortized 
over such a period of time.
    If you believe we will be there longer than 15 years--this 
is only 10 percent of our force. I mean, I admit, if I wanted 
to do them all, we need to start talking some more.
    Mr. Edwards. Ten percent of our force in Korea?
    General Bell. Right. They are the only ones authorized this 
kind of housing right now. So this is simply an agreement that 
we signed in 2004 for those who currently have family members 
over in Korea in Yongsan and, in some cases, senior enlisted 
and senior officers who are not authorized to have their 
families, similar lease arrangements for decent quarters for 
them, as well.

                        FAMILY HOUSING IN KOREA

    Mr. Edwards. Let me ask you this. And I worked for----
    General Bell. And I get pretty emotional.
    Mr. Edwards. Well, thanks for getting emotional about the 
quality of life for our troops and their families.
    I worked for 8 years on this subcommittee at times when it 
wasn't a very popular thing to push the public-private housing 
partnership program, and I am thrilled to see how well it seems 
to have worked around the country.
    But if, in Korea, we have got problems on build-to-lease if 
we have got privatization difficulties on Korean versus the 
U.S. standards there, what would it cost, doing it the old-
fashioned way, just flat-out Congress appropriating the money, 
what would it cost to provide enough quality housing so that 
every soldier and military family, U.S. military family living 
in Korea is living in quality housing?
    General Bell. $1.4 billion.
    Mr. Edwards. $1.4 billion.
    General Bell. Yes, sir.
    Mr. Edwards. And that would be housing for how many people?
    General Bell. This would meet our housing requirements for 
about 2,400 families and senior NCOs. The other folks live in 
barracks and, by and large, I am going to build those with host 
nation moneys.
    Remember, I have got $787 million in real dollars. Now, I 
am obligated to spend that on local-national employment. I have 
to pay--I mean, that is an agreement that we have with the 
Koreans, and I am obligated to spend a lot of that money on 
maintenance, sustainment and logistics.
    But then the rest of it I spend on construction, and you 
have oversight of that.
    Mr. Edwards. It is the family housing that we have to do.
    General Bell. It is the family housing.
    Mr. Edwards. In your opinion, there are enough dollars 
available to see that the single soldiers and troops are living 
in quality barracks.
    General Bell. I can't tell you that. To be honest with you, 
the movement of the Second Infantry Division from north of 
Seoul to Pyongtaek, Garrison Humphreys, which is another 
program, not part of the Yongsan Relocation Plan, but it is a 
program we want to--it is our initiative.
    We are going to end up paying about half of that bill and 
the other half, in my view, is going to be paid by the burden 
sharing funds. Now, we can spend these burden sharing funds any 
way we want to, but that is the general agreement that we have 
by the State Department and the Ministry of Foreign Affairs and 
Trade, that we will equitably share these costs of sustaining 
our troops over there.
    So if you look at the cost of moving--which is another 
program, I have put in our program in the POM, the program 
objective memorandum, in DOD, the moneys that we will need to 
move half of 2-ID, based on the assumption that the other half 
will be paid for by the Koreans.
    That is reliable. That is very reliable. Sir, that bill is 
another $1 billion. But that is to move the 2-ID, not just 
housing, because those are all--it is also their motor pools, 
their headquarters, their command and control facilities, the 
whole shooting match for moving a tactical unit, including 
barracks for them, because right now, none of them are 
authorized to have their families over there.
    It is a tactical maneuver unit. If I could change that--but 
that is another billion bucks. So $2.4 billion for the whole 
shooting match would be more accurate over a period of years.
    Mr. Edwards. It sounds like it is time for our subcommittee 
to make a trip there and we probably need to get some of our 
authorizing colleagues to go with us.
    General Bell. It would be wonderful.
    Mr. Edwards. Because we can't write the check unless they 
authorizes it, whether it is for leased housing or whether it 
is for the old-fashioned way.
    General Bell. I think it would be worth your trip.
    Mr. Edwards. But it just seems like this is a problem that 
continues to go on and on.
    General Bell. Yes, sir.
    Mr. Edwards. And we have got to figure out a way to deal 
with it.
    Why don't we take a break and we can go vote.
    One thing you probably need to think about is our 
subcommittee taking a trip there and taking a look at it.
    General Bell. That would be great. I think it would all be 
clear to you when you saw it.
    Mr. Edwards. And find a solution.
    We will stand in recess.
    [Recess.]
    Just to follow up on that, Congressman Wamp and I were 
talking and we ran into Congressman Hunter coming back after 
the vote, and we said we need to get the authorizers and the 
appropriators together to sit down, come up with a game plan, 
talk to CBO and OMB, and just find a way to address this 
problem.
    Otherwise, we are going to be at a table like this, whether 
it is us or somebody else, 10 years from now discussing this. 
And I raised this question 3 or 4 years ago.

                           ACCOMPANIED TOURS

    It seems to me that it is terribly unfair that, basically, 
because our country is unwilling, including Congress, unwilling 
to make a commitment of dollars for housing in Korea, if you 
get a young soldier that is coming back from, say, his second 
tour of duty in Iraq, goes back to Fort Hood or Fort Drum, and, 
a few months later, he or she is reassigned to Korea, and only 
one out of 10 married soldiers there has access to accompanied 
housing, what we are basically doing is our country, through 
our unfairness and unwillingness to make this a priority, 
basically forcing great American families to live apart for 
another year, and that is just wrong.
    It seems to me that families ought to have the option, if 
they so choose.
    Those that want to shouldn't be forced to live a year apart 
from their loved ones because our country is not willing to 
support their housing and their children's education and 
infrastructure.
    General Bell. Can I give you a quick answer?
    Mr. Edwards. Please do.
    General Bell. Spouses of service members have passports and 
the Republic of Korea is an open country. So we have over 
there, right now, as many as 1,400 families living all over the 
place, in decrepit areas, unauthorized by me--non-command 
sponsored, who simply said enough is enough, I am going to stay 
with my soldier.
    And when you talk to these folks--and by the way, I have 
made it law over there--I don't have the authority to make a 
law, I just proclaimed it and waited until somebody told me I 
couldn't do it, that they will receive medical care.
    They are Americans. They will go to our schools. We will 
provide them with all the services that they deserve as 
patriotic Americans, but I can't put them into housing, because 
I don't have any.
    So they live here and there, over there, because they want 
to stay with their service member, because of the very issue 
that you talked about.
    It is very common for me in Korea right now to have a 
service member show up 5 months after he or she got back from 
Iraq. They are then reassigned to Korea on a short tour, with 
no family, and that family just follows and they pick a place 
on the economy relatively near to that garrison wherever that 
service member is, and they just find and they rent an 
apartment.
    Mr. Edwards. Is the cost very expensive there?
    General Bell. Yes sir, they are. They are expensive, 
inadequate, and they are not to our standards.
    Mr. Edwards. So I assume your successor could--if this 
subcommittee took a trip over there, we could go to some of 
those houses and see what----
    General Bell. And meet the families and understand what 
they are going through to stay connected as a family. And by 
the way, their attitude is fairly good.
    Now, here is what they say to me, and sir, I talk to 
hundreds of them. They say, ``Look, it is worth it. It is a lot 
better than being separated another year.'' They look at it 
positively.
    But you look at what we are, by our attitude, forcing them 
to do and you just go, ``This is not right. We have got to do 
better.''
    Mr. Edwards. Where are their children going to school?
    General Bell. First, these are mostly--it is amazing--
mostly young people, because they are in new marriages. The old 
saying goes, ``Look, pal, it is the fourth tour.'' These are 
mostly young marriages and they have infants.
    There are infants everywhere across that country, American 
infants, 6 months old to 2 or 3 years old. The majority, I 
would say 80 percent have non-school aged children with them.
    So then you get into, okay, what about pediatricians. Well, 
I mean, it is phenomenal. So we have tried to order up more 
pediatricians, but against what requirement? I don't have a 
requirement, because they are not authorized.
    So they hope for the best in many cases and they hope their 
kids don't get sick. We don't have a Tricare administrator over 
there.
    Sir, I could go on for days. I have identified every rat. I 
have talked to every rat. I have killed some rats. There are 
plenty of rats left.
    Our service members are not being treated right in Korea. 
You are exactly right. And we need to do better by them and I 
am hoping that, with your support, and in DOD--nobody is a bad 
guy. I cannot find any bad guy in this.
    It is the system that we have that we need to turn around.
    Mr. Edwards. We have got to get everybody under the same 
roof to sit down together at a table like this and just find a 
solution.
    General Bell. I have about half as many American families 
over there as I have authorized that just say, ``Look, I have 
got a passport, you can't stop me,'' and they are right.
    Mr. Edwards. If every family had the option of living in 
decent housing and their children going to a quality school in 
the Republic of Korea, what percent of the married soldiers do 
you think would be accompanied?
    General Bell. About 50 percent of our service members are 
married. So that is the pool. So let's just say I had 25,000 
troops. So 12,500 would have the option of coming--our studies 
tell us 70 percent of that 12,500--that's 10,000--would bring 
their families out of a force of 25,000.
    Mr. Edwards. So basically the policy, what we are doing is 
we are saying 60 percent of those soldiers and their families, 
even though you would like to be together, we are forcing you 
to live apart for a year.
    General Bell. So what they do, in the states, they go home 
and live with mom or whatever and they just take another year.
    Mr. Edwards. All right. Well, we will follow up. Sorry we 
didn't make it to Korea while you were there, but today will be 
a good prompting to get us over there.
    General Bell. Thank you, sir.
    Mr. Edwards. Mr. Wamp.
    Mr. Wamp. I have no more questions.

                          SUBSTANDARD HOUSING

    Admiral Keating. Mr. Chairman, you asked a great question a 
minute ago and I had an answer right in front of me, and we 
will amplify this in our response for the record.
    You asked us about substandard housing. We are down from 
75,000 10 years ago. So less than 10 percent of the homes in 
Pacific Command need to be renovated or replaced, and we are on 
track to meet our mandated goal to achieve zero substandard 
housing by 2009.
    So within 1.5 years or 2 years, we will be down to zero. We 
are down from 75----
    Mr. Edwards. Is that family housing or does that include 
barracks?
    Admiral Keating. That is family housing. Barracks, we are 
not quite as far along on the glide slope. U.S. Army Pacific, 
all permanent party barracks will be standard by 2009 and the 
Marine Corps will take a little bit longer, but the Pacific has 
already done it and the Navy is on track.
    So it is a good picture, particularly compared to where we 
were 10 years ago and even 2 years ago, we had 12,000 homes 
that were substandard.
    So we are on glide path and we will give you the specifics.
    Mr. Edwards. I will just never forget the time I went to 
Fort Hood and I went to the first new family housing unit, as a 
result of General Bell's great leadership and the privatization 
effort there, and it was a sergeant's family and I went out in 
the backyard and had just one-on-one with the wife. They had 
several small children.
    And I said, ``What does this mean to you? Tell me the 
truth. Good, bad, ugly, whatever?'' And she said, and I will 
never forget it, she said, ``You know, it is not only a house I 
am proud to call home for my family, but it says my country 
appreciates my sacrifice and my children's sacrifice to our 
nation while my husband is deployed overseas.''
    And these great Americans that, with their loved ones in 
combat zones, 2 out of the last 4 years or 3 out of the last 5 
years, and for any one of those families to be living in 
substandard housing is just not right, and I am thrilled to 
hear about the improvements being made under your command and 
hopefully we can take charge and make some improvements.
    Admiral Keating. You are right, sir. Across the military, 
save the problem in Korea, the turnaround the last 10 years has 
been phenomenal and it is a blessing.
    It is a blessing. Our military is being well cared for in 
most cases. I am very proud of Congress, I am proud of DOD and 
a lot of good people that made this thing--volunteer Army and 
facilitated it in a way that--all volunteer military--I am 
sorry--and facilitated both the facilities it needed. It is a 
blessing.
    Mr. Edwards. It just hadn't happened.
    Admiral Keating. It just didn't happen.
    Mr. Edwards. Chairman Young, we spent quite a bit of time 
focusing on the problems of housing. The CBO scoring of housing 
for South Korea and hundreds of millions of dollars and 
privatization being the debate between do you build those 
houses to South Korean standards or to American standards.
    What has happened is we have been at an impasse and we 
haven't been able to solve that, and we have got to get 
authorization from the Armed Services Committee to raise the 
lease cap.
    So your leadership will be very, very important to us as we 
find a way to break through this.
    Admiral Keating, if I could just ask one more question. I 
want to recognize Chairman Young for any comments and questions 
that he might have.

                        GUAM CONSTRUCTION COSTS

    In terms of Guam, we are doing so much there. What are the 
inflation factors? Have you been allowed to estimate the true 
cost of construction there and true inflation rates?
    I know sometimes DOD--under this OMB mandate of 2.4 percent 
inflation rate, which, with the kind of construction going on 
there, that we have going on in Guam, I can hardly imagine that 
would be realistic.
    Do you think you have a realistic handle on what the true 
construction costs are going to be over the next 4 or 5 years 
or so?
    Admiral Keating. Chairman, I would like to take that for 
the record. My opinion is it has not been brought to attention 
as a significant factor, which is a non-answer and nobody has 
told me it is a problem.
    But we will take that for the record and I will get back to 
you very quickly on the inflation in Guam.
    [The information follows:]

    OSD mandated the use of 2% for inflation in construction cost 
estimates for the Guam military buildup. The Air Force recently 
commissioned a cost estimate modeling effort for upcoming Guam MILCON 
projects. They determined that the anticipated construction costs would 
significantly increase due to competition for limited labor/material 
with the Marine buildup construction effort. Based on this study, 
USPACOM anticipates the actual cost of construction on Guam will exceed 
the predetermined inflation factors and area cost factor for Guam.

    Mr. Edwards. That would be helpful.
    Chairman Young.
    Mr. Young. Mr. Chairman, thank you very much.
    I spoke to the Admiral and the General before the hearing. 
In the Defense Committee, we had the Secretary of the Army and 
the chief of staff of the Army, and, since I am the ranking 
member, I needed to be there. We had a very good hearing.

                                  DMZ

    And I will just be very brief. A few years back, Chairman 
Edwards and I, our roles were reversed, I was chairman, he was 
the ranking member, and we had a very important issue in Korea.
    And that was military construction to make--available to 
move our troops out of the DMZ area, and I assume you probably 
have already discussed this.
    Mr. Edwards. I didn't talk about the 3 a.m. call.
    Mr. Young. We had overlooked the fact of the time changes 
and got your predecessor out of bed to answer the phone, and, 
of course, he said, ``No, no, I was up waiting for your call.''
    General Bell. I am sure he was, actually.
    Mr. Young. But, anyway, we finally took care of our part of 
that problem. We appropriated the incremental funding to begin 
that project.
    And the question I have is: how are we doing, Admiral? Are 
we well on the way to having that completed? Are most of our 
troops moved out of the immediate DMZ area?
    General Bell. Chairman, about half of that work has been 
done. One, we have redeployed a lot of those forces to the 
United States physically. One of the brigades, a maneuver 
brigade, actually went from Korea to Iraq, fought for a year, 
and then ended up at Fort Carson, Colorado.
    We still have, north of Seoul, in the Second Infantry 
Division area, the division headquarters and we also have one 
maneuver brigade. We also have some supporting stuff still 
there.
    That piece is not yet facilitated. In other words, the 
follow-on requirements to move that piece south of Seoul, not 
to redeploy it, but to move it south of Seoul as part of the 
garrisoning at this place called Garrison Humphreys has not--
the funds for that have not yet been appropriated.
    Now, I will tell you the funding of that will be borne in 
two directions--one, U.S. costs and, the other, host nation 
burden-sharing money, our ally, and we talked about that at 
some length.
    Our agreement is about a 50-50 split. And so what I have 
done is taken 50 percent of the cost to move the remaining 
force that is north of Seoul to its garrison locations of the 
future south of Seoul and I have programmed all those moneys in 
the appropriate program objective memorandums for the services, 
mostly Army.
    So that is accounted for. Now, whether it makes it into the 
budget process and is submitted, beginning next year, in the 
2010 budget, is problematic. I have got to make sure it is, but 
I believe it will be.
    The other 50 percent we need to use host nation funds for 
and we will. We have a good agreement with the Republic of 
Korea. So what you worked with General Leon LaPorte--so well is 
culminating and now we are going to go into the next phase and 
it is all sequenced pretty well.
    That is called the Land Partnership Plan, the LPP, which 
has to do with moving the Second Infantry Division to sanctuary 
locations. They have either moved or they have come back to the 
states, half of them. The other half should be moving over the 
next 5 years.
    That is where we are, sir.

                    YONGSAN GARRISON RELOCATION PLAN

    Mr. Edwards. If I could interject, because Chairman Young 
is such a key player in this whole defense process.
    Could you give him a brief summary of the housing 
frustrations? You used the word ``dead in the water.''
    General Bell. Sir, I used it at the Senate Armed Services 
Committee yesterday, as well, because it is fact.
    The other program that is ongoing over there is called the 
Yongsan Relocation Plan. That is a different issue and it moves 
us from our garrison location in downtown Seoul, and it is a 
big area, it is about a 500-acre complex, to the same place, 
Pyongtaek. We are going to consolidate there as a main hub.
    The South Koreans asked us to move and I don't blame them. 
You can imagine having a British army still garrisoned in 
Washington, and we wouldn't be too excited.
    They asked us to move and they said they would pay for the 
vast majority of that move and they are.
    They have already spent $2 billion in preparing the ground 
for that move down to Garrison Humphreys.
    So they are rapidly--I mean, you ought to see it, sir. That 
is 1,000 trucks a day in and out of this construction area. It 
is phenomenal.
    We agreed, this was in 2004, General Leon LaPorte, we 
agreed to negotiations to take the family members and senior 
NCOs and officers that live in the Yongsan Garrison and who 
were leasing quarters at the time on Yongsan, government 
leases, we agreed to take care of that with our funds, and we 
estimated that the new leases in Pyongtaek over a 15-year 
period would be about $1.4 billion, amortized over a 15-year 
lease payback period.
    That has not been favorably considered by Congress in those 
four intervening years, and you all know the history of that.
    So DOD has now said, ``We surrender.'' We are going to 
begin an Army family housing MILCON approach to this to start 
the project to show good faith to our ally, because our ally is 
getting very nervous about where are the Americans when they 
are spending billions and we are just--not one nickel has been 
spent by America yet. So we have asked for, in this budget, 
$125 million to begin construction of these family housing 
quarters of about 216 units in three high-rise apartments, and 
we hope that those are appropriated here in Congress and we can 
begin this project.
    We hope to stop using MILCON and either go back to build-
to-lease or the Army is now pursuing a fully privatized 
approach over there to determine if international investors and 
the South Korean investors might be interested, without lease 
guarantees, but with the powerful housing market that they have 
over there, accepting the risks of those leases and doing this 
in an RCI manner, fundamentally, with no guarantees.
    Those negotiations are ongoing. I wouldn't say I am 
optimistic, but I am excited about the possibility and I am a 
supporter of that.
    So we have three approaches. None of them have produced a 
single set of quarters yet from the agreement that we--and we 
are 4 years into it.
    So this is, in my view, dead in the water, but we are still 
floating. We didn't die in the water and then sink. We are 
still out there and we can start paddling again, and we need 
to.
    I wouldn't even mind cranking up an outboard motor engine 
and moving along at a rapid pace.
    I would like to take all the Guam money and spend it in 
Korea. That would take care of it. [Laughter]
    Sir, that is where we are.
    Mr. Young. It is good to have both of you here.
    Admiral Keating, we have had a chance to visit at his 
headquarters and we did not get to visit with you in your 
headquarters in Korea. However, you are the----
    General Bell. We did, we had a great time.
    Mr. Young. As your friend, I want to say that in view of 
your approaching retirement--the nation is going to miss your 
service.
    General Bell. Thank you, sir.
    Mr. Young. The other is, as your friend, you deserve a good 
rest and I send my invitation to come to Florida and let my son 
teach you how to catch----
    General Bell. Sir, I have an appointment with a trout in 
the Smokey Mountains. But as soon as I get through with him or 
her, whatever the case may be, I will be down there to take on 
your sharks.
    Mr. Young. Well, Mr. Wamp will give you maybe some mountain 
trout or something----
    But in this subcommittee, with Chairman Edwards and Ranking 
Member Wamp, you have got strong leadership and they are going 
to make good things happen for you.
    General Bell. Thank you. It has been an honor.
    Mr. Young. Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Chairman.
    The additional questions I have I will submit in writing 
for the record.
    Admiral Keating, perhaps, if we were to start to put 
together a trip for the subcommittee to go visit Korea, we 
could be in touch with your staff about where in your command 
you think you would need for us to----
    General Bell. It sounds like Guam to me, Mr. Chairman.
    Admiral Keating. Guam would be important and Japan and see 
the construction projects that are ongoing there and if you can 
give us a half a day or a full day in the headquarters at Camp 
Smith in Hawaii, preferably on the front end of your trip, but 
coming or going, we would be----
    General Bell. Guam is only 8 hours from Korea. So it is 
close.
    Mr. Edwards. We will follow up on that. Thank you both for 
your tremendous leadership. It is good to have you here today. 
Thank you.
    [Clerk's note.--Questions for the record submitted by 
Chairman Edwards.]

                     Questions for Admiral Keating

    Question. The target date for the bed-down of marines in Guam is 
2014. Is the full U.S. share of construction costs for relocating 
marines from Okinawa to Guam programmed in the current FYDP?
    Answer. The current FYDP (09-13) does not contain the full U.S. 
share of construction costs as laid out in the ``Road Map for 
Realignment'' agreement with the Government of Japan. The U.S. share is 
$4.18B, with the current FYDP programming $1.98B for military 
construction/planning. USPACOM, through the Joint Guam Program Office, 
continues to advocate for the full U.S. share of Guam construction 
costs in FYDP 10-15, currently in development within the Department of 
Defense.
    Question. Please provide an update on Government of Japan action 
regarding appropriations and other funding instruments for the 
relocation of marines from Okinawa to Guam.
    Answer. The Government of Japan (GOJ) passed the ``Law to Promote 
the Realignment for U.S. Forces in Japan'' in May 2007. This law 
established the legal framework to obtain funding and initial cost 
estimates. We anticipate GOJ funding to begin in 2009 and extend 
through 2014. The Joint Guam Program Office is currently coordinating 
with the GOJ representatives to finalize the by-year funding stream.
    Question. I understand that the relocation to Guam will require 
work on training ranges in the Northern Marianas, and that this cost 
has not been factored into the total estimates for the Okinawa-Guam 
transition. What is the total estimated cost for training ranges? Who 
is responsible for developing these cost estimates?
    Answer. The agreement to move the Marines from Okinawa to Guam 
included $500 million for training facilities/ranges. Marine Forces 
Pacific has the responsibility to develop a Marine training concept 
study, with costs, for Guam and the Commonwealth of the Northern 
Mariana Islands. The study, with an expected completion date of April 
2008, will validate, or update if required, the current $500 million 
estimate.
    Question. Are there any other non-programmed requirements related 
to the cost of the relocation to Guam?
    Answer. The Marine training concept study, when complete in April 
2008, is likely to identify training requirements which exceed the 
current $500 million planning factor. For example, this study may 
advocate for additional land acquisition to accommodate firing range 
requirements on the island of Guam. Any land acquisition costs would be 
a new requirement.
    Question. Is PACOM developing a plan to secure the safety of the 
increased number of military personnel and family members in the event 
of future typhoons impacting Guam?
    Answer. USPACOM currently has a Tropical Cyclone Operations 
Instruction requiring all commanders in the Area of Responsibility to 
establish a Tropical Cyclone Conditions of Readiness program to warn, 
secure, and prepare DOD personnel and property in the case of an 
approaching tropical cyclone.
    Planned Guam construction projects are designed to withstand 
tropical cyclones. Upon completion, these facilities will augment 
designated evacuation facilities in current plans to accommodate 
increased military personnel.
    Question. What is the projected total family housing requirement on 
Okinawa post consideration and the relocation to Guam, and how does 
this compare with the current housing inventory?
    Answer. Family housing requirements on Okinawa have not been 
finalized. The mix of permanent party to temporary duty Marines based 
on Okinawa is under revision in response to ``Grow the Force'' changes 
planned for the Marine Corps. The Services are completing a 
comprehensive housing market analysis for Okinawa. Once complete 
(expected completion in July 2008), this analysis will establish the 
housing requirement and allow us to assess the adequacy of the housing 
inventory.
    Question. According to the U.S.-Japan ``road map,'' the 
transformation of Army C2 at Camp Zama was to be complete by FY08. What 
is the status of this transformation?
    Answer. The U.S. Army activated a cadre at Camp Zama, I Corps 
Forward, in December 2007. Due to operational commitments with 
Operation IRAQI FREEDOM, the final transformation of Army Command and 
Control (C2) at Camp Zama will not be fully completed by FY08. I Corps 
is scheduled to transfer to Camp Zama upon return from Iraq but the 
exact timing for the I Corps Headquarters move is not yet established.
    Question. Are there any U.S. milcon requirements for Sagami beyond 
the Battle Command Training Center?
    Answer. Yes, there are other projects in the FYDP for Sagami. In 
FY13 of the U.S. Army's current FYDP (09-13), a $28M Vehicle 
Maintenance Shop project is planned. The project will provide a 
maintenance facility and organizational parking to support I Corps at 
Camp Zama and Sagami General Depot.
    Question. The Navy milcon request includes $35.1 million for wharf 
upgrades at Diego Garcia to provide a forward operating location for a 
submarine tender. Has the decision to provide this forward location 
been finalized? Is the U.S. required to obtain the United Kingdom's 
consent for this initiative, and if so, has that consent been obtained? 
What additional milcon requirements are necessary to provide this 
forward operating location?
    Answer. With full consent of the United Kingdom, the decision to 
upgrade the facilities at Diego Garcia to support a submarine tender 
has been finalized. The U.S. is required to notify and obtain consent 
from the United Kingdom for all military construction projects planned 
for Diego Garcia.
    The FY09 request is the second phase of a three phase effort. The 
third and final phase is programmed in the FYDP for FY10 at $32.4M.
    Question. The Missile Defense Agency milcon request includes $25.5 
million for AN/TPY-2 construction in the PACOM AOR. My understanding is 
that the final location has not been determined. What is PACOM's role 
in this decision? When will that decision be made?
    Answer. USPACOM advises the SecDef on all basing decisions in the 
AOR. USPACOM is working closely with USSTRATCOM and MDA on possible 
future basing locations for a second forward-based AN/TPY-2 radar for 
the USPACOM AOR. The site selection timeline for the second radar has 
not been established.
    Question. The Pacific Warfighting Center at Pearl Harbor was 
drastically reduced in scope last year. Is PACOM satisfied that the 
current project meets the requirement? Is there any intent to construct 
a follow-on phase?
    Answer. The 34,300 square foot Pacific Warfighting Center under 
construction at Ford Island site will provide USPACOM with sufficient 
capacity to accomplish its mission. USPACOM does not anticipate any 
requirements for follow-on construction.

                       Questions for General Bell

    Question. Has USFK performed a life-cycle cost analysis comparing 
build-to-lease housing versus traditional family housing construction? 
If so, what were the results?
    Answer. A lifecycle analysis using a straightforward approach 
comparing MILCON to Build to-Lease (BTL) for family housing was 
completed in July 2007. The analysis shows that over a 17 year interval 
(2 years for construction and 15 year lease period) BTL has a Net 
Present Value (NPV) of approximately $503K per unit and MILCON has an 
NPV of approximately $521K per unit.
    Question. You mentioned that USFK currently pays for housing leases 
at Yongsan. What is the annual cost for these leases?
    Answer. The projected FY08 cost for the 548 Army leased family 
homes in the Yongsan area (300 on U.S. Army Garrison Yongsan and 248 in 
Hannam Village near Yongsan Garrison) is $26.9M.
    Additionally, 510 families reside in individually leased apartments 
in the vicinity of Yongsan at an annual Overseas Housing Allowance 
(OHA) expenditure of $25.7M. 1096 unaccompanied officers and NCOs 
reside in individually leased apartments near Yongsan at an annual OHA 
expenditure of $48.5M.
    Question. Please provide an updated breakdown of the total 
construction costs for the Yongsan Relocation Plan and the Land 
Partnership Plan, and further break out these costs among the various 
U.S. and ROK funding streams. Also, please indicate how much of these 
funds have been provided to date.
    Answer. The total planned cost apportioned between both the 
Republic of Korea and the United States for construction under the 
Yongsan Relocation Plan (YRP) and the Land Partnership Plan (LPP) is 
currently estimated at approximately $10.68. USFK and the ROK have 
contracted a Project Management Consortium (PMC) in accordance with the 
YRP agreements to perform program management services. The PMC is 
currently evaluating the planned cost and will provide a baseline cost 
in July 2008.
    Within the current planned cost the ROK contribution is estimated 
at $7.47B ($5.84B direct funded and $1.63B USFK executed host nation 
funded construction using burden sharing contributions) and USFK is 
seeking to resource approximately $3.13B through Service Component U.S. 
MILCON, BTL or private investment sources.
    Investment to date includes over $lB from the ROK; no money has 
been appropriated by Congress to support the execution of either of 
these plans. While the US Congress has appropriated approximately $300 
Million in MILCON to Garrison Humphreys for Second Infantry Division 
requirements, these appropriations are not directly tied to our 
national commitments associated with YRP or LPP.
    Question. Has USFK performed a full cost analysis of transitioning 
to a policy of normal three-year accompanied tours? What would be the 
one-time investment costs, and what would be the annual recurring cost 
(or savings) after implementation?
    Answer. USFK has performed a full analysis of transitioning to a 
policy of two-year unaccompanied and three-year accompanied tours as 
required by DOD Instruction 1315.18; Procedure for Military Personnel 
Assignment dated 12 January 2005. Based on this analysis, we project an 
annual Permanent Change of Station cost savings of up to $102M. This 
analysis specifies that family support facilities and adequate housing 
are available through government owned, government leased, and economy 
quarters. Therefore there is no identification of a onetime investment 
cost associated with extending tours at current population levels.
    USFK is seeking a policy change from OSD to allow the Services to 
begin to phase-in fully normalized tours over a ten year period. This 
would allow the Services to plan for and program resources to support a 
fully normalized Korea.
    Question. Would your proposal for three-year accompanied tours 
apply to personnel of all services in Korea?
    Answer. Yes, this policy change would apply to service members of 
all Services programmed for locations that convert to three-year 
accompanied tours.
    This policy change will amend the Joint Federal Travel Regulation 
pertaining to and applied to all Services. This tour normalization 
conversion will be phased in over a 10 year period to allow the 
Services to plan and program for increased servicemember and family 
presence at their garrisons, bases, and other locations.
    Question. Has the ROK granted all of the required land at Camp 
Humphreys?
    Answer. The land grants at U.S. Army Garrison Humphreys are 
guaranteed in the Yongsan Relocation Plan (YRP) and Land Partnership 
Plan (LPP) agreements. However, all land grants have not been 
officially granted. We have completed a joint survey of all land that 
will be granted. These land grants will be phased in over time as land 
fill and facilities are complete and as we begin to occupy new 
facilities. Until this happens, the ROK retains responsibility for 
security, access control and emergency response services.
    Question. Much of the additional land at Camp Humphreys consists of 
rice paddies that must be drained and filled before construction 
commences. Is there a lag time between this site preparation and 
construction at Camp Humphreys to allow for ground settling, and if so, 
how long is this lag?
    Answer. Construction at U.S. Army Garrison Humphreys can begin 3-4 
months after site preparation. Pile foundations for new facilities can 
start at that time which will allow construction while the fill 
continues to settle. Final settlement is expected 8-12 months after 
site preparation, which will allow construction of utilities and 
pavement.
    Question. Last year, you indicated that negotiations between USFK 
and ROK were underway over a railhead in the northwest part of Camp 
Humphreys and a civilian highway running along the western perimeter. 
Please provide an update on these projects.
    Answer. USFK continues to negotiate with the ROK regarding the 
synchronization of all on and off installation infrastructure. These 
ongoing negotiations will ensure that the planned access control points 
and rail-head are tied into existing or planned local infrastructure in 
accordance with master plan timelines.
    Question. You indicate that a new U.S. joint warfighting command, 
known as Korea Command or KORCOM, is expected to reach FOC by March 
2012. How would this KORCOM structure be different from the current 
U.S. command structure in Korea? Would it replace U.S. Forces Korea? 
Would KORCOM remain a sub-unified command under Pacific Command?
    Answer. A new U.S. command, provisionally called Korea Command 
(KORCOM), will replace U.S. Forces Korea (USFK) and will remain a sub-
unified command under U.S. Pacific Command. While KORCOM will remain a 
sub-unified Command under PACOM, its is also projected to retain 
national alliance military responsibilities from the Secretary of 
Defense as agreed through the Security Consultative Meetings with our 
ROK Ally which will be specified in an updated Strategic Directive and 
Terms of Reference. KORCOM will consist of a joint headquarters and 
subordinate Service and functional component commands. The current U.S. 
Forces Korea Headquarters is the U.S. contribution to the ROK-US 
Combined Forces Command. There is no separate USFK Headquarters today 
as all USFK Headquarters personnel work under the Combined Forces 
Command. Once OPCON transfer is complete, the KORCOM headquarters will 
be responsible for Title X U.S. Civil Code National Command, as well as 
executing wartime battle command of selected U.S. Forces supporting our 
Korean ally. The new U.S. joint headquarters in Korea, U.S. Korea 
Command (KORCOM), will be a separate U.S. joint headquarters operating 
in support of the ROK national warfighting command.
    Question. Will 8th Army headquarters be relocated to Hawaii? How 
does this impact transformation plan in Korea?
    Answer. Eighth U.S. Army headquarters is transforming from its 
current legacy Army ServIce Component Command (ASCC) structure to the 
Army's new modular, warfighting Operational Command Post (OCP) 
structure and will be known as Eighth Army OCP-Korea. At some point in 
the future, U.S. Army Pacific will be re-designated as Eighth Army, and 
it will establish a Main Command Post (MCP) in Hawaii that will play an 
increased role in supporting U.S. forces in Korea. A date for the 
potential move of the Eighth Army flag to Hawaii has not been 
determined, as we must fully consult and coordinate with our Korean 
ally. These actions are synchronized with Department of Defense, USFK, 
Department of the Army, and Eighth U.S. Army transformation plans.
    Question. You indicated last year that ``Current access to training 
ranges in South Korea is insufficient to fully meet the training needs 
of U.S. forces.'' Has the ROK completed modernization of the Jik-do 
range? Do you regard this modernization as sufficient? Are you seeking 
reopening of the Koon-ni range?
    Answer. We have made significant progress with our ROK ally in the 
last year with respect to range and airspace access as well as range 
modernization. The Republic of Korea has completed the instrumentation 
of Jik-do range with a Weapons Impact Scoring Set that replaces a 
capability we lost with the closure of Koon-ni Range. We now have an 
additional scoreable bombing range that has improved our training for 
all of our Services.
    While the progress made over the past year has improved our 
readiness, there still remains work to be done to improve airspace 
utilization and range access. We are working closely with the Republic 
of Korea to gain access to additional bombing ranges to meet our 
training requirements.
    We are not seeking the re-opening of Kooni range because the 
airspace above the bombing range was needed for expanded operations at 
Seoul's Incheon International Airport. The airspace is now used to 
ensure adequate safety clearance between arriving and departing 
commercial aircraft.
    Question. Last year, you expressed concern about the medical care 
access for servicemembers in Korea. Have you been assigned a Tricare 
manager? Do you have any further concerns regarding medical care?
    Answer. Due to decreased clinical providers, clinical support, and 
administrative personnel, I have been forced to prioritize care for DoD 
beneficiaries--this has resulted in some DoD civilians no longer having 
prioritized access to care in some U.S. facilities. Many of these 
beneficiaries are now required to receive their care in Korean 
hospitals. I have been working this issue through the Department of the 
Army on two fronts and if successful will hire 76 new medical and 
clinical support personnel in the near term which will enhance clinical 
access for my civilians.
    Furthermore, I continue in my efforts with DoD to resource a 
TRICARE Overseas Contractor responsible for coordinating specialty care 
off of our installations, establishing Primary and Specialty Care 
networks throughout Korea, and for establishing ``local offices'' in 
major population hubs.
    Today, we resource our TRICARE Service Center at the U.S. Army 
Garrison Yongsan in Seoul for all beneficiaries assigned to Korea--this 
office coordinates care in local hospitals for beneficiaries who exceed 
the capabilities of the U.S. facilities in Seoul, Osan, and the 
geographically dispersed clinics located throughout Korea. This office, 
however, cannot process claims for our beneficiaries.
    Until a TRICARE Overseas contract is awarded, and a TRICARE Managed 
Care Support Contractor is established in Korea, our active duty 
Servicemembers and their families will not have adequate access to 
TRICARE information and resources, and they will be required to 
continue submitting reimbursement claims for allowable medical services 
to offices located in the United States.
    Question. You intend to close a total of 63 camps and facilities in 
Korea. You indicate that to date you have closed 37 and returned 35 of 
those. What is the timeframe for closing and returning the balance of 
camps and facilities?
    Answer. Of the 37 that we have closed, 35 have already been 
returned and two (Camp Hialeah and Gimpo Mail Facility) are projected 
to be returned this year (2008), along with 7 additional parcels of 
land.
    The balance of the camps and facilities (26) are all part of the 
Land Partnership Plan (LPP) and Yongsan Relocation Plan (YRP). They 
will be returned once the units located on these camps have relocated 
to newly constructed facilities at U.S. Army Garrison Humphreys.

    [Clerk's note.--End of questions for the record submitted 
by Chairman Edwards.]
    [Clerk's note.--Questions for the record submitted by 
Congressman Wamp.]

    Question. The budget request includes $125 million to construct 
three high-rise, multistory family housing apartment towers at U.S. 
Army Garrison-Humphreys. This project is part of the Land Partnership 
Plan between the U.S. and the ROK which allows U.S. forces to be 
relocated south of the Han River, and smaller army garrisons be turned 
over to the host nation. What will be the total U.S. funding 
requirement for housing construction as contained in the LPP agreement? 
Will the fiscal year 2009 budget request of $125 million meet the total 
requirement to move the 2nd Infantry Division?
    Answer. The Land Partnership Plan (LPP) is an agreement between the 
U.S. and the Republic of Korea (ROK) to relocate the Second Infantry 
Division (2ID) to enduring hubs south of Seoul. It does not specify a 
provision for family housing. The Yongsan Relocation Plan (YRP) is an 
agreement between the U.S. and the ROK to relocate U.S. forces from 
Seoul to the U.S. Army Garrison Humphreys in Pyongtaek. The YRP 
requires the U.S. to provide family housing units for those members of 
the command who will be displaced from Yongsan Garrison in Seoul to 
Garrison Humphreys. Therefore, the Army's $125 million FY 2009 MILCON 
request will only fund construction of the first 216 family housing 
units of the approximately 400 total family housing units required for 
our future stationing needs mostly associated with he YRP. Additional 
funding will be required to complete LPP.

                           Construction Costs

    Question. With the current strength of the South Korean economy, 
what impact are you seeing on construction costs/construction 
inflation? Would it be in our best interest to fund additional military 
construction or housing at a time when the South Korean economy is so 
strong?
    Answer. The current strength of the South Korean economy has had 
minimal impact on the cost of construction. There has been a slight 
increase in pricing due to the surge in oil and other commodity prices. 
Notwithstanding these commodity price increases, USFK construction 
projects have been awarded at or near the estimated project cost over 
the past year. To take advantage of this competitive pricing 
environment, it is in the best interest of the United States to fund 
additional military construction and housing projects now in order to 
meet the agreed upon relocation timeline.
    The United States and the Republic of Korea signed the Land 
Partnership Plan and the Yongsan Relocation Plan in 2004. To date no 
money has been appropriated by Congress to support the execution of 
either of these plans. Meanwhile our Korean ally is heavily executing 
their responsibilities under the plan and they have already invested 
well over one billion dollars. It is important that the United States 
not lose additional time and begin to execute our agreements with the 
Republic of Korea.
    The U.S. Congress has appropriated approximately $300 million in 
MILCON to Garrison Humphreys for Second Infantry Division requirements 
not directly tied to our national commitments associated with YRP or 
LPP.

                       Strategic Culmination Plan

    Question. General Bell, according to your testimony we are four 
years away from the culmination of the Strategic Culmination Plan that 
will be marked with a certification exercise, followed by the 
disestablishment of the Combined Forces Command and the establishment 
of separate and complementary U.S. and South Korea national military 
commands. Your testimony highlights our intention to achieve 
operational capability for the new U.S. joint warfighting command, and 
its service components, followed by full operational capability prior 
to that final certification exercise in March 2012. Give the Committee 
your assessment on whether or not you think we will meet this goal. 
What resources are you requesting in the fiscal year 2009 budget 
request to move towards that goal? Is there adequate funding planned 
between now and FY 2012 to meet the goal?
    Answer. My assessment is that we will meet our goal to transfer 
wartime OPCON to the Republic of Korea (ROK), and establish separate 
and complementary U.S. and South Korean national military commands. The 
Strategic Transition Plan (STP) specifies 19 task areas for ROK Joint 
Chiefs of Staff (JCS) and United States Forces Korea (USFK) to action 
before OPCON transfer in 2012. On-going review of those task areas 
indicates that both nations are currently on plan. The United States 
does not view the STP as containing any ``go/no-go gates'' that must be 
passed through to achieve OPCON transfer. If we do not accomplish a 
component of the STP, it is the United States' intent to ``bridge'' the 
potential shortfall while executing ``OPCON transfer'' on time with our 
Korean ally, and not later than 17 April 2012.
    In FY09 I requested an additional $53.6M from the Army to support 
important command, control, communications, computers, and intelligence 
(C4I) ($37.6M); intelligence, surveillance, and reconnaissance (ISR) 
($5.6M) and JCS-sponsored theater level exercises ($10.4M) that will 
directly facilitate OPCON transfer and establishment of a new, separate 
U.S. military command. I am also working with the Army to address our 
requirements for the FY10-15 Program Objective Memorandum (POM), 
including $1,006.9M in FY10-12 to support required C41 ($760.5M), ISR 
($135.6M), JCS-sponsored theater level exercises ($78.8M), and to 
develop a joint theater logistics capability ($32M).

           Military to Military Engagement/Security Progress

    Question. In your testimony you highlighted progress in a number of 
security areas, including improved multilateral information sharing, 
enhanced the capacity of regional partners to counter transnational 
crime and terrorism; changed attitudes in populations at risk for 
terrorist exploitation, advanced U.S. and allied ballistic missile 
defense capabilities, and mitigated human suffering due to natural 
disasters. That is quite a list. Can you tell the Committee more 
specifically how you accomplished some of these things, and how does 
your fiscal year 2009 budget request allow you to continue to make 
progress along these fronts?
    Answer. USPACOM has improved regional security by increasing the 
number and sophistication of our multilateral, collaborative activities 
with allies and partners. The focus on multilateralism extends to all 
engagement activities--information sharing, subject matter expert 
exchanges, exercise and training evolutions, and cooperative solutions 
to security challenges. Two particularly important examples, given the 
maritime nature of USPACOM, include exercise MALABAR with India and the 
multilateral efforts with ``train and equip'' funding in the triborder 
sea area between Indonesia, Malaysia, and the Philippines. With 
MALABAR, we expanded participation to include Japan, Australia, and 
Singapore. Regarding tri-border sea region, and using 1206 ``train and 
equip'' funds, we installed a $122M radar/sensor system and provided 
watercraft to reduce sanctuary for terrorists and interdict criminal 
activities such as drug trafficking or arms smuggling. USPACOM 
advocates for continued ``train and equip'' authority and funding in 
FY09. Without congressional action, authority for NDAA Sec 1206 funding 
expires in FY08.
    The USPACOM counter drug program, executed by Joint Interagency 
Task Force-West (JIATF-W), has proven extremely successful. Through 
information fusion centers, JIATF-W increased information sharing 
between national police and other security forces, leading to the 
arrest of high value criminals and destruction of drug production 
facilities. For FY09, the JIATF-W capacity-building budget of $14.4M 
will be focused on increasing partner nation security in Thailand, the 
Southern Philippines, and Indonesia.
    Assisting those civilian populations at risk to terrorist 
exploitation is a continuing USPACOM priority. Working by, with, and 
through regional partner nations, USPACOM has emphasized humanitarian 
assistance and civil-military operations as a key method to reduce 
regional susceptibility to violent extremists. For example, in concert 
with the Armed Forces of the Philippines, USP ACOM supported over $3M 
in Humanitarian Assistance missions, building schools, wells, and 
cisterns as well as providing basic healthcare to thousands of 
patients. Additionally, USPACOM provided goodwill through ship-borne 
humanitarian assistance deployments, reaching populations rarely 
visited by U.S. security forces. Last year, USS PELELIU provided 
medical and dental services to more than 35,000 patients and veterinary 
services for almost 3,000 animals. USPACOM plans to deploy USNS MERCY 
in 2008 for a similar mission.
    USPACOM advanced U.S. ballistic missile defense (BMD) capabilities 
in theater by increasing both our inventory of U.S. Aegis Standard 
Missile-3 interceptors and the number of Aegis destroyers capable of 
launching them. Numerous Theater High Altitude Anti-missile Defense 
tests demonstrated U.S. commitment to the defense of our partners. The 
Japanese Self Defense Force is upgrading BMD capability of their Aegis 
cruisers, with one ship already successfully engaging and destroying a 
ballistic target in December 2007. To enhance interoperability, USPACOM 
exercises and seminars provide a venue for U.S. and Japanese Defense 
planners to develop tactics, techniques, and procedures for the 
bilateral defense of Japan.
    USPACOM forces have quickly responded to disasters within the area 
of responsibility. After an earthquake in the Solomon Islands, USPACOM 
provided a naval vessel to work with Australia and New Zealand, 
assisting in helicopter airlift and humanitarian assistance. 
Additionally, USPACOM forces responded to the Bangladesh cyclone SIDR 
in November, with embarked U.S. Marine Expeditionary Units delivering 
861,000 pounds of supplies, 14,000 gallons of water, and treating over 
4,000 patients. In February 2008, USPACOM assisted Chinese citizens 
during a period of severe cold by airlifting 16 tons of cold weather 
gear, blankets, and humanitarian daily rations.

    [Clerk's note.--End of questions for the record submitted 
by Congressman Wamp.]
                                          Thursday, March 13, 2008.

                             U.S. AIR FORCE

                               WITNESSES

GENERAL T. MICHAEL MOSELEY, CHIEF OF STAFF, U.S. AIR FORCE
MAJOR GENERAL DEL EULBERG, THE AIR FORCE CIVIL ENGINEER, U.S. AIR FORCE

                       Statement of the Chairman

    Mr. Edwards [presiding.] Let's call the subcommittee to 
order.
    General Moseley, General Eulberg, welcome back to the 
subcommittee. It is great to have you here.
    Please accept my apologies for being late. There are 
several things happening today. We had a beautiful ceremony for 
those who have served in Iraq and Afghanistan in the Rotunda of 
the Capitol, and also honoring those who have given their lives 
in Iraq and Afghanistan. And they had a moment of silence on 
the floor.
    As I was leaving, the Speaker and I had a brief 
conversation about this subcommittee's work.
    We are glad you are here. Today, we are here to discuss the 
fiscal year 2009 military construction and family housing 
request for the Air Force. The Air Force's fiscal year 2009 
MILCON request, the active component, is $935 million, a 
decrease of about 19 percent compared to the fiscal year 2008 
appropriation and a small increase over the fiscal year 2008 
request.
    The Air National Guard's fiscal year 2009 request is less 
than half of last year's request, while the Reserve's request 
represents a more than 25 percent decrease from last year's 
budget.
    The Air Force clearly is facing great pressure on its 
budget. I know there are tremendous needs for procurement 
funding, and, clearly, this is reflected in this recent year's 
MILCON request.
    So it is obvious that one of the bill payers for 
procurement has to be MILCON, and, General Moseley, that would 
certainly be one of the issues we would want to talk about 
today so that we keep a handle on what the consequences are for 
quality of life and MILCON Air Force programs, as you have to 
make those very difficult fiscal priorities.
    The family housing construction request is $396 million, 
which is an increase of about 9 percent over the fiscal year 
2008 request, reflecting the Air Force's commitment to funding 
the elimination of all inadequate housing here and overseas by 
2009. I salute you for what you have done.
    We will discuss these and other issues today, but before we 
proceed, I would like to turn to our ranking member, Mr. Wamp, 
for any opening comments he would care to make.

                Statement of the Ranking Minority Member

    Mr. Wamp. Thank you, Mr. Chairman.
    I just want to welcome you, both, and thank you for your 
service. Also to say that as we go through some significant 
transition with all the branches, the Air Force is unique 
because there are so many areas where you are leading and 
cutting edge on quality of life in some of these issues with 
the environment and, frankly, the condition of your personnel, 
and we are grateful for that leadership. And you also have a 
different position on some of the new proposals, such as joint 
basing, so I particularly welcome you here today.
    Thank you for your service and I appreciate your 
willingness to work with the transition that is underway with 
the other branches, knowing that the world that we live in 
requires these changes and that the conflicts of the future are 
not like the conflicts of the past, and we all need to go 
through this period of change.
    And at this subcommittee, we understand that we are a part 
of that, and the quality of life issues for the personnel 
around the world have to be held up and, frankly, made a focus 
so that the people are not lost in the middle of all these 
changes.
    Thank you, again, for your presence here today and for you, 
General Moseley, for coming by and talking with us earlier so I 
could get to know you a little bit. As the new kid on the 
block, I am grateful to be here and grateful, sir, to you.
    Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Wamp.
    General T. Michael Moseley is the Chief of Staff of the 
U.S. Air Force, a position he has held since September of 2005. 
He previously served as Vice Chief of Staff from August of 2003 
to September 2005. He was the Combined Forces Air Component 
Commander during Operation Enduring Freedom and Operation Iraqi 
Freedom, a fighter pilot with 2,800 hours of flight time and, I 
will save the very best for last, a graduate of Texas A&M 
University--a fellow Aggie. It is a thrill to have you here.
    At the witness table with General Moseley is Major General 
Del Eulberg, the Air Force Civil Engineer who oversees the 
construction, maintenance and environmental quality of Air 
Force bases around the world.
    General Eulberg, thank you for your distinguished service 
to our country as well, and it is great to have you back before 
the committee.
    General Moseley, your full record will, without objection, 
be submitted for the record, but we would like to recognize you 
now for any opening comments you would care to make, and then 
we will proceed with the discussion.
    General Moseley. Mr. Chairman, thank you.
    Mr. Edwards. Thank you.

                Statement of General T. Michael Moseley

    General Moseley. Chairman Edwards, Congressman Wamp, 
distinguished committee members and staff, it is a pleasure for 
both of us to be here again this year.
    Our Air Force Civil Engineer, Major General Del Eulberg, 
and I appreciate the opportunity to discuss these very, very 
important issues that directly affect our people, our quality 
of life and our mission conduct in the United States Air Force 
as part of a joint team.
    Let me start by, again, thanking the committee and the 
staff for consistent and strong support of America's veterans, 
our Airmen, our Air Force families but equally our Soldiers, 
Sailors, Marines and Coast Guardsmen that are out there today 
in harm's way and their families who support them.
    Your marks help us maintain and improve Service member 
housing and quality of life that are critical to our 
warfighting projects. We appreciate your continued support when 
you conference with the Senate.
    As you know, the Air Force has now been engaged in non-stop 
combat for over 17 years. From August of 1990, when we deployed 
into the Middle East for Desert Shield, and in January 1991, 
when combat operations began for Desert Storm, your United 
States Air Force has not redeployed from the Middle East for 17 
years, 12 years of no-fly zones plus attendant combat in 
Bosnia, Kosovo, Somalia, Mogadishu, Afghanistan and now Iraq.
    We find ourselves facing emerging and increasingly 
sophisticated threats in all of our three warfighting domains--
in the air, space and cyberspace. In the midst of this 
uncertain environment, our priorities remain consistent: Win 
today's fight, take care of our people, and prepare for 
tomorrow's challenges. And our investments in facilities and 
housing and our judicious implementation of BRAC programs are 
key to achieving these priorities.
    Today, approximately 25,000 of your Airmen are deployed in 
the Central Command area of responsibility as part of the 
ongoing fights in Iraq, Afghanistan and the Horn of Africa. 
More than 2,500 of them are engineers.
    These Airmen are doing a fabulous job, and our joint and 
other federal agency and multinational partners continue to ask 
for Airmen when they need these tough jobs to get done well. I 
am very proud of them, and I am proud of the Air Force families 
that support them.
    So it is not surprising that our MILCON, BRAC and housing 
investments in the fiscal year 2009 President's Budget request 
have carefully balanced the need to care for them today with 
the need to also ensure future generations of Airmen are 
properly armed, trained, housed and cared for.
    I will ask General Eulberg to give you some more details 
about plans for funding our MILCON, family housing and BRAC 
projects. As he does, please keep in mind that all of these 
projects take place in the context of what I am calling a 
redefinition of air power for this century.
    We see the world beyond our borders fraught with 
instability, terrorism, rising peer competitors, rapid 
technological advances and proliferation of dangerous 
technology, and we are determined to ensure the Air Force's 
continued ability to fly, fight and win in that environment.
    So we are transforming our organizations and adopting new 
concepts of operations and leveraging and exploiting 
breakthrough technologies to achieve cross-domain dominance and 
maintaining America's asymmetric edge across the spectrum of 
combat and continue to provide our nation global vigilance, 
global reach and global power.
    Mr. Chairman, in conclusion, the Air Force's ability to 
wage and win our Nation's wars, now and in the future, depends 
heavily on both our Airmen and the state of our operational 
infrastructure. The Air Force is distinct in that our bases 
serve not only as housing for our families or our peacetime 
places of work. They are our ``front lines''--our warfighting 
locations, whether here in the United States or abroad, due to 
the unique characteristics of air, space and cyberspace power.
    That is why our people at our bases are important to us, 
and I take pride in the Air Force's reputation for taking the 
highest quality care of these installations, because that is 
where our people live and work.
    I thank you again for this committee's continued help in 
making this happen, and I look forward to your questions and 
continued work on these important points.
    Mr. Chairman, thank you.
    [Prepared statement of General T. Michael Moseley follows:]

    [GRAPHIC] [TIFF OMITTED] T2754C.038
    
    [GRAPHIC] [TIFF OMITTED] T2754C.039
    
    [GRAPHIC] [TIFF OMITTED] T2754C.040
    
    [GRAPHIC] [TIFF OMITTED] T2754C.041
    
    [GRAPHIC] [TIFF OMITTED] T2754C.042
    
    [GRAPHIC] [TIFF OMITTED] T2754C.043
    
    [GRAPHIC] [TIFF OMITTED] T2754C.044
    
    [GRAPHIC] [TIFF OMITTED] T2754C.045
    
    [GRAPHIC] [TIFF OMITTED] T2754C.046
    
    [GRAPHIC] [TIFF OMITTED] T2754C.047
    
    [GRAPHIC] [TIFF OMITTED] T2754C.048
    
    [GRAPHIC] [TIFF OMITTED] T2754C.049
    
    [GRAPHIC] [TIFF OMITTED] T2754C.050
    
    [GRAPHIC] [TIFF OMITTED] T2754C.051
    
    [GRAPHIC] [TIFF OMITTED] T2754C.052
    
    [GRAPHIC] [TIFF OMITTED] T2754C.053
    
    [GRAPHIC] [TIFF OMITTED] T2754C.054
    
    [GRAPHIC] [TIFF OMITTED] T2754C.055
    
    [GRAPHIC] [TIFF OMITTED] T2754C.056
    
    [GRAPHIC] [TIFF OMITTED] T2754C.057
    
    [GRAPHIC] [TIFF OMITTED] T2754C.058
    
    [GRAPHIC] [TIFF OMITTED] T2754C.059
    
    [GRAPHIC] [TIFF OMITTED] T2754C.060
    
    [GRAPHIC] [TIFF OMITTED] T2754C.061
    
    [GRAPHIC] [TIFF OMITTED] T2754C.062
    
    [GRAPHIC] [TIFF OMITTED] T2754C.063
    
    [GRAPHIC] [TIFF OMITTED] T2754C.064
    
    [GRAPHIC] [TIFF OMITTED] T2754C.065
    
    Mr. Edwards. Thank you, General Moseley.
    General Eulberg.

                 Statement of Major General Del Eulberg

    General Eulberg. Yes, sir.
    Mr. Chairman, Congressman Wamp and distinguished members of 
the committee, I am proud to be here with General Moseley 
representing your Air Force.
    Investments in our fiscal year 2009 construction programs 
are focused on achieving the Air Force priorities to win 
today's fight, take care of our people, and prepare for 
tomorrow's challenges. These investments are critical in 
ensuring our installations continue to serve effectively as 
warfighting platforms.
    Our fiscal year 2009 President's Budget request of $5.2 
billion for MILCON, BRAC, family housing and facility 
maintenance is less than our fiscal year 2008 President's 
Budget request of $5.6 billion. This is consistent with our 
overall strategy of taking acceptable risk in infrastructure as 
we move to modernize our aging weapons systems.
    The manageable risk we are taking in MILCON will be 
mitigated by our requested $168 million increase over last 
year's request in our restoration and modernization funding. We 
are doing this equitably across the total force as we all 
contribute to the central recapitalization of our weapons 
systems.
    Our housing construction and renovation program continues 
to be a good news story for our Air Force families, as you 
mentioned, Mr. Chairman.
    Airmen and families and commanders continue to provide very 
positive feedback. Housing privatization also continues to be a 
private and public sector success story. For every dollar we 
invest yields the equivalent of $16 invested by the private 
sector. Similar strategic leveraging will help find additional 
opportunities to quickly bring quality homes to our Airmen.
    Consistent with our department's strategic planning 
guidance, our fiscal year 2009 request for housing investment 
will fully fund our program to eliminate all inadequate housing 
overseas. We are asking for $396 million that includes more 
than 2,100 housing units at eight overseas installations.
    Again, I would like to highlight that with the fiscal year 
2009 President's Budget and Congress' support in past budgets, 
the Air Force is now funded to eliminate all inadequate family 
housing. Thank you for your support.
    We must provide quality of life for our Airmen at their 
operating and training locations, as well as their homes. 
Maintaining proficiency of our battle-tested Airmen who have 
been in continuous combat and expeditionary operations for more 
than 17 years requires quality training environments.
    We have targeted a portion of our program to support this--
for example, the new security force operations and 
communications facilities in Burlington, Vermont will provide 
Air National Guardsmen in one of our most stressed career 
fields with modern facilities to meet training and daily 
operational requirements.
    To prepare for tomorrow's challenges, our President's 
Budget request consists of $491 million for 32 projects. Twelve 
of these continue to beddown the F-22 Raptor, our fifth 
generation air superiority fighter in Alaska and New Mexico.
    The other 20 projects support beddown of the F-35 Joint 
Strike Fighter, a robust aggressor squadron at Nellis Air Force 
Base, a joint air-ground center at Fort Hood to support our 
tactical air controllers embedded with the Army and other 
critical requirements.
    I want to again highlight this year that we remain focused 
on facility energy conservation, renewable energy and meeting 
or exceeding the President's new energy mandates. For the 
fourth year in a row, the Air Force is the number one purchaser 
of renewable energy in the federal government. Last year, we 
purchased 9.5 percent of our electrical power from renewable 
power sources.
    I am pleased to say that last December we finalized our 
partnership with the state and local governments and private 
industry to host North America's largest photovoltaic solar 
array, providing 14 megawatts of power at Nellis Air Force 
Base, Nevada.
    We have also institutionalized the latest green standards 
in facilities design and construction. All fiscal year 2009 Air 
Force-eligible MILCON projects will meet Leadership in Energy 
and Environmental Design, or LEED, silver certification 
criteria.
    The Air Force, like other services, also continues to 
experience significant challenges due to the construction 
climate, as we testified last year during the hearing. The 
producers price index for construction materials has risen 24 
percent since December 2003, while the consumer price index 
rose 14 percent. This is especially tough in a more competitive 
construction market, such as the Gulf Coast region and San 
Antonio, Texas.
    With our MILCON programming budgetary cycle, the DOD price 
models and inflation factors must forecast inflation three 
years before construction starts, often resulting in inflation 
factors falling short of actual inflation.
    In a 2002 to 2007 study, OSD and OMB inflation rates were 
one-third lower than the average of industry's most popular 
indices. Underestimating inflation rates in our projects drive 
reactive solicitation strategies, scope reduction and 
workarounds.
    To meet this challenge, the Services and OSD are in the 
process of submitting a report to Congress which provides 
recommendations on how to adjust and deal with the rising costs 
that will result in more accurate MILCON development and 
execution.
    Another example of Service partnership can be found in the 
Joint Construction Management Office in San Antonio, Texas, 
where we are leveraging the strength of the Army Corps of 
Engineers and our newly renamed Air Force Center for 
Engineering and Environment. This office will successfully 
execute hundreds of millions of dollars of BRAC MILCON in San 
Antonio.
    Finally, I want to reiterate that we support the Air Force 
priority to recapitalize and modernize its weapons systems. To 
produce efficiencies and free up funds, we began the most 
comprehensive transformation of civil engineering since the 
post-Cold War drawdown. We have already restructured our 
organizations from top to bottom, centralized all capital 
investment execution at the Air Force Center for Engineering 
and the Environment, we have rebalanced our manpower to include 
increases in high-demand Rapid Engineers Deployable Heavy 
Operational Repair Squadron Engineers (RED HORSE) and Explosive 
Ordnance Disposal (EOD) combat capability.
    Currently, we are reengineering our business process by 
enabling information technology around an industry-proven, 
portfolio-level asset management approach, one of the key 
lessons learned from our strategic partnership with industry 
leaders, such as IBM, CB Richard Ellis, Jones Lang LaSalle, 
Bank of America, ExxonMobil, Walt Disney and General Motors.
    We are developing new strategies to ensure limited funding 
is focused on the most critical portions of our physical 
plants. Through activity management, incentive-based demolition 
and consolidation programs, utilities privatization, enhanced-
use leasing, housing privatization, energy conservation and 
other initiatives, we are striving to maintain our warfighting 
platform.
    I am honored to be here for my second hearing cycle as the 
Air Force Civil Engineer, and I am proud to be part of the Air 
Force team, ensuring air dominance for the U.S. and our allies.
    I look forward to your questions.
    Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, both, for your opening statements 
and also for your lifetime of service to the Air Force.

                           INADEQUATE HOUSING

    Let me begin, and perhaps I could direct this to you, 
General Eulberg.
    General Moseley, obviously, at any point, if you would care 
to comment, I would welcome that as well.
    I think one of the untold success stories for the last 
decade, between the Bush administration and the Clinton 
administration, both supporting the public-private housing 
program. We really have made tremendous progress in providing 
the kind of quality housing for our service men and women and 
their families that they should have had decades ago. And I am 
proud of this subcommittee's bipartisan effort and role in that 
public-private approach, which is a new approach to providing 
quality housing for military families.
    But each year, I want to ask each service how many are 
still living, whether married or single, are still living in 
housing or barracks that don't meet DOD standards.
    For the record, General Eulberg, do you know offhand, as of 
today, not how many contracts are in place, but how many 
people, as of tonight, in the Air Force will be living in 
either barracks or in family housing that don't meet basic DOD 
housing standards?
    General Eulberg. Yes, sir. As we testified last year, we 
had 9,400 families in inadequate homes, and this year, we have 
4,000 families in inadequate homes. And with the fiscal year 
2009 President's budget request, we will eliminate all 
inadequate homes, and this year's focus is on the overseas.
    So as you mentioned, Mr. Chairman, it has been a success 
story in leveraging our investments. And we will have built out 
all MILCON and family housing privatization by the year 2013. 
So Airmen, regardless of where they are stationed around the 
world, will have homes that meet today's standards.
    Mr. Edwards. Great. And I salute you for that progress.
    What are the numbers in terms of single service men and 
women living in barracks? Would you have that?
    General Eulberg. Yes, sir. Through fiscal year 2009, we 
will fund projects to eliminate inadequate dorms, which include 
construction of permanent party and pipeline deficits. We have 
eliminated all central latrine dorms and all permanent party 
Airmen are currently living in private rooms. We will be 
addressing our sole remaining pipeline deficit dorm in fiscal 
year 2010.
    According to the current dorm master plan, approximately 
2,700 Airmen live in inadequate dorm rooms. I would like to 
highlight that 2,300 are currently funded in fiscal year 2009, 
so that remains the delta there. The 400 is the pipeline 
dormitory at Goodfellow Air Force Base, Texas, which we are 
going to be addressing in the fiscal year 2010 President's 
budget request.
    We will continue to replace and renovate existing 
dormitories at the end of their useful life, so you will 
continue to see requests from the Air Force as we recapitalize 
our dormitory program as the facilities continue to age. And 
that will be articulated in our dorm master plan.
    General Moseley. Chairman, if I could reinforce, thank you 
for your personal touch on this, but thanks to the committee 
also for helping us get at this for our youngest Airmen. To be 
able to get folks out of those older dorms and into the newer 
dorms, especially in overseas locations, is not just a quality 
of life issue, it is a safety issue. It is also a discipline 
issue, and it also lets the first Sergeant and the squadron 
commanders watch over our youngest and most inexperienced 
folks.
    And, certainly, because of your personal touch in this 
committee, we have been able to get to those numbers. So we are 
down to 400.
    Mr. Edwards. And that is tremendous progress, and I salute 
you, both, for your leadership and focus on that.
    Let me ask just one follow-up question. It is not an Air 
Force policy, it used to be last year, but as I now understand 
it, the definition of adequate housing is a DOD policy, and it 
doesn't seem to pass the common sense test to me.
    Please correct me if I am wrong. The Department of Defense 
says an Air Force family is living in an adequate house if the 
Air Force would just spend $50,000 to fix the leaky roof, 
replace the inoperable washing machine and dryer, fix the 
windows that are broken and straighten up the floors that are 
warped, regardless of whether the Air Force ever spent one dime 
on that home. Is that technically the definition that you are 
operating under, according to DOD standards? Is that family 
with the leaky room that hadn't been fixed defined as living in 
adequate housing?
    General Eulberg. Sir, we do not apply that definition to 
adequacy standards in our housing. The United States Air Force 
uses a housing community profile condition process where we 
send out--every three years, we send out teams to all of our 
bases to make an assessment of our homes. And these conditions 
score one through five, five being a new home.
    We make an assessment in 14 different categories. We look 
at the size of the home, the functional layout of the home, if 
it is meeting current standards that you would provide in the 
private sector. And we go through all the utility systems, 
playgrounds, tot lots, 14 different categories, and we come up 
with a condition score.
    And if the condition score is 3.75 or less, then the house 
is deemed inadequate and needs investment, regardless of the 
amount, Mr. Chairman. So that is how we do it.
    Mr. Edwards. I salute you for that.
    And it was several years ago the threshold DOD was using 
was $15,000, and they raised it to $50,000. It could look like 
magically overnight everybody got adequate housing when, in 
fact, they just raised the amount of money needed to bring it 
up to standards, which moved from $15,000 to $50,000. So I 
salute you for the standard that you are using.
    Mr. Wamp.
    Mr. Wamp. Thank you, Mr. Chairman.
    I am going to avoid the temptation to talk a lot, because 
it is really special to think about even my civilian experience 
with the Air Force of having lived on base for 3 months as a 
13-year-old with my uncle and my aunt at Howard Air Force Base 
in the Panama Canal zone and then just through the years I 
could reminisce, and I am going to resist that temptation.
    But I do want to say that 3 weeks ago today, particularly 
for you, General Eulberg, I was privileged to deliver the 
keynote at the United States Air Force Academy on character 
day, and they had needs there, because the service academy is 
the youngest, and those buildings were built 50 years ago, and 
most of them are still standing.
    I saw that firsthand while I was there, and I want to raise 
that issue, because it is just one inspirational place. And for 
2,800 cadets to be in the auditorium, as I shared with them and 
listened to them and was inspired by them, it is a sight to 
see. It was a top three event in my 14 years of service for me, 
personally, and I have told everyone of that experience.

                      BASE REALIGNMENT AND CLOSURE

    General Moseley, I have asked all the chiefs in the 
services about BRAC because of all the good things that were 
done over the last couple of years by the new majority relative 
to MILCON and our veterans' needs. The one thing that didn't 
happen fully was BRAC. There is a shortfall delta between last 
year's budget request and the actual year-end bill. How does 
that affect you? Do you just postpone things? The 2011 deadline 
is going to be hard to meet. How do you adapt?
    General Moseley. Sir, it is hard to adapt. I would request 
to the committee to take a hard look at restoring that funding 
so we could execute the legislation in the BRAC planning. 
Delaying funding till the last minute puts us in a bit of a 
bind, because, as you know, sir, it is hard to get things on 
contract at the end, and things cost more as we go further. So 
the ability to execute and the ability to implement, we are 
hamstrung a bit if we can't get that funding and can't execute.
    I suspect my other Service Chief brothers said the same 
thing, because we talk about this quite a bit, about our 
ability to be able to pull this together and execute this in 
the timeline that we are asked to.
    Mr. Wamp. And I think we just need to hear it and know what 
the challenges are we face, because my hat is off to this 
committee for what they have done in the past for all these 
needs, but we can put it all into the prism as we look forward.

                        RED HORSE AND PRIME BEEF

    Another thing, I thought back to is when I traveled with 
the speaker of the House in 1999 through Alaska, and headed 
west. We were briefed there on Bosnia and the global operations 
at that time. And, boy, the Air Force has changed in intent 
because RED HORSE and Prime BEEF are very different from what 
we saw the Air Force's lead role in 1999 from Elmendorf.
    So just tell us a little bit more about RED HORSE and Prime 
BEEF and these people on the ground, in the Middle East, on 
behalf of the Air Force and our combined force.
    General Moseley. Sir, let me tell you, my perspective is 
not only as service chief but my perspective as having 
commanded that operation in the Middle East for the two 
campaigns.
    RED HORSE, for us, and Prime Base Engineer Emergency Force 
(BEEF), these are heroes on so many levels, and they are 
fundamental to the operation of an expeditionary field. They 
not only can build an airfield but they can operate an 
airfield, they can renew and restore airfields. We can capture 
airfields, and they can bring them up to speed. They are 
professionals in every way, and they live in the same culture 
for us that the United States Naval Construction Battalions 
(SEABEES) have for the Navy. I mean, this is our combat 
expeditionary engineering effort, and we do this as a total 
force, with a mix of Guard, Reserve and active.
    And so, I will tell you, some of my fondest memories are 
the first campaign in Afghanistan. We spent time with a 
Pennsylvania engineering unit that had been there for six 
months. They were asking to stay another six months to finish 
the projects that they had started because of the pride that 
they had in what they did but also the contribution.
    So, sir, this is a big deal for us. We take a lot of pride 
in those folks. They wear a different hat. They wear a red hat, 
and over time people have asked, ``Do we not let them wear a 
different piece of a uniform,'' but I have said over time they 
should wear something unique because of who they are and what 
they do. So this is a serious effort for us.
    General Eulberg is a civil engineer. Let me let him finish.
    General Eulberg. Well, sir, I really appreciate the 
comments and General Moseley's confidence in his engineering 
force that the Air Force has. I get all goose bumpy just 
thinking about it.
    One of the successes we have is training our young men and 
women in Prime BEEF and RED HORSE to go do these missions 
around the world. Both Active, Guard and Reserve engineers come 
together and seamlessly form a team to be able to accomplish 
what is needed in the combat zone. So that is a real tribute to 
the training program that we have established over the years 
between the total force, as well as with our joint partners.
    As you go forward, we have RED HORSE teams that are made up 
of all three parts of the total force, and we are very proud of 
what they do.
    I would like to highlight that there are other key elements 
of Air Force engineering capability that are present in the 
theater and support the combatant commander. The Air Force is 
currently executing $4.6 billion of reconstruction in Iraq by 
the Air Force Center for Engineering and the Environment. We 
have constructed or repaired over 4,000 facilities in 
reconstructing Iraq, primarily in the justice and security 
sector, and have been very successful.
    There have been a number of audits and reports done, and I 
am proud to say that because of our business model, we have a 
very small footprint, we rely very heavily on the Iraqi 
workforce. Ninety-one percent of our construction projects 
utilize labor from Iraqi citizens. Seventy-two percent of our 
professional workforce over there are Iraqis as well.
    So we have a very small footprint, and our business model 
has been extremely successful in the United States Central 
Command Area of Responsibility (AOR), in supporting our 
Nation's objectives.
    Lastly, I would like to say that, as General Moseley 
mentioned at the very beginning, our installations are 
warfighting platforms. We have developed, over the years, great 
master planners, those skill sets that we bring to the fight 
every day in the AOR. The combatant commander utilizes Air 
Force engineers to plan these joint warfighting platforms, like 
Balad Air Base, Iraq where we do master planning and layouts to 
maximize both security as well as the mission capability of the 
various units on the installation.
    So that is a third dimension that is often overlooked, but 
it produces combat power at the end of the day.
    So I am proud to be associated with the men and women that 
serve over there in all capacities.
    General Moseley. Congressman Wamp, I will give you a frame 
of reference. In my time as Commander of Central Command Air 
Forces, we built or modified 51 airfields all through 
Afghanistan and Iraq. At its peak, in Operation Iraqi Freedom, 
we were operating out of 38 airfields at once. And those 51 
airfields and peaking at 38 couldn't have been done without RED 
HORSE and Prime BEEF. They were the ones that go on and build 
the airfield up. They put the runway down and set up the 
facilities, and operated the base.
    Sir, that Pennsylvania unit, one afternoon while I was 
talking to them, the ambient air temperature at that location 
was 140 degrees, and these guys were telling me--I grew up in a 
construction family, so these guys were telling me they can't 
lay the hot mix in the day because it won't cure. They have got 
to wait and lay it late in the afternoon and let it cure all 
night. And so they were operating 24 hours a day on top of 
metal buildings, stringing wire and laying hot mix at night so 
it could cure when it was 140 degrees outside.
    So these are heroes.
    Mr. Wamp. Mr. Chairman, I will wait till the next round 
since Mr. Crenshaw is here.
    Mr. Edwards. Okay. And this is a 15-minute vote, and I 
would ask staff to just let us know when we have 3 minutes left 
to go.
    Mr. Crenshaw.

                   DECREASE IN MILITARY CONSTRUCTION

    Mr. Crenshaw. Thank you, Mr. Chairman.
    Thank you. I apologize for being late. There are a lot of 
meetings going on today.
    But one question I had was about just the military 
construction part and really as it applies to the Reserve, Air 
National Guard, things like that. I noticed there is less 
request made for military construction, and I didn't know--I 
assume, in part, that is due to, kind of, the war against 
terror. With the Army and the Marines, there is a lot of budget 
pressure there.
    So, in general, are you asking for less military 
construction money because there are less requirements or is 
there some budget pressure that you might have some 
requirements that really just because of budget constraints, 
they're going to go unfunded?
    General Moseley. Congressman, that is a great question.
    I would say that the business that we are in, as Service 
Chiefs at our Services now, are balancing competing 
requirements and competing demands. And these are budgetary 
issues and funding issues, and so we are making some hard 
choices relative to the four major areas that we have, which 
are personnel, infrastructure and MILCON, operations and 
maintenance, and investment, and to be able to balance that in 
an affordability sense. We are making some hard choices here.
    As the 18th Chief of Staff, I am 100 percent committed to 
the Guard and Reserve and the Active Duty as a total force and 
the ability to deal with this global war on terrorism and 
tomorrow's challenges as a total force is the only way I see us 
being successful in the future. So I am a big fan of the 
National Guard and Reserve, and we include them in everything 
that we do as far as building the budget and building the set 
of priorities.
    So, sir, we are very sensitive to military construction 
projects, whether it is active, Guard or Reserve.
    Mr. Crenshaw. Well, for instance, I know in my district 
there is an Air National Guard wing, and under the BRAC process 
they ended up with five new aircraft, but there wasn't any 
military construction money in BRAC. And, of course, every year 
they tell me, ``We need some money because we got the new 
aircraft. We need some military construction.''
    So, in general, how is it that the BRAC requirements, in 
terms of military construction, how does that work? And are 
there some requirements that aren't being funded like that just 
because of budget constraints?
    General Moseley. Sir, I would say there are probably a lot 
of requirements out there that are not being funded because of 
affordability issues. For specific details, I will let the 
civil engineer talk about that, but we try not to let something 
go uncovered.
    We are very serious about the aviation units and about the 
requirements to operate airplanes.
    And, sir, I will tell you, as we mentioned before, to be 
able to get the BRAC funding restored is a big deal for us. To 
be able to execute that and to get all of this done by 2011 is 
a serious challenge.
    General Eulberg. Yes, sir. And I would just like to add 
on--whether it be BRAC or the traditional MILCON funding, as 
you mentioned, there is not enough money to invest in our 
infrastructure as we would like to because of competing 
priorities.
    And whenever we go through the BRAC process to determine 
what the requirements are, as you know, there are a lot of 
recommendations under BRAC, but like the normal budgeting 
process, there is a vetting process where you look at every 
weapons system move, regardless of the base, and those 
requirements have to be validated.
    And I would like to say, there is always the push between 
what is a new requirement based on mission movement and what is 
an existing deficiency. And that debate goes on in all 
Services.
    And so without specific details on the type of project you 
are talking about, sir, I will just tell you that it is a total 
force discussion, whether it be BRAC funding or MILCON, and we 
prioritize within available resources.
    Mr. Crenshaw. Does it affect the daily operations, do you 
think, of--I mean, like, there is never enough money, I 
understand that, and there are certain things that are more 
deficient than the others, but would you say that the lack of 
funding, does it impact the day-to-day operations in any of 
these projects?
    And, Mr. Chairman, maybe one part is, I don't know if it is 
appropriate, that some of the--if there is not enough money and 
there are some requirements that aren't being funded, maybe do 
we have a list of what those might be or should we ask them 
just to let us know that there are some--that they are asking 
for so much but there are some things that actually are 
required but because of budget constraints they really don't 
ask for them. I don't know if that would be helpful for us.
    Mr. Edwards. That would be appropriate to ask.
    General Moseley. Congressman, we do, at the request of the 
Congress, forward an unfunded requirements list every year that 
is parallel to the budget. And in that unfunded requirements 
list, we prioritize that with the initiatives to win today's 
fight, take care of our people, and prepare for Tomorrow's 
Challenges. And in that, I believe, is about $800 million worth 
of MILCON projects that are unfunded.
    Mr. Crenshaw. Thank you.
    Thank you, Mr. Chairman.

                              BRAC FUNDING

    Mr. Edwards. Thank you. How much time do we have before the 
vote finishes? Five minutes?
    Let me just jump in real quickly. I want to thank Mr. Wamp 
and Mr. Crenshaw for bringing up the BRAC issue. Clearly, we 
have to address that.
    In calendar year 2007, we had, as a result of taking money 
out of this subcommittee's allocation to fund increases for 
veterans' health care, including a lot of the troops coming 
back from Iraq and Afghanistan, we underfunded BRAC with the 
assumption we would replace that money when we got to the Iraq 
war supplemental bill. We replaced 100 percent of the 
president's request.
    This past year, we did the same thing to fund up additional 
MILCON requests and veterans' health care programs. We took 
$939 million out of the president's request for BRAC. The BRAC 
fund that we approved was a significant increase over the 
previous year. It was $939 million short of the president's 
request.
    My hope, again, is that we can come close to replacing 
that, dollar for dollar, just as we did last year.
    General Eulberg, for the record, do you have the Air 
Force's allocation, the shortfall--that $939 million, how much 
of that--if that were to be fully funded, how much of that 
would go to the Air Force?
    General Eulberg. Yes, sir. If it was fully funded $235 
million of the reduction is Air Force, and of that $235 
million, $129 million is in direct BRAC MILCON, which going 
back to the earlier question on what is the impact, because it 
delays our ability to do things like move the mission and 
related equipment and personnel from Kulis Air National Guard 
Base to Elmendorf Air Force Base, Alaska, it affects the Joint 
Strike Fighter at Eglin Air Force Base, Florida and a number of 
other quality of life facilities at Shaw Air Force Base, South 
Carolina. So there is a direct impact to our personnel as well 
as our missions as a result of that.
    Mr. Edwards. Could I ask you--you are a step ahead of me--
could I ask you sometime in the next week, General Eulberg, to 
send to the committee a written list of some of the 
complications if you don't get BRAC funding? I think it would 
be important. Because sometimes I know you can't move personnel 
from one installation to another in the BRAC process until you 
have new housing and facilities, so there is a backlog that is 
created.
    [The information follows:]

    The $939 million Omnibus reduction to the Department of Defense 
BRAC 2005 account must be restored. If left unfunded, the reduction 
will result in the Air Force receiving $235 million less than required 
in Fiscal Year 2008. The Air Force will experience delays and 
disruptions in construction and the movement of our people and assets. 
Delays will also impact our ability to meet mandated completion 
deadlines.
    To implement BRAC 2005 and the Commission's recommendations, the 
Air Force uses a continuous process to identify, analyze, refine, 
coordinate, and validate requirements. Although the Air Force has not 
cut any projects due to this reduction, if left unfunded the Air Force 
will need to defer BRAC military construction projects, operations and 
maintenance requirements, and planning and design. Those deferments are 
based on today's planned award dates. The Air Force may further adjust 
its strategy and the deferral list in order to maintain the needed 
flexibility to execute its program.
    Our initial analysis of the reduction indicates the Air Force will 
be required to accept risk in the following areas:
          --Military Construction: Will defer 21 projects, valued at 
        $124.2 million (15% of total BRAC military construction, 
        including a housing project valued at $9 million. All deferred 
        projects have an estimated award date after June 1, 2008.
          --Planning and Design (P&D): Will defer $5.2 million in 
        requirements (28% of total P&D).
          --Operations and Maintenance (O&M): Will defer $96.8 million 
        in requirements (36% of total O&M).
    If the reduction is restored sometime during this fiscal year, we 
will figure out a way to get back on track. If it is permanently lost, 
we will be hard broke; delays in accomplishing the Fiscal Year 2008 
requirements will have ripple effects impacting mission readiness and 
our ability to meet the mandated BRAC 2005 completion deadline of 
September 2011.

    Let me stop there. We have less than 3 minutes left.
    To my colleagues, we are going to have a journal vote after 
this first vote.
    Mr. Wamp. Mr. Chairman, I will come back and I have about 
three more questions. So as soon as we vote that second time, 
you and I will come and finish.
    Mr. Edwards. Sounds good.
    [Recess.]
    Mr. Edwards. I would like to call the committee back to 
order.
    Let me just take a couple more minutes, and I think that 
will take up my 5 minutes on this round.

                          INFLATION ASSUMPTION

    On the inflation factor issue, I have been concerned that 
it seemed the policy in the past that OMB, some genius at OMB 
decided that construction inflation was going to be 2.43 
percent a year, and then each service has to develop for each 
year of MILCON budgets based on that assumption.
    General Eulberg, you referenced the inflation issue. 
Clearly, we all understand, and you quantified it, but the 
difficulty we are facing with construction inflation, whether 
it is for roads, military construction or VA facilities. Are 
you allowed to--as you develop your future years defense plan 
for MILCON, are you allowed to build in what you think within 
the Air Force is--assumption or are you given a guideline by 
OMB that you can only assume 2.4 or some other ridiculously low 
number that doesn't pass----
    General Eulberg. Sir, we are given the information we can 
use in the out-years, and that is exactly what the TriService 
study will report on.
    I hope we are successful in convincing OSD and OMB and if 
required Congress, for that kind of latitude, because, 
ultimately, we have to either cut scope, change our acquisition 
strategies, do less quality construction, which becomes more 
and more important when you have to start cutting costs. We 
begin to trade off things like sustainment, LEED design 
criteria that will help to lower the life cycle costs of the 
project overall. And so we really save a little money upfront, 
and it costs us a lot more over the long haul, because we want 
to make sure those features are built into our buildings.
    And that is why this year you will see an additional line 
on our DD Form 1391 MILCON documentation. We have added a line 
item of two percent for sustainability features in every one of 
our buildings, as I alluded to in my opening statement.
    Why? Because we want it formally part of the project so it 
is not traded off due to cost pressures, because that is good, 
long life cycle asset management for the United States 
taxpayer.
    Mr. Edwards. I hope we can work together to change the 
process, because we have just got to have realistic data to 
allow you to make good decisions rather than assuming.
    What is the assumed number right now that comes out of OMB?
    General Eulberg. Sir, I will have to give you for the 
record.
    Mr. Edwards. The last time I saw it, it was 2.43 percent or 
something.
    General Eulberg. Sir, I think 2.3 percent, but--2.2 to 2.4 
percent.
    Mr. Edwards. Okay. Thank you very much.
    [The information follows:]

    The Price Escalation Index (annual rates in percentage) for 
military construction and operations and maintenance programs for 
Fiscal Years 2009-2013 is a straight line 2.0 percent.

    Mr. Wamp.
    Mr. Wamp. Thank you, Mr. Chairman.

                              JOINT BASING

    General Moseley, another privilege I have had a couple of 
times, including 2 months ago, was going through Hickam, and 
that is a good example of kind of the woes of joint basing. I 
want you to explain the Air Force's concern, which is a 
legitimate concern, and is different from the other Services, 
on the potentiality of joint basing and what it can do to 
places where your base is your operational command in a 
conflict.
    General Moseley. Sir, thanks for that question.
    Let me go back. The staff back here said that they felt 
like $100 million is our unfunded. What we said was $12 
million.
    Sir, we are looking to make joint basing a raging success. 
It is rich for us and the ability to look at saving on a joint 
base offers us a chance to do some things that we haven't been 
able to do before.
    So I am a big supporter of joint basing, and I am a big 
supporter of the initiatives that we worked very hard coming 
out of BRAC.
    There are 12 joint bases and the Air Force is the lead 
Service for six of those bases. So half of this effort comes to 
us, and so you know we take this very seriously.
    Sir, we have had a series of continual dialogues on joint 
basing and how do we implement it and how do we execute it, and 
I am going to defer in a minute to General Eulberg who has been 
the guy doing that very work.
    Our desires in this process is to ensure that we streamline 
all understandings of mission requirements and that we 
streamline all understandings of the ability to execute a 
mission, whether that is maritime, land, air, space or joint, 
and that we understand each other's knots in our ropes as far 
as we go through this process about operating port facilities, 
operating airfields, and operating training ranges.
    And we have gone through a series of tabletop exercises so 
we can much better understand each of these in a joint setting. 
And we are to the point now where we are looking at memorandums 
of agreement at each of the bases to protect those imperatives 
and the ability to execute.
    There are still some issues out there that we are working 
through, but, for the most part, I am in full support of joint 
basing and in full support of how we get at this. The concerns 
that we have still revolve around execution of command and 
those tabletop exercises and those memorandums of agreement 
will take us a long way to addressing that.
    Mr. Chairman, let me turn it over to our expert who has 
been doing that.
    General Eulberg. Sir, as General Moseley mentioned, we have 
been about this for a couple of years, meeting with OSD as well 
as the other Services at the 12 joint bases. It has been a 
challenge because of how we do installation support between the 
various Services are different, and I will just give you one 
example which underscores what General Moseley was talking 
about, in that as we go forward with joint basing, the Air 
Force has always been particularly concerned about it for a 
couple of reasons.
    One, they are our warfighting platforms. We launch and 
recover aircraft out of our bases. We also deploy from those 
airbases, so we are very concerned about our embedded military 
at the joint bases.
    The engineers take care of our military forces, so . . . we 
are very concerned and need to get down to the details through 
the memorandum of agreements (MOAs). We must ensure we have the 
ability and commanders have the ability to organize, train, and 
equip our military members.
    Next challenge, after we work our way through the MOAs, we 
are funded a little bit differently. Installation support for 
the other Services is sometimes coded with mission dollars, and 
so we have to work our way through that as well. At the end of 
the day, a joint base, regardless of who the lead Service is, 
must try to achieve the highest standard for that capability.
    When Navy, Army, Air Force, or Marine families, or our 
young troops go to a fitness center we must strive to achieve 
the highest standard that any of the services have. And we are 
working our way through that as we speak, because, ultimately, 
we want joint bases to be the places where our young men and 
women want to be stationed and preserve our capability.
    The last thing that I would like to highlight on the 
mission side that we are working with OSD and the other 
Services on is, again, they are our warfighting platform. 
Airfield operations is a core competency of the United States 
Air Force. We do not believe that is an installation support 
function. It is warfighting for the United States Air Force, 
and we are working that hard with OSD now.
    But I believe we will--in fact, I know we will--be 
successful.

                             CYBER COMMAND

    Mr. Wamp. General Moseley, earlier you mentioned one of 
your primary responsibilities, cyber command. What facilities 
or infrastructure needs do you have with the cyber command 
mandate?
    General Moseley. Congressman, that is a great question. I 
can answer some of it but not all of it.
    We have a provisional command that we are looking as the 
leading edge of trying to get our arms around this new domain. 
We have had several discussions in the joint world as well as 
amongst ourselves about how best to provide forces for the U.S. 
and use the current unified command plan to size the forces and 
execute in that domain.
    So we are in the process of deciding and determining and 
fielding how we recruit and train both Non-Commissioned 
Officers (NCOs) and officers to live in that world and operate 
and how to develop squadrons, groups and wings to be able to 
present forces 24 hours a day, seven days a week, whether it is 
in place or virtual, and to be able to operate in that domain.
    Our provisional Cyberspace command stood up at Barksdale 
Air Force Base, Louisiana. We have a major general in charge of 
it, and we are looking to stand up a permanent command later.
    Sir, we have had a variety of headquarters locations 
offered and offerings to conduct studies and analysis, plus the 
environmental assessments at each of those locations.
    And, sir, I think it is 18 states who have offered 
opportunities to do that, and so we want to get this right, and 
we want to understand the pluses and minuses and it is equally 
important to understand what synergies--institutions as well as 
civilian professional institutions--that are out there living 
in these domains.
    So it is not just about an Air Force headquarters, it is 
about how do you derive the fully synergy of what is possible 
in this new warfighting domain?
    And so going through the 18 states' offerings will probably 
take us through the summer and into the fall before we have 
some closure.
    So that is the part that I don't know yet, sir.
    Mr. Wamp. Mr. Chairman, I just have one question left, and 
I will hold since Mr. Bishop has shown up, if you need me to 
wait for another round.
    Mr. Edwards. It is your choice. Okay.
    Mr. Bishop.

                          MOODY AIR FORCE BASE

    Mr. Bishop. Thank you very much. I just have one area of 
questioning related to family housing.
    You know that we have had several disruptions in the 
housing construction at Moody Air Force Base, particularly when 
the prime contractor ran into difficulties and financial 
problems. Can you give us an update on where the project is now 
and whether a new prime has been identified? And what is the 
projected timetable for that project? And how successful has 
Air Force been in utilizing local contractors as subs? And the 
final question is, have the subs that were working for the 
first prime been able to get paid?
    General Moseley. Sir, I am going to tell you from our 
perspective what I think, then I am going to let the civil 
engineer fill in the details.
    From our perspective, it has taken way too long, and we 
have got people that are disadvantaged from not being able to 
move into housing. To me, this is an issue between contractors 
that have not been able to deliver, and I understand the 
oddities of the court system and there is litigation that is 
going on, which is taking time, which is the way litigation 
works, but it is also time that we don't have people living in 
houses that are new, and we don't have people that are able to 
move into houses at four different locations.
    I can't get into the litigation business, because it is not 
my job, other than to express frustration that it has taken way 
too long to get housing built and to get people into quality 
homes under this template that we have got now.
    So let me get out of the way and let the civil engineer 
provide the specific details for you.
    General Eulberg. Sir, as you alluded to, and General 
Moseley mentioned, privatization of our family housing has been 
overall very, very successful across the Air Force. We are 
having issues with American Eagle at four bases where they are 
the project owners at Hanscom, Patrick, Little Rock and Moody 
Air Force Bases.
    Where we are at right now is, obviously, the contractor has 
failed to perform. They fell behind, as you highlighted, way 
behind. We have gone through a number of court actions. The 
Moody project is now in Georgia state receivership.
    The current project owner is American Eagle, which is made 
up of Carabetta as well as Shaw, and those two companies are 
right now in discussions with a potential buyer of the four-
base deal. They are meeting and hope to have a letter of intent 
in the next 30 days and a sale by this summer, about the July 
timeframe. They are working through all those details now, and 
we hope that they are successful.
    And for purposes of this discussion, we are very optimistic 
that we will be able to work through a deal. And, again, that 
would be Shaw-Carabetta with the bondholders as well as the 
United States Air Force are working together to see if we can't 
get a new project owner on board to be successful.
    As you highlighted, there are subcontractor liens that are 
outstanding. To date, $233,000 in liens have been paid for 
subcontracts at Moody Air Force Base, Georgia.
    Mr. Bishop. How much are unpaid?
    General Eulberg. There is a total of $7.1 million in unpaid 
subcontractor liens. They have filed liens and claims, and that 
is going through the legal process for adjudication at this 
time.
    Mr. Bishop. You have already paid 200 plus thousand, but 
you have got several million outstanding. I receive a lot of 
communication about that situation, particularly from folks 
that are suffering from lack of payment. And, of course, my 
hands are tied, I guess, like yours are, but I appreciate your 
updating us on the situation.
    General Eulberg. Yes, sir.
    General Moseley. Congressman, we are equally frustrated 
that we can't move people into those houses. That is a nice 
looking community down there, and it is a community that has no 
one living in those houses. It is very frustrating to know that 
we are going to get quality and full enhancements in military 
family housing that meets our criteria and we can't get at it 
at those four locations because of what is happening at this 
time.
    Mr. Bishop. Are you getting any details as to what happened 
with the company? Do you have any information on that, what 
happened to American Eagle that caused them to get into these 
troubles?
    General Eulberg. Yes, sir. Well, there are a number of 
issues, especially across the board. Not only did we have four 
bases involved, which were four separate source selection 
authorities, four separate source selection committees that 
went through the process, but we would like to highlight that 
the Army and Navy also had projects with American Eagle and 
experienced exactly the same problem.
    American Eagle failed to deliver and manage these projects 
appropriately. The bondholders were notified of problems. These 
projects began in October of 2003 and 2004, and those were the 
dates of the privatization contracts that were let at all four 
installations.
    Fundamentally, American Eagle fell behind in their 
construction schedule; therefore, they fell behind in the Basic 
Allowance for Housing (BAH) payments that we would be making to 
them. And so it became non-sustainable, if you will, and 
bondholders were notified. Part of the issue was the 
bondholders also did not react when the Air Force notified 
them.
    So there are a number of lessons learned along the way in 
this process, but, fundamentally, American Eagle was unable to 
manage a project of this size.
    Mr. Bishop. Had they managed projects for the Air Force or 
for the other services prior to these particular contracts or 
was this the first impression with this particular company?
    General Eulberg. In terms of housing, sir?
    Mr. Bishop. Yes.
    General Eulberg. Yes, this is the first.
    Mr. Bishop. Had they done some other contracts?
    General Eulberg. They may have done other government work. 
I don't know what that is, but it was not associated with the 
housing construction for the United States Air Force.
    Mr. Bishop. Thank you, sir.
    Mr. Edwards. Do you have any way of predicting, since it is 
in the legal process, how long this will take to resolve and 
get the families in the houses?
    General Eulberg. Yes, sir. We predict that if we get a 
letter of intent executed by American Eagle and the new project 
owner within the next 30 days, we will have a sale agreement by 
July of this year, to include new financing. We will 
restructure each one of the housing requirements at each one of 
the bases and then go forward. And we will be able to move on. 
This has been a very complex problem and project, but we are 
optimistic that we will have this behind us by this summer.
    Mr. Edwards. Thank you.

                        CHILD CARE WAITING LIST

    Could I ask you to submit, Chief, for writing to the 
committee what the waiting list totals are at various 
installations of the Air Force for daycare and whether there 
are some unfunded needs for youth activity centers as well? And 
I think we will ask this question each year just to see if the 
waiting list for daycare is getting longer or shorter. We will 
meet with the top non-commissioned officers of the service's 
daycare. It is always high on the list of needs.
    General Eulberg. Yes, sir.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2754C.066
    
    [GRAPHIC] [TIFF OMITTED] T2754C.067
    
    [GRAPHIC] [TIFF OMITTED] T2754C.068
    
    Mr. Edwards. I am proud of what this subcommittee did 
together last year to initiate $130 million of unrequested 
daycare, unrequested from OMB for daycare centers, much 
requested from our military leaders. I applaud the 
administration this year to have a huge increase for daycare 
funding.
    But if we could just get those numbers, that would be 
helpful.
    General Eulberg. Yes, sir.

                             INFRASTRUCTURE

    Mr. Edwards. General Moseley, in your testimony--and I 
appreciate your honesty--you said, ``The Air Force has taken 
risks in infrastructure.'' It goes back to what you have 
already said about you have got to make tough choices, given 
the budget and time of war, the needs for new procurement 
programs.
    Could you take a couple of minutes to further explain what 
you mean when you say the Air Force is taking risks in 
infrastructure?
    General Moseley. Sir, as you know, we have four kinds of 
money: Personnel money, infrastructure and MILCON money, O&M 
money, and investment. As we work with OSD and the other 
Services on the affordability issues of taking care of our 
people, winning today's fight and preparing for tomorrow's 
challenges, we are having to make hard choices across each of 
those portfolios.
    In the previous President's Budget request, as we received 
our total obligation authority, to be able to pay that bill, we 
took additional risk in infrastructure MILCON, we took some 
additional risk in O&M, we tried to hold our investment 
accounts as constant as we could, and that is where we ended 
up, force shaping 40,000 personnel authorizations off the 
books.
    And so I think we need to increase the floor--and this is 
our issue, not your committee's, and are looking now at 330,000 
instead of going all the way down to 316,000. But that is an 
example of having to make the trades with the obligational 
authority that we have.
    Sir, I will give you a MILCON example. We accelerated the 
F-22 into the Pacific to meet United States Pacific Command's 
demands and requirements for deterrence and dissuasion. We have 
three squadrons appropriated--two to go to Elmendorf Air Force 
Base, Alaska and one to go to Hickam Air Force Base, Hawaii. 
And so we have got the airplanes there at Elmendorf now, but we 
are a bit behind on MILCON to the airplane.
    So to be able to get the operational piece of this--the 
aircraft--into the theater to do the deterrence and dissuasion 
missions, we have taken a bit of risk in MILCON, and we are a 
bit behind.
    And we have that in our Fiscal Year 2009 unfunded 
requirements list in order to catch up.
    As we beddown the airplane at Holloman Air Force Base, New 
Mexico, we can operate immediately with Fort Bliss, Texas and 
the brigade combat teams that are there, plus the White Sands 
Missile Range and all of that wonderful airspace. We are trying 
to catch up with the MILCON again, because these aircraft are 
very capable, and to get them at the right place at the right 
time, we are lagging a little bit in the MILCON.
    So those are two good examples of risk.
    Mr. Edwards. Okay. And on your unfunded MILCON list, the 
$800 million list, are those in descending order of priority? 
Do you rank them? If you could fund one project, what would it 
be? If you could fund 10, what would they be?
    General Eulberg. They are not.
    And I have no idea whether we can find any additional money 
for the fiscal year 2009 President's Budget request, but if we 
did, we will sit down with your staff and go through what would 
be the order of priorities.
    General Moseley. Yes, sir.
    General Eulberg. Yes, sir.
    General Moseley. And that acceptance of risk touches all of 
our components--Active, Guard and Reserve--to be able to fight 
today's fight, to maintain our operation and maintenance 
accounts, our flying hours and our training ranges and to be 
able to pay for our people, because not only is it the right 
thing to do to pay people who come to work every day but it is 
the law. And then the investment accounts, because we have got 
such an aging inventory, we have to somehow address that. Those 
are the tradeoffs that we are dealing with.
    Mr. Edwards. Okay. Thank you for that.
    Mr. Wamp.
    Mr. Wamp. General Moseley, as we close, let me say about 
your comment on your actions, that I am glad that Sam Houston 
and Davy Crockett understood Texans when they got out there.
    Mr. Edwards. I am glad we turned them into heroes.
    Mr. Wamp. Yes. They were heroes when they left----
    [Laughter.]
    Mr. Wamp. We do have that in common.

                             PRIVATE SECTOR

    General Eulberg, this is kind of a softball, but I am 
actually interested in this. It seems to me that many countries 
around the world appreciate our free enterprise system 
sometimes more than we do. It also seems like the United States 
Air Force appreciates it, and through this core of discovery, 
you are trying to leverage the beauty of our free enterprise 
system and the knowledge and the cutting-edge advancements into 
the military.
    And I also understand that is one of your goose bump 
things, so give me 2 minutes, as we close here, on the 
advantages for our armed services of leverage in the private 
sector.
    General Eulberg. Sir, thank you very much for that 
question. As your staff probably told you, during our Air Force 
Fiscal Year 2009 MILCON/Military Family Housing/BRAC staffer 
days, I got so excited over this.
    As we go about our business of trying to become more 
efficient and effective in maintaining our warfighting 
platforms, we have to get better as stewards of the taxpayers' 
dollars to figure out what we are going to do.
    So we set on a path to visit the companies that I 
highlighted in the opening statement. We went to every one of 
those companies with their C-ring executives, the Chief 
Operating Officer, Chief Financial Officer, Chief Procurement 
Officer, Head of Human Relations and Information Technology sat 
down an entire day with each of these great companies and we 
took 10 of our experts there and spent all day talking about, 
how do you do business case analysis, how do you flatten your 
organization, how do you leverage strategic outsourcing and the 
other aspects of the decision-making process.
    How do you do portfolio management across the entire 
spectrum of managing your real estate, whether it be, how do 
you do leasing, what kind of decisions you make to do that, 
what type of IT systems do you have in place to roll off to do 
a business case analysis? Our aim is to provide our commanders 
in the field with good decision-making support.
    So instead of repairing a crack in the runway, with that 
one dollar and one hour of time, we are actually focused in on 
the encroachment issue where we should be spending our one 
dollar and our one hour of time. So it allows a much broader 
perspective in managing. Also, the private sector has seen 
great savings by a portfolio-level management of installations. 
Fifteen to 20 percent on utility contracts; service contracts, 
15 percent savings; strategic sourcing, savings can be as high 
as 40 percent.
    So if we can take those lessons learned from the private 
sector, roll it into an asset management culture, which is part 
of our reorganization, with new IT tools that allow that to 
take place, and we will be more effective at managing these 
warfighting platforms. We will be able to do the same mission 
for less dollars and really leverage the power of our people 
who do this every day.
    Mr. Wamp. Mr. Chairman, 10 years ago, when the 
privatization in housing began, and you rightly said to me, 
``We have got a lot to be proud of there.'' This is the next 
10-year mission in terms of transformation of activities. This 
is definitely----
    General Moseley. Congressman, if I could parallel just for 
a moment these business practices.
    We take in an amount of information, which are equivalent 
to T1 lines, which is about a million bits of information per 
second. When everything is up and running, that operations 
center brings in over 100 T1 lines at any one time. With that 
kind of information, imagine what the future could be with 
displays that look a lot like a hologram or displays that look 
a lot like a real-time picture of weather.
    So when you do time-sensitive targeting on opportunities to 
strike things that present themselves very fleeting, how can 
you look at the situation and see where the weather is, where 
the friendlies are, and where the hostiles are? How can you 
bring that together much, much quicker?
    In days past, we did it with grease pencils, and we did it 
just with mental calculations. We are at a point now where we 
know what is out there. The next challenge is to be able to 
display it and to be able to put that behind you as a baseline 
and then to get into really, really fascinating work.
    So this partnership, like cyber that you asked about, how 
do you partner with academia, how do you partner with industry 
to stay at the leading edge of those technologies? This is 
really exciting stuff.
    Mr. Wamp. Just for my colleagues, from my old subcommittee 
responsibilities before I got promoted, when the new capitol 
visitor center opens in November here and you go through it and 
you get the tour and you see the video and you see all the 
technology, you will go, ``Wow, Disney was consulted on that,'' 
just like Disney is being leveraged here. So the government 
finally realizes the tremendous advantages are out there, if we 
will just go seek them out.
    General Moseley. Sir, the last thing, which I know that you 
will like, is that we have also begun to work very, very 
closely with the Federal Aviation Administration (FAA) and the 
Department of Transportation. Since we do airplanes and 
spacecraft and they do airplanes, we are looking to fit how do 
we display the future air traffic control system and how do we 
look at those sorts of synergies so everyone benefits at the 
same time based on what we do and what they do. I mean, for a 
guy that flies airplanes, this is pretty exciting stuff.
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Edwards. Chief, I just have one last question. It is 
not this subcommittee's jurisdiction and it is not my intention 
right now to get involved in the legal questions regarding the 
decision on the KC-45 tanker, but I do understand, please 
correct me if I am wrong, that the new type of aircraft won't 
be significantly larger than the tankers in the current 
inventory.
    And I would like to ask you if this will require new 
infrastructure--hangars, aprons, shops--to replace the 
infrastructure used to house the present tankers? And if so, do 
you have a----
    General Moseley. Mr. Chairman, that is a good question--let 
our legal folks prepare an answer for the record, because we 
are in a protest now, and want to stay--as much as I can here 
without an aggravation.
    The military construction comparisons were included in the 
assessment of both offers, and the notion that either airplane 
will require some new enhancements to infrastructure, whether 
one has a bigger wingspan or not, you will still have to do--
just like an F-22, an F-35 or either one of these aircraft, you 
will have to do some work. We have got some projections, but 
until we know the final answer to this, sir, we would be remiss 
in giving you a specific answer, because we don't know that 
yet. But the MILCON comparisons against the two were in the 
criteria that helps define the selection.
    Mr. Edwards. Okay. Thank you.
    General Moseley. And then, sir, there is much more to 
follow.
    Mr. Edwards. Okay. Thank you.
    General Moseley. Because each base is different. Each 
hangar and array is different, each base is different, and so 
we take a variety of bases and use those as baselines as we run 
through this.
    But, sir, to get into detail of your question, some of it I 
know, some of it I don't know, but please let us take that for 
the record.
    Mr. Edwards. Okay. Thank you, Chief.
    Questions?
    Well, if not, on behalf of the entire subcommittee, let me 
thank you, both, for your testimony today and, most 
importantly, for your and your families' lifetime of service 
and commitment to our country. We are grateful for that 
service, and it is great to be with you.
    Thank you.
    [Clerk's note.--Questions for the record submitted by 
Chairman Edwards.]

                Military Construction and Family Housing

    The FY 2009 Unfunded Requirements List included $385 million to 
increase active end strength by 13,554 and the reserve by 3,400. My 
understanding is that the current military construction and family 
housing program is built around the assumption that PBD 720 will be 
carried though.
    Question. Does the $385 million include any MILCON or family 
housing requirements to increase end-strength? If so, what is the 
amount? If not, has the Air Force performed a cost estimate of the 
MILCON and family housing impact from increasing end strength to this 
level?
    Answer. The $385 million does not include MILCON or family housing 
requirements. While the Air Force has not performed an estimate to 
determine the impact of increasing our end strength to this level, any 
increased MILCON and family housing requirements will be addressed as 
the requirement becomes known at the installation level.
    MILCON requirements are determined for each base to support mission 
requirements and to enhance quality of life. While an increase in end-
strength at the base level may drive additional requirements, we would 
also consider using existing infrastructure to support the increased 
requirement.
    Family housing requirements are outlined in the Air Force's Family 
Housing Master Plan and are based on an assessment of housing in the 
local community as well as end-strength.
    Therefore, for MILCON and family housing requirements, the impact 
of an end-strength adjustment at the installation level would have to 
be known before a requirement could be established; in addition, other 
available local resources would be considered before a MILCON or family 
housing project is developed.

                                Road Map

    Earlier this year, the Air Force published a ``Road Map'' 
identifying numerous bases in the U.S. and its territories that could 
potentially hold a variety of current and future systems. This appears 
to be unprecedented.
    Questions. (a) Why did the Air Force choose to publish such a list? 
(b) Are you currently conducting engineering and environmental 
assessments at all of these bases for the systems indicated? (c) How 
did the Air Force determine which bases to list?
    Answers.
    (a) The Air Force published the Roadmap to create a common sight 
picture as part of a strategic planning effort to meet one of the 
Nation's most pressing needs: recapitalization and modernization of its 
aging Air Force fleet. The Roadmap represents a Total Force (Regular 
Air Force, Air National Guard, and Air Force Reserve) approach to the 
beddown of weapon systems to create a more efficient and flexible force 
structure. It outlines where future advanced weapon systems could 
potentially be based in the continental U.S., Hawaii, Alaska and the 
U.S. territories.
    (b) The Air Force has not started environmental assessments on all 
the candidate bases mentioned in the Roadmap. Installations that meet 
basing requirements will then undergo thorough environmental studies in 
accordance with the National Environmental Policy Act (NEPA). NEPA 
mandates environmental analyses and impact studies which are critical 
factors in determining final beddown bases in the U.S. as suitable 
locations for weapon systems. These major studies take time, may 
consider either one or several installations in a single study and may 
not be initiated at every potential location. The findings of these 
environmental studies, and the results of required fiscal and 
operational analyses which will be conducted over the next several 
years, will determine the final beddown plan and phasing.
    (c) The Air Force chose to evaluate installations which currently 
house legacy weapon systems forecasted for replacement by future 
systems. The Roadmap does not include possible basing initiatives on 
foreign soil. Overseas basing of Air Force future weapon systems will 
be accomplished in partnership with allies using normal consultative 
planning venues.

                              F-35 Beddown

    The total Air Force FY08-13 MILCON program for beddown of the F-35 
is $480 million, includes $378 million that is unspecified.
    Question. (a) When will the Air Force make a decision on the final 
beddown locations for the F-35? (b) What is the total projected MILCON 
requirement for F-35 beddown based on the current projected buy, beyond 
the amounts programmed in the current FYDP?
    Answer. (a) On 16 January 2008, the Air Force released the Future 
Weapon System Roadmap of potential beddown locations for the F-35. The 
Air Force is in the process of finalizing the basing criteria for F-35 
beddown. Once the Air Force has determined the basing criteria and 
performed a complete analysis of the potential locations against those 
criteria, additional announcements will be made on F-35 beddown 
locations.
    (b) The Air Force has a requirement of 1,763 F-35s. At current 
projected procurement rates, F-35s will still be delivering well into 
the 2030's. Although each of the locations on the Future Weapon System 
Roadmap currently has a fighter mission, F-35 specific requirements 
usually require some amount of new MILCON or alteration of existing 
facilities to support F-35 operations. At this time it is too early to 
predict the MILCON requirement over the lifecycle of the F-35 until 
after site surveys have been conducted, assessments of existing 
infrastructure at those locations have been completed and final beddown 
locations have been determined.

                 Combat Search and Research Helicopter

    The Air Force has programmed $109 million into the current FYDP, 
beginning in FY10, for the new Combat Search and Rescue helicopter. I 
understand that you are conducting environmental reviews at several 
possible beddown locations.
    Question. (a) When will the Air Force make a decision on the final 
beddown locations for the CSAR-X? (b) Does the $109 million in the FYDP 
reflect the full projected cost?
    Answer. (a) Kirtland Air Force Base, NM and Nellis Air Force Base, 
NV will be the first two Air Force bases to receive the aircraft. A 
decision for the remaining locations will occur no earlier than the 
summer of 2008.
    (b) No, the funding is initial cost only. The final funding is 
dependent upon source selection and weapon system requirements.

                             Dorms-4-Airmen

    Question. How many Airmen are currently living in ``Dorms-4-
Airmen'' standard unaccompanied housing, and how many are living in 1+1 
dorms?
    Answer. Currently there are 4,018 Airmen living in Dorms-4-Airmen 
standard unaccompanied housing, and 15,156 Airmen living in 1+1 dorms.

                      Permanent Party Dormitories

    Question. How many of your permanent party dormitories are more 
than 25 years old?
    Answer. Of the Air Force's 924 dormitories, 500 permanent party 
dormitories are over 25 years old.

                          Pipeline Dormitories

    Question. Does the Air Force use a quality scoring for pipeline 
dormitories?
    Answer. Yes, all Air Force pipeline dormitories are scored in the 
Dormitory Master Plan using a Total Facility Condition Score (TFCS). 
The TFCS is based on a five point scale and assesses the condition and 
functional deficiencies of the dormitory and its associated 
infrastructure. Condition Scores are determined based on estimated 
operations and maintenance plus the expected system replacement cost. 
Functional scores for pipeline dormitories compare the existing 
facilities and room configurations with the Air Force pipeline 
standards as presented in the Air Force Dormitory Design Guide.

                       Guam Military Construction

    The Air Force has submitted a MILCON requirement of $1.8 billion 
for the bed down of Intelligence, Surveillance, and Reconnaissance/
Strike systems on Guam.
    Question. (a) Does the Air Force have a target date for the 
completion of this initiative? (b) What will be the impact to Marine 
Corps forces if this beddown is not completed concurrently with the 
relocation of Okinawa?
    Answer. The start of the RQ-4 Global Hawk beddown in late Fiscal 
Year 2009/early Fiscal Year 2010 at Andersen AB, GU is on track. 
Through joint planning efforts, three of the planned Air Force 
Intelligence, Surveillance and Reconnaissance/Global Strike projects 
were identified as having the potential to facilitate the Marine 
beddown. However, a full assessment of the impact of the Air Force the 
program on Marine beddown capability needs to be coordinated with the 
Joint Guam Program Office.

                    Relocation from Okinawa to Guam

    The U.S., with the agreement and assistance of the Japanese 
government, plans to relocate 8,300 marines and their dependents from 
Okinawa to Guam.
    Question. Is the Air Force currently assessing its force laydown on 
Okinawa?
    Answer. The Air Force force structure on Okinawa will not change 
based on the Marine Corps' move to Guam; however, as future 
modernization, budget constraints, and global operational requirements 
dictate, the Air Force may re-evaluate force structure basing.
    The U.S., with the agreement and assistance of the Japanese 
government, plans to relocate 8,300 marines and their dependents from 
Okinawa to Guam.
    Question. Will the Marine Corps relocation have any impact on the 
Air Force force structure and footprint on Okinawa?
    Answer. The Air Force and Marine Corps on Guam will continue to 
work together in order to successfully conduct missions in their 
operational environment. However, until the Marine Corps further 
defines and determines its requirements for Okinawa, we cannot 
accurately assess those impacts to our force structure and footprint.

                        Training Ranges in Korea

    General Bell, Commander of U.S. Forces Korea, has indicated 
dissatisfaction with the air-ground training ranges in Korea.
    Question. What is your view of this situation and its impact on 7th 
Air Force?
    Answer. U.S. Air Force and the Republic of Korea Air Force (ROKAF) 
are striving to meet training requirements in the face of the Republic 
of Korea's extraordinary development. Specifically, the loss of Koon-Ni 
range in 2005 (due to encroachment, noise complaints, and conflict with 
new Inchon airport), coupled with use of legacy airspace/air-to-ground 
range systems, limits training opportunities. The existing air-ground 
training ranges no longer accommodate evolving ROKAF and U.S. Air Force 
training demands, particularly given Korean economic development and 
increased civil aviation traffic.
    Currently, two ranges are available to U.S. Korea-based aircraft, 
both with significant limitations to include no permanent electronic 
warfare training until 2011 and no night scoring:
    Pilsung Range is the only range that allows strafe events that have 
proven so important in supporting OIF and OEF. All flying wings within 
the Republic of Korea (ROK) use this range, which significantly limits 
its availability. Weather, terrain, frozen ground in the winter and 
fire danger in the summer also limit Pilsung Range's availability for 
strafe. In addition, the range is too small for guided bomb units.
    Jik-Do Range is unusable if any surface vessels are within a three 
nautical mile range (common-access is not restricted). Live munitions 
and Mavericks are not authorized due to ROK/US installation of 
instrumentation within the weapons footprint. However, Jik-Do Range is 
the only range available for night strafe. Also, combined ROK/US inert 
precision weapon practice on Jik-Do on March 25, 2008 could pave way 
for future joint direct-attack munitions training.
    U.S. access to other ROKAF air-to-ground ranges has been restricted 
based on civil opposition. Current work-arounds include using the 
Kadena ranges and limited off-ROK deployments.

                          AFSOC Wing at Cannon

    Question. What is the timeline for construction associated with the 
AFSOC wing at Cannon Air Fore Base and what are the total construction 
costs (including both Air Force and SOCOM-funded construction)?
    Answer. As identified in the January 18, 2008 Government 
Accountability Office audit report, Cannon Air Force Base, New Mexico 
has an Air Force and Air Force Special Operations Command (AFSOC) 
military construction requirement of $283 million in the current Fiscal 
Year 2008-2013 Future Years Defense Program. However, at this time, we 
do not have a firm timeline or total construction cost for the facility 
requirements to beddown the AFSOC mission at Cannon Air Force Base. 
Facility requirements and costs are currently being developed by AFSOC 
in conjunction with Headquarters United States Air Force for the Fiscal 
Year 2010 President's Budget request.

          Personnel Relocations in the National Capital Region

    The Air Force has indicated a need to relocate 3,100 personnel from 
leased facilities in the National Capital Region (NCR) for the purpose 
of complying with Department of Defense force protection standards. Of 
these, 804 are being relocated through the BRAC program with a $53 
million project scheduled for FY09. This leaves a balance of 2,300 
personnel. In the FY09 MILCON request, the Air Force is seeking an 
additional $78 million to accommodate 1,200 more of these personnel at 
Andrews Air Force Base.
    Question. Where are these personnel currently located?
    Answer. Currently these personnel are primarily located in 
government leased space, at Bolling AFB, and the Pentagon.
    Question. Of these personnel, how many are military, how many are 
Department civilians, and how many contractors?
    Answer. The breakout of the Air Force personnel relocating from 
leased space to Andrews, Bolling, and the Pentagon is roughly 1,250 
military, 1,150 department civilians, and 700 contractors.
    Question. What functions do these personnel perform?
    Answer. The functions of the personnel relocating to Andrews Air 
Force Base are a cross section of the Air Force staff functions and 
their supporting agencies. The functions include personnel, plans and 
operations, installations and logistics, financial management, 
scientific advisory board, IT support, staff judge advocate, and the 
Air Force District of Washington's staff. The functions of the 
personnel relocating to Bolling include: acquisition, Office of Special 
Investigations, Air Force Reserve command support, plans and operatios, 
war fighting integration, intelligence, plans and programming, public 
affairs, inspector general, general counsel, international affairs, and 
studies and analysis.
    Question. Has the Air Force assessed the option of resolving force 
protection issues in place at these leased locations?
    Answer. Yes, there have been two studies of leased space facilities 
conducted and all reach the same-conclusion. None of the current leased 
space occupied by the Air Force can meet Department of Defense force 
protection standards primarily driven by the set back standards from 
thoroughfares and a host of other significant vulnerabilities.
    Question. Has the Air Force solicited feedback from civilian 
employees to ensure that they will follow the jobs to their new 
locations?
    Answer. When final plans for personnel relocations in the National 
Capital Region have been completed, we will survey as appropriate for 
each location--Andrews Air Force Base, Bolling Air Force Base, and the 
Pentagon.
    Question. Has the Air Force assessed the housing requirements for 
the military personnel to be relocated?
    Answer. Housing was not specifically studied as the moves are 
within the same shared National Capital Region housing market area so 
there should not be an impact.
    Question. How will the Air Force resolve the question of the 
remaining 1,100 personnel?
    Answer: The remaining personnel are slated to go to Bolling Air 
Force Base. The movement of these personnel is primarily a result of 
the Deputy Secretary of Defense directed Pentagon Occupancy and Space 
Allocation Study (POSAS). The POSAS reduced the Air Force allocation of 
office space by 130,000 square feet which equates to approximately 900 
personnel displaced.

    [Clerk's note.--End of questions for the record submitted 
by Chairman Edwards.]
    [Clerk's note.--Questions for the record submitted by 
Congressman Wamp.]

                     Risk in Infrastructure Funding

    Question. General Mosley, not including BRAC, as I look at your 
fiscal year 2009 budget request, you are looking at reductions across-
the-board with the exception of the Family Housing Construction 
account; that does include an increase of $83.1 million. Beyond that 
there are cuts to Military Construction, Air National Guard, Air Force 
Reserve, and Family Housing Operations and Maintenance. This is a 
challenging budget request for the Air Force. Operational and 
maintenance costs are rising, inflation is going up, and personnel 
costs are increasing.
    The way that you stated it is that the Air Force is ``accepting 
manageable risk in facilities and infrastructure funding.'' Can you 
provide the Committee with more of a quantitative assessment of this 
infrastructure risk?
    Answer. Air Force facilities, housing, and Base Realignment and 
Closure (BRAC) programs are vital to our installation infrastructure. 
Our installations are weapons systems that serve as power-projection 
platforms. These platforms provide the Global Combat Support that 
enables the Global Vigilance, Global Reach, and Global Power that 
underwrite America's security and sovereignty. As the Air Force 
continues to modernize and recapitalize, we will continue to wisely 
invest our precious military construction funding to win today's fight, 
take care of our people, and prepare for tomorrow's challenges. In the 
short term this means taking acceptable risk in facilities and 
infrastructure funding.
    The Air Force assesses risk in facilities and infrastructure by 
evaluating the requirements and funding of three related programs: 
Facility Sustainment, Restoration and Modernization (R&M), and Military 
Construction (MILCON). While these requirements are critically 
important to supporting our Installation Weapon Systems, we 
occasionally take risks in one or two in order to fund other Air Force 
priorities. In the Fiscal Year 2009 budget we chose to take increased 
risk in facilities and infrastructure in order to put more money toward 
modernizing our aging weapon systems.
    The greatest risk was taken in the MILCON program, which is 
approximately 20% smaller than the Fiscal Year 2006 and 2007 budget 
submissions. We feel we've managed or mitigated the MILCON risk by 
funding Facility Sustainment to 90% of the Department of Defense 
requirements model and by reducing the risk in our R&M program by 
increasing funding over $160 million compared to Fiscal Year 2008. 
While these actions help us to manage risk in Fiscal Year 2009, we will 
likely re-invest in infrastructure in Fiscal Year 2010 to ensure we 
preserve the capability of our bases--our installation weapon systems.
    Question. The Air Force budget request includes $1.2 billion for 
BRAC 2005 of which $734 million is for construction. How much were you 
cut between the fiscal year 2008 request versus the fiscal year 2008 
appropriation, and what type of adjustments is the Air Force making due 
to those cuts? Does the fiscal year 2009 request try to recapture the 
cuts that were made in fiscal year 2008? How do these cuts impact 
planning, execution and the 2011 deadline? Which projects have you had 
to cancel or defer?
    Answer. The $939 million Omnibus reduction to the Department of 
Defense BRAC 2005 account must be restored. If left unfunded, the 
reduction will result in the Air Force receiving $235 million less than 
required in Fiscal Year 2008. The Air Force will experience delays and 
disruptions in construction and the movement of our people and assets. 
Delays will impact our ability to meet mandated completion deadlines.
    To implement BRAC 2005 and implement the Commission's 
recommendations, the Air Force uses a continuous process to identify, 
analyze, refine, coordinate, and validate requirements. Although the 
Air Force has not cut any projects due to this reduction, it has 
deferred BRAC MILCON projects, O&M requirements, and planning and 
design. Those deferments are based on today's planned award dates. The 
Air Force may further adjust its strategy and the deferral list in 
order to maintain the needed flexibility to execute its program.
    Our initial analysis of the reduction indicates the Air Force will 
be required to accept risk in the following areas:
    <bullet> Military Construction (MILCON): Will defer 21 projects, to 
include one housing project, valued at $126.4M (15% of total BRAC 
MILCON). All deferred projects have estimated award date after June 1, 
2008.
    <bullet> Planning and design (P&D): Will defer $5.2M in 
requirements (28% of total P&D).
    <bullet> Operations and Maintenance (O&M): Will defer $97.8M in 
requirements (36% of total O&M).
    If the reduction is restored sometime during this fiscal year, we 
will figure out a way to get back on track. If it is permanently lost, 
we will be hard broke; delays in accomplishing the Fiscal Year 2008 
requirements will have ripple effects impacting mission readiness and 
our ability to meet the mandated BRAC 2005 completion deadline of 
September 2011.
    (8) The Air Force was unable to request additional funding in the 
Fiscal Year 2009 President's Budget request because Service ``fair 
share'' costs were not known until after the Fiscal Year 2009 budget 
was submitted.

                           Engineer Shortage

    Question. A lot of what we hear is that there is a shortage of 
engineers in this country, but then you can always find someone to 
counter that argument. Is there a shortage of engineers in the Air 
Force and, if so, what are you doing to address the shortage?
    Answer. Air Force Civil Engineer career-manning levels are 
stressed. Current CSAF guidance directs active-duty personnel to deploy 
at a goal of 1:4 dwell (1:2 max) and reserve forces at 1:5 dwell. Air 
Force Civil Engineers currently have six active duty Air Force 
specialties that do not meet that guidance without relief in the 
foreseeable future, and our Explosive Ordnance Disposal (EOD) officer 
and senior non-commissioned officer leadership are currently at a 1:1 
dwell. Our EOD manning level is 60% for MSgt (E-7) and 74% for SMSgt 
(E-8), while our overall retention rates of officers is 50% for 
Captains, 75% for Majors, and 87% for Lieutenant Colonels. The Air 
Force is working to employ various recruitment/retention incentives to 
ensure we attract and keep qualified engineers in the skills and ranks 
needed. While we continue to meet both our in-garrison and deployed 
Civil Engineer requirements and National Security Strategy (NSS) 
requirements with a combined military and civilian workforce, continued 
joint-sourcing taskings (often referred to as in-lieu of (ILO) 
missions) and manpower cuts are placing increased stress on our 
military engineer OPSTEMPO. We continue to review and modify our 
requirement for engineers to align with our wartime combatant commander 
needs and installation-management organization. This response only 
addresses installation engineering support (Civil Engineer specialty) 
and does not include the research/development, acquisition or systems 
engineer needs of the Air Force.

                            Renewable Energy

    Question. The Air Force is now in its fourth year in a row of 
leading the federal government in leadership on energy and the 
environment. Your testimony says that the Air Force is number three in 
the nation in the purchase of renewable energy to operate its $243 
billion physical plant. Can you quantify that for the Committee? What 
does it mean that you are number three in the nation?
    Answer. The Air Force's green power ranking is from the EPA's Green 
Power Partnership. ``Green power,'' a subset of ``renewable power,'' is 
electricity generated from environmentally-preferable renewable 
resources such as solar, wind, geothermal, low-impact biomass, and low-
impact hydro, but excludes waste-to-energy sources that are included in 
the more comprehensive category of ``renewable.'' In Fiscal Year 2007 
the Air Force purchased 899,143,000 kWh of ``green power'', up from 
467,500,000 kWh in Fiscal Year 2006. We currently rank third nationwide 
behind Intel Corporation and PepsiCo.
    The Air Force's primary strategy is to expand development of on-
base renewable power generation through public/private partnerships. 
One such example is the 14.2 megawatt photovoltaic solar array at 
Nellis Air Force Base, Nevada, which is the largest photovoltaic 
project in the Americas. Although ``renewables'' on Air Force bases are 
expanding, we supplement on-base renewable power generation with the 
annual purchase of Renewable Energy Certificates. This helps the Air 
Force reduce its environmental footprint, meet its federal renewable 
energy mandates, and support the development of new commercial 
renewable power generation nationwide while assisting power producers 
to meet State mandates for renewable energy.
    Question. Your testimony says that you are on track to beat by two 
years the Department's 2014 goal for environmental restoration. Can you 
please quantify that for the Committee? What is the Department's goal 
for environmental restoration?
    Answer. The Department's goal for environmental restoration is to 
either put a remedy in place or complete the response at each cleanup 
site by 2014. The Air Force projects that either a remedy will be in 
place or the response will be complete at its 6,615 Installation 
Restoration Program sites (Active Duty, Guard and Reserve) by 2012, two 
years ahead of the Department's 2014 goal.

                             Family Housing

    Question. You plan to have privatized more than 41,500 housing 
units by the beginning of fiscal year 2009, and you plan to privatize 
an additional 4,300 housing units in fiscal year 2009 with your 
request, so that would take you up to 45,800 privatized units. At the 
end of fiscal year 2009, how many units would still not be privatized, 
and what is the Air Force doing to determine if it is feasible to 
privatize those units?
    Answer. The Air Force is continuing to evaluate the feasibility of 
privatizing housing for all Continental United States installations. 
There are 9,400 units at 13 Continental United States installations 
under review but a final determination on privatization at these bases 
has not yet been made. The Air Force is continuing to conduct Housing 
Requirements Market Analyses as well as working various grouping 
options at the installations (i.e., financial feasibility studies).

                            Bachelor Housing

    Question. The fiscal year 2009 Air Force requirement for dorm rooms 
is 60,200. You noted in your testimony that Phase I, in which you 
eliminated central latrine dorms is now complete. Phase II is where you 
address permanent party and pipeline dorm room shortages by building 
new dormitories.
    What is the cost for Phase II, and is the entire $104 million that 
is in the FY09 budget request the final funding requirement for Phase 
II or does part of that go to Phase III? What is the total cost for 
Phase III?.
    Answer. With the Fiscal Year 2007-2009 military construction 
programs we will be fully funded to complete Phase II except for one 
remaining pipeline dormitory deficit at Goodfellow Air Force Base, TX 
($14 million), which we will address in the Fiscal Year 2010 
President's Budget request.
    The $104 million in this year's President's Budget request supports 
renovation of a Phase II dormitory at F.E. Warren Air Force Base, WY 
($9 million) and construction of a Phase III dormitory at Lackland Air 
Force Base, TX ($76 million), the first of six recruit dormitory 
projects. The remaining $19 million is a new mission requirement to 
construct a dormitory to support beddown of the F-35 Joint Strike 
Fighter.
    Costs to complete Phase III to recapitalize our dormitories will 
continue to be evaluated through our Dormitory Master Plan process as 
our existing dormitories reach the end of their useful lives.

                            Fitness Centers

    Question. How much does the fiscal year 2009 budget request include 
for the construction of a fitness center at Dover (DE) Air Force Base? 
How many of your installations are currently in need of a fitness 
center, and what is the total cost to construct those centers?
    Answer. The Fiscal Year 2009 President's Budget request includes 
$19 million to construct a fitness center at Dover Air Force Base, 
Delaware. The Air Force's current Future Years Defense Program includes 
10 fitness center projects at $143 million. The total Air Force fitness 
center investment requirement includes an additional $683 million at 
more than 40 installations.

                       Child Development Centers

    Question. The fiscal year 2009 budget request includes funding for 
the construction of 1 new child development center. What is the overall 
Air Force need for child development centers?
    Answer. The current Military Construction (MILCON) program includes 
the following projects ($64.5M):
    FY09: Columbus AFB, MS--($8.1M).
    FY10: Beale AFB, CA--($17.2M).
    FY11: Cannon AFB, NM--($7.9).
    FY11: Eglin AFB, FL--($11.0M).
    FY12: Bolling AFB, DC--($9.0M).
    FY12: Spangdahlem AB, Germany--($11.3M).
    Additionally, we recently identified the following projects to OSD 
P&R in support of an initiative to meet the requirements of the 
President's State of the Union address for ``expanding access to child 
care'' ($70.7M):
    MILCON-eligible Projects: MacDill AFB, FL; Moody AFB, GA; Seymour 
Johnson AFB, NC; Nellis AFB, NV; Vandenberg AFB, CA.
    Minor Construction-eligible Projects: Davis Monthan AFB, AZ; 
Langley AFB, VA; Vogelweh AB, Germany; Spangdahlem AB, Germany; Tyndall 
AFB, FL; FE Warren AFB, WY; Malmstrom AFB, MT; Buckley AFB, CO; 
Schriever AFB, CO.

    [Clerk's note.--End of questions for the record submitted 
by Congressman Wamp.]
    [Clerk's note.--Question for the record submitted by 
Congressman Farr.]

                                  BRAC

    Question. Onizuka Air Force Station (California) is to be closed as 
part of the 2005 BRAC. Does the Air Force plan to sell the Onizuka 
parcel outright or will it consider an economic development conveyance 
request from the City of Sunnyvale (which is the LRA)?
    Answer. As part of the property screening process to determine 
other federal agency needs for the property, the Air Force has approved 
a request by the Department of Veterans Affairs (VA) for the transfer 
of about two acres to support Veterans programs. The Air Force cannot 
formally announce a plan or make a final decision on the method of 
disposing the remainder of the property at Onizuka Air Force Station 
until the Air Force has completed the processes required under the base 
closure law and the National Environmental Policy Act (NEPA). The base 
closure law requires a redevelopment authority to prepare and submit a 
reuse plan to the U.S. Department of Housing and Urban Development 
(HUD). The plan will balance the homeless assistance requirements (of 
which there have been two requests) with other economic and development 
needs of the local community. The City has thus far indicated it will 
submit a plan by July 31, 2008, which is well before the projected base 
closure date of September 15, 2011. After HUD approval of the reuse 
plan, the Air Force will use the plan as its proposed action for NEPA 
environmental planning purposes, as required by the base closure law. 
If the City desires an economic development conveyance (EDC) of the 
property, then the City must submit an EDC application to the Air 
Force. When the NEPA process is completed, the Air Force will consider 
the EDC request and other property disposal options in arriving at its 
final property disposal decision.

    [Clerk's note.--End of question for the record submitted by 
Congressman Farr.]
    [Clerk's note.--Question for the record submitted by 
Congressman Boyd.]

                                  BRAC

    Question. Thank you for taking my question. I am curious about a 
parochial issue involving this most recent round of BRAC. The 
recommendation in BRAC that I am asking you about is below. My question 
is this:
    Why is the proposed CRIF for F100 engines located at New Orleans 
Air Reserve Station, LA when the only base in the area that still uses 
F100 engines is Tyndall AFB? I look forward to hearing from you on this 
important issue.
    Recommendation: Realign Langley Air Force Base, VA; Tyndall Air 
Force Base, FL; and Jacksonville International Airport Air Guard 
Station, FL. Establish a Centralized Intermediate Repair Facility 
(CIRF) for F100 engines at Seymour Johnson Air Force Base, NC by 
realigning base-level F100 engine intermediate maintenance from Langley 
Air Force Base. Establish a CIRF for F100 engines at New Orleans Air 
Reserve Station, LA (Air National Guard unit) by realigning base-level 
F100 engine intermediate maintenance from Tyndall Air Force Base and 
Jacksonville Air Guard Station.
    Answer. This BRAC recommendation, which by law the Air Force must 
implement not later than September 15, 2011, accomplishes several 
things. First, it produces economies of scale by distilling five F100 
engine repair locations into two. It also consolidates dispersed and 
random workflows, enhances reliability-centered maintenance, and 
improves support to the war fighter. Next, it leverages existing 
physical capacity at New Orleans Air Reserve Station keeping the amount 
of required military construction to a minimum. Finally, a CIRF at New 
Orleans will capitalize on the potential capacity and recruitment of 
experienced maintenance technicians left behind when the New Orleans 
Reserve A-10 flying mission moves elsewhere under a separate BRAC 
recommendation. This BRAC recommendation also helped define the future 
state F100 Consolidated Repair Facilities (CRF) network for the Repair 
Enterprise for the 21st Century initiative, which has now expanded into 
Repair Network Transformation. Under this initiative, 7 CRFs will 
repair engines for all F100-powered units. The New Orleans CRF will be 
an integral part of the capacity necessary to support these units.
    The New Orleans Air Reserve Station CIRF will service F100 engines 
for nearly 100 F-15 aircraft assigned to Active Duty and Air National 
Guard units located in the Southeastern United States.

    [Clerk's note.--End of question for the record submitted by 
Congressman Boyd.]
                                          Thursday, March 13, 2008.

 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                       Statement of the Chairman

    Mr. Edwards [presiding]. I would like to call the 
subcommittee to order.
    Congressman Rodriguez, welcome back to our subcommittee. It 
is good to have you here.
    This afternoon, our subcommittee will hear from members of 
Congress and public witnesses representing various 
nongovernmental organizations, and I want to thank all of you 
for being here and all the good work you do that impacts 
directly upon this subcommittee's work.
    We have a number of people testifying and, for that reason 
and because of time constraints, we will ask each witness to 
limit his or her remarks to no more than 5 minutes, but we 
will, by unanimous consent, have the full testimony included in 
the record.
    I would like to begin by recognizing my colleague, Mr. 
Wamp, our ranking member, for any comments he would care to 
make.

                Statement of the Ranking Minority Member

    Mr. Wamp. Well, Mr. Chairman, this is as new for me as it 
is for others here. So I look forward to this action-packed 
afternoon.
    It does remind me of when we were in the majority, and I 
was on the Interior Appropriations Subcommittee, and I thought 
one day that then Chairman Ralph Regula was just being nice to 
me, asking me if I would mind chairing the day that we had 
outside witnesses before the Interior Appropriations 
Subcommittee, and, after about the 60th Indian tribe testified 
before the committee, I figured it out.
    So I figured out why I chairing that day's hearing, because 
it was a lot of different people and a lot of different 
information over about a 5-hour period of time.
    But I do look forward to this this afternoon, and I thank 
you very much for your courtesy.
    Mr. Edwards. Well, if I start asking so many questions, we 
are going to stretch out to 5 hours. Would you cut me off, 
please?
    Mr. Wamp. Yes, sir, with pleasure.
    Mr. Edwards. We are really honored to have Congressman Ciro 
Rodriguez, my colleague and friend from Texas, who has been a 
real champion for the military, our troops, their families, and 
is an outspoken leader for veterans.
    Thank you for being here, Congressman, and the time is 
yours.
                              ----------                              

                                          Thursday, March 13, 2008.

                                WITNESS

HON. CIRO RODRIGUEZ, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS

              Statement of the Honorable Ciro D. Rodriguez

    Mr. Rodriguez. Thank you, Mr. Chairman.
    I want to personally thank you for allowing us the 
opportunity to testify, and I hope you will continue to do 
this. I hope it works out in a very positive way, and I hope 
you take into consideration all of the recommendations, since I 
am the first one, that come before you.
    I represent the 23rd congressional district in Texas. It is 
one of the largest in the country. And I come before you today 
to express my concerns with the allocation of funds for the 
military construction and for the BRAC process.
    Our nation's military care has reached an unprecedented 
level of performance never before seen in the history of war. 
Advances in medical technology and training have made the 
casualties of today into the wounded of tomorrow.
    So in this particular situation that we find ourselves, we 
see the results of this and having the large number of people 
that have been injured during this war, and because of our 
technology, thank God, they are still with us.
    But that also means that we have a responsibility for them. 
We do not have adequate facilities to handle this increase in 
population of wounded veterans.
    Further, we have had the department of the chief of staff 
of the Army testify before the House Armed Services Committee 
that the Army is short in doctors, psychiatrists and other 
health professionals.
    So we are in deep trouble when it comes to the number of 
people that we need in health care.
    I suggest that we prioritize and make this recommendation, 
in the upcoming BRAC appropriations, defense health programs, 
to fund before other BRAC constructions, anything that deals 
with health care, that that take priority, and that includes 
the polytrauma centers in the VA and, if at all possible, to 
take that into consideration before anything else.
    And if there are any cuts that are to be made, that those 
cuts would not be made when it comes to medical facilities that 
we are trying to upgrade as much as we can.
    Our soldiers, sailors and airmen and the marines deserve 
nothing but the finest equipment and the facilities that our 
nation can afford. Our nation can ill afford to recruit and 
retain volunteer military, yet pass on the huge importance of 
neglected facilities and our lack of infrastructure.
    So I once again stress the importance of prioritizing the 
health care area as one of the issues.
    I also have the opportunity to have several bases within my 
area and we have inadequate housing for student pilots at 
Laughlin Air Force Base. It is their number one MILCON project.
    Laughlin Air Force Base in Del Rio, Texas is the largest 
producer of pilots for our nation's Air Force. It is, in 
essence, where our Air Force mission begins.
    Pilot training is a grueling and ingraining marathon that 
tests the will and nerve of not only the future aviators, but 
the thousands of support personnel that maintain the aircraft 
and the facilities in that area.
    And due to those numbers and due to the shortage of 
dormitories, our facilities for the pilot training at Laughlin 
are of key importance to making sure that a good quality of 
life issue for our soldiers is there and to make sure that they 
don't reside in those old facilities that they have now.
    We have, furthermore, the project at Laughlin--gains in 
population at the base will force more family housing units to 
be converted, driving military dependants to find housing in 
local communities, which is currently shown to be in the short 
of 435 units.
    Laughlin Air Force Base has a project that is for the 
future. We are asking to see if it could come up to year 2009. 
That would allow construction of a 64-person unaccompanied 
officer's quarters, as well as demolition of 41 units that were 
built way back in 1949.
    So I ask for that to be taken into consideration.
    In addition, Camp Bullis, in my congressional district, is 
an integral part of the BRAC mandated consolidation of the 
military medical education in San Antonio.
    Recent combat experiences in Iraq and Afghanistan have 
highlighted a shortfall in military training, especially within 
the area of urban operation.
    And as you well know, Camp Bullis is within an urban area 
and, in this day and age, soldiers and sailors and airmen and 
marines are experiencing casualties in urban areas as the norm 
rather than the exception.
    Camp Bullis has projected also funding for construction for 
a live fire exercise shoot house, which will provide a facility 
where our medical service members will learn how to move 
tactically in a building engaged in targets and practice, and, 
also, be able to practice in that area.
    So I ask that the committee also seriously review the 
prioritization of the project and to move it forward for this 
year there at Camp Bullis.
    In conclusion, I also hope that you will consider the costs 
of deferring long-term infrastructure improvements. The longer 
we wait on this, the worse it gets in terms of the cost and the 
sooner we go out on bids on some of these items, the lower we 
are able to get that done.
    So I would hope that you would look at prioritizing those 
issues that I have indicated and, that is, when it comes to 
health care of our soldiers, when it comes to health care of 
our veterans, that you take that as the number one priority and 
move on that, and with the consideration of Laughlin Air Force 
Base and the need for our pilots.
    These are our young pilots that are going to defend our 
country. We need to make sure we have facilities that were not 
built in 1949, but newer facilities there, with additional 
missions there at Laughlin, and, again, with a facility there 
at an urban area at Camp Bullis, which is unique and which 
almost doesn't exist anywhere else.
    So I want to personally thank you for allowing me this 
opportunity to be here, and I want to thank you for allowing 
for us to be able to have an audience and to be talking to the 
cardinal right in front of me in the leadership.
    Thank you.
    [Prepared statement of the Honorable Ciro D. Rodriguez 
follows:]

[GRAPHIC] [TIFF OMITTED] T2754C.069

[GRAPHIC] [TIFF OMITTED] T2754C.070

[GRAPHIC] [TIFF OMITTED] T2754C.071

    Mr. Edwards. Ciro, thank you.
    This isn't the first and won't be the last time you will be 
an eloquent spokesman for our military troops and their 
families and our veterans, and I want to salute you again for 
your work last year in seeing that we put money in the VA 
budget to create the first polytrauma center in the 
southwestern United States, which will be in San Antonio, as a 
result of your hard work.
    Also, while I don't have any questions, and we will look at 
the project-specific requests you made, I want to thank you for 
bringing up BRAC.
    If you had been here this morning at another meeting we 
had, Mr. Wamp, rightfully, talked to the Air Force chief of 
staff about what concerns we would have if we don't go back and 
fully fund BRAC.
    And I know last year, you worked to see that we replaced 
100 percent of the money that we had taken out of BRAC to add 
to veterans' health care needs, and I hope we can replace, if 
not every dollar, the vast majority of the money, $939 million, 
I believe, that we used out of BRAC-08 to put into other high 
priority military construction and veterans' programs.
    And I know that, in fact, not only in the San Antonio area, 
but military bases all over the country and I think that it is 
important that Mr. Wamp, as our ranking member, and you and 
other key members have reminded us that we have got to keep our 
eye on BRAC, and try to get that in a supplemental.
    Mr. Rodriguez. Yes. And I want to thank you, and I don't 
know where you are on this, but I served 8 years on the Armed 
Services Committee, and I hope we don't do any more BRACs, and 
that is my hope, because there is no doubt that they have been 
real costly and there is a tendency to lowball them at the 
beginning, but they have been expensive.
    But it is something now that we have to fulfill and we have 
done it. So we need to make sure we do the right thing and beef 
up in those areas where we have to.
    And coming from a city where we have the largest base ever 
closed, which is Kelly Air Force Base, I am here to tell you 
that it has got 14,000 people working in there now and doing 
real well.
    The other base, the only legislation of its kind in the 
country, which was Brooks City Base legislation, where we chose 
to BRAC that base ourselves and I don't have to tell you how 
hard that was in working with the labor side to assure them 
that they would have jobs.
    That community is booming at Brooks City Base, but we also 
have the other BRACs both at Fort Bliss and downtown at Fort 
Sam Houston that we have to beef up on, and those contracts and 
those projections that were made earlier are much higher than 
what initially were anticipated.
    So I would hope that we would come up to that.
    Mr. Edwards. You bet. Thank you for your comments.
    Mr. Wamp.
    Mr. Wamp. I just want to commend Ciro for his initiative. 
If we had more members of the House that actually took charge 
of things like this, did their research, advocated in this kind 
of an effective way, we would be better off.
    And I am impressed and I am grateful for your appearance 
here today.
    Mr. Rodriguez. Thank you very much. Thank you for having 
me.
    Mr. Edwards. Thank you.
    Mr. Rodriguez. And I hope you continue to do this.
    Mr. Edwards. Thank you. Thank you for being here.
    We now have Cheryl Beversdorf. Ms. Beversdorf, welcome back 
to the subcommittee. It is good to have you back.
    By way of introduction, Ms. Beversdorf is president and CEO 
of the National Coalition for Homeless Veterans, representing 
over 280 community-based homeless veterans' service providers 
in 48 states, the District of Columbia, Puerto Rico and Guam.
    Ms. Beversdorf is a former Army nurse, and thank you for 
that service, and a former staff member of the Senate Veterans' 
Affairs Committee, and is a leading authority on homeless 
veterans' issues.
    Let me just say, before you begin your remarks, we heard 
your testimony and that of others last year and that was a 
significant part of why we nearly doubled the funding for the 
Homeless Grant and Per Diem program.
    We know we are just beginning. We hope a lot of the mental 
health care dollars we put into the budget will also go to 
providing the continuum of care that our homeless veterans 
need.
    But to you and all those who testified, let me just say it 
may seem like a dog-and-pony show today as we run through this, 
but a lot of the ideas presented last year really did help us 
put together a historic bill for veterans last year.
    Ms. Beversdorf. And it paid off.
    Mr. Edwards. So welcome back.
    Ms. Beversdorf. Thank you.
    Mr. Edwards. And the 5 minutes is yours.
                              ----------                              --
--------

                                          Thursday, March 13, 2008.

                NATIONAL COALITION FOR HOMELESS VETERANS


                                WITNESS

CHERYL BEVERSDORF, PRESIDENT AND CEO

                     Statement of Cheryl Beversdorf

    Ms. Beversdorf. Thank you. Mr. Chairman, Mr. Wamp, the 
National Coalition for Homeless Veterans appreciates the 
opportunity to submit testimony before this subcommittee 
regarding VA appropriations for fiscal year 2009.
    VA officials report the partnership between the VA and 
community-based organizations has substantially reduced the 
number of homeless veterans each night by more than 38 percent 
since 2003, a commendable record of achievement that must be 
continued if this nation is to provide the supportive services 
and housing options necessary to prevent homelessness among the 
newest generation of combat veterans from Operations Iraqi 
Freedom and Enduring Freedom.
    Regarding the appropriations for the VA homeless veteran 
programs, Congress has established a number of programs within 
the VA to address homelessness among veterans, and the primary 
goal for these programs is to return homeless veterans to self-
sufficiency and stable independent living.
    Homeless veterans also receive primary medical care, mental 
health and substance abuse services at VA medical centers and 
community-based outpatient clinics through the health care for 
homeless veterans program, and my oral testimony contains 
recommendations for appropriations for several of these 
homeless veterans assistance initiatives.
    Regarding the one that you had mentioned, the Homeless Vet 
Provider Grant Per Diem program, it is the nation's largest VA 
program to help address the needs of homeless veterans.
    And last September, the GAO presented testimony before the 
House Veterans' Affairs Health Subcommittee regarding homeless 
veterans' programs and reported an additional 11,100 
transitional housing beds are necessary to meet the demands of 
the estimated number of homeless veterans needing assistance.
    And you are absolutely right, Mr. Chairman, thanks to the 
support of this subcommittee, Public Law 110-161 provided for 
$130 million, the fully authorized level, to be expended for 
the Grant and Per Diem program.
    But based on the GAO's findings and the VA's projected 
needs, NCHV believes that $200 million authorization is now 
needed. The grant and per diem programs have evolved into a 
homelessness prevention network as much as a proven 
intervention, care and treatment collaborative partner with the 
VA, and an increase in the funding level for the next several 
years would help to ensure and expedite VA's program expansion 
targets and guarantee continued declines in veterans 
homelessness.
    Regarding special needs, the VA provides these to VA health 
care facilities and existing grant and per diem recipients to 
assist them in serving homeless veterans with special needs.
    Before these grants, Public Law 109-461 authorized 
appropriations of $7 million for fiscal year 2007 through 2011. 
And the increased risk of homelessness among these populations, 
and I especially want to emphasize women veterans, which is, 
frankly, the fastest growing cohort, because of the fact that 
women now make up 15 percent of the military, and this warrants 
funding for the special needs grant above the currently 
authorized level, and additional grant and per diem program 
funding would address this need.
    Another program, HUD-VASH, which I remember you talked 
about last year, that program provides permanent housing and 
ongoing treatment services to the harder to serve homeless 
veterans with chronic mental health and substance abuse issues.
    NCHV was incredibly pleased with Public Law 110-161, which 
included $75 million to be used for 7,500 Section 8 vouchers 
for homeless and disabled programs. And we are pleased that HUD 
has requested an additional $75 million for this program in the 
fiscal year 2009 budget.
    Under this program, VA must provide funding for the ongoing 
treatment services to veterans receiving these rental vouchers.
    We believe that the $7.8 million which was proposed in 
their budget for fiscal year 2009 was agreed to before the 
dramatic increase and the HUD-VASH vouchers became law and 
without knowledge of the HUD's fiscal year 2009 proposal.
    With each housing voucher requiring approximately $5,700 in 
supportive services, we estimate approximately $45 million will 
be needed to adequately serve 7,500 or more clients in the HUD-
VASH housing units.
    Regarding mental health programs, you are right, virtually 
every community-based organization providing assistance to 
veterans in crisis depends on the VA for access to 
comprehensive health services, including screenings, counseling 
and necessary treatment as a matter of course.
    The VA's mental health strategic plan has increased the 
number of clinical psychologists and other mental health 
professionals and VA medical centers, community-based 
outpatient clinics, and vets' centers.
    We believe the budget's proposed funding would facilitate 
further implementation to the plan and urge the subcommittee to 
provide adequate funding to support this effort.
    One last program, and that is the homeless veterans 
reintegration program. I know that this does not fall under 
this subcommittee's jurisdiction. However, I would just point 
out to this subcommittee that it is actually the only program 
wholly dedicated to providing employment assistance to homeless 
veterans.
    And based on the program's success in terms of employment 
outcomes for one of the most difficult populations to serve and 
its cost-effectiveness as compared to other employment 
placement programs, NCHV believes that this program should be 
funded in fiscal year 2009 at its full $50 million 
authorization level.
    An appropriation of this level would enable HVRP grantees 
to reach approximately 3,600 homeless veterans.
    NCHV thanks this subcommittee for its service to America's 
veterans in crisis and would be happy to answer any questions.
    [Prepared statement of Cheryl Beversdorf follows:]

    [GRAPHIC] [TIFF OMITTED] T2754C.072
    
    [GRAPHIC] [TIFF OMITTED] T2754C.073
    
    [GRAPHIC] [TIFF OMITTED] T2754C.074
    
    [GRAPHIC] [TIFF OMITTED] T2754C.075
    
    [GRAPHIC] [TIFF OMITTED] T2754C.076
    
    [GRAPHIC] [TIFF OMITTED] T2754C.077
    
    [GRAPHIC] [TIFF OMITTED] T2754C.078
    
    [GRAPHIC] [TIFF OMITTED] T2754C.079
    
    [GRAPHIC] [TIFF OMITTED] T2754C.080
    
    Mr. Edwards. Thank you for your excellent testimony and 
always being very specific.
    The reintegration program, you said we don't have 
responsibility for that. What subcommittee or committees?
    Ms. Beversdorf. Labor HHS.
    Mr. Edwards. That is Labor HHS.
    Ms. Beversdorf. Yes.
    Mr. Edwards. All right.
    Ms. Beversdorf. And it has actually been authorized for 
quite some years already at $50 million and each year, there is 
always about a $2 million increase. It is actually now about 
$25.6 million.
    Mr. Edwards. So let me just say to you, we are going to 
stay focused on homeless veterans. I think last year was the 
first time, at least to my knowledge, that this subcommittee 
had a hearing specifically on the homeless veterans issue and 
we are going to stay focused until there is not one homeless 
veterans anywhere in America.
    Ms. Beversdorf. Thank you.
    Mr. Edwards. Let me ask you just one question about the per 
diem program.
    I understand that for a veteran to be able to use that, 
does the place where they are staying have to have a certain 
number of veterans in it or a majority of veterans in it?
    Ms. Beversdorf. Seventy-five percent, between 60 percent 
and 75 percent, and the grant comes from the VA and it goes to 
the organization.
    Mr. Edwards. What if you have got a mid-size or a rural 
community where there is one homeless veteran in that 
community, what would be wrong with them going into some local 
homeless shelter and they can prove that that person is a 
veteran, then that shelter could get reimbursement?
    Is it a quality control issue?
    Ms. Beversdorf. We may have to introduce new legislation 
for that. I mean, we certainly very much support the fact that, 
you are right, sometimes veterans live quite a ways from a VA 
medical center or from a community-based organization.
    So that would probably require some kind of legislation to 
be introduced that would allow reciprocity that that person 
could go to a non-grant and per diem program, but then 
ultimately get reimbursed.
    The one thing that is really very important to know about 
the grant and per diem program and the community-based 
organizations, it is veterans helping veterans.
    Mr. Edwards. Right.
    Ms. Beversdorf. And the idea is that--and, also, they are 
close to a VA medical center. But I do understand what you are 
saying and we would even like to see that, for example, 
community health centers or mental health centers, perhaps 
they, too, could get reimbursed, even if they are not homeless, 
but they might be in crisis.
    So the idea is if they could go to a civilian facility and 
at least get some help rather than say, ``Oh, sorry, you are a 
veteran, you will have to go to the VA medical center,'' by 
that time, it might be too late.
    Mr. Edwards. Would you look into those issues and would you 
specifically look at the question of what are the implications 
of being, good and bad, for the grant and per diem program, if 
we didn't have that requirement?
    My hometown of Waco, I am told that one or two homeless 
veterans went to a local shelter and I think they received 
housing, but I don't know why they shouldn't be able to get 
some reimbursement.
    Ms. Beversdorf. Did they get supportive services then, too, 
do you know?
    Mr. Edwards. I don't know. I don't have the details. I will 
have to follow up on that.
    But I would welcome your coalition evaluating that and 
telling us what you think the pluses and minuses would be of 
opening up that program.
    Obviously, we would need additional money, because we don't 
want to take away from the care providers we have. But if we 
could get additional money, are there any downsides to allowing 
a veteran to go in, whether it is 15 homeless people and they 
are one of 15. At least they would have a roof over their 
heads.
    Ms. Beversdorf. Right. And they would still get the 
benefits of the program itself.
    Mr. Edwards. Yes.
    Ms. Beversdorf. I understand what you are saying.
    Mr. Edwards. Thank you.
    Mr. Wamp.
    Mr. Wamp. As a longtime proponent of mental health parity 
veterans who are mentally healthy are not near as likely to be 
homeless.
    And so we are hearing from the psychologists, the 
psychiatrists, your organization, this is a huge priority and I 
am grateful that there is a coming together in this country 
around the criticality of mental health and the fact that if it 
is treated as a disease and people have their medications, they 
can become functional and operational and successful in our 
society, and that is at the heart of this.
    I am grateful for your work, but I join the chairman in a 
commitment to not leaving any veteran behind.
    Thank you.
    Ms. Beversdorf. And you are absolutely right. When people 
ask why veterans are homeless, it is actually three issues. It 
is the health issue, like PTSD, traumatic brain injury, 
substance abuse issues, then the employment issues.
    That is why HVRP is so important. And then affordable 
housing. I mean, all of these are factors which evolve as a 
result of their service in the military and they all need to be 
addressed in order to help these men and women not be homeless 
anymore.
    Mr. Wamp. Thank you.
    Mr. Edwards. Mr. Bishop.
    Mr. Bishop. I would just like to thank you for the job that 
you do. Thank you for your advocacy and I appreciate very much 
your testimony here today, and that is all I have.
    Mr. Edwards. Thank you for your noble service.
    Ms. Beversdorf. Thank you.
    Mr. Edwards. I would now like to call our next witness, 
Terri Weaver, with the American Lung Association.
    Ms. Weaver, welcome back to the subcommittee.
    Ms. Weaver. Thank you.
    Mr. Edwards. Ms. Weaver is a nurse and a professor and 
researcher at the University of Pennsylvania. She is also past 
chair of the American Lung Association's board of directors.
    We are glad to have you here. Again, your full testimony 
will be submitted for the record, but we would like to 
recognize you for 5 minutes now, Ms. Weaver.
                              ----------                              

                                          Thursday, March 13, 2008.

                       AMERICAN LUNG ASSOCIATION


                                WITNESS

TERRI WEAVER, PHD, RN, FAAN

                      Statement of Terri E. Weaver

    Dr. Weaver. Thank you, Chairman Edwards, Mr. Wamp, Mr. 
Bishop.
    As Chairman Edwards introduced me, I am Dr. Terri Weaver. I 
am testifying on behalf of the American Lung Association in 
support of veterans' medical care and research.
    I am a nurse, I am a professor, and I am a researcher, but 
I am also past chair of the board of directors of the American 
Lung Association, which was founded in 1904, which you might 
recall, to fight tuberculosis, and today we still fight to 
prevent lung disease and promote lung health through research, 
advocacy and education.
    And we are very strong in supporting the Department of 
Veterans' Affairs in this important fight against respiratory 
disease.
    The Department of Veterans' Affairs cares for over five 
million veterans, one million of which has chronic lung 
disease.
    First, I want to thank the Chairman and the committee for 
their support of our request to increase the VA medical 
research funding of $480 million in fiscal year 2008. This 
investment will save lives.
    We are also, however, pleased to see an increase in the 
president's budget for VA medical care. However, when there is 
a time when we ask veterans to do so much, we feel that this is 
so little and we need to do more.
    The American Lung Association supports the nation's leading 
veterans' organization's budget request of $42.8 billion for 
medical care called for in the Independent Budget.
    The American Lung Association is very concerned about the 
president's budget proposing cuts in medical research by $38 
million. The cut is unacceptable and it really rolls back the 
progress that we experienced last year.
    As a nurse, I support the urgent need for increased funding 
for medical care and research for the newer types of illnesses 
we are seeing, some of which you alluded to, but, also, acute 
traumatic injuries, central nervous system injuries, as well as 
pulmonary injuries.
    We are also acutely aware of veterans in Iraq and 
Afghanistan who are also potentially exposed to bioterrorism 
and avian influenza that also affects the lungs, and we know 
there are men and women on the front lines and we have to 
really consider that.
    The nation has also committed to all veterans--nearly 40 
percent are over the age of 65. So along with the existing 
illnesses that we see in our younger veterans are illnesses 
such as hypertension, chronic obstructive pulmonary disease, 
hyperglycemia, which usually affected older individuals, and 
now is the time to increase funding for research at the VA to 
meet emerging needs and existing disease burdens.
    The American Lung Association recommends and supports 
increasing VA Medical and Prosthetics Research program to $555 
million.
    I want to speak briefly about chronic obstructive pulmonary 
disease, which is on the increase, primarily caused by smoking. 
It is composed of both bronchitis and emphysema, and we have a 
large human and financial cost within the VA.
    And 16 percent of veterans in the Department of Veterans' 
Affairs health care system have a diagnosis of COPD. It ranks 
fifth in the most prevalent disease in the VA population.
    It is the fourth most common cause of death in the United 
States and by 2020, it will rise to the third leading cause of 
mortality.
    We have, however, proven interventions which are effective 
and good treatments and rehabilitation that decrease 
exacerbations, hospitalizations, and documented improved 
quality of life.
    In 2001, smoking prevalence was 43 percent higher for VA 
patients than the general population. In 2005, however, smoking 
prevalence among VA patients dropped to 23 percent, similar to 
that for the U.S. population of 21 percent.
    Most of this was due to VA smoking cessation programs. This 
is commendable and a life-saving achievement and this committee 
really should be very proud of this accomplishment.
    We urge the committee to continue to support smoking 
cessation efforts for all veterans.
    Mr. Chairman, in summary, our nation's veterans deserve 
excellent care. They are giving the ultimate price and really 
sacrificing much.
    Research programs funded by the VA have potential to 
improve the quality of life and health outcomes for all 
Americans, especially our veterans.
    The American Lung Association supports increasing the 
investment in research to $555 million and funding VA medical 
care to $42.8 billion.
    And I thank you so much for this opportunity to testify.
    [Prepared statement of Terri E. Weaver follows:]

    [GRAPHIC] [TIFF OMITTED] T2754C.081
    
    [GRAPHIC] [TIFF OMITTED] T2754C.082
    
    [GRAPHIC] [TIFF OMITTED] T2754C.083
    
    [GRAPHIC] [TIFF OMITTED] T2754C.084
    
    [GRAPHIC] [TIFF OMITTED] T2754C.085
    
    [GRAPHIC] [TIFF OMITTED] T2754C.086
    
    Mr. Edwards. Thank you, Dr. Weaver.
    Am I correct in understanding that VA medical research 
played a key role in coming up with a cure to TB? Are you 
familiar with the VA's role in that?
    Dr. Weaver. Actually, there are many discoveries that have 
been attributed to research that has been conducted at the VA, 
TB being one of them. But there is a long list of really 
phenomenal discoveries that have come out of the VA medical 
system, even to this day, because I think one of the unique 
things that the VA medical system has that no other system has 
is a unified record of medical care.
    And so that electronic medical record enables us to really 
use that as a database, which no one else has.
    Mr. Edwards. That is great. Thank you very much.
    Mr. Wamp.
    Mr. Wamp. Smart lady, great testimony. No questions.
    Mr. Edwards. Mr. Bishop.
    Mr. Bishop. Thank you for your testimony, appreciate it.
    Dr. Weaver. You are welcome. Thank you very much.
    Mr. Edwards. Any questions?
    Mr. Farr. Are we going to take care of the air for the 
veterans at the Olympics?
    Mr. Edwards. We are going to go to China and clean that up.
    Dr. Weaver, thank you very much----
    Dr. Weaver. Thank you very much.
    Mr. Edwards [continuing]. For your testimony and your 
service.
    I would like to now call before the subcommittee Dr. John 
Maupin. Dr. Maupin is president of Morehouse School of Medicine 
and is testifying on behalf of the Association of Minority 
Health Profession Schools.
    Dr. Maupin, welcome to the subcommittee.
    Let me just say, before you begin, the witnesses have done 
very well on time.
    Dr. Maupin, thank you and the time is yours.
    Dr. Maupin. Mr. Chairman, I am just curious why the warning 
would come to a college president.
    I appreciate the opportunity to be here this morning.
    Mr. Edwards. It is great to have you here.
                              ----------                              

                                          Thursday, March 13, 2008.

         THE ASSOCIATION OF MINORITY HEALTH PROFESSIONS SCHOOLS


                                WITNESS

JOHN E. MAUPIN, JR., PRESIDENT, MOREHOUSE SCHOOL OF MEDICINE

                      Statement of John E. Maupin

    Dr. Maupin. Mr. Chairman, and to the ranking member, Mr. 
Wamp, we have known each other for some time. I am glad to be 
here.
    And to my own state representative, Congressman Bishop, I 
appreciate that, and to Mr. Farr, the vice chairman.
    You have my written testimony and I will cut mine short. I 
want to go directly to a couple of issues.
    I want to be sure that you understand one passionate piece 
about me. I am a veteran. I spent over 30 years in the 
military, most of which was in the Reserves, active Reserves, 
and spent time at Walter Reed and on active duty during Desert 
Shield/Desert Storm.
    And so I am very passionate about the care. I have been in 
the places, I have been at the various posts, and so I do 
understand.
    What I really want to highlight is that we have a number of 
institutions, which I represent, the Association of Minority 
Health Profession Schools, 12 of the nation's minority 
institutions that represent medicine, dentistry, pharmacy and 
veterinary sciences.
    We have been, for many years, excluded from full 
participation as training opportunities and full participation 
in the VA. While today things are better, progress continues to 
be very slow.
    And I think at a time when we are trying to serve our 
veterans and we have institutions which really want to be a 
part of this, that it seems somewhat absurd to know that where 
there is a VA in a local town, that to have a surgery training 
program to be requested to say we can give you an opportunity, 
we want you to go from Atlanta to Montgomery, seems a little 
strange.
    Where we are participating in community-based clinics, 
working with people in the various community-based clinics to 
provide preventive care, primary care, we still would like to 
be a part of the training activity at the local VA in Atlanta, 
for example, at Morehouse, my institution, for internal 
medicine sub-specialties and surgery activity.
    This has gone on for a long time. We have worked with every 
administration of the VA to say, ``Let's open this up.''
    Progress has been made. There is more progress today than 
ever before. At one time, we were actually told, point blank, 
that when there is already a medical school in a VA hospital, 
there can only be one medical school, and it was, at one time, 
a written policy, at one time, an unwritten practice.
    And today that has opened up, but it still takes a lot once 
you have settled in and anchored in to share.
    Now, we share public hospitals across this country in more 
than one medical school and to say we can't share a VA 
facility. While increased resources are given, we think 
priority should be given to the schools and programs that have 
been excluded from the participation.
    We would like to ensure that language is put into this 
bill, your report language would include language that the VA 
put together a plan of action that ensures the full integration 
of minority health profession schools into the training and 
care programs that exist throughout all the VAs, with 
especially focusing on those which have programs that are 
nearby, that are right across the street.
    In Nashville, where I was previously president, Meharry 
Medical College went to Murfreesboro. And I know at Morehouse, 
we were initially asked to go to and have gone to Tuskegee, 
Alabama to participate.
    That disruption and that kind of inclusion, distant 
inclusion, separate but equal, if you will, has created where 
you really don't have the full advantages that the VA offers in 
training and experience and exposure, because our students come 
from poor backgrounds, want to go into areas and work in areas 
that will serve veterans.
    Many of them are public health service corps. Many of them 
have scholarships to the military service, will be veterans 
themselves. It is a great and wonderful experience and it is a 
great service we can offer.
    It also allows us to participate in research opportunities 
and we know that there are barriers in research when it comes 
to minorities trusting the research infrastructure and research 
enterprise.
    And so our participation is critical to a fair delivery of 
care, fair training, and an open research environment where 
there is a trusting relationship.
    So what we encourage is that the VA be encouraged now. They 
have removed the language of separation, but they have not been 
forceful enough to create a program of action to integrate.
    And I think when it is pushed a little harder, goodwill 
will come out and we have some people that have been very 
supportive of it, but there are others that still are somewhat 
resistant.
    And the institutions that are there now often will need a 
little more push, because they have to give up something, in 
their mind, to make room for the other institution to 
participate.
    So we encourage that language and ask for your support. We 
are ready to serve, as I have served over the years in the 
military and, most recently, just retired.
    So I look forward to my--now that I am 60, I can actually 
be a real full-fledged retiree.
    Thank you.
    [Prepared statement of John E. Maupin follows:]

    [GRAPHIC] [TIFF OMITTED] T2754C.087
    
    [GRAPHIC] [TIFF OMITTED] T2754C.088
    
    [GRAPHIC] [TIFF OMITTED] T2754C.089
    
    [GRAPHIC] [TIFF OMITTED] T2754C.090
    
    [GRAPHIC] [TIFF OMITTED] T2754C.091
    
    [GRAPHIC] [TIFF OMITTED] T2754C.092
    
    Mr. Edwards. Dr. Maupin, thank you for your excellent 
comments and for your 30 years of military service.
    Does your full formal testimony have some specific 
proposals for the VA that we could work together on?
    Dr. Maupin. It has some specific proposals and examples of 
the past, opportunities that are there, and, Mr. Chairman, I 
will add some.
    After reading the proposal, I think there are a couple of 
edits that can be put in there for the record and I will get 
those immediately back to you.
    [The information follows:]

    What is needed to put this recommendation into action?
    1. The VA--at the highest level--must commit efforts to foster 
equitable participation by historically black health professions 
schools, including historically black medical schools at the large VA 
Medical Centers in Atlanta, Nashville, Washington DC, and Los Angeles. 
The VA must also foster a closer collaboration with the HBCU dental, 
veterinary, and pharmacy schools in Washington, DC, Nashville, 
Tuskegee, Hampton, Tallahassee, New Orleans, and Houston.
    2. The VA must initiate efforts to foster collaborative initiatives 
between the current health professions school affiliates and 
historically black health professions schools to promote historically 
black health professions schools participation in inpatient and 
outpatient care, resident and student education and research. The VA 
efforts must be aligned with the individual efforts of each 
historically black health professions school working with its local VA 
Medical Center. Each VA medical center must establish an Affiliation 
Partnership Committee that includes the leadership of both the 
historically black health professions school and the current health 
professions school affiliate.
    3. HBCU medical schools must have access to VA faculty positions in 
all medical specialties and subspecialties.
    4. The Committee must get an annual progress report from each of 
the major VA Medical Centers in Atlanta, Nashville, Los Angeles and 
Washington, DC, on the medical affiliations. The Committee must also 
receive a progress report from sites of the other health professions 
affiliations in Washington, DC, Nashville, Tuskegee, Hampton, 
Tallahassee, New Orleans, and Houston.

    Mr. Edwards. If you could, we would welcome that. And it 
only seems to be common sense, as the VA is expanding and we 
have increased its budget and it is out looking for new 
physicians and dentists and others, that we reach out to all of 
our health care training facilities and universities and 
colleges.
    I assume there is a higher percentage who have done a 
residency within the VA system--I haven't seen the data, but my 
assumption, as a layman, would be that there is a higher 
percentage of those students who end up working in the VA 
system than those who haven't done a residency in the VA 
system.
    Dr. Maupin. Many of them who have had exposure end up 
coming back. It is pretty true. Once you have been exposed, you 
have a desire to want to participate in those, and there are 
other new settings, the community-based settings.
    When you have the opportunity to go to primary care, but, 
also, a hub-and-spoke relationship, which is what they call 
super CBOCs or specialty centers to serve the surrounding 
community-based centers, and we want to participate in those 
and those are great opportunities for people to participate 
there.
    Mr. Edwards. Could you also send us a list of all of the 
schools and colleges and universities in your organization?
    [The information follows:]

    Institutions which make up the Association of Minority Health 
Professions Schools (AMHPS):
    Charles Drew University of Medicine and Science
    Florida A&M University College of Pharmacy & Pharmaceutical 
Sciences
    Hampton University School of Pharmacy
    Howard University College of Medicine, College of Pharmacy, 
Nursing, & Allied Health Sciences, & College of Dentistry
    Meharry Medical College School of Medicine & School of Dentistry
    Morehouse School of Medicine
    Texas Southern University College of Pharmacy & Health Sciences
    Tuskegee University College of Veterinary Medicine, Nursing, & 
Allied Health
    Xavier University of Louisiana College of Pharmacy

    Dr. Maupin. Yes. It is included in the testimony, and I 
will update it.
    Mr. Edwards. Thank you very much.
    Mr. Wamp.
    Mr. Wamp. I live halfway between Meharry and Morehouse. I 
have seen these benefits. I have seen it not work, I have seen 
it work.
    Dr. Maupin didn't even need notes. He just shared 5 minutes 
of very good summary of what we need to consider. And those 
specific proposals, I think, Mr. Chairman, are exactly what we 
need to do.
    This is a big win for the network and the support that the 
VA can use and then you can just imagine what it does in these 
schools across the country in terms of really stimulating 
people.
    And if we are going to--there is a lot of talk about 
equality and justice, but this is where the rubber meets the 
road.
    Thank you for your testimony.
    Mr. Edwards. Thank you.
    Mr. Bishop.
    Mr. Bishop. Yes, sir.
    I appreciate very much your testimony, Dr. Maupin, and we 
have had conversations outside of the committee regarding this 
issue, and I would hope that the committee will seriously 
consider the language.
    There is some suggested language, I think, at the end of 
Dr. Maupin's testimony and I think in his testimony, he lists 
all of the various members and the kinds of training that they 
provide.
    I would hope that we would take that seriously and take his 
language as a guide and perhaps fine-tune it so that we can try 
to get the most that we can from these institutions, so that we 
can overall enhance our VA health system.
    Dr. Maupin. And given that I have heard the numbers, I 
don't know what the exact numbers are, but I have heard the 
approximate numbers that one out of three veterans is a 
minority.
    So those providing health care and working in the VA system 
ought to reflect the diversity of the great Americans who have 
served our country.
    Mr. Bishop. And the other thing that has become so clear to 
me is veterans who go to the VA community, the outpatient 
clinics, as well as the hospitals, very seldom have access to 
enough physicians.
    The VA has had a problem getting the trained physicians to 
that and it--that established relationships. And so people who 
might not ordinarily go to work for the VA when they finish 
their residencies would see that as an opportunity and those 
relationships would be built early.
    Dr. Maupin. You bet.
    Mr. Edwards. Mr. Farr.
    Mr. Farr. I have no questions.
    Mr. Edwards. Thank you, Dr. Maupin.
    Have you met with Dr. Kussman since he became secretary?
    Dr. Maupin. I have not personally, but many of our 
leadership, Dr. Sullivan--and others have met. David 
Morehouse--on the blue ribbon panel.
    We have people there. We are talking, but I think some of 
that needs a little bit more.
    Mr. Edwards. We are going to encourage----
    Dr. Maupin. I tell my students we have an arm of discipline 
and a hug of love. So we need a little arm of discipline while 
we are over here hugging with our love.
    Mr. Edwards. I understand. We will see if we can't give 
love and some encouragement.
    Thank you very much, Dr. Maupin.
    Dr. Maupin. Appreciate it.
    Mr. Edwards. I would now like to recognize our friend, Rick 
Jones. Rick, welcome back.
    Mr. Jones joined the National Association for Uniformed 
Services as legislative director in 2005. Before this position, 
he served for 5 years, as we know, as the national legislative 
director for AMVETS.
    He is an Army veteran, and we thank you for that service, 
Rick. He served as a medical specialist during the Vietnam War.
    It is a privilege to welcome you back before the 
subcommittee, and the time is now yours.
                              ----------                              --
--------

                                          Thursday, March 13, 2008.

               NATIONAL ASSOCIATION OF UNIFORMED SERVICES


                                WITNESS

RICK JONES, LEGISLATIVE DIRECTOR

                        Statement of Rick Jones

    Mr. Jones. Thank you very much, Mr. Chairman. Thank you, 
Ranking Member Wamp, members of the subcommittee.
    On behalf of the National Association for Uniformed 
Services, thank you for this opportunity to testify, and please 
accept our deep gratitude to you, Mr. Chairman and the members 
of the subcommittee, for working so hard with House leadership 
to provide the largest veterans funding increase in the 77-year 
history of the Department of Veterans Affairs, a $6.6 billion 
increase in fiscal year 2008, the current fiscal year.
    Your attention to VA and military construction reflects 
enormously well on the Nation's gratitude for these special 
people who serve in uniform and protect and preserve our 
liberties.
    Thank you.
    As we continue our base realignment and closure activities, 
it is essential that funding for construction is in place for 
housing, barracks, child care centers, medical treatment and 
training facilities exactly when they are needed.
    We urge you to see that adequate funds for military 
construction and quality of life initiatives are in place for 
returning troops and their families.
    In the National Capital Region, we urge accelerated 
construction and development of the Bethesda facilities and we 
encourage the subcommittee to make certain that the Walter Reed 
and our military medical system is fully funded, to the extent 
you have influence there, so that we may fulfill all the 
missions that they are required to do.
    Together, we really need to work to do the right things so 
they have uninterrupted care. These individuals are 
catastrophically injured. They need everything we can give them 
in these premier medical centers.
    The National Association for Uniformed Services is 
concerned that VA remain sufficiently funded and we have seen 
the President's budget and we believe that it requires $43.7 
billion in medical care, which is $2.6 billion more than the 
administration's request, $4.6 billion over current year 
funding.
    The National Association firmly believes that the veterans' 
health care system is irreplaceable as a national investment. 
It is critical to the nation and its veterans.
    Our citizens have benefited from the advances made in 
medical care through VA research and through VA innovations, as 
well as the electronic health record, which is one example of 
those innovations.
    We strongly support, as well, the disability claims 
benefits. We need to provide timely benefits to those who are 
disabled. Benefits help offset the economic effects of their 
disability and it is a central function for the Department of 
Veterans Affairs. It needs to be funded adequately.
    And despite VA's best efforts, they seem to be falling 
behind. We call on you all, lawmakers all, to make the VBA a 
priority within the upcoming budget.
    We know the challenges to provide timely decisions on 
claims. We believe the solution is to ensure that VBA has 
adequate funding to reduce the backlog and achieve its mission.
    We also urge members of the subcommittee to recognize the 
growing long-term care needs of American veterans. VA is a 
nationally recognized leader in providing quality nursing home 
care.
    One of the settings for nursing home expenditures is in the 
state veterans' nursing home grant program. The association 
strongly supports additional funding for state veterans' 
nursing homes.
    It is projected that the population of veterans aged 75 and 
older will increase to 4.5 million from the current 4 million 
population over the next 10 years.
    We are looking at veterans population in general 
decreasing, but this one is increasing. And in the current 
year, priority one nursing homes, there are 91 in line, all 
validated, submitted by 23 states.
    VA pays about one-third the cost of care in these state 
veterans' homes. So it is affordable. It is a good way to go to 
take care of our elderly veterans.
    The administration's request is for $85 million. That will 
fund fewer than 25 of those 92 homes that are ready and in 
line. We recommend that an increase be made in this area of 
$115 million above the administration's request.
    We thank you, as well, for your work on the armed forces 
retirement home.
    [Prepared statement of Rick Jones follows:]

    [GRAPHIC] [TIFF OMITTED] T2754C.093
    
    [GRAPHIC] [TIFF OMITTED] T2754C.094
    
    [GRAPHIC] [TIFF OMITTED] T2754C.095
    
    [GRAPHIC] [TIFF OMITTED] T2754C.096
    
    [GRAPHIC] [TIFF OMITTED] T2754C.097
    
    [GRAPHIC] [TIFF OMITTED] T2754C.098
    
    [GRAPHIC] [TIFF OMITTED] T2754C.099
    
    [GRAPHIC] [TIFF OMITTED] T2754C.100
    
    [GRAPHIC] [TIFF OMITTED] T2754C.101
    
    [GRAPHIC] [TIFF OMITTED] T2754C.102
    
    [GRAPHIC] [TIFF OMITTED] T2754C.103
    
    [GRAPHIC] [TIFF OMITTED] T2754C.104
    
    [GRAPHIC] [TIFF OMITTED] T2754C.105
    
    [GRAPHIC] [TIFF OMITTED] T2754C.106
    
    [GRAPHIC] [TIFF OMITTED] T2754C.107
    
    [GRAPHIC] [TIFF OMITTED] T2754C.108
    
    Mr. Edwards. $115 million in addition to the $95 million?
    Mr. Jones. Yes, sir. $85 million is what the administration 
has asked for and we would like to see $115 million more. There 
are 92 homes in line. Very few of them will be funded, and, 
oftentimes, with all due respect, sir, all those fundings go to 
the larger states, California, which is wonderful, but there 
are also some smaller states, including perhaps Georgia, Utah, 
maybe Tennessee.
    And Texas is a large state and we are pleased to see some 
of the funding go to Texas, as well.
    Mr. Edwards. So you want $290 million.
    Mr. Jones. Yes, sir.
    We are pleased, also, and we thank you very much for your 
work on the Armed Forces Retirement Home.
    The Gulfport facility is moving well, $240 million you 
provided for demolition of the towers and construction of the 
buildings. March 3 was the kickoff for the construction of the 
Gulfport facility.
    Thank you very much for your care and supply of resources 
to the Armed Forces Retirement Home and, again, thank you for 
all you do to honor our troops and remember our veterans.
    Thank you, sir.
    Mr. Edwards. Thank you, Rick. And thank you for your 
partnership last year, as in previous years, but working 
together, you and your association were an important part of 
that historic VA budget.
    And as you know, we are addressing many of these and the 
new budget we are proposing, you said we needed $4.6 billion 
above fiscal year 2008 for the VA discretionary account.
    I think the budget before the House will be $4.9 billion 
above. So we are listening and all the----
    Mr. Jones. Listening and exceeding.
    Mr. Edwards [continuing]. All the needs you have mentioned, 
including the long-term care. That is something we need to 
spend, I think, more attention on.
    Thank you very much.
    Mr. Jones. Thank you.
    Mr. Edwards. Mr. Wamp.
    Mr. Wamp. Thank you for your service and your friendship to 
all of us.
    Mr. Jones. Thank the speaker for this morning's celebration 
and remembrance of the 5-year anniversary. It was outstanding. 
I really enjoyed being there with families and friends who 
grieve for their loved ones lost.
    Mr. Edwards. It was a beautiful ceremony, very tastefully 
done, I thought.
    Mr. Farr.
    Mr. Farr. I want to echo those thoughts.
    You indicated that you wanted $4.6 billion. That would be 
the ideal.
    Mr. Jones. That is what we believe would be sufficient to 
cover the new veterans, the current veterans, who are seeking 
care, disabled and sick. Yes, sir.
    Mr. Farr. And I want to point out that because of our 
chair, the budget we are voting on right now upstairs has added 
$4.9 billion, you said.
    Mr. Edwards. About.
    Mr. Farr. So the committee is responding to the veteran 
community far beyond their expectations, and I want to 
attribute that to the leadership of Chet Edwards.
    Mr. Edwards. Great partnership.
    Mr. Jones. Thank you, sir.
    Mr. Farr. I have one question. You are the National 
Association of Uniformed Services, and then we have the 
sergeants, the Air Force Sergeants, Reserve Association, the 
AMVETS Association, Disabled Vets Association, Paralyzed Vets 
Association, and Veterans' of Foreign Wars Association.
    Mr. Jones. God bless America.
    Mr. Farr. There are a lot of association dues.
    What exactly is your organization? It sounds like both 
veterans and active duty.
    Mr. Jones. Some are specific. Air Force Sergeants 
Association, for example, you just cited.
    Our organization represents all ranks, all grades, all 
services. We represent all seven uniformed services, which 
include NOAA.
    Mr. Farr. Active duty.
    Mr. Jones. Yes. Active and retired, sir.
    Mr. Farr. And retired.
    Mr. Jones. They are survivors, they are orphans, they are 
children. We represent as much as we can to advocate the voice 
of the veterans and the service members' voice.
    We make sure that voice is heard in these corridors, and 
that is represented so well, as you are doing. We simply echo 
what you are saying, in some respects.
    There have been times, however, when it has been important 
for education to be made in some of these offices.
    Mr. Farr. Is your association bigger than VFW?
    Mr. Jones. VFW is one of the larger organizations. They 
have perhaps 2 million members. I think the American Legion, 
which you will hear from later today, may be the largest 
veterans' service organization, somewhere around 3 million.
    Ours is somewhat smaller. We have about 200,000 members and 
supporters. So we are in that area.
    We began our service in 1968, with an effort to fulfill the 
promise made to those veterans who had committed a career in 
service, and that promise was to fulfill health care for 
themselves and their families.
    Mr. Farr. Thank you.
    Mr. Edwards. Mr. Bishop.
    Mr. Bishop. I thank you for your service and thank you for 
being an advocate for our veterans.
    Appreciate your coming today.
    Mr. Jones. Thank you very much, Mr. Bishop.
    Mr. Edwards. Thank you, Mr. Jones.
    Mr. Jones. Thank you.
    Mr. Edwards. It is now my privilege to call before the 
subcommittee a command sergeant, retired, Jonathan Hake.
    Sergeant Hake is the director of military and government 
relations for the Air Force Sergeants Association and served 
nearly 30 years in the United States Air Force at 14 locations, 
and we thank you for that service.
    He joined the staff of the Air Force Sergeants Association 
this month.
    Sergeant Hake, it is great to have you here.
    Sergeant Hake. Thank you, Mr. Chairman. It is great to be 
retired, 2 weeks and counting now.
    Mr. Edwards. But you are like a lot of our military 
retirees and veterans. You take the uniform off, but you 
continue serving, and thank you for that.

                     Statement of Jonathan E. Hake

    Sergeant Hake. Yes, sir. Thank you.
    Sir, it is my honor and privilege to represent the 125,000 
members of the Air Force Sergeants Association, and thank you 
for this opportunity.
    I understand and appreciate the daunting task before you, 
as I listen to the testimony. And we also realize that your 
trust did the budget wisely, because you're trusted with the 
dollars that we contribute, and there are many factors that go 
into how you decide what is going to be funded, what is not 
going to be funded.
    So to address that, I would like to ask that all my written 
testimony be put in the record.
    Mr. Edwards. Absolutely. Without objection, so ordered.
                              ----------                              --
--------

                                          Thursday, March 13, 2008.

                    AIR FORCE SERGEANTS ASSOCIATION


                                WITNESS

JONATHAN E. HAKE, DIRECTOR, MILITARY AND GOVERNMENT RELATIONS
    Sergeant Hake. But I would like to focus on three key areas 
that are relevant to enlisted men and women.
    The first is military construction as it is related to 
quality of life, and then VA funding, very briefly, and then 
the Montgomery GI bill.
    Much attention has been given to the combat capability of 
advanced weapons systems, but I would tell you the most 
valuable weapons system America has is the men and women who 
serve, especially those that have--enlisted men and women of 
the Air Force.
    If we expect to retain this precious resource, we must 
provide them, their families, facilities that reflect the level 
of commitment and sacrifice, and these facilities impact their 
desire to continue serving through multiple deployments and 
extended separations.
    We devote significant resources to training and equipping 
America's sons and daughters, and that is a long-term 
investment, and we believe that the same level of commitment 
should be reflected in the facilities in which they live, work 
and play.
    We caution deferring these costs, as someone mentioned 
earlier about infrastructure, especially at installations that 
are being on the BRAC list.
    We applaud Congress's support for military housing 
privatization initiatives, because this is providing housing at 
a much faster pace than would have been possible through 
military construction alone.
    AFSA urges Congress to fully fund appropriate accounts to 
ensure all remaining installations eliminate substandard 
housing as quickly as possible.
    Those who are devoted to serving this nation deserve 
nothing less.
    Tremendous strides have been made to improve access to 
quality of child care and fitness centers at our military 
installations, and we are grateful to the Department of Defense 
and Congress for working together.
    But there is still more work to be done. As was mentioned 
by the gentleman that talked about VA care, a fit airman, a fit 
soldier, a fit marine, a fit sailor decreases the cost of 
medical care.
    The demand for child care facilities continues to grow as a 
larger percentage of our military are married, have young 
children, and, of course, like I said, a fit force is actually 
essential to the rigors of service.
    The next area I would like to talk about is VA funding, 
$4.9 billion, we thank you. We thank you for adding that and we 
believe the funding for the Veterans' Affairs should be moved 
to mandatory annual spending. It shouldn't be negotiated year 
after year after year.
    One of our nation's highest obligations is the willingness 
to fully fund VA health care, facilities and other programs for 
those who have served in the past, those who are serving now, 
and those who will serve in the future.
    There are many challenges facing veterans and we are 
encouraged by the initiatives centered on improving access, on 
the continuity of care and addressing scars of wars.
    Some of those scars are obvious and others are not so 
obvious, such as traumatic brain injuries and post-traumatic 
stress disorders.
    My final key point is the Montgomery GI bill. AFSA, the Air 
Force Sergeants Association, is extremely pleased by the 
interest by so many in Congress to overhaul the Montgomery GI 
bill educational benefits for those that have stepped up to 
defend America's interests at home and abroad.
    No doubt, making the Montgomery GI bill a more viable 
benefit will have an associated cost, and we unequivocally and 
respectfully offer the return on that investment is not just 
good for the military, it is good for America.
    We would like to see the Montgomery GI bill transformed 
into something like the post-World War II GI bill. This would 
go a long way toward recruiting this nation's best and 
brightest to serve.
    There are many proposals worthy of consideration, but there 
are five key elements that we believe essential in the final 
product.
    The first, we would ask the committee to fund a program 
that pays for all books, tuition fees, and that that be indexed 
annually to reflect the actual cost of education.
    Second, we would ask you to eliminate the $1,200 user fee 
from Montgomery GI. To ask an airman basic, when going through 
schooling, to pay $1,200 to get a benefit that they earn 
through virtue of their service just seems wrong to me.
    The third is to make the Montgomery GI bill transferable to 
immediate family members, and I say immediate family members. 
Military members should be permitted to spend their benefit 
however best fits their situation, including those closest to 
them that have sacrificed.
    Fourth, give enlisted members who have declined enrollment 
in the veterans' educational assistance program, better known 
as VEAP, during the late 1970s and early 1980s, an opportunity 
to enroll in the Montgomery GI bill.
    There are currently about 10,050 airmen remaining on active 
duty today in this situation, 5,600 of those----
    They passed on that VEAP program because of bad advice, 
because they thought it was a bad program, because of lack of 
foresight, a lot of different reasons. But wouldn't it be a 
travesty, as they have committed their life, decades of 
service, to leave without an educational benefit?
    Mr. Edwards. Sergeant, I hate to interrupt, but out of 
respect to all the witnesses, we are a minute over time.
    Can you take about 15 seconds? I want to hear that fifth--
to the GI bill.
    Sergeant Hake. Well, fifth and final, sir, is total force 
Montgomery GI bill. Members of the Guard and Reserve contribute 
to the missions all over the world and they have been 
protecting the homeland here since 9/11.
    So, sir, I thank you again. I am sorry I ran over.
    [Prepared statement of Jonathan E. Hake follows:]

    [GRAPHIC] [TIFF OMITTED] T2754C.109
    
    [GRAPHIC] [TIFF OMITTED] T2754C.110
    
    [GRAPHIC] [TIFF OMITTED] T2754C.111
    
    [GRAPHIC] [TIFF OMITTED] T2754C.112
    
    [GRAPHIC] [TIFF OMITTED] T2754C.113
    
    [GRAPHIC] [TIFF OMITTED] T2754C.114
    
    [GRAPHIC] [TIFF OMITTED] T2754C.115
    
    Mr. Edwards. Thank you. We will submit your testimony, very 
excellent presentation.
    We had the chief of staff of the Air Force sitting in this 
chair a couple of hours ago, General Moseley, but we know who 
runs the military.
    So that is why we are so proud to have you in that chair 
right now.
    Sergeant Hake. Thank you, sir.
    Mr. Edwards. And thank you for those years of service and 
excellent presentation, and we will follow up on those ideas.
    Mr. Wamp.
    Mr. Wamp. The good news for your members is, for the most 
part, your presentation is the agenda of this subcommittee. So 
I think we are going in the same direction.
    Sergeant Hake. If you would, please, anything that our 
association can do to assist you or your staffs, don't 
hesitate.
    Mr. Edwards. Thank you.
    You are in such close touch with the people who are really 
the backbone of our military and those that may not be making 
$100,000 a year in their service.
    So please stay in touch with us. Don't just wait to hear 
from us. Let us know your ideas, specifically what we can do to 
be in support of the men and women you represent so well.
    Mr. Farr.
    Mr. Farr. The only comment I can make is that I appreciate 
your testimony. However, I disagree with the idea that we 
should have a fixed budget, because if you had a fixed budget, 
a steady budget, without this committee's work and the 
Congress, it would be $12 billion less than it is going to be 
at the end of this year.
    So there is some merit in having the political discussion 
each year and being able to prioritize.
    Sergeant Hake. I understand completely, sir. I certainly 
don't want to put you out of work.
    Mr. Farr. No, it wouldn't put us out of work. But if we 
stuck to the old budget, you would be out of work.
    Sergeant Hake. Yes. Yes, sir. I understand.
    Mr. Edwards. Mr. Bishop.
    Mr. Bishop. Thank you very much.
    I appreciate your testimony, because, although you didn't 
dwell on it in your oral presentation, you talk about the base 
alignment and closure accounts and the need for attention to be 
given to the veterans' health that will surround that, as well 
the military health.
    But you also talk about the seamless transition between DOD 
and the VA. We have had a number of witnesses over the last few 
weeks and that is one of the issues that has been raised, that 
it is very important to have that seamless transition.
    And I am just glad that you referenced it in your testimony 
about the budgets. It is what many of us have been seeing--and 
the DOD as we talk to the respective communities--of 
jurisdictions.
    So thank you for highlighting that.
    Mr. Edwards. Great.
    Sergeant, thank you for being here.
    Sergeant Hake. Sir, if I may, before I depart, I would like 
to draw attention to five gentlemen and ladies that entered in 
blue uniforms behind me.
    Mr. Edwards. Please do.
    Sergeant Hake. They are men and women of the Air Force 
Office of Special Investigations, stationed at Andrews Air 
Force Base, all military members, proud to be wearing Air Force 
blue.
    Mr. Edwards. Thank you very much for your service. We are 
honored to be in your presence today. Thank you.
    Thank you, sir.
    Sergeant Hake. Thank you, sir.
    Mr. Edwards. Could I ask staff how much time we have before 
the next vote, before this vote finishes? So we could do one 
more witness.
    I would ask Mr. Davis, Mr. John R. Davis to please come 
forward.
    Mr. Davis served in the United States Marine Corps Reserve 
and as a second lieutenant in the Illinois Army National Guard. 
He joined the Fleet Reserve Association in February of 2006 as 
director of legislative programs.
    Mr. Davis, welcome to the subcommittee and we would like to 
recognizes you for 5 minutes now.
                              ----------                              

                                          Thursday, March 13, 2008.

                       FLEET RESERVE ASSOCIATION


                                WITNESS

JOHN R. DAVIS, DIRECTOR, LEGISLATIVE PROGRAMS

                       Statement of John R. Davis

    Mr. Davis. Thank you.
    Thank you, Chairman Edwards, Ranking Member Wamp, 
Congressman Bishop and Congressman Farr. Thanks for the 
opportunity to express FRA's views.
    I also want to thank the chairman specifically for his 
leadership and sponsorship of H.R. 579 to prohibit Tricare fee 
increases.
    On a similar note, FRA strongly opposes the VA health care 
fees proposed in the budget for category seven and eight.
    The association wants to express its sincere gratitude to 
the subcommittee for funding in the fiscal year 2008 budget the 
largest annual budget increase in the Department of Veterans' 
Affairs 77-year history.
    The subcommittee sent a clear message last year that there 
are no higher funding priorities than to ensure proper 
treatment of our wounded warriors and their families, to which 
we owe so much.
    FRA is also thankful for the fiscal year 2008 defense 
authorization bill, which includes the wounded warriors 
provision, supported by FRA. These reforms, though, are still a 
work in progress and will be successful only with adequate 
funding, adequate funding for the wounded warrior resource 
center, which is supposed to be a single point of contact for 
families, caregivers, and other interested parties; adequate 
funding for the joint DOD-VA agency that is going to set up the 
electronic health care records, an important step in realizing 
a true seamless transition; also, the VA budget, which is $1.7 
billion more than last year's, but is $3 billion less than the 
Independent Budget, which FRA supports.
    FRA is concerned that the Veterans' Benefits 
Administration, the VBA, has a backlog of more than 650,000 
claims. Over 25 percent of those have been pending for more 
than 6 months.
    The number of pending claims is actually increasing and the 
complexity of those claims is also increasing.
    In order to meet the increasing workload, the VA must have 
appropriations necessary to increase staffing and training.
    The proposed budget only increases VBA by about $50 
million, which is less than a 4 percent increase over last 
year, which we think is woefully inadequate when you take into 
account the number of claims that will increase with the surge 
of troops in Iraq, the ongoing operations in Afghanistan and 
the aging veterans population.
    FRA strongly supports adequate funding for medical research 
and the needs for disabled veterans. Noteworthy, however, is 
the fact that the proposed VA budget for medical and prosthetic 
research reflects a reduction of $38 million, and that is one 
of the most successful aspects of all the VA medical programs.
    FRA strongly supports the Independent Budget recommendation 
to increase the funding for this program by $75 million.
    We believe there is strong bipartisan consensus for reform 
of the system for evaluating disabilities of wounded service 
members and for additional funding and staffing.
    The VA can properly deliver benefits to veterans only if it 
has adequate resources and staffing to process and adjudicate 
claims in a timely and accurate fashion.
    Double-digit inflation, education inflation, has 
dramatically diminished the value of the MGIB and benefits fall 
well short of the actual cost of the college education.
    FRA supports enactment of a total force MGIB, with the 
integration of active and Reserve MGIB programs under Title 38, 
which we think is very important to provide benefits for 
services performed and enable improved administration and 
better facilitate the purposes intended by the MGIB by 
Congress.
    The nation's active duty and Reserve components are being 
integrated under the total force concept and we think that 
education benefits should be restructured and funded 
accordingly.
    FRA appreciates the administration's call for 
transferability of MGIB benefits to family members, but notes 
there is no funding to request this in the current budget.
    There are also thousands of senior enlisted personnel who 
entered military service during the VEAP era and did not have 
the opportunity to enroll in that.
    The association, FRA, continues to advocate for the 
adoption of an open enrollment period and we believe that that 
will require some additional funding, as well.
    I want to thank the subcommittee for being the only one in 
Congress that regularly invites our outstanding senior enlisted 
leaders to testify each year on the quality of life issues.
    FRA strongly supports funding for the Navy's goal of adding 
13 additional child support centers by 2013 and plans to 
increase child care capacity by almost 7,000 in this fiscal 
year 2009 year coming up.
    There are, however, currently more than 8,000 children on 
waiting lists and the average waiting time for children is 6 
months. In fleet concentration areas, it is more than a year.
    FRA also supports funding to support the Marine Corps' 
plans to add 10 child care centers by 2013, since it has not 
met its DOD goal of providing at least 80 percent of its 
potential child care goals.
    Currently, the Marine Corps has only achieved 71 percent of 
its child care goals.
    And the association also supports funding necessary for the 
Marine Corps to build 35 new barracks for bachelor housing 
for--Marines in fiscal year 2009.
    Thank you for allowing me to speak.
    [Prepared statement of John R. Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T2754C.116
    
    [GRAPHIC] [TIFF OMITTED] T2754C.117
    
    [GRAPHIC] [TIFF OMITTED] T2754C.118
    
    [GRAPHIC] [TIFF OMITTED] T2754C.119
    
    [GRAPHIC] [TIFF OMITTED] T2754C.120
    
    [GRAPHIC] [TIFF OMITTED] T2754C.121
    
    [GRAPHIC] [TIFF OMITTED] T2754C.122
    
    [GRAPHIC] [TIFF OMITTED] T2754C.123
    
    [GRAPHIC] [TIFF OMITTED] T2754C.124
    
    Mr. Edwards. Mr. Davis, thank you for your comments.
    Let me just say thanks for focusing on the backlog. With 
the funding that this subcommittee approved last year, the VA 
is in the process of hiring 3,100 new claims processors.
    I am told that the backlog is actually going down some now. 
I want to verify that. But once those are all trained and in 
place, I think you will see a significant drop in the wait 
time, and we intend to add to what we did last year.
    That wasn't just a 1-year----
    Mr. Davis. My sense of it is, what I have been told by some 
VSOs and other people that are very involved with the VA 
budget, is, in effect, that the VA, with its bigger budget, has 
sort of been a victim of its own success, that the quicker 
adjudication of claims has actually encouraged more people to 
file claims and that that actually brings in the workload.
    So even though we have added money, we had a 400,000 
backlog last year and then we added money, we made it even 
bigger, we still ended up with six--right now, I believe it was 
last month, it was about 650,000 claims backlogged.
    That is according to the Disability Subcommittee for the 
House Veterans' Affairs Committee.
    Mr. Edwards. I will follow up on that. So the waiting time 
period had gone down.
    But, of course, I would not want a single veteran not to 
apply for a claim because the backlog was so long. So I guess 
it is good news if these are veterans that may qualify and have 
earned benefits. We want them coming in.
    Mr. Davis. Absolutely.
    Mr. Edwards. If that means we have to hire more people, 
then we will do that.
    And your comment about the senior enlisted leaders 
testifying, that is one of the highlights of our year and they 
always do an outstanding job.
    Mr. Wamp.
    Mr. Wamp. Straightforward and effective. No questions. 
Thank you, Mr. Davis.
    Mr. Davis. Thank you. Thank you very much.
    Mr. Edwards. Thank you very much.
    My colleagues, I think we have got about 3 minutes and 
there is a 2-vote program upstairs. The second one is a quorum 
call.
    So perhaps we could vote quickly on that and come back down 
and continue on.
    Mr. Wamp. They are swearing in a member between the votes.
    Mr. Edwards. Are they?
    Mr. Wamp. So if you want to come right back, we can.
    Mr. Edwards. I don't mind coming back. So we will go vote, 
come back, and then we will get back and vote the second time. 
Good suggestion.
    We will stand in recess.
    [Recess.]
    Mr. Edwards. Could I call forward Mr. James Brown--Dr. 
Brown? Dr. Brown is a VA physician scientist at the San 
Francisco VA Medical Center. He is testifying on behalf of the 
VA Medical Care and Health Research, a coalition of over 90 
national academic, medical and scientific societies.
    Dr. Brown, we are glad to have you here.
    Let me just say, while we have so many groups still 
represented here, we have provided a huge infusion of money 
into the VA system, both the health care system and VBA, and we 
ask you all to be partners with us in helping us exercise 
oversight, because it is just critical that we see that the VA 
spends this money wisely.
    So be our eyes and ears, be our partners. Let's work 
together with the VA to see that this money is spent wisely, 
because if it is not, then we won't have the opportunities to 
have the kinds of increases in VA funding that we saw last year 
and that I believe that we will see this year, as well.
    With that, Dr. Brown, thank you for your service, your 
work, and for being here today.
                              ----------                              

                                          Thursday, March 13, 2008.

             FRIENDS OF VA MEDICAL CARE AND HEALTH RESEARCH


                                WITNESS

JAMES K. BROWN, VA-PHYSICIAN SCIENTIST, SAN FRANCISCO VA MEDICAL CENTER

                      Statement of James K. Brown

    Dr. Brown. Thank you, Mr. Chairman.
    As you mentioned, I am Jim Brown. I am a lung doctor at the 
San Francisco VA and have been since 1981, and a professor of 
medicine at UC-San Francisco.
    I do appreciate the opportunity to speak about the VA 
research program.
    As you mentioned, this testimony is on behalf of FOVA, 
which is, as you said, a coalition of organizations that are 
very committed to the veterans' health programs and, in 
particular, to the VA research program.
    And FOVA expresses its gratefulness to you for the increase 
provided last year in the VA research program.
    This year, FOVA recommends that the subcommittee provide 
$555 million for the VA research program in fiscal year 2009.
    So why support the VA research program?
    Because the VA research program helps attract outstanding 
physicians to serve our nations veterans. For the young medical 
graduate seeking a career exclusively in patient care, private 
practice usually pays more than the VA can provide.
    For the young physician wishing to do exclusively research, 
a university hospital or biotechnology company may be the best 
bets.
    But for one who aspires to providing care for patients and 
to doing research on illnesses, the VA is an extremely 
attractive option and, for this group of physicians, the 
opportunity to apply for VA research funds makes a career in 
the VA health care system particularly desirable.
    So as you know, I think, outstanding research within the VA 
is of many different types. At my own center, Mike Weiner uses, 
for example, magnetic resonance imaging of the brain to study 
patients with traumatic brain injury and post-traumatic stress 
syndrome, the goals being earlier diagnosis and better 
treatment.
    This work has, obviously, important implications for 
returning veterans from Operations Iraqi Freedom and Enduring 
Freedom.
    The VA research programs across the country have made 
important contributions, including invention of implantable 
cardiac pacemaker devices, creation of new vaccines, and 
development of state-of-the-art prosthetics.
    Because the aging constitute an increasingly significant 
proportion of patients within the VA, investigators in VA have 
made significant advances in Alzheimer's disease, coronary 
artery and valvular heart disease, chronic obstructive 
pulmonary disease, as you heard from Terri Weaver, diabetes and 
pain management--outstanding research within the VA and clearly 
has been good for veterans.
    A somewhat dark spot on the shining achievements of the VA 
research program is its laboratory space, which is too old and 
too small.
    As an example, our facility in San Francisco has 220 
scientists and an annual research budget of $78 million, under 
guidelines provided by the Capital Asset Realignment for 
Enhanced Services, or CARES, Commission report.
    A research program of this size should be housed in 435,000 
square feet of laboratory space, yet we have 131,000 square 
feet. We are literally turning bathrooms into offices for young 
physicians.
    This problem, along with the problem of a strong need to 
refurbish existing laboratory space within the VA has made it 
increasingly difficult to recruit and retain within the VA the 
very best physicians.
    FOVA expresses its great appreciation for the 
subcommittee's efforts to provide funding for research 
laboratories in previous appropriation bills, but feels that 
the funds have not yet been available in the amounts needed.
    For fiscal year 2009, FOVA recommends that $45 million be 
provided specifically for research laboratory space renovation.
    So in summary, FOVA recommends $555 million for the VA 
research program and $45 million for VA research laboratories 
for fiscal year 2009.
    And, again, we greatly appreciate your support in the 
increase in the research budget last year very, very much.
    [Prepared statement of James K. Brown follows:]

    [GRAPHIC] [TIFF OMITTED] T2754C.125
    
    [GRAPHIC] [TIFF OMITTED] T2754C.126
    
    [GRAPHIC] [TIFF OMITTED] T2754C.127
    
    [GRAPHIC] [TIFF OMITTED] T2754C.128
    
    [GRAPHIC] [TIFF OMITTED] T2754C.129
    
    Mr. Edwards. Thank you, Dr. Brown.
    Let me ask you this, the lab renovation or construction 
work, does that money usually come out of VA construction 
accounts or does that come out of the VISNs' operating budget? 
Are you familiar?
    Dr. Brown. I am not as familiar as I should be. But as I 
understand it, it is out of so-called minor recurring space or 
construction budget. And I think what is happening is because 
that is where it is coming from, when there are needs for 
patients and clinical programs, appropriately, that is where 
the money is going and not for research.
    And so what is needed, at least in the view of FOVA, and I 
certainly agree, is sort of a dedicated allocation for 
laboratory research space.
    Mr. Edwards. I appreciate you bringing that to our 
attention. That is an important point and we will follow up on 
that.
    Another quick question. The VA peer review process for 
determining who gets VA research dollars, would it stand up to 
the test of close scrutiny as being a fair system and based on 
logical priorities and going out to the people who really are 
truly best qualified to do that research?
    Dr. Brown. Yes, Mr. Chairman. I agree entirely with your 
comments. And the peer review system is the appropriate way to 
allocate money for research.
    I think it is an excellent system, the peer review system 
within the VA. So the answer to your question specifically is 
yes. I think it is very fair and it is an excellent program.
    And I think the reason it is important to sustain the peer 
review system is partly because it is very difficult to predict 
where the most important research observations are going to be 
made.
    Sometimes it comes from totally unanticipated lines of 
investigation. So funding the very best, brightest 
investigators, who are doing relevant research, through a peer 
review system is clearly the best way, at least in my opinion, 
to fund research, not trying to allocate for specific areas.
    Mr. Edwards. Try to withstand the pressure on Capitol 
Hill----
    Dr. Brown. Appreciate that.
    Mr. Edwards. Overshadow the peer review process.
    Mr. Wamp.
    Mr. Wamp. No questions.
    Thank you, Dr. Brown.
    Dr. Brown. Thank you.
    Mr. Edwards. Thank you, Dr. Brown, for being here, and very 
much for your service, as well.
    I would now like to call forward Marcie Granahan. Is that 
correct?
    Ms. Granahan. Yes, it is. Thank you.
    Mr. Edwards. Thank you for being here.
    Ms. Granahan is the chief executive officer for the United 
States Psychiatric Rehabilitation Association.
    Thank you for being here. Clearly, you are doing a lot in 
the area of mental health care services and we welcome your 
input and your testimony today.
                              ----------                              

                                          Thursday, March 13, 2008.

              U.S. PSYCHIATRIC REHABILITATION ASSOCIATION


                                WITNESS

MARCIE GRANAHAN, CHIEF EXECUTIVE OFFICER

                      Statement of Marcie Granahan

    Ms. Granahan. Thank you so much. I am so pleased to be here 
today and I welcome the opportunity to speak before you here on 
a topic of great importance to our members and our 
constituencies.
    I want to give you a little bit of history about our 
organization to put it in context for you.
    About 33 years ago, USPRA and its members developed and 
designed--to promote the recovery of individuals with 
psychiatric disabilities, and that includes our disabled 
veterans.
    Today's psychiatric rehabilitation services have become an 
integral part of the transformation of the mental health 
service system, as described by the President's New Freedom 
Commission on Mental Health.
    Our organization brings together agencies, practitioners, 
families, persons living with psychiatric disabilities, leaders 
in psychiatric rehabilitation education, and research from 
major universities around the world, as well as state and 
federal government entities that are dedicated to improving the 
outcomes in a cost-effective and efficient way.
    So this afternoon, I would like to address the services 
available to our returning veterans.
    Since 1775, the men and women of our armed services have 
been fighting for our freedom and our rights, and that allows 
us to enjoy our citizenship here in the United States.
    And these soldiers go out and fight for us and they risk 
their lives to bravely defend our nation, and, unfortunately, 
for some, the potential cost is their mental well-being.
    USPRA has enjoyed a longstanding relationship with 
Department of Veterans Affairs and many veteran mental health 
centers across the country.
    The principals and practices of psychiatric rehabilitation 
have been incorporated into the treatment that is offered to 
our returning veterans.
    In fact, we have a grown number of credentialed, certified 
psychiatric rehabilitation professionals that are working 
within the Veterans' Health Administration and we are very 
pleased about that.
    Unfortunately, there is a lack of funding to provide 
evidence-based rehabilitative programs to our returning vets 
and it is our belief that these veterans deserve a 
comprehensive range of rehabilitative services to assist them 
in fully returning to society and citizenship.
    Whether they receive these services as a part of vocational 
training through the Veterans' Benefits Administration or 
directly through the Veterans' Health Administration, the 
system has been unable to sufficiently provide this 
comprehensive care.
    And without these services, isolation and homelessness are 
the most likely results.
    Psychiatric rehabilitation services are provided alongside 
medical or psychiatric treatment or, when appropriate, 
supported employment services in conjunction with vocational 
training can successfully assist veterans to achieve the goal 
of successful reintegration into society.
    Of course, returning veterans, they all share the same 
goal, which is to be a constructive and productive member of 
society, and psychiatric rehabilitation services provide the 
support and the tools for these veterans to be able to reenter 
the workforce, engage with their families, and to achieve their 
dreams of a long and productive life and citizenship.
    In the 1970s, the practice of psychiatric rehabilitation 
wasn't as widely acknowledged as it is today. So the returning 
veterans weren't given as many options for recovery as they 
have today.
    For some, this led to homelessness, some unemployment. The 
American dream that they fought so hard for, it slipped away 
from them and it left them with a very uncertain life, many out 
on the streets.
    Luckily, today, many returning veterans will make the 
journey to reclaim citizenship easily and with pride, however, 
for some, struggle. And so those are the ones that we are 
really concerned about and those with some sort of psychiatric 
disorder, post-traumatic stress disorder.
    Without these programs, such as supported employment, which 
is a proven model for helping individuals with severe 
disabilities reenter the labor force, we are afraid the stories 
of the past are going to become the stories of the future.
    Supported employment is widely considered as an evidence-
based practice, a position that is supported in both quasi-
experimental studies and, also, randomized control studies, as 
well.
    According to Dr. Gary Bond, specific targeted efforts 
towards competitive employment are the most effective than 
indirect strategies. The best means to assist those with 
psychiatric disabilities is not only their achieving 
employment, but also, in maintaining it.
    Assisting consumers of mental health services in managing 
their illness or improving their social competencies will have 
a spread effect on their vocational effectiveness.
    In 2003, a study, called the Employment Intervention 
Demonstration program, better known as the EIDP, was funded by 
SAMHSA, which is the Substance Abuse and Mental Health Services 
Administration, to examine new ways of enhancing employment 
opportunities and the quality of life for mental illness 
consumers.
    The EIDP study included eight demonstration sites, as well 
as a coordinating center, and it found that a 246 percent 
increase in those who engaged in paid work after receiving 
supported services for 24 months compared to a similar group of 
individuals that have the same disabilities, which was part of 
the U.S. census taken in 1994 and 1995.
    So they compared the two groups.
    The participants of the study included individuals with 
head injuries, learning disabilities, chronic mental health 
conditions, and those diagnosed with attention deficit 
disorder, so a number of the same population.
    Mr. Edwards. Could I ask you to just wrap up?
    Ms. Granahan. Absolutely. I just wanted to say that I am 
here today to ask the committee to increase funding for 
psychiatric rehabilitation, especially supported employment 
services, within Veterans Affairs.
    We also believe that there is a need for research, as well. 
There hasn't been a great deal of research on these programs 
for, and that we ask that you conduct research for the EIDP, a 
similar study to the EIDP for those specifically in the 
veterans population.
    [Prepared statement of Marcie Granahan follows:]

    [GRAPHIC] [TIFF OMITTED] T2754C.130
    
    [GRAPHIC] [TIFF OMITTED] T2754C.131
    
    [GRAPHIC] [TIFF OMITTED] T2754C.132
    
    [GRAPHIC] [TIFF OMITTED] T2754C.133
    
    [GRAPHIC] [TIFF OMITTED] T2754C.134
    
    Mr. Edwards. Thank you, and for your focus on employment 
and the importance of that in the process of rehabilitation for 
veterans.
    Are your members psychiatrists and social workers with a 
range of backgrounds? Give me a little better understanding of 
your membership, if you don't mind.
    Ms. Granahan. Absolutely. About 20 percent to 30 percent of 
our membership are from the Veterans' Administration, 
practicing in the Veterans' Health Administration.
    About another 30 percent are those that are agencies in the 
behavioral health care field that are providing services.
    We have maybe about 10 percent that are researchers and 
educators in psychiatric rehabilitation and about another 5 
percent that are those that are state mental health directors 
that are out in the field.
    Mr. Edwards. Do you think, in terms of our need in the VA 
for psychiatrists, do you think loan forgiveness for student 
debt would be an attractive magnet to bring people into the VA 
care system?
    Ms. Granahan. If you will entertain it, I would like to 
introduce Sandy Resnick. She is a researcher and probably has 
more expertise in this area than I.
    She works at Yale. She does have an affiliation, but is not 
here today to represent that.
    May I bring her up to answer that question?
    Mr. Edwards. Quickly.
    Ms. Resnick. Absolutely. I think loan repayment programs 
are good for all students, quite frankly. It is certainly a 
draw. I know that there are many clinical psychologists, as 
well, in particular, who specifically seek out positions for 
loan payments.
    Mr. Edwards. Because we are in a unique situation right now 
where we have more money in medical services than we can spend 
in hiring new people and DOD and VA are competing for the same 
psychiatrists, psychologists, counselors, and it is a struggle 
out here.
    Thank you very much for your testimony.
    Mr. Wamp, any questions?
    Mr. Wamp. Well, I could talk with her for an hour. I just 
want to say that over 20 years ago, I was starting a 
psychosocial rehabilitation center in Chattanooga, Tennessee, 
called the Ames Center. And so this piece of taking those that 
have gone through finding what medications they need, what 
treatments they need, and then trying to reintegrate into 
society in a productive way is the piece that was missing for 
so long.
    And we have seen the Ames Center be incredibly successful. 
It is supported by our local governments at every level and 
just about everybody, the United Way on over, support it.
    This is the piece and this is important that you are 
advocating that today. That is the part that I picked up on.
    And so, clearly, as we can help fill this need, we will be 
able to transition these people into a productive life, not 
just Medicaid and treat them, but actually allow them to live 
productive lives.
    Ms. Granahan. Thank you.
    Mr. Edwards. Thank you.
    Mr. Farr, do you have any questions?
    Mr. Farr. No. I didn't hear the testimony, but I am very 
sympathetic.
    Ms. Granahan. It was wonderful.
    Mr. Edwards. It was outstanding.
    Great. Thank you very much, Ms. Granahan.
    Mr. Farr. We need a lot of psychiatric rehabilitation right 
here in our own institution.
    Ms. Granahan. Thank you very much.
    Mr. Edwards. Thank you for being here.
    I would like to now call forward Dr. Steven Breckler.
    Dr. Breckler is the Executive Director for Science at the 
American Psychological Association, a scientific and 
professional organization of more than 148,000 psychologists 
and affiliates.
    Dr. Breckler, thank you for being here.
                              ----------                              

                                          Thursday, March 13, 2008.

                   AMERICAN PSYCHOLOGICAL ASSOCIATION


                                WITNESS

STEVEN J. BRECKLER, EXECUTIVE DIRECTOR FOR SCIENCE

                    Statement of Steven J. Breckler

    Dr. Breckler. Mr. Chairman, thank you for having me, 
members of the subcommittee.
    I am Steven Breckler. I am Executive Director for Science 
at the American Psychological Association.
    APA is a scientific and professional association 
representing over 148,000 psychologists and affiliates. Many of 
these psychologists work within the Department of Veterans 
Affairs both as research scientists and as clinicians, all of 
them committed to improving the lives of our nation's veterans.
    On behalf of APA, thank you for your continued support of 
the VA medical and prosthetic research program.
    Yet, despite strong congressional support, the 
administration has again proposed to cut the overall VA 
research account in fiscal year 2009 by $38 million.
    This is an 8-percent cut. The President's budget proposes 
significant cuts in funding for eight of the VA's 21 designated 
research areas, including mental health, central nervous system 
injury, acute and traumatic injury, and substance abuse.
    This would be in direct opposition to congressional 
language which calls for additional research in the areas of 
mental health, especially the causes, prevention, mitigation, 
treatment of post-traumatic stress disorder, what we call PTSD, 
the full spectrum of traumatic brain injury, TBI, and substance 
abuse.
    A strong VA psychological research program provides the 
scientific foundation for high quality care within the VA 
system.
    VA's psychologists play a dual role, providing care for 
veterans and conducting research in all areas of health, 
including high priority areas especially relevant to veterans, 
including mental health, brain injury, substance abuse, aging-
related disorders, and physical and psychosocial 
rehabilitation.
    In addition, psychologists often receive specialty training 
in rehabilitation psychology or in neuropsychology, which helps 
to improve the assessment, the treatment and research on many 
conditions affecting veterans of the current conflicts.
    This includes PTSD, burns, amputation, blindness, spinal 
cord injuries, and polytrauma.
    The current conflicts have presented new challenges for VA 
psychologists, as many veterans with PTSD have post-concussive 
symptoms stemming from blast injuries.
    Equally important are the positive impacts of psychological 
interventions on the care of veterans who suffer from chronic 
illnesses, such as cancer, cardiovascular disease, HIV, and 
chronic pain.
    APA joins the Friends of VA Medical Care and Health 
Research, the FOVA coalition, in urging Congress to reserve 
another round of cuts and to appropriate $555 million in fiscal 
year 2009 for medical and prosthetic research.
    This recommendation is echoed in the Independent Budget and 
the House Committee on Veterans' Affairs views and estimates.
    In addition to stellar scientists, cutting-edge research 
requires cutting-edge technologies, equipment, and facilities. 
VA's minor construction program has not provided the resources 
needed to adequately maintain, upgrade and replace aging 
research facilities.
    APA again joins FOVA in urging Congress to establish and 
appropriate a funding stream specifically for research 
facilities, with an annual appropriation of $45 million, 
beginning in fiscal year 2009.
    The care of veterans suffering psychological wounds as a 
result of military service is at the heart of the VA's mandate, 
which is to care for him who shall have borne the battle.
    We must not risk our ability to serve military personnel 
and veterans in this time of war.
    This is why we urge the committee and your colleagues in 
the Senate to reverse proposed cuts to the fiscal year 2009 VA 
research account.
    Thank you, as always.
    [Prepared statement of Steven J. Breckler follows:]

    [GRAPHIC] [TIFF OMITTED] T2754C.135
    
    [GRAPHIC] [TIFF OMITTED] T2754C.136
    
    [GRAPHIC] [TIFF OMITTED] T2754C.137
    
    [GRAPHIC] [TIFF OMITTED] T2754C.138
    
    [GRAPHIC] [TIFF OMITTED] T2754C.139
    
    [GRAPHIC] [TIFF OMITTED] T2754C.140
    
    [GRAPHIC] [TIFF OMITTED] T2754C.141
    
    Mr. Edwards. Dr. Breckler, thank you. And let me say that I 
applaud the administration for using the new baseline, taking 
the emergency funding, that was technically emergency funding 
for the 2008 year of $3.6 billion above the president's request 
and use that as a new baseline and then added to medical 
services.
    So they set priorities in medical services, but I think you 
will see Congress--I hate to predict, but I think you will see 
Congress trying to maintain the increase in VA medical research 
passed last year.
    We don't do much good to plus up in 1 year and then cut 
back by $38 million in the next year.
    So we thank you.
    I have one question. Is the VA competitive when it comes to 
salaries for psychologists, competitive with the private 
market?
    Dr. Breckler. You know, I don't know the answer. I can 
provide the information.
    [The information follows:]

    APA Response:
    For entry level positions in psychology, the VA remains competitive 
with the private market. As psychologists within the VA system become 
more senior and accomplished, however, the VA becomes increasingly less 
competitive with the private sector both in terms of actual salaries 
and number of senior grade positions available. This has created a 
serious problem for recruiting and retaining psychologists, as many 
will see VA as a ``dead-end'' for their careers and will be attracted 
to other career options that offer more potential for advancement.
    In late 2003, the Hybrid Title 38 system was statutorily expanded 
to provide psychologists and a wide range of other non-physician 
disciplines some of the same personnel and pay considerations as their 
physician counterparts. The Title 38 Hybrid is a combination of Title 
38 and Title 5 provisions for non-physician health care professionals 
at the VA. Historically, Title 38 was created to alleviate severe 
shortages of health care personnel, especially for physicians in VA, by 
reducing the bureaucratic red tape of the civil service recruiting and 
hiring system and the restrictive compensation practices inherent in 
Title 5.
    Psychologists remain the only health care providers requiring the 
doctorate who are not included in Title 38. The Title 38 Hybrid was 
created to provide a middle ground solution for health care 
professionals who needed some of the same considerations as their 
physician counterparts. The hybrid model requires Professional 
Standards Boards to make recommendations on employment, promotion and 
grade for psychologists, and is still more subjective than a pure Title 
38 program, in which professionals are hired, promoted and retained 
based solely on their qualifications.
    The implementation of the new Title 38 Hybrid boarding process on 
the number of GS-14 and -15 psychologists is currently very mixed. Many 
psychologist leaders from facilities throughout the country have 
reported that their facilities and Veterans Integrated Service Networks 
(VISN) have denied GS-14 and -15 promotions that have been recommended 
by the national boarding process.
    To address this issue, APA recommends that VACO field instructions 
be modified to eliminate any reference to ceilings or restrictions on 
the number of GS-15 psychologists within VISNs and facilities. Instead, 
VISNs and facilities should be directed to the national psychology 
boarding process to determine the appropriate number of GS-14 and -15 
psychologists at their locations. VACO Human Resources, Office of 
Mental Health Services, and the National Psychology Professional 
Standards Board must collaborate on providing clear guidelines for the 
preparation of psychologist boarding packets and for proper 
construction of documentation.

    Dr. Breckler. I think that the private marketplace is 
always the competitor, it is the draw for talent and staffing, 
and that is true across federal agencies.
    So anything that can be done to make it an attractive 
option for psychologists and medical professionals and so on to 
work is always appreciated.
    Mr. Edwards. I am told that for psychiatrists, we are 
actually competitive in terms of the salary caps, where it is 
hard for orthopedic surgeons and radiologists and others who 
are making $400,000 and $500,000 in the private marketplace.
    But if you have any data in terms of how competitive we are 
on the salaries for psychologists.
    Dr. Breckler. We can provide that.
    Mr. Edwards. Mr. Wamp.
    Mr. Wamp. Mental health issues for veterans is very much in 
the news today. We never know motives behind the 
administration, but sometimes they under-fund areas they think 
the Congress believes in.
    Again, I think the chairman is right not to speak ahead of 
time, but you saw the Congress speak very loudly last week on 
mental health parity in a bipartisan way.
    I am on that team. I think you will see the Congress band 
together on increasing these accounts. To what level, we don't 
know. But I think the advocacy and the attention on these 
issues now is keen.
    So thank you for your testimony. I think it will help us.
    Mr. Edwards. It is appreciated. Thank you.
    Sam.
    Mr. Farr. Thank you very much for your testimony.
    Do you represent the whole American Psychological 
Association or just those association members that are in VA 
employment?
    Dr. Breckler. Somewhere in between. APA represents a large 
body of psychologists, clinicians, researchers, educators and 
so on. We represent far more than just those who are employed 
within the VA.
    A large portion of our membership works in the VA and some 
of those as clinicians and some as researchers.
    Mr. Farr. So I thought their number one issue this year was 
being able to get authorized as private clinicians to handle 
PTSD cases.
    These are not VA employees. These are private clinicians.
    Dr. Breckler. I don't know much about that particular 
issue, if it is the issue of private clinicians as opposed to 
those who are working within the VA.
    The practice community----
    Mr. Farr. But that is what the association came here and 
asked for.
    Dr. Breckler. Yes, and that is an issue on the practice 
side of psychology, the delivery of mental health services, and 
it is not something I am prepared to speak to, although I am 
happy to----
    Mr. Farr. You talked about the--and I am very interested in 
this--the medical and prosthetic research.
    Are you aware of what DARPA is doing in that area?
    Dr. Breckler. I am not aware of the details of the program. 
I am aware that research is taking place in many branches of 
DOD and DARPA and other segments of the federal infrastructure, 
at NIH and so on.
    They tend to complement one another. But the issues that 
surround the delivery of mental health services to veterans in 
particular and the challenges that face veterans in particular 
is what the VA is in the best position to address, because that 
is where returning vets are seen, that is where the delivery is 
provided, and that is where the research is taking place on the 
issues that face them in particular.
    Mr. Farr. I guess what I missed here is what is missing. 
The money?
    I didn't know until last year, but I am very impressed that 
DARPA is doing incredible kind of breakthrough technology 
advancement, but then the problem with prosthetics is that 
there is not a lot of market out there, so there is not a lot 
of ventured capital into those.
    You have got to have this research subsidy by the Federal 
Government.
    What is missing? Because you asked that there be more money 
put into it.
    Dr. Breckler. What is missing, sir, is in taking the basic 
advances in research and technology and materials and devices 
and so on and learning how to translate those advances into 
practice, into the delivery to people who need it.
    And so when you have basic research devoted to things like 
material development and so on, it is sometimes very difficult 
to make the leap, to make the step from there to the delivery 
of devices and rehabilitation on the front line and actually 
delivering that care.
    And so you will find branches of research where investments 
are being made in really the foundation----
    Mr. Farr. Yes, but I am specifically interested in the 
prosthetic issue. If you could check in with where that missing 
link is, because DARPA was here and the people they were here 
with are all veterans.
    So there is something going on and I am curious.
    If there is something missing, I would like to see if we 
can fix it. Sometimes, it just needs collaboration. If you have 
any knowledge of that, please let me know.
    Dr. Breckler. I appreciate the interest. I will look into 
it and get back to you on it.
    [The information follows:]

    APA Response:
    Both the VA and DARPA, the Defense Advanced Research Projects 
Agency, have active research programs seeking to advance the science 
and technology related to prosthetic devices. It is APA's understanding 
that the VA and DARPA, along with the National Institutes of Health, 
maintain collaboration between scientists working in this area to 
leverage funding and key developments while avoiding duplication.

    Mr. Edwards. Thank you very much.
    Let me ask staff. Do I understand we have a single vote? 
Rather than push the next witness, why don't we just go vote 
and come back?
    We are in recess for about 2 minutes.
    [Recess.]
    Mr. Edwards. Mr. Abate, good to have you here, sir.
    Mr. Abate. Thank you.
    Mr. Edwards. Is that the correct pronunciation, Abate?
    Mr. Abate. Yes.
    Mr. Edwards. Thank you.
    Paul Abate is Vice President of Government Services and 
Business Development of Champion Homes, and we appreciate, Mr. 
Abate, your being here and I recognize you for 5 minutes.
                              ----------                              --
--------

                                          Thursday, March 13, 2008.

                             CHAMPION HOMES


                                WITNESS

PAUL ABATE, Vice President of Gov't Services and Business Dev., 
    Champion Homes

                        Statement of Paul Abate

    Mr. Abate. Thank you, sir.
    Mr. Chairman and members of the committee, my name is Paul 
Abate. I am Vice President of Government Services and Business 
Development for Champion Homes.
    I appreciate the opportunity to testify before you today on 
behalf of Champion and the modular building industry.
    Tom Hardiman, Executive Director of the Modular Building 
Industry, is in the audience today and joins me in support of 
this testimony.
    To be clear, we are not here before you today in search of 
funds for any particular project.
    Rather, we hope to educate members of the committee as to 
the benefits and advances in modular construction and offer our 
industry as a solution for the complicated future facing 
military housing and other mission-related facility 
requirements.
    As the military attempts to update its fighting style and 
organizational structure, the impact on housing, operational 
facilities and infrastructure cannot be overemphasized.
    As this committee knows all too well, annual funding 
uncertainties make the process of construction planning and 
implementation even more complicated.
    For these reasons, modular construction can be an important 
part of the solution due to its ability to deliver quality 
products in unprecedented timelines.
    Unfortunately, certain military branches have been slow to 
embrace modern modular technology. We recognize that change 
takes time and our military leaders are appropriately focused 
on fighting wars abroad.
    However, the challenges associated with the mission 
facility as it relates to BRAC, global re-basing, and grow-the-
force require strategic planning.
    After several years of educating leaders in the U.S. Army 
Corps of Engineers, our industry has recently seen improvement 
in opportunities with the Army. The Air Force and the Navy have 
not yet favored the modular approach to date and even with 
recent improvements within the Army, much more can be done to 
incorporate modular construction.
    We are not seeking extraordinary treatment during the 
contracting process. Conventional construction may very well be 
the best option in many instances. We do, however, seek a level 
playing field between the modular and onsite construction 
industries in future construction efforts.
    In short, we encourage branches of the military to remove 
certain impediments to modular construction, ensure that the 
modular solution is viewed as a viable alternative when 
establishing the future standards via the U.S. Army Corps 
Centers of Standardization and/or any other military agency 
standards and to include the modular industry as an early entry 
partner in planning, discussions, meetings and events.
    The stereotype of modular construction as a trailer park is 
dated and completely inaccurate.
    Today's modular building solutions are models of efficiency 
and quality. New technology has allowed modular manufacturers 
to build almost any style of home from a simple rancher to a 
highly customized contemporary mansion or to build commercial 
buildings such as banks, schools, hotels, condominiums, and 
even foreign embassies.
    Modular construction can meet these demanding timeframes 
and provide quality homes and facilities for soldiers and their 
families that are indistinguishable from those built onsite.
    Time is the single biggest advantage of modular 
construction over site-built construction. Building 
construction can begin at the same time or even before site 
work is completed, reducing construction schedules by as much 
as 50 percent.
    While it is hard to determine theoretical cost savings 
without specific plans, the old adage, time is money, is 
certainly true.
    In previous discussions, with military leaders, we have 
been asked about the strength and durability of modular 
construction. Modular buildings are built to the same codes and 
from the same materials as permanent site-built construction 
and they offer the same features as site-built construction.
    We also believe that utilizing modular construction methods 
is more environmentally friendly than site-built. We are 
quantifying specific environmental benefits of modular 
construction and we will be happy to share the results with 
this committee as soon as those reports become available.
    In short, modular construction is much different than it 
was 15 years ago and we continue to evolve. The products are 
better. Fabrication technology has improved and we are faster 
than conventional construction.
    All we seek is a level playing field during future military 
construction opportunities and we stand ready to assist our 
troops, their families and the nation.
    In conclusion, we appreciate the committee's time and 
attention to this issue. We have submitted potential report 
language for consideration and look forward to working with you 
as the 2009 appropriations bill is assembled.
    We would be happy to answer any questions.
    And this is Tom Hardiman behind me from the MBI, if there 
are any questions from an industry standpoint.
    [Prepared statement of Paul Abate follows:]

    [GRAPHIC] [TIFF OMITTED] T2754C.142
    
    [GRAPHIC] [TIFF OMITTED] T2754C.143
    
    [GRAPHIC] [TIFF OMITTED] T2754C.144
    
    Mr. Edwards. Thank you, Mr. Abate, and you, too, Mr. 
Hardiman, for being here.
    Could I just ask, do you have any kind of list of how many 
different Army installations you are building homes or other 
facilities for?
    Mr. Abate. I don't have a written list. We can get one. We 
have completed projects at Fort Bliss. There is some work going 
on right now at Fort Carson.
    Mr. Edwards. Housing at Bliss?
    Mr. Abate. Barracks work, both temporary and permanent, was 
done at Bliss.
    Carson, Fort Sam, Fort Knox, all have either temporary or 
permanent barracks right now.
    We at Champion have completed a large privatization effort 
up at Fort Lewis. So that was for off-base housing through a 
developer.
    Those are the ones that come to mind right now. But, again, 
we can put a list together and get that to the committee.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2754C.145
    
    Mr. Edwards. I have got to ask this question. What was the 
formaldehyde problem with the homes tied into Katrina?
    Mr. Abate. Tom, do you want to----
    Mr. Hardiman. I knew that was going to come up.
    Mr. Edwards. For the record, if you would identify yourself 
and who you represent.
    Mr. Farr. The reason it is an issue is this committee asked 
the Department of Veterans' Affairs to look into FEMA to see if 
we could take the excess trailers and use them for housing. We 
had 250,000 vets who were sleeping in the streets.
    And if the government owns a lot of excess trailers that 
aren't full of formaldehyde, we wanted to use them.
    Mr. Edwards. We were talking about this literally as we 
were walking back down from the last vote.
    Mr. Hardiman. Again, my name is Tom Hardiman, and I am the 
director of the Modular Building Institute. We are the trade 
association that represents the non-residential side of the 
modular industry.
    And I know the modular industry is a very small niche as it 
is, but there is a residential side and a non-residential side, 
and there are two or three associations running around 
representing those.
    We, as an industry, have been up on the Hill a few times 
trying to educate members, particularly in Louisiana, the 
Louisiana delegation, about the formaldehyde issue.
    On the non-residential side of the equation, there is no 
HUD code equivalent building code. It has to be built to 
whatever the local building codes are. Wherever that building 
is going, it has to meet those local building codes, no 
different than any school or any bank or any church that is 
built there.
    On the residential side, there is a HUD code standard for 
the manufactured housing and they do have--it is my 
understanding that they do have acceptable levels of 
formaldehyde that are allowed to be in those buildings.
    I think the problem with the FEMA travel-trailers was that 
a lot of those are travel-trailers and RVs and were never 
intended to be lived in and do not have--were not built to a 
building code.
    So there is no formaldehyde requirement or limit in those 
types of products, and, unfortunately, people have been living 
in those for far too long.
    Mr. Abate. Back as far as 1980, if I could interject, the 
modular industry does comply with the reduced formaldehyde 
standard in all products that go into--the various components 
that go into the buildings.
    That is not true, as far as I understand, with the RV 
industry.
    A lot of times, when the word ``trailers'' flashes up on 
``CNN'' at the bottom of the screen, we kind of all get lumped 
together. But we do have specific requirements on our side of 
the industry that we adhere to as opposed to the RV side of the 
industry.
    Mr. Edwards. That helps. Thank you for that answer.
    Mr. Wamp.
    Mr. Wamp. The diligence wasn't done by the Department of 
Homeland Security then ahead of moving those trailers into the 
Katrina zone, bottom line.
    Mr. Abate. Well, I guess a lot of that was basically due to 
the speed of the need.
    Mr. Wamp. And that is when mistakes are made. We have done 
it a bunch of times just while the three of us have been here.
    Thank you for your testimony.
    Mr. Edwards. Mr. Farr.
    Mr. Farr. I have a lot of interest in this, because I agree 
with you on all the things you said about the advantages.
    This is a suggestion. When I was a county supervisor in 
California, the pressure was to prevent trailer parks from 
coming in, first, because they were classified as a mobile home 
and didn't have to pay property taxes.
    Secondly, they were not built that well and, as you know, 
over time, would deteriorate. And the park owners had the 
problem of getting rid of these things and, obviously, also 
pressuring people out so that a new unit would come in. And so 
you were sort of displacing elderly people.
    So you had a social issue and a tax issue.
    And it seems to me what we have really seen in the modular 
industry take off is in this commercial use for school 
classrooms, for, obviously, office space, and I know we have 
used them in the military where they are usually used for 
office or storage space, not a living space.
    You are talking about getting into the RCI projects, the 
housing construction.
    Do you have any modular home developments that are just 
state-of-the-art? Because I think that is where the sales have 
to come.
    Fighting up through local government is going to be very 
difficult for the reasons I talked about. It is going to be 
hard to change them and their codes are changing faster than 
you can adopt them.
    I think that this is an image issue that has got to be 
overcome.
    Mr. Abate. I think there are two aspects that you are 
touching on. Stigma is definitely a word that we--when people 
see trailer, they think of construction trailer. They think of 
that single-wide that sits in the mobile home park.
    The modular industry has evolved quite a bit in technology 
over the last 10-15 years. A lot of the stuff that we are doing 
today is IBC coded. So it is not HUD. It is a business code 
rather than a residential code.
    The technology to move to two-story and three-story office 
buildings, very common now. Part of the work that we have done 
in the industry for the military has involved battalion and 
brigade headquarters buildings as part of some of the BCTs down 
at Fort Bliss, VMS administration storage buildings have been 
part of that, as well.
    So there has been commercial application that has also 
already been done for the military.
    We at Champion have been a residential company for most of 
our history, with a scattering now of commercial, and we are 
now moving more toward that more commercial element to 
basically diversify the buildings.
    In single-wide, you are talking about, as far as HUD code 
and buildings, a drop in quantity. I think 397,000--produced 
about 4 or 5 years ago--are down to 97,000 produced last year.
    Part of that is the housing market in general and the 
condition of--for that. Financing, obviously, is part of it.
    But I think there is also a move more toward the modular 
home that you are basically describing as the house that you 
live in.
    It is a more sophisticated product. And these are some of 
the pictures of modular facilities that we have in a handout 
and we will be happy to hand you a copy.
    Technology is getting to the point now where we have an 
operation in the U.K. that is actually doing 17-story high-rise 
modular buildings, and we hope to introduce that technology in 
the U.S. within the next 12 months.
    So the industry itself is definitely evolving more toward 
the modular concept and, I think, away from the trailer park, 
away from HUD, and more toward IBC and IRC coded buildings.
    And you don't have as much play with that local inspector 
anymore now, because most of the states have adopted the 
international codes, which gives you a little more uniformity, 
gives you a much better inspection and QC----
    Mr. Farr. Do you have any military residential housing that 
is in that?
    Mr. Abate. Fort Lewis is actually a 2.5 year project that 
we have done in conjunction with a developer and the Fort Bragg 
project was actually two-story barracks units. There were 63 
buildings done last year by Champion.
    Tom, I don't know if you have any of the other industry 
numbers that have also----
    Mr. Hardiman. I do. If you would like, I have a copy of our 
collection of modular construction, our annual report, and it 
has representative pictures and it, as well, has a lot of the 
statistics about the non-residential side of the business.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2754C.146
    
    [GRAPHIC] [TIFF OMITTED] T2754C.147
    
    [GRAPHIC] [TIFF OMITTED] T2754C.148
    
    [GRAPHIC] [TIFF OMITTED] T2754C.149
    
    [GRAPHIC] [TIFF OMITTED] T2754C.150
    
    [GRAPHIC] [TIFF OMITTED] T2754C.151
    
    [GRAPHIC] [TIFF OMITTED] T2754C.152
    
    [GRAPHIC] [TIFF OMITTED] T2754C.153
    
    [GRAPHIC] [TIFF OMITTED] T2754C.154
    
    [GRAPHIC] [TIFF OMITTED] T2754C.155
    
    [GRAPHIC] [TIFF OMITTED] T2754C.156
    
    [GRAPHIC] [TIFF OMITTED] T2754C.157
    
    [GRAPHIC] [TIFF OMITTED] T2754C.158
    
    [GRAPHIC] [TIFF OMITTED] T2754C.159
    
    [GRAPHIC] [TIFF OMITTED] T2754C.160
    
    [GRAPHIC] [TIFF OMITTED] T2754C.161
    
    [GRAPHIC] [TIFF OMITTED] T2754C.162
    
    [GRAPHIC] [TIFF OMITTED] T2754C.163
    
    [GRAPHIC] [TIFF OMITTED] T2754C.164
    
    [GRAPHIC] [TIFF OMITTED] T2754C.165
    
    [GRAPHIC] [TIFF OMITTED] T2754C.166
    
    [GRAPHIC] [TIFF OMITTED] T2754C.167
    
    [GRAPHIC] [TIFF OMITTED] T2754C.168
    
    [GRAPHIC] [TIFF OMITTED] T2754C.169
    
    [GRAPHIC] [TIFF OMITTED] T2754C.170
    
    [GRAPHIC] [TIFF OMITTED] T2754C.171
    
    [GRAPHIC] [TIFF OMITTED] T2754C.172
    
    [GRAPHIC] [TIFF OMITTED] T2754C.173
    
    [GRAPHIC] [TIFF OMITTED] T2754C.174
    
    [GRAPHIC] [TIFF OMITTED] T2754C.175
    
    [GRAPHIC] [TIFF OMITTED] T2754C.176
    
    [GRAPHIC] [TIFF OMITTED] T2754C.177
    
    [GRAPHIC] [TIFF OMITTED] T2754C.178
    
    [GRAPHIC] [TIFF OMITTED] T2754C.179
    
    [GRAPHIC] [TIFF OMITTED] T2754C.180
    
    [GRAPHIC] [TIFF OMITTED] T2754C.181
    
    [GRAPHIC] [TIFF OMITTED] T2754C.182
    
    [GRAPHIC] [TIFF OMITTED] T2754C.183
    
    [GRAPHIC] [TIFF OMITTED] T2754C.184
    
    [GRAPHIC] [TIFF OMITTED] T2754C.185
    
    [GRAPHIC] [TIFF OMITTED] T2754C.186
    
    [GRAPHIC] [TIFF OMITTED] T2754C.187
    
    [GRAPHIC] [TIFF OMITTED] T2754C.188
    
    [GRAPHIC] [TIFF OMITTED] T2754C.189
    
    [GRAPHIC] [TIFF OMITTED] T2754C.190
    
    Mr. Hardiman. There are any number of multi, concrete 
buildings that are out there. It is not a new technology. In 
fact, there is a 19-story hotel in San Antonio that was built 
in the 1960s using modular construction.
    Virtually every other industry in our country has already, 
to some degree, except construction and--a lot of it is the 
stigma and an image issue, but we are trying to break through 
that stigma and make some agencies realize, if time is a 
concern, this is certainly a viable option.
    Mr. Farr. And it is getting the military away from that 
idea of build this way because we always have. And that seems 
to be a lot of the feedback that we get from some of the 
military agencies.
    Mr. Hardiman. The devil we know.
    Mr. Edwards. We have seen that inertia.
    Sam, any additional questions?
    Mr. Farr. No. Thank you.
    Mr. Edwards. If not, thank you both for your testimony. 
Thank you for being here.
    Members, we now have our friend, Steve Robertson, who we 
know has been director of the national legislative division of 
the American Legion since 1993.
    He served in the Persian Gulf War in 1991 as a military 
policeman and, prior to this, he served 12 years in the Air 
Force.
    We thank you for that service. But we all know him as a 
tremendous leader and voice for veterans.
    Steve, it is good to have you here. Thank you for your 
partnership over the years, but, in particular, last year, as 
we were working together to try to get the kind of historic 
increase in funding that our veterans deserved.
    The American Legion and you, representing the Legion, were 
a terribly important part of that partnership. Thank you for 
that effort.
    It is good to have you here today. Your full testimony will 
be put into the record and I would like to recognize you now.

                      Statement of Steve Robertson

    Mr. Robertson. Thank you, sir. And, gentlemen, before I 
even start the testimony, I want to thank both of you for the 
ceremony today in remembrance of the war.
    For me, it was very personal. I lost a cousin last year. He 
is buried in Waco, Staff Sergeant Chris Higgin. And then my son 
is over there right now. Matter of fact, my son landed on May 
22nd in Iraq for his second tour. That was the day our cousin 
was killed, and my son is due back in May. So we are hoping for 
a speedy return.
    Mr. Edwards. Both he and you are in our prayers.
    Mr. Robertson. Thank you. And please pass on to the 
leadership that we appreciate it very much.
    Mr. Edwards. We will do that.
                              ----------                              

                                          Thursday, March 13, 2008.

                          THE AMERICAN LEGION


                                WITNESS

STEVE ROBERTSON, DIRECTOR, NATIONAL LEGISLATIVE COMMISSION
    Mr. Robertson. First of all, I want to thank you for 
allowing me to testify today. Last year, you guys did a 
tremendous job. We really appreciate the appropriations package 
that you put together.
    The final appropriation was the numbers we were looking 
for. We greatly appreciate that.
    Clearly, for decades, this was the first time, at least in 
my memory, that the VA budget met or exceeded what the American 
Legion and many of the other veterans' organizations had asked 
for and it is because of your leadership that VA now faces a 
paradigm change, a significant paradigm change.
    For years, they have been asked to do more with less. And 
now they are being asked to do more with the resources they 
need, and we greatly appreciate that.
    This change in philosophy about the resources is very, very 
critical. The American Legion has a team that goes out and 
visits VA facilities around the country and we kept hearing the 
same things every time we would visit--we are short of people, 
we are waiting for replacement of equipment or new equipment, 
we are waiting in renovations.
    I think Dr. Brown spoke to that today in his testimony. And 
it was always the demand for services just seems to overtake 
us. We have the inability to meet the demand.
    Historically, VA leadership was asked to achieve management 
efficiencies that were never specifically identified. As a 
result of that, when we went to the field, we saw things like 
hiring delays. They weren't hiring freezes, but they were 
delays or there were equipment backlogs that were very 
noticeable, delay in maintenance, the manipulation of 
appointments, making appointments and then canceling them, then 
making them and then canceling them, then making them and 
canceling them, and other decisions that we believe were driven 
by limited resources and not sound management practices.
    In fact, many of these were peacetime decisions that have 
had their ramifications in this wartime environment, that the 
patient population has changed significantly.
    The transformation of the VA health care system is very, 
very impressive. Two decades ago, when I joined the staff of 
the American Legion, most of the complaints we got were about 
the quality of care.
    Today, the complaints we are getting are ``Why can't I get 
into the system?'' It is the veterans that are locked out 
because of their income level, not because of their service.
    The VA claims adjudication process, on the other hand, 
needs a similar transformation that the health care industry 
has gone through, but it can't be achieved without the 
resources.
    Recently, various commissions have made recommendations on 
how to improve the process. Some of these recommendations can 
be achieved administratively and then the others are going to 
require some congressional action.
    However, all of these changes are going to require the 
resources to aggressively attack the backlog problem.
    The American Legion believes the solution rests in 
additional staffing, in training, both the initial and the 
continuing education, and technology.
    Mr. Chairman, the American Legion understands the budget 
process and greatly appreciates the efforts of you and your 
colleagues, but I must stress the importance of three necessary 
elements in the VA budget--sufficiency, timeliness and 
predictability.
    We understand that the federal budget process is more 
complicated than explained in the civics textbooks, but these 
three aspects are critical for proper management of the VA 
system, especially the VA health care system.
    I wanted to bring up two specific things. The System Worth 
Saving Task Force, the team that we have that goes out and 
visits facilities, this year, are going to focus primarily on 
long-term care.
    Last year, we put a lot of emphasis on VA outpatient or the 
vets' centers, but this year, we are going to look at the long-
term care. Mr. Jones with NAUS brought up the comment about the 
extended care facilities and the amount of money they were 
asking for.
    One thing that people forget is this is a joint agreement 
between the states and VA. VA builds the facility, but the 
state assumes the responsibility for it after that point.
    Well, right now, a lot of states are going through 
budgetary shortfalls and the money that has been said, ``Yes, 
we will commit this to a state veterans' home,'' if it is 
delayed year after year after year after year, it is very tough 
to convince those states to keep that money in the lock for us.
    So that is one thing we are really concerned about.
    When I was talking about the additional staff hiring for 
the VBA, one of the things we have really been trying to push 
is that they look to hire some of our veterans that are coming 
off of active duty, especially the ones that have serious 
disabilities that are going through vocational rehabilitation.
    They just seem like logical candidates to be working in the 
claims adjudication process.
    Mr. Chairman, the American Legion continues to work with 
you and your colleagues to make sure that the veterans of this 
nation, past, present and the ones that we are going to be 
getting, receive the earned benefits from a grateful nation.
    Thank you, Mr. Chairman.
    [Prepared statement of Steve Robertson follows:]

    [GRAPHIC] [TIFF OMITTED] T2754C.191
    
    [GRAPHIC] [TIFF OMITTED] T2754C.192
    
    [GRAPHIC] [TIFF OMITTED] T2754C.193
    
    [GRAPHIC] [TIFF OMITTED] T2754C.194
    
    [GRAPHIC] [TIFF OMITTED] T2754C.195
    
    [GRAPHIC] [TIFF OMITTED] T2754C.196
    
    [GRAPHIC] [TIFF OMITTED] T2754C.197
    
    [GRAPHIC] [TIFF OMITTED] T2754C.198
    
    [GRAPHIC] [TIFF OMITTED] T2754C.199
    
    [GRAPHIC] [TIFF OMITTED] T2754C.200
    
    [GRAPHIC] [TIFF OMITTED] T2754C.201
    
    [GRAPHIC] [TIFF OMITTED] T2754C.202
    
    Mr. Edwards. Steve, thank you very, very much.
    We hear the message about sufficiency. We have done pretty 
well on that. Timeliness and predictability, we have got to be 
sure we do a better job on those and we are going to push for 
that.
    I had a conversation with some people today about the 
timeliness of the fiscal year 2009 VA Military Construction 
budget. So if the other subcommittee budgets get caught up and 
fight to the White House, I am, one, going to push very hard to 
see if we can't get the VA Appropriation Bill passed on a 
bipartisan basis and down to the president and hopefully 
signed.
    We understand that not getting the money in a timely manner 
makes it more difficult to spend it as efficiently as we 
otherwise could.
    Mr. Robertson. There is one other area that I think maybe 
it is time to take a look at, and that is the VERA formula. I 
think there were a couple of comments made about VERA today, 
the way that the money is distributed out to the facilities, 
because the formula works to get the money to the VISN 
director.
    Once it gets to the VISN director, then it is subjective as 
to where the money goes.
    With the offsets of third-party collections, a lot of 
times, facilities that do a good job collecting third-party 
reimbursements, they are rewarded with a reduction in the 
amount of discretionary money they are getting and they get an 
increase in the amount that they have got to collect through 
third-party reimbursements.
    And that is kind of like you do a good job and you get 
slapped around. What we would really encourage is to think 
about this offset. The money that is coming in from third-party 
reimbursements is really money above and beyond what we need to 
take care of, the patients that VA is focused on, i.e., the 
ones that are entitled to care, the priorities one through six.
    One year, they didn't even calculate the sevens and eights 
at all in their budgets and we were short of money.
    Well, now they are counting the sevens and they are really 
not counting the eights. Many of the eights are Medicare 
eligible. So you can't collect from Medicare.
    So you are already working at a deficit that you will never 
be able to achieve that money from.
    So I guess our concern is if we give them the discretionary 
money and then give them the goal of collecting, at least you 
are not penalizing them for what they do collect and it should 
be a surplus that they are going to get.
    Mr. Farr. What would you do with the surplus?
    Mr. Robertson. I would plough it back into the system.
    Mr. Farr. But not deduct it from the next budget?
    Mr. Robertson. No, sir. Again, the money that--the priority 
group veterans one through six are the ones that the government 
says we are going to take care of your health care and we also 
took on the obligation, and justifiably so, of all the new 
recently separated veterans from 2 years to 5 years.
    The recently separated veterans are now getting access to 
health care.
    So that is an additional obligation.
    Mr. Farr. Regardless of income.
    Mr. Robertson. Regardless of income. And after their 5 
years is up, they are going to be reassigned to whatever 
priority group they belong to. So some of them will go into 
eights, which brings up another very controversial issue.
    Of the recently separated kids that are--are being able to 
go into the system. A guy that fought at the Battle of the 
Bulge, landed at Normandy, liberated the concentration camps 
can't enroll today because of his income.
    So we are telling one guy that ``We thank you for your 
service because you fought in Iraq and Afghanistan,'' and then 
we are looking at the greatest generation and saying, ``Sorry, 
buddy, you made a successful transition, you are worth money 
now, you can't even come to the system,'' which is a travesty.
    Some of these guys, they have paid their debt to the 
country many, many times not only through their military 
service, but as a taxpayer. They have paid Medicare all their 
life and now they want to come to the VA because they know the 
reputation of VA's quality of care, and we are saying, ``Sorry, 
see you later, go someplace else,'' and that is wrong.
    Mr. Edwards. Steve, if your schedule permits, I would like 
you to stay here, let the VSOs that are part of the Independent 
Budget make their presentation, and then I would like to ask 
you to then come back up so we can ask questions.
    We have held you guys until last so that we didn't have to 
keep you just to 5 minutes and one question, because you guys 
are such an important partner in this whole effort together 
with our subcommittee.
    So would you mind?
    Mr. Robertson. We are actually friends.
    Mr. Edwards. I know you are. I know you are.
    Thank you, and we will have you come back up.
    We have got Ray Kelley, Kerry Baker, Carl Blake, and 
Christopher Needham.
    Do I understand Dennis did not want to come before this 
subcommittee, that he decided to get pneumonia? So tell him we 
have had people go to a lot of trouble not to have to talk to 
us, but he is the first pneumonia case.
    Mr. Robertson. Well, Mr. Chairman, if it is any 
consolation--was just hit in a car wreck last week and--his kid 
and his wife are at home sick, too. So he probably couldn't be 
here either.
    Mr. Edwards. Thank you all for being here.
    We all know you and have had the privilege of working with 
you, but, for the record, let me read the brief bios.
    Ray Kelley is the National Legislative Director for AMVETS, 
served 6 years in the Marine Corps and continues to serve in 
the Army Reserve.
    Kerry Baker, Disabled American Veterans, was appointed 
Associate National Legislative Director of the DAV in 2007. He 
is a service-connected disabled veteran of the Persian Gulf 
War.
    Carl Blake, with Paralyzed Veterans of America, is the 
National Legislative Director of that organization and has 
appeared before the subcommittee in that capacity several 
times.
    And then Christopher Needham is Senior Legislative 
Associate for the Veterans of Foreign Wars.
    We thank you all for being here.
    I would like you to make your presentations. If you would 
identify yourself before you speak, so we can transcribe that 
testimony accurately.
    And as you have heard, we will accept all of your testimony 
into the record.
    So if you could keep each of your remarks to 5 minutes, we 
would appreciate that, and then we will ask Steve to come back 
up and we will have an ongoing discussion here.
    Carl, are you going to start?
                              ----------                              

                                          Thursday, March 13, 2008.

                     PARALYZED VETERANS OF AMERICA


                                WITNESS

CARL BLAKE, NATIONAL LEGISLATIVE DIRECTOR

                        Statement of Carl Blake

    Mr. Blake. Mr. Chairman, Mr. Farr, Mr. Wamp, thank you for 
the opportunity to testify today.
    I was one of the four co-authors of the Independent Budget. 
PVA is pleased to be here to present our views on the fiscal 
year 2009 Department of Veterans' Affairs health care budget.
    PVA, along with AMVETS, DAV, Veterans of Foreign Wars, is 
proud to come before you this year to present the 22nd edition 
of the Independent Budget.
    I would first like to extend a sincere thanks to all the 
members of the subcommittee for the outstanding achievements 
that you recognized last year in providing record funding 
levels for the VA that, without the cooperation of everyone on 
this subcommittee, would never have been achieved.
    Your actions certainly give us hope that the VA will 
continue to receive an adequate budget in the future and be 
able to truly meet the needs of the veterans who are returning 
from the war in Afghanistan and Iraq, and who have served in 
the past, as well.
    For fiscal year 2009, the administration requests $41.2 
billion for veterans' health care. This includes approximately 
$2.5 billion for medical care collections.
    Although this represents another step forward in achieving 
adequate funding for the VA, it still falls short of the 
recommendations of the Independent Budget.
    For fiscal year 2009, the Independent Budget recommends 
approximately $42.8 billion for total medical care budget 
authority, an increase of about $3.7 billion over the 2008 
appropriated level and approximately $1.6 billion above the 
administration's requested level for fiscal year 2009.
    Perhaps the single biggest difference between our health 
care recommendation and the VA's is the projected increase in 
new users for fiscal year 2009. We are particularly concerned 
that the VA's budget might underestimate the number of OIF/OEF 
users once again.
    The administration projects that only 39,000 new OIF/OEF 
users will enter the system in fiscal year 2009. The 
Independent Budget projects about 85,000.
    Our policy initiatives include $325 million for improvement 
of mental health services and TBI care, $250 million for long-
term care services, $325 million for funding the force mission, 
that includes emergency preparedness and homeland security, and 
about $100 million to support centralized prosthetics funding.
    For medical facilities, the Independent Budget recommends 
approximately $4.6 billion. This amount includes an additional 
$250 million for nonrecurring maintenance for the VA to begin 
addressing the massive backlog of infrastructure needs.
    Again, I would like to thank the subcommittee for 
recognizing this need last year and adding a lot of additional 
funding to the nonrecurring maintenance accounts.
    We are also pleased that the administration this year chose 
to request a more adequate level of funding for nonrecurring 
maintenance initiatives.
    Although not proposed to have a direct impact on veterans' 
health care, we are deeply disappointed the administration once 
again recommends the index enrollment fee and the increase in 
the prescription drug co-payments.
    Although the VA does not overtly explain this proposal in 
its budget submission, past estimates have included about 
200,000 veterans that would leave the system and more than a 
million who would choose not to enroll.
    We would hope that Congress would once again reject this, 
as you have done in the past.
    For medical and prosthetic research, the Independent Budget 
is recommending $555 million. This represents a $75 million 
increase over the fiscal year 2008 appropriated level and about 
$113 million over the administration's request for fiscal year 
2009.
    We are certainly concerned that the administration deeply 
slashes the funding level that the appropriations committee 
provided for for medical and prosthetic research last year.
    Finally, Mr. Chairman, as you know, the whole community of 
VSOs has been working on improved funding mechanisms for VA 
health care. However, we know that there is not necessarily the 
kind of support we would like for mandatory funding for VA 
health care, but there are alternatives that we believe could 
meet our goals of timely, sufficient and predictable funding.
    We are working on a proposal right now that would change 
VA's medical care appropriation to an advanced appropriation, 
which would provide approval 1 year in advance, thereby 
guaranteeing its timeliness.
    Furthermore, by adding transparency to VA's health care 
projection enrollee model, we can focus a debate on the most 
actuarially sound projection of veterans' health care costs to 
ensure sufficiency.
    Under this proposal, Congress would retain its discretion 
to approve appropriations, retain all of its oversight 
authority, and, most importantly, there would be no PAYGO 
implications.
    We ask the subcommittee to consider language in its 
committee report that would call for either mandatory funding 
or this new advanced appropriations approach to take the 
uncertainties out of the health care for our nation's disabled 
veterans.
    We look forward to the opportunity to discuss this proposal 
further with the committee staff.
    Again, I would like to thank you for the opportunity to 
testify. I would be happy to answer any questions that you 
might have.
    [Prepared statement of Carl Blake follows:]

    [GRAPHIC] [TIFF OMITTED] T2754C.203
    
    [GRAPHIC] [TIFF OMITTED] T2754C.204
    
    [GRAPHIC] [TIFF OMITTED] T2754C.205
    
    [GRAPHIC] [TIFF OMITTED] T2754C.206
    
    [GRAPHIC] [TIFF OMITTED] T2754C.207
    
    [GRAPHIC] [TIFF OMITTED] T2754C.208
    
    [GRAPHIC] [TIFF OMITTED] T2754C.209
    
    [GRAPHIC] [TIFF OMITTED] T2754C.210
    
    [GRAPHIC] [TIFF OMITTED] T2754C.211
    
    [GRAPHIC] [TIFF OMITTED] T2754C.212
    
    Mr. Edwards. Thank you.
                              ----------                              

                                          Thursday, March 13, 2008.

                       DISABLED AMERICAN VETERANS


                                WITNESS

KERRY BAKER, NATIONAL LEGISLATIVE DIRECTOR

                        Statement of Kerry Baker

    Mr. Baker. My name is Kerry Baker, for the record, with the 
DAV.
    Thank you, Mr. Chairman and members of the subcommittee.
    I will focus my testimony on understaffing and the VBA 
claims backlog.
    Without a doubt, the claims backlog is growing. Rather than 
making headway and overcoming the delays in the claims 
processing, VA continues to lose ground on its claims backlog.
    According to VA's weekly workload report as of January 26, 
2008, just prior to us submitting similar testimony to the 
House and Senate Committees on Veterans' Affairs, there were 
over 816,000 pending claims, which include appeals.
    By February 22, 2008, there were over 831,000 pending 
claims in VA, an increase of over 15,000 claims in less than 1 
month.
    In the 3 years from the end of 2004 to the end of 2007, the 
total number of pending claims rose by over 188,000, for an 
average of 63,000 additional pending claims per year.
    VA's pending claims rose by over 21,500 just from the end 
of 2007 to February 22, 2008, in less than 2 months.
    At this rate, VA's caseload will pass one million claims in 
3 years.
    With the wars in Iraq and Afghanistan still raging, 
together with the mass exodus from military service that 
usually occurs following cessation of combat operations, new 
and reopened claims are likely--claims received by VA are more 
likely to increase than decrease.
    VBA's new claims per year also continue to increase from 
one year to the next.
    VA's 2009 budget submission reveals that VA added 277,000 
new beneficiaries to its C&P rolls in 2007. The significance of 
these new beneficiaries is that a large portion of VA's 
workload increase via new claims each year are reopened claims 
rather than claims from veterans who have never filed for VA 
benefits.
    Therefore, the increase in brand new beneficiaries into the 
system will inevitably increase further the number of reopened 
claims, ultimately causing the total number of claims received 
by VA each year to continue growing at faster rates.
    The complexity of VA's workload also continues to grow. 
Veterans are claiming a greater number of disabilities and the 
nature of those disabilities, such as post-traumatic stress 
disorder, complex traumatic brain injuries, diabetes and 
related conditions, and environmental diseases, are becoming 
more complex.
    For example, the number of cases with eight or more 
disabilities increased by 135 percent from under 22,000 in 2000 
and over 51,000 in 2006. Such complex cases will only further 
slow down VBA's claims process.
    Based on our estimated receipt of 920,000 claims in fiscal 
year 2009, Congress should authorize 12,184 FTE for fiscal year 
2009. That number equates to 83 cases per year per each direct 
program FTE.
    We realize that 83 claims per FTE is below VA's historical 
projections per FTE. Nonetheless, an infusion of new personnel 
into VBA's workforce will certainly result in a reduced output 
per FTE for a significant length of time.
    These newly allotted employees will be unable to process 
claims at rates equal to experienced employees. Additionally, 
senior staff within VBA will be forced to frequently halt 
production of their own workload in order to provide the 
necessary training to inexperienced employees.
    Therefore, the reduction in workload per FTE is 
unavoidable.
    Mr. Chairman, I have only highlighted a few of the many 
important issues contained in our Independent Budget for fiscal 
year 2009. I would be pleased to answer any questions you or 
the committee may have.
    [Prepared statement of Kerry Baker follows:]

    [GRAPHIC] [TIFF OMITTED] T2754C.213
    
    [GRAPHIC] [TIFF OMITTED] T2754C.214
    
    [GRAPHIC] [TIFF OMITTED] T2754C.215
    
    [GRAPHIC] [TIFF OMITTED] T2754C.216
    
    [GRAPHIC] [TIFF OMITTED] T2754C.217
    
    [GRAPHIC] [TIFF OMITTED] T2754C.218
    
    [GRAPHIC] [TIFF OMITTED] T2754C.219
    
    [GRAPHIC] [TIFF OMITTED] T2754C.220
    
    Mr. Edwards. Thank you.
    We will defer the questions until you are all finished with 
the testimony.
    Chris, do you want to go next?
                              ----------                              

                                          Thursday, March 13, 2008.

                        VETERANS OF FOREIGN WARS


                                WITNESS

CHRISTOPHER NEEDHAM, SENIOR LEGISLATIVE ASSISTANT

                       Statement of Chris Needham

    Mr. Needham. Mr. Chairman, members of the subcommittee, my 
name is Chris Needham. I am with the Veterans of Foreign Wars.
    And on behalf of the 2.3 million men and women of the VFW, 
I would like to thank you for the opportunity to testify today.
    The administration's fiscal year 2009 budget request for 
major and minor construction will not meet the needs of 
America's veterans.
    The VA budget is about half of what last year's funded 
level was. The president's request for major construction is 
$581.6 million for fiscal year 2009. This is a dramatic cut 
from last year's level of $1.1 billion. The total level of 
funding that the IB is recommending is about $1.257 billion, 
and we feel that would allow VA to fill in some of the large 
construction backlog that is building up.
    While the eight major construction projects called for in 
the budget request may seem like a lot, the funding levels 
requested for them are just a tiny blip in the overall cost. If 
the president's budget is enacted as is, there will be a 
backlog of over $2 billion when VA begins the planning process 
for next year's budget.
    Fully funding construction is necessary to ensure that VA 
properly reinvests in its aging physical infrastructure, where 
the average age of a VA facility is well over 50 years.
    On minor construction, we are also concerned with the 
proposed slashing of the budget there, as well. For fiscal year 
2009, the recommendation is just $329 million, which is over 
$300 billion below last year's funding level. The Independent 
Budget requested $621 million.
    In its 5-year capital plan, VA has a list of 145 minor 
construction projects targeted for fiscal year 2009. Based on 
the average project cost for minor construction projects from 
past years, VHA would require a budget of over $800 million--
requested.
    Minor construction is important because part of that goes 
to filling some of the maintenance needs. Every year, VA 
performs a facilities condition assessment which looks at the 
maintenance projects that are needed to keep the buildings up 
and running and provide health care in clean, safe and 
efficient places.
    VA has identified a backlog of between $4 billion and $5 
billion in its FCA maintenance needs and a portion of the minor 
construction goes to fund those. But the main way in which the 
FCA backlog is funded is through nonrecurring maintenance.
    As Carl mentioned earlier, we are pleased to see that the 
administration has requested $802 million for nonrecurring 
maintenance, but that is just the first step.
    It is certainly in line with what we have asked for, but 
the $800 million is basically a minimum of what is needed to 
fund current levels. If VA really needs to dip into that 
backlog, they are going to need an increase in that account, as 
well.
    Mr. Chairman, this concludes my statement. I will be happy 
to answer any questions you may have.
    [Prepared statement of Veterans of Foreign Wars follows:]

    [GRAPHIC] [TIFF OMITTED] T2754C.221
    
    [GRAPHIC] [TIFF OMITTED] T2754C.222
    
    [GRAPHIC] [TIFF OMITTED] T2754C.223
    
    [GRAPHIC] [TIFF OMITTED] T2754C.224
    
    [GRAPHIC] [TIFF OMITTED] T2754C.225
    
    Mr. Edwards. Chris, thank you.
    Ray.
                              ----------                              

                                          Thursday, March 13, 2008.

                                 AMVETS


                                WITNESS

RAYMOND C. KELLEY, NATIONAL LEGISLATIVE DIRECTOR

                     Statement of Raymond C. Kelley

    Mr. Kelley. Ray Kelley from AMVETS. Mr. Chairman, thank you 
for holding this hearing today.
    As a co-author of the Independent Budget, AMVETS is pleased 
to give our best estimates of resources necessary to carry out 
the responsibilities of the National Cemetery Administration.
    The administration has requested approximately $181 million 
in discretionary funding for operations and maintenance of NCA. 
Of that number, $105 million is dedicated for major 
construction, $25 million for minor construction, as well as 
$32 million for state cemetery grants program.
    In contrast, the Independent Budget recommends Congress 
provide $251.9 million for the operational requirements of the 
NCA, a figure that includes $50 million toward the national 
shrine initiative.
    In total, our funding recommendations represent a $71 
million increase over the administration's request.
    The national cemetery system continues to be seriously 
challenged. Adequate resources in developed acreage must keep 
pace with the increasing workload.
    Currently, there are 13 national cemeteries in some phase 
of development or expansion. The administration's budget 
provides funding for only three of these, while the NCA expects 
to perform nearly 115,000 interments in 2009, an 8.7 percent 
increase from this current year.
    Congress must also address the needs of gravesite 
renovation and upkeep. Though there has been noteworthy 
progress made over the years, the NCA is still struggling to 
remove decades of blemishes and scars from military burial 
grounds across the country.
    To date, $99 million has been invested in restoring the 
appearance of our national cemeteries, completing nearly 300 of 
the 928 deficiencies identified in 2002.
    Therefore, the Independent Budget recommends a $50 million 
commitment in fiscal year 2009, and we continue to recommend 
that Congress establish a 5-year $250 million plan for the 
national shrine, so NCA can fully restore the appearance of the 
national cemeteries to reflect the utmost dignity and respect 
for those who are interred.
    The state cemetery grant program is an important component 
of NCA. It has greatly assisted states in increasing burial 
services to veterans, especially those living in areas where 
national cemeteries are underserved.
    NCA admits only 80 percent of those requesting interment 
meet the 170,000 veteran within a 75-mile radius threshold that 
they have set for themselves. This reemphasizes the importance 
of state grant program.
    Since 1978, the VA has more than doubled the acreage 
available to accommodate more than a 100 percent increase in 
the burials through these grants that the states have 
established.
    And states have identified that they want to establish 14 
new cemeteries over the next 4 years.
    Therefore, to provide for these cemeteries and to reach 
NCA's threshold goal, the Independent Budget requests $42 
million for State Grant Cemetery Program in fiscal year 2009.
    Also, the Independent Budget strongly recommends Congress 
review the current burial benefits that have seriously eroded 
in value over the years.
    While these benefits were never intended to cover the full 
cost of burial, they now pay for just 6 percent of what they 
covered when the program was established in 1973.
    The Independent Budget requests that plot allowance be 
increased from $300 to $750, to increase the allowance for 
service-connected deaths from $2,000 to $4,100, and increase 
the non-service-connected burial benefits from $300 to $1,270.
    These increases would proportionately bring the benefits 
back to their original value.
    The NCA honors more than 2.8 million veterans with a final 
resting place that commemorates their service to this nation. 
Our national cemeteries are more than a final resting place. 
They are a memorial to those who died in our defense and 
hallowed ground for those who survived.
    Mr. Chairman, this concludes my testimony, and I am willing 
to take any questions at this time.
    [Prepared statement of Raymond C. Kelley follows:]

    [GRAPHIC] [TIFF OMITTED] T2754C.226
    
    [GRAPHIC] [TIFF OMITTED] T2754C.227
    
    [GRAPHIC] [TIFF OMITTED] T2754C.228
    
    [GRAPHIC] [TIFF OMITTED] T2754C.229
    
    [GRAPHIC] [TIFF OMITTED] T2754C.230
    
    [GRAPHIC] [TIFF OMITTED] T2754C.231
    
    [GRAPHIC] [TIFF OMITTED] T2754C.232
    
    [GRAPHIC] [TIFF OMITTED] T2754C.233
    
    [GRAPHIC] [TIFF OMITTED] T2754C.234
    
    Mr. Edwards. Thank you, Ray.
    Thank you all for your excellent testimony.
    Steve, why don't you come back up?
    As we ask questions, for the transcriber, if you would just 
mention your name once again so they can associate your name in 
the record with your comments.
    Let me just quickly say one of the things we have got to do 
in the immediate short run is try to get $17 million into the 
American Battle Monuments Commission budget for fiscal year 
2008.
    With the drop in the value of the dollar, they have no 
reserve funds. They literally have to take $17 million, I 
believe that is the correct number, out of their budget in 
maintaining the cemeteries that they have responsibility for.
    So I hope we can do something quickly on that.
    Let me start out by asking one question and then I want to 
recognize Mr. Wamp and then Mr. Farr.
    On the claims backlog, Kerry, you focused on that. What is 
your projection? The number, I am told, is that our 
appropriation for fiscal year 2008 and the supplemental for the 
Iraq war that was passed last year allows for the hiring of 
3,100 additional claims processors.
    I don't know where the VA is in that process, although 
Admiral Cooper had told me that they were moving ahead 
aggressively.
    Once those 3,100 are hired, do we then begin to bring down 
the backlog or is the increased number of claims going up so 
dramatically that we are on a treadmill here?
    Mr. Baker. Without that increase in staffing, I think that 
we will see exponential increases in claims, for a multitude of 
reasons.
    Without the increase in additional staffing, we are going 
to see exponential increases in claims. The staffing is not 
going to help us probably immediately, because in the claims 
business in the VA, you literally have--once you set foot in 
the shoes of a rating specialist, you don't come in the door in 
VA as a ratings specialist.
    There is a couple of year's process of training to get up 
to the point where you can really start handling cases in a 
sufficient manner.
    So that number of staff is initially going to draw away 
from the resources, but that is not going to be a permanent 
situation and I think you are going to start seeing this claims 
backlog going down a little bit more and faster as these guys 
get up to speed.
    I think the things that we don't know is how many new 
claims we are going to keep getting into the system. Most of 
the reopened claims you have each year are people that are 
already in the system.
    So each year we are adding 250,000, 300,000 brand new 
people into the system. How that is going to affect the overall 
level of new claims filed each year on people currently in the 
system, I don't think we can tell. But I think----
    Mr. Farr. There are several steps to the claims process. 
There is one step that is just filing the claim for the first 
time.
    Mr. Baker. Exactly.
    Mr. Farr. And I have just been told that that actually 
processes very fast.
    Mr. Baker. That doesn't take----
    Mr. Farr. A couple days or something or a week.
    Mr. Baker. Not even that. It depends on if you have a 
representative or if you have everything that you need for 
that----
    Mr. Farr. But then it is getting the rating, right?
    Mr. Baker. The vast majority of the time spent in claims is 
not--I will say the shortest is filing the claim and then once 
that claim is actually ready to rate, all the evidence is 
developed, rating it. Those are the two fastest things in the 
process.
    Everything in between is where you get the backlog.
    Mr. Farr. So the rating comes pretty fast. You have got to 
have a lot of information and sometimes that is a problem.
    Mr. Baker. Exactly. For a gentleman coming out of the 
service now, all the evidence is going to be there. That goes 
straight to the VA.
    Any examination that they might need that they didn't get 
while in the service, which most of them are being done while 
they are in the service, you are going to have those claims 
filed fairly quickly.
    But if you have a Vietnam vet that can get the service 
records, any private treatment records, any verification of 
military records for stress or--incidents and things like that.
    That is where the time is eaten up in the initial rating 
decision is getting better----
    So we have had a lot of hearings on IT development, 
artificial intelligence, things like that, to develop some type 
of rules-based decision-making process.
    Those resources would be put to good use by speeding up the 
development process and I think VA would agree with that, as 
well, because you can only do so much on----
    Mr. Farr. The committee has been told, with all these 3,100 
new claims processors, that it is going to be really quick. But 
you are saying that the delay is really between these levels.
    It is getting the file from the opening claim to the rating 
process.
    Mr. Baker. The new staff is absolutely going to help. None 
of this would work without additional staff at this point. At 
what point in time would that new staff be able to make a 
difference?
    It is hard to tell.
    Mr. Farr. You file a claim essentially in your district, 
right? The rating is done somewhere else?
    Mr. Baker. It is usually done within that state and 
regional offices within that state.
    Mr. Farr. So it has to go from the local to the regional. 
And then what?
    Mr. Baker. Well, in most circumstances. I mean, most of the 
time, if you can fill out the application at home yourself, you 
can just mail it to the regional office. But a lot of times, 
you are going to go see a claims representative in the field at 
the regional office.
    People that go right to the regional office, they just go 
from one room to the next and they have got the claim.
    But it is all the evidence developing that is where time is 
eaten up.
    Now, there are some things that VA can't do anything about. 
If it is private treatment records they need, if a claim is for 
post-traumatic stress disorder and the veteran doesn't have a 
Purple Heart or a combat badge, they have to wait for people 
like the Center for Research of Unit Records to verify through 
official military records.
    So how do you go about speeding those processes up? That is 
a good question.
    Mr. Robertson. Mr. Chairman, if I may add. Steve Robertson 
from American Legion. If I may add.
    Several years ago, we were allowed to hire a tremendous 
number of new claims adjudicators under the Exceptional Student 
Program. It was kids right out of college that were 
academically pretty bright kids.
    But there was a tremendous attrition rate. Once they got 
into the payroll, then got into the job, they realized, ``This 
isn't what I want to do'' and there was an attrition rate that 
was pretty high, and that, coupled with the normal attrition 
rate of people getting older and retiring, et cetera.
    This is not an occupation that you put a notice out on the 
street saying, ``Hey, we are looking to hire you guys.'' I 
mean, it is a very concentrated science and the claims 
development is a very, very critical part of that.
    If you don't put your package together properly, it is 
going to run into a series of ``We need this documentation.'' 
So it goes back to the veteran and then it goes forward and 
``we need this documentation'' and that is one of the things 
that I think VA has gotten better at over the years.
    Used to, they would identify one thing and send it to you 
and say, ``We need this,'' and then they would go down the list 
and find the second thing. Now they are at least saying, ``We 
need these following documents to be able to develop the 
case.''
    But just because we are going to be able to hire them, that 
attrition is what is the real key thing that we are concerned 
about, and that is why I mentioned we think that if they would 
focus on trying to hire veterans that are coming out of the 
military that see this as a career path that they are 
interested in doing, veterans helping veterans, that their 
learning curve will probably be a lot higher, because they 
don't have to look in a book to figure out what an M-1-51A was, 
because they already are familiar with the terminology and they 
will know exactly, I think, how to communicate better with the 
veterans when they are looking for specific items.
    Mr. Edwards. Is the VA not doing that?
    Mr. Robertson. I can't answer that question, because we 
keep asking it and I don't get an answer. I think that that is 
something that--we have got so many guys that are going through 
voc rehab that are really not certain what career path they 
want to take, that this may be something that VA might want to 
think about, saying, ``Son, have we got a deal for you.''
    And if you are going to spend money on training somebody 
for a vocation, why not train them to fill a vocation that you 
need people in?
    Mr. Baker. I think they are looking at something like that. 
I can't give you the details on it.
    But put the people to use, I think, to get to the point of 
your question, there has to be a lot of things that happen.
    One, you have to get them, and, two, you have to improve 
the training process. Right now, they are so short on 
resources, they cannot implement any additional policy 
initiatives, because it just takes people away from critical 
areas and they can't afford any new changes.
    These extra people will allow them to do that, I think, but 
then those changes have to be implemented and training has to 
be improved. It absolutely has to be improved or we are going 
to keep making mistakes--appeals right back to day one.
    Accountability has to be improved. Right now, an average 
size regional office--their quality assurance program, we will 
leave it at that.
    They look at 10 to 12 cases per month for an average size 
regional office. That doesn't even come to 1 percent. You 
can't--problems are in the rating process when your people are 
1 percent of analysis.
    So there are a lot of things that need to be done.
    Mr. Farr. I think the question is we originally got all 
this feedback that everything was hunky-dory, all this new 
staff, it was going to work well.
    You come in and say the claims backlog is a big problem. 
And it seems we are not talking apples to apples here, because 
there was a breakdown in different aspects of the process, 
maybe a breakdown in training, maybe a breakdown on 
qualifications.
    But once you get into the system----
    Mr. Baker. It is not as cut-and-dry as hiring new people, 
but nothing can be done to improve the system without hiring 
new people. But if you do a combination, in my opinion, I think 
all of our opinion, of various improvements at all levels, once 
you have got the people in place to do it--veterans' appeals 
level, at the regional office level.
    When you have the personnel to put those initiatives in 
place, you are going to see improvements just in the new people 
that you have allocated funds for. But there are also the 
changes that you make that you really start putting those 
people to use in the most beneficial way.
    I had offered a lot of different numbers in the claims 
backlog, 400,000, here earlier today. I am not sure where all 
those numbers come from. We get ours straight from the VA's own 
Website that they put out weekly.
    Those include appeals and claims, but a pending claim is a 
pending claim----
    Mr. Blake. Mr. Farr, Carl Blake. One other suggestion I 
would make, too, is kind of an oversight function. I would 
suggest that maybe late in summer, as you get close to the end 
of this current fiscal year, you bring the VA in and you ask 
them, ``How many of the people did you actually hire that we 
gave you the funding to hire? Did you hire the 1,800 or the 
3,100'' or whatever the number is that is out there.
    And if they tell you, ``No, we only hired 1,000,'' well, 
that changes the game a little bit, too.
    It is easy to sit here and say, ``We gave you the money to 
hire them'' and the VA to say ``We are going to hire them,'' 
well, let's see if you follow through on it and then their feet 
have to be held to the fire to do it or else I am not so 
certain they will do it.
    Mr. Edwards. That is a good suggestion. You guys have got 
to be partners with us in this oversight process. We don't have 
enough staff to exercise the kind of oversight we would ideally 
like to have.
    But we have got great partners and I know you guys are out 
there in the hospitals and the field and help us with that.
    Mr. Robertson. And I just want to add one other thing. Our 
organization is really focusing on the case development that 
our service officers assist the veteran to make sure that we 
put together a package, in the final package, so that it is not 
being kicked back looking for more information.
    And we are doing--we have re-certifications every year of 
our people to make sure that they are up on the latest changes 
and make sure that they are doing it right, and then we also 
have our own inspection team that inspects our own people to 
make sure we are doing it right.
    All these little changes, as they are saying, once all the 
dominos start falling into place, then I think you will see a 
dramatic change. But it is not a light-switch fix, I mean, just 
because we have got the money and we have got the people, that 
it is all going to get well overnight, because it is a very 
interesting process.
    Mr. Blake. And as an example with the training, all of the 
organizations have their own service officer staff. We have 
very complex training programs that each of the organizations 
puts their own service officers through.
    Just from DVA's perspective, we bring in a new hire as a 
service officer, they spend 18 months doing work where they are 
working hand-in-hand with an experienced service officer, where 
they never, at any point in time, have their hands only on a 
claim file for the veteran.
    So they are always being held step-by-step and there are 
constant reviews of their performance as they do this. And even 
after that point, they are only kind of halfway released and 
then there is a continued follow up so that, at another 18 
months, they are reevaluated and tested, and then this testing 
and training regime continues on throughout their career at 
every step as they go through the service officer levels in our 
own organization.
    Mr. Robertson. And I think that is one of the mistakes that 
VBA has made, because once guys get certified and blessed, 
their recurring training is almost nonexistent. And that was 
one of the biggest complaints that we heard.
    If a guy keeps making the same mistake over and over and 
over for 10 years, it is going to add to the backlog.
    Mr. Edwards. Good point.
    Mr. Wamp.
    Mr. Wamp. At our first veterans hearing of the year, the 
first concern was record funding, new baseline, all good news, 
tons of money, but we are going to really mess ourselves up if 
we don't demand accountability coming with the money, if we 
don't measure our progress.
    If we have any Walter Reed related type inefficiencies or 
scandals in this new money, it will kick back on us and 
veterans will be the victims.
    He is exactly right. You all are like deputies for us. But 
I can tell you what the members of your organizations in 
southeast Tennessee and north Georgia, the 18,000 that use CBOC 
in Chattanooga tell me is that they still want to be empowered 
with more options on how to use that veterans' health care 
money.
    They would like to have a voucher in their hand where they 
can use the VA facility if they choose. But, see, our hospital 
is 2 hours from where they live, in some cases, 3.5 hours from 
where they live.
    They are not satisfied. They would like to have the option 
of going to the local hospital and using that Medicare 
reimbursed voucher that Medicare rates to use a local hospital, 
so their family can come see them, so that they don't have to 
be transported in a dangerous van, where veterans died 2 years 
ago going across the mountains to the hospital.
    They also don't want to have to wait. So I think we have 
got to be careful. Our job here is twofold, in my view, to make 
sure the resources are there, but it is not just a money thing, 
and I will give you an example.
    Your Independent Budget advocates an increase. Well, 
ranking members of the Veterans' Affairs Committee here put 
forth a proposal to trump that, raise the independent request 
across the board, and it is incorporated in the Republican 
budget up on the floor right this minute, making room for $2.1 
billion more than you all asked for.
    So before we just have a high stakes poker game and 
everybody raises everybody, our second responsibility, besides 
making sure the resources are there and actually determining 
how much can be expended in an official way over the next 12 
months, is what reforms are in place to make sure that we are 
holding the people accountable for spending the money.
    The inspector general comes in here from the VA and says, 
``Very problematic financial management practices at the VA.'' 
Whoa, big red flag. How can the organization with state-of-the-
art medical records, best in the world, also have weak and poor 
financial management? It is there.
    So those are the challenges we face and we do need the 
input and we need the input not just got to have more, got to 
have more, got to have more, because, again, there is a contest 
here on how much is more, how much is enough.
    But I will guarantee you you are right on a whole lot of 
fronts, because I sit and listen and I see.
    In our federal national cemetery in Chattanooga, we have an 
opportunity to pick up land, because it runs out of space in a 
few years. And why in the world the cemetery division of the VA 
doesn't go ahead and take the land on these facilities when it 
is available, I don't know.
    I hope this committee will move on that in some places, 
because otherwise you are going to end up--they don't exactly 
respond quickly when it is time.
    So if you don't plan ahead to 10 years from now, based on 
veterans' interments, there is not going to be places to bury 
these people, and that is unfortunate.
    So we want to do this work in a bipartisan way. I think it 
is up to this subcommittee. The chairman is incredibly fair and 
bipartisan. It is up to us to cut through some of the noise out 
there and get to the facts with a surgical knife, and that is 
where we need you all to tell us exactly what is not happening 
and needs to happen on behalf of your members.
    Mr. Robertson. Mr. Wamp, if I may point out something about 
vouchers.
    There are doctors that won't accept Medicare patients 
because Medicare's reimbursement rates are too low. There are 
Tricare veterans, veterans who are eligible under Tricare that 
doctors refuse to take Tricare patients because the 
reimbursements rates are too low.
    Mr. Wamp. Let me tell you that we set up a demonstration 
for 2 years for the money in place for veterans to go to our 
full-service, $500 million a year public hospital and the VA 
wouldn't refer people to them, because the mindset is, at the 
VA, if you don't get the health care at the VA, it is not 
acceptable.
    So the flipside of what you are saying is there are 
veterans without the options that they want from providers that 
will accept Medicare.
    I am not saying go in that direction. I am saying if the 
veteran chooses and the provider will do it, don't deny that 
option. That is what I am saying.
    Mr. Robertson. And you are exactly right. VA has the 
authority now to contract out services.
    Mr. Wamp. They won't do it even when you put the money in a 
pot and say here it is. It is not the money that would come 
away from your benefits. This is for this purpose. They 
wouldn't do it. They wouldn't do it for 2 years. They won't do 
it in other parts of the country.
    They need to do it. I mean, Sam and I have talked about it. 
In no way should this take away from the current system. This 
should be in addition to the current system, where it is 
appropriate, where it is acceptable, where there is an 
agreement.
    Mr. Robertson. We have advocated that on rural health care 
initiatives.
    Mr. Wamp. Right. We are not going to build a new hospital 
in my service area. I wish we would. I wouldn't have this 
problem.
    But we are in the top five in the country in degraded 
service the VA studies. In Las Vegas, they were in the top five 
with us. They got a hospital. We are not going to get a 
hospital, not a fast-growing area like Las Vegas.
    So there are areas, like pockets of pain, where more 
options are better than less.
    Mr. Robertson. Yes, sir.
    Mr. Blake. Mr. Wamp, just a couple of comments.
    I don't disagree with the fact that if you give that as an 
option for something like a voucher, that they wouldn't take 
it.
    Our concern is we believe there are far greater unintended 
consequences, taken on the whole. Kind of to Steve's point, we 
have fully advocated for the fact that VA has the authority 
under circumstances like a lot of your veterans face about 
access to care, they have the authority to make sure those 
veterans get the care and they just don't use it properly.
    That is the purpose of fee-basis care. I think the idea of 
vouchering has a far more dangerous consequence, potentially, 
because, I hate to say, but veterans might--I think the 
convenience of being able to go wherever, while, on its face, 
sounds like a good thing, the VA does rely on a critical mass 
of patients.
    And if you give veterans the option to go somewhere, I 
think they will just go because they think, ``Well, it works 
out better for me in this case,'' and I don't think you want to 
put the VA in a situation where now they don't have the 
facilities, doesn't have the critical mass of patients it 
requires to continue to operate, and that creates a little bit 
of a slippery slope for maybe a facility.
    But I think the VA has the authority to address exactly 
what your concern is.
    Your point about the financial management of the VA, I 
couldn't agree more. And one of our concerns, I think all the 
organizations have had since the record funding level was put 
in place for 2008 is can the VA efficiently and properly handle 
that kind of money and spend it wisely.
    The one kind of passing comment I would make in defense of 
the VA is let's not forget that that was provided in January-
February. So a third of the fiscal year has gone by and, yet, 
they still have to get that money spent by October 1, in 
theory, with some authority for carryover.
    But the vast majority of that money has to be spent in a 
substantially shortened amount of time and while I think they 
could do it if they had the mechanisms in place and did it 
right, I am not sure that I am entirely confident that they 
can, and it is going to definitely be incumbent on all of us to 
hold the VA's feet to the fire to make sure they spend it 
wisely.
    Mr. Wamp. Unfortunately, we are headed for another year 
like that in the coming year, if we are honest with ourselves, 
because of the situation we find ourselves in.
    I was talking with Mr. Murtha about that today. We are 
probably headed for another half a year C.R. kind of a 
scenario, which is going to cause a pinch for even the hiring 
that we are talking about holding them accountable for.
    If you don't have the money until 6 months before the end 
of the fiscal year and you have got measurements for new hires, 
it is hard to do all that in a shorter period of time.
    Mr. Blake. The other thing to think about, too, is while 
the appropriations bill was enacted in January, by the time 
that gets to the level where that money is spent, the year is 
almost entirely gone.
    By the time the medical facilities, and even filter down to 
the individual CBOCs, get that money, we are already looking at 
October 1. It is summertime usually by the time that money is 
doled out to the people that spend the money. That is just 
crazy.
    Mr. Robertson. And it is a hell of a ripple effect. It 
impacts construction, it impacts medical research, because the 
timetable on when research projects come along, if there is not 
money there to grant the next continuation, you lose it.
    Employees, you are talking about how hard it is to bring in 
a psychiatrist or an orthopedic surgeon. If there is no 
security that, ``Hey, my job is going to be there next year or 
I am not going to be released because there is not funding or 
they are going to have to, for whatever reason, curtail my 
staff,'' that is not what people want to do.
    They want to be able to go someplace and practice their 
medicine and know that they are going to have full staffing and 
be able to do the things that they need to do.
    Mr. Wamp. One final note, and I am done, too.
    This idea that the VA is not hiring a certain percentage of 
veterans for these positions is terrible. We ought to all 
mandate that that is the number one mantra of the VA, so that 
we all know always that that is their top priority.
    I mean, my gosh, that is like the biggest no-brainer that I 
have heard in the 2 months that I have been coming to these 
hearings. If they are not doing that as number one priority and 
we have got people trying to reintegrate into our society in a 
productive way from war, what in the world do they exist for?
    So that needs to be right up at the very front of their 
mission statement that they stand for that and can report to us 
on that progress.
    Mr. Blake. And as a perfect example, there is a federal 
goal established for contracting that says that any federal 
agency should contract with 3 percent of veteran-owned and 
service-disabled veterans on small businesses, and the VA does 
not meet that 3 percent goal.
    Mr. Edwards. The VA doesn't.
    Mr. Blake. The VA does not.
    Mr. Edwards. The VA ought to have job counselors going out 
there to the military installation where troops are retiring 
and say, ``Hey, come to work for VBA or VHA,'' and get people 
for whom it would be a labor of love.
    Mr. Baker. I was going to suggest some of the hiring in 
DVA--for VHA is not that they won't do it----
    Mr. Edwards. Sam?
    Mr. Farr. I wanted to ask you, Carl, are you working on my 
little issue of getting specialty golf carts on all the 
courses?
    Mr. Blake. I don't know that I would be handling that, but 
I could take that back to some of our government relations 
folks and ask about it.
    Mr. Farr. Well, we won the battle with DOD. They now 
realize that they have to do it under the ADA. They are going 
to go out and buy two golf carts.
    Then I predict they are going to come back and say, ``But 
they are never used, because nobody who is disabled plays 
golf.''
    Mr. Blake. I would have to take that back. I am sure 
between our force folks and----
    Mr. Farr. You ought to be very involved in that.
    Mr. Blake. Between our sports and recreation folks and our 
advocacy people who deal with the ADA, I will be glad to talk 
to them about that.
    Mr. Farr. Would you look into that?
    Mr. Blake. Yes, sir.
    Mr. Farr. And the second, I guess, is with Ray. Maybe you 
could help me.
    California has decided, as a state policy, that they won't 
build any more state veterans' cemeteries.
    We have property at Fort Ord that is still in DOD's 
ownership, and what we have had to do is go to a third party 
process. We are doing a feasibility study, about a $250,000 
feasibility study that the local governments are paying for on 
how to bring in a developer to develop a veteran's cemetary on 
the property.
    We have enough land there to develop a full-scale veterans' 
cemetery and enough land to do something else, perhaps another 
civilian cemetery, private cemetery.
    Because of the cost, the state refuses to participate in 
it. They don't want the ongoing administrative costs.
    The state will actually make the application, but they 
won't have any skin in the game.
    I would be very interested in how you might be able to work 
with us, because the VA is going to accept the state's 
application and they are going to reimburse what is 
reimbursable.
    But you have still got this big gap. How do you bring the 
private sector in?
    If you know how to do that, I would appreciate hearing from 
you.
    Mr. Kelley. I will take that back and I will work with--I 
have got a fairly good relationship with the people at the 
cemetery administration.
    Mr. Farr. They are not opposing this. They can understand 
why California doesn't want to do it, but we have tried for 5 
years to change the politics and we can't.
    The last thing I want to ask all of you, is for help 
spreading the word about the Veterans History Project. Congress 
authorized the Library of Congress to set up a depository for 
all of the histories of veterans that can be gathered.
    I did one about a week ago--you have to be trained on how 
to ask questions. But they have a kit that shows what kind of 
questions to ask because the veterans have to talk.
    And what we are finding is we need to get the outreach 
where the veterans are. The American Legion ought to take it on 
as sort of their mantra.
    Mr. Robertson. Sir, just to let you know----
    Mr. Farr. Every chapter could be the recorder who sits down 
with a vet and asks questions. You can tape it on any kind of 
recording device, either a video camera or if the vet doesn't 
want video, you can just do it with voice.
    The benefit is, that a lot of the old vets who have never 
wanted to tell their story are talking now.
    High school teachers want this as a project for students, 
for writing projects and for learning how to put together 
papers.
    The teachers are asking the students if they will go out 
and interview their grandparents. And these vets will say, 
``You know what? I am at an age now where I want to tell that 
story.'' And it is really tear-jerking, it is incredible.
    Then these will all be sent to the Library of Congress.
    Senator Lugar has done the best job of this in the United 
States. He has collected 7,000 of them. But what we find is 
that when I go talk to veterans' organizations, they have heard 
about it, but they don't know what to do about it.
    And I think that you, as Washington connections, ought to 
encourage all of your members to engage in this project and 
find out how to get it done all over the country, because 
Congress wants to get every one of those stories down.
    Mr. Wamp. Will you yield on that?
    Mr. Farr. Yes.
    Mr. Wamp. I was involved 7 years on leg branch with 
Representative Hoyer in setting that up and in Chattanooga, 
where I live, I was actually able to recruit one of the network 
television stations, the same hospital that we did the demo in, 
$500 million hospital, and the largest bank in our state, to 
sponsor the Veterans' History Project every week for 3 years on 
network television.
    And the stories that were told and the videos that were 
drawn and the outreach that the TV stations did to our World 
War II era veterans was the most emotional thing you have seen.
    I have been to multiple funerals of my constituents where 
videos were played at the veteran's funeral of their telling 
the story that they wouldn't have told had it not been for the 
Veterans' History Project.
    You are talking about the crowning moment for the family is 
that not only did they finally draw it out, but they were 
actually able to honor them with that at their funeral.
    Mr. Farr. But we are having still a little difficulty with 
the outreach.
    Mr. Wamp. No doubt, no doubt.
    Mr. Farr. A lot of paper without anything on it.
    Mr. Robertson. At our national conventions, where we draw 
about 15,000 each year, we have had the national history or the 
Veterans' History Project to come in and they actually put up a 
booth and they distribute the material and information.
    We have no authorization over our individual posts. I mean, 
they are basically on their own. We are the national 
organization. We can't give directions.
    But we have been encouraging. We have had articles in our 
magazine, which has a circulation of over 3 million.
    So as far as getting the word out, I think we are doing a 
good job of that.
    Now, the execution at the local level, we can try to put 
some more emphasis on that.
    But I agree with you, it is an outstanding program and I 
have seen several of the productions that have been done and it 
is really something that needs to be captured.
    Mr. Baker. I was going to say I ran our New Orleans office 
for a couple of years and it was among the various offices I 
have worked at.
    By nine in the morning, that is when we opened the doors, 
we probably had about 25 veterans waiting in the hall to see us 
and we would run through 35 to 40 sometimes a day of--that went 
on 5 days a week.
    You hear some amazing things and this is at the local 
level. So the information is there.
    Mr. Farr. There is no funding for the professional 
collection, like you would normally have some like an oral 
history project that was funded and somebody professionally 
trained.
    The training is voluntary and it would be interesting, in 
each of these chapters, if somebody would step up and say, 
``You know, I don't mind doing that. I will go around and do 
this. I will collect them from everybody.''
    And all they need is a little digital tape recorder. Others 
have done it as a TV station did, which probably even is a 
better way, with a video camera.
    Mr. Wamp. Sam, will you yield again?
    Mr. Farr. But it is getting that volunteer, somebody 
saying, ``I will collect the information and I will put it 
together,'' and then putting it into a kit and sending it to 
the Library of Congress.
    They don't have to worry about any of the cataloging 
problem.
    Mr. Wamp. Sam, one final note, if you will yield, please. 
The Library of Congress honored that station because they did 
over 400 interviews for this show and one photographer shot 
almost all of them and he wept at the Library of Congress and 
said that it was the greatest blessing of his life to be able 
to actually videotape all those interviews.
    Mr. Farr. Well, I am going to go talk to my TV station.
    Could I get a little information from your office on that?
    Mr. Edwards. ``PBS'' in Waco did a program for 30 minutes 
prior to the Ken Burns story and the veterans they interviewed, 
it was very, very powerful.
    Let me ask. I know we have a vote coming up very soon, 
actually a series of votes. So we will wrap up pretty quickly 
here.
    We are going to be working with you formally and informally 
multiple times this year and the years ahead.
    Let me just ask one last question, because it goes back to 
the oversight issue that Zach and Sam and I have mentioned. I 
just think we have all got to feel a burden. It is our 
responsibility to see that the new money the VA has gotten and 
will get this year is spent wisely.
    That is one of the reasons we plused up significantly the 
Office of Inspector General at the VA this past year, and I 
think the administration's budget request brings that back 
down. We are not going to do that.
    But let me ask your general opinion of the Office of 
Inspector General, given the limited resources they have.
    Do you review their reports? Have you found them to be well 
researched and credible? Do they have the independence that an 
office of inspector general needs to have or do they have a 
heavy hammer somehow over their head, they can't be too rough 
on reviewing a VA hospital?
    What are your general impressions of OIG?
    Mr. Baker. I will take a shot at it. They are not here.
    Mr. Edwards. Kerry, go ahead.
    Mr. Baker. I think you absolutely did the right thing by 
increasing it. I can't, I don't think, justify decreasing that 
staff in the budget. I think I mentioned in one of the previous 
hearings the incidences in Marion, Illinois VA Medical Center 
as a good example.
    How much that happens elsewhere, we won't know if staff is 
reduced.
    As far as them being overly generous in their reports or 
not firm enough, I don't think they are too firm, that is for 
sure. But how much are they influenced because they have to 
report their bosses to their bosses? I guess you could look at 
it that way.
    Do they hold back a little bit? It is hard to say. I think 
it would be nice to have an independent counsel or inspector 
general. I think you would have more independence.
    Now, I don't know what kind of difference you would come up 
with. I mean, I have my own personal opinion. I have been 
involved in some litigation, when I was in the court before I 
came to legislative staff, that deals with some medical issues 
that I probably can't get into.
    But it would fall under their shoes and it is probably for 
an informal conversation, but I think you have to increase 
their staff--decrease it, I think probably more of the things 
that happened such as Marion that we don't know about, just on 
a smaller scale.
    Although I am not knocking the VA health care, but you are 
always going to have things that----
    Mr. Edwards. There are always going to be imperfections and 
we need to identify them and weed them out.
    Mr. Baker. They need to have the staff to look at those 
little, small incidents, whether it is one or two incidents at 
a medical center. I don't think they can probably do that to 
the degree they need to.
    Mr. Edwards. We have never had them testify before, at 
least not in my time on this subcommittee, and we had them 
testify recently and these are the four assistant OIGs, they 
are inspector generals, because we wanted people with their 
boots on the ground, and I was impressed with them.
    But I was shocked when the inspector general, assistant 
inspector general for health said that they don't have any 
resources to go out to a single clinic.
    Mr. Robertson. I think they have been, historically, at 
least in my opinion, they have been more as validation of 
things that have been identified rather than being the one that 
identified the problems and said--blowing the whistle, saying, 
``Here is what needs to be looked at.''
    Like if you had something that occurred in any facility, 
yes, they may go and investigate it and say, ``Yes, GAO was 
right or the veteran that filed the lawsuit was right.''
    And in my mind's eye, an inspector general is supposed to 
be the guy that discovers, with boots on the ground experience, 
investigating and identifying and ringing the bell.
    And I think most of the reports that I have ever witnessed, 
it was more validating what problem we all knew was there was 
actually there.
    Mr. Edwards. Do they send each of your organizations a copy 
of their reports?
    Mr. Robertson. The ones I have seen I have had passed to me 
by----
    Mr. Blake. Most of the time, you have to ask for them 
politely and hope you get them.
    Mr. Edwards. I think I would like to ask our staff to ask 
them to send out to the VSOs their report for the next year and 
then let you guys review those and give us some feedback on 
what you think, because I just think oversight, oversight, 
oversight.
    We will work on sufficiency and timeliness and defendable 
budgets, but oversight, oversight, oversight I think has got to 
be something we take seriously, and Zach and Sam and I are 
going to work very, very hard on that with our staff, but we 
need you all's help.
    Mr. Blake. And we also have to lean on the authorizers, 
too, because they have an oversight function, as well.
    Mr. Edwards. You bet.
    Mr. Blake. That is not suggesting--because they did a lot 
of hearings on a lot of issues last year, but they have to 
continue to look and hopefully we can help steer them to look 
at certain things that need to be investigated or looked into.
    Mr. Robertson. I would encourage your colleagues to have 
veterans' town hall meetings. I know that your schedules are 
pretty tight, but I think that maybe it might benefit you to 
say let's have veteran town hall meetings, where we are going 
to talk about the status of health care in the VA system.
    That way, you are getting it up close and personal from the 
folks.
    Mr. Farr. We can do that electronically now with our 
telephones. We can call our constituents at home and they don't 
have to get up and go anywhere. We can put every one of them on 
one conference call.
    Mr. Wamp. Mr. Chairman, I just want to add that I think the 
IG has all the reports up online in terms of access now to 
them.
    I really appreciate all of you for what you do, who you 
represent, and the way you come before us here, because this is 
good collaboration. This has been one of the best opportunities 
we have had to come together.
    Also, though, you had a comment about the authorization 
committee. The best part about serving where we serve is that 
our bills have to become law and a whole lot of times, those 
guys, they will go here and there and yawn and back and forth 
between the two bodies, but a lot of it never becomes law.
    All of our bills become law. And so this is where the 
action is and wherever we can make changes, respecting their 
jurisdiction and their authorization, our bills can move things 
quicker than sometimes theirs can.
    Mr. Edwards. And please don't wait to hear a formal request 
from us. As you are having your meetings with VA officials and 
veterans out there in the real world, give us your constant 
feedback so that we can keep on being a partner with and be a 
hawk overlooking VA to see how they are doing.
    I hope your members understand the important role you 
played this past year in putting together that historic VA 
budget. I feel if a truck ran over all of us tomorrow, we have 
raised the bar. We are going to raise it again this year.
    So after we are gone, that bar will never go down. It is 
going to have to go up. Whether we can sustain the kind of 
increases we have had the last 2 years every 2 years, I don't 
know. But whatever happens, the bar is set higher and that is 
going to benefit veterans for a long time, and it wouldn't have 
happened without your organizations' tremendous leadership.
    The Independent Budget and the American Legion budget were 
really a fundamental building block we used to put that budget 
together, and thank you for that and your continued work.
    And if there are no additional questions--Sam, any 
additional comments?
    Mr. Farr. No. Thank you.
    Mr. Edwards. If not, thank you for being here.
                                           Thursday, April 3, 2008.

                VETERANS AFFAIRS INFORMATION TECHNOLOGY

                               WITNESSES

ROBERT T. HOWARD, ASSISTANT SECRETARY FOR INFORMATION AND TECHNOLOGY
PAUL A. TIBBITS, DEPUTY CHIEF INFORMATION OFFICER FOR INFORMATION AND 
    TECHNOLOGY
STEPHEN W. WARREN, PRINCIPAL DEPUTY ASSISTANT SECRETARY FOR INFORMATION 
    AND TECHNOLOGY

                       Statement of the Chairman

    Mr. Edwards [presiding]. I would like to call the 
subcommittee to order. Secretary Howard, welcome to the 
subcommittee.
    This afternoon the subcommittee will hear testimony in 
support of the budget request for information technology 
programs at the Department of Veterans Affairs. The budget 
request for fiscal year 2009 is more than $2.4 billion, about 
$475 million more than the fiscal year 2008 appropriation.
    Our witness this afternoon is Mr. Robert T. Howard, 
Assistant Secretary for Information and Technology and Chief 
Information Officer. Secretary Howard, again welcome to the 
committee.
    Mr. Howard. Thank you, sir.
    Mr. Edwards. Starting in fiscal year 2006, the Congress 
directed the department to reform its information technology 
budget to provide the chief information officer with 
centralized management and responsibility for the development 
and operations of all the IT functions. We know and respect the 
fact this has been a complicated and somewhat disruptive 
process for the department to undertake, but prior to this 
centralization there was absolutely no way to know what the 
department was proposing to spend on its IT programs, and there 
was no meaningful oversight control within the department.
    With the increased control that centralized management can 
provide, we hope that the expensive mistakes of the past will 
not be repeated and that the department can move forward in 
developing and implementing information technology systems to 
provide necessary services for the veterans and value to the 
taxpayer alike.
    At this time, before I introduce Secretary Howard, I would 
like to recognize our ranking member, Mr. Wamp, for any 
comments he would care to make.
    Mr. Wamp. Thank you, Mr. Chairman. I am the new guy here, 
but we have had a host of hearings, and I have actually been 
out and seen a major VA facility in the state of Tennessee. I 
now understand the challenges that we face. Thank you for your 
service and I look forward to your testimony. I don't really 
have any further comments, Mr. Chairman.
    Mr. Edwards. For the record, Secretary Howard was confirmed 
as Assistant Secretary for Information and Technology on 
September 30, 2006. I imagine it has been a busy time since 
then, Mr. Secretary. We want to thank you genuinely and deeply 
for your 33 years of active duty service in the United States 
Army. You culminated that service in your last assignment as 
the Deputy Assistant Secretary of the U.S. Army for Budget.
    Always saving the very best for last, his civil engineering 
education includes a graduate degree from Texas A&M University. 
[Laughter.]
    As an Aggie, Mr. Secretary, I am proud to welcome you 
before our subcommittee.
    Without objection, your full testimony will be submitted 
for the record, but we would like to begin by recognizing you 
for 5 minutes for any comments you care to make, and then we 
will go into questions and answers.
    Mr. Howard. Yes, sir. I might add, I did a lot better down 
there than I did at Northeastern in Boston.
    Mr. Edwards. Well, you are prepared, and I know they made 
you work hard at Texas A&M.
    Mr. Howard. Maybe they couldn't understand me. I don't 
know.
    Mr. Edwards. It is great to have you here.

              Statement of the Honorable Robert T. Howard

    Mr. Howard. Sir, Chairman Edwards and Ranking Member Wamp, 
good afternoon. Thank you for your invitation to discuss the 
president's fiscal year 2009 information technology budget 
proposal for the Department of Veterans Affairs. With me today, 
my Principal Deputy, Stephen Warren, and my Deputy for 
Enterprise Development, Dr. Paul Tibbits.
    As we look forward to the upcoming year, we remain focused 
on VA's primary mission, the health and well being of our 
nation's veterans. To assure that we succeed in our mission, it 
is imperative that we employ all of our resources, including 
IT, in the most effective way possible.
    Let me begin this afternoon by discussing the IT 
reorganization and some of our experience to date. From fiscal 
year 2006 to fiscal year 2007, and continuing on into fiscal 
year 2008, the Office of Information and Technology began the 
transition to a new centralized organization by detailing IT 
personnel outside of OI&T and combining them with the original 
OI&T staff. This transition has led to the president's budget 
request of 6,780 FTE for fiscal year 2009.
    Through this consolidation, we are discovering activities 
that need improvement and enhancement, especially in the area 
of data security, privacy and infrastructure improvements. We 
have increased our emphasis on certification and accreditation, 
and are developing better procedures for asset management. 
Progress is being made, but there is still much to be done in 
establishing the organization and providing the IT support that 
VA and veterans deserve.
    One of the most critical changes in OI&T was the 
establishment of the new IT appropriation in fiscal year 2006. 
In that regard, we continue to focus our efforts in structuring 
and funding the IT appropriation along programmatic lines, 
relating IT to the principal missions of VA. Since this is a 
line-item appropriation, prior planning is critically important 
and establishing the funding correctly up front is essential.
    VA is requesting $2.442 billion to support IT development 
and operational expenses, including payroll, for fiscal year 
2009, an 18.9 percent increase over the fiscal year 2008 level. 
This request reflects the consolidation of VA IT into one 
appropriation, with certain exceptions such as non-payroll IT 
for credit reform programs and insurance benefit programs.
    In fiscal year 2009, the majority of increases represent 
program priorities to enhance the support to veterans, both 
directly and indirectly, especially in the area of medical 
care. Placing all IT staffing, equipment and budgetary 
resources under the VA chief information officer has provided 
an objective capability with visibility over all IT activity 
across the department.
    This capability will also provide for a more standardized 
approach to our critical developmental efforts. An example is 
the urgent need to accelerate the design and implementation of 
our electronic health record, which will meet the national 
health IT standards and improve interoperability with DOD.
    The non-pay portion of the fiscal year 2009 budget has been 
realigned from previous submissions to focus on two major 
classifications: veteran-facing IT systems and internal-facing 
IT systems. This has been done to better link the appropriation 
to the missions of VA. Veteran-facing IT systems enable support 
of VA programs for veterans such as medical care, compensation 
and pension benefits, vocational rehabilitation, employment 
services, and burial services. Veteran-facing programs account 
for $1.295 billion of our request.
    Internal-facing IT systems are those that provide the 
capability to work more effectively in managing IT resources, 
such as corporate management, financial management, asset 
management, human capital management, IT infrastructure, and 
information protection. The internal-facing programs account 
for $418 million.
    Finally, the pay portion of our fiscal year 2009 budget 
request accounts for $729 million.
    The total of $2.442 billion for fiscal year 2009 reflects a 
sizable increase, as I mentioned before, over fiscal year 2008. 
Over the past several years, VA IT has had a fairly level 
budget, yet the organizations we support have increased in 
size, both in facilities and people. To sustain our efforts, VA 
must apply the necessary IT talent and tools required. The 
increase will allow us to accelerate some programs and begin a 
concerted effort to enhance our IT infrastructure.
    In closing, VA IT is committed to providing effective and 
efficient support to veterans, and in turn the VA community at 
large. Over the past year, we have made progress and have 
experienced challenges, so much remains to be accomplished.
    I appreciate having this opportunity to discuss this with 
you and will gladly respond to your questions, sir.
    [Prepared statement of the Honorable Robert T. Howard 
follows:]

[GRAPHIC] [TIFF OMITTED] T2754D.001

[GRAPHIC] [TIFF OMITTED] T2754D.002

[GRAPHIC] [TIFF OMITTED] T2754D.003

[GRAPHIC] [TIFF OMITTED] T2754D.004

[GRAPHIC] [TIFF OMITTED] T2754D.005

[GRAPHIC] [TIFF OMITTED] T2754D.006

[GRAPHIC] [TIFF OMITTED] T2754D.007

[GRAPHIC] [TIFF OMITTED] T2754D.008

[GRAPHIC] [TIFF OMITTED] T2754D.009

[GRAPHIC] [TIFF OMITTED] T2754D.010

[GRAPHIC] [TIFF OMITTED] T2754D.011

[GRAPHIC] [TIFF OMITTED] T2754D.012

[GRAPHIC] [TIFF OMITTED] T2754D.013

                      SECURITY BREACH DEVELOPMENTS

    Mr. Edwards. Thank you, Mr. Secretary.
    Let me begin by asking you about the latest security. We 
are all aware of the breaches that occurred over the last 
several years and all of the national attention regarding that. 
Can you tell me what steps we have taken to see that doesn't 
happen again? How confident are you, given what we have done, 
that it will not happen again?
    Mr. Howard. Yes, sir. We have done a lot, quite frankly, 
but I will say right up front there is an awful lot remaining 
to be done. This is an enormously difficult problem, 
particularly in an organization like VA that deals with a lot 
of information. We are basically an information organization, 
whether it is health or private information.
    Starting right at the beginning, we fabricated or we put 
together a very extensive action plan to address a lot of 
things. It has over 400 tasks in it--all sorts of things from 
encryption to background investigations to training programs 
and what have you. We have put a lot of effort in, and so we 
have tried to approach this from a people process and tools 
standpoint.
    The people issue is the most critical, and that is making 
sure that we embed the organization with cultural awareness, 
awareness of our problem, because if every employee did what 
they were supposed to do, we wouldn't have the difficulty. That 
really is the central focus. We have a long way to go on that. 
We really do, in spite of the communications efforts we have 
had and the training programs.
    Our processes have been improved. An example of that would 
be incident reporting processes. We are infinitely better than 
we were back in May of 2006. We have very good processes put in 
place. Of course, unfortunately we see a lot of incidents 
because people report them. They don't hold them back, and we 
encourage that. We say, don't even think twice. If you have 
one, we want to see it. And we send that immediately to the 
U.S.-CERT. We don't even think hardly about it, because we want 
to make sure it gets registered. And then we go in and analyze 
it.
    Mr. Edwards. Who would report that? I take a laptop home 
that I should not have taken home. Who would know about that? 
And who would report it?
    Mr. Howard. Sir, many times it is actually the individual 
who had the incident. You know, they put the laptop in their 
car and it was stolen or whatever, and we have many incidents 
that are actually reported by employees who realize they have 
made a mistake. Although we have had some disciplinary action, 
it hasn't been extensive. We have to be very careful about 
that, because as soon as you go overboard, you just shut that 
right down.
    We also have information security offices throughout the 
organization, whose job it is to monitor activity. If they find 
paper folders in the trash somewhere, they will report that as 
an incident. So it can come from any source. It can also come 
from my oversight and compliance capability I have put in 
place. They go around and do assessments, and every once in a 
while they discover things that should be reported as 
incidents. So the processes are important.
    The other area that is extremely important, sir, is to 
provide the tools necessary--encryption for the laptops. We 
have mandated full hard-drive encryption on VA laptops. We have 
mandated the use of encrypted thumb drives. The young docs 
running around with their medical information, it is like your 
kids. It is hard to keep them disciplined so that they keep 
thinking about that. So we use encrypted thumb drives. If you 
lose it, no problem. Nobody is going to be able to get in 
there.
    Monitoring software--we now have the capability. We are 
starting to implement that, where if you hook into the VA 
network, we can view the computer. If it doesn't pass scrutiny 
in terms of the correct software, if it has things on it that 
we don't particularly like, shut it off. You can't get in. We 
have just started implementing that.
    So there are a number of software tools that we have put 
out, if that answers your question, sir.
    Mr. Edwards. Okay.
    Mr. Howard. There are many, many things.
    Mr. Edwards. When was the largest incident? Was it in May 
of 2006?
    Mr. Howard. I remember it well, sir.
    Mr. Edwards. Okay. That employee had access to a massive 
amount of data.
    Mr. Howard. Yes, sir.
    Mr. Edwards. Would that same employee today, or a similar 
employee, another person in that same position today, be able 
to put that much information on their laptop?
    Mr. Howard. Sir, the rules are in place where they should 
not do that. Now, you know, if you are really bent to do that 
and you work hard enough, you can figure out a way to do it. 
But the access controls are much better than they were before. 
We also have completed Handbook 6500, which is our physical 
security program, with very clear instructions on what you can 
do and what you can't do.
    But you did hit on a very critical area, and that is any 
activity that by nature of the activity deals with large 
amounts of information. Research is a good example of that. The 
individual that had that laptop stolen and the hard-drive 
stolen back in May of 2006 was an analyst in the policy and 
planning organization. They deal with actuarial analysis and 
things like that, so they have to deal with large amounts of 
information. But no way should he have removed that from the VA 
premises, or taken it out of a protected environment. He never 
should have done that.
    Mr. Edwards. Is there anything in the system in place today 
that if somebody purposely did that when they were not supposed 
to that a red flag would show up on somebody's computer 
somewhere?
    Mr. Howard. Sir, we don't have a system that is fool-proof 
and across the board, but what we do do is we monitor network 
activity. In other words, we can tell, at least at the network 
level. We haven't quite gotten all the way down to the hospital 
level yet. But we can monitor that. We can see masses of 
information being downloaded. But we haven't completed rolling 
all that out.
    One of the reasons it has taken us time, you have to be 
real careful because these things could disrupt day-to-day 
operations. We are very concerned about that. For example, the 
software I mentioned to you, we can shut off a laptop that is 
hooked in from your kitchen or whatever. It could be some 
doctor analyzing some imaging or whatever. So we have to be 
sure that that is done correctly.
    We have completed that rollout in region IV, which is the 
Northeast, and now we are moving into regions II and III. We 
have already got it set up in region II, but we haven't turned 
on all the locking parts of it yet as we gradually move into 
that because it could be disruptive and we want to be sure that 
that does not happen.
    Mr. Edwards. One more follow up. Do you have an outside 
entity to review what you have put in place to then determine 
from the security standpoint how well you are doing?
    Mr. Howard. Sir, we have our own oversight and compliance 
capability, which is very robust. They go around and they 
assess all this stuff. It has proven to be one of the better 
things that we have done. This was established right after May 
of 2006 in fact. The other thing is we have the IG who goes 
out. We also have a certification and accreditation program in 
fact that is well underway right now that involves an outside 
contractor to review. We do the work and they review to see 
what we are doing, but we don't have an outside contractor 
whose sole job is to do what the IG does, if you know what I 
mean.
    Mr. Edwards. Right. Okay. Well, thank you for the progress 
you have made, and thank you for your honesty in saying there 
is no fool-proof system. I respect that.
    Mr. Wamp.

                          FINANCIAL MANAGEMENT

    Mr. Wamp. Thank you, Mr. Chairman.
    Obviously, this is part of our responsibility that we 
probably know the least amount about, when you are talking 
about IT systems and technical-type stuff. This is a very 
sophisticated system, obviously, with 24 million veterans and 
you have to keep up with everything and comply with all the 
laws. But you have a $2.444 billion budget request, a $475 
million increase, which is like a 25 percent increase all in 1 
year.
    You made the case for why, but the inspector general was 
here and said ``VA cannot effectively manage its contracting 
activities because it has no corporate database that provides 
national visibility over procurement activities or identifies 
contract awards, individual purchase orders, credit card 
purchases, or the amount of money spent on goods and 
services.''
    We told him that it was fascinating that the VA's medical 
records were the best in the world, yet their financial 
management was not acceptable. That is a real irony at the same 
organization. So just from your perspective in the IT 
portfolio, what is being done about this problem?
    Mr. Howard. Sir, you homed in on a major problem the VA 
has. Maybe it is typical of organizations that are as large as 
ours--you know, inadequate focus on the day-to-day running of 
the operation--the financial systems, the logistics systems. I 
actually saw some of that in the Pentagon during my days over 
there.
    You are right. The IG is right. The contracting program 
that is being put in place will help us. It is now being 
implemented or being designed, really. It has not been 
implemented fully, but the intent is to begin to capture some 
of that information. So contracting is a problem. The financial 
programs, the FLITE program--the financial and logistics 
integrated technology enterprise program--is also underway. 
That is going to take a while.
    We have the logistics part of it beginning to be 
implemented, but the financial side we have not even selected 
the contractor yet. We are going to do that in the beginning of 
the next fiscal year. We are already under the RFP development 
standpoint. Again, the experience we had with Core FLS. We 
should not need to repeat that--that happened several years 
ago.
    If we had we done Core FLS correctly, we would have had a 
good financial logistics system already, right now, but we 
didn't. I don't know if you remember that one or not, but that 
was the program that was killed back in 2005, I believe, or 
2004 and 2005, as you may know, somewhere in that background 
where Secretary Principi killed the program because he was very 
upset with the way it was being managed. The FLITE program is 
not the replacement for it, but the step to try to get it right 
this time.
    So in answer to your question, sir, it is a correct 
observation. We do not have adequate IT applications in place 
to help us do that kind of work. I will add a third one. The 
third one is human resource management. In fact, that is in the 
budget--the HRIS program, Human Resources Information System. 
That is going to be a line of business when we purchase the 
service from OPM. That is the approach we are taking on the HR 
system.

                         STAFFING REQUIREMENTS

    Mr. Wamp. Speaking of the HR side, I think you have a 
reprogramming request for $294 million to hire 1,590 people by 
August under the 2008 mandate. How do you do that? What steps 
are you taking to hire 1,590 people between here and August?
    Mr. Howard. Sir, if you are talking about the IT transfer 
request, the amount I believe will handle a little over about 
170 FTEs. Is that the $20 million?
    Mr. Wamp. It is $294 million from Veterans Health 
Administration to VA IT. It is my understanding that there is a 
reprogramming request to meet the 2008 staffing requirement, 
which means there are 1,590 people who have to be hired by 
August of 2008. That is a tremendous amount.
    Mr. Howard. Sir, that amount is actually for about 197 
FTEs. There is $20 million in there.
    Mr. Wamp. Okay. My information is inaccurate. Let me ask 
you this----
    Mr. Howard. Of that $294 million, $20 million is associated 
with FTEs. To just comment a bit on that, IT staffing levels 
throughout the VA are a great concern to us right now. We are 
seeing a lot of that right now. That is an additional effort to 
begin to ramp up to what we believe to be the correct amount of 
FTEs. So that is what that is, sir.
    Mr. Wamp. Okay. When I was at the Alvin York facility last 
week in Tennessee, I was very encouraged to see several recent 
veterans that have gone to work there. How successful in your 
ramp-up of the staffing requirements are you at actually hiring 
veterans to take these positions?
    Mr. Howard. Sir, we do that. I couldn't give you a precise 
answer right now. I could get back to you on that.
    Mr. Wamp. Do you make a conscious effort to try and do 
that?
    Mr. Howard. Yes, sir.
    Mr. Wamp. That is one of the kind of no-brainers that we 
come across as we have these hearings, that that needs to be 
done, and everything possible needs to be done to see that we 
are hiring veterans, and even preparing them training-wise for 
these jobs as much as possible so that they can take these 
jobs.
    Mr. Howard. Yes, sir. There are programs underway and we 
can give you some numbers on it.
    Mr. Tibbits. I can add one additional thought on that on 
the contracting side as well. We are very good at exercising 
the full prerogatives that are offered before we testified to 
Congress to use services to enable veteran-owned small 
businesses. We are also very committed to pursue that. It is a 
substantial benefit to us----
    Mr. Howard. And the IT community has a very good record on 
what Paul just mentioned, sir. We are doing very well there.

                   COMMUNITY BASED OUTPATIENT CLINICS

    Mr. Wamp. One other quick question in this round, I think 
the 2008 budget requires 53 new CBOCs. Your IT funding request 
amounts to about $500,000 per new CBOC. OI&T now contends that 
the VHA did not inform them of the funding requirement and the 
IT money is still in VHA's medical discretionary budget and 
should therefore be transferred to OI&T. Has this issue been 
settled?
    Mr. Howard. Sir, we intend to fund those CBOCs, even if we 
have to take it from somewhere else. Obviously, those have to 
be stood up. We did get a $10 million increment in the 
emergency supplemental in 2008, specifically earmarked for 
CBOCs, and that is going to help.
    The other good story part of that is that we are now 
communicating. In the past, there was no planning for IT for 
new facilities. It was just not there. And now we see that not 
only for CBOCs and major hospitals, but for Vet centers. You 
build almost anything and you put one person in it, you have an 
IT problem, or at least a computer or something. Now, that is 
recognized and there is much better communication. In fact, in 
the 2009 budget, that was a major discussion point. We 
definitely are doing much better in that regard, but we intend 
to fund those facilities.
    Mr. Wamp. Thank you.
    Mr. Edwards. With Mr. Wamp's permission, could I follow up 
on that?
    You got $10.2 million in the fiscal year 2008 appropriation 
for the CBOCs and their IT needs. How much more do you need?
    Mr. Howard. I believe the number is 63 CBOCs in fiscal year 
2009.
    Mr. Edwards. How about the new CBOCs for fiscal year 2008?
    Mr. Howard. Sir, that is covered.
    Mr. Edwards. For 2008, it is now covered, 2008 is covered. 
So the 14 new CBOCs that were just announced by the secretary 
last week, the IT costs for those are covered?
    Mr. Howard. Sir, as far as I know we are okay up to now, as 
long as there aren't more thrown on the table, and we don't 
expect that.
    Mr. Edwards. All right. And for 2009, was the money you 
needed requested via the IT budget? Or is there where you are 
having a discussion with VHA?
    Mr. Howard. This is IT. This is IT money.
    Mr. Edwards. Okay.
    Mr. Howard. Yes, sir.
    Mr. Edwards. It is in the request?
    Mr. Howard. Right.
    Mr. Edwards. Okay. Great.
    We have been joined by Mr. Berry and Mr. Bishop, which we 
appreciate given the House is out of session until next week. 
Thank you both for being here.
    Mr. Berry, do you have any questions you would like to ask, 
or comments you care to make?

                             DATA EXCHANGE

    Mr. Berry. I probably should know the answer to this, but 
it won't be the first question that I ever asked that I didn't 
know the answer to. In our office as we try to help veterans 
get the benefits that they are entitled to, over and over we 
run into the problem of being able to get their military 
records made available to the VA, so that they can conclude 
whatever process has to take place. Has that always been that 
way? Is it something that we are not doing right or the 
veterans are not doing right when they leave active duty?
    We have even been told by the VA that they can't get that 
information because it belongs to the (INAUDIBLE) for instance. 
Should we expect that to stay that way? It seems to me that 
with the ability to handle information that we have today, it 
should be a simple thing. Maybe there is a good reason for it 
not being that way, but for the VA to be able to access the 
military records of these people.
    Mr. Howard. Sir, it was that way in the past. I can tell 
you that there have been very, very significant improvements in 
that area. We are not completely there yet. You know, there is 
still a lot more that needs to be done. For example, through 
our electronic health record system, you can access 
information. In fact, DOD can as well. There are programs in 
place to continue to enhance the sharing of information between 
VA and DOD. In fact, I will let Paul talk to this in just a 
moment because he is intimately involved in all of this.
    In answer to your question, sir, there may be individual 
cases where veterans are having difficulty, but I can tell you 
for a fact it has improved substantially over the last couple 
of years, and there is a major push underway particularly with 
standardization of information--you know, in exchange between 
VA and DOD--and also to come closer in terms of the 
applications used to actually access the information.
    Paul, you may want to speak to that.
    Mr. Tibbits. Yes, sir. Thank you.
    We do have miles to go before we sleep, but we have made 
substantial progress with the current exchange, both with 
regard to health information and the other information 
necessary to establish a veteran's eligibility for all other 
kinds of----
    On the health side, let me just stay with the electronic. 
From the electronic perspective, we are today exchanging 
information between both departments, which would cover about I 
will say 95 percent of the (INAUDIBLE) primary care doctor to 
deliver health care. On the benefits side, there is again a 
high percentage. I don't know the benefits side quite as well, 
but could potentially guess there, but I will tell you that you 
are probably familiar with the DEER system at the Department of 
Defense. VA has now stood up an analog to that called BADIR.
    We have many data interchanges between both departments, 31 
of them in fact from DOD to VA, and 11 back from VA to DOD, 
which are point-to-point and which are all being compressed 
into a single data-feed with some quality assurances on top of 
those to improve (INAUDIBLE) information. All of those data-
feeds, the 31 and the 11 back and forth, are to support the 
compensation and pension determination in terms of GI bill 
benefits for both rehab, home loan guarantees, et cetera, et 
cetera.
    Those data-feeds, both on the health and benefits side, are 
not a complete representation of what we at the VA need, 
however, to comprehensively serve all of the eligibilities that 
a veteran has. So to supplement that, we have now just as of 
the end of March created a draft plan which is going through 
vetting right now. We call it the VA-DOD information 
interoperability plan. That information interoperability plan 
will be suitable for let's say public consumption probably by 
the end of the summer, in August.
    It is to supplement the data exchanges. It is to define the 
pathway and create requirements to supplement the data 
exchanges that I am currently describing to you to add the data 
we are missing. On the DD-214, for example, what exactly is the 
plan to get all the military awards. We don't get military 
awards today on (INAUDIBLE). That, in turn, is some benefit to 
the eligibility (INAUDIBLE). To get the DD-214 in its entirety 
(INAUDIBLE) format will be part of that new plan.
    If a neurologist needs the electro-encephalogram to treat 
traumatic brain injury and post-traumatic stress disorder, yes 
or no, that will be part of the follow-on plan that I just 
described. So there is a big bucket of stuff we have done now, 
and then we are putting this plan in place to acquire what 
remains (INAUDIBLE).
    Mr. Berry. I applaud what you are doing. It makes a whole 
lot of sense to me. I personally have gotten involved with some 
of these cases and experienced it. I think one thing that could 
help, and this may not be your area of responsibility, but we 
have run from time to time into personnel at the VA that just 
simply, for whatever reason there is, find it more to their 
liking to just say we can't find it, than to try to help these 
veterans that supposedly we are all here to try to help. I 
think if you could do anything you could do to try to improve 
the attitude of those folks, it would also be helpful. I know 
you all haven't got a wire hooked up to all of them.
    Mr. Tibbits. That is a great comment. Yes. That is a very 
good comment. Part of that actually does fall in our arena and 
part of it does not. Some of the things we are doing to 
ameliorate that--first of all for example, to further empower 
the veteran, him- or herself, so they know actually what they 
can get. We are improving our electronic face to the veteran. 
We are developing a portal strategy.
    We are standing up the My e-Benefits portal, which turn out 
to be a tailored way that a veteran can say if I am missing my 
left leg, if I have to be a resident of the state of West 
Virginia, if I have to be (INAUDIBLE), whatever it is, if all 
those conditions (INAUDIBLE), I am eligible for all these 
possible claims from the Department of Labor, from the 
government of West Virginia, where in fact (INAUDIBLE). So that 
will give them some--
    Next, we have outreach activities underway where our 
secretary (INAUDIBLE) beyond what I just said, from looking at 
our databases, there are indicators in there and is there 
enough data to where we could identify a subset of veterans who 
should have applied for some veterans benefit and who have not. 
So we are launching an outreach activity to try to make them 
aware of the fact that they are eligible for more things than 
they are currently asking for.
    Okay. The last one that does fall in our area that I want 
to mention is, for example with these information exchanges, 
they are coming on so fast that there are a substantial number 
of let's say physicians or nurse practitioners who at some of 
our medical facilities don't know that that data is in there 
three clicks behind that front screening, even though it is 
there. So with (INAUDIBLE) in our arena is also some sort of 
(INAUDIBLE) internal outreach program, internal to the VA to 
make sure all of our (INAUDIBLE) know that that stuff is there.
    So the Principal Deputy Assistant Secretary of Defense for 
Health Affairs and myself have now, in addition to trying to 
take some programmatic means of outreach, are going on a road 
show around the country to have meetings with the senior 
leadership of the VA and the senior leadership of a military 
treatment facility together--we just did Central Texas--to say 
here is all the stuff, and then the people and go ahead and 
say, gee, when is that going to be available. And we say, well, 
it is now--just click through your screen here, three clicks in 
and there it is.
    So there is an awareness piece that does fall upon us, that 
we need to put more energy into to make sure the staff out 
there are aware of what actually technically is already up and 
running.
    Mr. Howard. Sir, adding to that, it is a unique situation. 
The IT organization is centralized. The VA, as you know, is 
decentralized. So what we are discovering is we can actually 
serve as a catalyst in some of these areas because 
communication is a difficult thing anyway. In a decentralized 
organization, it is extremely difficult.
    We know that this communication issue that Paul is 
describing is one of our challenges. We believe in the IT world 
we may have a better shot at trying to improve that because we 
have folks all the way down to the facility level. But even 
with what I said, it is a major challenge to get the word out 
so that folks understand what Paul is describing.
    Mr. Berry. Thank you.
    Mr. Edwards. Mr. Bishop.

               TRANSMISSION OF ELECTRONIC HEALTH RECORDS

    Mr. Bishop. Thank you very much.
    I was very interested in a lot of what Mr. Berry was 
exploring. I appreciate the efforts. I think last year we were 
told we were well on the way; we were making progress. My 
caseworkers are still frustrated because they say it takes too 
long to process the claims.
    And then on a more personal basis, I have a brother-in-law 
who is a veteran. He had a heart attack--in fact, he had two or 
three. He has to go into the civilian hospital. As soon as he 
gets out, he has to get medication. He takes his medical 
records from the hospital directly to the VA community clinic. 
He leaves them there. The information doesn't get inputted into 
whatever database the VA has.
    The person who has to authorize his medication that has 
been prescribed from his hospitalization is over at Tuskegee 
and is on vacation for 2 or 3 days, so there is no pharmacist 
there to fill it, so it can't be sent by pony express mail from 
Tuskegee-Montgomery back over to Columbus, Georgia. He is 
supposed to be taking the medication immediately.
    These kinds of things seem to be problematic. It seems as 
if there ought to be--and I don't know, maybe it is an input 
problem in getting whatever the hospital records were from into 
the VA system once he hand-delivers them, and having somebody 
that can respond quickly.
    Mr. Tibbits. Yes, sir. Okay. That is another excellent 
question, and it is definitely an area of weakness. The example 
you are describing, if you will permit me to dwell on it a 
little bit because it is a big issue that you have touched on, 
and that is the ability of us as a federal agency in health 
care to communicate information with the private sector 
doctors, who do not belong to the Federal Government.
    Mr. Bishop. Right.
    Mr. Tibbits. That has been an issue. My background, by the 
way, I have been here in VA since 2006. Before that, I had 26 
years-plus in DOD. That communication of clinical information 
with the care that we purchase from the private sector has been 
a probably 2\1/2\ decade problem at the Department of Defense, 
and it is an equally obstinate problem in the Department of 
Veterans Affairs. It happens to be a little bit smaller problem 
here because we purchase a little bit less care outside than 
DOD does, but nonetheless for those who are getting the care, 
there is a problem.
    Okay. In order to deal with that transmission of electronic 
health records, there are several things we can do. First of 
all, VA is very interested and fully participative in the HHS 
initiative, which is called the AHIC, the American Health 
Information Community, and the standard-setting that Secretary 
Leavitt is trying to accomplish with respect to information 
exchange among many health care entities.
    It sets sort of a standard-based approach to all of this, 
with some sort of a medium- to long-term flavor to that. 
Nonetheless, we are fully engaged in it at the top level and 
have (INAUDIBLE) people from VHA in the standard-setting 
committee to try to move that forward. We are very interested 
in that.
    Number two, through that HHS initiative and what I 
described, we are moving forward to link ourselves as fast as 
HHS looks like they are getting ready, to link ourselves to the 
national health information network, and through the national 
health information network, to these RIOs that are distributed 
around the country.
    Well, the RIOs are a very interesting entity, because they 
represent--if I can use the term--a coalition of the willing, 
of physicians who raised their hand and said I am willing to go 
electronic. So we have a self-declared subset of physicians who 
are willing to go electronic and they are hooking themselves up 
to these RIOs, so you don't need to do a sales job on them. 
Right? They are already there. So as that grows and matures, we 
will have at least that much connectivity out there to those 
who declare themselves willing.
    I am the co-chair for one of the lines of action in VA--the 
cooperation, we can talk about later. But anyway, I mentioned 
my partner in crime, the principal deputy assistant secretary 
for health care. He and I work very closely together. One of 
the things we are working through that collaborative network is 
also trying to understand better what the information exchange 
needs are for the Guard and Reserve. And so the Guard and 
Reserve represents a special subset which you just mentioned. 
The (INAUDIBLE) care issue becomes especially important for 
them.
    Mr. Bishop. And the (INAUDIBLE) issue, too.
    Mr. Tibbits. Exactly right. They demobilize and go out to 
see their doctor in Kansas, and how do we know when that person 
comes back what the doctor in Kansas did and how does the 
doctor in Kansas know what we did. So we are trying to work out 
with the Guard and Reserve exactly an understanding of what 
their requirements are.
    Mr. Bishop. They don't have medical records either--
electronic medical records.
    Mr. Tibbits. Well, it depends. When they are mobilized, 
when they are on active duty, you couldn't differentiate 
someone who came from the Guard and Reserve from someone who 
wasn't----
    Mr. Bishop. Except their records are not updated.
    Mr. Tibbits. When they are on active duty, they are all 
treated the same. The issue becomes when they separate.
    Mr. Howard. But their private records----
    Mr. Bishop. What I am saying, before they get deployed, 
their records at their unit, at the National Guard armory or at 
the Reserve unit station. And then they are deployed, they 
physically carry a folder that may or may not be current with 
them.
    Mr. Tibbits. Right.
    Mr. Bishop. Or they may not carry a folder at all. The only 
thing that they will have is, once they are deployed, they are 
into the DOD system prospectively.
    Mr. Tibbits. That is right.
    Mr. Bishop. But not retroactively.
    Mr. Tibbits. That is exactly correct.
    Mr. Bishop. That is a problem also.
    Mr. Tibbits. It is definitely a problem, and that is part 
of the understanding on the front and back end that we are 
trying to develop better understanding with DOD of what that 
is. You can say, why are we interested in that. Well, we are 
interested in that because those Guard and Reserve members 
become veterans, so we want a complete record on both the front 
end and the back end as much as DOD does.
    But to go do a (INAUDIBLE) on that, you really would have 
to ask questions directly of DOD as to what the funding profile 
is they can lay down to put their electronic medical system and 
other connectivity out to the Guard and Reserve. I don't have 
those details to tell you. But I can tell you this for sure, it 
is one of the high priority focus areas for the senior 
oversight committee that DOD (INAUDIBLE).
    Mr. Bishop. Just the interoperability between VA and DOD is 
the basic that you have to get established. What is the 
timeline on that? How long is it going to take to get that done 
so you have the DD-214, so you have a common database that the 
military people will have from discharges and medical 
conditions and all of that, so that it is already there so that 
when somebody walks in the Veterans office, all they have to do 
is click, as you say, and they can pull out all the necessary 
information from DOD in terms of their discharge, where they 
were located, if they had any kind of exposures.
    Mr. Tibbits. Yes, sir. To reach that level of completeness 
is what I mentioned earlier. We have this activity underway to 
create this information interoperability plan. The first draft 
of that now became available at the end of March. We are going 
through vetting and a critique of it right now. It will be 
finished in August. In August, we should have the timeline and 
the specific data on this to answer your question. So by the 
end of the summer, we should have it all about laid out, 
whatever it is that DOD is willing to commit to by way of 
automating all those inputs that they currently don't.
    Mr. Bishop. Okay. If I could just have one other question?
    Mr. Edwards. If you make it quick.
    Mr. Bishop. I will be brief. Spina bifida. I have had some 
veterans come to see me recently about the fact that they are 
having a great deal of difficulty because I think Congress 
passed a law that made the kids eligible for assistance, but 
not from the time of birth, only from the date that the law was 
passed. These families are suffering with these kids who were 
born with spina bifida, who because their parents were exposed 
to Agent Orange in Vietnam and subsequent exposures.
    Now, these kids are getting some help, but it is not 
retroactive to the dates of their birth, which is a problem. Is 
VA taking that into account now?
    Mr. Tibbits. I don't know that that is an IT issue per se, 
so I think I would have to (INAUDIBLE) off on that question.
    Mr. Bishop. You don't have any information on that?
    Mr. Tibbits. I don't have any information on it.
    Mr. Bishop. Okay.
    Mr. Tibbits. No, sir.
    Mr. Edwards. You have to ask someone medical.
    Mr. Howard. Yes, sir. We can ask----
    Mr. Edwards. Or the benefits administration----
    Mr. Bishop. Okay. Thank you.
    Mr. Edwards. We will start on round two.
    Secretary Howard, let me ask you, we all understand and 
respect the need to have centralized IT for the VA and you have 
outlined some of the benefits of that. I have heard 
anecdotally, and I have heard it now from enough sources that I 
think it is more than just an isolated case, where when you 
have long lead time, you know, there are enough communications 
going to VHA employees and your employees to get systems in 
place.
    But you know, at a time when we have hired I think in the 
last year 1,335 new doctors, 4,986 new nurses. We have added 
well over $1 billion for new construction in hospitals. The 
times when one doctor just needs one work station computer, and 
one researcher needs one computer--and I know first-hand there 
are some cases where a researcher, a probably $100,000-plus VA 
employee, couldn't do this person's work simply because they 
didn't have a $1,500 computer.
    Has this problem come to your attention? I am not here to 
lay blame on whether it is VHA or IT. It is just a fact and I 
can understand how this could come up as you are looking at a 
big system and long-term issues. Any thoughts about how we can 
streamline this process?
    We have these just minuscule purchases, but it makes a huge 
difference in terms of some key people being able to--doctors, 
nurses and researchers--being able to do the work the taxpayers 
are paying them to do. Any thoughts on that?
    Mr. Howard. Sir, first of all, if an individual like that 
shows up in the VA and needs a computer, they can get a 
computer. They don't have to come to E-10 to get approval for 
that. Now, with that said----
    Mr. Edwards. Do they know that? I have talked to people.
    Mr. Howard. That is the point. There is confusion. Where 
there is smoke, there is fire. You are exactly right. These 
things have come to my attention. In order to be sure that we 
are able to overcome those issues, we have in fact established 
a line. In fact, it is actually in the budget called IT 
allocation--you know, facility allocation. Our intent is to 
provide a pot of money that is available to the facility CIO 
down there at that hospital, and the hospital director, to use 
where they want.
    Unfortunately, we were not able to put much against that in 
fiscal year 2008. We are still struggling to try to find a way 
to do that. There is an amount in the transfer request that 
came over to begin to infuse some money down at the facility 
level. I think it is $35 million. If I am not mistaken, it is 
in there somewhere. And that will be allocated together with us 
and VHA, depending on the size of the facility and what have 
you. But the intent of that money is to do exactly what you 
just described. If they need a mouse or a keyboard or screen or 
whatever, they can go get it. It is not a problem.
    Now, we are introducing--what I don't like them to do is go 
buy six servers. That is a different story there.
    Mr. Edwards. I understand.
    Mr. Howard. But just normal day-to-day expenses is what we 
are trying to overcome. This will help us a lot. We actually 
put a line in the 2009 budget that is zero right now. We hope 
to be able to figure out how to back-need depending on what the 
final appropriation is. We definitely believe we need to do 
that. We definitely believe the CIO at the facility, and the 
hospital director, if you will, needs to have that authority, 
within reason, of course. We don't want them establishing their 
own network or whatever, but they are not going to do that 
because we can control that to some degree.
    So you are right. It is a problem. We have heard it and we 
intend to fix it.
    Mr. Edwards. And when you said not much in the 2008 budget 
to put on that line, how much?
    Mr. Howard. Sir, right now it is zero, but I have given 
instructions to my infrastructure guys. If you give us the $35 
million, that is great. It will help a lot. But if you don't, I 
will try to find some money somewhere to solve it, because it 
is a problem. You are absolutely right.
    Mr. Edwards. We will work with you on this. I just think, 
you know, Mr. Wamp and I and members of the committee have 
talked about with this historic increase in funding for the VA, 
it is just critical that we use every dollar efficiently and 
wisely, or we are going to end up on some 20/20 program and we 
will never be able to have the kind of raising of the bar that 
we have been able to historically do over these past 1\1/2\ 
years. We have a good mark in the budget resolution for the 
2009 year.
    And you said they can get it right now. I am a researcher. 
I have just been hired today. No, I was hired 3 weeks ago, so I 
have been working at a VA hospital as a researcher for 3 weeks. 
Something has happened and I just haven't been able to get a 
work station. What do I do? Do I go to the VA medical director 
up there at the hospital?
    Mr. Howard. There is a CIO at the facility, sir. There is 
an IT staff at each medical facility. They are right there.
    Mr. Edwards. At each medical facility, they are supposed to 
be able to get that done.
    Mr. Howard. Yes, sir.
    Mr. Edwards. Okay.
    Mr. Howard. And if he still can't get it done, most of them 
know my e-mail address.
    Mr. Edwards. All right. I am going to follow up on one of 
the cases I am aware of. But most importantly, I am thrilled 
you recognize there were some issues. You have made a request 
to get some resources to change it and to address those 
problems, and I salute you.
    Mr. Howard. Yes, sir. The one thing I will add, though, is 
the communications is important. Like, for example, if 3,000 
doctors are going to be hired, you know, we kind of need to 
know. It was especially a problem from 2005 to 2008, which has 
been pretty much flatlined--you know, the IT budget. The 2009 
is very, very helpful in terms of the increase, as well as the 
transfer. Dr. Kussman agreed to transfer that money because 
they recognized VHA was growing and the IT appropriation was 
not able to support it. So there is a communication issue that 
we are also solving. Talk to us. Tell us. These guys are coming 
in and they need computers.
    Mr. Edwards. And one of the things that we asked the 
secretary this year, and he has apparently in the last 48 hours 
responded to that, is don't wait until August to send us 
reprogramming requests. If the VA knows right now there are 
some needs where you can spend money by moving it around more 
efficiently to help more veterans, we want to hear it now. I 
think we got that officially, or it is about to come 
officially.
    Mr. Howard. Sir, it is here officially. Yes, sir.
    Mr. Edwards. So it is here officially. Good.
    Mr. Wamp.

                             ACCOUNTABILITY

    Mr. Wamp. Mr. Chairman, I want to associate myself with 
your comments, especially because I am almost stunned today 
that the budget for IT at the VA rivals the entire budget for 
the legislative branch of the United States government. I just 
came from that subcommittee, and just the IT piece of this 
budget is very comparable to the entire budget of all the 
staff, all the functions of the entire legislative branch of 
our government.
    This increase, at 25 percent, is a large number. These are 
important investments, but I have heard today this is a 
weakness in the system. I have heard you are exactly right that 
these systems are problematic. The IG is right. And this is an 
example where the money is not enough. The reforms, the new 
systems, the accountability--changes are as or more important 
than the resources. The resources are important. I don't want 
to take anything away from them, but we need to really think 
long and hard about that so that we are good stewards.

                         RESCHEDULING PROJECTS

    Now, two questions--rescheduling projects. I am learning as 
I go, but it was established to improve the access, decrease 
wait times and increase provider availability. I think the 
first rollout is in Muskogee, Oklahoma and in 2011 it is going 
to be a national program. Are we on schedule, total costs, how 
will this impact wait times? Mr. Bishop talked about that. In 
the news today, we see a lot about wait times and 
responsiveness, and this is kind of a demo. Give us an update 
on it.
    Mr. Howard. Sir, the alpha test this summer will happen. We 
don't anticipate a problem there. The beta test can follow in 
Texas and we should hit that okay. We are dealing with a couple 
of problems right now. One of them is the infrastructure. As we 
roll out, this particular application will go everywhere. 
Unlike some that will be sort of at a central location, this 
one will be implemented throughout the VHA.
    There are some infrastructure issues that we are 
addressing, so that should not slow things down. There was a 
delay previously, but right now we seem to be on track.
    I am going to let Paul elaborate on the timeline, but I 
will say one thing to pick up on what you said. For example, 
associated with that transfer, as we were going through 
debating what to even ask for, one of the criteria we laid down 
is we have to be able to do it.
    You know, this is not just money. You can't just throw a 
pile of money on it. You have to be able to manage it properly. 
So we are very sensitive to that, particularly in the project 
management of large, complex programs. Scheduling is one of 
them. It is an issue that we are dealing with, because you need 
skilled people that know what they are doing so that we don't 
waste the money you provide us.
    But on the timeline, Paul, do you want to elaborate on 
that--the scheduling package?
    Mr. Tibbits. Yes. The timeline, we would anticipate a 
planned finish in 2011, as you said. That is correct. The total 
life-cycle costs we have for that right now, as best we can 
estimate for both software and hardware and infrastructure, et 
cetera--about $180 million, total life-cycle costs to deploy 
and run it.
    With respect to wait times, I don't have exact percentages 
here for you. I would have to follow up with you.
    But the reason they are doing this is two reasons, really, 
is not only to improve the wait times for veterans, but also to 
improve the measurement of those wait times so when someone 
asks how many are on the waiting list, how long have they been 
on the waiting list, we have a consistent measurement of that 
across VHA, so that actually those numbers can be more 
effectively managed.
    Mr. Howard. Do you want to pick up on that?
    Mr. Warren. Sir, if I could go back to your original point 
about given the IG's concerns about how you manage these 
dollars and the size of the budget (INAUDIBLE). One of the 
things that we have done over the last year, and I think the 
investigative survey validated it, one of the fundamental 
changes that has happened between pre-centralization and 
centralization, we actually have a plan of what we are going to 
do.
    One of the things that I spend a lot of time on is why did 
it cost so much money. Just to give you some numbers, our must-
pay bills, if we do no other development, no infrastructure 
investments, just to pay what we have in fiscal year 2008 is 
$942 million (INAUDIBLE). We have 154 medical centers, 1,000 
(INAUDIBLE), regional offices, so if you add all those things 
on, it takes a lot to keep that going.
    Are we satisfied that that is the right number? No. As we 
get our arms around it, where are some of the efficiencies, 
where can we consolidate things into a national contract versus 
everybody doing it, which then gets into the concern about to 
do that you need a contracting force to allow you to do that. 
So we are working with them on that.
    When we have laid out this budget plan, it is to try and 
find the balance among the three areas. What do you have to 
pay? The mortgage, the phone bill--you have to pay that. You 
have no choice. What does our customer--the health 
organization, the benefits organization, the staff 
organizations--need to do their job? So there is about $270 
million in 2008 just to pay that.
    The area that hadn't been funded in the past is you need to 
keep your infrastructure fresh. You can't drive the same car 
for 20 years if you don't do maintenance on it and you don't 
change the oil, and you don't replace the brakes.
    Mr. Howard. And this is not just computers. These are the 
servers, the whole network that supports what we are trying to 
do.
    Mr. Warren. And if you had asked the question 2 years ago, 
give me a lay-down; where are you spending the money. We 
couldn't do it. Today, sir, we can lay down month by month, 
contract by contract, and we have monthly meetings with the 
leadership. Okay, this contract is due in this month. Are you 
done? Where is it? Is it in contracting? Do you have a 
statement of work?
    So yes, it is a large increase, but it is an increase that 
we are going to manage to execution. It is not just a bunch of 
money we are throwing away. (INAUDIBLE) concern. We can't wait 
for a cost-computerized system. You have to use manual 
processes and we are spending time, a lot of time in the senior 
leadership to make sure we have control of this budget and we 
are managing it.

                               IT SYSTEMS

    Mr. Wamp. Okay. Tell me the difference between veteran-
facing IT systems and internal-facing IT systems, and then tell 
the lady sitting behind me of the $1.295 billion request for 
veteran-facing IT systems and the $418 million request for 
internal-facing IT systems, how much of it is maintenance and 
how much of it is new procurement.
    Mr. Howard. Sir, first of all, in the budget book, there 
are some excellent tables. I know you don't have time to look 
at this, but I use them all the time. They are right in the 
back of our budget book. It is very helpful in terms of seeing 
where the money goes. For example, the veteran-facing are 
things you can think of right way--you know, medical care, 
vocational rehabilitation--things that the veterans touch 
directly. Although our role continues to be an indirect role, 
what we are working on in that particular application 
definitely is a front-facing application to help the veteran.
    The internal-facing ones, as I mentioned earlier, are those 
that we need to manage the enterprise. For example, the program 
and financial logistics modernization--that is an example of an 
internal program. The veteran may not see it, but yet it is 
very important to just running the operation. Your contract 
management issue that you mentioned earlier is an internal kind 
of program, as is cyber-security and telecommunications--the 
phones and all that sort of thing. Those are internal-facing 
systems.
    Now, we have in fact for the first time in fiscal year 
2008, we have broken out that portion of the infrastructure, 
for example, that really should be more in a veteran-facing 
kind of activity. For example, on this table I was showing you, 
here is the medical breakdown. You see VistA, imaging, and all 
the things that help the medical arena. But right down there at 
the bottom is medical program IT support. Read that. That is 
the infrastructure piece that we can directly relate to these 
medical programs that we are supporting.
    The other infrastructure that is sort of across the 
enterprise is on a separate sheet. It is on the internal-facing 
programs. We have just started this kind of a relationship in 
fiscal year 2008 that we have continued into fiscal year 2009. 
And we will continue to improve it, because one of the attempts 
here is to tie the money to what you are supporting. What is it 
really buying you here? And hopefully we will continue to help 
in that regard.
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Howard. But these are helpful sheets. Tim has them 
memorized. [Laughter.]
    Mr. Edwards. Mr. Berry.
    Mr. Bishop.
    Mr. Bishop. I have no questions.

                             DATA EXCHANGE

    Mr. Edwards. I just have one other line of questions. Dr. 
Tibbits, in coming into this hearing, one of the most important 
things I wanted to ask about was the interoperability of our 
electronic record systems between DOD and VA. I just want to be 
sure I am clear where we are when we leave today.
    Do I understand you to say that in August of this year, a 
plan will be laid out that will be accessible to Congress and 
others that will have a specific recommendation of what kind of 
system it would be? A timeline on when Private Smith will be 
able to have someone push a button and have his or her records 
sent to the VA? Give me a little more detail about what will be 
available in August.
    Mr. Tibbits. Yes, sir. What we are expecting is a 
requirement that says what is the data exchange that is 
necessary over and above what we currently do, and a timeline 
on which our clinicians and VA clinicians both need that data. 
So I would expect that in this plan.
    What I would not expect in this plan yet is specific detail 
on which particular set of computer systems or which software 
or what will accomplish that yet. So I don't think we are going 
to go that far. But so far, we don't have a good needs 
statement of what the next phase is. This should fill that 
hole. So we are then going to stand up--we are now standing up 
a program office under the--you are probably familiar with the 
Joint Executive Council of the Health Executive Committee--the 
(INAUDIBLE) executive committee. We are standing up a joint 
program office under that structure, whose job it will be to 
continue to oversee the implementation activities that that 
plan requires.
    So I would think that plan should give you the answer of 
when it is (INAUDIBLE) you share across both departments, not 
necessarily how.
    Mr. Edwards. Just intuitively, when you are talking two of 
the largest, not the largest, federal agencies we have, the 
Department of Defense and the VA. VA will have its prejudices 
about what kind of system we want for records for VA purposes, 
and DOD will have their idiosyncrasies and the Army will differ 
from the Navy, which will differ from the Air Force, which will 
differ from the Marines.
    I could very well see some group of individuals sitting at 
this very same table 10 years from now and saying, well, when 
are we going to get an interoperable electronic medical system 
between DOD and the VA. Tell me, you know, we need some 
standard by which we judge both VA and DOD on how they are 
doing. It may take push from a president or a Secretary of 
Defense and the secretary of the VA together, or from Congress.
    What should be a time? What should be a reasonable date for 
when Sergeant Smith or Private Smith can have their records 
transferred when they leave Fort Hood, Texas and they move to 
Marion Berry's hometown in Arkansas, before they move to 
Tennessee, and they can have those records moved from the 
Department of Defense to the VA, and have it accessible from 
many of those places.
    Mr. Tibbits. Right. So let me work through your question 
here because there is a lot in it, so I am going to try to 
tease it apart. There is today electronic information. Some of 
it is computable, some of it is viewable, and other (INAUDIBLE) 
I can skip to later if you want to come back to it. (INAUDIBLE) 
information exchange between both departments today are already 
happening, that would meet 95 percent of the needs of a primary 
care doctor to deliver primary care today--already, as of about 
December of the last calendar year, December 2007. That 
information is going back and forth now.
    Mr. Edwards. What DOD medical records are electronic?
    Mr. Tibbits. All of the laboratory work, all of the 
pharmacy work, all of the radiology work, a good portion of 
doctor notes based on the system they call (INAUDIBLE). Well, 
it is a combination of (INAUDIBLE) plus what they call CHES and 
(INAUDIBLE) together. So a very large percentage on the 
outpatient side.
    On the in-patient side, I think it is at 14 facilities, I 
believe is the right number. They have a system on the in-
patient side running a commercial system called DISENTIS, I 
believe is the name, which in electronic form captures a good 
portion of the in-patient data, discharge summary being the 
most important. These (INAUDIBLE) patient looked when they left 
the hospital.
    Where that exists, in those 14 places, that also is 
included in the electronic transmissions to us. DOD itself has 
to go through its own (INAUDIBLE) and budget process, which I 
am sure you are all familiar with. So with respect to spurring 
that in-patient capability in electronic form across the rest 
of the DOD, they go through their own prioritization 
activities.
    However, to ameliorate the costs and schedule (INAUDIBLE) 
of that in-patient thing on both sides--really on their side to 
do it for the first time; on our side to re-do it, which is 
what we are doing with HealtheVet. You all are probably 
familiar with the joint study that VA and DOD have already 
launched to look at joint development of the in-patient module 
of the electronic health record and hospital information 
system. Phase one of that has already been reported out. Phase 
one was the requirements and feasibility phase, which looked at 
the commonality of requirements between both departments.
    Other than that, we have long-term care. The Department of 
Defense has pediatric care and from a (INAUDIBLE) perspective, 
the Department of Defense has to operate in-theater, in combat. 
By and large with those caveats, 95 percent, some very high 
percentage of commonality of in-patient requirements exists 
between VA and DOD. So from a feasibility perspective, joint 
development makes sense, so that was phase one.
    Phase two has now started. Phase two is I think best 
described as the technical analysis of alternatives. So phase 
two is to look at potential solutions to development--potential 
solution number one, potential solution number two, potential 
solution number three, et cetera; pros, cons, costs, schedules, 
risks, et cetera, et cetera--and see what might be the best way 
to go about jointly doing that in-patient piece.
    What I want to emphasize is with respect to a common 
system, just as all of you in this room in your private lives 
probably use email on your own private systems at home. I will 
bet none of you in this room know which email system each other 
of you uses at home, nor what telecommunication provider each 
of you have at home. It doesn't matter to you because you all 
speak English and because your respective systems all follow a 
standard set of protocols for messaging. You can exchange 
information among yourselves without having any idea of what 
system is running on the other side.
    I am saying this because we want to be careful about not 
letting the great get in the way of the good. Information 
interoperability to serve the needs of active duty service 
members and veterans today is what is of paramount importance. 
The sending and receiving software for that purpose is 
irrelevant. The sending and receiving software is irrelevant.
    We want to look at joint development of the in-patient 
records and reduce costs and schedule risks, so perhaps the 
Department of Defense can get it faster, and perhaps we can get 
it a little bit faster, but in the meantime we don't want to 
look back or get in front of the information exchange 
requirements that we are defining in this information 
interoperability plan, because that is what is meeting the 
needs of veterans and service members today, and will continue 
to do so next year and the year after and the year after, while 
we are going forward with (INAUDIBLE) alternatives to figure 
out what is the best way to jointly develop stuff.
    If all of you in this room had to come to agreement with 
everybody on a new address book as to what e-mail system you 
were going to use before you sent the first message, you 
wouldn't be sending messages today. So the key to meeting the 
needs of those members is that information interoperability 
plan first and foremost, and then the joint development thing 
secondary.
    Mr. Edwards. Are you saying that every Army soldier that 
leaves the Army today, and say they move from Fort Drum, New 
York to Seattle, Washington, and are about to go see a private 
doctor in Seattle, Washington. Are you saying the Department of 
Defense health care records are electronic and they could have 
those transferred electronically to their family physician in 
Seattle, Washington?
    Mr. Tibbits. No. About 80 percent of what you said is true.
    Mr. Edwards. Okay.
    Mr. Tibbits. If they move from Florida to Washington----
    Mr. Edwards. That is pretty good for a politician. 
[Laughter.]
    Mr. Tibbits. If they move from Florida to Washington state, 
and they go from treatment at the VA Florida to treatment at a 
VA in Washington state, absolutely their records are available 
out there. So yes to that. For every piece of electronic 
information, there is a caveat. This is a trick statement I am 
about to make. Every piece of electronic information that the 
DOD has is transferred to us at the time of separation. Every 
electron on that program. That doesn't mean it is everything.
    It gets back to the information interoperability plan to 
make sure what may not be there electronically today is 
represented in that plan, so he gets it. And we have both 
deputy secretaries--Secretary England and Secretary Mansfield--
on the top of that senior oversight committee who are signed up 
to do that plan by August.
    The private doctor in Washington state--we have My 
HealtheVet--that is a Web site. My HealtheVet is a viewport 
that the veteran can use to both upload data about him-or 
herself. I checked my blood pressure last night and it was 
such-and-such. Okay? It also represents a viewport into certain 
selected elements right now, and growing, but anyway certain 
selected items of their electronic medical record at the VA.
    Very soon, and I will need to say for the sake of 
discussion, this calendar year, but I don't remember the exact 
month--but anyway, this year--delegation authority will be 
built into My HealtheVet as a function. So today the veteran 
could to his doctor in Kansas in the office say, let me sit at 
your browser for a minute, type in the URL, boom, up comes My 
HealtheVet, and as long as the veteran is doing it, the doctor 
can come over and look at the screen and hit the print button 
and print it out in the doctor's office. So yes, that can be 
done today.
    With that delegation authority, if that veteran wishes his 
wife to do that or his brother to do that, with delegation 
authority, the veteran could actually say, brother, you can do 
that for me in case I am incapacitated, unconscious, whatever 
happens to me, and you can call up that information on my 
behalf and show it to the doctor in the emergency room who 
wishes to treat me. So it is delegation authority. So that will 
be there soon--the delegation authority.
    And then, of course, what My HealtheVet itself can view is 
going to continue to grow in time as well, so (INAUDIBLE) 
expand over time. And I will say, as a close, as an analogous 
system--and I can't tell you exactly functionally how analogous 
it is--but it is analogous in general terms on the DOD side, 
which is TRICARE online. There is a very close working 
relationship, also I might add, between our team, My 
HealtheVet, and the DOD team, TRICARE online, to collaborate as 
much as possible and doing the same sort of things we need the 
capabilities connecting to each other, et cetera, et cetera.
    And lastly, just for a little bit of advertising here, this 
accreditation body called EURAC just had an awards competition 
for consumer empowerment in various categories. My HealtheVet 
was nominated, and it turned out at the ceremony, My HealtheVet 
wound up getting the top honors in the IT category for consumer 
empowerment.
    Mr. Edwards. Congratulations. That is great news. Thank 
you.
    Mr. Wamp.
    Mr. Wamp. No further questions.
    Mr. Edwards. If not, I am sure there will be a lot of 
continuing questions and discussions in the months ahead. You 
have a lot of responsibility in building a relatively new 
organization. I know it is a challenge. Thank you, Secretary 
Howard, for taking on the challenge. Thank you very much, Dr. 
Tibbits. Thank you for your work, and we look forward to 
working with you.
    One last thought. This $35 million, if we get that to you 
in reprogramming, what are the probabilities that that will 
cover 100 percent of your needs in fiscal year 2008 so that 
researchers, doctors and nurses don't lack work stations.
    Mr. Howard. Those kinds of needs, sir, it is going to 
handle those kinds of needs.
    Mr. Edwards. All right. That will take care of that.
    Mr. Howard. Again, the allocation will be worked with VHA 
as we decide which hospital gets how much.
    Mr. Edwards. Okay.
    [Clerk's note.--Questions for the record submitted by 
Chairman Edwards.]

                    1. Proposed Legislative Language

    Mr. Howard, in the FY 2010 legislation submitted to the Congress, 
you propose to delete the requirement that the Department of Veterans 
Affairs submit a detailed expenditure plan to the Committees on 
Appropriations. This expenditure plan must meet the capital planning 
and investment control review requirements established by OMB and 
comply with the Department's enterprise architecture.
    Why is the Department proposing this change in legislation and what 
assurance would the Committee have that you are meeting basic 
acquisition benchmarks if we were to agree to this proposal?
    Response. VA is proposing to eliminate this appropriation language 
because the process we have in place for IT planning is mature and our 
normal business operations comply with requirements of the language for 
capital planning review, enterprise architecture review, life cycle 
review and follow appropriate acquisition rules.

                2. Office of Information and Technology

    The Appropriation Committee's Surveys and Investigations staff has 
recently completed a review of the Department's information and 
technology programs and reports that the Office of Information and 
Technology has a staffing requirement of 6,680 full-time equivalent 
employees. However, to satisfy this requirement in FY 2009 you would 
need to hire 1,990 additional people.
    Does your budget include the necessary funding to hire almost 2,000 
people in one year? And do you feel you can realistically find 
qualified applicants to satisfy this requirement? Is this shortfall in 
personnel the result of other Department organizations failing to 
identify and transfer existing information and technology personnel to 
your organization?
    Response. As of March 29, 2008, the Office of Information and 
Technology (OI&T) has 6,439 staff on-board. We only need to hire an 
additional 247 staff in FY 2008 to reach our 6,686 staffing level 
entering into FY 2009. In addition, the FY 2009 budget provides 
sufficient payroll funding to support 6,686 FTE as well as an 
additional 94 FTE for a total of 6,780 FTE.
    The ability to recruit and employ qualified applicants is, in large 
part, dependent on the duty station the employee is assigned to. At 
present, hiring has been constrained--OI&T organizations have been 
instructed to phase hiring to remain within current FY 2008 available 
funds, The need for an additional $20 million in payroll funds in FY 
2008 is due to a number of factors. For example, the initial cost at 
the time of the transfers for the reorganization assumed a lower 
average salary for the IT staff than actually existed and required and 
leasing costs (which must be paid from the ``pay'' portion of the 
appropriation) were higher than anticipated. These additional payroll 
funds are included in the appropriation transfer request submitted to 
Congress on April 2, 2008.
    The impact on IT related tasks previously performed by individuals 
on a part time basis (part time program Administration support/part 
time IT support), has been difficult to determine. However, we are 
reassessing this impact currently to refine additional IT resource 
needs due to this split function that may not have been captured in the 
first transfer. In addition, we are also examining the operational 
impact on OIT of staffing retained in other VA organizations for 
business requirements determination work. OI&T is developing a staffing 
model relative to field operations and development, which will provide 
a more accurate estimate of the number of IT FTE required to support 
VA's IT needs.

                          3. VistA Contracting

    The Appropriation Committee's Surveys and Investigations staff has 
recently completed a review of the Department's information and 
technology programs and reports that HealtheVet program offices are not 
able to obtain the skilled contractor support they require using the 
Department's VistA Contracting Services (VCS) and, as a consequence, 
staffing problems are negatively impacting program schedules. The staff 
reports that the VCS process takes too long and that multiple contract 
modifications are required when labor hours change because of the 
multiple labor categories and contractors involved. As a result, VCS 
currently has a significant backlog of modifications it is trying to 
process.
    Would you agree that the VCS process takes too long and is having a 
negative impact on program schedules, and what steps are you taking to 
address the problem?
    Response. The VistA Contracting Services (VCS) is not so much a 
process but a Blanket Purchase Agreement (BPA) with eight contractors 
for VistA Contractor support (VCS). Generally, orders competed against 
a BPA are the most efficient and timesaving way to acquiring goods and 
services. However, the delays we are experiencing are with acquisitions 
taking too long and having a negative impact on program schedules. It 
is important to note the VCS contract is focused primarily on the 
ongoing support to the VistA system and only Block I of the HealtheVet 
program. (See Attachment A.) To resolve the significant acquisition 
issues we are facing in OI&T, the Office of Enterprise Development 
(OED) and acquisitions staff are working very closely together. While 
an end-to-end acquisition strategy for the multi-phased HealtheVet 
program is not yet established, a jointly-chaired OED/Acquisitions 
HealtheVet Acquisition Strategy Integrated Project Team is now in place 
to work consistently on the plan. A critical aspect of this 
collaboration is the establishment of HealtheVet-dedicated ``cells'' 
within the Offices of the General Counsel (OGC) and Acquisition, a step 
that will be accomplished within the next few months. Additionally, OED 
management meets regularly with the Corporate Franchise Data Center in 
Austin, Texas to provide the contracting professionals working on the 
HealtheVet acquisition vehicles (contracting mechanisms) with an 
orientation to the transition from VistA to HealtheVet. These efforts 
will build a staff of acquisition and OGC professionals intimately 
familiar with the challenges of such a complex transition of 
applications.

               4. VistA Foundations Modernization Program

    The VistA Foundations Modernization program is the capital 
investment program that provides the architecture and foundational 
elements to the new HealtheVet effort. The budget for this program is 
$95 million, an increase of about 45 percent compared to the FY 2008 
estimate. In a review of this program, the Appropriation Committee's 
Surveys and Investigations staff found there is not yet a thorough 
integration plan for this program. In addition, they found the program 
is not able to hire qualified IT staff, and there is a lack of 
flexibility in existing contracting vehicles, both of which indicate it 
is unlikely this program will remain on schedule.
    What is the status of completing a thorough integration plan for 
this program? And would you comment on the efforts of the program to 
hire qualified staff?
    Response. HealtheVet, like VistA, is an extremely complex system 
requiring highly-developed integration. The dependencies inherent in a 
system like HealtheVet have become clearer as a result of the recent IT 
consolidation at VA and, in conjunction with this clarity, a 
recognition that a dedicated technical system integrator is required to 
provide the extensive oversight to make this program successful. This 
function is currently being served by multiple individuals and 
organizations. As a result, the Office of Enterprise Development is 
establishing a consolidated and collaborative system integration team 
led by an authoritative technical and architectural integration 
manager. This team will be comprised not only of health care-focused 
system engineers, but also system engineers from benefits and memorial 
affairs to provide a global perspective of HealtheVet within the VA 
architecture. The early form of this team will meet in May/June 2008 to 
establish a high-level service-oriented architecture-centered plan for 
HealtheVet.
    In the interim, the health care-focused team of systems engineers 
and architects is working toward several milestones that will assist in 
expanding the existing integration plan:
    <bullet> System engineers continue to be embedded into Veterans 
Health IT portfolios and programs in order to provide real-time, 
matrixed support to application development and architecture. These 
individuals have cross-cutting contacts in both their assigned programs 
and the rest of the systems engineering team to ensure better 
understanding of integration challenges.
    <bullet> The team responsible for the integrated master schedule 
and plan presents weekly to the Veterans Health IT Change Control Board 
to apprise senior management of schedule changes.
    <bullet> A new work plan, process definition plan, and process flow 
documentation for a release management technical working group was 
created. The release management team provides integration between 
development, program management, and senior management in order to 
ensure software is correctly and appropriately released to the field.
    With respect to hiring the necessary qualified staff to ensure the 
management of the HealtheVet systems, OED is presently completing 
organizational streamlining to eliminate redundancies that existed when 
there were at least four different development organizations at VA, 
prior to the recent consolidation. As part of this streamlining, we are 
evaluating the required staffing skills and abilities mix required for 
HealtheVet as well as the other critical development projects presently 
underway at VA. We have had difficulties in hiring program/project 
leadership and as a result have reached out to the Space and Naval 
Systems Warfare Center (SPAWAR), with expertise in systems engineering 
and systems integration, to support our efforts in this area. In 
addition, we are developing the appropriate mix of Federal and 
contractor staff necessary to successfully develop and deploy 
HealtheVet.

    [Clerk's note.--End of questions for the record submitted 
by Chairman Edwards.]
    [Clerk's note.--Questions for the record submitted by 
Congressman Farr.]

                              5. Lost Data

    In 2006, it was well publicized that VA laptops with personal 
information of thousands of veterans were stolen from a VA employee. 
Fortunately, we avoided an even bigger problem when the laptops were 
recovered with the sensitive information in tact.
    What safeguards has VA put in place to prevent a similar incident 
in the future?
    As VA moves more and more towards a complete electronic records 
system, what steps are being taken to prevent a similar theft of 
information through a breach of electronic security?
    How will the VA participate in the new Presidential Cyber Center?
    Response. Safeguards: In September 2007, VA published the 
Department's information security policy--VA Handbook 6500. This 
document contains the primary cyber security procedural and operational 
requirements of the Department. It also includes the National Rules of 
Behavior--a document that all employes must sign before they are given 
access to our computer systems and sensitive information. In addition, 
VA
    <bullet> Is centrally managing implementation, enforcement and 
remediation of IT security controls throughout the Department via the 
Data Security--Assessment and Strengthening of Controls Program (DS-
ASC) and the Secrity Management and Reporting Tool (SMART) database.
    <bullet> Has established the OI&T Office of IT Oversight & 
Compliance (ITOC) which consolidates existing IT security inspection 
and compliance program activities into one office to assist in 
centralized enforcement of VA IT security controls.
    <bullet> Has conducted risk assessments of its information systems 
and has incorporated the Formal Event Review Evaluation Tool (FERET) 
into VA's incident reporting capability to provide a VA-wide risk 
analysis tool for the identification of data breach-related events as 
incidents.
    <bullet> Has provided security awareness training to 95 percent of 
its employees and specialized training to 100% of its employees with 
significant security responsibilities in FY 2007.
    Steps to prevent a similar theft of information throuqh a breach of 
electronic security. The VA National Security Operations Center (NSOC) 
audits and monitors:
          <bullet> Incident Management (initial report, information 
        collection, follow up, closure)
          <bullet> Firewalls (monitor for known threats and anomalies)
          <bullet> Network Intrusion Prevention System (monitor for 
        known threats and implementing blocks of new threats (policy 
        tuning))
          <bullet> Host-base Intrusion Prevention System (monitor for 
        known threats and policy tuning) and
          <bullet> Anti-Virus (monitor definition updates and viral 
        infections)
    Encryption is being implemented throughout VA in an expeditious yet 
cautious manner as to not halt business operations. VA has deployed 
several technologies to encrypt data in storage and in transit. VA has 
encrypted over 18,000 laptops and continues to encrypt new laptops as 
they are acquired. VA is in the process of deploying technology, 
Attachmate Reflections, which will encrypt data that is sent via File 
Transfer Protocol (FTP) and Telnet. Data from applications such as the 
Computerized Patient Record System (CPRS), Veterans Health Information 
System and Technology Architecture (VistA) and Integrated Funds 
Distribution, Control Point Activity, Accounting and Procurement 
(IFCAP) will be encrypted using Attachmate Reflections.
    Also, the new VA remote access solution, the remote enterprise 
security compliance update environment (RESCUE), will encrypt data 
using Secure Socket Layer (SSL). VA has also turned on password and 
``content protection'' on blackberry devices which encrypts blackberrys 
when they're locked. VA has procured and deployed Trust Digital to 
encrypt SmartPhones. The VA Public Key Infrastructure (PKI) solution 
has been operational for several years and is used to encrypt email and 
for Web-authentication. Recently, VA deployed a Microsoft Rights 
Management Service (RMS) technology that compliments VA PKI, and can be 
used to encrypt emails, documents and files of VA information. VA is in 
the midst of pilot testing an extension of the RMS capability to mobile 
devices and business partners.
    VA is currently developing an enterprise level Identity and Access 
Management (IDAM) strategy. A cross-Departmental Tiger Team was created 
to perform data collection and analysis and provide recommendations to 
VA management on a One VA approach for IDAM. The Tiger Team has 
concluded its efforts and is drafting an executive report which will 
provide findings, recommendations and next steps.
    Presidential Cyber Center. The Presidential Cyber Center is a new 
initiative. VA will offer any support required for this important 
initiative.

    [Clerk's note.--End of questions for the record submitted 
by Congressman Farr.]
    [Clerk's note.--Questions for the record submitted by 
Congressman Wamp.]

                         6. Reprogramming Letter

    The Committee received a reprogramming request from the VA for $294 
million from Veterans Health Administration (VHA) to go toward VA IT. 
VA Office of Information and Technology (OI&T) needs to hire 1,590 
people by this August in order to meet the FY 2008 staffing 
requirement. Are these reprogramming funds going toward this staffing 
requirement? Where is VA looking to find and hire 1,600 people in the 
next 5 months? Is VA actively trying to hire vets to fill this staffing 
requirement?
    With the reprogramming, has VHA also moved its IT staff over to 
OI&T?
    Response. Of the $294 million transfer request from VHA to OI&T, 
$20 million is to enable us to hire an additional 247 staff up to the 
planned level of 6,686, so that we are positioned to start FY 2009 to 
achieve the budgeted staffing level.
    VA is planning on hiring 247 IT staff by the end of FY 2008. OI&T 
is an active supporter of the Department's goal to hire veterans. The 
April transfer request does not propose to realign staff from VHA to 
OI&T.

                  7. Surveys and Investigations Report

    Based on the most recent Appropriation Committee's Surveys and 
Investigations (S&I) report of VA IT, the Veterans Health 
Administration (which previously controlled 90 percent of VA's IT 
funding) has been uncooperative with the VA OI&T and has continued to 
retain IT personnel as well as continued to purchase IT equipment 
without consulting with OI&T. In addition, Secretary James Peake has 
thus far not publicly expressed support for a strong, centralized IT 
management program which has caused concern that VHA will be able to 
persuade Secretary Peake that they should again control discretion 
about how best to allocate IT funding. Based on past performance by 
VHA, VHA's ability to use IT funding in the most prudent way is 
questionable. According to the S&I report this internal struggle for 
control over IT funds between OI&T and VHA may jeopardize the initial 
success of VA's centralized IT system. Are there concerns at the VA 
that the centralized IT system will become destabilized by internal 
struggle between VHA and OI&T?
    Response. Secretary Peake is a strong supporter of information and 
technology and its ability to enhance the Department's capability to 
provide quality services to our veterans. As a result of the recent 
consolidation OI&T has put in place a disciplined process to plan and 
manage the execution of the IT appropriation at VA. In conjunction with 
this we have also established a multi-year planning process to ensure 
we are planning for the future. The Chief Information Officer is 
actively working with VHA leadership to resolve any concerns at the 
staff level with the consolidation of IT functions.

                        8. Rescheduling Project

    The goals of the Scheduling Rescheduling project are to improve 
access to care for veterans, decrease wait times for appointments, and 
increase provider availability. The first version of the project will 
be placed in production at the VA medical center in Muskogee, Oklahoma, 
during June 2008, followed by ``several activities'' in FY 2009 in 
preparation for completion of a national rollout in FY 2011.
    According to the testimony the first version of the Scheduling 
Replacement project will be placed in production at the Muskogee, 
Oklahoma, VA medical center in June 2008. Are you on schedule to put 
that in place in June?
    Tell the Committee what has to be done to get that in place? What 
activities will take place for the remainder of fiscal year 2008 on the 
Scheduling Replacement project? Has the Scheduling Replacement Project 
been tested and validated?
    Please tell the Committee how this initial deployment was tested 
and validated? What other locations are included in the initial 
installation of the project? What application is being used for the 
project? What type of improvements do you anticipate having to make in 
fiscal year 2009? What type of hardware and software will have to be 
purchased, and at what cost? What is the total cost to implement the 
Scheduling Replacement Project? What are the projected annual costs to 
maintain this system?
    How will you know access to care has been improved? How will you 
know that wait times for appointments have decreased?
    How will you know that provider availability has increased?
    Response. Are you on schedule to put that in place in June? Tell 
the Committee what has to be done to qet that in place?
    The application is now scheduled to be in production in August 
2008. Delays in vendor repairs to the application as well as the 
reintegration and retesting of new versions of external components 
required for deployment resulted in this delay. VA will continue with 
the product certification process and instituted weekly defect 
deliveries that will be tested by the business users for approval of 
operational readiness in order to mitigate any future time issues.
    What activities will take place for the remainder of fiscal year 
2008 on the Scheduling Replacement project?
    The remainder of FY 2008 will be devoted to certification of the 
application for production, preparation for training activities at 
Muskogee and ensuring the support structure is in place for both 
technical and business issues that may arise during deployment. The 
testing and validation of the application is in process with 
certification expected in July 2008.
    Has the Scheduling Replacement Project been tested and validated?
    In order to prepare for initial deployment, the application 
undergoes several phases of testing, including functional testing, 
performance testing, integration testing, and disaster recovery testing 
prior to deployment. In addition, several levels of approval are 
required to field the application, including Independent Validation and 
Verification certification, user acceptance testing and approval, 
milestone review (operational readiness) by VA senior management, and 
formal agreement with the Muskogee VA Medical Center Director. Only one 
site (Muskogee VA Medical Center) will be included in the initial 
installation. The second site for the next phase is anticipated to be 
the Central Texas Healthcare System, which is a much larger and more 
complex medical center.
    The application being deployed is the Replacement Scheduling 
Application (RSA). In addition, commercial products such as Oracle, 
Linux, Weblogic and Crystal Reports are utilized as part of the overall 
system architecture.
    In FY 2009, the application will include additional enhancements 
such as group management of patients, improved ad hoc reporting 
capabilities, and local management of several files and tables. Also 
included will be upgraded versions of supporting components as part of 
the overall HealtheVet infrastructure. Expected business improvements 
include improved access to care, inter-facility scheduling, and new 
metrics designed to more accurately capture patient waiting times at 
any level of VHA.
    What are the projected annual costs to maintain this system?
    Two application servers and supporting operating systems for each 
site must be purchased. This provides a primary server and a failover 
system in the event of failure to ensure continuity of operations. 
Other purchases for deployment are software licenses (Crystal Clear and 
Oranxo), Linux, Weblogic server licenses, and data storage at the 
Corporate Data Center in Austin, Texas. Estimated cost for the 
procurement of software and hardware is $12 million over FY 2009 and FY 
2010 phased in through the deployment schedule. The total cost to 
complete is estimated at $180 million for FY 2001 through FY 2011. 
Annual maintenance costs are approximately $13 million per year. Those 
costs include planned license renewals, planned equipment refreshes, 
operational support at the Corporate Data Center, and ongoing 
maintenance and support of the application.
    How will you know access to care has been improved?
    The deployment plan includes metrics that baseline the current 
access to care and wait times in order to verify improvement of care. 
This will be measured at each site prior to the installation of the 
application. Metrics will be gathered weekly to determine the 
improvement from the baseline in the areas of access to care 
(availability of appointment slots), provider availability, same day 
care, special appointment availability (such as compensation and 
pension and service connected), and overall improvement in the 
management of outpatient care.
    How will you know that wait times for appointments have decreased?
     Wait time statistics are historically available and will be used 
as the initial baseline for performance improvement. With the 
implementation of the business process reengineering and supporting 
application, the new metrics will be compared to the baseline to 
determine the percentage of improvement. The new wait lists also 
include long term and short term pending lists that send reminders for 
appointment scheduling, thus ensuring that future availability for care 
is not compromised or used as wait lists in lieu of a better solution.
    How will you know that provider availability has increased?
    Provider availability is historically available in VistA and will 
be used as the initial baseline for performance improvement. With the 
implementation of single calendars for every provider, the restriction 
of care is lifted that is currently imposed by the outdated clinic 
structure in place today. The single calendar will allow for the 
clinician to provide any type of health care, and also track provider 
availability in 5 minute increments.

            9. Encryption/Privacy of Mobile Service Delivery

    The testimony says portable IT equipment for benefit counselors is 
encrypted to protect veterans' privacy. Are you facing challenges doing 
this? If so, what are some of the challenges you are facing to ensure 
the encryption of data? If you are not facing challenges in this 
regard, tell the Committee what you are doing to ensure the privacy of 
our veterans as it relates to delivering mobile services?
    Response. Are you facing challenges doing this?
    VA, OI&T Field Operations has taken a number of steps to ensure the 
privacy of our veterans when using portable IT media. Portable IT 
equipment for benefit counselors may include laptops and USB storage 
devices (thumb drives). All laptops that are issued to any VBA employee 
have been encrypted using the Guardian Edge software. This software 
package encrypts the entire hard drive so that no data is left 
unencrypted.
    The transmission of data over the Internet between field computers 
and the VA network is also encrypted. All laptops are registered to a 
specific user who is required to connect the laptop to the VA network 
at least every 90 days to ensure security updates occur. All laptops 
connect to the VA network via secure Virtual Private Network (VPN). 
Through this secure VPN connection, users can perform all necessary 
tasks within the VA network so that data is saved on the internal VA 
centralized system and not on the portable laptop.
    If a VBA employee requires a thumb drive to perform duties, only 
encrypted VA-approved thumb drives are authorized. These thumb drives 
contain a small amount of space that contains the encryption software. 
This space cannot be encrypted. This is a minor challenge for our 
organization that is being addressed by educating users of these 
devices.
    If so, what are some of the challenges you are facing to ensure the 
encryption of data?
    These security processes require significant effort on the part of 
IT staffs to enable encryption and train the users. This challenge 
applies to both laptop and thumb drive encryption. Additionally, the 
use of encrypted devices reduces response time. Most users have noted 
time delays when using encrypted laptops and thumb drives, especially 
when working with large amounts of data. Although this has presented 
some challenges, everyone agrees that this is the best solution 
available.

         10. Veteran Facing Information Technology (IT) Systems

    Veteran facing IT systems support VA programs such as medical care, 
delivering compensation benefits, providing pension benefits, enhancing 
educational opportunities, delivering vocational rehabilitation and 
employment services, promoting homeownership, providing insurance 
service, and delivering burial services. Veteran facing programs 
account for $1.295 million of the IT request. The payroll portion of IT 
is an additional $729.2 million.
    Response. Of the $1.295 billion for veteran facing IT systems, how 
much of that is maintenance of current systems and how much of that is 
for new procurement? 
    Out of the $1.295 billion for veteran facing, $401 million 
represents the development projects (new procurement) and $893 million 
represents the maintenance and operations accounts.
    Of the payroll portion of your veteran facing IT systems, how much 
of that is for maintaining the personnel you have on board, how much of 
that is the fiscal year 2009 pay raise, and how much is for hiring new 
personnel? What is the attrition rate of your VA IT staff?
    In FY 2009, the salary and other pay related costs for the 94 
additional FTE is slightly over $10.8 million on top of maintaining the 
FY 2008 base of $699.1 million. Overhead costs such as travel, 
training, supplies, leases, and other support requirements are 
calculated to be approximately $19.3 million in FY 2009 for a total pay 
request of $729.2 million. The FY 2009 pay raise is calculated to be 
$21.1 million. The attrition rate for OI&T is currently planned at 
approximately 5 percent of the total workforce annually.

                     11. Internal Facing IT Systems

    Internal facing IT systems are those systems that provide 
capability to more effectively manage IT resources such as corporate 
management, financial resources management, asset management, human 
capital management, IT infrastructure, and information protection.
    Of the $418 million for internal facing IT systems, how much of 
that is maintenance of current systems and how much of that is for new 
procurement?
    Response. Out of the $418 million for internal facing, $128.2 
million represents the development projects (new procurement) and 
$289.8 million represents the maintenance and operations accounts.

                    12. Electronic Health Record DE

    The testimony says VA is working hard to support the President's 
vision to have electronic health record capability for most Americans 
by 2014 and to implement the associated Executive Order. Please provide 
a copy of that Executive Order for the record. Tell the Committee 
specifically what VA is doing to support electronic health record 
capability implementation by 2014. How much is VA spending in fiscal 
year 2008 for this activity? How much is in the fiscal year 2009 budget 
for this activity?
    Response. Executive Order: Incentives for the Use of Health 
Information Technology and Establishing the Position of the National 
Health Information Technology Coordinator http://www.whitehouse.gov/
news/releases/2004/04/20040427-4.html (See Attachment B.)
    Tell the Committee specifically what the VA is doing to support 
electronic health record capability implementation by 2014.
    VA plans to achieve the core elements of HealtheVet by 2012 with 
full operating capability of the major components targeted for 2014. 
Primary components and capability planned for this next generation 
include:
    <bullet> Scheduling Replacement:
          <bullet> New/improved capability includes resource scheduling 
        (provider, room, equipment) and coordination of those resources 
        to improve patient scheduling
          <bullet> Inter-facility scheduling between VA medical centers 
        (VAMC)
          <bullet> Ability to make/cancel/reschedule/check in/out 
        appointments, etc.
          <bullet> Ability to track utilization and determine resource 
        requirements
          <bullet> Improved reporting of patient wait times by 
        specialty and services
    <bullet> CPRS Reengineering:
          <bullet> Personalized (individual patient) decision support 
        incorporating medical knowledge, genomic information, and 
        patient specific information
          <bullet> Enhancements to meeting accreditation requirement 
        such as the Joint Commission on the Accreditation of Healthcare 
        Organizations and the legal health record requirements
          <bullet> Provides access to clinical information and decision 
        support information from other VAMC and Department of Defense 
        (DoD) sites through VistAWeb and remote data interoperability
    <bullet> LAB Reengineering:
          <bullet> Improved support of Pathology & Laboratory Medicine 
        Services, meets accreditation standards
          <bullet> Auto-Verification of results, automated Specimen ID 
        and tracking
          <bullet> Improved support for Emerging Lab Technologies
          <bullet> Reduced/eliminated patient and sample identification 
        errors, enhanced data/info interoperability leading to improved 
        decision support
    <bullet> Pharmacy Reengineering:
          <bullet> Reduced risk of medication errors and adverse events 
        through enhanced medical management decision support tools; 
        Inpatient and outpatient integrated pharmacy order processing 
        system that supports Bar Code Management Application (BCMA)
          <bullet> Increases number of prescriptions to be filled 
        within the same time frame, provides better formulary 
        management, supports interoperability and ePharmacy claims 
        processing
    <bullet> Health Data Repository (HDR):
          <bullet> Enables providers to obtain integrated data views 
        and acquire the patient, specific clinical information needed 
        to support treatment decisions--reduces patient safety issues 
        by providing a consolidated national view (across all VA 
        facilities and DoD) of the patient's clinical data
          <bullet> Reduces costs by reducing redundant procedures, 
        increasing data quality, promoting standards, and enhancing 
        research, performance reviews and decision support. Note: HDR 
        is also the lynchpin of VA/DoD sharing/interoperability
    Other major efforts ongoing include:
    <bullet> Storing the health records for all veterans served by 
Veterans Health Administration (VHA) care facilities and making them 
available in electronic form, including both text and image records. 
The records are available both at local facilities and at any remote 
VHA facility.
    <bullet> Facilitating the electronic transfer of laboratory and 
pharmacy orders not only among VHA facilities, but DoD and commercial 
vendors as well. VHA can also exchange some health records for active 
duty and veteran personnel between DoD and VA sharing facilities.
    <bullet> Establishing remote order of medical procedures (inter-
facility consults) and telemedicine for specialty care through 
electronic technologies.
    <bullet> Providing secure information for veterans to manage their 
own health records via MyHealtheVet. This Web site not only provides 
veterans with their VA-based clinical records but also allow veterans 
to report/record their own data, such as blood pressures and 
information from private physicians. It also provides the capability 
for veterans to refill prescriptions if they so choose.
    <bullet> Modifying VistA in conjunction with Department of Health 
and Human Services (HHS) to provide a physician office system for rural 
health care providers. VHA also shares VistA with the Indian Health 
Services to further its effort in electronic health record.
    Future activities in this area include:
    <bullet> Continuous improvement of interoperability with DoD and 
other government or civilian health care entities via programs and 
projects that ensure timely information transfer and the expansion of 
the types of data sent.
    <bullet> Continuous effort in health care record standardization. 
Data standards will allow VHA, other governmental health care entities 
and the rest of the health care industry to achieve interoperability in 
the near future.
    <bullet> System and network security improvement to ensure privacy 
and security of electronic health records. For example, the identity 
service to manage system access and continuous monitoring for 
appropriate record access.
    How much is the VA spending in fiscal year 2008 for this activity? 
How much is in the fiscal year 2009 budget for this activity?
    VA considers the pursuit of an electronic health record integral to 
nearly all of its activities. For this reason, VA's budget data does 
not excerpt electronic health record capability as a separate line 
item. As presented here and in question 13, you will find more detailed 
information regarding budget requests and a number of the programs 
listed provide support to the ultimate goal of an electronic health 
record.
    The budget information below includes non-pay data (dollars in 
millions):

------------------------------------------------------------------------
                   Initiative                       FY 2008     FY 2009
------------------------------------------------------------------------
VistA Application Development...................     $64.290    $116.721
VistA Foundations Modernization.................      65.728      94.966
Scheduling Replacement..........................      20.600      29.909
Laboratory Systems Reengineering................       7.000      29.057
Health Data Repository..........................      25.000      24.830
My HealtheVet...................................      12.740      18.427
Pharmacy Reengineering..........................       9.360      17.234
Enrollment Enhancements.........................      13.418      15.637
------------------------------------------------------------------------

                           13. IT Initiatives

    VA has at least eight IT initiatives in veteran facing medical 
programs. Those initiatives include: VistA Application Development; 
VistA Foundations Modernization; Scheduling Replacement; VistA 
Laboratory Information Systems Reengineering; Health Data Repository; 
MyHealtheVet; Pharmacy Reengineering; and Enrollment Enhancements; as 
well as maintaining VistA Legacy system. Do you believe that you have 
the necessary leadership in key positions to effectively carry out 
these initiatives? Do you believe that you have the support at the 
highest levels in the Department to carry out these initiatives? How 
much are you spending on each of these initiatives in fiscal year 2008, 
and how much is in the fiscal year 2009 request for each of these 
items? How do you rank these initiatives in order of importance?
    Response. Do you believe that you have the necessary leadership in 
key positions to effectively carry out these initiatives?
    Leadership positions for some of these programs have not been 
filled on a permanent basis. We are actively working to fill these key 
leadership positions.
    Do you believe that you have the support at the highest levels in 
the Department to carry out these initiatives?
    Yes.
    How much are you spending on each of these initiatives in fiscal 
year 2008, and how much is in the fiscal year 2009 request for each of 
these items? How do you rank these initiatives in order of importance?
    It is extremely difficult to rank these items in order of 
importance as each is a critical aspect of the migration from VistA to 
HealtheVet. Aspects of each are dependent on the others, and often a 
delay in one of the programs results in delay of future HealtheVet 
applications. The budget information below includes non-pay data 
(dollars in millions):

------------------------------------------------------------------------
                   Initiative                       FY 2008     FY 2009
------------------------------------------------------------------------
VistA Application Development...................     $64.290    $116.721
VistA Foundations Modernization.................      65.728      94.966
Scheduling Replacement..........................      20.600      29.909
Laboratory Systems Reengineering................       7.000      29.057
Health Data Repository..........................      25.000      24.830
My HealtheVet...................................      12.740      18.427
Pharmacy Reengineering..........................       9.360      17.234
Enrollment Enhancements.........................      13.418      15.637
------------------------------------------------------------------------

                        14. VistA Legacy System

    According to the budget, VA is planning to spend $99 million for 
VistA Legacy system in fiscal year 2009. How many years do you project 
that you will have to be maintaining the VistA Legacy, and at what 
annual cost?
    Response. Costs associated with the VistA Legacy system will 
continue until VistA HealtheVet is fully deployed. Completion for VistA 
HealtheVet is anticipated in 2018. The annual cost associated with 
VistA Legacy maintenance will depend on the speed of development and 
the replacement with VistA HealtheVet components. We must maintain the 
existing VistA Legacy systems until the replacement is complete. It is 
not possible to predict costs involving all functions supporting the 
electronic medical record that are particular to VistA Legacy in this 
dynamic environment of transition toward VistA HealtheVet. We currently 
have recurring contract costs to specifically support the VistA Legacy 
Equipment of $51.4 million annually and this requirement will continue 
until the full transition to the VistA HealtheVet platform.

    [Clerk's note.--End of questions for the record submitted 
by Congressman Wamp.]
    [Clerk's note.--Questions for the record submitted by 
Congressman Bishop.]

                    15. District Case Work Overload

    My District staff continues to tell me that it routinely takes up 
to two years or more for disability or related claims to be resolved by 
VA. I raised this issue with the former Secretary and others for the 
past two years, and every year we continue to be assured that this 
situation is being addressed and rectified. However, based on my 
experience, at least in Southwest Georgia, this is not the case, and 
frankly, I don't have very much confidence in this Administration's 
capacity to get its arms around this issue.
    I continue to see year after year where the Inspector General's 
Office reviews this issue, and makes recommendations on how to improve 
the system, but I frankly still don't see any measurable improvement in 
my area of the country. With all the investments we're making to 
improve the Department's technological resources, I would have expected 
this situation to be improved. Would you please to comment?
    Response. VA is committed to providing veterans and their families 
with more timely claims decisions. The Veterans Benefits Administration 
(VBA) has developed a comprehensive plan to address the continuing 
growth in the volume of incoming claims nationwide. The cornerstone of 
our plan is the development of a well-trained workforce that is sized 
commensurate with current and projected claims workload.
    Last year VBA began an aggressive hiring program that will add an 
unprecedented 3,100 additional employees by September 2008. Under this 
national hiring program, the Atlanta VA Regional Office actively 
recruited additional claims processors, increasing the number of 
Service Center employees from 232 in January 2007 to 285 as of March 
2008.
    The training process for new claims processors can take up to two 
years; therefore, our newest employees do not have an immediate impact 
on decision output. We have modified our centralized and local training 
curricula to enable new employees to become more productive earlier in 
their training program by focusing initial training on simpler types of 
claims, such as dependency changes and burial benefits claims. This 
frees our more experienced staff to focus on more complex disability 
claims processing. We anticipate significantly increased productivity 
over the next two to three years as our newest employees complete their 
training and gain experience in all aspects of disability claims 
processing.
    We also use a workload brokering strategy to help balance the 
claims inventory across the nation. Claims are sent from VA regional 
offices that are challenged by high inventories to other offices with 
capacity to process additional work. Because of the heavy workload at 
the Atlanta VA Regional Office, over 11,000 disability rating claims 
were brokered from Atlanta to other VA regional offices last year, and 
brokering of Atlanta's work continues this year.
    We have focused our efforts on completing VETSNET, the replacement 
system for the Benefits Delivery Network. There are many reasons why 
the completion of the VETSNET system is important. VETSNET will ensure 
continuity of benefit payments to veterans and beneficiaries, and there 
are other advantages as well. With full implementation of VETSNET, VA 
will be able to readily make software modifications to support improved 
work processes, legislative mandates, and security enhancements. It 
will also be possible to incorporate and enhance decision-support and 
``expert system'' applications.
    We have made significant progress in the implementation of VETSNET 
over the past two years. Approximately 98 percent of all original 
compensation claims are being processed end-to-end in VETSNET, and we 
are now paying monthly compensation benefits to more than 850,000 
veterans--or approximately one out of every three compensation 
recipients--using this modernized platform. With our next conversion of 
records from the legacy Benefits Delivery Network, scheduled for April, 
VETSNET will be the primary payment system for compensation and pension 
benefits.
    We are currently developing a comprehensive strategy to integrate 
various information technology initiatives to improve claims 
processing. At the core of our strategy is the implementation of a 
business model for compensation and pension claim processing that is 
less reliant on paper documents. Initial pilot efforts have 
demonstrated the feasibility of using imaging technology and computable 
data to support claims processing in the compensation and pension 
programs.
    In addition to use of imaging and computable data, we are 
incorporating enhanced electronic workflow capabilities, enterprise 
content and correspondence management services, and integration with 
our modernized payment system, VETSNET. Further, we are exploring the 
utility of business rules engine software for both workflow management 
and to potentially support improved decision-making by claims 
processing personnel.

              16. VA/DoD Coordination on Disability Claims

    Are you aware that veterans are required to prove to the military 
medical that they are combat injured and disabled, as well as proving 
the same condition to the Veteran Affairs, but they must also prove to 
the CRSC program that the have combat related injuries.
    What is being done to improve coordination with DoD, including the 
possibility of a one-stop clearing house for the veterans as well as 
all claims processed at one Federal location? And, what is the status 
of DoD/NA technology integration efforts with respect to health records 
and disability claims?
    Response. What is being done to improve coordination with DoD, 
including the possibility of a one-stop clearing house for the veterans 
as well as all claims processed at one Federal location?
    The military service Departments make disability determinations 
based on the service member's service treatment records in conjunction 
with other accumulated evidence. VA uses these same records in making 
disability determinations, adding in any post-service medical evidence 
that has been accumulated. Administration of the CRSC program relies 
heavily on disability data that VA has made a high priority to provide 
to DoD.
    One initiative to streamline and integrate the disability 
evaluation process is the Joint Disability Evaluation System (DES), 
which began in November 2007. This is a pilot project to modernize and 
improve the way disabilities are evaluated and compensation is awarded 
to injured servicemembers. The pilot focuses on a single comprehensive 
medical examination and a single disability evaluation provided by VA. 
The goals of the pilot program are to simplify the DES process, conduct 
one examination, make one disability evaluation, and reduce the overall 
time it takes a service member to progress from referral to a Medical 
Evaluation Board (MEB) to receipt of VA benefits. In most instances 
where a service member is found unfit for continued active service, the 
rating evaluation provided by VA will serve as the foundation for VA 
disability compensation. The DES pilot is scheduled to conclude in 
November 2008, and the final report/recommendations are to be delivered 
in February 2009.
    The DES pilot is supported by a number of IT initiatives targeted 
to provide access to the health record. Currently, claims examiners are 
able to view through the CAPRI application, all medical records in VA's 
VistA system including the records made available through VA/DoD's bi-
directional interfaces.
    Additionally, the Defense Personnel Record Information System 
(DPRIS) Web application provides direct on-line access to veterans' 
official military personnel records that are maintained by DoD. The 
application provides electronic images of DD-214s, medical evaluations/
findings, and other administrative records which are retrievable and 
can assist in the processing of PTSD claims, asbestos claims, and 
Operation Enduring Freedom/Operation Iraqi Freedom (OEF/OIF) claims. 
Responses from the Army, Navy, and Air Force are received within 20 to 
30 minutes, and responses from the Marine Corps are received within 24 
hours. VBA is in the process of devising a national plan to deploy the 
application to all VA regional offices.
    VA and DoD are also involved in collaborative efforts to resolve 
issues and improve military paper health treatment record (HTR) 
processes and facilitate their seamless transfer from DoD to VA for 
benefits processing in support of service members, veterans, and 
deployed National Guard and Reserve personnel. This is part of the 
Military Records Working Group initiative of the VA/DoD Benefits 
Executive Council.
    And, what is the status of DoD/NA technology integration efforts 
with respect to health records and disability claims?
    VA and DoD are in currently engaged in conducting a pilot in the 
national capital region for the purpose of determining efficiencies 
that can be applied to the coordination of disability claims through 
joint operations. The pilot will be a service member-centric initiative 
designed to eliminate the duplicative and often confusing elements of 
the two current disability processes of the Departments. Key features 
of the pilot program include one medical examination and a single-
sourced disability rating. One goal of the pilot is to enable service 
members to more effectively transition to veteran status and provide 
them with their VA benefits and compensation. The pilot is scheduled to 
conclude in November 2008 and the final report/recommendations are to 
be delivered in February 2009. In addition to the new requirements that 
are expected as the result of the pilot report/recommendations, the 
disability claims evaluation system is supported by a number of IT 
initiatives targeted to provide access to the health record.

                     17. Consolidated IT Operations

    VA is requesting $2.442 billion to support IT development, 
operations, and maintenance expenses including payroll for FY 2009, an 
18.9 percent increase over the FY 2008 level. This request reflects the 
consolidation of VA IT into one appropriation, with certain exceptions 
such as non-payroll IT for credit reform programs and insurance 
benefits programs. What would you say are the key challenges you've 
faced thus far in the consolidated environment and how can the 
Subcommittee assist in relieving and/or supporting the Department in 
achieving its goals in this area.
    Response. The IT consolidation has given VA the opportunity to look 
at all aspects of the ``State of VA IT'' and to support efforts to 
provide improved, standardized IT services, leading to consistency and 
dependability across the Department. In some cases, this will involve 
shoring up areas which have suffered from neglect in the past. One of 
the critical areas is staffing. We have discovered, as a result of the 
reorganization, there are certain skill sets, such as information 
security officers and certain areas, such as tracking IT assets, which 
were not properly staffed in the past. We are attempting to rectify 
these omissions to fully support those functions. Additionally, OI&T is 
developing a staffing model, which will provide a more accurate 
estimate of the number of IT FTE required to support VA.

                     18. FY 2009 IT Budget Request

    In FY 2009, the majority of increases represent program priorities 
to enhance the support to veterans both directly and indirectly--
especially in the area of medical care. The move toward a centralized 
IT Management System has been challenging, but it has also served to 
reinvigorate IT capability within VA.
    According to previous testimony, you've indicated that placing all 
IT staffing, equipment, and budgetary resources under the VA Chief 
Information Officer (CIO) has provided an objective capability with 
visibility over all IT activities across the Department.
    However, have we ``materially'' improved the delivery of services 
to the Department's clients, our veterans? I am not sure these changes 
have filtered down to my constituents!
    Response. As a result of the single IT leadership authority, we are 
in a better position to discover and fix problems. Additionally, we are 
better postured in the area of information protection to secure the 
sensitive information of veterans and employees. Also, we have improved 
resource management (money and people) and have much better visibility 
in those areas, as desired by Congress.

                            19. Lost Records

    It is my understanding that when a veteran's service or medical 
records are lost or misplaced, through NO FAULT of the veteran, they 
are denied approval of benefits until such time the records are found 
(if they are ever found). This even applies when VA states they have 
lost the records. This is not fair to the men and women that have 
served. Shouldn't the process allow for unique mitigating factors in 
such instances?
    Where is the Department in addressing this issue, and what role 
will the resources we've invested in technology improvements play in 
addressing this issue?
    Response. VA's policy of assisting veterans with obtaining evidence 
to support their claims reflects the principles of the Veterans Claims 
Assistance Act of 2000, Public Law 106-475. The duty to assist a 
veteran with prosecution of his or her claim is clarified in 38 Code of 
Federal Regulations (CFR) 3.159 and the claims processing manual, M21-
1MR, Part I, Chapter 1, Duty to Assist.
    Although loss of records is rare, VA has specific procedures in 
place to trace missing records. If VA cannot locate a claims folder, it 
searches the local office, the Records Management Center, and any other 
office that might have reason to have the claims folder. If all these 
attempts fail, VA then rebuilds the folder and attempts to obtain, with 
the veteran's help, any available secondary evidence to support the 
claim.
    If a claims folder is misplaced, or if VA is unable to obtain 
important evidence such as a veteran's service medical record, VA 
requests alternative documents to support the claim for benefits. For 
example, VA can request a search of military unit sick logs, morning 
reports, or Surgeon General Office reports for records of military 
hospitalization. Additionally, VA will ask the veteran for any 
alternative records that may contain some evidence to support the claim 
for benefits. Such evidence may include statements from other service 
members, letters written during service, photographs taken during 
service, state or local accident reports, private medical reports, 
prescription records, or insurance examination records.
    When resolving any claim, and especially a claim in which records 
are missing, VA is governed by 38 CFR 3.102, in which a broad 
interpretation of available facts will be applied and any reasonable 
doubt resolved in favor of the veteran. This is particularly true in 
the absence of official records and when a claimed disability allegedly 
arose under combat or similarly strenuous conditions. Claims examiners 
are required to apply the benefit of the doubt in any case when records 
are missing. After a decision on a claim, the veteran must be notified 
of the application of the benefit-of-the-doubt rule and told how VA 
weighed the positive and negative aspects of the available evidence.
    VA's modern technology infrastructure is playing an important role 
in providing access to claim documentation. For example, over the past 
year, every disability rating decision and notification letter has been 
saved in an electronic file. Virtually every veteran getting disability 
benefits today has some documentation in an eFile, as a variety of 
correspondence is automatically captured into that file. Additionally, 
VETSNET contains a library of claim development letters sent to a 
veteran and a complete record of past claim authorization decisions. VA 
has complete eFiles on over 3,000 veterans, a number which grows 
everyday with the continued expansion of our Paperless Delivery of 
Veterans Benefits initiative.

                      20. VA Communications System

    I'm also concerned that the Department's communication capabilities 
and response times are not what they should be. What is the average 
wait time for vets calling into the VA centers? Callers often cannot 
get in touch with VA reps--frequently, the voice attendant says due to 
high volume you should call back later.
    Vets can only reach VA counselors at the state offices during 
normal business hours. This is not always going to work for many vets 
who have jobs during the day. If the vet is lucky enough to talk to VA 
rep on the phone it is someone in another region because the calls are 
routed to Kansas. How can technology assist in improving and addressing 
this issue?
    Response. The Department has several voice based systems where 
veterans can access VA. Primarily, there is the Nationwide Automated 
Response System (NARS), which is focused on general veteran's benefits, 
and the Health Revenue Center (HRC), which is focused on health care 
benefits. NARS is a voice based automated response system designed to 
provide veterans general benefits information. HRC is a call center 
organization designed to provide veterans comprehensive information on 
their health care benefits and eligibility. From each system, a veteran 
can be redirected to the appropriate organization. Calls are only 
routed to the Kansas-based HRC if a NARS user requests information on 
health benefits.
    Data: The table below describes the average call volume and wait 
time for both of these systems:

----------------------------------------------------------------------------------------------------------------
                                            Call volume     Average wait time
                 System                    (calls/month)    (Minutes:seconds)          Hours of operation
----------------------------------------------------------------------------------------------------------------
HRC....................................            297,092       2:16          0600*-1900 (CT)
                                                                               *Part of operation opens at 0700.
NARS...................................          2,263,167       1:10          0700-1600* (Local Time to
                                                                                Veteran).
                                                                               *Expanding to 1900 in FY 2008).
----------------------------------------------------------------------------------------------------------------

Role of technology
    From a technology standpoint, there are three potential tracks that 
can be run in parallel and, to varying extents, are in use in VA 
already--online access to certain resources, state of the art call 
center technology and the strategic application of other communications 
technologies.
    For many years, VA has had automation systems in place--primarily 
telephonic with voice menus--that allow our veterans the ability to 
perform certain functions, such as prescription refills and appointment 
cancellations, directly, at all hours and without the aid of live VA 
staff. With the veteran population being increasingly more comfortable 
with and adept at the use of e-commerce and self service via the 
Internet, more of those types of self service options could be provided 
online. Live customer service can also be provided interactively 
online. This would potentially improve flexibility in terms of the 
hours during which the veteran can access services. The shifting of 
some things to online self service can also, in some ways, improve how 
rapidly the response is to the veteran in some aspects of their care 
and benefits.
    For instances where the veteran wants or needs to speak directly to 
a live contact, call centers can be a very effective option. There are 
still staffing strategies and processes that must accompany the call 
centers in an effective way. Call center technologies and architectures 
decrease response times, lengthen the hours a veteran can access a 
representative, and improve system/employee flexibility.
    Routing of calls can be facilitated by various communication 
technologies. A modern architecture could include enterprise wide 
deployment of voice over Internet Protocol (VoIP) and would be based on 
a Service Oriented Architecture (SOA). This technology combined with a 
SOA will result in call volume to be more evenly and intelligently 
distributed over multiple call centers. For instance, if a veteran 
needs to speak to a specific individual or a subject matter expert, 
call routing technologies--including those linked to wireless 
networks--can be employed as can be ``unified communications'' 
technologies to efficiently route messages for call back if 
appropriate.
    It must be stressed that technology can only facilitate the 
business processes and must still be accompanied by an effective 
quality management program and appropriate resources provided by the 
business owner to meet identified target metrics.
    The Veterans Benefits Administration (VBA) answered over 17 million 
calls in FY 2007. VBA calls are handled by our call centers, which are 
designed by business line. We have call centers for general benefits 
information and claims assistance; direct deposit of benefit payments; 
pension; various specialty missions; education; insurance; and the home 
loan guaranty program. Our general benefits call center handles the 
largest call volume, receiving approximately 11 million calls in FY 
2007. VBA's average waiting time to speak with a representative was 70 
seconds in FY 2007. In March 2008, our average waiting time was 18 
seconds.
    Service hours on our general information and claims assistance 
telephone lines are being expanded to a 12-hour period from 7 a.m. to 7 
p.m. over the next few months. We are also expanding our call agent 
capabilities, while improving quality and efficiency of service, by 
acquiring current information technology for our call centers.

[GRAPHIC] [TIFF OMITTED] T2754D.014

[GRAPHIC] [TIFF OMITTED] T2754D.015

[GRAPHIC] [TIFF OMITTED] T2754D.016

[GRAPHIC] [TIFF OMITTED] T2754D.017

                                          Wednesday, April 2, 2008.

                         DEPARTMENT OF DEFENSE

                               WITNESSES

TINA W. JONAS, UNDER SECRETARY OF DEFENSE (COMPTROLLER) AND CHIEF 
    FINANCIAL OFFICER
WAYNE ARNY, DEPUTY UNDER SECRETARY OF DEFENSE FOR INSTALLATIONS AND 
    ENVIRONMENT

                       Statement of the Chairman

    Mr. Edwards [presiding]. I will call the subcommittee to 
order.
    Good afternoon to everyone. Secretary Arny, Secretary 
Jonas, welcome back. It is good to have you both here before 
the subcommittee again. Our hearing today is an overview of the 
fiscal year 2009 Department of Defense budget request. This 
year's total request for military construction, family housing, 
BRAC, chemical demilitarization, and the NATO security 
investment program is $24.4 billion, an increase of 15 percent 
over last year's request.
    Every year, we seem to be setting a new record for military 
construction. If current trends hold, we are in the middle of 
the longest sustained period of high military construction 
spending in U.S. history. In terms of constant dollars, the 
only period since World War II that rivals the present is the 
early 1950s, when the U.S. fought the Korean War and rearmed to 
contain the Soviet Union.
    The major initiatives, as we know, driving this spending 
are BRAC, growing the Army and Marine Corps by more than 
100,000 troops, and the biggest shift in the global posture of 
the armed forces in decades. There are numerous smaller factors 
driving more MILCON and family housing requirements in the 
foreseeable future.
    The requirements will be great, but as we are all aware 
there are growing pressures on the defense budget across the 
board. Military construction will be an increasingly tempting 
target for those who are looking for savings at the Pentagon in 
the coming years. We therefore need to ensure that the 
priorities are set and the initiatives do not outrun our 
ability to pay.
    Before I proceed, I would like to turn to our ranking 
member, Mr. Wamp, and give him whatever time he would like to 
make an opening statement.
    Mr. Wamp. Mr. Chairman, if I tried to improve on your 
opening statement, I would surely say it. [Laughter.]
    Sometimes, you recognize me right out of the box, but I do 
agree with everything you just said, and I appreciate their 
service and their appearance before our subcommittee today. Any 
inquiries I have will come during the questions, but thank you 
both. I look forward to a good couple of hours.
    Thank you, Mr. Chairman.
    Mr. Edwards. The witnesses today are no newcomers to this 
subcommittee, but for the record let me just say that the under 
secretary of Defense, the Comptroller, Tina Jonas, has been the 
Chief Financial Officer of Defense since July of 2004, but I 
bet it seems longer than that to you. [Laughter.]
    Ms. Jonas. Thank you, Mr. Chairman.
    Mr. Edwards. She formerly served as Assistant Director and 
Chief Financial Officer of the FBI and as Deputy Under 
Secretary of Defense for Financial Management. She is a former 
staff member of the House Appropriations Defense Subcommittee 
from 1995 to 2000. She is a graduate of Arizona State and 
Georgetown University. Again, welcome back.
    Ms. Jonas. Thank you, Mr. Chairman.
    Mr. Edwards. The Deputy Under Secretary of Defense for 
Installations and Environment is Mr. Wayne Arny, who was 
appointed to the current post in February of this year. 
Congratulations on that appointment and thank you for taking on 
that responsibility, as well as your past leadership.
    He previously served as Deputy Assistant Secretary of the 
Navy for Installations and Facilities. He is a 1964 graduate of 
the Naval Academy and on active duty as a naval aviator until 
1981. What kind of plane did you fly?
    Mr. Arny. F-4s.
    Mr. Edwards. F-4s--a little faster than the TBYs my dad 
flew in World War II.
    He achieved the rank of commander and was a staff member of 
the Senate Armed Services Committee from 1981 to 1984. We will 
forgive him for having served on the other side of the Capitol.
    Mr. Arny. It gave me balance.
    Mr. Edwards. That is right.
    He was Program Associate Director for Financial Security 
and International Affairs at OMB from 1986 to 1989. And of 
great note, Secretary Arny has two sons, both serving as naval 
flight officers. We congratulate you and thank you for the kind 
of family that has made such a deep commitment to defend our 
country, Secretary Arny.
    It is great to have you both here. I would like to say that 
without objection, your full statements will be submitted for 
the record. We would like to recognize each of you to make an 
opening presentation of about 5 minutes, and then we will go 
into questions and answers.

                        Statement of Tina Jonas

    Ms. Jonas. Thank you, Mr. Chairman. I have a brief 
statement, and I will submit it for the record. Mr. Arny has a 
lengthier statement for the record, so I will keep it brief.
    Mr. Chairman and members of the committee, thank you for 
the opportunity to discuss the military construction component 
of President Bush's fiscal year 2009 budget request for the 
Department of Defense. On behalf of the men and women of the 
department, both service members and civilians, I want to thank 
this committee for its continued support of America's armed 
forces. We look forward to working with you to ensure that our 
military men and women have everything they need to carry out 
their vital mission.
    Mr. Chairman, the president's base budget for defense in 
total is $515.4 billion in discretionary authority for fiscal 
year 2009. That is an increase of $35.9 billion or 7.5 percent 
over the enacted level for fiscal year 2008. Taking inflation 
into account, the real growth in this request is 5.4 percent, 
so we are very well pleased with that in the department.
    The base budget sustains the president's commitment to 
ensure a high state of readiness and ground force strength; 
enhance the combat capabilities of the U.S. armed forces; 
continue the development and implementation of capabilities to 
maintain U.S. superiority against future threats; and continue 
the department's strong support for service members and their 
families.
    The military construction portion of that request, which 
supports those strategic objectives, is $21.2 billion, an 
increase of $3.4 billion or approximately 19 percent over the 
prior year. It funds the department's most pressing priorities 
and facilities requirements, including new construction, 
replacement of troop housing, and facilities to support the 
increase of 92,000 soldiers and Marines over a 5-year period.
    Also included in that amount is $9.1 billion to implement 
the Base Realignment and Closure, or BRAC, 2005 Commission 
recommendations. This is the peak year for investment in BRAC, 
and these funds are critical if we are to successfully complete 
those projects by the deadline of 2011. We are also looking 
forward to reaping the savings from the anticipated BRAC, but 
we can't realize these savings unless we are able to be 
successful in defense appropriations.
    In addition to the $21.2 billion needed for facilities, the 
department is also requesting $3.2 billion for family housing. 
This funding is vital for quality of life programs and will 
enable the department to privatize an additional 12,324 units 
and to eliminate inadequate housing units overseas. The 
requested amount is approximately $300 million or just over 10 
percent higher than the prior year. A big portion of that is 
the grow-the-force initiative that we are pursuing.
    So on behalf of the department and the men and women of the 
armed services, I want to thank the committee for letting us 
appear here today, and I look forward to your questions.
    [Prepared statement of Tina Jonas follows:]
    [GRAPHIC] [TIFF OMITTED] T2754D.018
    
    [GRAPHIC] [TIFF OMITTED] T2754D.019
    
    [GRAPHIC] [TIFF OMITTED] T2754D.020
    
    Mr. Edwards. Thank you, Secretary Jonas.
    Secretary Arny.

                        Statement of Wayne Arny

    Mr. Arny. Thank you.
    Mr. Chairman, I would like to note that I am very proud of 
my two sons, and the mother of those two sons is here today.
    Mr. Edwards. Thank you. I will say this and have said it 
repeatedly, I consider military spouses to be--and moms and 
dads--to be the unsung heroes and heroines of our nation's 
defense. We are honored to have you here today.
    Mr. Arny. And her friend Allison Lewis, whose husband 
served with me. His son is a Marine pilot serving.
    Mr. Edwards. Thank you. It is great to have you both here. 
Thank you.
    Mr. Arny. Chairman Edwards and Congressman Wamp, thank you, 
and distinguished members of the committee. It is a pleasure to 
join my long-time friend and now colleague in my new position, 
Tina Jonas, to testify before you on the MILCON budget.
    As you said, I have submitted formal testimony for the 
record, but I would like to make just a couple of short 
remarks, and then answer a couple of questions that you all 
have raised in the meetings we had.
    To recap our request, we believe, as I know you do, that 
military installations are the foundation of our entire 
military program. Without the installations, with their basing, 
admin, maintenance and repair facilities, our combat forces 
could not operate; without the housing, entertainment, 
personnel support facilities on and around those bases, our 
military members and their families would not have the quality 
of life we believe they deserve.
    For the MILCON bases, we are continuing to recalibrate our 
bases overseas and in the U.S. through global basing and BRAC. 
In the budget, we requested $9.2 billion for BRAC 2005 
implementation and $393.4 million for prior BRAC cleanup 
efforts. This represents $1.1 billion more than our 2008 
request. I need to note that this $9.2 billion assumes that the 
$939 million cut to last year's appropriations is restored. I 
am asking you all to help us with that. We have talked about 
that before. We believe that if it is not restored, it will be 
extremely difficult to meet the September 15, 2011 statutory 
BRAC deadline.
    For recap, sustainment and modernization, we have higher 
requests in this year's budget than last. I know that no one 
likes our recap metric, including me, but it is better than 
nothing, which is what we had before. We are working with the 
services to introduce a far better one for the fiscal year 2010 
program.
    Our housing and MILCON programs are higher this year than 
last, as you mentioned, and the Navy in particular is leading 
the way on bachelor housing privatization. All of these 
programs and others are discussed in much greater depth.
    Let me try to answer two of the questions that, Mr. 
Chairman, you and Congressman Wamp asked during my courtesy 
calls. One is the $50,000 level and the other is on joint 
basing.
    With regard to housing, the Chairman asked me why we used 
the metric of $50,000 as a measure of adequacy or inadequacy of 
our housing. I have to admit that I have been using it for the 
past 6 years, and have thought about it much myself, but I 
couldn't give him a good explanation. So I went back and tried 
to learn more about it and where it comes from, what it tells 
us, and what needs to be changed.
    First, part of the confusion I think both he and I labored 
under is that the level of inadequacy is not intended to 
measure the state of repair of housing. It is a measure of 
whether the house is adequate enough to fulfill what we believe 
is a service member's need for a home.
    As examples, a member may be living in a house that is 
adequate, but is in disrepair. Indeed, it may have over $50,000 
in repair needs--we hope not, but it might--but that house is 
still adequate. We just need to repair it. But a member can be 
living in a house that is in wonderful repair, with good 
carpet, roof, appliances et cetera, but it is inadequate 
because it is not big enough or doesn't have enough bathrooms 
or has no garage, et cetera, or other things that we believe 
are standards for our service members today.
    So you could have a two-bedroom, one-bath house that is in 
beautiful condition, but it is not adequate because we have 
determined that under today's standards, gearing mostly toward 
enlisted members with families, that a two-bedroom, one-bath is 
not adequate to fulfill today's needs, but it may be in great 
shape.
    Consequently, the level of adequacy is used to determine if 
a home should be upgraded or replaced. As I found out, each of 
the three services do measure it differently, but OSD chose not 
to meddle with the culture and try and make them do the same. 
They do all use an engineering basis.
    In the end, we did adopt what is now a congressional 
reporting threshold of $50,000 as a yardstick. Let me explain 
it. The services use an engineering base standard to measure 
the condition of housing. The Army has what it calls the ISR, 
Installation Status Report. You go through the house and 
measure all sorts of conditions, including the neighborhood and 
supporting facilities. Then they rate it red, green or yellow. 
If is it red, it is inadequate.
    The Air Force has a five-point housing community profile. 
They go through the houses, assess, add points up, and if the 
score is 3.75 or lower, under their standard it becomes 
inadequate. The Navy goes through its homes and does the same 
sort of process. I think the $50,000 is, for instance, like I 
said, you have a two-bedroom and one-bath house, and you say, 
okay, three bedrooms and two baths is standard. It needs a 
garage, and it doesn't have a garage.
    So if it would cost more than $50,000 to add another 
bedroom, add another bathroom, then it is not adequate by that 
standard. It may be perfectly habitable, but it is not 
adequate. And then if you come up and you say it is less than 
$50,000--say you have room in there. It is a four-bedroom, one-
bath, and for less than $50,000 I could add a bathroom, and get 
rid of a bedroom, then you would do it under repair O&M and 
that would then become adequate. So it is a measure of am I 
going to renovate it or replace it.
    Now, as to whether we need to change the metric, I think 
probably we don't. The services all understand it. Plus that 
fact, as we have talked about, in case of domestic housing in 
the continental U.S., we will be down to almost zero, and the 
market under privatized housing will drive whether the homes 
are adequate or not. If the houses are inadequate and there is 
other housing out in the community, the members will have a 
choice and they will make that choice for us.
    For the housing that we still do own in the U.S. and 
overseas, as you can see in this year's budget, still using 
those measures, we have put in money to renovate or replace 
inadequate housing. So I think the measure, while I think it is 
sometimes difficult to explain, has worked and we have reached 
our goal.
    In the course of my conversation with Congressman Wamp, he 
asked where we were with regard to joint basing, and 
Congressman Edwards asked this as well. I am very happy to 
report that we have made tremendous progress. In January, 
Deputy Secretary England signed the Joint Basing Implementation 
Guidance, and since then we have been meeting on a weekly basis 
at my level, and weekly or greater at the working group level.
    The key to joint basing is that all four services are 
agreeing for the first time to a given level of service output 
for 49 different support functions across a base. The 49 
functions are further broken down into over 200 measurable 
performance standards. We have never done this before. 
Individual services over the past 10 years have come to realize 
that they need to measure these things, especially if we are 
going to better utilize the funding that the Congress and the 
taxpayers give us. Now, we are trying to do it across the whole 
department.
    We have agreement on every one of the standards at the 
working level and at my level, and we are staffing it up to the 
most senior levels of the services at DOD now. At every joint 
base, the real property and funding for the installation 
facility will transfer to the lead service, who is called the 
supporting component and who will have the joint base command.
    At Pearl Harbor-Hickham, the joint base commander will be a 
naval officer, and all the property at Hickham will transfer to 
the Navy. That service will then be responsible for the 
maintenance, repair and replacement over time of all those 
facilities to the standard we have all agreed to.
    If the follow-on service or the supporting component brings 
a new mission onto that base--for instance, if the Air Force at 
Hickham decides they are bringing a new squadron and there is 
not a facility on base to house that squadron, then it is their 
responsibility to put the MILCON in their budget to build the 
hangar or admin or whatever is needed. Then, when it is 
complete, it then is turned over to the Navy and the Navy will 
maintain and repair it for the rest of its life.
    Now, the one issue that is probably the one final issue 
that we overcame this week was airfield operations. To the 
Army, Navy and Marine Corps, airfield operations have always 
been installation functions. The naval aviator, you know, as 
long as there was a runway there and somebody took care of the 
fuel--I was never an air wing commander, but the air wing 
commander, that was done by the base.
    The Air Force is different. We acknowledge the difference. 
In the Air Force, the wing commander runs the airfield 
operations. So what we decided, in the joint base where the Air 
Force is in the lead, like at McGuire-Dix-Lakehurst, the Navy 
and the Army will turn over airfield ops to the Air Force. 
Where the issue rose was where the Air Force was the supportive 
component, to them airfield operations is a mission 
requirement, and their wing commander has to do that.
    So for the three bases where the Air Force is the follow-
on, the supportive component, and that is Guam, Pearl Harbor-
Hickham, and Lewis-McChord, what we have agreed to is that they 
will retain airfield ops. They will transfer real property and 
budget TOA to the lead service, the supporting components, for 
all of the physical facility, all the real property. That will 
all transfer. But the operations of airfield ops will be under 
the Air Force wing commander, and he will integrate with the 
joint base commander. We have worked it out. If there is an 
emergency on the field, the joint base commander is in charge, 
and they work together. So we have worked out that linkage.
    We have made tremendous progress, and we are rolling this 
out. It is going to roll out next week to the Vice Chiefs, the 
senior members of the service. We have a VTC to all the base 
commanders in the next week or two. At the end of June, we are 
going out to Congressman Dicks's neighborhood. We are going to 
have a joint base conference at Lewis-McChord.
    Mr. Dicks. Good. I think that is really important. There 
has been a lot of consternation about this.
    Mr. Arny. We decided to take down the iron curtain between 
us.
    Mr. Dicks. That is good. I think it is terrific.
    Mr. Arny. And they have the facilities.
    So with that, I hope it helps answer your two questions, 
and thank you for your patience. We are ready for questions.
    [Prepared statement of Wayne Arny follows:]
    [GRAPHIC] [TIFF OMITTED] T2754D.021
    
    [GRAPHIC] [TIFF OMITTED] T2754D.022
    
    [GRAPHIC] [TIFF OMITTED] T2754D.023
    
    [GRAPHIC] [TIFF OMITTED] T2754D.024
    
    [GRAPHIC] [TIFF OMITTED] T2754D.025
    
    [GRAPHIC] [TIFF OMITTED] T2754D.026
    
    [GRAPHIC] [TIFF OMITTED] T2754D.027
    
    [GRAPHIC] [TIFF OMITTED] T2754D.028
    
    [GRAPHIC] [TIFF OMITTED] T2754D.029
    
    [GRAPHIC] [TIFF OMITTED] T2754D.030
    
    [GRAPHIC] [TIFF OMITTED] T2754D.031
    
    [GRAPHIC] [TIFF OMITTED] T2754D.032
    
    [GRAPHIC] [TIFF OMITTED] T2754D.033
    
    [GRAPHIC] [TIFF OMITTED] T2754D.034
    
    [GRAPHIC] [TIFF OMITTED] T2754D.035
    
    [GRAPHIC] [TIFF OMITTED] T2754D.036
    
    [GRAPHIC] [TIFF OMITTED] T2754D.037
    
    [GRAPHIC] [TIFF OMITTED] T2754D.038
    
    [GRAPHIC] [TIFF OMITTED] T2754D.039
    
    [GRAPHIC] [TIFF OMITTED] T2754D.040
    
    [GRAPHIC] [TIFF OMITTED] T2754D.041
    
    [GRAPHIC] [TIFF OMITTED] T2754D.042
    
    [GRAPHIC] [TIFF OMITTED] T2754D.043
    
    [GRAPHIC] [TIFF OMITTED] T2754D.044
    
    [GRAPHIC] [TIFF OMITTED] T2754D.045
    
    [GRAPHIC] [TIFF OMITTED] T2754D.046
    
    [GRAPHIC] [TIFF OMITTED] T2754D.047
    
    [GRAPHIC] [TIFF OMITTED] T2754D.048
    
    [GRAPHIC] [TIFF OMITTED] T2754D.049
    
    [GRAPHIC] [TIFF OMITTED] T2754D.050
    
    [GRAPHIC] [TIFF OMITTED] T2754D.051
    
    [GRAPHIC] [TIFF OMITTED] T2754D.052
    
    [GRAPHIC] [TIFF OMITTED] T2754D.053
    
    [GRAPHIC] [TIFF OMITTED] T2754D.054
    
    [GRAPHIC] [TIFF OMITTED] T2754D.055
    
    [GRAPHIC] [TIFF OMITTED] T2754D.056
    
    Mr. Edwards. Great.
    Thank you both for your testimony. Let me express apologies 
to everyone for my coughing. I don't know if it is the cherry 
blossoms or what, but something is going on.
    We have so many members here and this is important 
testimony today. What I would like to do, other than the 
ranking member, who I would like to give as much time as he 
wants--and I am going to recognize Mr. Wamp to start out with 
questions--what I am going to do is just rap the gavel once 
when we hit 5 minutes, and then if you are in the middle of an 
answer, if you would try to wrap it up within 30 seconds or so, 
please do that. I will rap twice when we need to cut it off. 
That way, we hopefully will do two or three rounds of 
questions.
    Mr. Wamp.
    Mr. Wamp. Thank you, Mr. Chairman.
    Let me kind of make an announcement. We have a very well-
attended hearing today. People must have found out that our 
witnesses were just really stellar today. We even have two 
cardinals sitting at the table. But Mrs. Granger is out, and I 
wanted to, as the ranking Republican member, say that she had 
successful surgery over the break. She will be out for a couple 
of weeks, but I wanted to let the full subcommittee know that 
we are all thinking of her, and in her absence here today, lift 
her name up. We will all be sensitive to that until she 
returns.
    I also welcome Mrs. Arny--Sydney--that is my favorite city 
in the world, an excellent name. Secretary Arny, you did give 
in my office the best explanation of joint basing that I have 
heard, and I appreciate you reiterating some of that today, 
because there was some consternation. However, you pulled it 
all together. There shouldn't be so much consternation, 
particularly at Hickham-Pearl Harbor Base, which I have been to 
twice, and I understand the Air Force is concerned. But under 
this arrangement, they really shouldn't have that concern 
because the flight ops and all will continue.
    Chairman Dicks, it is always an honor to be in your 
presence, sir.
    Mr. Dicks. Thank you.
    Mr. Wamp. This is my first MILCON subcommittee hearing that 
you have been able to come to because of your other 
responsibilities. I just wanted to make that point. I have been 
sucking up to him for a long time. [Laughter.]
    Mr. Dicks. You were right. Ms. Jonas and Mr. Arny, they are 
stellar witnesses and long-time friends.
    Mr. Wamp. And with the chairman here, now we do have the 
most well-attended subcommittee meeting of the year. The 
chairman has been so good to me, that I will go as far as to 
say, with tongue in cheek, that I hope in the near future that 
a story to come out of this subcommittee is that Chet and Zach 
helped to get BRAC back on track. [Laughter.]

                      BASE REALIGNMENT AND CLOSURE

    And with that said, Secretary Arny, when you talked about 
BRAC, I think you could even further and say it would be 
extremely difficult to meet the September 15, 2011 date. The 
truth is, you just plainly are not going to meet it without 
this money. That is probably the way we should report that. And 
then, what are the problems if in this fiscal year, we don't 
get some money to BRAC that wasn't there, it is like a domino 
effect, is it not?
    Mr. Arny. It is. I will never say we won't make it, because 
we have tried to look back, and as a service member myself, if 
you tell me what the time of the target it, I am going to be 
there. So if you tell them to finish, they will finish, and 
they will get there. It may not be pretty getting there. That 
is the problem. Being part of the culture myself, it is hard to 
measure that because they will never say never, and they will 
be out there at midnight working on the building to make sure 
it is ready to open.
    Mr. Wamp. So much good came out of the 2008 bill, and the 
baseline already. The veterans are so much better off. There is 
so much to be grateful for, but if we can get this money back 
where it belongs, then the mission will be complete. I am 
grateful that the chairman thinks the same way that we do on 
this issue.

                                AFRICOM

    Either of all can answer this question. I heard at another 
briefing yesterday on the Hill, General Zinni--who I don't 
agree with everything he says, but he has some interesting 
input--said that Iraq would have been much better for us had 
AFRICOM been set up prior to Iraq, which is a fascinating kind 
of analysis from a guy who has not been very supportive of 
Iraq.
    We had General Ward here yesterday, and the chairman and I 
yesterday with General Casey, we were just telling him how 
swept away--well, I was, anyway--with this whole new AFRICOM 
mission, even though I know we have to be careful as we go into 
any kind of perceived presence permanently in Africa. It is 
just a forward station there. But what is your perspective on 
AFRICOM and the development and the flow of funds, from a 
business standpoint, what it really means to our unified 
command?
    Ms. Jonas. Mr. Wamp, if I can just start, and I will let my 
colleague talk to the concerns relative to the potential 
construction, I think as the secretary has laid out on many 
occasions--and I did not hear General Zinni's comments 
yesterday--but this is an important area of the world. We have 
concluded over the last several years that we need to have as a 
department a more active and positive engagement with the 
continent.
    I am not the policy expert here, but I do know that it is 
very important to the secretary. I know it is high on the 
chairman of the Joint Chief's mind. Kip Ward, who is the new 
commander there, is an extremely competent Army general. I 
think he will do a terrific job.
    In our shop and in Wayne's shop, what we are doing is 
trying to make sure that they have the resources that they need 
to be successful. I think with the Congress's help and 
understanding, we will support this and get this underway and I 
think it will make a big difference for our positive engagement 
in that area of the world.
    Mr. Wamp. Secretary Arny, do you have anything to add?
    Mr. Arny. Yes, sir, I do, actually. I will say that I can't 
say that General Zinni is wrong. I was working for Senator 
Tower back in the early 1980s on the SASC, when we helped 
create CENTCOM. So I understand a little bit about what we are 
trying to do. It would have been better, and that is going back 
and saying you can change history, because back then PACOM 
thought that they could handle all of CENTOM as well. Congress 
disagreed and you ended up with CENTCOM.
    My older son was the aid to the lieutenant commander, 
General Wald, when he was deputy EUCOM for 1\1/2\ years or 2 
years. They were--just listening to my son talk about it, the 
importance of the region opened my eyes as to what needed to be 
done. I think from an installation point, we are moving very 
slowly--I won't say slowly. We are doing it cautiously and with 
due regard for the sensitivity of the people in the region, to 
establish a presence to be able to assist. We are not there to 
build huge bases and all the rest of it. We are working with 
our colleagues at the State Department and other agencies to 
establish a presence and go one step at a time to make sure 
that we are doing it right.
    I think ordinarily people say, well, why not base it out of 
EUCOM? Given that my son was stationed at EUCOM and the deputy 
EUCOM was probably the most active in the African region. Jim 
Jones is a good friend, and he would talk about it as well, 
too. He and Chuck Wald were very close on this issue and 
understood the importance of it before many other people did.
    Mr. Wamp. Mr. Chairman, I will reserve until the next 
round. Thank you.

                         CONSTRUCTION INFLATION

    Mr. Edwards. Let me ask you about construction inflation. 
It is a serious challenge. It is not the fault of the DOD or 
any federal agency, but it is a reality. I think it is 
important we use real numbers, particularly in putting together 
the out-year numbers.
    The Department of Veterans Affairs used an inflation rate 
for construction of between 12 percent and 17 percent for their 
fiscal year 2009 budget. If I am correct, the Department of 
Defense used a 2 percent inflation factor. I am not sure if 
anyone in the construction industry would take that 2 percent 
inflation factor seriously. The record would show that from 
2003 to 2008, while OMB was dictating a 15 percent cumulative 
inflation factor for defense construction, the Associated 
General Contractors' more accurate inflation rate is double 
that.
    If we are not using realistic inflation factors, we are 
undercutting future military construction projects or under-
estimating the budgets required to accurately fund them. Can 
either one of you address whether you think 2 percent is an 
accurate projection of construction inflation for this coming 
fiscal year? If not, do you have any kind of real flexibility 
to adjust it more realistically and use more realistic numbers?
    Mr. Arny. As you and I have discussed in the past, when I 
worked on the Navy staff, we faced this 3 or 4 or 5 years ago. 
What I realized is that from the period from 5 years ago to 15 
years ago--that 10-year period--the issue probably never came 
up because the market was always getting better. Prices were 
going down. So if we estimated the project would be $10, it 
would come in at $9 or $9.50. So we always had a little extra 
money to play with.
    Right about the time we started to do BRAC, around 2005, 
which meant we started to bring in more--we got hit with a 
couple of hurricanes in the southeast. We in the Navy 
understood that inflation was going up. When we look at MILCON, 
it is very important to us. When I did CPAC with the SASC, I 
sat next to the MILCON guy. I was pushing $3 billion ships down 
the hallway one after another, and no senator ever came to see 
me. But the MILCON guy sat next to him, and I would watch 
powerful chairmen walk in begging for a $3 million project. And 
I didn't quite understand it.
    Mr. Dicks. Chet understands that. [Laughter.]
    Mr. Arny. So to put it in perspective, while it is very 
important to us, MILCON is still a very small portion of what 
the defense budget is. Again, having spent 3\1/2\ years at 
OMB--and I had all of defense, and MILCON never bubbled up to 
my level as a PAD--so while it is important to us, it was not 
as important to them.
    It wasn't until we started to get hit with overruns and 
having to come up to you on it seemed like a monthly basis with 
cost overruns, some of which were self-imposed, some of which 
we had to go back with NAVFAC and sit down and tell the 
engineers to go start being engineers again, because they were 
just using models. They weren't going out and sinking enough 
holes in the ground to find that there were rocks and stuff 
there that they didn't know about. That is one portion of it.
    But you are right. Construction inflation in the country is 
varied. At first, I thought it was the Facilities Pricing Guide 
which mandated certain inflation rates. What I have discovered 
is that that isn't the problem. We are allowed to use 
parametric measures. We are allowed to go down and design these 
buildings parametrically, go out and see what other buildings 
in the area are going for.
    So absent the BRAC problem, when a building gets to you, or 
gets close to you in the budget, it should be fairly close. We 
can do a better job of making it closer, but where we really 
get hammered is in the time that we lock that design down until 
it finally gets passed. That is where the construction 
inflation hurts us. What we discovered in our testing is it 
isn't nationwide. It is area-wide. It is regional.
    We had the famous LAPZIG, the storage facility in the 
northwest. We discovered, much to our amazement, inflation in 
the Seattle area was 15 percent a year. Most people blame it on 
the Vancouver Olympics. So we have gone to OMB to ask them to 
work with us--and I have started to work with the OMB 
comptroller--and let us all agree on some standard. A state 
standard I think is probably where we will come up, because the 
states do much more military construction than we do, and they 
do keep track of it. It will never be perfect.
    Mr. Edwards. But it could be better.
    Mr. Arny. Much better. And I would hope at some point, 
every 6 months or every year, we could come to you while you 
have the budget and update it. When it comes to the Navy and 
OSD Headquarters, we update it then. When it goes to OMB, we 
update it there. When it goes to the Congress, we update it.
    Also, the other problem is, on the down, like in that 
period from 5 years to 15 years ago, while it made it easier on 
the engineers, and we didn't see any problems, we were leaving 
money on the table. We were not building things we could have 
built because we were over-pricing projects when they got to 
you.
    So we want to do it on both ends so that if the $10 
project, when the construction engineer opens the bids, it is a 
$10 bid.
    Mr. Edwards. Do you think OMB will come up with an 
agreement by the end of this calendar year?
    Mr. Arny. I will try. They want to. It is a matter of 
timing. Do we have the time to do it? Because they understand 
now. There are no MILCON people over there. So again, I have 
worked with them. Some of the folks I have worked with are 
still there. They now understand. We are not coming over to rob 
the Treasury. We are coming over to make sure that each project 
that goes through is right.
    Because the other problem on funding on a project, what I 
found, is the engineers rather than coming to me and saying, 
okay, Mr. Arny, that $10 project, I need $12 for it. I say, 
what happened to the $10 project? I built it. Well, the guy 
just complained it is an $8 building. Well, I had to shrink it. 
So they will reduce scope. They will take things away. If we 
have a requirement for a building of this size, and it costs 
$10, and it is going to cost $12, we better come up with the 
$12.
    Mr. Edwards. Okay. If you could report back to us at say 
mid-July and end of the year where we are? It would be nice to 
be basing these projects on realistic numbers and inflation.
    Ms. Jonas. Mr. Chairman, I would like to add, I will lend 
my full support to trying to get OMB to give us a more 
favorable factor here. As we have discussed before, this isn't 
the only area where we have difficulty, particularly if we are 
beginning to execute a budget. Fuel is the most difficult one 
for us now. In fact, we are far from where we budgeted. Thus, 
it is not unusual that we would have differences when we 
actually execute a budget. I commit to making sure that I am 
fully behind that.
    Mr. Edwards. Thank you.
    We are now going to recognize members in the order in which 
they were here when we started, based on seniority if they were 
here when we gaveled the meeting open.
    Mr. Bishop.

                      BASE REALIGNMENT AND CLOSURE

    Mr. Bishop. Thank you very much, Mr. Chairman.
    I welcome our witnesses today.
    Last year, we provided $500 million in BRAC money for Fort 
Benning. Can you talk about the projects for which those funds 
were spent, and whether or not all of the funding is committed 
to the various projects under that BRAC appropriation from last 
year?
    Mr. Arny. Sir, I am brand new. If it were a naval air 
station----
    [Laughter.]
    Mr. Arny [continuing]. I might be able to answer your 
question.
    We will have to get back to you. I know the Army is better 
than the Navy on executing their budget, so I suspect that 
everything they put in is obligated, but I will get back to you 
on that.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2754D.057
    
    Mr. Bishop. All right.
    Mr. Arny. And you do need a coastline. [Laughter.]
    Mr. Bishop. Can you also get back to us with the BRAC 
offsets? What, in fact is the BRAC plan providing for the cost 
savings with regard to BRAC? In other words, have you been able 
to determine if there are cost savings as a result of the 
process so far in the BRAC? Do you have a priority list for the 
BRAC?
    Mr. Arny. On savings, we can give you specifics on the 
savings, but those savings are rolled back into our general 
budget to offset other things. So we aren't putting them 
against specific projects.
    Mr. Bishop. I guess overall looking forward, just for the 
committee's sake, we would like to have a sense of how BRAC is 
going to be cost-effective in the long run as we spend the 
taxpayers' dollars.
    Mr. Arny. We can get you the specifics on that.
    [The information follows:]

    The Department acknowledges that BRAC 2005 implementation will 
generate significant savings. As reflected in the FY 2009 President's 
Budget justification material submitted in February 2008, the 
Department estimates that implementation of the BRAC 2005 
recommendations would generate approximately $15 billion in total 
savings through the fiscal year 2006-2011 implementation period. 
Additionally, the BRAC 2005 recommendations could generate 
approximately $4 billion in annual recurring savings beyond the 
implementation period.
    Because of the challenges associated with implementing many complex 
recommendations, the Department initiated a process to develop business 
plans that establish the requisite actions, timing of those actions, 
and the costs and savings associated with implementing each 
recommendation. Each plan contains its own priority of actions to 
ensure all actions are accomplished by the statutory completion date of 
September 15, 2011. The Department reviews each plan twice annually to 
ensure that it is in compliance with the BRAC law. Each of those 
reviews provides an opportunity to direct corrective action. 
Additionally, the OSD Office of the General Counsel is a key player in 
reviewing these plans to ensure that they are legally sufficient and to 
verify that the Department is meeting its legal obligations.

    Mr. Bishop. The other thing, we had a raids from ICE, the 
U.S. Immigration and Customs Enforcement, at Fort Benning of 
illegal workers. I was just wondering whether or not other 
installations have experienced those kinds of raids from ICE 
also?
    Mr. Arny. I have not had that pop up on my radar screen, 
but I could ask about it.
    Mr. Edwards. You are not encouraging them, are you?
    Mr. Bishop. No. I was just wondering. We were a little bit 
surprised and concerned. We didn't want any delays, and of 
course I am sure others wouldn't want more delays either. But 
we did have some unexpected visitors.
    Mr. Kennedy. If I could, Mr. Chairman?
    Mr. Edwards. Yes, Mr. Kennedy?
    Mr. Kennedy. It is really important that we get better 
credentialing on these bases for those who are doing 
contracting, because the subcontractors of the contractors on 
these bases are often hiring those who are undocumented workers 
to do the work on these bases. We have found that out in my 
state, and we identified undocumented workers who were working 
on our base. I am not surprised to hear that.
    Mr. Bishop. Right. I was just wondering if you could 
perhaps look and see whether or not that is a frequent 
occurrence across your construction projects.
    Thank you, Mr. Chairman.
    Mr. Edwards. Okay.
    Mr. Farr.
    Mr. Farr. Mr. Chairman, I have to say that I think that 
there is record attendance today because you have a smart woman 
with a lot of money, and a man in charge of all DOD real 
estate, with all the appropriators. [Laughter.]
    It is a perfect storm of financial interests.

                             DIRECTIVE 3005

    I have two questions. I want to get into the BRAC issues, 
but first I want to say a passion that I have, and Mr. Wamp 
mentioned it, is a directive was issued by the department, 
Directive 3005, which essentially structures what DOD's 
programs and mission requirements have established to be 
prepared for language and area studies and all of that. The 
question is, who has the primary responsibility for 
implementation of that directive?
    Ms. Jonas. Mr. Farr, I believe that is under Dr. David Chu, 
who is the Under Secretary for Personnel and Readiness.
    Mr. Farr. So it sits at OSD?
    Ms. Jonas. Yes, I believe so.
    Mr. Farr. On the joint staff or combatant command?
    Ms. Jonas. It may be. I will have to check for the record, 
sir. My staff is telling me this.
    Mr. Farr. So it is in OSD?
    Ms. Jonas. Yes.
    Mr. Farr. Okay. A recent Washington Post article 
highlighted the challenges of getting interagency cooperation 
for stabilization and reconstruction. The House just passed, a 
week or so ago, H.R. 1084, which is legislation I authored to 
create a reserve corp for first responders in the State 
Department, USAID. I am told that General Petraeus actually 
called on that bill to try to get it moving in the Senate. I am 
very appreciative of that.
    I think that the Department of Defense really understands 
what is at stake here. I am very supportive of it. But I am 
also distressed because I am hearing that there are new 
directives being drafted that essentially replaces the 
stability operations with irregular warfare. Is that true?
    Ms. Jonas. I will have to take a look at that. I don't know 
that for sure. I know that the general concept, as the 
secretary has stated, is soft power is very important and 
stabilization is absolutely critical. We have to engage, and 
continue to engage, with our interagency partners in engaging 
around the world. But I am not familiar with the specific 
there. My understanding would be this is an issue for the Under 
Secretary for Policy.
    Mr. Farr. What I am concerned about here is a conflict of 
directives, from stability ops to irregular warfare, and then 
replacing stability ops? How does this affect the management 
and does it contradict the testimony of the secretary? It is 
just very peculiar and I would like you to get back to me.
    Ms. Jonas. Yes, I would be very happy to do that, Mr. Farr.
    [The information follows:]

    The development of a new directive for Irregular warfare (IW) is 
not intended to replace existing guidance for Stability Operations. 
Rather, IW policies are intended to augment existing policies in order 
to enhance capabilities. Irregular warfare will likely be the dominant 
form of conflict for the foreseeable future. Both special operations 
and general purpose forces must increase their capabilities for key IW 
mission sets. To that end, the IW directive will reinforce the QDR's 
conclusion that IW is as important as traditional warfare, or warfare 
between the armed forces of adversary states. It will direct the DoD 
Components to develop capabilities for counterterrorism, unconventional 
warfare, counterinsurgency, foreign internal defense, and stability 
operations--which share common requirements, like cross-cultural 
communications and language skills, enhanced intelligence through the 
use of social science expertise, use of indirect approaches, etc.--with 
the same priority given to the development of capabilities for major 
combat operations.
    We're incorporating the core capabilities and principles from DoDD 
3000.05 into the new directive. However, we're expanding its aperture 
by adding policies to coordinate capability development across a wider 
range of operational environments--permissive, contested, and denied--
to help the Department maintain readiness for a broader range of 
contingencies. This approach will facilitate more efficient use of DoD 
resources for training and educating personnel, and in identifying and 
fielding required capabilities.
    We believe that revising DoD policy for capability development will 
have no adverse impact on interagency unity of effort. Rather, our 
efforts to streamline internal DoD processes and capability development 
will enhance our ability to support whole-of-government efforts with 
improved capabilities and enhanced joint force capacity. The policies 
set under various authorities, such as NSPD-44, will continue to 
provide the framework by which interagency operations will be 
conducted.

    Mr. Farr. The Naval Postgraduate School that I represent in 
Monterey was recently designated by OSD as the Global Center 
for Security Cooperation. DOD has recognized a requirement to 
assist the House Democracy Assistance Commission. It is a 
bipartisan House organization dedicated to developing member-
to-member partnerships in emerging democratic legislatures, 
essentially legislators and parliamentarians.

                 GLOBAL CENTER FOR SECURITY COOPERATION

    By tasking the Security Cooperation to support the HDAC, 
and we are trying to work with DOD on this, and the Naval 
Postgraduate School, I would like to know including how DOD can 
provide funding to support HDAC thru the DOD Global Center for 
Security Cooperation, or as the Civil-military Affairs Center 
at the Naval Postgraduate School.
    Ms. Jonas. I would be happy to talk about it. I believe 
Ryan Henry would be involved with that in policy, so I have not 
had a conversation with him on this topic, but I would be 
delighted to do that. I know it is an important topic.
    Mr. Farr. Yes, we see some directives here and 
responsibilities, but no sign of where the money is coming 
from.
    Ms. Jonas. I would be happy to do that. Obviously, if it is 
important to the department, and it is an important priority 
for you, we will make sure that we look into that and get back 
to you.
    [The information follows:]

    Thank you for your continuing support of the Department of 
Defense's (DoD) international education programs. As you know, Mr. Ryan 
Henry and his staff worked with the House Democracy Assistance 
Commission (HDAC) last year to identify opportunities for the DoD 
international partner education institutions to support HDAC 
activities.
    As a result, the Asia-Pacific Center for Security Studies (APCSS) 
is partnering with HDAC to strengthen democratic governance of the 
security sector in Indonesia and Mongolia. A dozen parliamentarians 
from those countries will convene at the APCSS in Hawaii on April 23; 
will discuss governance issues presented by the APCSS staff; and will 
travel to Washington, D.C., through May 1, to meet with members of 
Congress and their staffs to gain first-hand insights into the U.S. 
system. A similar event is planned for mid-June by the Near East-South 
Asia Center for Strategic Studies (NESA), hosting parliamentarians from 
Afghanistan. FY 2009 funding support will be determined after a review 
of those two current efforts. That assessment will be coordinated with 
the HDAC.
    At the April 2nd hearing of the Military Construction, Veterans 
Affairs, and Related Agencies subcommittee, you expressed an interest 
in how DoD could provide funding for HDAC support to the DoD Global 
Center for Security Cooperation such as that provided in the military-
civil affairs programs at the Naval Postgraduate School (NPS). Based on 
your concern, the Global Center for Security Cooperation is helping OSD 
identify opportunities where NPS can integrate its cabilities into DoD 
support to HDAC.
    The Administration greatly appreciates your backing of these key 
efforts, and I look forward to working with you in the future.

    Mr. Farr. Mr. Arny, congratulations on your appointment. 
You are stepping into big shoes. You know, your predecessor 
worked for us, so he was an inside family member that went over 
to DOD, so you are following in big footsteps.
    Mr. Arny. I was going to say, when I went to work for the 
Senate, I had come right out of the Navy and I went over there, 
and I had to be led down to the floor the first time. So then 
after a couple of months, I went over and took one peek at the 
House floor and I thought as crazy as the Senate was, it was 
saner, and I went back and I didn't come back until this 
Congress.
    Mr. Edwards. Right. We understand.
    Mr. Dicks, and then after Mr. Dicks will be Mr. Carter.

                              JOINT BASING

    Mr. Dicks. We are glad to have both of you here today. 
Secretary Arny, going back to this joint basing, is there going 
to be kind of a model? Or are you going to do each one of these 
a little differently? How is it going to work in terms of, the 
airfield operations for example? How did you work that out?
    Mr. Arny. The actual runway and all that real property--
land, concrete, the hangars--everything that is real property 
goes to the supporting component. So in the case of Lewis-
McChord, just to pick a base----
    Mr. Dicks. Just to pick one. [Laughter.]
    Mr. Arny [continuing]. It just came to mind. That would all 
go under Army. The airfield operations--the operation of the 
people and the equipment there, that would be under the mission 
commander.
    Mr. Dicks. How did you work that out? It makes sense to me. 
I think that's good.
    Mr. Arny. The key splitter on that is, is it installation 
or is it mission? For instance, in the Army and Marine Corps 
installations in particular, right off the bat, ranges don't 
transfer to the installation because the ranges are run in the 
Army and the Marine Corps by the mission commander, not by the 
installation. Remember, this isn't a service thing. Is the 
installation commander doing it or is the mission commander 
doing it?
    Mr. Dicks. I have you.
    Mr. Arny. Okay? And so that was the key difference. And 
with the Air Force, while I might disagree with that 
philosophy--I come from a different culture where like I said, 
as long as the concrete was there and I could find somebody to 
fuel me, I didn't care whether they worked for me or worked for 
somebody else, because what I performed in my squadron, we 
would go aboard a ship. And guess what? They would fuel me 
there and they would take care of me and they would feed me, so 
I didn't worry about it.
    So when the Air Force deploys, they deploy as the whole 
group. They don't just deploy as a squadron. So they have a 
training mission within their fuelers that is integral to the 
operation of that wing, that isn't in the Navy or the Marine 
Corps. That is not integral to the Marine Corps air wing or a 
Navy air wing. Same with the Army.
    So once we understood it, it took a lot of sitting down and 
talking. We spend our time on our own problems telling each 
other. So I think it has worked out very well.
    Mr. Dicks. So do you see this problem now going away? I 
mean, there is still a question, as you and I discussed 
privately, that the Air Force has been resisting this when they 
were not the lead entity.
    Mr. Arny. I am shocked and appalled. [Laughter.]
    Mr. Dicks. Yes.
    Mr. Arny. But again, when the Secretary made his decision 
in January to transfer two (INAUDIBLE) properties to the 
supporting component, they jumped onboard then. The engineers 
understood it, and the operators are starting to understand it. 
But then we had this one glitch--and they have been active in 
all of our working groups in working at it. Air Force wasn't 
the only one. We had security people in. We had the chaplains 
who wanted to opt out for various sundry reasons I won't go 
into here.
    But we have gotten them all on board. That is why in our 
rollout in the units we are going to have VTC with the base 
commanders in the next couple of weeks. At the end of June, we 
are going to have all the base commanders and the supported 
component commanders at one location in which they will start 
to put their memoranda.
    Now, each phase will now start to put together a memorandum 
of agreement between the supporting and the supported 
components. We are going to bang them out. There are going to 
be other bridges to cross, but these are the big ones, and once 
we get the framework in place, we will publish the JBIG. We are 
going to publish supplemental guidance to all the commands. And 
then a MOA, memorandum of agreement template, will go out, and 
then any variances.
    So we still have a lot of work to do, but I think the 
initial hurdles, we have crossed them.
    Mr. Dicks. So what is your objective date to get this 
accomplished?
    Mr. Arny. Off the top of my head, we want the signed MOAs 
this fall, with an IOC 6 months later of spring of 2009 for the 
phase one bases. Right now, we have five bases in phase one and 
seven in phase two, and we are discussing that. Lewis-McChord 
is more complex. That is in phase two.
    Let me back step. Everybody starts working on their MOA 
next month, when we get it out. Everybody starts working on it 
together. Five of the bases have to be done by spring of next 
year, and the other seven in the spring of the following year. 
So the FOC is 6 months, so October 1 of 2009 is FOC for the 
first five, and October 1, 2010 is the FOC for the last. That 
is the plan.
    Mr. Dicks. Okay.
    Mr. Edwards. Mr. Carter.

                      BASE REALIGNMENT AND CLOSURE

    Mr. Carter. Thank you, Mr. Chairman.
    Thank you both for being here today. I am trying to find 
some missing soldiers that we are looking for in my district. 
So I have been looking at some confusion that I don't 
understand. Back in BRAC, it seemed to be the indication that 
we were going to reduce the force in Germany by two first AV 
brigades, and send them to Fort Bliss, Texas. That is what were 
told under the BRAC.
    The Army has now delayed this movement to 2012 at least, 
but we have already spent significant money to bring this BRAC 
transfer into Fort Bliss. Now, we are going to be spending 
Global Force money to prepare for the arrival of two new VCTs 
announced for Bliss.
    If the goal of BRAC is to reduce the force in Europe, has 
the decision been made to change that? And now we are talking 
about two new VCTs? Or does this delay and the construction 
that has already been there, how does that affect the MILCON 
budget?
    It seems like we are spending this money twice for two 
different outfits, or two different sets of brigades. I am 
wondering about some numbers at my base, so I am always looking 
for missing soldiers. So I want to find out what is going on.
    Mr. Arny. So this is Naval Air Station Bliss, correct?
    [Laughter.]
    I could answer it more readily.
    What I can tell is technically the BRAC move of 2005 were 
only internal to the continental U.S. Now, what the Army did is 
they fell on that with moves from overseas. I will have to get 
you the details of the specifics on Fort Bliss, because I know 
Fort Bliss is one of the major receivers of BRAC and MILCON 
funding. So I will have to get you the specifics on those, but 
we are not paying for anything twice. We are very careful to 
make sure that we have the space we need and no more.
    [The information follows:]

    The Army has an aggressive, carefully synchronized stationing plan 
for Fort Bliss that links Base Realignment and Closure (BRAC) 2005, 
Global Defense Posture Realignment, and Grow the Force initiative. The 
Army's plan supports these major stationing initiatives and is designed 
to meet the September 15, 2011 statutory BRACE implementation deadline 
without duplicating space requirements.
    As a result of Grow the Army stationing decisions, the Fort Bliss 
end state will include six brigade combat teams. We are not spending 
money twice on their supporting facilities. Three brigade facility sets 
are being funded through BRAC, and three will be funded with Military 
Construction, Army (MCA). Of the facility sets funded with MCA, two are 
for Grow the Army infantry brigades, with the final set supporting the 
heavy brigade returning from Germany in FY 2012.

    Again, BRAC and the global re-basing was complicated, to 
use probably the wrong word, it was made more complex by the 
fact that at the same time we were going to reduce these bases 
overseas, we decided to increase the Marine Corps and the Army. 
We would grow the Army and grow the Marine Corps.
    Mr. Carter. I am for all those things. The reason I am 
asking the question is because if you just say we decided not 
to reduce the forces in Germany, then that makes sense to me. 
Otherwise, in Three Corps, as we looked at shuffling around of 
what was going to go in Three Corps, my concern is Fort Hood. 
Fort Hood was supposed to receive, according to me, the 
chairman and others, it was reported to us 49,000 soldiers. All 
of a sudden, we were back down to 42,000 soldiers, with the 
story that we never told you that. I am very concerned about 
that.
    So when I look out here and see what looks like a change of 
position for the Army, I don't know what that change of 
position means. That is why I asked the question.
    Mr. Arny. We will get you that answer.

                             PRIVATIZATION

    Mr. Carter. If I have time for another question, I have one 
more question I would like to know. Barracks privatization--I 
have a great interest in barracks privatization. Over 3 years 
ago, I asked a question about barracks privatization as it 
related to the two Navy projects that were experimental at that 
time--how successful they were, where they were going, and what 
were the changes that the Army was going to be able to 
participate in barracks privatization.
    The report that I am looking at here now says that they are 
now going to participate in barracks privatization. At that 
time, I was assured that probably the first place they would 
try it would be Fort Hood. Now, we are not in the mix. Do you 
know any reason why we are not in the mix?
    Mr. Arny. No, sir, but I will check. I do know, and I could 
bore you to tears on BQ privatization because it has been a big 
success. There are problems for us to overcome, but I have 
heard that the Army is starting to look at it. I will get back 
to you on your specific question about Fort Hood.
    [The information follows:]

    The Army is using the privatization authorities to provide 
unaccompanied personnel housing (UPH) for senior enlisted personnel 
(pay grade E6 and above) and officers at the locations shown 
below.These members currently receive a housing allowance.
     Fort Irwin, CA.
     Fort Drum, NY.
     Fort Bragg, NC.
     Fort Steward, GA.
     Fort Bliss, TX.
    These new housing projects, which will include a mixture of 1 and 2 
bedroom apartments, are being implemented as additions to existing 
family housing privatization partnerships. The Army apartments are 
being built to market standards and the rents will reflect the market 
value of the apartment. No Government equity contributions will be 
required. Other installations, including Fort Hood, were considered for 
similar unaccompanied senior enlisted/officer housing but did not show 
sufficient occupancy demand to make the projects as attractive as the 
ones underway. The Army leadership is deferring consideration of UPH 
privatization for Soldiers who are required to live in barracks (pay 
grades E1 to E5 and without dependents) until they can fully assess the 
Navy's experience with their pilot UPH privatization projects.

    Mr. Carter. Okay. That is all, Mr. Chairman.
    Mr. Edwards. Mr. Crenshaw.
    Mr. Crenshaw. Thank you.
    I want to ask you a couple of questions about 
privatization, particularly the bachelor privatization. I know 
about 5 years ago, we authorized Norfolk and San Diego and 
Mayport. As I understand it, San Diego is off-base, right?
    Mr. Arny. No. San Diego is on-base.
    Mr. Crenshaw. And Norfolk?
    Mr. Arny. Norfolk is on-base as well.
    Mr. Crenshaw. Okay, so they are both on-base.
    Mr. Arny. They are both on-base.
    Mr. Crenshaw. And they are up and running, as I understand 
it.
    Mr. Arny. Well, it is a little more complicated. In San 
Diego, that was our lead project. Norfolk was supposed to be, 
but San Diego came in first. We took a large 15-story existing 
one-plus-one (e) and privatized that. And the privatization 
contractor is building four 18-story towers right next to it, 
because land is more dear in San Diego, so they went vertical.
    While we haven't moved anybody into the towers yet--the new 
construction--resident satisfaction went from 70 percent to 90 
percent after the private sector manager took over the existing 
BQ. Okay? So we were authorized three piles. So we picked the 
second one at Hampton Roads. Hampton Roads is all E-3 and 
below. San Diego is E-3 and below and E-4 and E-5 and above. So 
that project, we have broken ground, but we don't have anything 
up and running yet. We have just started the takeover of some 
of the old BQs, because we are not only building new buildings 
for E-3s and below, but the contractor is taking over some of 
the old one.
    I had asked the Navy staff to look around. Initially, we 
were going to do Bremerton, but we discovered that there you 
have one carrier and four or five escorts. When that carrier 
leaves, the BQ is empty. So it didn't work out. We had to use a 
different model.
    We ended up at Mayport and Jacksonville as the model. Those 
folks are doing that now, and that should be rolling out in the 
next year or so.
    Mr. Crenshaw. Because one of the questions I have, when 
they are on-base, as I understand it, if you have a developer, 
you have to give him an easement to the main gate.
    Mr. Arny. In both Mayport and Jackson, I have been down 
there and walked the ground. I forget which one it is, but you 
don't have to. You need a balance. To satisfy OMB and GAO, you 
need a balance between people that are close enough to the 
edge. The premise is that if the Navy went away from Mayport-
JAX, that there would be a use for these buildings. Or if the 
Navy shrank down and had no more enlisted men at the base--why 
that would happen--but if it did, the financier look at this 
and says, can I get civilians into those barracks, because they 
are going to be apartments. I am going to rent them out. It is 
private. It is his. It is not ours anymore. I have it. Rent it.
    So is it close enough to the fence? When I say San Diego, 
it is on-base. It is right on-base, and there is fence-line 
where you could bring that fence around and now that building 
is outside the fence-line. So I believe that when I looked at 
both Mayport and Jackson, there are ways to move the fence-
line.
    Now, you may move it--I think it is at Mayport--you may 
move the fence-line up towards close to where the base is, 
which would mean the family housing is actually outside the 
fence-line, but in most of our places, a lot of our family 
housing is outside the fence-line.
    Mr. Crenshaw. I think in Mayport it is pretty much the land 
is right in the middle. It is kind of in the middle of the 
base. It would be problematic, it seems to me, to give an 
easement all the way----
    Mr. Arny. You don't have to give an easement, but what you 
may have to do is move that old fence, because as I recall from 
the back gate or the south gate up to where the bachelor 
housing is is family housing.
    Mr. Crenshaw. So that is not a problem that is 
insurmountable?
    Mr. Arny. No, sir.
    Mr. Crenshaw. What about when you finance these things, if 
there is no basic housing allowance to some of these guys that 
have home port ashore, how do they finance those? What kind of 
income stream do you pledge to the developer?
    Mr. Arny. They all get--all E-4s and above--could get BAH. 
So in San Diego, we had a huge mix because even though these 
guys were getting BAH, they wouldn't go out into town because 
it was too expensive. So in order to get the E-3--remember, the 
Navy had a problem where before the homeport ashore, we had 
enough barracks for everybody. They may be crummy, but we had 
one. When we dumped 30,000 more E-3 and below on there, we had 
a problem. So we had to move them in and get the E-4s out.
    In Mayport, we don't have that problem. In Mayport, what we 
will do is we will pay partial BAH to the shipboard sailors. It 
depends. Where there are two to a room, it is about 35 percent. 
If it is one to a room, it is about 70 percent. Now, they still 
have a choice. We have to give everybody a choice. The homeport 
sailor has a choice. He can either stay on the ship or move to 
the barracks. So it is not much of a choice for him. But then 
he will get his BAH, and that is the income stream.
    Mr. Crenshaw. And that hasn't been a problem in terms of 
the financing of those?
    Mr. Arny. No, sir. Our M-1 folks, the personnel people 
complained, but frankly in the long term, it is less expensive 
because we are getting better barracks and they are better 
maintained.
    Mr. Crenshaw. Do you ever hear issues about cohesion or 
discipline when people are letting go?
    Mr. Arny. No, sir.
    Mr. Crenshaw. I got you. And can you tell what the 
occupancy is for San Diego yet? They aren't all really up and 
running.
    Mr. Arny. Not really all, but it is grand, and I saw a 
videoclip of an E-5, a female second-class bay officer, she was 
just raving about it. It was the same barracks she was living 
in before, but with better management, she was just raving 
about it.

                         NAVAL STATION NEWPORT

    Mr. Edwards. Mr. Kennedy.
    Mr. Kennedy. Thank you.
    Welcome. As you know, in Newport, Rhode Island with BRAC, 
we obviously absorbed an enormous change in the new BRAC 
process. With our GMH property, there has been a concern among 
our Newport council members that they came in and acquired the 
military housing, and then flipped it, with a huge profit, 
without putting any money into the properties. I want to know 
whether there is any truth to that speculation or not, if you 
could find out for us.
    Mr. Arny. Sure. We had some initial growing pains with GMH 
at Newport, but I think you will find they put a lot of money 
into that project. I know there has been new construction. What 
we found at all these locations, even if they don't build new 
housing, they are far more efficient at putting the right 
amount of money into a house--new carpets, appliances, things 
like that--to make a house that you wouldn't like to be in much 
more comfortable. But I will be looking into this, because I 
think there is more to that than meets the eye.
    [The information follows:]

    There is no truth to the speculation that the private partner 
flipped the Newport property for a huge profit without putting any 
money into the properties.
    As with all of its military family housing privatization projects, 
the Navy conveyed housing units (and leased the underlying land) to GMH 
Military Housing for purposes of renovating or replacing existing 
housing and constructing additional housing to meet Navy housing needs 
in the Northeast Region. GMH contributed over $10 million in equity and 
secured private debt for the Northeast project, which includes Newport.
    In Newport, the GMH will renovate or replace 375 homes during the 
initial development period, and will sustain and recapitalize close to 
900 homes as needed over the next 50 years. This will ensure the 
provision of quality housing for Navy families assigned to Newport for 
years to come.
    Renovations and replacement construction at Newport have progressed 
ahead of schedule, with 80 percent of the planned renovations and 100 
percents of the planned replacement construction at Newport completed 
to date.

    Mr. Kennedy. And then also about the new company taking it 
over from GMH.
    Mr. Arny. Balfour?
    Mr. Kennedy. Yes. Get us some more information about them 
and what expertise they have in the area.
    [The information follows:]

    Balfour Beatty is an international engineering, construction, 
investment and services group established in 1909 in England. The firm 
was ranked one of the top 50 international design (engineering--
construction) companies in 2007 by Engineering News-Record and has 
significant public private partnership experience. Balfour Beatty has 
constructed military housing in the United Kingdom for the British Navy 
and the Royal Air Force. Balfour Beatty is a partner firm in the 
upgrade and replacement of U.S. Air Force family housing at RAF 
Lakenheath, the largest U.S. Air Force operated base in England.

    Also, obviously we have about 350 acres accessed under BRAC 
for Naval Station Newport. Obviously, we would like to work 
with the Navy on how to access this. Our chamber of commerce 
has been working to try to develop a plan whereby we develop 
some of it for marine trade, and some of it for construction, 
housing and so forth. We want to develop a comprehensive 
development plan.
    So we want to know how much flexibility the Navy will allow 
us in the acquisition of the property and whether it could be 
done in parcels or whether it has to be done in one lump sum of 
350 acres.
    Mr. Arny. I know that particular property has three 
different communities that come into it. I was doing a little 
bit of that before I came over, but the Navy will work with the 
three communities and you to figure out what is best.
    Mr. Kennedy. Okay, that would be great.

                       CHILD DEVELOPMENT CENTERS

    You know, last year we had as a committee, we funded 60 new 
childcare centers. Obviously, this was a real investment in 
quality of life. One thing that we should also be doing, which 
is the youth centers, because of the demands for after-care, 
after-school programs and so forth, for Navy families. Could 
you comment a little bit about with these extended deployments, 
whether you think our kids need these after-care and after-
school centers, and whether they are helpful in the quality of 
life issues that you are seeing?
    Mr. Arny. They are definitely helpful on the quality of 
life. I haven't had a chance to concentrate on those, but I did 
see a paper just the other day that said in one particular 
look, that we are not short of the youth centers. But I will 
check on that, because we are adding lots of childcare centers. 
I will get back to you on that.
    [The information follows:]

    Yes, the care of children in before and after school programs is an 
important quality of life issues for military families. Today, the 
Department of Defense provides dynamic youth programs at more than 350 
locations worldwide. The before and after school programs are a work 
force issue with direct impact on mission readiness and mobilization 
preparedness, especially in today's higher operations tempo. In this 
year's State of the Union Address, the President, in an unprecedented 
call for support for military families, asked that Congress support 
military families' need for more child care.

    Mr. Kennedy. Okay. Well, we have found that that is very 
important. We can expend the after-school centers, and it would 
be good to double-check to make sure we have enough of those.
    The backlog in Rhode Island is obviously enormous on BRAC 
because for many years no one really anticipated that we were 
going to necessarily keep all of the facilities there. It was 
king of a waiting game to see how much of Rhode Island was 
going to remain. So we have quite a backlog that was put off. 
So I just would call your attention to that.
    Mr. Arny. I know that CNIC is working a base master plan on 
the home base. Admiral Conway is very high on that. We not only 
have some building to do, we also have some demolition that 
should have been done a long time ago. Newport is about the 
only place--well, we have a lot of places. A hurricane in 
Pensacola exposed the fact that we had lots of buildings down. 
We had three power plants down there that haven't been used in 
decades, and thanks to a hurricane, we got them demolished.
    Mr. Kennedy. I look forward to having you up and touring 
the base, because I am sure you will find a lot.
    Mr. Arny. My second son is stationed there right now.
    Mr. Kennedy. Oh, terrific. Well, there is a good excuse, 
sir. [Laughter.]
    Mr. Edwards. Thank you, Mr. Kennedy.
    Mr. Boyd.
    Mr. Boyd. Thank you very much, Mr. Chairman.
    Secretary Jonas and Secretary Arny, thanks for your 
service.

                     CAMP LEJEUNE WAR CONTAMINATION

    I want to start, Secretary Arny, by complimenting your shop 
and some of the folks in the Air Force installation shop that 
work under you, particularly Secretary Bill Anderson and the 
gentleman that preceded him, Fred Hume, who I came to greatly 
admire and respect in his service----
    Have you heard of the Lynn Haven fuel depot project at the 
Kendall Air Force Base?
    Mr. Arny. No, I haven't heard of it, but I will.
    Mr. Boyd. They have been working on it. You don't really 
need to do anything, except be made aware that the team that 
you have working on it, led by Hillary Yarborough of the Air 
Force shop, is doing a great job. We want to keep that on 
schedule to bring it in for a landing by this fall. Again, this 
is the Lynn Haven fuel depot, a World War II fuel depot which 
is excess. We are working to dispose of it, and I want to thank 
you for that.
    My question relates to a different subject. Secretary Arny, 
are you aware of the Camp Lejeune war contamination issues?
    Mr. Arny. From many years back, yes, sir, I am.
    Mr. Boyd. Yes. For the last 10 months, my office has been 
involved working with some constituents, and now that caseload 
is up to about eight or nine families, folks who have been 
involved in that. That is a pretty serious, complex issue, as 
you know.
    Mr. Arny. Yes, sir.
    Mr. Boyd. There are two reports that I have been advised 
that the Navy has in their possession that will not be 
released. One is the 1999 litigation report pertaining to that 
Camp Lejeune war contamination and its potential liability. I 
personally have asked for it and the Energy and Commerce 
Committee has asked for that report to be released to Congress. 
To this point, it has not been released.
    I really have two questions. Why would it not be released 
to the Energy and Commerce Committee? And what is in that 
report that the Navy or the Pentagon does not want to share 
concerning the Camp Lejeune war contamination issue?
    The second report is a 1985 confirmation study of Camp 
Lejeune, performed by the Navy of the assessment and control of 
installation pollutants program on that war contamination 
issue. The Navy has also refused to supply a recent study as 
well for Congress. What I would like to do is ask you, sir, if 
you would, to check into that and supply those reports to us 
and the congressional delegation.
    Mr. Arny. I will check into it, and if I can, I will. I 
know the Navy has been very open in terms of trying to 
identify--and it is difficult after many years--to identify who 
was there and who was affected, because it only affected 
certain portions of the base. It didn't affect the entire base. 
There were only certain wells. I know that they have been 
reaching out. It wasn't an issue I worked directly on, but I 
sat with Mr. Shigard over the last 6 years, and I know it came 
up periodically. I will check on that for you.
    [The information follows:]

    The 1999 Litigation Report was prepared by Government attorneys in 
anticipation of litigation relating to the possible effects of water 
contamination at Camp Lejeune. Both at the time of the original request 
for the Litigation Report in June of 2007 from the House Energy and 
Commerce Committee and presently, the United States is actively 
litigating tort cases relating to this matter. After careful review of 
the Litigation Report, the Department of the Navy determined the 
majority of the enclosures were factual in nature, and were already 
publicly available or otherwise releasable; those enclosures were 
provided without restriction to the House Energy and Commerce Committee 
by letter, dated June 25,2007. The remainder of the Litigation Report, 
consisting of the Findings of Fact, Opinions, and Recommendations, as 
well as four of the enclosures is attorney-work product, relates to on-
going litigation, and was withheld from release. However, the 
Department of the Navy offered to make the Findings of Fact portion of 
the Report available to members of the Committee or its professional 
staff for review.
    It is our understanding that the 1985 Confirmation Study report 
that was referred to is titled, ``EVALUATION OF DATA FROM FIRST ROUND 
OF VERIFICATION SAMPLE COLLECTION AND ANALYSIS, CONFIRMATION NON STUDY 
TO DETERMINE EXISTENCE AND POSSIBLE MIGRATION OF SPECIFIC CHEMICALS IN-
SITU''. In late 1992, this document was made available to the public 
and placed in the Onslow County Public Library located at 58 Doris 
Avenue East, Jacksonville, NC, 28540, as part of the administrative 
record. In April 2000, the administrative record was placed on the 
internet where it remains available today at: https://www.bakerenv.com/
camplejeune_irp/default_frameset.htm.
    In addition to this report, there are two other reports related to 
the Confirmation Study, which are also available in the administrative 
record:
    (1) EVALUATION OF DATA FROM SECOND ROUND OF VERIFICATION STEP 
SAMPLE COLLECTION AND ANALYSIS, CONFIRMATION STUDY TO DETERMINE 
EXISTENCE AND POSSIBLE MIGRATION OF SPECIFIC CHEMICALS IN SITU, ESE, 7/
1/87.
    (2) FINAL SITE SUMMARY REPORT, ESE, 9/1/90. This report appears to 
be a compilation of verification and collected confirmation study 
information. Apparently, no formal interim or draft final Confirmation 
Study was written; only verification sampling and analysis was 
performed.

    Mr. Boyd. I had previously submitted, Mr. Chairman, a 
written request to General Conway for this, and some questions. 
This was back in January, and those have not yet been answered. 
So it would be great, Mr. Secretary, if we could bring this 
into a conclusion.
    Mr. Arny. I will do what I can.
    Mr. Boyd. Thank you.
    Mr. Edwards. If we can do anything to help you on that, let 
us know. Any other questions? Okay.
    Mr. Wamp.

                          REBALANCING THE ARMY

    Mr. Wamp. Thank you. Round two.
    Secretary Jonas, shortly after General Casey became chief, 
he said that the Army was out of balance. What is Secretary 
Gates and yourself doing, and what can this subcommittee 
specifically do to rebalance the United States Army?
    Ms. Jonas. First of all, the budget that we put in front of 
the Congress does a significant amount regarding balancing the 
mix of the force, of active versus guard and reserve. As an 
example, in the guard accounts, we have over $45 billion that 
we have added from the period of 2007 to 2013 in programs. That 
is an area where we are working to get them the equipment they 
need to do the missions we believe they are able to do.
    Obviously, what this committee is doing is enormously 
important, in what you stated at the outset, to do your best to 
provide the resources that are needed to keep the BRAC moving 
successfully. This is important because of the basing issues we 
have all been discussing here this afternoon.
    The chairman and I were discussing the other day what the 
committee has done on childcare centers. We are very grateful 
for what you are doing. It is very important to support the 
force and the composition of those who are now serving trying 
to maintain family life in a way that is consistent with their 
assigned mission. It has gotten to be very complex.
    The supplemental requests also are very important. Those 
are another way the Congress and this committee can support 
General Casey's efforts.

                                  GUAM

    Mr. Wamp. Secretary Arny, you gave some unique insights 
into Guam. That is one of the big-ticket items on the horizon 
for this subcommittee. I was fascinated by what you shared with 
me. Can you share just a little bit of specificity even of 
Saipan and the other area around Guam that I didn't know very 
much about, and I learned a lot just listening to you--in 
brief, just the importance of Guam and the transition of Guam 
and how unique that whole situation is.
    Mr. Arny. Yes, sir. I would be glad to. As I mentioned to 
you, I had the good fortune of representing the Government of 
Guam for a period of 10 years as a consultant, and worked on 
privatization of the bus company. BRAC was actually was one of 
the few communities to seek the closure of an air base, because 
Guam had no international airport, and it was on the corner of 
the naval air station.
    Guam is a unique place. It is, in my opinion, one of the 
most strategic assets that the country has. It is U.S.-flag, 
within 3 hours by air of almost every part of the Pacific Rim. 
We always hear about the tyranny of distance in the Pacific, 
but you don't experience it until you sail across it like I did 
one time in a carrier, and every 2 or 3 months I would fly out 
there.
    As I was telling you, I took a couple of guys out to do 
some work for me out there. We would go on a 3-hour flight from 
here to Houston, walk out of the gate, get to the next plane, 
do 7\1/2\ hours to Hawaii, get out of the gate and get on to 
the next plane to Guam. One fellow looked exhausted. I have 
learned to sleep on airplanes. He said, ``God, this is awful.'' 
How much more do we have? Do we have a couple of hours left? I 
said, no, you have another 7\1/2\ hours. Guam is 7\1/2\ hours 
on the other side of Hawaii by 747.
    It has a unique history. We came in in 1898. We took it 
from the Spanish. As a matter of fact, when you come into the 
harbor there, there is a breakwater. It is called the Glass 
breakwater. I never understood why you would name a breakwater 
that is supposed to be strong, after something that is 
breakable. Well, it turns out it was Captain Glass. He was sent 
by Dewey up to capture Guam, which was a Spanish possession and 
had been in Spanish hands for 350 years. He comes rolling into 
the harbor, and the way the story is told, he lets loose with a 
broadside. The commander of the fort comes out and says thank 
you very much for your salute, but we don't have any 
ammunition, so we can't return it for you. [Laughter.]
    So that was the sum total of the conquering of Guam. And 
from that moment forward, it was governed by Navy captains. I 
was a Navy captain, okay? I was no more set to be the governor 
of a group of people than anybody else, especially in the Navy. 
But from 1898 until World War II, we had a Navy captain 
governing the island.
    And so when people complain about infrastructure in Guam, 
when you trace that back, when you scratch the surface, you 
discover that it is Navy public works. So if you get upset, it 
all goes back to Navy public works. I have to remind my 
colleagues in the Naval Facilities Engineering Command, most of 
whom are too young to remember all this, that a lot of the 
problems that we have discussing things with Guam is because we 
never let them be a nation. We never let them be an independent 
political body.
    It was the only American community captured by the 
Japanese. The wife of the second governor I dealt with, 
Governor Carl Gutierrez, his wife Jerri, her mother--when the 
Japanese came in at the end of the war, they became much more 
brutal. They brought in troops from the Manchurian campaign. 
The first troops to capture Guam were naval troops and they 
were much more benign. Then they had labor camps, and she 
watched her mother rifle-butted to death in front of her eyes. 
One of the legislator's wives was a young girl who was brought 
in with a bunch of other students to witness the beheading of 
Father Duenas, who was a Roman Catholic priest Chamorro, who 
was on the island.
    So they have a unique perspective. The other thing, too, is 
that we never really, when we took Guam from the Spaniards, we 
had a chance to buy the rest of it from the Germans, the rest 
of the Marianas chain. We didn't do it, so the Japanese had the 
Marianas chain. The island Chamorros are related to each other, 
but after the war there were a lot of hard feelings between the 
Saipanese and the Guamanians, because the Saipanese were used 
as guards, and in some cases were brutal to their Chamorro 
neighbors. The current chief of staff, George Bomba, to the 
governor is a good friend. His parents were both legislators. 
They tried to introduce a provision in the Congress, in the 
legislature, to bring Saipan and Guam back together. He was 
defeated because the feelings are still there.
    It is a very interesting place. We have a large presence 
there, and an even larger one during Vietnam. We had 150 B-52s 
and their tankers all stationed at the hangars there. So Guam 
can handle a load. It is strategic. They have infrastructure 
problems that we can work together and figure out how to do.
    It is unique because it is an island, so if you think of 
electric power--around here, when we generate electric power, 
you have to cover a certain load, and then you have a rolling 
reserve on top of that, and you have to have a peak in the 
summer and winter, and you do your maintenance in the spring 
and fall. Okay? Because you have to staff off-line. But if it 
all fails, you can plug into West Virginia or Pennsylvania. You 
have places to go. On islands, you don't have that, but even 
Hawaii has peaks and valleys. Guam is 80 percent year-round and 
it is small. It is 150,000 people.
    We asked them to do--and 150,000 is maybe Fairfax or 
something--but we asked that community to act not only as a 
city, but also as a county and a state, and they even have to 
have immigration issues. So we pile a lot on them, so sometimes 
the abilities aren't as deep as you would like because the 
bench is shallow. It is only 150,000 people.
    But strategically for the Navy and for the country as a 
whole, it is absolutely the right place to be. We may not get 
there in the time we are all talking about, but I think it is 
essential for us strategically to build that facility after 
working with the Chamorros.
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Edwards. Okay. Mr. Farr and then Mr. Crenshaw.

                    ECONOMIC DEVELOPMENT CONVEYANCE

    Mr. Farr. Thank you very much, Mr. Chairman.
    I want to get into base closure and local reuse 
authorities. As you know, I have experienced the large base 
closure in the United States, and probably every single thing 
you could possibly face in a BRAC. You and I have had 
differences from the Navy's standpoint and the Army's 
standpoint about the laws. I am very appreciative of the 
comments that you have made about wanting to work with the 
local reuse authorities.
    You mentioned tools in the tool box by which DOD and OEA 
have to help with the base reuse process, including the public 
benefit transfers, the economic development conveyances at cost 
and at no-cost, negotiated sales to state and local government, 
and conservation conveyances and public sales.
    My question is, what happens if the LRA in their 
redevelopment plan relies on one of these tools as a way to do 
their economic development, no-cost EDC--what is an EDC? An 
economic development conveyance, a free conveyance--but you--
the service--wants to sell the property. How do you resolve 
that issue?
    Mr. Arny. The problems that we have seen in EDC, especially 
the no-cost EDCs, is that the Department still operates under 
set rules that you all have laid out for us and we put out 
about four economic development conveyances. They are for 
economic development. The problem we saw in the early years, 
and I came in obviously in 2002 and saw a lot of stuff going 
on, and nobody got anywhere. A lot of consultants made a lot of 
money, and yet none of the land was transferred in a lot of 
cases.
    What was happening is that people in order to fit their 
programs through that knothole of no-cost EDCs, they were 
pulling it through the knothole. So let's say, what do we need 
for the base? What is it we want to develop? Okay? In many 
cases, in early 2000, it was housing that they needed, not 
manufacturing operations.
    In Alameda, they were going to put in a huge number of 
stores and malls and commercial enterprise, until they were 
sued by Oakland because--I hadn't thought about this--but guess 
where all the traffic has to go through to get there? It had to 
go through Oakland. Another one was South Weymouth, 
Massachusetts.
    Mr. Farr. So each one of these--you are not ruling out no-
cost EDC's?
    Mr. Arny. Absolutely not. My only warning to everybody is, 
and now South Weymouth is an EDC. It started out as a no-cost 
EDC, and by the time it got to me in 2003 or 2004, it was 
clearly a hoax. The Mills Corporation had backed out because 
the locals had voted against the road improvements they needed. 
The LRA was going on with this facade, and some of the folks 
were ready to transfer.
    Mr. Farr. Well, I am only interested in an EDC if there is 
a public benefit, because I think real estate is very 
expensive, particularly on the coast and for the Navy where a 
lot of their properties are. We have members of this committee 
whose communities could really benefit from no-cost EDC's, but 
there must be a public benefit out of this.
    Mr. Arny. Absolutely. And the problem with the no-cost EDC, 
to make it no-cost, they were doing all sorts of strange 
manipulations to get it there. Whereas, with Alameda, we still 
have an EDC, but it is a cost-EDC. We have said, okay, and we 
struck a deal with them.
    Mr. Farr. I am interested in Onizuka--that one that is----
    Mr. Arny. I have heard about it. I don't know----
    Mr. Farr. It is not in my district, but because I know a 
little bit about base closure. They are really unique. There is 
one block right on a freeway.
    Mr. Arny. It was on an Air Force base?
    Mr. Farr. Yes, it had a lot of air force instrumentation.
    Mr. Arny. Right. Okay.
    Mr. Farr. It is right in the middle of Silicon Valley. The 
city had all kinds of issues. Anyway, I appreciate your 
clarification. This committee has initiated, with the 
Department of Defense, the RCI, which is housing privatization, 
with a private developer building housing on military land. It 
is government land. There is no cost for the land. That is why 
they can build this incredibly beautiful housing at affordable 
rates. The RCI on the Monterey Peninsula where those houses the 
RCI built would all sell on the market for over $1 million. 
They are renting them for $1,100 a month--brand new houses, 
beautiful houses--to the men and women in uniform. It is 
incredible. It is fantastic.
    The whole economics work because of the land. You can 
provide these people with affordable housing, and these things 
that Patrick was talking about--youth centers, treatment 
centers, many kinds of community facilities are affordable--as 
long as you don't have to pay the expensive land costs.
    I just want to make sure that there is some accountability 
here. We put the value in it, therefore we have to get value 
out. But remember, it is all the same taxpayer, whether it is a 
local person in that city who is paying federal, state and 
local taxes, and he wants that land to be used.
    Mr. Arny. Especially if we are staying there. If we are not 
staying--if we are excessing--then it is different.
    Mr. Edwards. Okay. Members, we have three votes. The first 
one is a 15-minute vote, then there is a 10-minute debate on 
the motion to recommit, and a 15-minute vote. So Mr. Crenshaw, 
if you would like to be recognized, I would go up and vote, and 
come on back down and maybe we could kind of rotate and 
continue on with some questions.
    Mr. Crenshaw.
    Mr. Crenshaw. I just have a couple of questions. One is 
just about BRAC. I don't know if you know the schedule. In one 
of the bases in my district, there is a new hangar being built 
for all the P-3s that are coming. Ground was broken. I assume 
that is on schedule. I don't know. Is it on schedule? Is it 
going to ready in time for all the P-3s?
    Mr. Arny. I will double-check, but I would know if it 
wasn't going to be on schedule. The last time I heard, I think 
it was on-time.
    [The information follows:]

    There are currently three BRAC construction contracts underway at 
NAS Jacksonville. Their status is as follows:
    P-3 Hangar and Parking Apron (BRACON P-302V): This project will 
provide over 277,000 square feet (SF) of hangar space with 23 acres of 
aircraft parking apron and taxiways for aircraft relocating from Naval 
Air Station (NAS) Brunswick, Maine. Project awarded September 29, 2006 
with contract value of approximately $125 million. Work is on schedule 
for June 2009 completion. Structural steel is nearing completion and 
interior work is in progress. Concrete work on the aircraft parking 
apron scheduled to begin in early May 2008.
    Fleet Support Facility (BRACON P-333V): This facility will provide 
equipment maintenance support to aircraft moving down from NAS 
Brunswick, Maine. Project was awarded on June 29, 2007 with a contract 
value of approximately $4 million. Work is on schedule for. October 
2008 completion despite being delayed by five months due to an award 
protest. GAO denied the protest and the contractor started work in 
October 2007. Construction and erection of the exterior have been 
completed as well as the new vehicle parking lot.
    Engineering Ops Center (BRACON P-305V): This building will provide 
61,323 SF for Naval Facilities Engineering Command functions relocating 
from Charleston, South Carolina. Project was awarded on January 30, 
2007 with a contract value of approximately $14 million. Work is 
slightly behind the required August 2008 completion date, but the 
contractor expects to complete on schedule. This project is 
administrative and any delays will not impact the P-3 aircraft 
relocating from NAS Brunswick.

    Mr. Crenshaw. Yes. I heard maybe that there is like 23 
acres of new aprons they are going to build, and maybe there 
are some issues. I would appreciate having an update because 
there was also an office building that they were going to 
build. I know some things have been slowed down. I know the 
hangars are on-track. I would be curious just--there are two or 
three projects that, assuming they are on the original 
schedule.
    Mr. Arny. Okay.

                             PLAN FOR CUBA

    Mr. Crenshaw. The other question, the bigger question, is 
just in terms of making our committee aware of any needs that 
we might need to be aware of. You know, they just went through 
kind of a transition of power in Cuba. It was peaceful, with 
Fidel and his brother Raul. I think everybody hopes there will 
be a day when this stranglehold will be released and there is a 
free and open democratic society. If that happens, I know that 
you all at the Department of Defense have a plan in place. 
There are probably going to be a lot of people leaving Cuba and 
coming to the United States.
    So just maybe give us an overview of where some of the 
emergency housing might be and how much that is going to cost, 
and how quickly. I know that is something you have to plan for. 
We hope it is sooner than later, but we don't know for sure how 
quickly that could happen. Is there anything we need to be 
doing in that regard?
    Ms. Jonas. Mr. Crenshaw, I have been down to the area. I 
was down at Fort Ashley at the site, where there is a concern 
on mass immigration. The Deputy Secretary has been (INAUDIBLE) 
SOUTHCOM worked very hard. We have basically invested about $18 
million in that area--about 10,000. Edmund Steparides actually 
sent me a note the other day and wants to discuss it further.
    But I think he is doing the best that he can to plan. I 
know the concern has been part of our planning process, and I 
think we are in fairly good shape.
    Mr. Crenshaw. Great. Thank you.
    Thank you, Mr. Chairman.
    Mr. Edwards. Okay. Thank you, Mr. Crenshaw.
    Mr. Kennedy.
    Mr. Kennedy. Thank you.

             CLEANUP OF BASE REALIGNMENT AND CLOSURE SITES

    Going back to Mr. Farr's question, a lot of that excess 
land we have is really polluted. It is World War II, an old 
tank farm, so a lot of it needs to be cleaned up. It is a 
really bad environment of contamination. So I don't know if the 
Navy would ever get around to doing much in terms of cleanup.
    Mr. Arny. That is a good point. Let me comment on that, 
because I know that those tank farms have been excessed for 10 
or 15 years. We took advantage of the BRAC law in the case of 
Newport to be able to use the BRAC process, because Newport was 
not a BRAC closure. It was BRAC realignment.
    So the way the law was structured, we could go in there, 
because things are coming into Newport now, so it gave us the 
opportunity to say, okay, are there pieces of Newport--and we 
knew there were--that are excess and able to be disposed of 
using the BRAC process? Because it is not just a straight go to 
GSA. You set up a local reuse authority. You may be dealing 
with three local reuse authorities--Portsmouth, Middletown, and 
Newport.
    In terms of the tank farms, I never did get an answer on 
the cost to complete on the cleanup, but you are right. That 
wasn't particularly high on anybody's list of places that need 
to be cleaned up. But Congressman Farr is right, the Navy is 
always obligated to clean that up.
    Now, what we could do, if that property--again, the local 
community always has control of the zoning. If you zone it for 
a waste land, we will get rid of it as a waste land. It you 
zone it as high-rise apartments, that is what it will be 
disposed of as. If you want to do an economic development 
conveyance, cost or no-cost, that is within your rights. We 
will advise you. You will have plenty of consultants knocking 
at your door to tell you to do other things. Check their hourly 
rates. Don't tell them I told you.
    Mr. Kennedy. They are all free.
    Mr. Arny. They are all free. Right. [Laughter.]
    But if that land is valuable, and I don't know what the 
value is, but if that land is valuable, we work closely with 
EPA. It would be to our advantage to sell it. If the community 
decides for a public sale and lets that land be developed by a 
developer, then that land can be sold within the environmental 
cleanup, with the responsibility to do it transferring to the 
developer, but the oversight responsibility always remains with 
us. But rather than us doing it, the builder could do it.
    In many cases, we believe, and in places where it hasn't 
worked out and we don't do it. But if you are coming in, and 
say you have to dig out three feet of soil and replace it with 
three feet of soil, why pay company A to come in and dig that 
soil out, haul it off to Utah, and then put three feet of clean 
soil in, when the developer is going to come in and take three 
feet of soil out and put in a foundation. It doesn't make 
sense. So why not save the money?
    Plus, a developer generally is more highly motivated to get 
the buy-off from state and federal EPA than the feds are. We 
have been around for 250 years and we are (INAUDIBLE). So it is 
motivation. On the other hand, take El Toro for instance, that 
property was put up for sale, but the Navy retained the cleanup 
responsibilities.
    What we did is we sold the land, much of it in (INAUDIBLE) 
acres. Probably 80 percent of it was deedable--fausible as we 
call it. The rest of it we leased to the seller. It was a life-
lock lease (INAUDIBLE) of conveyance, but they knew all the 
rules. We had established the rules so they could build on that 
leased land, and the moment it is clean, we go and have a 
little ceremony and hand them the deed.
    So there are lots of ways to do it. We never give up the 
responsibility for that cleanup, but now frankly under the BRAC 
program, you have more oversight, more people looking at it, 
and there is more motivation to get it cleaned up. Because 
frankly, those tank farms, as you said, as you know, have been 
sitting there for decades.
    Mr. Kennedy. You also have the sewer system there that we 
can really use to tap into for our development there, which we 
would do.
    Mr. Arny. (OFF MIKE)
    Mr. Kennedy. Yes.
    Mr. Arny. As long as you will take the road. [Laughter.]
    Mr. Kennedy. And if you could look into that, this would be 
something when you come up at some point and visit your son, 
and we can talk about it and show you around. But the pier, I 
don't know to what extent you have talked to the Coast Guard 
about sharing.
    Mr. Arny. The Coast Guard is my favorite service. My father 
was in the Coast Guard. That notwithstanding, at some point the 
Navy needs to do something with that whole pier and beach area. 
There is talk of leasing it out to somebody who can use it, 
because it is of no use to the Navy. The two piers and my old 
carrier sitting out there. Those are going to go someplace, 
sometime. And you have the periscope facilities sitting on top 
of the pier. That is absolutely the worst place for that to be.
    So we are working hard to get MILCON projects in one way or 
the other, either to take the proceeds from the sale of the 
land and move it, or actually just move it up on land, at which 
point we can tear those piers down. The Coast Guard needs to 
belly up to the bar and find out what they can do, just to find 
some money to pay for their own way. They are getting the land 
for next to nothing now, and thanks to Senator Reed and your 
help in the House, we got them $9.9 million to fix the seawall 
there. They need to be partners and not dependents.
    Mr. Kennedy. Can I do one more? The Azores--are you going 
to do anything on the Azores to help the runway and rebuild 
the--refurbish the Air Force base over in the Azores?
    Mr. Arny. I have no idea. I will get back to you on that.
    Mr. Kennedy. Thank you.
    [The information follows:]

    There are no Military Construction projects for Azores in the FY 
2009 President's Budget. The Air Force will continue to review facility 
requirements of all Air Force bases worldwide, including the Azores, 
and determine priorities to ensure resources are programmed and 
budgeted to accomplish their mission.

    Mr. Edwards. Mr. Kennedy, I would also think you have about 
3 minutes left to vote.
    Mr. Kennedy. Thanks.
    Mr. Edwards. Let me talk about housing and barracks. I 
think there is a great story to be told about housing. I am not 
sure the public knows it. The military families living in 
improved housing, particularly the public-private partnership 
housing certainly know it.
    One of my goals is to see that we have metrics each year, 
so we can judge each year how we are doing on barracks; how are 
we doing on housing. That is why I have in our previous 
meetings talked about wanting to get a definition, a standard 
definition of what is adequate housing.

                            OVERSEAS HOUSING

    Let's begin with just the overseas housing. Secretary 
Jonas, I will start with you. In your written testimony--and 
let me get the exact quote--you talked about, ``we are asking 
for $3.2 billion for family housing. Funding for this vital 
quality of life program will enable the department to privatize 
an additional 12,324 units and to eliminate inadequate housing 
units overseas.''
    When you say ``to eliminate inadequate housing units 
overseas,'' are you talking about in the fiscal year 2009 year?
    Ms. Jonas. I think it may take us all a little bit longer 
period to do that. So I don't know, I think the date is a 
little bit off there.
    Mr. Arny. The date--let me give you the specifics. We will 
have the money in place in this budget. We have nothing in 
2010. So we will have it all, domestic and foreign adequate, by 
those standards that the services measure, by the end of 2009. 
It may not all be done by then, but the contracts will be in 
place.
    Mr. Edwards. Okay. That is a little bit surprising to me 
because we had General Bell here just recently. He said that we 
are letting our service members down in Korea. We know we are 
in a process of transition there, but does that statement apply 
to Korea?
    Ms. Jonas. I have had many conversations with General Bell. 
The Secretary and I have had discussions with Chairman Levin 
regarding the housing in Korea. The Secretary is concerned 
about the situation, and Chairman Levin has expressed his 
concerns about the price tag of the Build to Lease Proposal in 
Korea. We have requested the money in the MILCON budget to try 
to address the complicated issue.
    Mr. Edwards. But when you say just a moment ago that by 
fiscal year 2009 you will have the money in hand to see that we 
have no inadequate housing for families overseas----
    Mr. Arny. Of those that we own.
    Mr. Edwards [continuing]. Of those we own.
    Mr. Arny. Okay. Now, as I understand Korea, and I am 
learning as I go, because it is not Naval Station Korea, so as 
I understand Korea, you have two problems. One is the good 
news--we are moving out from underneath the DMZ further south, 
so there is going to be a need in the future for more family 
housing down near the bases in the south that we are 
developing. And the way the Army was going to do that was 
build-to-lease. There are a lot of reasons why the bill was too 
high on that.
    So we have MILCON in this year's budget, aside from this 
inadequate housing, to build--I forget----
    Ms. Jonas. It is 216 units, and we have requested $125 
million.
    Mr. Edwards. That is 2,000 units that are needed in Korea, 
as I understand.
    Mr. Arny. And that may be a period of time. We want to do 
that build-to-lease. What Assistant Secretary Easton is looking 
at is a semi-private-public partnership with the Korean 
construction firms on the land that currently exists for that 
on one of the bases that we are moving to. You know, as it gets 
detailed, we will get more back to you.
    The other issue I think that General Bell and others have 
is they want to bring more dependents. They want to have more 
accompanied tours that we currently have now, so they may be 
counting those numbers in. That has not been approved. Part of 
the problem that the Army has, and may others--the Marines 
especially--with unaccompanied tours is they are short. They 
are only 12 months. So when you bring accompanied, then there 
are 2-year to 3-year tours, but now you have the added expense 
of dependents and housing and things that you don't need when 
you have unaccompanied tours. So it is a balancing act for us.
    Mr. Edwards. So we need to quantify our statements when we 
say we are going to have the money in place this year to see 
that we have every family living overseas in adequate housing. 
I just want to get consistency from year to year to year. If we 
are consistent with a qualifier, if we are consistent with the 
definitions, so we can measure where we are going. That allows 
us to tell the great story of improvements, but still be 
realistic about the needs that are still out there.
    Mr. Arny. I did think about what you and I were talking 
before, but I think part of it is we had this inventory that 
was inadequate, and we modified it, and we are getting rid of 
that, but there is a future inventory perhaps out there as we 
consolidate forces into more southern areas in Korea.
    Mr. Edwards. Right. Okay. Let me ask you about fairness. 
And by the way, on Korea, let me go back just for a moment. In 
the past, we have had a lot of troops up near the DMZ in places 
that might not have been safe for children and spouses. But now 
that we are consolidating outside of the DMZ area, I hope we 
will look at a policy of trying to say that every family that 
wants to stay together, particularly if they have come from 
Iraq or a first or second or third tour of duty in Iraq, and 
then they are assigned to Korea.
    We asked General Bell, if you had enough housing and 
adequate schools, decent quality of life, what percent of the 
married soldiers would probably want to have their families 
come with them. He said about 70 percent. So by policy, 
basically, we are saying--Congress and the administration 
together are guilty of this--we are saying by policy, a lack of 
commitment to fund the housing needed there. We are forcing 
families to live apart that have already lived apart, but many 
of them because of their service in Iraq and Afghanistan.
    In the past, that has been understandable because we were 
dispersed in small little camps in local places in the Republic 
of Korea, but I just hope we will take a second look now that 
we are consolidating, do we want to make it a policy of the 
United States to say because we are not going to commit the 
resources needed to build the housing, you are going to have to 
be apart for another year, even when you have already been 
apart when your loved one was serving in Iraq or Afghanistan?
    So if you could look at that and see where we are going.
    Mr. Arny. As you well understand, when you change that 
policy, you are doing two things. You are bringing those troops 
in and you are building those bases up, and then you change 
them and you are doing two things at the same time. You have to 
look at the cost and the time it takes to do it.
    Mr. Edwards. Okay.
    Mr. Arny. I think your goal is the same as everybody 
else's.
    Mr. Edwards. You bet. Our goal is the same. We all want 
every soldier, sailor, airman and marine and their families 
living in quality housing that they have a right to be proud 
of.

                           INADEQUATE HOUSING

    On barracks, is there a number today--can we say to the 
taxpayers how many servicemen and -women are living in barracks 
that don't meet DOD standards?
    Mr. Arny. I can give you the--we will get that for you. I 
know in the Navy, we had I think in the Navy budget there is 
one barracks left for permanent party that is not adequate. In 
barracks, the measure for inadequate was getting rid of gang 
heads, and the Marine Corps, the same thing. We have one 
barracks, and I think it was on San Clemente Island, and we 
finally in this budget have it there. So I think within the 
Navy it is done, but within the Marine Corps--
    That is not to say there are not barracks with gang heads 
still out there, but they are being used as swing barracks, as 
transient barracks, things like that. For permanent party 
enlisted barracks, I think the Navy is there now, as long as 
you include San Clemente Island. The Marine Corps, they may 
have slipped a year or two because of growing the force, they 
had to keep some of the barracks around there.
    I will check with you. You know, given that the Air Force 
has never had the problem, I don't think, they probably don't 
have one. And the Army, I will have to check on that for you.
    [The information follows:]

    According to the 10th Quadrennial Review of Military Compensation 
Report, Volume I, Cash Compensation, February 2008, page 91, there are 
approximately 65,000 junior enlisted service members without dependents 
who are being housed in quarters that are considered below the DoD 1+1 
new construction barracks standard (private bedroom, both shared with 
no more than one other, and a service area/kitchenette shared with no 
more than one other). The breakdown is 20,000 for the Army, 35,000 for 
the Navy and Marine Corps, and 10,000 for the Air Force.

    Mr. Edwards. What I would like to do is work with you and 
your staff and our subcommittee staff to sometime in the next 
month or so give us a list of how many servicemen and -women 
are living in inadequate housing; how many single soldiers, 
sailors, airmen and marines are living in inadequate housing; 
and then give us the definition you are using for how you 
define it.
    And then a year from now I want to ask the exact same 
question, and I would like to see the same definitions and the 
numbers on the same assumptions, same definitions, so we can 
measure the success and we can talk about it, and when we have 
successes we ought to talk about them. The administration and 
the Congress ought to be proud of some of these successes.
    But at the same time, we have seen the definitions change 
from $15,000 to upgrade a house, to $50,000--that things have 
changed so much, I don't think there is a clear standard from 
year to year to year to see where we have come and where we are 
going.
    Mr. Arny. I don't think we have given you the year-by-year 
on family housing, but I believe it is $50,000. I asked, and we 
have been using $50,000 since I think 2003. Again, the services 
have their own standard, but we could give you that year-to-
year, and also into the future. I think the barracks is a 
(INAUDIBLE), getting rid of it.
    Mr. Edwards. Sure. And on the housing, I would like to try 
to get that data based on not only the $50,000 definition, but 
if it is in a state of disrepair, then that is inadequate 
housing.
    Mr. Arny. Agreed.
    Mr. Edwards. So those families living in inadequate housing 
that is in a state of disrepair differs from those who are 
living in housing that if we spent $50,000, whether you spend 
it or not, it would meet the standards. And then let's try to 
get a standard by which we can judge this year to year to see 
exactly where we are going.
    I think we were told a couple of years ago that in 2007 we 
would have all the money in place to have everybody living in 
adequate housing. Definitions change, and we have had BRAC and 
we have had growing the force--all of that. I would like to 
measure that. Is it your definition that we are going to have 
everybody in CONUS living in adequate housing? Does that apply 
to the families associated with growing the force?
    Mr. Arny. Yes.
    Mr. Edwards. How about global repositioning?
    Mr. Arny. It is all of the troops.
    Mr. Edwards. All of them.
    Mr. Arny. All of them. For instance, I know the Marine 
Corps, where we are--now remember, 75 percent of the Navy--and 
I suspect it is the same for others--are living on the outside, 
are living off the base. We are not providing housing for them.
    Mr. Edwards. Right.
    Mr. Arny. But again, with the Marine Corps, it is like 99 
percent of their housing will be privatized. The way they are 
handling the growth at Camp Lejeune--and Camp Lejeune is the 
primary growth--the way they are handling it there is with our 
privatization contracts have options that we can add to them. 
So in certain cases, we are putting some funds in and we are 
getting increased housing out of the privatization contractors 
in anticipation of that grow-the-force.
    Mr. Edwards. Okay. I want to ask you about health in a 
moment, but I would like to recognize Mr. Wamp for any 
additional questions he has.
    Let me just make a comment. It won't be as poetic as Mr. 
Wamp was on BRAC, but I do appreciate his focus on the 
importance of fully funding BRAC. I want to say on the record 
to both of you, that this subcommittee is going to do its very 
best to see that we replace the money that was used to support 
some worthwhile initiatives, everything from significant 
increases in veterans' health care and benefits administration, 
to additional daycare centers, which is something we felt in 
this subcommittee was desperately needed. I salute the 
administration in the 2009 budget year for requesting a 
significant increase in daycare.
    But we do understand the importance of the BRAC. I 
appreciate your comments on that. Those comments were heard and 
I think we have a good chance of coming up with a solid number 
on replacing them.
    Mr. Wamp.
    Mr. Wamp. I have no further questions, Mr. Chairman.
    Mr. Edwards. Okay.

                              HEALTH CARE

    Let me then just ask you about health care. It is 
anecdotal, but as I go out now to face this, I am starting to 
hear more and more about problems with health care. Daycare 
centers had been the number one concern we had heard for 
several years. Going back a number of years, it was family 
housing. We have made great progress there.
    We are hearing a lot about health care. As I understand it, 
the Army alone has identified about $5 billion in medical 
MILCON that is needed.
    Ms. Jonas. Five billion dollars?
    Mr. Edwards. Five billion dollars. Do you know what is the 
source of that? I mean, is that an official Army document or is 
that conversations with officials?
    Also, I think it is a fact to say that the average age of 
all the medical facilities across the Department of Defense is 
about 33 years of age. Many hospitals, as you know, are 50 
years old or older. It is my intuition that basically we have 
just punted on this one. It is understandable. We are at a time 
of war. We are funding BRAC. We have a lot of demands on the 
Department of Defense funds. But frankly, I am very concerned 
about where we are in terms of not keeping up with the 
modernization needs of our medical facilities.
    I am also concerned that at bases such as Fort Riley, we 
are going to have a huge increase as a result of the BRAC and/
or growing the force and/or global repositioning. You are going 
to have a huge increase in the number of soldiers there. They 
are almost doubling the number of soldiers there. In that case, 
you are not in an urban area where you have a lot of private or 
nonprofit hospitals you can depend on.
    Does the Pentagon have on paper a 5-year or 10-year plan 
for modernizing and recapitalizing the DoD health care 
facilities?
    Ms. Jonas. Wayne will talk to some of the facilities piece, 
but let me say on that point, this is the first time I have 
ever heard the number--$5 billion--for the Army. I meet 
regularly, with General Cody. We talk frequently about the 
things on his mind, and there is no better advocate for the 
soldiers in this nation than General Cody.
    I will directly ask him about that, and talk to General 
Casey as well. I don't know if it was (INAUDIBLE) over a 
several-year period, but as you know, we have put a lot of 
money into the wounded warrior complex. We appreciate your 
expeditious work on the second portion of the 2008 supplemental 
because it includes funds to enhance the world-class facility 
at Bethesda and to consolidate Walter Reed. It has been very 
clear that these facilities are of the highest priority to the 
Secretary.
    I will personally look into this issue.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2754D.058
    
    [GRAPHIC] [TIFF OMITTED] T2754D.059
    
    [GRAPHIC] [TIFF OMITTED] T2754D.060
    
    Mr. Edwards. Let me ask you this, then. While the $5 
billion number might not be a number that you are familiar 
with, it is not a surprise to you that there are a lot of needs 
out there in terms of modernizing hospitals. In a day and age 
where just within, as you know better than I, within the last 
15 years, the health care system has changed dramatically. In 
some cases, a 50-year-old well-kept building can be very 
accommodating and very efficient in this day and age, since we 
shifted to outpatient care. And a 50-year-old hospital or a 70-
year-old hospital at Fort Benning, Georgia can create 
tremendous inefficiencies and hurt quality of care to our 
troops. Generally, the issue itself isn't a surprise.
    Ms. Jonas. Oh, absolutely no. In fact, the need to continue 
to provide quality care to our men and women in uniform is 
always on our mind. We have had lots of conversations about it. 
We have done a lot. We have about $41.6 billion in this defense 
budget that your fellow committee will be acting on we hope, 
and they have always been terrific.
    Mr. Edwards. On defense health, not on hospital 
construction.
    Ms. Jonas. That is for the entire amount. I am speaking to 
the amount required for defense health and for the people 
associated.
    I agree we should continue to look at it. Every weekend I 
am on Fort Belvoir, as it is within my military (INAUDIBLE). 
For years I have gone past that hospital and said, boy, I am 
glad I am not a young mother having a baby out there, because 
it is clear the military population needs a better working 
facility. We have broken ground on the new hospital which is an 
important step in modernization.
    Mr. Edwards. Do you know the numbers in terms of what the 
administration has asked for in terms of DoD, outside of, say, 
Bethesda and Fort Belvoir, which are tied into BRAC.
    Mr. Arny. For Bethesda and Fort Belvoir, we are doing lots 
in BRAC, and down in San Antonio.
    Mr. Edwards. But how about beyond those? Do we know for 
construction?
    Mr. Arny. For non-BRAC, $452 million; Fort Richardson----
    Mr. Edwards. That is worldwide for DoD healthcare? What do 
you show at Fort Riley? How much is your request?
    Mr. Arny. At Fort Riley, $52 million, for hospital addition 
and alterations.
    Remember, too, when you talk to the--and I am learning this 
myself--when you talk to the services, medical was taken away 
from the services. Okay? Medical is under defense health. So 
the services rely on them to bring that budget together. Now, 
they will make their inputs, but it is really defense health 
system that has to provide it.
    Now, it is under stress now more than it was before. But 
again, I think BRAC is important because we are putting a lot 
of facilities at the BRAC places. I mean, obviously Bethesda--
there is a lot of money going into Bethesda, and I think being 
done right now down at San Antonio. It is a huge consolidation 
down there, not only the medical itself, but the training for 
it as well.
    Mr. Edwards. I guess my concern is more that the active 
duty military bases--Fort Benning, Fort Riley, Fort Hood and 
others--is there a 5-year or 10-year capitalization plan for 
defense health care?
    Ms. Jonas. I am certain Ward Casscells, who is the 
Assistant Secretary for Defense Health, could help us get you a 
plan. Health care is very much on the minds of the deputy 
secretary and secretary and myself and other leaders in the 
department. I will look into the existence or development if 
necessary, of such a plan.
    Mr. Arny. Let me hit you with just a couple of numbers, and 
this is the BRAC side: medical center at Fort Sam Houston, $294 
million; Fort Belvoir, $198 million; Bethesda, $200 million 
just this year; Fort Sam Houston, $96 million; Fort Benning 
Medical Center, $80 million; Dover Air Force Base, $52 million.
    Mr. Edwards. How much at Fort Benning?
    Mr. Arny. About $80 million.
    Fort Campbell Military Care Center in Lackland, $51 
million; Keesler, $67.7 million.
    Mr. Edwards. Okay. I have seen some numbers that suggest 
what the private health care system assumes in terms of how 
much they have to reinvest in their capital structures. I don't 
know if it is 5 percent or what the number is, but I have seen 
some comparisons that showed DoD is far below what the private 
sector feels it needs to reinvest to keep its facilities 
modernized.
    I am not here to criticize. We have all been part of this 
process. I just think it is one of those issues that we focused 
on other areas understandably during a time of war. I have not 
see a capital plan for DoD health care modernization.
    Mr. Arny. We will get you one. If there isn't one, we will 
get it for you.
    Ms. Jonas. Yes.
    Mr. Edwards. Okay. Okay. And one of the things I would like 
to know is in that planning, have we assumed the growing the 
force and the additional troops that will need health care as a 
result of that.
    I think those are the main issues. We have talked about a 
lot of issues. We appreciate your time today and your service 
to our country over the years. There may be some additional 
questions that Mr. Wamp and I might want to submit for the 
record.
    Mr. Arny. But no questions from staff, right?
    Mr. Edwards. I don't know. [Laughter.]
    Mr. Wamp, do you have any other additional questions? If 
not, thank you both for being with us today. We appreciate it.
    [Clerk's note.--Questions for the record submitted by 
Chairman Edwards.]

    Question. The 2004 Installations Strategic Plan set a goal of 
funding 95 percent of sustainment in fiscal years 2005 through 2007, 
and 100 percent by FY 2008. In each year the Department has fallen 
short of the goal by an average of about 9 percent according to the 
Government Accountability Office. As Mr. Arny notes in his testimony, 
the FY 2009 budget request funds sustainment at 90 percent. The 2007 
Installations Strategic Plan includes only a vague goal to ``fund to 
the current facilities sustainment requirement generated by the 
Facilities Sustainment Model.'' Has the Department set a funding target 
for sustainment for future budget years?
    Answer. The Department's minimum funding target for sustainment for 
future budget years is to fund sustainment at 90 percent.
    Question. The Contingency Construction Authority (CCA) provided 
under the FY08 National Defense Authorization Act is not allowed for us 
at installations ``where the United States is reasonably expected to 
have a long-term presence''. Since the Department now views Bagram Air 
Base in Afghanistan as an ``enduring'' base with a long-term purpose, 
does the Department believe that CCA is applicable at Bagram?
    Answer. No. Based on the authority provided in the FY 2008 National 
Defense Authorization Act, we will not be able to use CCA at Bagram 
because we expect to have a long-term presence there. However, we have 
requested the authority be modified in FY 2009 to permit waivers of the 
``long-term presence'' clause for bases in Afghanistan.
    Question. The fiscal year 2008 supplemental request includes $138 
million for the Army Medical Action Program, specifically for the 
construction of Warrior in Transition complexes and Soldier Family 
Assistance Centers. Army has identified the need to establish similar 
facilities at 35 different locations at a cost of $1.4 billion. I 
understand that no funds for this program have been incorporated in the 
regular budget, and that the Department plans to continue seeking funds 
for this program through supplemental requests, even though this is 
considered by Army as a permanent change to the treatment and care of 
wounded personnel. Will you seek to include Army Medical Action Program 
costs in future regular budget requests?
    Answer. The Army Medical Action Plan is under review within the 
Department and no final decisions have been made.
    Question. I understand that the Department recently changed its 
policy regarding funding sources for Nonappropriated Fund 
Instrumentality (NAFI) facilities. Please explain how the current 
policy differs from the previous policy, and the impact that this will 
have on the military construction budget.
    Answer. The Department's policy regarding funding sources for NAFI 
facilities is that appropriations shall fund construction required to 
establish, activate or expand a military installation, including Base 
Realignment and Closure and global re-stationing requirements; 
relocation of facilities for convenience of the Government; replacement 
of facilities denied by country-to-country agreements; and restoration 
of facilities and improvements destroyed by acts of God, fire or 
terrorism. Expansion must be the result of a mission change or influx 
of new units or systems and result in a 25 percent increase in 
authorized personnel strength within a two-year time span. 
Appropriations are the authorized source for construction and 
modernization for all NAFI Program Groups to correct life-safety 
deficiencies.
    The Department did not change the policy, but instead directed the 
Services to examine the application of the policy based on the unique 
nature of BRAC and global re-stationing factors. The distinct 
challenges of BRAC and global re-stationing scope and timing present a 
challenge to the Services as they review and prioritize MWR facilities, 
exchange stores, and commissary stores competing against mission-based 
facilities. By systematically applying the existing policy, the 
Department ensures Service members should not bear the financial burden 
for Service or DoD directed changes.
    Question. The Future Years Defense Plan indicates a total cost of 
$837 million for the Missile Defense Agency's proposed ``third site'' 
basing in Europe. I understand that this does not include the costs 
associated with the personnel who would be required to actually operate 
and maintain the interceptor and radar sites (barracks, dining 
facilities, etc.). Has the Department estimated this cost? Why is this 
not included in the FYDP?
    Answer. The $837 million does not cover the cost to construct 
personnel support facilities, such as barracks, dining facilities, etc. 
for the proposed third site. The Department needs to refine the long-
term plan for the third site. The Department will do this, and further 
develop the associated support facilities costs estimates, during the 
development of the FY 2010 President's Budget request.
    Question. You state that BRAC 2005 has a total projected cost of 
$33.2 billion over the 2006-11 implementation period. The budget 
submission shows that $32.0 billion will be paid for through the BRAC 
2005 account. What costs are being paid outside the account, and where 
are these costs accounted for in the Department's FY09 budget request? 
Does your total include the $416 million in the FY08 supplemental 
request for Bethesda and Fort Belvoir?
    Answer. The total projected Base Realignment and Closure (BRAC) 
implementation cost is $33.2B. As reflected in the BRAC 2005 budget 
submission materials, $32.1B in one-time implementation costs is to be 
financed from within the BRAC Account (that assumes full restoration of 
the FY 2008 Congressional $938.7M decrement).
    In addition, approximately $407M is financed from outside the BRAC 
Account, of which, $400M is being financed by the National Geospatial-
Intelligence Agency and $7M by the Missile Defense Agency.
    Additionally, included in the total estimated BRAC implementation 
costs is $416M in the FY 2008 supplemental request and $263M in 
additional funds the Department intends to seek for separate expansion 
projects at the Walter Reed National Military Medical Center at 
Bethesda.
    Question. With regards to environmental cleanup costs under BRAC, 
you state that such costs ``were not included in the original COBRA 
estimates by design,'' and that if these costs had been included, ``the 
process would have had an artificial bias to close only `clean' 
bases.'' By the same token, doesn't the exclusion of these costs make 
the closings of ``dirty'' bases appear more cost-effective than they 
really are? Did the Department make any effort at all to gauge 
environmental remediation costs at bases under consideration for 
closure or realignment prior to issuing its BRAC 2005 recommendations?
    Answer. Using certified cost-to-complete data for known 
contamination sites, the Department did consider the impact of 
environmental restoration costs for each candidate closure and 
realignment scenario evaluated. The certified data considered by 
decision makers were the FY 2003 cost-to-complete estimates for all 
installation restoration sites managed and reported under the Defense 
Environmental Restoration Program (DERP).
    The Department calculates these costs on a ``clean-to-current-use'' 
clean-up standard. The cost of environmental restoration did not 
dictate any installation closure decision, but the Department noted 
these costs in documentation supporting the recommendations provided to 
the Commission.
    The location and number of restoration sites also may have been 
considered as a land use constraint for installations receiving 
missions as a result of a realignment decision. Because the Department 
of Defense has a legal obligation to perform environmental restoration 
regardless of whether a base is closed, realigned, or remains open, 
environmental restoration costs at closing bases were not included in 
the cost-of-closure calculations.
    From an overall DoD budget perspective, environmental remediation 
costs do not affect the overall cost-effectiveness of implementing 
recommendations because the costs are a zero sum transfer within the 
Department. Environmental restoration costs are budgeted in the Defense 
Environmental Restoration Account. Once on the closure list, the base's 
restoration costs are budgeted in the BRAC account. Therefore, the 
costs to remediate the base do not change--only where they are 
accounted.
    Question. The BRAC Commission recommendation on Joint Basing 
required ``relocating the installation management functions'' for each 
Joint Base to be established. How does the Department interpret this 
phrase for the purpose of complying with the BRAC mandate?
    Answer. The Department has the legal obligation to transfer 
installation management functions from 26 locations onto 12 joint 
bases. The Deputy Secretary of Defense issued Joint Basing 
Implementation Guidance on January 22, 2008, which defines the 
installation management functions and timing for implementing the Joint 
Basing recommendation.
    Question. You stated that under the new Joint Base construct, the 
``supporting'' service will be responsible for budgeting and executing 
``current mission'' military construction, while the ``supported'' 
service will be responsible for ``new mission'' milcon. Is there an 
agreed upon definition of ``current mission'' and ``new mission''? What 
will happen if the ``supporting'' and ``supported'' services in a Joint 
Base disagree on whether a project is current or new mission? What is 
to prevent a service from declaring projects ``new mission'' simply in 
order to retain control?
    Answer. The Department is now in the process of finishing its 
guidance on facilities investment that addresses funding 
responsibilities between supporting and supported components. The 
question of ``who pays'' for various types of investment is fundamental 
to Joint Basing, as you have recognized, and a major focus of the 
supplemental guidance. We expect this to be completed imminently and 
will be pleased to address any committee questions related to it.
    Question. The ``supporting'' and ``supported'' services at a Joint 
Base may also have disagreements about the funding priorities for 
Facilities Sustainment, Restoration, and Modernization (FSRM) and Base 
Operating Services (BOS). How will such disputes be resolved?
    Answer. A Joint Management Oversight Structure (JMOS), comprised of 
representatives from each Component, will be established for each Joint 
Base. The structure will be used to ensure fairness; provide oversight 
of dispute resolution and equitable allocation of funding requirements 
to the responsible entities; and resolve other issues as required. The 
JMOS process includes an appeal structure to adjudicate conflicts that 
can not be resolved by the Joint Base Partnership Council. The JMOS 
appeal structure includes the installation management echelon 
immediately above the Joint Base installations; Component headquarters 
elements; Service Vice Chiefs of Staff; and the Deputy Secretary of 
Defense.
    Question. You expressed dissatisfaction with the current 
recapitalization measure. Explain what is wrong with the current 
measure, and what you are seeking in developing a new measure.
    Answer. We used the current facilities recapitalization metric 
since 2002 to assess the adequacy of the investment in modernizing and 
restoring our inventory of facilities. The metric is based upon the 
premise that the investment should be sufficient to replace the 
facilities inventory at a rate equal to its expected service life, 
estimated at 67 years using a ``weighted average'' calculation of plant 
replacement value (PRV) about ten years ago. The metric divides the PRY 
of the inventory by the annual investment in recapitalization, yielding 
a recapitalization rate expressed in years.
    While the recapitalization metric has served the department well, 
it has several limitations that the department now seeks to reduce or 
eliminate for the FY 2010 budget submission. These limitations include 
the following:
         1. The investment target, expressed as a funding rate 
        necessary to replace the facilities inventory every 67 years, 
        was calculated using plant replacement value and inventory from 
        the late 1990s that is no longer current.
         2. The investment target is an overall DoD average and does 
        not represent the facilities inventory for each DoD component 
        that can vary significantly from one Component to the next.
         3. The investment target is based upon preliminary DoD rough 
        estimates of expected service life values for various facility 
        types that have since been refined by various published 
        industry sources.
         4. The recapitalization metric does not differentiate between 
        costs to renovate facilities versus costs to replace 
        facilities, both of which are ``recapitalization.'' This 
        difference can equate to approximately 40% of a facility's 
        calculated plant replacement value.
    The department is transforming the recapitalization metric to 
address each of these limitations in support of the FY 2010 budget 
submission. There are three aspects to this transformation:
         1. The format of the new metric will change from a rate 
        expressed in ``number of years'' to a rate expressed as a 
        percent of the investment target that is funded. This will 
        parallel the facilities sustainment metric (and others) and 
        provide a common funding expression between Components, even 
        those with significant differences in facilities inventory and 
        resultant differences in ``average'' inventory service lives.
         2. The investment target will change from the ``67-year 
        average'' target to specific target values for each Component 
        based upon current Component-specific inventory and published 
        parameters for facility service lives and depreciation. The DoD 
        Facilities Modernization Model performs this function.
         3. Finally, the method of identifying and accounting for 
        recapitalization investments is being refined to differentiate 
        between types of recapitalization methods (specifically, 
        between renovation and replacement).
    Since its inception, the facilities recapitalization metric has 
served as an important tool to evaluate the adequacy of the 
Department's aggregate investment to counter facility obsolescence. The 
improvements planned for the FY 2010 budget and Future Year Defense 
Plan are expected to significantly improve its accuracy and usefulness 
for this purpose.

    [Clerk's note.--End of questions for the record submitted 
by Chairman Edwards.]
                                          Wednesday, April 9, 2008.

                              ARMY BUDGET

                               WITNESSES

GENERAL GEORGE W. CASEY, JR., CHIEF OF STAFF, U.S. ARMY
KEITH EASTIN, ASSISTANT SECRETARY FOR INSTALLATIONS AND ENVIRONMENT, 
    U.S. ARMY

                       Statement of the Chairman

    Mr. Edwards [presiding]. I would like to call the 
subcommittee to order.
    General Casey, Secretary Eastin, welcome. It is good to 
have you back to the subcommittee. Thank you both for your 
distinguished service to the Army and to our nation. We are 
very grateful for that service.
    We are here today to discuss the fiscal year 2009 military 
construction and family housing request for the Department of 
the Army. The 2009 MILCON request for the Army is $4.6 billion, 
which would be an increase of nearly $700 million over the 
fiscal year 2008 level. To put that in perspective, the fiscal 
year 2004 budget for Army MILCON was less than $1.5 billion.
    The primary factor driving these huge Army MILCON budgets 
is the initiative to grow the permanent end-strength of the 
active Army to 65,000 by 2010. The 2009 MILCON request includes 
about $3.5 billion for Grow-the-Army. In family housing 
construction, the request is for $679 million, an increase of 
$259 million over 2008. This increase is entirely due to the 
$334 million included for Grow-the-Army, more than offsetting 
reductions resulting from the family housing privatization 
program.
    The Guard and Reserve MILCON budget request also represents 
a healthy increase, again due to Grow-the-Army, which will add 
about 9,200 Guardsmen and Reserves to the total force.
    Last, but not least, the Army has the greatest stake in 
BRAC. The Army's share of BRAC represents more than 50 percent 
of the total estimated costs. About three-fourths of the Army's 
estimated $17.3 billion share is for construction. Let me say 
on that, chief, Mr. Wamp and this subcommittee have been 
outspoken in our belief that we need to adequately fund BRAC. I 
am very optimistic that when we have the supplemental 
appropriation markup soon that we will have very strong backing 
on that, and we look forward to hearing your comments on the 
importance of that funding.
    The Army MILCON program is obviously reflective of the 
tremendous changes underway in the Army currently. Let me just 
say that, General Casey, while we will focus a lot on MILCON 
issues today, obviously this subcommittee has responsibility 
for a lot of installation construction that deals with quality 
of life. It is a special niche of this subcommittee.
    I can think of no time where we owed more to our soldiers 
and their families than now, given the op tempo, the demands on 
them, the emotional strains of the constant deployments to Iraq 
and/or Afghanistan. This committee stands ready and committed 
to work on a bipartisan basis to support that quality of life 
in the Army. Thank you, from your position as chief, for making 
quality of life the particular focus that you and Secretary 
Geren have been working on.
    At this point, I would like to recognize Mr. Wamp if he has 
any comments that he would care to make.

                Statement of the Ranking Minority Member

    Mr. Wamp. Thank you, Mr. Chairman.
    First, let me comment that I am grateful for your 
commitment to BRAC. I think this is the first public commentary 
that you have made on the supplemental and the fact that the 
majority is making every effort to include the necessary BRAC 
funding in the supplemental.
    Secretary Eastin, welcome.
    General Casey, it is an honor to be in your presence. 
Having been born in the United States Army at Fort Benning, to 
sit before the Chief, or to have the Chief sit with us, of the 
greatest Army in the history of the world is indeed a 
privilege. Thank you for your service and every man and woman 
that you represent, especially as we are growing the Army and 
making the necessary changes to meet today's and tomorrow's 
challenges around the world. We are grateful for the United 
States Army and especially grateful for you, General Casey. 
Your name is renowned around the world now, and we are grateful 
that you are here in this little small room with us in our 
nation's Capitol today. Thank you, sir.
    General Casey. Thank you.
    Mr. Edwards. General, I am going to forego the long and 
distinguished and deserved resume because we know that you 
wouldn't be in your present position without a long and 
distinguished record of service to our country. But I do want 
to thank you for your 38 years. Is that correct, 38 years?
    General Casey. Yes, 38 years in June.
    Mr. Edwards. Your service to the country.
    General Casey. What was I thinking? [Laughter.]
    Mr. Edwards. I imagine you never guessed you would be 
sitting someday as Chief of Staff, but we are honored that you 
are, as Mr. Wamp said, and we are thrilled to have you. It was 
also a privilege to get to know you when you were down at Fort 
Bragg.
    Secretary Eastin, thank you also for your service to our 
country. We are glad you are here as well.
    At this point, without objection, chief, your entire 
testimony will be submitted for the record, and we will 
recognize you for any opening comments you would care to make.

               Statement of General George W. Casey, Jr.

    General Casey. Thank you very much. It is a pleasure to be 
here with you, and to talk about the military construction 
budget, which is so much a part of everything we are doing 
right now as we try to put ourselves back in balance.
    Congressman Wamp, as someone, who has a sister and a son 
born in that same hospital, I have some attachment to Fort 
Benning myself.
    What I would like to do is provide a little context, if I 
could, for our discussions on the budget--a couple of things. 
First of all, we have been at war for over 6 years, and that 
has stretched and stressed the all-volunteer force. We wouldn't 
be where we are today, we wouldn't have been as resilient as we 
have been without the support of Congress. So right up front, 
we thank you for that.
    Second point, as we look to the future, we see a future of 
what I call persistent conflict. I define that as a period of 
protracted confrontation among state, non-state, individual 
actors who are increasingly willing to use violence to 
accomplish their political and ideological objectives. That is 
what we are up against. So as we have this discussion, I think 
we need to keep in mind that we are in for another decade or so 
of similar activity, maybe not on the scope or the scale of 
Iraq and Afghanistan, but periods of protracted confrontation.
    I think this proclivity for persistent conflicts is going 
to be exacerbated by some global trends that people generally 
agree on, but it could cause things to go in the wrong 
direction. Globalization has a positive effect for sure, 
prosperity around the global. The negative effect is it is 
unevenly distributed. If you look at the have and have-not 
conditions it can create, terrorists can take advantage of that 
for recruitment.
    Technology is another double-edged sword. The same 
technology that is being used to bring knowledge to anyone with 
a laptop and a hookup is being used to export terror around the 
world.
    Population growth, the demographics are going in the wrong 
direction. The populations of some of these developing 
countries are expected to double by 2020. Estimates are that by 
2030, 60 percent of the population of the world is going to 
live in cities. That bears a lot on the bases that can fight.
    The two things that worry me the most are weapons of mass 
destruction and terrorists. There are about 1,200 known 
terrorist groups that are out there now, and they are seeking 
weapons of mass destruction. There is no doubt that if they get 
them, they will use them against the developed countries.
    Hello congressman, how are you?
    And then second, safe havens. Ungoverned spaces in parts of 
countries that either can't or won't police their own territory 
can be used as bases for terrorists to plan and conduct their 
missions.
    We believe that for that environment, we need a campaign-
quality expeditionary force that is capable of supporting 
combat commanders across the spectrum. Pete Schoomaker laid 
that plan down based on the intellectual foundations that Eric 
Shinseki put in place and we are executing that now. With your 
continued support, we will execute that.
    I would just like to say a couple of words about the state 
of the Army today. I think some of you have heard me say that 
it is out of balance. I will tell you, I wrestled hard to find 
the right words to describe it because it is by no means a 
hollow or broken force. In fact, it is the most resilient, 
competent, professional force that I have seen in my 38 years. 
But we all know we are not where we need to be. The current 
demand for our forces is not sustainable. We can't do the 
things that we know we need to do elsewhere as fast as we would 
like to. We can't sustain the all-volunteer force at the pace 
that we are going on right now.
    We have a plan to put ourselves back in balance, and it is 
centered around four imperatives. Interestingly, military 
construction plays a key role in each of those imperatives. The 
imperatives are sustain, repair, reset and transform.
    The first is sustain. We must sustain our soldiers, 
families and civilians. They are the heart and soul of the 
Army. They are the reason why we are the best force in the 
world. The environment where the soldiers train, where the 
civilians work and the families live is key to attracting and 
retaining the quality men and women that make up this great 
force.
    At the core of our strategy to sustain our soldiers, 
families and civilians, congressman, are two programs: first, 
the soldier family action plan and the second is the Army 
medical action plan. The first is designed to support what we 
call the Army family covenant. It is a restatement of our 
commitment to soldiers and families. It centers on five key 
variables, and all these variables were gleaned from family 
members during my initial months on the job as Sheila and I 
went around and talked to them.
    First, they said standardize and fund the programs that you 
have. We don't need new programs. Just standardize and fund the 
installations. Second, they want improved access to quality 
medical care. Third, they want better housing. Fourth, they 
want better facilities and activities for their children. And 
lastly, they want better employment opportunities and education 
opportunities for their family members and themselves.
    As you can see, some of the facilities that this budget 
funds are key to our implementation of that strategy.
    The second one is the Army medical action plan. That is a 
program basically to develop integrated comprehensive care for 
soldiers. We have made great strides on that. It is primarily 
paid for out of supplementals because of the immediacy of the 
need, and I thank you for your support on that.
    Second imperative is prepare. Now, we have to continue to 
prepare our soldiers for success in the current conflict. They 
are going in harm's way every day. We can't flinch on that 
commitment. We are trying to give them an asymmetric advantage 
over any enemy that they are in contact with.
    To set the conditions for their continued success, we are 
establishing realistic training facilities at installation. We 
have to ensure that they are trained and deployable for any 
mission that the nation requires. There are about $850 million 
in the military construction budget this year for new range and 
training facilities on our installations.
    Third is reset. Reset is about returning soldiers and 
equipment to states where they are ready for additional 
missions. Congress has been very supportive of this, and as a 
result we have made significant strides in steadying the force. 
This MILCON budget really impacts on the quality of 
installations. It is the ability of the installations to take 
these units coming back, reorganize them, fix the equipment, 
give them facilities and quality opportunities for the soldiers 
and families to get to know each other, get them to unwind, 
that is a key element of the MILCON budget here.
    Lastly, transform--and I bring this Field Manual 3.0--our 
new doctrinal manual. We published it a month or so ago. It 
talks about how the Army intends to fight in the 21st century. 
It raises stability operations to the level of offense and 
defense, and that is a big step forward for us. There is a lot 
of good stuff in here, but that is the foundation for our 
transformation.
    As you mentioned, most directly related to this hearing, 
there is an awful lot going on with our basing. For us, 
transformation is a holistic effort. It affects everything that 
we do, and basing is a key element of this. The scope of the 
MILCON and BRAC effort over the next several years is hugely 
significant. We will re-station one-third of the Army by the 
end of 2011. That will impact 380,000 soldiers and family 
members and affect 304 installations.
    So as Tony LaRusso says when he is watching baseball, it 
may not look like much is going on, but there is a lot 
happening out there. [Laughter.]
    So that is our plan: sustain, prepare, reset and transform. 
The $11.4 billion total between MILCON and BRAC plays a 
critical role in allowing us to put the Army back in balance to 
sustain the current fight and to confront the future.
    I would like just to say a couple more things here about, 
one, continuing resolutions have had a gradual, but negative 
impact over time in the last couple of years. We figure that we 
have lost about 4 to 6 months of processing time under MILCON 
because of the continuing resolutions. I believe there is a 
provision in this budget that has come up here that will give 
us additional flexibility. We have such a tightly wound 
schedule with bringing folks back from overseas, moving 
installations with the BRAC, that any delay has a cumulative 
effect.
    And then the second thing is the $560 million of the BRAC 
that was not funded. If we don't get that, we won't be able to 
meet the timelines that have been laid out in the BRAC.
    Mr. Dicks. Is that in the supplemental?
    General Casey. No. It was in the 2008 Presidents Budget.
    Mr. Edwards. We are working on it. I think there is a very 
good chance we are going to strongly fund the BRAC. We used 
$939 million out of BRAC to fund initiatives in military 
construction for the Army and the other services, and then we 
used some of that to fund health care initiatives for veterans, 
but with the general intention of taking a look at the 
supplemental to replace those.
    General Casey. So with that, I just wanted to give you a 
little context of where we are going and how important getting 
the timely funding that is in this year's 2009 budget is to 
accomplishing our objectives. So thank you all very much.
    [Prepared statement of General George W. Casey, Jr. 
follows:]
[GRAPHIC] [TIFF OMITTED] T2754D.061

[GRAPHIC] [TIFF OMITTED] T2754D.062

[GRAPHIC] [TIFF OMITTED] T2754D.063

[GRAPHIC] [TIFF OMITTED] T2754D.064

[GRAPHIC] [TIFF OMITTED] T2754D.065

[GRAPHIC] [TIFF OMITTED] T2754D.066

[GRAPHIC] [TIFF OMITTED] T2754D.067

[GRAPHIC] [TIFF OMITTED] T2754D.068

[GRAPHIC] [TIFF OMITTED] T2754D.069

[GRAPHIC] [TIFF OMITTED] T2754D.070

    Mr. Edwards. Chief, thank you. Again, I just reiterate on 
BRAC, I think this subcommittee has been out front for a long 
time, and I appreciate Mr. Wamp's work on this. It has been a 
bipartisan effort to push that funding.
    I want to get in a round two and round three on some 
specific MILCON questions. But I want to basically understand 
the context in which we are working. While we do a lot of 
construction funding because the training facilities from 
division headquarters to gate headquarters and other factors 
like that, we do focus, as I mentioned earlier, on quality of 
life, as you know.

                                 STRESS

    Tell me, you say the Army is not broken or hollow, just out 
of balance. Clearly, you talked about the stress, and we are 
all aware generally of the stress that has been put on our 
soldiers and their spouses and children as a result of this 
incredible op tempo they are facing in Iraq and Afghanistan. As 
the chief, what factors do you look at to determine just how 
stressed the Army soldier and his or her family is? Is it 
divorce rates? Is it child abuse? Is it suicide rates? Is it a 
combination? Would you give me the criteria that you use and 
then tell me what are those. And if you need to follow up with 
more data later in writing, that is okay.
    General Casey. Sure.
    Mr. Edwards. Tell me what they are telling you.
    General Casey. First, I will tell you there is no one 
thing. We track probably 35 to 50 different indicators from all 
across the force.
    Mr. Edwards. On stress?
    General Casey. On stress on the soldiers and families. We 
measure it monthly. But I will tell you, that has to be 
combined with direct contact with soldiers and families. My 
wife and I do an awful lot of getting out and talking to them, 
and listening to the leaders that are out there with the 
soldiers and families every day. A lot of times I hear, well, 
you know, the anecdotal things I get from soldiers and families 
aren't matched by the data. For example, our retention rates 
are through the roof. It is going exactly the opposite 
direction than you would have thought it is.
    What are the key indicators of a force that is stressed? 
Interestingly, divorce rates are fairly stable. We had a spike 
in 2004, but they have been relatively stable ever since. The 
only element of the force that is kind of above the norm right 
now are female officers and female soldiers. Their divorce 
rates are slightly higher than the norm.
    Desertions are up. AWOLs are up. Again, it is an upward 
trend. It is not at the point where we are overly concerned 
about it, but it is an indicator. Enrollment in alcohol 
counseling is up. Now, that is an indicator of stress, but it 
is also a positive thing in that the soldiers are getting the 
help that they need. Drugs are relatively stable to down, 
especially in-theater. There is not a drug problem that we see 
in-theater.
    As I said, there is a whole range of issues. Recruiting is 
another thing that we look at, and we think we are going to be 
able to recruit about 80,000 for the next several years in the 
active force, and it is a very difficult recruiting 
environment. In 2007, 297,000 men and women enlisted or 
reenlisted in the Army, Guard and Reserve. Now, that is a heck 
of a lot of patriots. They are doing that in a time that they 
know that they are going to go to combat. That says an awful 
lot about the young men and women of the Army.
    So it is something that we watch very carefully and very 
closely, and we supplement it with discussions and anecdotes 
with people.
    Mr. Edwards. I have heard anecdotally from majors and 
captains that in their subjective judgment, we are losing some 
of the best and brightest of our young officers, particularly 
at the major and captain level. I know that requires subjective 
judgment, but based on combat--and I would assume combat 
experience would be critical to the kind of officer you want to 
retain--are there any numbers there that suggest that we are 
either doing well or we are hurting?
    General Casey. The numbers suggest that we are pretty 
steady. It is interesting. I had the Center for Military 
History take a look at the captains losses, which compared 1966 
to 1970 during Vietnam, with 2001 to 2007. What you see is, it 
starts off about the same. It is around 12 percent is the norm. 
In 1967 when we started involuntary second tours in Vietnam, it 
goes like that--the Vietnam line goes like that or stays fairly 
steady. So we have not seen a great protubation in the losses 
of our young leaders.
    Now, that said, we have just sent a team under a brigadier 
general to talk to all these brigades coming back from 15-month 
deployments. Three things, and none of them surprising: 15-
month deployments are too long, especially when it is the 
second or third deployment. The effects of these deployments 
are cumulative.
    Second, 12 months home after a 15-month deployment is too 
short. And the third thing they say is you have to show us some 
daylight. You have to show us that we are going to get a little 
more time at home, or we are not going to be doing this ad 
infinitum. And so we are working very hard on that.
    Mr. Edwards. Thank you, chief.
    Mr. Wamp.

                           RESTORING BALANCE

    Mr. Wamp. Secretary Eastin, when General Casey said 
rebalance the Army, the first question is, is the Defense 
Department completely committed to General Casey's plan to 
rebalance the Army?
    And then for you, General Casey, how will we know when it 
is in balance? Is there anything new in this year's budget 
request that is needed to get the Army back in balance, either 
in the future or this year?
    Mr. Eastin. From an installations perspective, OSD has been 
very supportive of us in what we need, as has the committee, 
and we thank you for that. Without you, we just couldn't do 
this. I look at it with another facet, that we are an all-
volunteer force and we are in the market competing for these 
soldiers every day, whether it be enlisting them in the first 
place or retaining them, because industry offers opportunities 
for them that are similar to ours. If they can go out and get a 
house and a job, and live better with their families, have a 
better quality of life than we have, it is not going to be long 
before that is felt in our ability to retain people or to get 
them in the first place.
    So it all goes to our installations. This is where their 
home is. It is where they live, where they raise their 
families, where the church and school is, where they deploy 
from and train. This is really their life, so what we put 
together here helps us compete in the marketplace, not only 
supporting our soldiers, but getting them to stay in.
    General Casey. I would say I have had great support from 
Defense, particularly the Secretary of Defense. There is clear 
recognition. We see the state of the force about the same, and 
so I have had great support from them.
    What does it look like when we are back in balance? First 
of all, we are back on a sustainable deployment-to-dwell ratio. 
Right now, we actually are spending more time in-theater than 
we are spending at home--15 months in-theater, 12 months at 
home. That is not sustainable. We want to get over the next 
couple of years to a point where we are about double the time 
at home from the time in the field.
    Now, that is not sustainable over the long haul. We would 
like to get to a one-out, three-back, and that we can sustain 
indefinitely. As I said, we are building an expeditionary 
force. To sustain an expeditionary profile, you need to get to 
about a one-to-three ratio. So at least a one-to-two--that is 
part of the balance.
    Second, we want to complete our modular reorganization. I 
think you know that over the past several years we have been 
converting the entire Army into modular organizations that are 
tailorable and that can deploy rapidly. I have seen the power 
of these organizations on the streets of Iraq. I am telling 
you, they are the right way to go for the 21st century.
    We are about 70 percent of the way through that already, 
and that has huge basing considerations, as you mentioned some 
of that, Mr. Chairman, in your opening statement. The old 
brigade headquarters used to have about 70 people in it. The 
new ones have double that, so you need a bigger headquarters 
just to put the guys in.
    We are on track to complete that by 2011. That is when we 
are looking to get ourselves back in balance. We have also been 
rebalancing capabilities inside the Army, taking Cold War 
skills like artillery and air defense, and converting them into 
skills more relevant in the 21st century. There are about 
120,000 folks that are changing roles. We will get that done by 
2011.
    And lastly, completing our BRAC moves by September 15, 
2011. When we get all that done and the dust settles, we will 
kind of look and see where everybody wound up, but that will be 
done. So that is an Army that is back in balance and ready for 
whatever comes next.
    Mr. Wamp. Is anything not in this budget you need?
    General Casey. Between this budget request, the balance of 
the 2008 and the 2009 it is coming.

                          TRAINING FACILITIES

    Mr. Wamp. One other question on this round, Mr. Chairman, 
and that is on this issue of the persistent conflict and 
asymmetrical warfare which you speak to very eloquently in your 
testimony. Most of this is Mr. Murtha's committee, Mr. Dicks's 
committee, but from a facilities standpoint, what are the 
future needs for training your troops for these threats and 
persistent conflicts and asymmetrical warfare?
    General Casey. This doctrine talks about how to conduct 
full-spectrum warfare in a 21st century environment. We have 
had several sessions in the last 2 months about how we 
reconfigure our training facilities to train for full-spectrum 
operations. We have a pretty good program for irregular warfare 
now, and we need to adapt that so that we can do major 
conventional operations full-spectrum. That will involve some 
significant costs, I believe, but we are still in the process 
of developing it.
    The other thing we have to do is get smarter at how we use 
our home station training facilities, because you don't want to 
take these guys who have just come back from 15 months and then 
shoot them out to Fort Irwin for a month or two. You want to do 
as much as you can at home station. So we are part of the way 
through that. That will come right out of this.
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Edwards. Mr. Farr.

                         QUALITY OF LIFE ISSUES

    Mr. Farr. Thank you very much, Mr. Chairman.
    I want to thank you, General Casey and Secretary Eastin, 
for your public service. It is really a delight to have you 
come before the Congress and be part of this incredible team 
that makes up American democracy.
    I couldn't help but think in your remarks that this 
committee has a lot to do with recruitment and retention.
    General Casey. It sure does.
    Mr. Farr. We are dealing with the quality of life. I would 
argue that what you have done in the RCI project on housing 
cannot be matched in the private sector. I don't know of any 
private sector job that can offer housing to their employees 
like the Army can. That housing on the Monterey peninsula is 
worth $1 million a house, and it is the only housing on the 
Monterey peninsula that has neighborhood centers, child care 
centers. There is no other private development that has 
incredible modern neighborhoods and city center growth.
    I think that the Department of Defense is way ahead of the 
private sector on that. I would argue that your access for 
young people to health facilities, to medical care, often is 
way above the private sector's. The salary may not be the same, 
but the benefits are better. I think that we ought to try to 
promote those more for families, that you ought not leave or 
think about leaving and thinking that the grass is greener. I 
know my daughter is trying to buy a house, and there is no way 
that she could; but, if she were in the military, she could get 
some really nice quarters.

            CONSTRUCTION INFLATION ON MILITARY CONSTRUCTION

    I wanted to ask, because there are some budget 
implications, in Grow-the-Army, is there an impact on the 
MILCON projects in the FYDP? It seems like it hasn't been 
addressed within the FYDP.
    General Casey. Again, between the BRAC, global re-basing 
and the money we have received for the growth, we believe we 
are going to be fairly well settled by 2011. The money is in 
fact there. I am sure there are odds and ends that aren't 
there, but we are in pretty good shape.
    Mr. Farr. Here is what is happening on the ground. The 
explosion in student population at the Defense Language 
Institute and at the Naval Postgraduate School, and the fact is 
that there are more families, so you have increased military 
dependent health care needs. We are working with all the 
communities and the VA to address that issue.
    But the first thing we are finding is that the increased 
construction costs are now requiring that the project be built 
down--just shrink them--to stay within budget. Is that the way 
we are going to handle this higher cost of construction and 
higher cost of steel and cement and so on, and just shrink 
buildings that are now not meeting the purpose for which they 
are intended, and not meeting their design criteria? We are 
growing the people, but shrinking the buildings because of 
construction costs?
    Mr. Eastin. In order to continue, we would like to stay 
within our budget for construction costs. Inflation, as you 
know, is a factor. We see it moderating a bit right now.
    Mr. Farr. We adjust for fuel prices. Shouldn't we adjust 
for those costs, too--for construction costs? We are always 
coming in here and giving supplemental money for all the fuel 
costs for the Air Force and for the Defense Department. Perhaps 
we ought to think about that, rather than just building down.
    Mr. Eastin. Congressman, I don't think this is a problem 
throughout the Army. It may be specific to DLI. But throughout 
the Army, we have found pockets of problems like that, but 
nothing overall that we can't engineer around without doing any 
drastic reductions.
    Mr. Farr. I would be interested in hearing how we might 
address that out in California.
    [Clerk's note.--The Army did not provide Congressman Farr 
with a response.]

          COMMUNITY-BASED OUTPATIENT CLINIC AT FORMER FORT ORD

    Secretary Eastin, you talked about sustaining the Army and 
the commitment to soldiers and their families. I am working 
with the DLI and the Naval Postgraduate School, and the whole 
military community out there, and the VA, to build a community-
based outpatient clinic, a CBOC. The Army Presidio and the VA 
at Palo Alto have signed a memorandum of understanding this 
last July to construct the facility. It is my understanding the 
Army Medical Command Madigan intends to provide medical staff 
for the new clinic. I just wanted to confirm on the record that 
that is correct.
    General Casey. I don't know. We would have to get back with 
you on that.
    [The information follows:]

                Staffing New Medical Clinic in Monterey

    The Veterans Affairs (VA) Palo Alto Health Care System and the 
Department of the Army, Western Regional Medical Command (WRMC) at Fort 
Lewis, Washington, have discussed collaborative initiatives to enhance 
the delivery of healthcare services for VA and DoD beneficiaries who 
reside in Monterey, California. To that end, both organizations 
expressed interest in exploring innovative approaches to delivering 
healthcare for the 77,300 eligible beneficiaries who live in the 
Monterey/Santa Cruz area. The WRMC Command fully supports a rapid study 
and analysis of the Presidio of Monterey market which may lead to the 
planning and design of a Joint Use Clinic. WRMC would support the joint 
staffing of a proposed DoD-VA Outpatient Clinic in the Presidio of 
Monterey area.

    Can I just pick up on something you said at the beginning 
and relate it back to what the chairman said? We get questions 
all the time about why are people leaving. Maybe about 12 
percent of the captains might leave. The real question for all 
of us is why are they staying. One, they are staying because of 
some of the health benefits. They are staying because of some 
of the facilities. But primarily they are staying because they 
believe in the values and ideals that the country stands for, 
and they believe we are at war and they are making a 
difference, and they are defending this country. So the 
facilities and the amenities, it is an important part of it.
    Mr. Dicks. Would you yield just on that for a brief second? 
How do you know that? Do you go out and really talk to them?
    General Casey. Talk to them. Right.
    Mr. Dicks. And find out why they are staying in? I think 
that would be very interesting.
    General Casey. I do. I talk to them all the time. Now, we 
are doing a survey here to kind of get a little more 
granularity to it.
    Mr. Dicks. I think that would be a good idea.
    Sorry, Sam.
    Mr. Farr. No, that is a good point.
    Mr. Edwards. Mr. Bishop.

                         FORT BENNING, GEORGIA

    Mr. Bishop. Thank you very much, Mr. Chairman.
    General Casey, can you kind of talk about the Grow-the-Army 
initiative, which requires a corresponding increase in 
barracks, operations facilities, training ranges, family 
housing, child care, dining halls and the other facilities like 
hospitals. I was interested in your comments about health care. 
I, too, am very concerned that our warriors and their families 
have the best possible medical care available.
    I was wondering whether or not you have or if you will add 
to your supplemental request for the medical health of the 
military, which I have a particular interest in at Fort 
Benning, which is being plussed-up by BRAC, and also you have 
returning soldiers coming there, as well as with the Grow-the-
Army, because it is a training base, as well as the other 
training that is already there and that will be expanding.
    Of course, the hospital there is the oldest hospital in the 
inventory, and the construction of a new hospital was moved 
from there to Aberdeen Proving Ground several years ago. So 
they are in bad straits. Can we expect a request from the Army 
to accelerate that at Fort Benning, as well as the other 
military medical facilities that are in great need of 
upgrading?
    General Casey. We are still working the 2009 construction 
budget, so I wouldn't want to comment on that right now. 
However, you raise a good point. There is $157 million or so 
allocated in BRAC for the addition to the hospital, an addition 
to a 50-year-old hospital, and there is something to be said 
for getting about twice that much money and building a new 
hospital.
    Mr. Bishop. Exactly.
    General Casey. So that is something that we are thinking 
about. Before you came, we were talking about--Mr. Wamp and 
myself--he was born at Fort Benning Hospital. I have a sister 
and a son born at Fort Benning Hospital.
    Mr. Bishop. My wife was born at Fort Benning, too.
    General Casey. So there is some affinity. [Laughter.]
    The other thing you mentioned, and it kind of gets to the 
point that I said about there is a lot going on out there, 
because it is not just barracks. It is not just child 
development centers. It is not just headquarters. We are re-
basing one-third of the Army and it is all those things that 
you mentioned coming together in a holistic way. We have been 
working this very closely. The places I have been, I am very 
impressed with the way that communities are tying into the 
installations and working things like road networks and schools 
and things like that. But you are exactly right, it is a 
holistic effort here to do what we are going to do.
    Mr. Bishop. You brought a good segue in that to schools.
    General Casey. I am just trying to work with you. 
[Laughter.]
    Mr. Bishop. That was a good segue because we have a number 
of facilities across the country that will have a great need 
for schools during BRAC implementation, and of course the Fort 
Benning area is one, but there are others across the spectrum. 
We have to deliver because the BRAC account is not really large 
enough to accommodate that, and the impact aid which comes out 
of Education is not big enough to accommodate it. We have a 
tall order and we are expecting those families to start 
arriving in the very near future.
    The communities want to be ready, and we don't want our men 
and women to be concerned about the quality of education that 
their families will be able to get. So is there anything you 
can tell us that will encourage us about the commitment and the 
impetus to try to put that additional money in and make it 
available? Maybe it is the economic adjustment fund?
    Mr. Dicks. We have impact aid that we put in the Defense 
bill, Sanford. We put $35 million in last year. This year, we 
are requesting $50 million for impact aid. This is not 
Department of Education. This is in the Defense bill. So that 
is the place where you want to add that if we can do it.
    Mr. Bishop. Right. The $50 million is probably, if you look 
at all the----
    Mr. Dicks. A drop in the bucket.
    Mr. Bishop [continuing]. Yes, just a drop in the bucket.
    Mr. Edwards. That is not all construction, I don't think, 
is it?
    Mr. Bishop. It is not all construction, no. That is 
everything.
    Mr. Edwards. I was involved when we put that in and I don't 
think that is construction.
    Mr. Bishop. It is not.
    Mr. Edwards. I could be wrong.
    Mr. Farr. We don't have any DoD construction dollars. We 
have been asking for them for years.
    Mr. Bishop. That is what I know. That is why I am prodding 
the chief of staff here if he would help us to try to raise the 
urgency of more funds to deal with these impacted communities. 
They are going to have a real big need, much larger than the 
impact aid account and much larger than the heretofore BRAC 
account. And we probably are going to have to try to work some 
kind of cooperation with all of the committees of jurisdiction 
to see if we can't try to address this pressing need.
    General Casey. What we have been doing----
    I am sorry.
    Mr. Farr. I asked the gentleman to yield.
    What they need is a special bond or revenue bond that they 
can go out and borrow, because they have to do a lot of 
construction. They have to gear up in a hurry, and these are 
the public school systems. It is not in their state planning 
budget because this decision to redeploy was a federal 
decision. So it is an emergency issue that the school district 
needs, and there is no way. The impact aid goes just for the 
ongoing operations and replacement of property taxes.
    Mr. Eastin. There are a couple of programs available out 
there in terms of basically government tax-free bonds that the 
private sector can put together to build the schools and lease 
them to school districts over a 20- or 30-year period. That 
would not help the ultimate payment of it, but it sure spreads 
it out.
    What we have looked at, and Congressman, we were in this 
meeting with various Benning area schools officials a couple of 
months ago, and they had needs for about $160 million. It is 
not all Defense, not all Army children. The real surprise for 
me is the disparate way that impact aid is calculated. If we go 
up to Carson, for example, it is $2,400 per student. If you go 
over to Phoenix City, it is $77 per student. Now, there is 
something missing here.
    What we need to do in having some responsibility for our 
families and the children, is to get with your local people who 
must apply for this, and perhaps get together and figure out 
how to write these applications so that they are all treated 
fairly. Somewhere in Colorado Springs, they figured this out. 
We need to get down there and help you get that impact aid from 
the Department of Education.
    Mr. Edwards. Members, in order of members who showed up 
after we began the hearing, it will be Mr. Dicks, Mr. Crenshaw, 
Mr. Berry and then Mr. Carter.
    Mr. Dicks.

                        FULL SPECTRUM OPERATIONS

    Mr. Dicks. I was reading about this debate within the Army 
about full spectrum operations. You have this colonel up at 
West Point who is saying the only thing the Army can do now is 
counterinsurgency. We are not training people to fight a 
conventional war. Have you entered this debate, general? Are 
you on one side or the other?
    General Casey. I talked about this, and this talks about 
full spectrum operations, about the need to be able to do 
anything.
    Mr. Dicks. Right. But we are not training people right now 
to do that, are we?
    General Casey. In the short term, no, we are not. But what 
I have said here, as units are home for at least 18 months, 
they will begin doing training in major conventional 
operations.
    Mr. Dicks. When do you think that will be? As you look at 
the buildup of the forces, when do you think we will start to 
train people in the full spectrum of warfare?
    General Casey. Just so you know, out at Fort Lewis, I Corps 
has just come back from Korea after they went out and practiced 
an exercise counterattack. So there are elements in the Army, 
particularly Korea and the Pacific, that are still doing full 
spectrum operations training.
    Mr. Dicks. Good.
    General Casey. I think you are going to see as we get down 
the 15 brigades that have been promised in Iraq, what you will 
see is that the time at home will gradually increase. At the 
end of this year and first part of next year, you are going to 
see more and more units having time to re-tweak their 
conventional skills, and over time it will get to the point 
that by 2011 we will have almost as many brigades trained full 
spectrum as you do training to do irregular warfare. So it will 
be a gradual improvement.
    Now, am I concerned about that? Well, yes. But I will tell 
you, I grew up in an Army that never had to fight, so we didn't 
know how to fight. These young men and women out there now, 
they know combat. So the skills to man a howitzer, they will 
come back pretty quickly. That is crew drill. They know how to 
target. We didn't. We had to use long exercises to figure out 
how you target. There are a lot of skills that are readily 
transferable. But that said, we will get this combat-seasoned 
force back in shape for full spectrum operations relatively 
quickly.
    Mr. Dicks. You mentioned the re-set. I was really impressed 
out at Fort Lewis. I was just out there, and saw them doing the 
repair work and fixing the Strykers. They have set up their own 
operation right there to do that, and I didn't realize that. I 
thought they were going to some depot somewhere, but they are 
doing it right at Fort Lewis. I think that is a very valid 
concept if they can do it.
    One idea that came up when we were out there is that maybe 
you need to have a center, maybe do this regionally, where you 
could have a facility to do the re-setting of the Stryker 
vehicles. So that was one idea that came up.
    Another thing I just wanted to mention to you that we did 
out there in terms of quality of life, and this was one of the 
dreaded earmarks I did a couple of years ago. We created a 
computer training program for the youth at Fort Lewis, not just 
the young soldiers, but actually for the children. I went out 
there with General Soriano and also with General Dubik, who 
wrote me a wonderful letter saying this was one of the best 
things he had ever seen. This program trains young kids on how 
to use computers. I think we should do it everywhere if we can 
afford to.
    I visited Fort Lewis, and the parents said to me this is 
the best thing we have ever seen; our kids have improved in 
school dramatically because they now have computer training. 
This was a very small program to get started. It was like $1 
million, and you have sustained it at Fort Lewis, at least, but 
I don't think it is being done anywhere else that I know of in 
the country.
    General Casey. I don't think there is an Army program, but 
I think it is probably being done at other bases based on 
individual initiatives like yours, but it is a great program.
    Mr. Dicks. When you get out there, I will show it to you.
    General Casey. I will. I walked in on my 8-year-old 
grandson and he was making corrections on his paper on the 
computer.
    Mr. Dicks. We didn't have that. We used to have to take it 
back to the class.
    General Casey. I know. [Laughter.]
    Mr. Dicks. Thank you.
    Mr. Edwards. Mr. Crenshaw.
    Mr. Crenshaw. Thank you, Mr. Chairman.

                           GUARD AND RESERVE

    Thank you, general. It is great to see you again. You 
mentioned in those four--sustain, prepare, transform and then 
the reset part--I wanted to ask you about that because 
obviously that is very important particularly as it relates to 
the National Guard because I think the National Guard is being 
utilized a lot more than anybody ever really imagined. They 
have to have equipment. And then you take a place like Florida 
where if it hadn't been for the National Guard during, I guess 
it was 2004 we had some pretty severe hurricanes, and the Army 
National Guard was on the scene doing a great job.
    So you worry about the equipment. In things that I have 
read, there was a time when maybe the equipment was 40 percent 
of what they really needed. I know we funded some of the 
equipment and it is back up, but even today I am told that in 
Florida it is probably 60 percent of what they probably need, 
and I know the different reasons.
    But I guess my first question is, how do you decide when 
you sit down and say here is the money, or this is how much 
money we need, how do you decide where the Reserve component 
fits into your overall prioritization?
    General Casey. Well, to go back to your point that we are 
using the Guard and the Reserve in a much different way than we 
had planned to use them in the past. In the past, we thought of 
them as a strategic reserve that they would be called up and 
have 3 to 6 months to get ready to go, and they would all go. 
And so they didn't need much equipment. We would be able to 
fill them up in that interim period.
    That is not what is happening right now, as you know. They 
are a much more operational force. We, in an active Army of 
547,000 which is where we will be in 2010 when we have finished 
our growth, an Army that size will need to continue to rely on 
the Guard and Reserve for the future.
    So to do that, they have to be equipped and trained almost 
to the same level as the active force. Now, we have been 
looking very closely at the equipment of the Guard and Reserve. 
As you say, Florida is about 60 percent. What we see is the 
Guard as a whole is about just under 80 percent of the 
equipment, but there is stuff deployed with their units. There 
is stuff deployed on other missions. So the governors have 
about 60 percent of the equipment.
    So we established a category of equipment called dual-use 
equipment. I think there are 10 to 13 items that we tracked--
trucks and things that can be used for a wartime mission but 
could also be used in the event of a natural disaster. We have 
put $17 billion over the next 2 years into buying equipment 
that the Guard needs. So that equipment will come in here to 
the Guard and Reserve over the next 2 years.
    And you know that once you get the money, it takes you 2 
years to get equipment in the hands of the unit. So that 
happened several years ago and we should see the deliverance 
here over the next several years. I think we are moving in the 
right direction on this, and we are committed to giving the 
Guard soldiers the equipment they need to succeed.
    The other thing that I think you know, when they go to 
combat, they are going with the best stuff. We made a decision 
back when I was the vice chief to make sure that they had the 
same stuff and the new equipment first. I went out to 
Washington to see the 81st Brigade, and we were in the big 
warehouse the night they were getting it, and they were all 
kind of looking around going, if the active is giving us the 
good stuff, this must be really bad. [Laughter.]
    So we are fully committed.
    Mr. Dicks. You really said it. It is not just that you are 
saying here is a little something, for the Reserve. It is part 
of the Army's priorities. And it sounds like you are even 
talking to the states and the governors.
    General Casey. Very much so.
    Mr. Dicks. Because different states have different needs, 
and you are taking all that into consideration. That is 
encouraging to hear that, that they are not kind of just 
getting what is left over.
    General Casey. No, we just can't get there fast enough.
    Mr. Crenshaw. Let me ask on that same, I read somewhere 
that we are going to give 8,000 up-armored HUMVEEs to the 
Iraqis. I sit on Foreign Ops of this committee as well, and we 
are always talking about whether we can loan them stuff, give 
them stuff, whatever. What goes into a decision like that? Are 
they too expensive to bring them back? Are they worn out? What 
goes into that?
    General Casey. I was on the periphery of this as it came 
through the department, but all those things play into it. We 
have equipment that is over there--to get it refurbished and 
bring it home, all has a cost to it. But probably the 
overriding consideration is the better equipment they have, the 
sooner they will be able to take over and do the jobs 
themselves. So as we worked our way through this, that seemed 
like the best thing to do. I think it was a good call.
    Mr. Crenshaw. And one last question, in terms of all the 
resets, right now we are bringing some of the troops home and 
we have pre-positioning that is going on, but I read somewhere 
we are kind of cutting back, and I don't know if we would call 
that a reset or a re-stock, but we have always kind of relied 
on the pre-positioning equipment to be somewhere and then 
people can come back to the U.S. and----
    But if we are going to slow down the re-stocking of those 
pre-positioning units or equipment, does that delay in any way 
our effort to some of the forward-deployed people, bringing 
them home? Are we still on track?
    General Casey. No, it doesn't impact on our ability to 
bring those folks home.
    Mr. Dicks. But is that going on a little bit? Is that being 
slowed down? Is that an issue of money?
    General Casey. It is not being slowed down. It is all an 
issue of money. You only have so much to use, and in effect you 
spread it out. We have plans to replenish the pre-positioned 
stocks around the world, and I believe the timelines that we 
are on are appropriate.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Edwards. Thank you.
    Mr. Carter.

                               IMPACT AID

    Mr. Carter. Thank you, Mr. Chairman.
    General, I thank you for being here. I had a bunch of 
questions, but the question on impact aid is one I would like 
to go back to. The issue of construction dollars on impact aid 
since I have been in the Congress, and I have been trying to 
get construction dollars for impact aid, and I have been told 
no, no, and hell no.
    So I want to know how you feel about that. In light of the 
fact that the Army is so (INAUDIBLE) today. I will use an 
example, and you know how upset I am about the fact that I 
thought we were supposed to have 49,000 troops at Fort Hood and 
we are only going to have 42,000, but we will actually build 
schools for 49,000.
    General Casey. Congressman, we are planning to have 49,000 
by 2013.
    Mr. Carter. No, 49,000 civilians and troops. I don't want 
to get into that debate. I am not getting there. The point is 
that if you are a school district and you are trying to stay 
ahead of the game, which I will say that Killeen and Copisco 
School Districts have done, they are ahead of the game, had the 
schools in place when the troops got there. You have to go to 
your people and you have to get a bond issue passed, and you 
have to build that school, and you have to build it in record 
time most of the time.
    Now, they need some help on that. That puts such a burden 
upon their taxpayers it grows and grows and grows. They know 
the benefits for the community so they don't complain, but if 
the Army then cuts back and you have schools that don't have a 
use, the saddest thing for a school district is to be a 
declining school district. Talk to Spring Branch in Houston, to 
where the children population have moved out of your district 
and now you have your major capital investments with nobody in 
them. You have to dispose of them and they are worthless.
    The Army should not be in a position of putting these 
communities around there in that particular for a seesaw. I am 
not saying you should (INAUDIBLE) the whole plan, but there 
ought to be a creative package, and I will look into this 
suggestion that you have. I know that we have done housing 
creative packages both in the military and in low-income 
housing because I worked at this for half my life. We could 
come up with a package that would secure this, and I would like 
for us at least to start thinking about it.
    That is all I want to say about that, but he is right. 
Impact aid is necessary for construction and we don't have it, 
and we need it.
    [The information follows:]

                               Impact Aid

    Impact Aid funds are an important source of revenue for school 
districts that educate federally connected children. Managed by the 
Department of Education, Impact Aid is used by local education agencies 
to compensate for the loss of local property tax revenue due to the 
presence of tax-exempt Federal property or to offset increased 
expenditures due to enrollment of federally connected children.
    The Army in coordination with the Department of Defense Office of 
Economic Adjustment and Department of Education conducted a series of 
installation visits to provide Impact Aid stakeholders with on-the-
ground knowledge of issues surrounding mission growth, improve 
communications among all partners, and identify gaps/lags in 
capacities. In December 2007, there was a growth summit held in St. 
Louis, Missouri, where participants shared local growth experiences, 
including techniques or services that would help affected communities 
respond better to anticipated growth.
    The Army does not build schools for its school-aged dependents; 
however, it shares lessons learned from communities helping themselves 
to find creative funding opportunities for school construction. The 
Army is providing projections of school-aged dependents to surrounding 
communities for planning required facilities. The Army will continue to 
work with local schools and partner organizations to find creative 
solutions for the often-unique school transition and education issues 
that mobile military dependent children face.

                               MORTGAGES

    Now, has anybody looked into what is going on with the 
mortgages? Has the Army been considering this mortgage crisis 
that we seem to have in this country right now? Because I am 
concerned about our soldiers. It is bad enough. There may be 
some of our soldiers that purchased some of these houses that 
we got for them with these ARMs.
    I don't know what kind of financing they used, but it is 
bad enough to be a guy with an ARM mortgage living in the 
United States right now, but to be over in the middle of a war 
and having mama face the possibility of foreclosure has got to 
be a real crisis on the family. Is the Army doing anything on 
the issue of the mortgages as it relates to the housing that we 
have so effectively created for our soldiers and we are so 
proud of, because we don't want these guys foreclosed on.
    General Casey. I started hearing stories about this a 
couple of months ago. I have asked our personnel director to 
see what abilities we have, or what we might do to help them 
out. I have not heard back yet.
    Mr. Carter. It would be great if we would start trying to 
put our heads together and coming up with a program 
specifically driven for the Army, because they have certain 
flexibility they could deal with, but then sometimes the 
(INAUDIBLE) and one of them is being deployed.
    General Casey. The other thing I have to do is try to get 
arms around the scope of the problem. We have anecdotal 
reports, but I can't really say----
    Mr. Carter. And I know there are some who say the relief 
act is out there and that is some relief temporarily, but it 
ultimately catches up with you. So I am raising that flag and I 
am glad that you are on top of it because that is important.
    [The information follows:]

    The Army is not proposing any legislation for mortgage relief; 
however, Senator Kerry introduced S. 2764, as an amendment to the 
Servicemembers Civil Relief Act, to enhance protections for 
servicemembers relating to mortgages and mortgage foreclosures, and for 
other purposes.

    Mr. Edwards. Thank you, Mr. Carter.

                              HEALTH CARE

    We will start round two.
    Chief and Secretary Eastin, I would like to talk about 
health care, and just to follow up on Mr. Carter's comments, I 
will just say for the record that I was surprised, as was Mr. 
Carter, as was the local community, as were a lot of people, to 
find out that the end-strength for Fort Hood, which we all 
thought we had been told was going to be 49,000, is actually 
only going to be 42,000. What happened is they took 6,000 or 
7,000 civilian employees that I think are already there and 
threw that into the mix. That was never made clear to the 
public, to the congressman that represents Fort Hood, Mr. 
Carter, the congressman who represented it for 14 years in the 
House----
    Mr. Carter. Would the gentleman yield for just a moment?
    Mr. Edwards. Yes.
    Mr. Carter. I just got handed a note that said that we are 
now projecting maybe 45,000 or 46,000.
    Mr. Edwards. So the numbers could be changed.
    Mr. Carter. Yes.
    Mr. Edwards. It is not inconsequential to military 
construction, because if you do have a major installation that 
in BRAC was listed as the number one installation for potential 
expansion, it is not fully utilized, and that means we are 
spending more elsewhere. But we will follow up on the details 
on that.
    Mr. Eastin. Incidentally, we looked into this, where this 
came from, and our number is still 49,600.
    Mr. Edwards. For soldiers?
    Mr. Eastin. Yes, soldiers. So we need to get our heads 
together and figure out where the heck this came from.
    Mr. Edwards. We talked to General Cody.
    Mr. Carter. I talked to General Cody on the phone less than 
a week ago, 2 weeks ago.
    Mr. Eastin. We will look into this thing.
    Mr. Edwards. If we are not careful, Congressman Dicks will 
take any extras out at Fort Lewis, so we have to get that 
resolved.
    Mr. Dicks. If they need a home, we will take care of them. 
[Laughter.]
    Mr. Edwards. Let me ask you, and I will stick to the 5-
minute rule here in the second around, on defense health care 
in terms of long-term planning, it seems to me that neither the 
previous administration or this one has put together a long-
term plan for recapitalizing the hospitals, particularly given 
growing the force, BRAC, and global repositioning.
    You have installations such as Fort Benning that has an 
ancient hospital. You have Fort Riley and others where you are 
going to have nearly double the number of soldiers there, and 
yet it is in a relatively rural area so the local health care 
providers don't have the capacity to absorb that increased 
demand.
    Is there a long-term capital investment plan for 
recapitalizing and modernizing the Army health care system? I 
think we may be talking about literally billions of dollars, 
not an earmark we can take care of, but literally $2 billion, 
$3 billion, $4 billion or $5 billion or more. Is there a plan 
on paper anywhere for the future of recapitalization and 
modernization of the Army hospital system?
    Mr. Eastin. The construction budget that Defense Health 
Affairs runs, which is not the Army, though they have some 
interest in it, is give or take about $350 million a year.
    Mr. Edwards. We will never catch up at that rate.
    Mr. Eastin. Well, tell me how long it takes to get to the 
$4 billion or $5 billion doing it $350 million at a time. It 
needs I think a re-looking right now, but I don't know what it 
is. There is a heck of a lot of recapitalization to be done out 
there.
    Mr. Edwards. It reminds me a lot of the situation a decade 
or so ago when this Subcommittee on Military Construction 
looked at the military housing situation and saw we would never 
dig out of the hole. We were getting deeper and deeper, and 
that is where this subcommittee was very involved in the RCI 
program.
    Mr. Eastin. The good thing about is that while the 
facilities are old, they are all in good shape and first-rate 
health care is delivered.
    Mr. Edwards. Right. Each year, we hear from the top 
noncommissioned officers and for 2 or 3 years running, child 
care was the number one quality-of-life concern unmet need. 
This year, it seems like health care maybe beat out child care. 
So anecdotally and also listening to these great leaders, the 
health care issue is becoming more difficult, and we would like 
to work with you and the DOD health folks.
    General Casey. One-third of our hospitals are over 50 years 
old. One-third are between 25 years old and 50 years old, and 
the rest are relatively new. So you are right, and we know what 
we need. I think I am like Secretary Eastin, to say that there 
is a recapitalization plan is probably too strong.
    Mr. Edwards. What are you going to do at Fort Riley? And I 
will stop with that. With such a relatively rural area and 
nearly doubling the number of soldiers there, how are you going 
to take care of the health care needs at Riley?
    General Casey. I don't know of specific plans.
    Mr. Eastin. I don't either, other than I know that Defense 
Health Affairs is working with our surgeon general on these 
very issues. I don't know the numbers specifically, but I could 
follow up with you on that.
    [The information follows:]

                    Health Care Needs at Fort Riley

    We recognize that the Fort Riley military community will grow 
beyond its current medical support capability. The Army is working 
closely with all stakeholders to develop both infrastructure and 
staffing solutions that will ensure Soldiers and family members at Fort 
Riley receive timely, high-quality care that meets or exceeds the 
Military Health System standard. Facility planning projects have been 
developed and are being submitted as part of the medical military 
construction program development. These projects include new 
construction as well as Sustainment, Restoration and Modernization 
projects that will keep the current structure operating safely and as 
efficiently as possible until a new facility is completed.
    The biggest challenge we face is finding and retaining health care 
providers who either work at Irwin Army Community Hospital or join the 
managed care support network as a network provider in that area of 
Kansas. Additionally, as a result of both the continued frequency of 
deployments of military providers and the enhanced emphasis on staffing 
Wounded Warrior care organizations, military health care providers are 
becoming less available to assign to our military treatment facilities.
    A range of options will be used to complement and enhance Fort 
Riley's need for additional health care providers. We are working very 
closely with the TRICARE Management Activity and the local medical 
community to address Fort Riley's medical staffing issues. As of April 
9, 2008, we have contracts in place to locally hire nine additional 
providers and 27 providers across the Great Plains Regional Medical 
Command to address the health needs of Soldiers and their Families. We 
are reviewing manning and staffing policies to determine if more 
military providers can be assigned permanently to Fort Riley. We are 
consulting with the Managed Care Support Contractors to improve the 
availability of care in the network. We are meeting with local 
community leaders to explore potential partnerships with civilian 
provider groups and hospitals to make more care available locally. We 
will temporarily assign providers to Fort Riley until a permanent 
solution is found.

    Mr. Bishop. Would the chairman yield?
    Mr. Edwards. Gladly. I know the gentleman has been very 
involved in defense health issues.
    Mr. Bishop. Yes. You acknowledge there is a need, but what 
we want you to do is to ask us and tell us. You just kind of 
keep pushing it off into the future and you are very indefinite 
about it. If you have a need and you need several billion 
dollars, say, hey, we need this, and then it becomes incumbent 
on us to try to help you get your need satisfied. But if you 
just sort of mumble and push it off, and say, well, it is 
something that we are going to look at and we will talk about 
later, well, we are talking about next year and the end of this 
year.
    We are talking about these (INAUDIBLE) under BRAC. And we 
are talking about the return in the next couple of years of a 
lot of these soldiers that are deployed. Of course, their 
families have the needs in the communities where these bases 
are located. We don't get to do this but once a year, and we 
need you to help us.
    Mr. Eastin. I don't want to be mumbling and pushing it off, 
but it is under defense health care, who are the people who ask 
for this sort of thing. We can tell you we need these things, 
and it is fairly obvious that we do.
    Mr. Bishop. So you can tell them that you need it, too. So 
we need to talk to defense health care, is what you are saying.
    Mr. Eastin. But I am good at mumbling and putting it off. 
[Laughter.]
    Mr. Edwards. Chief, any comments?
    General Casey. The issue is how fast we recapitalize the 
facilities because the facilities are well maintained. They are 
accredited by the joint commission. They are good facilities, 
but they are old facilities. So that is the fight that we have 
inside the building about when do we need a new facility and 
when do we need to refurbish an old one.
    Mr. Bishop. Well, sir, they have a good plan at Fort 
Benning, for example, but when they have to shut down the 
operation of a hospital for 2 days for them to repair leaky 
pipes and all of the water has to be shut off, and they have to 
have an emergency plan to deal with the 2 days that they are 
repairing those pipes because they are 50 years old, we have a 
problem. While they perform well in terms of providing the care 
under those circumstances, we need something done soon to try 
to address that because it just doesn't make sense when we have 
all these people that are going to be coming there, to have to 
shut down the hospital for 24 hours or 36 hours to repair the 
water pipes.
    [The information follows:]

      Martin Army Community Hospital Replacement, Fort Benning, GA

    Recapitalization of Martin Army Community Hospital is a priority 
for the Army Medical Department and has been included in the Department 
of Defense Medical Military Construction (MILCON) Future Years Defense 
Plan for the past five years. One of the oldest hospitals in the Army 
medical inventory, it is representative of facilities constructed in 
the 1950s that now require modernization and replacement. The projected 
population increase at Fort Benning, as a result of the 2005 Base 
Realignment and Closure (BRAC)-directed relocation of the Armor School, 
puts a tremendous burden on that facility's capability and its 
infrastructure.
    The Army's FY09 BRAC program includes the construction of expanded 
capabilities for the hospital, and plans are being developed to meet 
that need.
    Although complete replacement at a new site is the ideal solution, 
funding in the DoD Medical MILCON program is limited and competes with 
other important priorities. This present two-phased approach is first 
to add to the existing medical complex structure with the President's 
requested FY09 BRAC funds, followed later with replacement and 
demolition of the original Martin Army Community Hospital using Defense 
Medical MILCON funding. This phased plan results in total facility 
replacement by 2015 or later. The construction cost for complete 
replacement at a new site is estimated at $505 million. If additional 
DoD Medical MILCON resources were made available in FY09 (including $32 
million of Planning and Design funds), the currently programmed $157 
million of BRAC funding could be redirected against the cost of total 
replacement, and a full replacement project could be under contract by 
June 2009. The soonest a new hospital could be operational, assuming 
all funds were provided in FY 2009, is 2012.
    Relocating Martin Army Community Hospital to a new site is the best 
solution. Not only will it provide a premier facility for a critical 
population of Army trainees, cadre, and Family members, it will also 
create the opportunity to provide services to deserving veterans. Space 
on the campus or within the facility could be offered to the Department 
of Veterans Affairs to establish a Community Based Outpatient Clinic 
for their beneficiaries, leveraging the many capabilities that a new 
Martin Army Community Hospital will offer.

    Mr. Edwards. We need a long-term plan, and we would like to 
work with you and the defense health folks to see if we can put 
one in place and then work hard to get it and find the funding, 
because clearly there is a need there, and we need to do that. 
Thank you.
    Mr. Wamp.

                           RECRUITMENT GOALS

    Mr. Wamp. General Casey, I put little stock in media 
accounts, especially on matters of war and peace, but USA Today 
wrote a piece on Monday about these conduct waivers in order to 
meet recruitment goals, and whether or not we are lowering 
standards. I want you just to speak to that issue. Are there 
any tools or incentives that Congress can use to help you meet 
recruitment goals and maintain your standards?
    General Casey. The funding that is included in the 
supplementals in the base program is sufficient for us to meet 
our recruiting needs, and we are meeting them. In this fiscal 
year, we are over our objectives for the year and we fully 
expect to meet all objectives for the Army and the Guard and 
the Reserves. So that is going on well.
    The question of quality always comes up. We are meeting all 
of our quality standards, with the exception of high school 
diploma graduates. The standard that we want to be at is 90 
percent, and we are probably in the low 80s right now and we 
will continue to work on that.
    You mentioned the waivers. The waivers are something that 
we look very, very carefully at. For a soldier to get a waiver, 
he is looked at and his file is looked at by about 10 different 
people. So it is scrutinized. What we have found is that once a 
soldier goes through that process--and we have studies that 
back this up--he is more likely than a soldier without a waiver 
to get a valorous award, to get promoted, and they stay longer.
    Now, they do have a slightly higher discipline rate, but 
they are good soldiers, so it is a good process and we are 
satisfied with the quality of young men and women that are 
coming into the Army.
    Mr. Wamp. Good. That wasn't in the story that I read.

                         FISCAL ACCOUNTABILITY

    Now, I will throw you a curve ball, which is just an 
interest I have. We have been concerned at this subcommittee--
the chairman and myself and others--about the increase in 
funding out of this subcommittee, particularly as it goes to 
the VA and the accountability that follows. Actually, there are 
some news stories out about the lack of accountability, and 
frankly, misuse of credit cards and accounting, and the 
inspector general writes up the VA. So the VA is going to have 
to answer to that, and we need to do all we can to hold them 
more accountable.
    The Pentagon, especially at a time of war, receives a whole 
lot of money without much accountability because we trust the 
men and women in uniform, and rightly so, but General Casey--37 
years, a brilliant career--what can you tell this subcommittee 
that you think needs to be done prospectively to try to get 
more bang for our buck, to be more efficient, to be more 
accountable at the Pentagon to reduce waste?
    Most of the books I read, I want to read, but I read that 
book 3 years ago about inside the Green Zone, and it was an 
ugly expose of the way we procured and spent money early in 
Iraq. I know we have learned a lot of lessons, but actually 
anybody here would be reticent to fund big increases for the 
military going into that theater if they had read that book and 
thought half of it was true. What can you say to that after 37 
years of seeing this up close and personal?
    General Casey. Well, first of all, we all work very hard to 
be good stewards of the resources that we get from Congress and 
the American people. What I have seen and experienced is that 
as a country, as a nation, this war on terror has caused us to 
have to adapt the regulations and the policies and the 
procedures that really drove us through the decades of the Cold 
War. The stuff is just different.
    As I in my former position, looking at trying to apply 
peacetime contracts regulations in a war zone, it was 
difficult, if not time-consuming. So we have adapted and grown 
over time, and we had some contact with correcting challenges 
that we discovered in the Army and Kuwait. We have stood up a 
contracting command and put a two-star general in charge, and 
we organized that. But it is a long-term fix because we have to 
train sergeants and warrant officers and leaders to manage 
these huge contracts.
    The other piece of it is I have watched large institutions 
when they are faced with incremental change tend to try to do 
the same thing, increasing the mission with the same number of 
people and resources. That doesn't always work. It usually 
backs up until it breaks. So we are trying to be proactive and 
identify where we are seeing increasing missions and getting 
the resources out there before there is a problem.
    But with what we are doing, and as I said, we are stressed, 
it is a constant fight. But we all go in with the commitment 
that we need to be good stewards.
    Mr. Wamp. General, I thought about you a minute ago when 
the secretary was talking about the hospitals that had been 
around for a long time, but were still in really good shape. So 
I thought of you when he said that. [Laughter.]
    General Casey. Thank you, Mr. Chairman. [Laughter.]
    Mr. Edwards. Mr. Farr.
    Mr. Farr. Thank you very much, Mr. Chairman.

           STABILITY, SECURITY, TRANSITION AND RECONSTRUCTION

    General Casey, last week we had General Ward in here 
talking about the whole structure of setting up AFRICOM. I 
reminded him of General Abizaid who was here sitting in the 
chair many years back, indicating that from his command post 
and from his background and cross-cultural training and 
learning Arabic, that America really couldn't establish peace 
until America could cross the cultural divide.
    I was impressed by the fact that OSD issued a directive 
back in 2005 called the Military Support for Stability, 
Security, Transition and Reconstruction. In that directive, 
they make stabilization and reconstruction operations a core 
competency equal to that of combat operations. In the QDR, it 
talks about the military's increased emphasis on collaborative 
and collective capability to plan and conduct stabilization, 
security and transition and reconstruction operations.
    The Army's posture statement says the Army is promoting 
stability and supporting reconstruction. How are you 
implementing this directive?
    General Casey. I think this is a prime example of how we 
have taken that directive to heart. I mentioned this earlier in 
my testimony, but the core sentence in this whole document lays 
out the operational concept. It says Army forces combine 
offense, defense and stability operations simultaneously as 
part of an interdependent joint force to seize and retain and 
exploit initiatives and achieve decisive results.
    Mr. Farr. How do you implement it? How do you change your 
training programs? What are you utilizing to do that?
    General Casey. I mentioned that earlier. This is a start 
point. I have just had two recent conferences about how we 
adapt our training centers to do that. This is already being 
taught in our schools at the captain level, at the major level, 
and at the lieutenant colonel level, because it is an education 
process.
    Now, it is interesting. Someone mentioned the debate that 
is going on. I hear a lot about there is a debate going on 
within the Army about the old generals who want to go on 
fighting the Cold War and the young bucks that are coming out 
of Iraq and Afghanistan. I have to tell you, I don't see it. 
Nobody talks to me about that. You know, people understand, and 
most of the generals that have been there, we get it. It is in 
here in writing and we are moving out to implement it.
    This doctrine here will cause us to change our 
organizations, our materiel, our training, our leader 
development--everything we do.
    Mr. Farr. What was interesting about the AFRICOM briefing 
is that General Ward talked about that the new approach to 
security issues, including non-DOD officials in the senior 
chain of command--I think this is really on target. I lived 
overseas and learned to live as a minority in another land, 
learning their language and culture. It was an eye-opener 
because it really allows you to have a different lens from what 
you think the solution to the problem is.

                        NATIONAL GUARD EQUIPMENT

    I represent Fort Hunter Liggett, which is a big Army 
Reserve training base. The Guard uses it a lot, too. One of the 
questions I keep getting from them is about the equipment 
readiness for the Guard and Reserve. You talked about rehabbing 
the equipment, but the concern there is that we are leaving an 
awful lot of our equipment in-theater, in Iraq and Afghanistan. 
I watched base closures and you left a lot of material behind 
in base closures that didn't make any cost-effective sense to 
move it to another place, and that was to the benefit of the 
local community. I am sure that some of this equipment needs to 
be left for Iraq and Afghanistan forces.
    But what do you do to replenish that equipment in the 
shortfall? And how can that shortfall effect respond to the 
Guard's need, particularly whether they have enough equipment 
to respond to domestic emergencies.
    General Casey. A couple of things on that, Congressman. You 
may have some specific unit in mind, but by and large the 
perception that the Guard, particularly, left a lot of their 
equipment in Iraq and that is why they are short----
    Mr. Farr. No, the Army is, not the Guard.
    General Casey. That the Army is short?
    Mr. Farr. Yes. Well, don't they get a lot of used equipment 
from the Army, right?
    General Casey. We have really changed that. As the mission 
of the Guard has gone from being a strategic reserve called on 
when the boom goes up for the big one, and they got a lot of 
hand-me-downs. But now we are using them as an operational 
force. They are deploying right now about once every 3\1/2\ 
years. That is more than they can stand, too.
    But we shifted our equipment strategy back in probably 
2003, to ensure----
    Mr. Farr. Why are they so short, then, at the local level? 
Why is the equipment not there?
    General Casey. Because it takes 2 years from the time we 
get the money from Congress until equipment is in the unit, and 
there is $17 billion worth of equipment in 2008 and 2009 that 
is going into these Guard and Reserve units. Right now, the 
Guard has 80 percent of their equipment, but between stuff that 
is deployed with their units and deployed on other missions, 
only about 60 percent of that equipment is available to the 
governors if there is a problem.
    I wish I could get it there faster, but the money is there, 
the equipment is bought----
    Mr. Farr. So you think this is a gap that is going to be--?
    General Casey. I do. I think it is going get substantially 
addressed here in the next 2 years.
    Mr. Edwards. Thank you, Mr. Farr. A lot of us get those 
questions.
    Mr. Bishop.
    Mr. Bishop. Pass.
    Mr. Edwards. Okay.
    Mr. Carter.

                          REDUCED TOUR LENGTHS

    Mr. Carter. We expect, I think tomorrow, an announcement on 
this going back to a 12-month deployment. I was wondering if 
you had any information about that plan and how it would affect 
the units that are already in-theater? Do you have any idea 
what that is going to do?
    General Casey. I am not exactly sure what the plans are to 
announce the change. However, we would say that once there is a 
return (INAUDIBLE) in July, that then we (INAUDIBLE). We will 
see how the policy is announced, but after that (INAUDIBLE) we 
should be able to go to 12 months, but I don't want to pre-
judge anything.
    Mr. Carter. It just has been on the radio and television up 
here in Washington that tomorrow President Bush is going to 
announce that they are going back to 12-month deployments. Now, 
maybe that is not true. Maybe that is speculation, but that is 
what they said. I was just trying to figure out, we have people 
in transit going over right now. We have people already in the 
fight over there right now, and of course they want to know. Or 
is everybody still on 15 months? Are the new guys deployed and 
going in at 12 months, and the other guys staying at 15 months? 
I just thought you might know.
    General Casey. I would suggest to you that if that is 
announced, it would probably be anyone deploying after a 
certain date.

               BASE REALIGNMENT AND CLOSURE PRIVATIZATION

    Mr. Carter. Okay. Conversations with ACSIM, Mr. Eastin, his 
approach led us to believe that Fort Hood would be a location 
for a BRAC privatization project--in fact, right here in this 
room. However, we see now that Fort Hood was ultimately not 
selected for this program. What is the basis for that decision 
and how much of it came from the BRAC-related recommendations? 
Or can you expound upon why they were ultimately not selected?
    Mr. Eastin. We put this privatization into three groups, 
and I believe Fort Hood is in the second group.
    Mr. Carter. I just saw the names last time we had a 
hearing.
    Mr. Eastin. It doesn't have anything to do with BRAC. This 
is just a program we are putting together. So you will be up 
there soon.

                        ARMY FOOTPRINT IN EUROPE

    Mr. Carter. One more question, if I have time, Mr. 
Chairman.
    What are the long-term plans for the Army footprint in 
Europe? With the expected draw-down from Germany being 
reversed, are there any MILCON needs that we need to address 
quickly in light of the decision to extend our presence in 
Europe?
    General Casey. I think you know that those two brigades 
have been delayed, but it is a delay, it is not a halt, and we 
expect them to return sometime in 2012 or 2013.
    Mr. Carter. The reason I asked is, when I went over with 
Chairman Walsh a couple of years ago, we went and looked at 
needs in Europe, and there were needs, but because we were 
going to have draw-down in Europe, they weren't addressed. I 
just wondered if there is anything this committee needs to know 
about in Europe since those brigades are going to be there, now 
it looks like a couple more years.
    General Casey. I don't have any specific issues from the 
USAREUR commander there about what he needs, but I can tell you 
as a division commander there myself, I had a hard time getting 
money to fix my facilities because they were always going to 
close. I don't have anything specific----
    Mr. Carter. Thank you, Mr. Chairman.
    Mr. Edwards. You bet. Thank you, Judge Carter.
    Mr. Berry.

                       CHILD DEVELOPMENT CENTERS

    Mr. Edwards. Chief, let me ask, this committee took the 
initiative last year to add a significant amount of money for 
day care centers because repeatedly, as I addressed earlier, 
that has been a top priority mentioned by the noncommissioned 
officer leaders and others as well.
    Again, I know you and Secretary Geren have carved out 
quality--as one of the areas that you want to really make a 
lasting push over this last year. I see what the administration 
has asked for a significant increase in the number of day care 
centers in this budget, and I assume that came from your 
offices. If we build more day care centers, does the Army have 
the means and the manpower and the funding to open up those and 
to operate them? Do you have enough personnel? If we build more 
day care centers, can you run them?
    General Casey. It is location. We have to take a look at 
it. By and large, I think the answer probably would be yes, but 
depending on where you are and having qualified folks to run 
the facilities can be a challenge.
    But I would just thank you for what you have done. We have 
had a noticeable, noticeable by families, improvement in the 
number of child care facilities that are out there. I have to 
say we are in pretty good shape.
    Mr. Edwards. Especially in times of such high deployment 
rates, there are a lot of single moms or dads back home here in 
the United States and they need that extra care.
    General Casey. And part of this family covenant and the 
money and additional resources we put against it, we have been 
able to waive the registration fees. It doesn't sound like 
much, but it makes a big difference for a young parent.
    Mr. Edwards. Is day care funded? Do the troops get 
subsidized?
    General Casey. We don't subsidize the troops. We subsidize 
the facility. The charges are based on the amount of money the 
family has. We cap the lowest level at about just under $200 at 
the lowest level. That is the most they can pay a month.
    Mr. Edwards. What would a sergeant pay? Do you have any 
idea?
    General Casey. I think they are the next level, and it 
probably gets around $300 a month. I better check that.
    [The information follows:]

                       Child Care Fees for an E-5

    The Army is committed to making child care affordable for Soldiers 
and their Families. Each year the Department of Defense provides 
guidance on child care based on total family income, not rank. Fifty 
percent of married E-5s, with a working spouse, pay an average of $354 
for one child per month. A single E-5 with one child typically pays 
$295 per month, while a married E-5 with two children and a working 
spouse may pay as much as $830 per month, depending on the Soldier's 
time in grade and their combined income. Local command options to 
further address affordability include multiple child discounts up to 20 
percent, and case-by-case fee reductions for financial hardships.

    Mr. Edwards. Okay. Let me also ask, do you know, or could 
you tell us your best estimate of when all the global force 
BCTs will have been stood up?
    General Casey. In fiscal year 2011.
    Mr. Edwards. In fiscal year 2011.
    General Casey. That is when we are planning to be done. And 
that is a big component of getting us back in balance, because 
that will give us a total of 48 brigades for a total increase 
of 74,000 soldiers and that is a pretty potent force.

                                 KOREA

    Mr. Edwards. Okay. And one last comment to you, chief and 
Secretary Eastin, let us know if we can work with you vis-a-vis 
Korea. We had General Bell in recently and we had a long 
discussion about the problems of housing in Korea. It is not a 
new story. We were aware of that before General Bell came. But 
it has just bothered me for several years about the policy. We 
made the decision about not investing more resources in the 
Republic of Korea, and only 10 percent of our married soldiers 
are accompanied there.
    I do understand in the years when we were at small and 
remote outposts, and within the range of artillery in the DMZ 
area, it might not have made sense bringing families. But as we 
are consolidating farther away from the DMZ, especially given 
some of these soldiers who may have just come back from a 
second deployment in Iraq, and they get sent to Korea, it just 
seems to me that more than 10 percent of them ought to have the 
right to have their families accompany them.
    We asked General Bell, what would be your best estimate? If 
we had all the facilities--education and housing there--what 
percent would want to bring their families to Korea? He 
estimated 70 percent. So if that is approximately correct, by 
policy, by lack of investment in housing and quality of life in 
the Republic of Korea, we are basically forcing 60 percent of 
the married soldiers going to Korea to live apart from their 
families. That just doesn't seem right to me.
    I know this isn't easily solved, but it has been something 
that has been around for a long time, and any thoughts you have 
about what we can do now, today, or in the months ahead, we 
would sure like to work with you on it.
    Mr. Eastin. We have $125 million in MILCON to build 
basically 216 units. That is give or take, 9 percent or 10 
percent of what we need there. We are working on a program now.
    Mr. Edwards. When you say 9 percent or 10 percent of what 
we need, does that assume what percent would be accompanied?
    Mr. Eastin. General Bell had asked us for 2,400 units to 
solve his immediate needs.
    Mr. Edwards. What percent of accompanied families would 
that have assumed? Any idea?
    Mr. Eastin. I think that is somewhere in the 60 percent 
range as planned, because at one time he talked about 2,800 and 
then 4,000--the numbers move. Some of our families live off-
post right now by choice. They are not accompanied tours, but 
they are living in Korea.
    But our goal at Humphreys is right now to build about 2,400 
additional units. What we are trying to do is encourage the 
private sector to do that for us, and we would then support 
them with overseas housing allowance. We have I think a fairly 
decent response. We had a forum over there 6 weeks or so ago. 
It was attended by 550 people, all of whom, I might add, stayed 
after my speech, so it couldn't have been that bad. [Laughter.]
    But there is a tremendous amount of interest and a 
tremendous amount of interest of the financial community, which 
is how this transaction is going to be made. You can't build $1 
billion worth of construction if you don't have the $1 billion. 
With that kind of money out there, we have gotten an 
exceptionally large amount of interest in this. We intend to go 
out with a request for proposals probably in mid-May. We will 
know at that time where we stand, but it would be my goal to 
get this thing awarded, sometime either late in this fiscal 
year or early next fiscal year. But it will be a different way 
of doing things over there.
    Mr. Edwards. Thank you for your efforts, and let's continue 
working together on this.
    Mr. Wamp.
    Mr. Wamp. Mr. Chairman, I have no more questions.
    Mr. Edwards. Okay.
    Mr. Farr.
    Mr. Farr. I have one suggestion and observation and then 
one question.

           SECURITY, STABILITY, TRANSITION AND RECONSTRUCTION

    I really appreciate your response to that last line of 
questions about this stabilization and reconstruction training. 
The Naval Postgraduate School has created the first course in 
the United States. The Navy is following the Army's lead in 
creating foreign area officers, and is doing that training at 
the Naval Postgraduate School now, because of the DLI, the 
Defense Language Institute which the Army operates.
    What is evolving in the military community there is this 
whole new curriculum and training. I just urge you sometime to 
take a look at all this. It is really coming together. It all 
starts somewhere. The curriculum, it has been testing it for 
several years now. NPS also has a Center for Stabilization and 
Reconstruction studies, and a lot of peace operations gaming 
takes place.
    The Navy has sent several officers to get master's degrees 
in that area. One of the complaints has been--and you might 
want to look into this--is that there is no MOS. When they come 
out with these new skills, where do you take them to? The jobs 
for those skills haven't yet been defined. I think there needs 
to be some work on that. In order to get people really desirous 
to get the training, they are going to want to know, hey, what 
is the way to get there and where am I going.
    There is a lot of desire. In fact, I found talking to 
soldiers coming back from Iraq, this is one thing they really 
got engaged in. They have been studying the cultures and living 
among them, and they are really fascinated in learning more 
about how to do civil affairs, and to try to prevent conflicts. 
And I have a bill that just passed the House and is pending in 
the Senate. General Petraeus even urged support for it. It is 
called the Reconstruction and Stabilization Civilan Management 
Act of 2008, for setting up what you do in Special Ops to set 
up in the State Department and the USAID a reservist/civilian 
corps of people who are specialists in languages and area 
studies and civil society skills who can go in and do the ounce 
of prevention in failed states, rather than have to rely on 
calling up the Defense Department when, maybe, diplomacy would 
have worked.
    So I just encourage you to look into that.

                                 CACTF

    My question is more specific, and I don't know if you have 
the answer, but maybe you can get it for me. My staff noted 
that in the MILCON budget, there is a new training facility 
that is listed in both the National Guard's budget and also in 
the Army Reserve. The Army Reserve has Fort Hunter Liggett, and 
next door--well 30 miles away--is Camp Roberts. The question 
is, is this going to be built at Camp Roberts or is it going to 
be built at Fort Hunter Liggett?
    General Casey. You got me on that one.
    Mr. Farr. Well, it is in both budgets.
    [The information follows:]

                     Army Reserve Training Facility

    The Army Reserve project is no longer valid. The Army Reserve 
Combined Arms Collective Training Facility (CACTF) project at Fort 
Hunter Liggett, California, was programmed for fiscal year 2012. 
However, the Army removed that project due to a duplicate CACTF project 
at Camp Roberts, California, programmed by the Army National Guard for 
fiscal year 2011. Camp Roberts is considered a better training location 
for this project than Fort Hunter Liggett.

    Mr. Edwards. I was proud to know it was going to be in 
California. [Laughter.]
    General Casey. We will get you the answer on that.
    Mr. Farr. Thank you very much. I really appreciate your 
testimony today.
    Mr. Edwards. Thank you.
    Mr. Bishop.
    Mr. Bishop. No, sir.
    Mr. Edwards. If not, General Casey, Secretary Eastin, thank 
you for being here today, for your testimony, and for your 
life-long service to the Army and our country.

    Question. No. 17 You indicated in your testimony that more training 
will be done at home stations in the future. How will this impact the 
use of Army training centers such as those at Fort Irwin and Fort Polk?
    Answer. The Combat Training Centers (CTCs) are the core of the 
Army's collective training strategy and have dedicated resources beyond 
those available at home station training sites. The Army's objective is 
to provide units the ability to train rigorously at home station and 
prepare for their high fidelity training events at the CTC.
    The CTCs have the capability to meet the high level of use for 
essential training requirements of deploying units. However, as the 
Army grows to 76 Brigade Combat Teams (BCTs), the CTC structure, in its 
current state, will not be able to support all training events 
envisioned in Objective Army Force Generation (ARFORGEN) training 
strategies. Accordingly, the Army plans to add CTC capacity in the FYI 
10-15 programmed objective memorandum and will work to resource 
additional requirements.
    Army leadership has approved several initiatives designed to ensure 
the CTCs can support ARFORGEN and the transformed, modular Army. These 
initiatives include establishing overseas- and stateside-based 
Exportable Training Capability (ETC). The ETC moves to a designated 
training site, in accordance with the ARFORGEN Training Synchronization 
Schedule, and provides training support in accordance with the CTC 
methodology to increase readiness.
    With 76 BCTs, the Army's annual CTC requirement will be 40-41 
rotations. The current CTC capability of 33-36 annual rotations depends 
on establishing ETC capability in the Continental United States (CONUS) 
and at the Joint Multinational Readiness Center, Germany, by FY10; the 
Army is currently assessing whether to establish a second CONUS ETC in 
FY12

    [Clerk's note.--End of questions for the record submitted 
by Chairman Edwards.]
    [Clerk's note.--Questions for the record submitted by 
Chairman Edwards.]

Army Medical Action Plan (AMAP) and the Soldier Family Assistance Plan 
                                 (SFAP)

    Question No. 1. The Army has estimated a total MILCON requirement 
of approximately $1.4 billion to implement the Army Medical Action 
Plan/Soldier Family Assistance Plan. The fiscal year 2008 supplemental 
request includes $138 million for AMAP/SFAP, but I understand that none 
of the remaining funds have been programmed into the FYDP. Will Army 
program these funds into future regular budget requests, or do you 
intend to rely on supplemental appropriations beyond FY08?
    Answer. The Army has initiated both the Army Medical Action Plan 
(AMAP) and the Soldier Family Assistance Plan (SFAP) specifically in 
response to the current conflict and operational tempo. The programs 
are designed to alleviate stress for our Soldiers, Wounded Warriors, 
and their Families. As many of these requirements are related to the 
Global War on Terror, the Army has requested supplemental funding in 
the past to support these programs. The Army submitted the remainder of 
the AMAP construction requirements to the Office of the Secretary of 
Defense for FY09 supplemental funding. While it is the Army's intent to 
put as much as possible in the base funding, decisions regarding base 
vs. supplemental funding requests for AMAP and SFAP are pending for 
FY10 and beyond.

               THE ARMY DID NOT RESPOND TO QUESTION NO. 2


              THE ARMY DID NOT RESPOND TO QUESTION NO. 3.


              THE ARMY DID NOT RESPOND TO QUESTION NO. 4.


  Grow-the-Army Stationing Plan/Integrated Global Posture and Basing 
                                Strategy

    Question No. 5. Why does the Army need to transfer the positions 
from the converted IBCT at Fort Stewart to stand up the second HBCT in 
Germany? Why can't Army stand up the second HBCT using existing 
positions in Germany?
    Answer. Some of the Soldiers currently assigned to the converting 
Heavy Brigade Combat Team (HBCT) at Fort Stewart will be assigned to 
the Germany-based HBCT, based on military occupational specialty. While 
there are obvious differences in personnel requirements between a HBCT 
and an Infantry Brigade Combat Team (IBCT), there are also many common 
requirements i.e., infantrymen, wheeled vehicle mechanics, supply, and 
administrative personnel. Those personnel common to both organizations 
(who are ineligible to execute a permanent change of station (PCS)) 
will remain with the BCT as it converts. Those HBCT Soldiers not 
required in the IBCT (i.e., armored crewman) who are also ineligible to 
PCS will migrate to one of the two HBCTs remaining at Fort Stewart. 
Those Soldiers eligible for PCS will be assigned to Fort Stewart based 
on the needs of the Army. The Germany-based HBCT will retain its 
existing personnel and will continue to receive replacement personnel 
under the individual replacement system.

               THE ARMY DID NOT RESPOND TO QUESTION NO. 6

    Question No. 7. What is the estimated date for a record of decision 
on the environmental impact statements that are required for the final 
restationing of the two temporary HBCTs in Germany at Fort Bliss/White 
Sands?
    Answer. The Record of Decision for the Environmental Impact 
Statement to support final restationing of a Heavy Brigade Combat Team 
(HBCT) to Fort Bliss is tentatively scheduled for November 2009, and 
the Record of Decision for the Environmental Impact Statement for 
restationing of a HBCT to White Sands is tentatively scheduled for May 
2009.
    Question No. 8. One of the six BCTs to be formed under the GTA 
Stationing Plan derives from cancelling the inactivation of the 43rd 
BCT at Fort Carson. Prior to GTA, when did the Army expect to 
inactivate this BCT? What is the impact of this decision on the MILCON 
program at Fort Carson? Were 43rd BCT facilities initially designated 
to receive another unit after inactivation?
    Answer. In December 2006, the Office of the Secretary of Defense 
directed the Army to reduce one active component Brigade Combat Team 
(BCT) and grow to a total of 42 active component BCTs in the program 
vice 43 as planned. Originally, the 43rd BCT was scheduled to activate 
in FY07. Due to the increasing demand and persistent shortfalls for 
BCTs in FY07, the Army delayed the decision to identify the brigade and 
location affected by the reduction; hence no facilities were earmarked 
for transfer to another organization. In January 2007, the President 
approved the growth of six additional BCTs in the active component as 
part of the Grow the Army plan. The 4th Brigade, 4th Infantry Division 
was designated as the 43rd BCT and earmarked as the first of the six 
additional BCTs under that plan. This decision had no adverse impact on 
Fort Carson facilities.
    Question No. 9. When does Army expect to make a decision regarding 
the last 3,500 of the 12,500 soldiers to be relocated from Korea?
    Answer. President Bush and South Korean President Lee Myung-bak 
agreed to a pause in the drawdown of U.S. troops from Korea during 
their April 2008, meeting at Camp David. Approximately 28,000 U.S. 
troops will remain in Korea for the foreseeable future.

                         Barracks Privatization

    Question No. 10. How many ``groups'' of installations are under 
consideration for barracks privatization, which installations are in 
each group, and what is the stage or status of planning and execution 
for each group?
    Answer. Barracks are constructed, modernized, operated, and 
maintained under traditional appropriated-fund programs. However, the 
Army does have five unaccompanied personnel housing privatization 
projects, which were designed after the Residential Communities 
Initiative (RCI) Family housing privatization program. These projects 
provide apartments for single senior Soldiers at locations where 
adequate or affordable off-post accommodations are not available and 
consist of unaccompanied senior enlisted quarters and unaccompanied 
officer quarters at five sites for staff sergeants and above. The five 
sites are Fort Irwin, California; Fort Drum, New York; Fort Stewart, 
Georgia; Fort Bragg, North Carolina; and Fort Bliss, Texas. Each of the 
five projects was made a part of the respective installation's RCI 
Family housing project, and did not require any additional government 
contribution.
    The Fort Irwin privatization project agreement closed (i.e., went 
to financial settlement) in March 2004, and 125 accommodations were 
transferred to the RCI project. These accommodations will be replaced 
by 200 one-bedroom apartments. The Fort Drum project agreement closed 
in July 2007, and will build 192 one- and two-bedroom apartments. The 
Fort Bragg project agreement closed in December 2007, and will build 
312 one- and two-bedroom apartments. The Fort Stewart project agreement 
closed in January 2008, and will build 334 one- and two-bedroom 
apartments. The Fort Bliss project agreement will close in 2008, and 
include 358 one- and two-bedroom apartments.

                               Modularity

    Question No. 11. What is the estimated outstanding MILCON cost for 
the Army's transformation to modular units of action, excluding those 
costs already included in the BRAC/IGPBS and GT A programs? How many 
additional brigade complexes need to be constructed at what locations, 
and in what year of the FYDP are these complexes programmed?
    Answer. Currently, the Army has requested and programmed $8 billion 
for Military Construction in Fiscal Years 2009-2013, to support Army 
transformation. This includes funding for Military Construction, Army; 
Military Construction, Army Reserve; Military Construction, National 
Guard; and Army Family Housing.
    There are eight additional brigade complexes that are programmed in 
the Future Years Defense Plan (FYDP). Years and locations of 
construction are:
          Fiscal year 2010--Fort Stewart, Georgia;
          Fiscal year 2011--Fort Richardson, Alaska; Fort Campbell, 
        Kentucky; and Fort Drum, New York;
          Fiscal year 2012--Schofield Barracks, Hawaii and Fort Bliss, 
        Texas;
          Fiscal year 2013--Fort Wainwright, Alaska and Fort Lewis, 
        Washington.

               Impact of Grow the Army on Family Housing

    Question No. 12. How many additional dependents are expected due to 
Grow the Army? Please provide a breakout by each GTA location.
    Answer. The accompanying table represents the dependent increases 
expected at Grow the Army (GTA) locations.

----------------------------------------------------------------------------------------------------------------
                                                                                                 GTA End State
                   State                              Installation             GTA strength        dependent
                                                                                 change *          increases
----------------------------------------------------------------------------------------------------------------
Alaska.....................................  Fort Richardson..............                613                932
Alaska.....................................  Fort Wainwright..............                229                348
Colorado...................................  Fort Carson..................              4,877              7,413
Georgia....................................  Fort Benning.................                 45                 68
Georgia....................................  Fort Gordon..................                192                292
Georgia....................................  Fort Stewart/Hunter AAF......              3,899              5,926
Hawaii.....................................  Schofield Barracks/Wheeler                 1,058              1,608
                                              AAF.
Kansas.....................................  Fort Leavenworth.............                274                416
Kansas.....................................  Fort Riley...................              1,315              1,999
Kentucky...................................  Fort Campbell................                748              1,137
Kentucky...................................  Fort Knox....................                546                830
Louisiana..................................  Fort Polk....................              1,283              1,950
New Mexico.................................  White Sands Missile Range....                191                290
New York...................................  Fort Drum....................                900              1,368
North Carolina.............................  Fort Bragg...................              1,405              2,136
Texas......................................  Fort Bliss...................              9,227             14,025
Texas......................................  Fort Hood....................              3,273              4,975
Texas......................................  Fort Sam Houston.............                 60                 91
Virginia...................................  Fort Lee.....................                179                272
Washington.................................  Fort Lewis...................              1,878             2,855
----------------------------------------------------------------------------------------------------------------
* Dependent increases are based on the GTA population increases published in the GTA Stationing Plan, 19
  December 2007. Dependent population was calculated using the DoD ratio of 1.52 (includes spouses and
  children).

    Question No. 13. How many additional family housing units will be 
needed for GTA, including both government-owned quarters and units 
built through RCI? Please provide a breakout by each GTA location.
    Answer. The Army works continuously with its Residential 
Communities Initiative (RCI) partners and the local community to ensure 
that adequate housing is available for Soldiers and Families. All of 
the Army's deficit housing requirements in the United States are at 
installations that have privatized Family housing.
    The Army relies on the ``community first'' principle with 
approximately two-thirds of Army Families living off-post. 
Installations with gaining populations work with local communities to 
ensure development plans factor in Army growth. On-post housing is 
relied upon to meet mission requirements, shortfalls in available 
community housing stocks, or to maintain a viable military community.
    In support of Grow the Army, Congress approved $266 million in 
fiscal year (FY) 2008 Army Family Housing Construction (AFHC) to pay 
for government equity contributions for additional housing at Fort 
Bliss, Texas (214 units); Fort Bragg, North Carolina (446 units); Fort 
Carson, Colorado (570 units); and Fort Lewis, Washington (520 units).
    The Army has requested $333.8 million in FY09 AFHC to pay 
government equity contributions for additional housing at Fort Bliss, 
Texas (763 units); Fort Carson, Colorado (530 units); and Fort Stewart, 
Georgia (932 units).
    The Army plans to program additional funds in FY10 if updated 
housing market analyses identify community housing shortfalls at other 
gaining installations.

               Temporary Facilities and Interim Capacity

    Question No. 14. Army has indicated its intent to use additional 
temporary facilities for GTA. Current data shows that Army has an 
inventory of over 10.2 million square feet of temporary facilities. Of 
this inventory, 73 percent is currently programmed for replacement with 
permanent construction. Of the remaining 27 percent, how much does Army 
need to replace with permanent construction, and when will Army fund 
and complete such construction?
    Answer. The Army uses relocatable buildings as a last resort. When 
no other solutions are available, relocatable buildings provide 
urgently needed temporary facilities to meet peak surge missions or 
pending completion of regularly programmed Military Construction 
(MILCON) projects.
    The Army is programming MILCON projects to construct permanent 
facilities to replace the approximately 10 million square feet of 
existing relocatable building inventory. Seventy-three percent of 
existing relocatables currently have permanent facility projects 
prioritized in the 2009-2013 Future Years Defense Program (FYDP). We 
will program projects for the remaining relocatables that require 
permanent facilities during the FY 2010-2015 MILCON program 
development.
    Question No. 15. Army has also indicated that a ``facility gap'', 
representing the difference in combined interim square footage capacity 
and the permanent facilities requirement, through at least FY14. When 
does Army expect to have the entire permanent facility requirement 
funded and in place?
    Answer. Currently, the Army is assessing the permanent construction 
program requirements for fiscal year 2014 and beyond and will strive to 
replace its combined interim square footage capacity with permanent 
facilities as soon as possible. A portion of the interim capacity will 
not receive permanent replacement projects because they serve temporary 
mission requirements.

                    Range and Training Land Strategy

    Question No. 16. Has Army updated its 2004 estimate of the 
shortfall in range and training land to account for GTA? If so, what is 
the current estimated shortfall?
    Answer. Yes, the Army considered training land shortfalls at all 
Grow-the-Army (GTA) candidate locations. Training land was actually one 
of the four optimized capabilities that the Army used to determine the 
GTA Infantry Brigade Combat Team (IBCT) stationing locations. The Army 
Range and Training Land Strategy is currently being updated to reflect 
all GTA growth. The Army anticipates that an updated Range and Training 
Land Strategy will be released in September 2008.

    [Clerk's note.--Questions for the record submitted by 
Congressman Wamp.]

                          Grow-the-Army (GTA)

    Question No. 1. The Grow the Army allows for an increase of 74,200 
in Army end-strength across Active, Guard, and Reserve components. The 
Army will grow Infantry Brigade Combat Teams (IBCT), Support Brigades, 
Combat Support, and Combat Service Support Units.
    I understand that the permanent end-strength increase of 65,000 for 
the Army may be met by 2010. What kind of impact is this having on 
current training facilities, support, and housing? What is the Army 
doing to address those issues?
    Answer. The Army held a growth summit in December 2007 to discuss 
experiences, techniques and services to help affected installations and 
communities better respond to anticipated growth. Army quality of life 
requirements have been programmed into the Military Construction 
(MILCON) program in the President's Budget for Fiscal Year 2009-2013. 
MILCON projects are underway, to include: installation and community 
based child development centers to achieve 80% of anticipated childcare 
demand; Army-wide construction and renovation of support facilities; 
and privatization efforts for 89,295 homes by FY10.
    Question No. 2. With the additional troops, how many new Infantry 
Brigade Combat Teams, and related brigade complexes and support 
facilities have been added to the force? How many new IBCTs will you 
have when you meet your end-strength numbers? When do you project to 
have all MILCON and Housing Construction completed to support these new 
Brigade Combat Teams?
    Answer. The Army will have two new Infantry Brigade Combat Teams 
(BCTs) to meets its end strength numbers at the end of FY10. The four 
additional Infantry BCTs will be operational by the end of FY11. The 
Army FY09 Military Construction Budget request was built to synchronize 
delivery of permanent construction for four BCTs on a timeline that 
meets the effective date for activation of all six Grow the Army BCTs. 
As part of its plan, the Army is using temporary facilities at Fort 
Bliss, Texas through FY14 to accommodate troops returning from Europe.

                              Sustainment

    Question No. 3. You say that first and foremost, Soldiers, 
Families, and Civilians have to be sustained, as they are the heart and 
soul of the Army. I couldn't agree with you more. At the core of this, 
are two programs that have been developed: one is the Army Soldier and 
Family Action Plan, and the second is the Army Medical Plan.
    Please talk to the Committee about each of these initiatives. How 
were they developed? What kind of feedback are you getting on these?
    Answer. The Soldier and Family Action Plan (SFAP) is the 
cornerstone of one of seven Army initiatives designed to examine, 
analyze, and develop processes to better support the All-Volunteer 
Force.
    The SFAP identifies and monitors progress in five focus areas: (1) 
standardizing and funding existing Family programs and services; (2) 
increasing accessibility and quality of health care; (3) improving 
Soldier and Family housing; (4) ensuring excellence in schools, youth 
services, and child care; and (5) expanding education and employment 
opportunities for Family members.
    The Army Medical Action Plan (AMAP) is the Army's initiative to 
establish an integrated and comprehensive continuum of care and 
services for Warriors and their Families. The purpose is to provide 
world-class care to Warriors and their Families that match the quality 
of the service they provide to the Nation. There are nearly 2,700 
individuals assigned or attached as cadre to the 35 Warrior Transition 
Units (WTUs) that have been established at installations Army-wide and 
are caring for 10,000 Warriors in Transition (WTs). The cadre are 
trained specifically for this mission, and every WT is supported by a 
triad of care consisting of a Primary Care Manager who is a physician, 
a Nurse Case Manager, and a Squad Leader. Dedicated Ombudsmen are also 
available who provide Soldiers and Families an extra resource and 
problem-solver. Since September 2007, they have handled over 3,200 
cases.
    The Army also established a 24-hour hotline (the Wounded Soldier 
and Family Hotline) to provide an additional mechanism for WTs and 
Families to obtain assistance. Since its inception in March 2007, the 
hotline has received and responded to more than 11,000 calls. Soldier 
Family Assistance Centers (SFACs) have been established at 
installations with WTUs to serve as a single entry point for many 
services, including:
          1. Military personnel processing assistance
          2. Child care and school transition services
          3. Education services
          4. Transition and employment assistance
          5. Legal assistance
          6. Financial counseling
          7. Stress management and Exceptional Family Member support
          8. Substance abuse information and referral for Family 
        Members
          9. Installation access and vehicle registration
          10. Management of donations made on behalf of Service Members
          11. Coordination of federal, state, and local services
          12. Pastoral care
          13. Coordination for translator services
          14. Renewal and issuance of identification cards
          15. Lodging assistance
    Since its inception in April 2007, the AMAP has shown a steady 
improvement in Soldier and Family satisfaction. A command climate 
survey conducted January 10, 2008, indicated an overall satisfaction 
level among WTs of 83 percent. We anticipate this satisfaction level 
will continue to increase with continuing efforts to transform Soldier 
and Family care and support.
    Question No. 4. You say that these initiatives will integrate 
programs spanning a range of Army budget accounts. Which accounts are 
you referring to, and how are the programs being integrated?
    Answer. The Army Soldier and Family Action Plan receives funding 
from Operation and Maintenance, Army (OMA); Operation and Maintenance, 
Army National Guard (OMNG); and Operation and Maintenance, Army Reserve 
(OMAR) to support Child and Youth Services, Family Programs, Community 
Support, Housing, Education, and Health Care.
    Warrior Transition Units (WTUs) are the centerpiece of the Army 
Medical Action Plan (AMAP). Sustainment, restoration, and modernization 
of existing structures to support these units are funded through OMA. 
Additional base operations support incident to the advent of WTUs is 
also covered by OMA. Our Military Construction accounts provide for new 
construction of WTU facilities, while military pay accounts and 
accruals from the Defense Health Program fund the cadre positions in 
these units.
    The Soldier and Family Action Plan (SFAP) and the Army Medical 
Action Plan (AMAP) initiatives are integrated by means of bi-weekly 
Integrated Process Team meetings with program representatives. This 
effort coordinates implementation of the various programs and services, 
and assesses progress towards meeting Soldier and Family member needs. 
The overarching goal is to provide comprehensive care through an 
integrated and seamless approach.

                                Prepare

    Question No. 5. The testimony says that Soldiers must have tools 
they need to be successful, and they ``must have an asymmetric 
advantage over any enemy they face''. Some of the training facilities 
that are highlighted in the testimony for construction funds are: 
military operations urban terrain site, tracked vehicle driver's 
course, automated anti-armor range, stationary tank range, modified 
record firing ranges, and digital multipurpose training ranges at a 
total cost of $242 million.
    Your testimony points out two things that I want to explore. You 
say that national security experts agree that there will be persistent 
conflict over the next several decades, and that some of our 
adversaries will avoid our proven advantages by adopting asymmetric 
techniques and indirect approaches.
    How do you train for asymmetric warfare? How do these training 
facilities differ from the traditional training facility?
    Answer. To enable the most effective training for our Soldiers, the 
Army continually assesses range capabilities, range designs, and 
training tasks. The Army designs its training facilities and enablers 
to reflect changing threat conditions. The Army uses these tools in 
innovative ways to address the tactics, techniques and procedures of 
asymmetric warfare.
    The U.S. Army Training and Doctrine Command integrates lessons 
learned from Army global operations along with doctrinal innovations 
from proponent schools to keep our ranges world-class, cutting edge 
training facilities. While there is no home-station range that is 
specifically designed as an asymmetric facility, all Army ranges are 
designed and built for the future and full spectrum of operations that 
the Army will conduct. In particular, Army Military Operations in Urban 
Terrain (MOUT) sites are constantly adapted to provide training that is 
directly relevant in addressing asymmetric threats. Virtual trainers, 
such as the Virtual Convoy Tactical Trainer and the Combined Arms 
Tactical Trainer have been both fielded and/or adapted to reflect the 
conditions of asymmetric warfare. The Engagement Skills Trainer was 
adapted to train rules of engagement, which is particularly critical to 
today's operations. Constructive simulations have also been adapted to 
reflect the fluid conditions of asymmetric combat by moving away from 
opposing conventional forces and introducing populations and 
unconventional threats. Additionally, unique simulations, such as the 
Medical simulation training centers, have been fielded with realistic 
training mannequins and instructors to address the effects of injuries 
from Improvised Explosive Devices and other battlefield injuries.

                               BRAC 2005

    Question No. 6. Chairman Edwards and I have voiced our concern 
about the FY '08 funding situation for the latest BRAC round, and how 
we are going to do whatever we can to get as much of the funding to the 
Department as we can as we move the supplemental spending bill.
    Having said that, how did the Army go about prioritizing BRAC 
funding for FY '08, to date?
    Answer. The army prioritized its FY08 BRAC funding by the projects' 
relative critical impact on the Army's compliance with BRAC law. The 
project list was divided into five bands: operational, institutional, 
Reserve Component (RC), training, and quality of life. The top three 
bands were all considered time-critical to BRAC compliance, but the 
available funding only allowed us to include 80 percent of the RC 
projects. None of the training or qualify of life projects were funded 
from the available FY 08 BRAC funding.
    Question No. 7. Give the Committee some sense of projects that were 
not funded. If those funds are not restored, how does it impact 
planning and execution against the 2011 deadline?
    Answer. BRAC is an integral component of our stationing plan, and 
our complex Military Construction program is interdependent with BRAC. 
Delays or cuts to either of these interrelated programs put our ability 
to grow and restore balance at risk. We are at a crucial juncture in 
the BRAC program. Fiscal year 2010 is our last BRAC construction year 
in order to meet the BRAC deadline of September 2011, as required by 
law. To successfully execute BRAC, we carefully synchronized 1,300 
actions. And without full and timely funding, 31 of 90 fiscal year 2008 
BRAC directed projects will not be completed, including 10 Armed Forces 
Reserve Centers, 9 training and readiness projects, and 12 quality of 
life projects.
    Question No. 8. Finally, is there a date that even if these funds 
do get restored that meeting the deadline becomes an insurmountable 
challenge for the Army?
    Answer. If the $560 million cut to the Army's FY08 BRAC funding is 
not restored this year, the Army will not meet all of its requirements 
in accordance with BRAC Law.

    [Clerk's note.--End of questions for the record submitted 
by Congressman Wamp.]
                                          Thursday, April 10, 2008.

                            EUROPEAN COMMAND

                                WITNESS

GENERAL BANTZ J. CRADDOCK, COMMANDER, U.S. EUROPEAN COMMAND

                       Statement of the Chairman

    Mr. Edwards [presiding]. I would like to call the 
subcommittee to order.
    General Craddock, welcome. Welcome to our subcommittee. 
Thank you for your many years of distinguished service to the 
Army and to the country. It is a privilege to have you here 
today.
    There is a possibility there could be a series of votes, so 
in case there is a series of votes Mr. Wamp and I thought we 
would go ahead and start the committee.
    The subject of today's hearing is the fiscal year 2009 
military construction and family housing request for the 
European Command. EUCOM's total fiscal year 2009 request is 
$783 million, an increase of $265 million over the fiscal year 
2008 enacted level of $519 million.
    This request supports the transformation of EUCOM in 
furtherance of the Integrated Global Posture and Basing 
Strategy adopted in 2004. The strategy, as initially presented, 
called for the reduction of U.S. troop presence from 114,000 to 
less than 66,000 by 2012, including the relocation of two Army 
brigades from Germany back to the United States.
    Last year Secretary of Defense Bob Gates decided to at 
least temporarily keep two heavy brigade combat teams in 
Germany, apparently in response to concerns expressed by 
General Craddock and possibly others. The reasoning behind this 
decision and its impact on the global restationing plan will be 
among the numerous topics that we would like to discuss today.
    But before I turn it over to you, General Craddock, I would 
like to recognize the ranking member, Mr. Wamp, for any opening 
comments he would care to make.

                Statement of the Ranking Minority Member

    Mr. Wamp. Thank you, Mr. Chairman.
    I want to welcome General Craddock and say what a privilege 
it is to sit across the table from you today. Your job is one 
of the most critical we have in the world.
    I think Chairman Edwards has had this experience, but if 
you stand, as I have, above Omaha Beach in Normandy, you feel 
the commitment and sacrifices that our country has made to 
freedom in Europe. It has caused me to monitor a lot of what is 
said today in the world out of the European countries about the 
United States of America, so that we can hope that they 
remember constantly the sacrifices that we have made on their 
behalf.
    And then our long-term presence there following the 
Marshall Plan and your very command there has genuinely made 
permanent contributions to that region, and, therefore, the 
changes that we are to consider resourcing are so very critical 
to their long-term interest and, indeed, freedom in the world.
    The great challenge that I am very interested in is the 
transition that is under way, clearly, and then, of course, 
this new AFRICOM command and how that will work, albeit 
difficult to take that portion of that command and establish a 
new command without a permanent presence in Africa and all of 
the conflicts that are associated with that.
    We had a tremendous briefing with General Ward regarding 
his responsibilities.
    So, welcome here today. I look forward to your testimony 
and, also, look forward to a very productive working 
relationship with you in the future.
    Thank you, Mr. Chairman.
    Mr. Edwards. Thank you very much.
    By way of introduction, and this will be brief, but since 
it is his first appearance before the committee, again, it is a 
privilege to introduce General John Craddock, who is not only 
Commander of the European Command but is the Supreme Allied 
Commander for Europe.
    He has been the EUCOM Commander since December of 2006. 
Previously served as the SOUTHCOM Commander from 2004 to 2006. 
Nearly 37 years of distinguished service in the U.S. Army. 
Again, we thank you and salute you for that.
    I won't go through all of his previous assignments, but he 
commanded the 1st Infantry Division, commander of U.S. forces 
during initial operations in Kosovo, Joint Staff--doesn't get 
any better than this--assistant chief of staff of 3 Corps.
    General Craddock. Indeed.
    Mr. Edwards. And also battalion commander with 24th 
Infantry Division, and is a graduate of West Virginia 
University.
    General Craddock, without objection, your full statement 
will be submitted for the record. We would like to recognize 
you now for any opening statements you would care to make 
before we get into questions.

                 Statement of General Bantz J. Craddock

    General Craddock. Great. Chairman Edwards, Ranking Member 
Wamp, thank you very much for the opportunity to appear before 
the committee today as the Commander of the United States 
European Command.
    I have had the honor since December of 2006 to command the 
European Command, the great men and women who serve there. I am 
here to report that they remain absolutely committed to their 
mission. The nation is extremely well-served by these 
remarkably talented, dedicated and enthusiastic Soldiers, 
Sailors, Airmen, Marines, and Coast Guardsmen, and definitely 
the families and the civilians that support them.
    If you would permit me, I would like to provide an overview 
of our activities, highlighting the vital role of the EUCOM 
service members in this vast theater.
    I know you know this, but every day EUCOM forces are 
deployed in support of Operation Iraqi Freedom and also in 
Afghanistan in support of the International Security and 
Assistance Force under NATO, the ISAF. Service members that are 
assigned to EUCOM are included in our global force pool and, as 
such, stand available for any missions so required.
    Our support for the global war on terror, our overarching 
priority, demonstrates the value of a robust European 
infrastructure. Continuing to invest in our strategically 
located bases ensures we maintain critical mobility routes for 
U.S. forces and the ability to expand as required in the 
future. Our forward-based and rotational forces are powerful 
and visible instruments of our national influence and 
international commitment.
    Central to EUCOM's efforts is the completion of our 
Strategic Theater Transformation plan. Our transformation plan 
is synchronized with the Department of Defense, the Joint 
Staff, individual services, and NATO to ensure that global 
efforts of other combatant commands, NATO, and the results of 
the Base Realignment and Closure Commission process are all 
mutually supportive.
    The fiscal year 2009 president's budget, as you said, Mr. 
Chairman, requests a total of $783 million in MILCON funds for 
EUCOM. This investment will enable us to continue to eliminate 
substandard housing, includes projects that divest nonenduring 
bases, consolidates our forces into more efficient 
organizations, and provides defenses against ballistic missile 
threats from southwest Asia.
    Quality of life within the European theater continues to be 
a prime focus and continues to improve by all comparisons, both 
absolute and relative. However, our service members and their 
families are having to continue with the reality of deployments 
in support of the war on terrorism.
    And while we have made herculean efforts to ensure the best 
quality of life possible for our service members and families, 
we are ever mindful that we cannot rest on our laurels. We must 
aggressively look for the downsides and quickly reverse them 
and the effects that they may create.
    Family housing investments for construction, renovation and 
replacement projects will ensure EUCOM meets the Defense 
planning guidance requirement to eliminate all inadequate 
housing by fiscal year 2009. EUCOM has also approved its 
housing inventory through the Build-to-Lease programs and will 
continue to explore Build-to-Lease housing opportunities 
throughout Europe to our advantage.
    One of the biggest areas that needs attention is the 
condition of our dependent schools that educate 36,500 students 
in 90 schools across Europe. Many of our schools are at least 
50 years old. Forty-five percent of the Department of Defense 
schools and 43 percent of the Department of Defense students 
are in the EUCOM theater.
    The health of the Department of Defense Education Activity, 
DODEA, budget is essential to the well-being of our students, 
who need both quality infrastructure and quality teachers to 
realize their full potential. We look forward to working with 
the DODEA and Congress to address our European educational 
infrastructure needs.
    In additional to MILCON, the NATO Security Investment 
Program continues to play an important role in broadening 
NATO's military capabilities, both in Europe and Afghanistan. 
This year's budget request of $240 million represents the U.S. 
share of the program and will support current operations in 
Afghanistan and Kosovo. Your ongoing support for this program 
is greatly appreciated, as we continue to build these critical 
partnerships and increase the alliance's capacity for future 
engagement.
    In summary, the dedicated men and women of the United 
States European Command remain steadfast in their commitments 
to our nation and our mission.
    Mr. Chairman, thank you for this hearing. I look forward to 
the committee's questions.
    [Prepared statement of General Bantz J. Craddock follows:]
    [GRAPHIC] [TIFF OMITTED] T2754D.071
    
    [GRAPHIC] [TIFF OMITTED] T2754D.072
    
    [GRAPHIC] [TIFF OMITTED] T2754D.073
    
    [GRAPHIC] [TIFF OMITTED] T2754D.074
    
    [GRAPHIC] [TIFF OMITTED] T2754D.075
    
    [GRAPHIC] [TIFF OMITTED] T2754D.076
    
    [GRAPHIC] [TIFF OMITTED] T2754D.077
    
    [GRAPHIC] [TIFF OMITTED] T2754D.078
    
    [GRAPHIC] [TIFF OMITTED] T2754D.079
    
    [GRAPHIC] [TIFF OMITTED] T2754D.080
    
    [GRAPHIC] [TIFF OMITTED] T2754D.081
    
    [GRAPHIC] [TIFF OMITTED] T2754D.082
    
    [GRAPHIC] [TIFF OMITTED] T2754D.083
    
    [GRAPHIC] [TIFF OMITTED] T2754D.084
    
    [GRAPHIC] [TIFF OMITTED] T2754D.085
    
    [GRAPHIC] [TIFF OMITTED] T2754D.086
    
    [GRAPHIC] [TIFF OMITTED] T2754D.087
    
    [GRAPHIC] [TIFF OMITTED] T2754D.088
    
    [GRAPHIC] [TIFF OMITTED] T2754D.089
    
    [GRAPHIC] [TIFF OMITTED] T2754D.090
    
    [GRAPHIC] [TIFF OMITTED] T2754D.091
    
    [GRAPHIC] [TIFF OMITTED] T2754D.092
    
    [GRAPHIC] [TIFF OMITTED] T2754D.093
    
    [GRAPHIC] [TIFF OMITTED] T2754D.094
    
    [GRAPHIC] [TIFF OMITTED] T2754D.095
    
    [GRAPHIC] [TIFF OMITTED] T2754D.096
    
    [GRAPHIC] [TIFF OMITTED] T2754D.097
    
                        FORCE POSTURE IN GERMANY

    Mr. Edwards. Thank you, General. And, again, it is good to 
have you here.
    Let me just begin on the issue of the decision to delay, at 
least until 2012 or 2013, the movement of two heavy brigade 
combat teams back to the United States. I know Secretary Gates 
basically put on temporary hold a decision made in the 2004 
Global Defense Posture.
    In 2004, in that posture statement, it said, ``Peace in 
Europe has no longer threatened the large-scale conventional 
force position to move into the continent. There is no longer a 
strategic need for heavy maneuver forces as a central element 
of U.S. defense posture.''
    General Craddock, would you think that premise has changed, 
or are there other circumstances that have changed, or both, 
that have caused us to put on hold the movement of those 
soldiers back to CONUS? And, if so, if conditions have changed, 
is there a possibility that those two brigade combat teams 
might end up permanently in Germany and not be brought home?
    General Craddock. Thank you, Chairman. I think there are 
two factors at work here.
    The first is the growth of the Army and where the Army 
plans to put that growth. There were plans made for the four 
brigades in Europe now, and there were plans made to leave two 
as the objective end-state, with the two heavy brigades going 
back to the States.
    I think the reason for delay was due to the fact that the 
growth was not planned for, the enlargement of the Army. The 
BRAC adjustments set an unbalanced condition. And the Army 
looked at it and decided, as I was informed by the Army 
secretary, that rather than bring those brigades back on time, 
on schedule--and the Army would have to build considerable 
temporary facilities for a period of time, and then build 
permanent facilities--it would be better for the families, 
first, and more cost-effective to leave them for an additional 
3 years in Europe.
    So, that is a Title X decision the Army made.
    Now, the second issue, at this point, was when I took over 
in December of 2006, and as I went around and met the chiefs of 
defense, my counterparts, many of whom I have known from 
previous assignments, I kept hearing over and over again, ``Why 
aren't you guys out here in exercises where there are exchanges 
of companies and platoons? Where are you? We don't see you 
anymore.'' And the answer is, our forces were in the global 
force pool, rotating to Iraq and Afghanistan.
    So I looked at the--I remembered some exercises we have 
done, and had the staff get me that. And over the last 5 years, 
it has been precipitously down. Fair enough. We are at war, and 
we understand that.
    But I then looked at the guidance I had got from the 
chairman, which says that to offset our strategic risk, we are 
going to build more organizational capability, we are going to 
work with our Allies and pump up their abilities. And I looked 
at our forces available, and I said, ``Mr. Chairman, I don't 
think I can do that with what I have right now.''
    So I went back to my staff and said, ``Do a study. Tell me 
what you think we need to do, what we are told to do.'' We 
looked at our task assignment and our missions. They came back 
a few months later, said, ``You need about five brigades.'' And 
I said, ``I will take the risk and do it with four.'' And I 
sent a request to the secretary, saying, ``I think, for the 
future, this is about right.''
    I am still working with the department, because the Title X 
decision to leave the two brigades 2 extra years offset the 
near-term shortfall. It appears that the final decision has 
been kicked down the road for a while until a later date. So I 
don't have an official response, other than, ``You have got two 
more brigades, to give you the four you want, for 3 more 
years.''
    Now, we, EUCOM, we will go back, we will continue to 
update, assess, and see if our recommendations previously holds 
or changes. If conditions change, the war on terror ends, we 
prevail; if the NATO transformation takes a faster track, if 
you will, there may well be significantly different needs, 
either lower or higher. And this is dynamic.
    But I think the fundamental issue is when the decisions 
were made to go to this objective force--and I was there in the 
Department at the Office of Secretary of Defense--the 
assumptions were about a different world. And we were not at 
war, with 15 to 20 brigades for a long period of time. And we 
weren't depending on partner nations to carry a lot of that 
load. And now, they, quite frankly, NATO allies, NATO partners 
and other nations look to the United States always for how to 
do it and how to help them.
    Mr. Edwards. Very good. Thank you.
    Mr. Wamp.
    Mr. Wamp. Thank you, Mr. Chairman.
    I would follow up a little bit, to say then--because the 
2012/2013 date caused me to wonder what is any different? Is 
this just a postponement of the realities of this type of 
transformation?
    And I think what you are saying is that it gives us time to 
see what the world looks like after more progress is made in 
Iraq and Afghanistan before we make these changes permanent 
that were derived prior to the time the conflict and engagement 
and the surge and the investments that we are having were made.
    General Craddock. I think that is fair. I would agree with 
that.

                       FLUCTUATION OF THE DOLLAR

    Mr. Wamp. The Battle Monuments Commission told us that a 
big problem in Europe is the value of the dollar. And you have 
shared a little of this with the chairman and I, but I would 
like for the record for you to explain exactly what kind of a 
burden that puts on your budget.
    General Craddock. Well, everything costs a little more 
based upon--we budget against a number, and generally 
speaking--and, again, these services normally do this, so I 
will give you a general perspective.
    There is a hedge factor there, an expectation, a prediction 
that the dollar's value will rise or fall. So if the dollar is 
falling and the expectations will continue, then the programmer 
estimates are normally done against a value that is lesser than 
the date on which we put it all together.
    Then that leads you to how fast is the dollar falling? What 
it means is that, when it comes time for the project to start, 
then there either has to be new estimates--and where projects 
did not occur or projects came in under budget, that money is 
moved across to take the offset of where the cost growth occurs 
due to the devaluation.
    So that factors into everything we do. That factors in 
construction. It factors in O&M. Because the cost of anything 
you buy on the economy, as opposed to shipping in, in Europe is 
going to go up. And it has been significant here in the last 
year for sure.
    And also, as I mentioned earlier, it transcends to the cost 
of living for our service members and their families. So these 
prices all go up.
    Now, I checked with one of my experts about, if we don't 
get this budget estimate right, and the cost of construction in 
Europe is higher than we planned, what do we do about it? And 
the answer is, there is a set-aside fund that whatever comes in 
under-budget or gets rolled over into this set-aside can be 
used then to offset these cost growths.
    And it is regional in nature, but we can also go back to 
the larger pool, I think, inside of the component budgets, 
whether it is Army or Navy or whatever. So there is a little 
bit of a capability there.
    Now, the problem becomes when, across the board, if all of 
these costs do not come in under, then that premise is going to 
cause a situation where we won't be able to start or we come 
back for reprogramming.
    Mr. Wamp. So from a MILCON perspective, you would advocate 
some way for this committee to fund an overflow fund, if you 
want to call it that, so that if nothing came in under-budget 
to save the resources to pay for the wild fluctuation of the 
dollar in today's world because of the unstable economy 
globally. There has to be some kind of a fund from the 
Congress, in terms of resources, to compensate for a year where 
you might be without any relief on this problem.
    The second piece--and then I will yield back for other 
members--is this quality-of-life issue. Frankly, this new 
majority got off to a great start here last year with enhancing 
child-care facilities and housing and quality-of-life issues.
    And a quality-of-life issue that would work its way back to 
the conversation in the general public from anyone stationed in 
Europe today would be, because of the devaluing of the dollar, 
the quality of life for our troops in the field and their 
families is not near as high as it used to be or as it should 
be in order for us to retain and recruit that next-generation 
fighter, which we have to have.
    Correct?
    General Craddock. Yes, Congressman. With the first part, I 
would agree, there needs to be some flexibility to fund 
precipitous drops in the dollar value in the MILCON account.
    Secondly, the impact on service members and families, 
indeed. Now, there is a cost-of-living allowance that is 
provided from the department. It is very difficult to 
understand how it works. The mechanism is proprietary in 
nature. I have had, repeatedly, representatives from the 
department to try to explain it to us. You have to be a PhD. in 
economics. And over and over again, we have tried to understand 
it. Even those of us that think we understand it discover, 
every time a new situation comes up, we didn't get the full 
answer.
    And I will guarantee you that the service members, the 
young enlisted, don't think they are getting adequate 
compensation for the drop in the dollar.
    And the impacts will be: One, we are in the global force 
pool. So soldiers, sailors, airmen, particularly soldiers, 15-
month deployments, are gone with their families left in Europe. 
And they are away, and the dollar is dropping. And if it gets 
to be more and more difficult for a mom when she is back there, 
or a dad if it is a female soldier, they are likely to opt out 
and go back to the United States. And then we have got a more 
difficult situation.
    The other thing is relative to where they were before. In 
days past, they would throw the kids in the car, and they would 
go to visit a castle, they would go to the Rhine River, they 
would go to the amusement park in Mannheim, whatever the case 
may be. They don't do that today, is what I am being told, 
because they just can't afford the cost for mom, dad and two 
kids' lunch, $200. Can't do it.
    Mr. Wamp. I will yield until round two, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Wamp. Good questions.
    Mr. Dicks.
    Mr. Dicks. General, I want to thank-you for the wonderful 
evening at your residence in Europe and your great briefings 
and all the efforts you made on our recent CODEL.

                            MISSILE DEFENSE

    Regarding missile defense, can you explain a little more 
about the status of the third site and what the Czech Republic 
and Poland are going to do in terms of their contribution to 
this?
    General Craddock. Well, I know that there are ongoing 
negotiations. I think they are just about ready to sign with 
the Czech Republic, in terms of what is going to happen.
    Quite frankly, Congressman, I read in the paper today that 
the Czechs expect 250 U.S. personnel to be there on the site, 
which is the first I have heard of that.
    So I don't know the cost-share with regard to the Czech 
participation, other than the European Command commitment once 
the agreement is made, the bilateral agreement, then we will 
see that, and we will have to put together the implementing 
instructions between the Czech Republic and the European 
Command, representing the U.S. government, in terms of the 
specifics based upon the general agreement that will be 
reached.
    So the Czech Republic is for the radar facility. Again, the 
modalities of that, to be determined. Because the Missile 
Defense Agency and OSD policy right now--even though I have a 
rep there, my rep is a note-taker with very little input, other 
than monitor and come back so we can start to see the extent of 
what we will have to do. I do not know what the Czech 
Republic's level of participation or investment will be.
    With Poland, it is the same thing. And I think it is less 
farther along with Poland, at this point.
    Mr. Dicks. But there will be an ongoing commitment, isn't 
that correct?
    We have it here that the increase over last year's budget--
$241.2 million requested by Missile Defense Agency--is to 
establish the third site for the ballistic missile defense for 
the radar site in the Czech Republic, interceptors in Poland.
    The FYOP includes a total of $837 million in MILCON for 
these two sites, although the cost does not actually include 
any facilities that would be required for personnel to actually 
operate the site.
    General Craddock. Right.
    Mr. Dicks. So there are some issues here.
    General Craddock. Well, until the agreements are reached, 
where the government will decide who is going to do what, we 
won't know how many facilities we have to build for the future.
    Mr. Dicks. And we don't know what the commitments are, that 
we have committed ourselves to.
    And these other two heavy divisions, they were going back 
to Fort Bliss and Fort Riley, and that is deferred for how 
long?
    General Craddock. Three years, 2012/2013.
    Mr. Dicks. And is there a decision to then do it, then 
bring them back?
    General Craddock. The decision is made, they will go back. 
They are just delayed. But they will return to the United 
States between 2012 and 2013.
    Mr. Dicks. And that is basically because of the growth in 
the Army; we didn't know where we were going to put everybody. 
And also, I would assume, there are some substantive reasons 
why keeping them for the next 3 years there is a good idea.
    General Craddock. There were two issues. One was the BRAC, 
growth of the Army, Title X. That is an Army issue, where are 
you going to put everybody. They decided, rather than build 
temporary facilities and then permanents, leave them in Europe 
and build just permanents, save $750 million as well. That is 
the Title X.
    Now, my mission is, do I have what I need to do my job? And 
my judgment is no, that I need four brigades. I have four now, 
until 2012 and 2013. But we are going to have to continue to 
assess and see, when we get up to 2012 and 2013, do we still 
need four, or has the world changed enough that we can do it 
with the two that we are programmed for.
    Mr. Dicks. Oh, these aren't divisions; they are brigades.
    General Craddock. Brigades, right.
    Mr. Dicks. Okay, so that is a lot less.
    General Craddock. Exactly.
    Mr. Dicks. Could they rotate other brigades?
    General Craddock. They could do it on a rotational.
    Mr. Dicks. To bring them into Europe.
    General Craddock. I am not specifying which ones. I just 
think right now we need----
    Mr. Dicks. We have done that before.
    General Craddock. Yes, sure.
    Mr. Dicks. Yes.
    Okay. Thank you, Mr. Chairman.
    Mr. Edwards. Mr. Berry.
    Okay.
    Mr. Crenshaw.
    Mr. Crenshaw. Thank you, Mr. Chairman.
    Thank you, General.
    Let me ask you a follow up on Mr. Dicks's questions about 
missile defense. I think there is $240 million for the defense 
sites in Poland and the Czech Republic. And last year, there 
was some discussion, I think, in the Armed Services Committee 
about some of those funds, that since everything hadn't been 
signed, that maybe you didn't need all those funds. And I think 
about $60 million was taken out.
    And I guess maybe 3 months ago, I was in Poland and the 
Czech Republic, and they didn't seem that concerned. I mean, 
they kind of had the insurances in it for money. You know, if 
they adopted everything, the money would be there.
    But I just wonder, from our side, you know, what kind of 
delay might incur if we don't have all the money when we need 
it? I mean, all this specialized missile--things change. I 
mean, is that something that maybe we ought to think about, in 
terms of--you know, we are not providing all the funds, but we 
are providing the funds to begin. I mean, it takes a while to 
get the funds, it takes a while to implement the things.
    Can you comment on that, you know, in terms of what that 
might create from our side, in terms of delaying any kind of 
structures and missiles that we might need? It seems like it 
might be better to make sure we have all the money there, 
appropriated, so that we can spend it as soon as we need it.
    General Craddock. Thank you.
    This is really complex. There are a lot of moving parts on 
this one, and there are a lot of agencies involved.
    From the European Command perspective, our requirement will 
be to initiate the implementing agreements, to contract, to 
probably pull in the shovels, turn the dirt, and start the 
work. When we do that, generally it has to be pegged against 
the development and the acceleration of the threat, the 
missiles in Iran. How are they coming along, whether they are 
nuclear or conventionally armed, and do they develop or do they 
buy from North Korea, or whatever that may be.
    So I think MDA and the intel community has a timeline, and 
we are now programming against that timeline. If that 
accelerates and we don't, obviously the risk goes up. So that 
is part of it.
    The second part, then, is, is the technical gear, the 
mission gear--radar, all the pieces and parts--available, so 
that when the brick-and-mortar is done, it can be bolted on, 
plugged in, wired up and turned on?
    And then, secondly, in Poland, are the interceptors through 
testing--because they are a two-stage, not three-stage, a 
little different configuration--and all that ready to go and 
synchronized then when, again, the brick-and-mortar is done and 
everything is ready to drop in? So that is the complexity here.
    So, you know, I am in a little bit of a difficult position. 
We are going to be the guys on the receiving end after the 
negotiations. The longer it takes for negotiations to draw out 
what our nation and those nations agree to, and then they sign 
that, and then we have to work to do the implementing, and then 
put the physical plant in there, the physical layout, so that 
you can bolt in the mission load. We are like the man in the 
middle here.
    So that is the uncertainty that I have. And I think--two 
things. The longer it takes for us, if there is no delay in 
what the intel community says the threat development is, risk 
would go up; or the faster that we could do this, then one 
could argue that you are way ahead of the threat, so, 
therefore, you are countering something that is not there. 
Striking the balance between the two is the hard part here, and 
that is the art, not the science.
    So, you know, we are going to have to take our tasking, 
which is the bilateral agreement signed; you guys, EUCOM, go do 
the implementing agreements, start to dig up the dirt and put 
in the buildings; and then, I think, at that point, we will see 
probably finer and finer resolution, in terms of the threat and 
when the radars and the darts, the big darts, are in the 
ground.
    Mr. Crenshaw. So we ought to be careful, in terms of making 
sure that you have got what you need to get in and implement 
the act.
    General Craddock. Yes, sir.

                                 EGYPT

    Mr. Crenshaw. Another broader question, too. I know Israel 
is under your command, and I know that you could spend a long 
time talking about that whole situation. But one of the things 
that came up last year in the appropriations process was--I 
know Egypt is not in your command, but there were some Egypt 
and how much it is doing to prevent some of the smuggling that 
goes into Gaza. So there were some restrictions put on the 
appropriations for Egypt.
    I just wonder, do you see enough, in terms of what is 
coming through the tunnels and what Egypt is doing or not 
doing? You see the results, I guess, of that in Israel. Can you 
tell whether things are getting better, changing less? Where 
else do weapons come from? Things like that?
    General Craddock. Congressman, I don't see enough to make 
that judgment on any basis that I would be comfortable in doing 
that. I see anecdotal information and obviously the results 
based upon the attacks in the settlements. But, no, I couldn't 
tell you if there has been a change in terms of cause/effect 
with what was done with the restrictions.
    Mr. Crenshaw. Okay.
    Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Crenshaw.
    Mr. Carter.
    Mr. Carter. Mr. Chairman, I understand you have already 
asked about the two BCTs from Europe, and that was the question 
I really wanted to ask you.
    Mr. Edwards. Then follow up, if you want.
    Mr. Carter. Well, I am still worried about exactly what is 
going to happen on the delay on the two BCTs that were supposed 
to come out. And as we look at global force, I understand what 
the general conversation has been. I apologize for being late.
    But it is a real concern for us, because we are trying to 
figure out some things at Fort Hood as to why we are not going 
to have 49,000 soldiers, as promised, at Fort Hood. And it is 
part of a mix. So I am still curious about that question.
    General Craddock. Congressman, largely an Army issue. All I 
know is that in conversations with the Army chief and the Army 
commander in Europe, those two brigades are designated for a 
return. And that is a Title X issue.
    Now, where they go, how that factors into the movement of 
brigades or battalion flags around the continental United 
States based upon if Army grow the forces, I just don't have 
any visibility on that.
    The two issues here, from my perspective, were: One, there 
was a Title X issue of where the Army was going to put 
everybody. BRAC reduces things. Grow the Army with six more 
brigade combat teams. So how do you do that? The Army said, we 
will leave them here a little longer, so we save some money and 
don't jerk the families around. That solved my problem.
    I think, come 2012 and 2013, that they are going to go, and 
either by then there is a decision that we still need four or 
two is going to be enough, and there will be other ways to 
scratch the itch, such as rotation of brigades and things like 
that. That is to be determined, at this point.
    Mr. Carter. Another question you were answering but I 
couldn't hear the answer, on this missile defense system that 
you were talking about over there. There doesn't seem to be any 
money in this particular appropriations bill for barracks and 
dining facilities and that type of things that would service 
them.
    And you were talking in a direction that I couldn't hear 
the answers. Because we are waiting on the countries we are 
negotiating with, to see what they will and won't provide; is 
that the answer?
    General Craddock. As I understand it, that is correct. The 
2009 was looking for brick and mortar to build the facility for 
the radar and the interceptors. Then in the 2010, 2011, 2012 
budgets, we would come in; then we would know the agreements on 
how many U.S. forces, how many U.S. contractors, how many 
Czechs or Poles would be there, so we could size the facilities 
to accommodate how many of our forces would we need to be 
there.
    Mr. Carter. That is what I thought you said. I couldn't 
quite hear you.
    Thank you, Mr. Chairman.

                        FORCE POSTURE IN GERMANY

    Mr. Edwards. Thank you, Mr. Carter.
    Let me follow up. I want to be sure I am clear. It seems to 
me you are making a common-sense position that, as of today, 
the decision has been made that in 2013 we will have those two 
brigade combat teams brought from Europe back to CONUS.
    But what you are also saying is that the next 
administration might be left with a decision to say 
circumstances changed. Perhaps a decision might be made in a 
future administration to leave more troops there than the two 
brigades scheduled to stay after that.
    And I don't want to read too much into your testimony, but 
you talked about an ever-changing security landscape. You talk 
about the Balkans remaining somewhat volatile, Kosovo due to 
its controversial nature. You talk about the ability of the 
United States, understandably, to shape factors. You spoke in 
your oral testimony a few moments ago about some of our 
European allies saying that we don't see American forces out 
training with us, and we need a partnership there.
    Basically, am I clear in understanding what you are saying 
is that, technically, as of this moment, the decision has been 
made, but circumstances change and a future Secretary of 
Defense or commander in chief might decide to leave more forces 
than were suggested in the 2004 global repositioning?
    General Craddock. Yes and no, Chairman. It may not be a 
matter of leaving those forces. It could be that the decisions 
are made to take those heavy forces back to locations that 
support heavy forces.
    And I have not specified whether I want heavy or light. I 
just need four brigade combat teams.
    Mr. Edwards. Right.
    General Craddock. We have got one Stryker already, so that 
is fine.
    And it could be, in the future, if the situation as we see 
it, the assessment we make strategically still says we need 
four brigades--and we continue to re-evaluate and re-assess--
that I would continue to ask the Secretary, and he may continue 
to say no. But I think I am compelled over time to prevent the 
case that, ``Here is what you and the Chairman have told me to 
do. Here is the ability we have to do it. I can't do everything 
you said. I need this much more.'' He may say no. Fair enough, 
and we accept risk. He may say, ``We are going to bring those 
guys home, and we will look at it in 2015.'' Fair enough. But 
it is a matter of risk.
    So I am not looking at specific ``keep those guys.'' I am 
just looking at two separate issues: What do I need to do the 
job? Now, he may say, ``We are going to send you two brigades 
on a rotational basis all the time. Every 6 months, you will 
get it.'' Okay. We will look at that and say, ``Fair enough,'' 
or ``Here is what we look like.''
    Mr. Edwards. The reason I wanted to follow up on that is 
that it has direct implications for this subcommittee, Military 
Construction, obviously. If the future decision were to be 
made, regardless of which brigade combat teams might stay, if 
the decision were to be more than two brigades, then that needs 
to be made in such a timely fashion that we will help fill 
barracks back CONUS that are going to remain empty.
    General Craddock. I fully appreciate that, and you are 
absolutely right.
    My staff has been directed, at this point: Stand down. We 
will look at this beginning of 2009. We will go through it, do 
another assessment, see if the same assessment holds. It may 
well be that, with a reduction in Iraq, and we have more of our 
forces at home, then we have different perspective.
    Mr. Edwards. Okay.

                           INADEQUATE HOUSING

    One other question on this round for me, and this is a 
question I am going to ask every commander that comes before 
our committee, including General Casey and others who have been 
here prior to your testimony today. And I want to get a metric 
so we can compare year to year to year. If you can't answer 
this orally now, if you could following up in writing.
    But the question would specifically be, how many service 
men and women and their families under your command are living 
in housing that does not meet basic DoD standards?
    Do you have a ballpark guess what that number might be? And 
if not, then you could follow up.
    General Craddock. I think we can get that, but I think it 
is somewhere around 28, 29 percent.
    [The information follows:]

    Currently, we have 7,000 Families and 9,500 Single Service Members 
residing in inadequate housing and barracks. Of this total, 
approximately 7,200 Families and Service Members are aligned with units 
that will be relocated as part of our Strategic Theater Transformation. 
We have focused our investment in housing and barracks at enduring 
installations, and this investment continues to reap benefits as those 
units are constructed reducing the inadequate inventory.
    Your continued support in ensuring funding for the request to 
eliminate inadequate housing and barracks is essential to continue to 
reduce these numbers. In FY09 the request for $291M in Family Housing 
construction and renovation projects will eliminate inadequate housing 
at enduring installations within theater. As we assess the needs in 
theater for the stand-up of the Africa Command and pursue the Strategic 
Theater Transformation objectives, we will continue to focus on 
ensuring the investment in housing and barracks is completed at the 
right locations.

    Okay, 91 percent meets standards; 9 percent is less than 
the DOD standards.
    Now, that is barracks and family housing or just barracks? 
Both, okay.
    Mr. Edwards. That is barracks and family housing. If you 
wouldn't mind following up in writing to us and letting us 
know----
    General Craddock. For the record.
    Mr. Edwards [continuing]. Where those troops are. We just 
want to monitor that each year. And we made a lot of progress 
in quality of housing----
    General Craddock. Oh, absolutely.
    Mr. Edwards [continuing]. In the last decade. It has been a 
great achievement; Pentagon, Congress working together. But I 
want to be able to compare numbers year to year to year. Thank 
you.
    Mr. Wamp.
    Mr. Wamp. Thank you, Mr. Chairman.

                                AFRICOM

    As I briefly mentioned, General Craddock, in my opening 
statement, I am very interested, as is Mr. Farr, who is not 
here today, in the establishment of AFRICOM.
    And General Ward's testimony here really sparked a whole 
lot of creative thinking about, how we reach out to the world 
in a cooperative way without taking up a permanent presence or 
scaring the countries that we are trying to help.
    And so, just from your view, how do you see that going, and 
how does the transition work and your relationship with General 
Ward as we head into AFRICOM?
    And then kind of a follow up on that, because I was 
interested in how he explained Djibouti, the part that we can 
talk about, and it being I think like a forward-operating base.
    Explain, too, the progress on the forward-operating sites 
in Bulgaria and Romania in Eastern Europe and how that is 
going.
    General Craddock. In AFRICOM, I think we are making 
progress, but it is probably a little slower than we had 
anticipated, from a couple perspectives.
    One is receptivity in country. The strategic messages that 
were sent, and we didn't get them received, in my judgment, by 
the right people and in the right fashion. We crafted them up 
to satisfy ourselves, but we didn't craft them up to satisfy 
the people who were listening. And so we have had to re-engage.
    And that is what, right now, the AFRICOM leaders--Kip Ward; 
Mary Yates, one of the deputies; and Bob Moeller, the other 
deputy--are doing, in terms of engaging directly at the right 
level, ministerial level, not sub-ministerial, which 
unfortunately is I think what occurred.
    So now I think we are seeing a little reversal of this 
early trend of skepticism and thinking that we were going to 
come in and overload them with a lot of military people. That 
is not the case.
    I am sure with General Ward being here, you know, we have 
discussed this. This is not about flooding Africa with military 
forces, to train military forces. This is about using the 
organizational energy, organizational brilliance maybe, of DoD 
to be able to pull together lots of functionality that exists 
and resides in our government. There are many talented people 
in Agriculture, Commerce, Health and Human Services, to deal 
with the problems of Africa.
    It is to assist the chiefs of mission to enable them to 
provide capacity and wherewithal. You know, we can do lift 
across vast distances in a very austere, immature country with 
no infrastructure. We can provide lots of things with others 
doing the task but we enable it through our capabilities to 
organize and deliver and move things around.
    So that is the intent here. This is what I think is well-
understood inside of our government. We are seeing more and 
more of the departments and agencies signing up with their 
people to participate. And that is a good thing. I know Kip 
probably told you, half of this organization is going to be 
civilian.
    Now, having said that, now we have to, I think, start the 
process of deeds, not words, on the continent, where we have to 
go in and, working with chiefs of mission in regions and 
countries, using the Horn of Africa construct where we are out 
doing projects all the time: building a school, building a 
community center, turning it over, inoculating children, 
vaccinating them, deworming them for the first time in their 
life. Those are the types of things that make a difference. So 
that is where I think the first effort goes.
    Over time, I am convinced that there will be a greater and 
greater receptivity, and we will figure out then where we 
should put a headquarters there or a presence; where we should 
augment regions. Because I am not sure we have to be in every 
country, but if we could do it regionally--because a lot of 
these countries have the same regional problems. West Africa is 
different from North Africa, and things like that.
    And then we have got to ultimately work with those who 
don't want us there and are influential in that judgment--in 
the south, South Africa; north, I think Egypt; and there are a 
few others--to convince them that, look, we are not a threat, 
we want to work with you. This is not about who is in charge; 
it is about how best to deliver help to those who need it.
    So I think there is some good opportunity there. And it is 
going to take a little while, and it is going to--we are going 
to have to push hard for, again, the people to get there. My 
Command, we have identified 421 people we are transferring. 
There will be more than that, but that is the number right now. 
We will see this summer, I think, a big input of people, 
because summer moves will take--once the kids get out of 
school.
    And then I think the 1st of October it is to stand up on 
its own. It probably won't do all of the functions on its own. 
We will retain some of those. Potentially CENTCOM in the Horn 
will retain a few. But we will transfer that as soon as 
possible. And the AFRICOM folks are working out now the 
transfer of what may be delayed a bit.
    But we are coming along. And the key here is a measured 
approach to the right people to explain we are not a threat and 
we are there to augment where they need help, to give them a 
hand, and hopefully train and teach so that they can do it on 
their own sooner rather than later.
    If I could go to Romania and Bulgaria and the progress 
there, I believe that the MILCON for 2008 finishes out those 
two programs for building infrastructure for Joint Task Force 
East. We have already done a pilot rotation there out of U.S. 
Army-Europe, with some help from the Navy and the Air Force 
forces.
    We do not have identified from the Department rotating 
brigades yet, because the force commitment to the global force 
pool will not support a rotation of brigades from the States 
right now. They are all either going to Afghanistan or to Iraq.
    So we are rotating forces available out of EUCOM to, one, 
prove the principle; two, to work with the Bulgarians and the 
Romanians; and three, to entice others to come in and train 
with us also.
    So it is more of a pilot now than an actuality, but I think 
that we are proving the principle. And the first rotation this 
past summer, in 2007, was very powerful.
    Mr. Wamp. Just one follow up, Mr. Chairman.
    I was interested--Mr. Crenshaw just mentioned that Egypt is 
in a unique position. And I remember, last year, our full 
committee conversations when Mr. Wicker was Chairman Edwards's 
ranking member. There was a lot of commentary about Egypt and 
how important Egypt is to us.
    Yet I would be interested in your perspective with the 
October 1 stand-up of AFRICOM and Egypt still being under 
CENTCOM yet it being in the African continent. Does that help 
or hurt Egypt?
    It seems like there would be some advantages to it becoming 
almost its own entity. While it is under CENTCOM, it is 
separate and very, very strategic and important. But, then 
again, I would be concerned that there may be some overlap 
there, in terms of territories.
    What do you say?
    General Craddock. I think your last statement is spot-on; 
there is some overlap there, with regard to Egypt. Egypt is a 
schizophrenic country, quite frankly. And that is not bad.
    Now, Egypt is one of NATO's Mediterranean Dialogue 
countries. They come to our meetings, defense ministerials, and 
every time they do they are the most active of the North 
African Mediterranean Dialogue countries wanting to 
participate.
    I was asked, ``Come down to Egypt. Tell us what you need in 
Afghanistan. We might be able to give you some trainers.''
    Now, set that aside. They also want to be a part of the 
African continent, so they are interested in, ``How do we fit 
in Africa? We don't want to be excluded from that.'' And then 
there is the Arab-Israeli issues with CENTCOM that pull them 
that way, into Gaza and elsewhere.
    So they, indeed, have some partitions there that they are 
going to have to, I think, work to solve it, and we are going 
to probably have to engage and help them do that.
    But there is, without question, overlap that is causing us 
to try to figure out what is the most powerful approach to 
reduce friction points? How can we reduce the friction points?
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Edwards. Mr. Crenshaw.
    Mr. Crenshaw. Thank you.
    On AFRICOM, to stand that up, what kind of impact does that 
have on your mission or in the dynamics? And then, for 
instance, of the--does it change the force structure at all? 
Are there any military construction needs that that brings up?
    General Craddock. The impact of the stand-up of AFRICOM is 
the transfer of missions, activities, programs, exercises and 
personnel. And that is in process. We have got a big AFRICOM 
transition team doing a wonderful job of identifying all that. 
I reviewed it. I was impressed with the level of detail. We are 
working through that document. And it is a very rigid, 
disciplined approach. So that is a work in progress, and that 
is ongoing.
    The delaying factor in that is the arrival of personnel to 
fill the AFRICOM billets. We can't transfer a mission or an 
activity without someone being there. And they are behind 
schedule. So that is why we are a little bit behind schedule in 
the transfer. But we understand the cause/effect. They will 
come in this summer; we will get them ready to go by fall.
    As far as then the next step, there are not going to be 
additional troop formations, organizations, flags on the 
continent. We looked at it and said, maybe the best approach is 
regional--regional integration teams, where it may be 25 or 30 
guys go into a mission, embassy, in a country, in a region, and 
then instead of having this Office of Defense Cooperation, 
where we have around the world--the Department of Defense has 
five or 10 guys in every country, and they do security 
assistance and Foreign Military Financing and International 
Military Education Training--we have these 25, 30 guys do it 
for the entire region.
    So that is the next step, is to organize and put in some 
regional integration teams.
    Mr. Crenshaw. Does it affect, kind of, what you are doing? 
Or is it just--your dynamics in your mission, it will just--you 
will be doing it. That will be a kind of separate thing, but 
there wouldn't be an impact on what you are doing.
    General Craddock. The biggest impact for us will be 
heretofore our special operations commands, SOCEUR, has been 
doing the work in Operation Enduring Freedom-Trans Sahara, 
Northern Africa, against the Al Qaida affiliates, AQIM. That 
will transfer to SOCAFRICOM, Special Operations Command-
AFRICOM, when they stand up.
    That will be a significant transfer, because that is a big 
effort for training, building partner-nation capacity, and 
having our special forces there countering the Al Qaida located 
there. That is the big change.

                               EDUCATION

    Mr. Crenshaw. Just one last question, Mr. Chairman.
    You mentioned in your opening statement about education. 
And we had talked about this. And I know this committee is 
awfully interested in quality-of-life issues. And I know Mr. 
Wamp and I have talked about the dollar devaluation and the 
impact that has had on our soldiers.
    Can you talk a little more, because I found it kind of 
astounding, I can't remember the numbers, but I think almost 
half the educational needs are there in his command, and yet 
they get about a third of the money they really need. Can you, 
kind of, talk about what impact that has, in terms of the 
families and the kids?
    Because I think, in terms of quality of life, sometimes we 
miss that in overseas. We think about housing and health care 
and all that stuff, and child care. But when you are overseas 
and you are not getting the right kind of education, you are 
really setting people back.
    General Craddock. Thank you. Indeed, I can. And it is 
important, and it is one of my special emphasis areas.
    We have about 45 percent of the schools and school children 
that are administered under the Department of Defense 
Educational Activity. Now, that includes the Pacific, Europe 
and continental United States, because there are now some 
vestigial schools here that are run by Department of Defense.
    We get 15 percent of the O&M budget and the military--not 
military--construction budget. So we are under-resourced there 
by about a factor of a third, and we should be getting much 
more than that.
    The DODEA is under-resourced in terms of what they need to 
operate their system. So it is a double hit, if you will. They 
don't have what they need, and then we get, I think, I know, a 
smaller share than we should based on what they are doing.
    Now, the question that ought to be asked--and I have asked 
it, and I don't know the answer because it wasn't provided--is, 
who is getting the bigger share? The answer is, here in the 
United States. The United States has a choice. If you don't 
want to send your child to a school on the base, you can send 
your child to a local school. We don't have a choice.
    So the question is, how does the allocation get made? And 
it is based upon a committee system that is very arcane and 
maybe a bit achronistic.
    So that is the point. Here is the effect: If you come down 
and you have children, then the question is--young children, 
okay, probably enough flexibility, doesn't make too much 
difference. The next question is, if you have middle-school- or 
high-school-aged children, which our mid- to senior-level 
officers will have, okay, where are we going? What is the 
school like? How close is it? How long is the bus ride? And do 
they offer A.P. courses or extracurriculars?
    And I think what we are seeing, starting to see here, is 
the danger of--and I don't have the numbers, but I am pretty 
sure, anecdotally, it is happening--instead of coming as a 
family unit, mom and the kids stay home because they know, 
where they are, what they have, and they don't want to take a 
chance that the children are handicapped where they are going.
    And, look, in all fairness, DODEA has done a very good job, 
DODDS-Europe, Department of Defense Schools--Europe, over these 
last several years of faculty enrichment. They have pretty good 
teachers. My kids went there over the years and it was up and 
down. Today I am pretty confident, I feel much better. Because 
we have shrunk the number of schools, they have kept hold of 
the best teachers and administrators.
    You can't have that world-class and substandard facilities, 
because that also will keep the kids away, and mom and the kids 
stay in the States. If you do that, you break up the family 
unit, you have got a 2-year tour instead of a 3-year tour, you 
have got much more turnover, and you have got the continual 
possibility of something happening back home so dad or mom 
better go back and take care of this thing. It is more 
friction.
    And we need to make sure we don't penalize the kids, we 
give them good opportunities, and that when they come back and 
they are competing for college entrance they compete fairly.
    Mr. Crenshaw. Thank you.
    Thank you, Mr. Chairman.

                                  NATO

    Mr. Edwards. Thanks for raising that issue.
    General, let me ask you about NATO. To be effective, 
clearly it has to be a two-way street. As member nations get 
the protection of the alliance, they also have responsibilities 
to participate when the alliance makes a decision to take an 
action.
    Could you give us a summary of what the problems are with 
some of the NATO members in Afghanistan and what does that 
suggest about the future of NATO and its effectiveness?
    General Craddock. I think we are in a transformation of 
NATO. We still have a NATO that is by and large organized, 
arranged, processed for a 20th-century situation, a Cold War 
situation. They have not come to the reality of transnational 
threats and new situations that are not planning and preparing, 
as we did throughout the decades of the Cold War, but having to 
operate, make decisions.
    Their sons and daughters of the nations that send their 
forces forward are in harm's way. And we can't wait forever to 
get decisions and processes in place to avoid that.
    So the fact is we are operating right now off of a 
strategic guidance from 1999. And the world has changed 
significantly since 1999. So that is one of the things that, 
between now and next year's 60th summit, I think that there is 
going to be some significant energy to try to get a new 
strategic document.
    Secondly, all the countries, 26 of them, know that the 
benchmark for contributions for their defense establishment is 
2 percent of GDP. That is what NATO has said. ``You guys, 
members, need to commit 2 percent of your GDP.'' By my 
calculation, six of 26 meet that today. The trends are down for 
those that don't meet, they are mostly going further away from 
meeting. And for the six that do, four of the six have got 
negative trends.
    So, now, this is the choice. The choice is, do you put that 
money against collective security, or do you put it into social 
services and 32-hour workweeks and other things like that? But 
fair enough, those are national decisions.
    However, the realization, I think, has failed to hit home 
that it is not anymore about sovereign states are the problem; 
it is about transnational threats, for which there is very 
little we can do diplomatically or politically. Who will you 
negotiate with if it is time to do a diplomatic effort with a 
transnational threat like Al Qaida, AQIM, PKK, Hezbollah? I 
don't know. They aren't there. They don't exist. So the new 
paradigms have to be, I think, recognized and acknowledged.
    European countries, by and large, consider terrorism a 
public security issue that is only going to be dealt with by 
the police when the problem is visited on their people. I think 
the Brits have got it now, that it is bigger than that, because 
they have been attacked. The Spanish have been attacked. I 
thought they had it; they have lost it. They are back to public 
security. And I think maybe some of the other countries--the 
Germans found out that they had some bad guys, and they did 
some good work. The Belgians have done some good work. The 
Danes have done some work.
    There is starting to be a realization, but it has not 
reached all of the nations. That is what we have to do, is 
continue to work with them to make them understand that.
    Now, in Afghanistan, the fact of the matter is that I think 
the level of ambition in NATO has exceeded its political will. 
They said, go provide a safe and secure environment in 
Afghanistan, tell us what it is going to take. My command did 
that. We said, here is what it is going to take to do what you 
told us to do. They have yet to give us those forces.
    Mr. Edwards. How many forces? Can you say publicly, in this 
setting, how many forces?
    General Craddock. We really deal with capability, but it is 
a matter of a few battalions. The key are the enablers--rotary 
wing lift--heavy and light helicopters--intelligence, 
surveillance, and reconnaissance. These are the key enablers 
that we need that we don't have, in addition to a handful of 
battalions.
    Does NATO have it? They do. The problem is, the political 
decisions have yet to commit to doing it.
    So what that does is a couple things. One, it limits us--
and some of the forces they have provided have restraints, 
caveats. Either functionally, they can't do certain functions; 
or geographically, they can't go certain places. They can only 
stay in their own little area.
    So what is the sum total of this? This has then limited the 
ISAF commanders' flexibility to use forces around the country. 
It constrains the regional commanders' ability to use forces 
inside of his region, different provinces. And it puts every 
Soldier, Marine and Airman at great risk because of these 
inflexible conditions. And it is going to prolong the conflict, 
and it is going to get more people banged up, either wounded or 
killed.
    Now, the space we give them, the bad guys, the insurgents, 
is the space between what we need and what we have. And that is 
their operating space. If we could take that away, we will see 
progress faster.
    Mr. Edwards. Is there anything we can do in the next 12 
months to change that situation?
    General Craddock. The issue becomes one, I think, of 
European constituents and the ability for leaders of nations 
who have skeptical constituents to convince them that it is 
just, it is winnable, and if they don't do this, the likelihood 
of having the terrorist visit them is higher.
    The parliamentarians, the NATO parliamentarians, of which 
there are several in Congress, can be very helpful when they 
meet with their counterparts and engage to carry the message 
and to push them to ask questions, to go to NATO, to find out 
the realities of what is happening on the ground.
    Mr. Edwards. Good. Thank you.
    Mr. Wamp.

                   EUROPEAN COMMAND AREA OF OPERATION

    Mr. Wamp. General, in the last hour, we have covered a lot 
of ground and a lot of issues, but you have a vast area of 
responsibility (AOR). Are there any other concerns that you 
have that we haven't discussed today that are under your AOR?
    General Craddock. Well, I think the ever-present threat of 
weapons of mass destruction is a concern I have, from a couple 
perspectives.
    One, if you look at my area of responsibility, I have more 
nations with nuclear capability than anywhere else in the 
world.
    Secondly, the Eurasian area, the Transcaucasus, the 
Balkans, eastern, western, have been traditionally crossroads 
for smugglers throughout history, whether it is contraband, it 
is people, weapons, explosives, drugs. And I think because 
those routes, channels, linkages, cells, networks, are present 
in today's world, they could be easily co-opted into the 
movement of a weapon of mass destruction, whether it be nuclear 
or chemical or biological.
    So that is a concern.
    Third, I have a concern about energy security. That is my 
NATO hat and my EUCOM hat. And my concern is that the ability 
to use energy, whether it be natural gas or oil, as a political 
bargaining chip is now beginning to be more and more a reality. 
That when nations or a nation controls not only the reserves, 
the production and, most important, the distribution means, 
pipelines, to their advantage, then I think that it could be 
very onerous acts occur and there is very little we can do.
    Today we have seen already valves shut down which affected 
a nation, but, downstream, other countries were affected. So 
there was some political pressure, cumulative, collective 
pressure, and the situation resolved.
    The more the control of the pipelines occurs, the buy-up of 
those distribution means, the greater the likelihood of a very 
precise shutdown. In a cold, northern European winter, if the 
natural gas is shut off and 3,000 people lose their lives, is 
that a weapon of mass destruction?
    So I think energy security has to be a focal area for NATO, 
I think for sure the European Union, because they have enormous 
opportunity to push back and resolve that, not only from not 
letting it get to a policy determinant, but to find alternative 
means to deliver in the event that these specific pipelines are 
threatened.
    Mr. Wamp. I have no further questions, Mr. Chairman. Thank 
you.
    Mr. Edwards. Just a couple of other questions from me, 
General Craddock.

                                 KOSOVO

    Kosovo--we plan and hope for the best-case scenario, but we 
have to be prepared for the worst-case scenario. Not to say 
this is likely to happen, but could you outline what would be 
the worst-case scenario in Kosovo?
    General Craddock. Well, we have definitely a unique 
situation where this coordinated declaration of independence 34 
nations have recognized, I think is the number, which is a bit 
disappointing.
    We have the U.N. now operating, and NATO, under Resolution 
No. 1244, which we have for several years. That is our 
authority.
    There will be a constitution, it appears now. A draft has 
been approved. It will go to file and be implemented mid-June.
    We understand from the U.N. when that occurs that the 
United Nations will leave Kosovo and that the European Union 
will come in, and they will bring in a policing force. And they 
will bring in an international coordinator, who is from a 
European Union nation. He will be the international 
coordinator, but not a European Union coordinator. So it is a 
little bit unique.
    We say--``we,'' NATO--as the international military force. 
Now, the question becomes authorities. If 1244 is still in 
place, we have authority. Does the European Union's delegation 
of police have 1244 as their authority? If not, the Serbs won't 
recognize them. If they do, the Serbs likely will. They say 
they won't recognize it because it doesn't fit.
    So there are incredibly complex legal decisions and 
judgments being made all the time. Worst case? Worst case is 
that mid-June, if not earlier, the Serbs say, we have had 
enough of this, and they try to take a hard partition north of 
the Ibar River and say that is now part of Serbia. And at the 
same time, the Kosovar Albanians say, we have had enough of 
this, and they go back to try to take it back. And then we, 
NATO, with a U.N. police force that is leaving, a European 
force that has yet to come in, are caught in the middle.
    I think there has been considerable constraint, restraint, 
on the part of the Kosovar Albanians, and I applaud them for 
that. I think we have had some mischief out of Belgrade.
    On the 17th of March, there was a situation in Mitrovica 
that crossed a line for the first time, where the U.N. took a 
stand to ask NATO to help them take the stand. We took that 
stand. And it was not a demonstration by the people against it. 
It was a specific, war-like act of street combat by 
paramilitaries against both the U.N. force and the NATO force. 
The U.N. police had 35 Ukrainian policemen wounded, one killed. 
NATO had 50 French soldiers wounded. Fourteen required 
hospitalization.
    So that was a line that was crossed. So this has changed 
now this equation. I think that Belgrade was surprised that the 
U.N. and NATO stood up and said, no more. These paramilitary 
structures have been developed over time in the Serbian 
enclaves. Right or wrong, they developed. Now, our challenge is 
not to let them go hard and become a partition. So we have to 
stand our ground.
    And I think there has to be political engagement with 
Belgrade, and there has to be by the European Union, by the 
U.N., by NATO, to convince them their future is not east; it is 
west and the E.U. and Europe.
    Mr. Edwards. Thank you, General.
    Let me say, finally, before my last question, I appreciate 
your addressing these broad issues. We will have staff follow 
up on some of the specific MILCON issues. But, you know, it is 
such an important opportunity for us to get a big-picture view 
of your perspectives in order for us to make rational MILCON 
decisions.

                      MILITARY PRESENCE IN EUROPE

    So let me finish by going backward to the most basic of 
questions. For those who would say our presence in Europe is no 
longer needed, the Soviet Union has broken apart, let's bring 
all the troops home--I know there is no serious effort to bring 
all of our forces home--but would you just outline for the 
record what are the positive military, security, economic, 
relationship benefits of our military presence in Europe?
    General Craddock. Well, the world is changing faster now, 
obviously, in this post-Cold War period than during the 50 
years or so, or 45 years, that we had that. I think that the 
first thing I would say is this is not about posturing against 
a rising Russia; that is not what this is about.
    This is about creating partners and allies. It is about 
helping them help themselves, build their capability to ensure 
that they have the capability to, one, secure their own 
countries; and then, two, if they desire and when asked, be 
able to help NATO, United Nations, whomever, to project forces 
for security operations anywhere in the world.
    And I will tell you that many of the new nations want to do 
that. They don't have much capacity, they don't have much 
capability, but they are trying very hard. So we are grateful 
for that.
    There is still instability in the Caucasus, frozen 
conflicts. There is still enormous distrust between those 
countries, many of them, or factions of those countries and 
Russia.
    Russia is concerned that NATO is threatening them. At the 
Bucharest summit, I think President Putin talked about the 
western bloc. It is not a bloc. That term is old-think, it is 
Cold War. These are all democratic nations. These are all 
nations that have met certain criteria. They have stable 
governments, they are democracies. I can't imagine being 
threatened when you have democracies on your borders unless 
there is something else at work.
    So I think that, to those who say, ``Bring them all home,'' 
we have brought a lot of them home. You know, I got to Europe, 
the first time, 1972. It was 780,000 active-duty forces. We are 
going down to 66,000.
    But the fact that we are there and that we are the gold 
standard for military efficiency, effectiveness, how to 
operate, everybody wants us on their team. And we have to have 
somebody there to do that.
    And the subtle part of this is, sure, we could rotate 
forces from the States every 6 months. But I found this out 
when I was down in Latin America, and we did that in Colombia 
with special forces. We were rotating the same guys. And over 
30 years, they spoke Spanish. It was perfect. And then they 
went to Iraq, and we brought in a new team, and it was like, 
``Who are these guys? And they don't speak our language. They 
don't know us.''
    We have got to have--I call it the ``Cheers'' complex. You 
have got to go where everybody knows your name. Okay? And if 
you are there, and every few months you are dealing with those 
people, and pretty soon they trust you, they know you, and you 
will push up the relationship and their capabilities much 
faster than if you push it up for 6 months and then they are 
gone, new guys come in, get it up a little bit, then new guys 
come in, and you are always in a sine wave.
    So I think we do need some forward-deployed for that very 
purpose, of being able to engage every day. And secondly, all 
of our service members are diplomats. You know, when they are 
out there, that is a good thing.
    So I think that is important. So that is the answer I would 
give to the skeptics, that because, you know, we are the gold 
standard and everybody wants to be like us, and we have got to 
be there to show them what ``us'' looks like.
    Mr. Edwards. Do you do much training of foreign military 
officers in Europe? Or is that done more----
    General Craddock. The IMET, international military 
education and training, brings them back. Great program, most 
important thing we do.
    Secondly, oh, we absolutely--we do exercises, even though 
they are reduced. We do exchanges, platoon and company, 
reduced. We bring them to our training area--Grafenwoehr, 
Hohenfels--to our NCO academy at Grafenwoehr. Oh, absolutely. 
And we can't do enough of it, quite frankly.
    Mr. Edwards. I was at Leavenworth not too long ago, and I 
was amazed to see how many foreign officers were there on a 
regular basis.
    General Craddock. Absolutely.
    Mr. Edwards. What a great thing.
    General Craddock. Very good.
    So those are the things that--not so much, maybe, Western 
Europe countries, because we have been there a long time, had a 
relationship, but it is the outreach to the Caucasus and to the 
Balkans. We are seeing more and more--I said in this 
Mediterranean Dialogue, North Africa is trying to reach out, 
both north and south. But AFRICOM will be looking there also.
    Mr. Edwards. Great. Great. Thank you.
    Zach, would you like the last word?
    Mr. Wamp. I am through.
    But I thank you, sir.
    General Craddock. Thank you, sir.
    Mr. Edwards. Great. General Craddock, thank you very much.
    General Craddock. Thank you, Chairman.
    Mr. Edwards. We look forward to working with you and your 
staff.
    General Craddock. Come visit us. Come visit us.
    Mr. Edwards. We will do that.
    General Craddock. All right. Thank you, sir.
    [Clerk's note.--Questions for the record submitted by 
Chairman Edwards.]

    Question. The September 2004 Global Defense Posture Report to 
Congress stated that ``the United States will strengthen its deployable 
military capabilities in Europe.'' As commander of EUCOM, do you 
believe that your deployable military capabilities are as strong, or 
stronger, than they were in 2004?
    Answer. U.S. European Command's (EUCOM) deployable military 
capability has increased since the development of the Strengthening 
U.S. Global Defense Posture (GDP) Report to Congress in 2004 and will 
continue to strengthen over the next five years until GDP goals are 
met. Prior to 2004, EUCOM capabilities consisted of heavy division 
centric, massed forces with robust infrastructure. Today's forces, 
which may not have the same end strength capability of those five years 
ago, are tailored to be much more deployable to meet the needs for out 
of area operations.
    To date, the following GDP achievements have helped EUCOM attain a 
lighter, more agile and deployable fighting force:
          <bullet> Modularization of the 173rd Airborne Brigade Combat 
        Team
          <bullet> Partial Modularization of two remaining heavy 
        Brigade Combat Teams to allow them to participate in Operation 
        IRAQI FREEDOM
          <bullet> Integration of a Stryker Brigade Combat Team
          <bullet> Consolidation of U.S. Army, Europe and 5th Corps 
        into 7th Army to form flatter command and control support 
        functions
          <bullet> Merging of U.S. Naval Forces Europe and 6th Fleet 
        Headquarters at Naples, Italy, to create a single Joint Task 
        Force-capable headquarters
    EUCOM's transforming posture continues to be characterized by more 
deployable capabilities as well as leaner command and support 
structures strengthening deployable military capability. Currently, 
EUCOM has two U.S. Army Europe Joint Task Force-capable headquarters, 
one 6th Fleet Joint Task Force-capable headquarters, one 3rd Air Force 
Joint Task Force-capable headquarters, and improved headquarters staffs 
across the components, providing a leaner command and support 
structure. EUCOM forces are more deployable than 2004. At the same 
time, EUCOM has fewer forces to deploy than in 2004.
    Question. Has EUCOM conducted any sort of infrastructure review to 
determine what the facility requirements would be if the two 
temporarily stationed Heavy Brigade Combat Teams were kept in Germany 
beyond 2013?
    Answer. The two Heavy Brigade Combat Teams have been stationed at 
non-enduring installations as reported in the 2004 Department of 
Defense Master Plan. The Operations and Maintenance funding accounts of 
these installations have been maintained to ensure current operations 
capabilities, but no Military Construction investments have been made 
to recapitalize the infrastructure for long-term use.
    In 2007, U.S. European Command staff conducted a study to identify 
the force structure requirements needed to accomplish theater 
objectives. During this study a general comparative assessment of the 
stationing options and capacity to retain the currently assigned four 
Brigade Combat Teams was completed. The study determined that 
operational and housing capacity exists; however, there has been an 
investment pause at non-enduring installations. Should two Heavy 
Brigade Combat Teams be retained, the normal modernization and 
recapitalization planning would need to be initiated for retained 
infrastructure.
    Question. How many permanent U.S. military personnel do you 
currently have within the EUCOM AOR, and what is the year-by-year 
schedule for completing the drawdown by 2013?
    Answer. There are currently 86,560 permanent military personnel in 
the EUCOM AOR. This number will decrease at a nonlinear rate to 62,800 
military personnel in 2013. The preponderance of the drawdown of forces 
will include U.S. Army and USAF personnel, of which the majority will 
be U.S. Army personnel during the return of the 2 Brigade Combat Teams 
and supporting units in 2012 and 2013.
      The current 2008 personnel footprint is as follows: U.S. Army--
46,800; U.S. Navy--6,200; U.S. Air Force--30,700; U.S. Marine--1,060; 
SOF--1,800; Total: 86,560.
    The 2010 personnel footprint is as follows: U.S. Army--44,300; U.S. 
Navy--6,200; U.S. Air Force--28,200; U.S. Marine--1,060; SOF--1,800; 
Total: 81,560.
    The 2013 personnel footprint is as follows: U.S. Army--28,000; U.S. 
Navy--6,200; U.S. Air Force--25,700; U.S. Marine--1,060; SOF--1,800; 
Total: 62,760.
    Question. Will EUCOM play any role in determining the personnel 
requirements for operating the ``third site'' missile defense 
facilities?
    Answer. It is EUCOM's understanding that we will have the 
opportunity to review and comment on lead service proposals, but will 
not have approval authority.
    Question. When do you plan to complete construction on facilities 
programmed for the 173rd Airborne Brigade Combat Team at Dal Molin?
    Answer. The 173rd Airborne Brigade Combat Team is currently the 
only split-based combat brigade in the U.S. Army with four of its six 
battalions stationed in Schweinfurt and Bamberg, Germany. In order to 
reduce the operating inefficiencies and meet Strategic Theater 
Transformation timelines the Military Construction is scheduled for 
completion by early calendar year 2012 to enable the consolidation of 
the Brigade by the summer of 2012.
    The Dal Molin Complex at Vicenza was originally programmed for 
$479M ($306M in Fiscal Year 2007 and $173M in FY08) to provide 
facilities for locating the 173rd Airborne Brigade Combat Team. While 
the project is fully authorized, the Fiscal Year 2008 request was 
incrementally appropriated. Of the $352M appropriated to date, $80M has 
been expended. In addition, a design/build contract was awarded for the 
entire Dal Molin complex on 28 March 2008 to a construction company 
with a proven track record of early completion. It is reasonable to 
expect this company will finish the project in advance of the projected 
completion in early calendar year 2012.
    Question. When do you expect to achieve initial operating 
capability and full operating capability for the consolidated 173rd 
ABCT at Vicenza?
    Answer. The 173rd Airborne Brigade Combat Team (ABCT) is currently 
the only split-based combat brigade in the U.S. Army with four of its 
six battalions stationed in Schweinfurt and Bamberg, Germany and the 
remaining forces stationed in Vicenza, Italy. EUCOM does not draw a 
distinction between Initial Operating Capabilities (IOC) and Full 
Operating Capabilities (FOC); The 173rd ABCT will be fully operational 
in Vicenza when all of the new facilities are ready and the brigade has 
consolidated in Vincenza. Based on current construction timelines, and 
assuming continued annual Congressional appropriations, the 
consolidation and FOC of the 173rd ABCT are scheduled for summer 2012.
    Question. The fiscal year 2006 budget included a $7 million fuel 
pipeline project at Souda Bay Naval Station. This project was 
ultimately cancelled, at least partially due to obstruction by local 
government authorities. The FY09 request includes $27.8 million for a 
similar project at Souda Bay. What has changed between FY06 and FY09 
that led to this project's revival? Why has the cost of the project 
increased from $7 million to nearly $28 million? Is this project 
eligible for NATO Security Investment Program funding? Is EUCOM 
confident that the Government of Greece fully supports the continued 
use and recapitalization of Souda Bay for both U.S. and NATO missions?
    Answer. This military construction project will ensure continued 
ability of Naval Support Activity Souda Bay to provide theater tanker 
support. In FY06 the project was programmed to replace an existing 4-
inch fuel transfer line between the Marathi Fuel Depot and Naval 
Support Activity Souda Bay with a 6-inch line. The existing pipeline 
was constructed in 1971 and has heavy corrosion, no cathodic protection 
and no leak monitoring system. This project has remained a priority due 
to the pipeline's fragile condition and reduced operating capacity. 
However, due to problems securing local easement rights the project was 
delayed and funds reprogrammed. Continued engagement with the local 
government and Hellenic Defense staff recently secured approval for the 
project.
    The current project combines the original FY06 project with a 
previously planned FY09 project to construct two new 12,000-barrel fuel 
tanks at the airfield. These two projects together account for the 
difference in cost from the original $7 million requested in FY06 to 
the $27.8 million requested in FY09 for the combined project.
    The project is potentially eligible for NATO Security Investment 
Program funding, however there is no current NATO capability package 
supporting this project. European Command staff is actively engaged 
with the host nation and with NATO to develop a viable means for common 
funding. A pre-financing package for the original pipeline project was 
submitted to NATO for the future recoupment of funds from the NATO 
Security Investment Program. A separate pre-financing package will be 
submitted for the full project, pipeline and tanks, in the near future.
    The Hellenic Defense General Staff has expressed support for 
operations at Souda Bay, to include support for both U.S. operations 
and the NATO maritime capability. There is currently no NATO mission 
related to the development of airfield capabilities.
    If this project is not funded, Souda Bay will not only continue to 
have inadequate fuel storage capacity to meet mission requirements for 
assigned and transient aircraft, but the pipeline capacity and 
condition will continue to adversely impact mission capability and pose 
a significant environmental risk.
    Question. A large portion of EUCOM's AOR will be shifted to Africa 
Command. Have you reviewed your posture and infrastructure requirements 
in light of this development, and have you determined that any changes 
are necessary?
    Answer. The recommended U.S. Africa Command posture is based on a 
distributed command and control model that will leverage existing 
infrastructure. In carrying out its missions, Africa Command will 
consolidate the efforts of three commands into a single command focused 
solely on Africa. The command strategy for the continent relies on 
using security cooperation and leveraging multinational partnerships to 
build African security capacity.
    U.S. European Command and Africa Command theater posture planners 
are currently working the transfer of responsibility for the African 
AOR to the Africa Command. U.S. European Command will continue to 
review and update theater posture and infrastructure requirements 
through the U.S. European Command Master Plan and the Global Defense 
Posture Plan. EUCOM infrastructure will experience little change and 
only a minimum of new infrastructure will be required off the continent 
of Africa (in Europe) to enhance headquarters and component 
capabilities in support of Africa Command.
    Question. How will the ``seam'' between AFRICOM and EUCOM affect 
operations in the Mediterranean?
    Answer. The ``seam'' will affect our operations for the Navy very 
little. USEUCOM will continue to be responsible for all the water in 
the Mediterranean except for the territorial waters (out to 12 nautical 
miles) on the northern coast of North Africa. When naval units transit 
the Mediterranean and are tasked to pull into North African ports for 
Theater Security Cooperation engagements or logistics requirements, 
USEUCOM will shop Tactical Control for Force Protection to USAFRICOM 
and the engagement will proceed. This type of Combatant Command 
coordination occurs frequently.
    Question. What is the status of appropriated construction projects 
in Romania and Bulgaria to establish forward operating sites for Joint 
Task Force--East? How many exercises have been conducted at these 
sites?
    Answer. The Military Construction (MILCON) projects (phase 1 and 2) 
in Romania have been awarded for contract with completion scheduled for 
June 2009. Phase 1 is currently under construction and Phase 2 will 
begin construction within two months.
    In Bulgaria the Military Construction project site has been 
approved. Contract award is to be not later than September 2008 with a 
projected completion of May 2011. Until these projects are complete, 
all exercises are being conducted at temporary forward operating sites 
in the vicinity of the MILCON construction projects.
    While current force commitments do not support a rotation of 
brigades from the States, U.S. European Command has provided available 
forces on a rotational basis to: (1) further develop proof of 
principle; (2) enhance relationships with Bulgaria and Romania; and (3) 
develop future partners. Once the permanent facilities are constructed, 
we will utilize those facilities to support exercises similar to the 
engagement outlined below:
    The U.S. Air Force conducted three Flying Training Detachments 
(FTD) during Fiscal Year 2007. A FTD typically consists of a deployment 
of 4-12 aircraft and 250 crew and support personnel for two to three 
weeks duration.
    U.S. Army, Europe (USAREUR) conducted the Joint Task Force--East 
(JTF-E) Proof of Principle (PoP) exercise in Romania and Bulgaria from 
July to November 2007. Most of the training event was conducted at MK 
Airbase.
    During the peak training periods, there were approximately 250 
Romanian soldiers and 800 U.S. soldiers conducting combined training. 
The FY08 rotations will more than double this loading.
    U.S. Navy Europe maintains a Seabee Detachment on six month 
rotations at MK Airbase. The Seabees conducted facility maintenance and 
renovation work, as well as U.S. European Command (USEUCOM)-directed 
Humanitarian Assistance projects in the vicinity of the airbase.
    USAREUR maintains a 27-man military/civilian Mission Support 
Element (MSE) staff on MK Airbase year round to monitor the progress of 
MILCON projects, ensure facilities' operational readiness, and conduct 
Host Nation military coordination in support of JTF-East operations, to 
include supporting planning conferences with Romanian and Bulgarian 
Armed Forces.
    In addition to the events listed above, the JTF-E MSE Staff 
supported the North Atlantic Treaty Organization (NATO) Summit Support 
(U.S. and U.K. Air Force direct support) and the U.S. Presidential 
visit to Constanta, Romania to meet with the Romanian President.

    [Clerk's note.--End of questions for the record submitted 
by Chairman Edwards.]
                                           Tuesday, April 15, 2008.

                         U.S. SOUTHERN COMMAND

                                WITNESS

ADMIRAL JAMES G. STAVRIDIS, COMMANDER, U.S. SOUTHERN COMMAND

                       Statement of the Chairman

    Mr. Edwards [presiding]. I would like to call the meeting 
to order. Admiral Stravridis, welcome to the subcommittee and 
thank you for your distinguished military service to the 
country.
    Admiral Stavridis. Thank you.
    Mr. Edwards. I have been asked if we would ask everyone to 
speak as directly into the microphones as you can. Sometimes 
the transcription effort is a little more difficult. If you 
will just wave or stand up or jump or do this if you can't hear 
us, let us know. It is bad enough when people quote us 
accurately, but even more difficult if they quote us 
inaccurately.
    The subject of our hearing today is the fiscal year 2009 
military construction and family housing request in support of 
Southern Command. Going back at least to the Monroe Doctrine of 
1823, the security of the Western Hemisphere has been a vital 
interest of the United States. SOUTHCOM's mission is to 
guarantee that security.
    Although SOUTHCOM's fiscal year 2009 request of $164.8 
million is relatively small compared to other combatant 
commands, there are issues within its responsibility--many 
issues within its responsibility--that merit this 
subcommittee's attention. I am pleased to have Admiral 
Stavridis with us today to discuss these issues.
    Before we proceed with the testimony, I would like to 
recognize our ranking member, Mr. Wamp, for any opening 
comments he would care to make.

                Statement of the Ranking Minority Member

    Mr. Wamp. Mr. Chairman, if my calculation is right, this is 
the next-to-last hearing of our regularly scheduled hearings 
before this subcommittee.
    Mr. Edwards. We save the best, Mr. Wamp, for the last.
    Mr. Wamp. And if somebody could help me, what number 
hearing is----
    Mr. Edwards. A dozen or more.
    Mr. Wamp. I just wanted to say that my eyes are not yet 
crossed and I am not dizzy, regardless of what my wife says 
about me, but this has been an unbelievable experience, a 
learning experience, an exhilarating patriotic experience to 
meet these heroes and these defenders of our way of life. The 
admiral came to see me and we hit it off from the very 
beginning because I am going to echo your opening comments 
briefly by saying that as we are able to expand our values and, 
for all the right reasons, our influence in the Western 
Hemisphere, we will secure our very freedom. It is so important 
for us to fend off the elements that are counter to our way of 
life within our hemisphere, which frankly in South America we 
have a few of those players today.
    I think we do that, though, by bringing people together, by 
helping with basic needs, by not exerting our military 
strength, sometimes as much as by just reaching out to people 
and establishing communications, dialogue, and understanding. 
The admiral understands the cultures in SOUTHCOM. That is such 
an important first step to making the progress that we need.
    We can help them with their security and very much help 
ourselves with our security in this hemisphere. If we are going 
to be competitive in this world, I think we have to build more 
alliances within the Western Hemisphere to compete with other 
parts of the world. That is why frankly our military presence 
is so important. SOUTHCOM, while it is a relatively small 
command financially, it is a very strategic command.
    I hope at some point maybe we could go with the admiral 
into his command because just talking it through with him 
today, there are some really strategic places that we really 
need to go into with him.
    I thank you for your leadership and your courtesy today, 
Admiral, and for your service. I look forward to this 
testimony.
    Mr. Edwards. Thank you, Mr. Wamp. Very well said. As a 
Texan born not too far away from the border with Mexico, I have 
always felt our nation's government often overlooks the 
importance of Latin America and its role in our nation's 
security and its future.
    Admiral, again it is great to have you before this 
committee.
    Admiral Stavridis. Thank you, sir.
    Mr. Edwards. I am going to go through your very long and 
distinguished career. But just as a matter of a few basics, 
Admiral Stavridis has been SOUTHCOM commander since October of 
2006. He is the first Navy officer to command SOUTHCOM. He 
previously served as senior military assistant to the Secretary 
of Defense; was commander of the Enterprise Carrier Strike 
Group from 2002 to 2004, including operations in the Persian 
Gulf. He was commander of the destroyer USS Barry from 1993 to 
1995. If I went through all the list of the words of leadership 
in the Navy, we wouldn't have time to complete the hearing.
    He holds a Ph.D. from the Fletcher School of Law and 
Diplomacy at Tufts University.
    Admiral, without objection, your full written testimony 
will be submitted, along with any addendums you might have to 
offer. We would like to recognize you for your opening 
comments, and then we will continue on at that point with 
questions and answers.

                Statement of Admiral James G. Stavridis

    Admiral Stavridis. Mr. Chairman, thank you very much.
    Mr. Chairman, Ranking Member, and Representative Ander 
Crenshaw I must start by saying is not only on the committee 
overseeing me, but he is also literally my congressman. I am 
from his district in North Florida, so it is a pleasure to 
appear in front of this committee particularly on not only a 
professional basis, but a personal basis with my congressman, 
and he represents our district extremely well.
    Mr. Edwards. We will give him personal credit for 
championing your headquarters. [Laughter.]
    Admiral Stavridis. I do want to say--I want to echo your 
comments, Mr. Chairman, and those of the ranking member, that I 
believe, and I think many of us who are focusing on this region 
believe this is an important place in the world for the United 
States. Our job at Southern Command is to look out, to report 
to the secretary of defense, and to look out over some 36 
nations to the south of us in Central America and the Caribbean 
and South America, and try and affect not only security 
cooperation, but also in an interagency spirit to work with our 
partners, particularly the Department of State and to try and 
secure a positive frame of reference for overseeing this vital 
part of the world.
    This committee and this particular subcommittee looks at 
military construction. I want to first and foremost say thank 
you to this committee for your support of our headquarters. 
This command moved from Panama 10 years ago to Miami, Florida, 
where there is no DOD base. There is no military base there. So 
we have been in a rented essentially converted warehouse for 10 
years. Our command is spread over nine buildings in the area. 
Due to your support and allocating us funding for a 
headquarters building, we will be able over the next 2\1/2\ 
years to construct a facility that will bring all of those 
parts of our commands together.
    It will, most importantly, help address some of the 
quality-of-life issues because with that headquarters building, 
we will be able to put in a small medical clinic, a small 
commissary, a small exchange, none of which exist for our 
people today. So I want to thank this committee for the superb 
support you have given Southern Command, sir.
    I am happy to take any questions about the region, about 
the security situation there; anything the committee would like 
to discuss. And of course I can address the MILCON projects 
that are up in front of you.
    I want to close by doing two things, the first of which is 
to echo what the ranking member said, and to invite you, Mr. 
Chairman, and the ranking member and other members who are 
interested in traveling. Representative Farr was just down with 
us in Colombia recently. I encourage you to come to this 
region. There is a great deal to see, and there is no 
substitute for the tactile feeling of traveling in this region 
to understand it.
    And then secondly, I would like to close by simply saying 
thank you to the members of my command, the enlisted men and 
women in particular who serve this country so well. I am proud 
to stand with them at SOUTHCOM and to work with them.
    So, sir, with that I am open for any and all questions that 
you would want to pose.
    [Prepared statement of Admiral James G. Stavridis follows:]
    [GRAPHIC] [TIFF OMITTED] T2754E.001
    
    [GRAPHIC] [TIFF OMITTED] T2754E.002
    
    [GRAPHIC] [TIFF OMITTED] T2754E.003
    
    [GRAPHIC] [TIFF OMITTED] T2754E.004
    
    [GRAPHIC] [TIFF OMITTED] T2754E.005
    
    [GRAPHIC] [TIFF OMITTED] T2754E.006
    
    Mr. Edwards. Thank you. Admiral, thank you very much again 
for your distinguished service and the service of all those 
that you represent with your presence here today.
    I think Mr. Wamp will approve if Mr. Crenshaw, given the 
strategic location of your home state, if we began by 
recognizing you to start off the questions and comments.
    Mr. Crenshaw. Well, thank you.
    I want to thank the admiral for his kind words. I don't 
have that many constituents that come up here and testify 
before----
    [Laughter.]
    Mr. Crenshaw [continuing]. I don't have any admirals.
    But it has been great to get to know the admiral over the 
years. One of the reasons has been that I represent him. 
[Laughter.]
    Mr. Wamp. That needs to be on the record. [Laughter.]

                  Military Construction in the Region

    Mr. Crenshaw. Well, we do thank you for your service.
    A couple of things, I would like to hear you comment on the 
military construction aspect. There are some dollars in here. 
As you may or may not know, this committee has been awfully 
sensitive to quality-of-life issues and housing and things like 
that. There is always controversy about getting--in terms of 
the----
    Admiral Stavridis. Sure.
    Mr. Crenshaw. But just tell us those military construction 
dollars, where do they go to?
    Admiral Stavridis. Sir, as you know, we have several 
construction projects at Naval Station Guantanamo. That is 
distinct from Joint Task Force Guantanamo. The JTF is where the 
detainees are housed. These projects would all be in front of 
you even if there weren't a single detainee on the island. 
These are projects that will rebuild really a 50-year-old naval 
station that is of extreme strategic importance to us because 
of its location, as it is our furthest southern U.S. military 
installation in this region.
    So the projects there will be exactly what Representative 
Crenshaw just said. They will be the quality-of-life things 
that will support our people. We build family housing complexes 
because our families are down there. They will create an 
appropriate fitness center for our people. Again, they are 
distinct from the JTF detainee operation.
    So I think it is a prudent investment. I think it brings 
the naval station up to the standards that we hope for for our 
young men and women. I thank the committee for considering that 
request.

                              FOURTH FLEET

    Mr. Crenshaw. And the other question I wanted to ask you, 
there has been a lot of discussion in the Navy about 
reestablishing the Fourth Fleet. And then from a parochial 
standpoint, there has been discussion about making the 
headquarters at Mayport in my congressional district.
    So I would like to hear your views. You would be very 
directly affected by that. What do you think about that 
concept? I don't know if you have an opinion as to where the 
headquarters are. You are in Miami, as you pointed out. You 
don't have a lot of facilities down there in Mayport, which is 
kind of a up-and-running operation. But comment on where you 
think it might be headquartered, but more importantly just how 
it would fit in and how it would make your life a little bit 
easier and probably better in your----
    Admiral Stavridis. Sir, I would be glad to. I started 
talking with CNO Mullen back when Admiral Mullin was the CNO 
and I had just taken over at SOUTHCOM, and then continued that 
dialogue with CNO Roughead, Admiral Roughead. Both have been 
incredibly supportive of the idea of a Fourth Fleet. What 
Fourth Fleet does for us as a nation is it puts in place a 
naval near-time organization that is focused on Latin America 
and the Caribbean, where I think we can all agree there are 
important U.S. interests.
    So secondly, it would bring together in one location close 
to the area of operations--the ability to command and control 
ships and naval responses to things like a mass migration out 
of Cuba, to help us stop the flow of narcotics into the United 
States, to conduct security exercises of a maritime nature with 
our partners, both in the Caribbean and all around South 
America and Central America.
    There is no substitute for location. You know, having a 
numbered fleet commander close to the area of operations is 
critical. Now, as to where that location would be, 
Representative Crenshaw sir, that would really be a CNO 
decision. He is the--organizer.
    As the combatant commander, I am telling him that I need 
that level of support and he is going forward with it. I am 
fully supportive of it. I anticipate that it will be approved 
sometime in the near future. And as to the precise location, I 
leave that to the chief of naval operations.
    Mr. Crenshaw. Thank you very much.
    And thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Crenshaw.
    Mr. Wamp.

                                  CUBA

    Mr. Wamp. Thank you, Mr. Chairman.
    Admiral, you spoke in my office about your three greatest 
concerns. I would like for you to walk back through those for 
the subcommittee, and then talk specifically about Venezuela 
and Bolivia and Ecuador, and the alliances that we should be 
concerned about in SOUTHCOM.
    Admiral Stavridis. Sir, I would be glad to. First, I would 
say particularly given our location in Miami, Florida, we watch 
Cuba very closely. We are concerned about Cuba, particularly 
from the SOUTHCOM perspective for the potential for mass 
migration out of the island. Historically, of course, we have 
had two large migrations from Cuba in the last 30 years, one in 
1980, the so-called Mariel boatlift, and one in 1994. Both of 
those resulted from political decisions that were made by the 
Castro dictator in Cuba.
    So we are very concerned, and one of our jobs is to work 
with the Department of Homeland Security to respond if we had 
en masse migration. So we follow events there very closely. At 
the moment in Cuba, we see Fidel Castro stepping back. He has 
turned over the presidency in an unelected dictatorial fashion 
to his brother, Raul. Raul is making some very small economic 
openings, so we are simply watching events very closely there 
with our partners in the State Department and our other 
partners in the interagency to try and get ahead of a potential 
situation which might lead to a mass migration. So we watch 
Cuba very closely.

                        COUNTER-NARCOTICS EFFORT

    Secondly, we are very concerned about the flow of narcotics 
through the region, notably cocaine, which comes from the 
Andean ridge from Colombia, Peru and Bolivia. So we put a high 
degree of effort into finding and stopping cocaine shipments 
that are moving through the Caribbean. Over the last 2 years, 
we stopped on average 240 tons of cocaine through the region. 
That means there is a lot that gets through to the United 
States. Of course, stopping drug use is a big national problem. 
There is a demand side to that here in the states. There is a 
supply side in the countries of the region. Our job is the 
interdiction portion of it. We spend a lot of time on that.
    Sir, it is not just the drugs. I worry that the pathways 
that allow drugs to flow through could then be used to move a 
weapon of mass destruction, move a terrorist. So I think there 
is a real homeland defense component to this counter-narcotics 
effort. So that is kind of the second thing that we focus on--
Cuba and counter-narcotics.

                                COLOMBIA

    The third place where we are focusing a great deal is the 
situation in Colombia. Colombia is a success story. Colombia 
has come an enormous distance in 10 years from a period of time 
in which our Secretary of State, Secretary Rice--said Colombia 
in 1997 to 2000 was almost a failed state. Today, Colombia by 
any accountable measure has improved vastly. They have reduced 
homicides 40 percent. They have reduced kidnappings 80 percent. 
They have reduced killings of labor union leaders 65 percent 
over the last 10 years.
    President Uribe enjoys an 80 percent approval rating. The 
insurgent group, the FARC, has an approval rating less than 2 
percent. I mean, this is not a popular insurgency. The number 
of fighters in FARC has declined from 18,000 to less than 9,000 
today. There is Colombian presence in 1,098 municipalities 
throughout the region. So the Colombians have looked a 
difficult insurgency in the face and they have walked their 
country back from it with a moderate level of bipartisan 
support from the United States.
    Plan Colombia started under the Clinton Administration. It 
has continued under the Bush Administration. Together, that 
level of support has been very, very salutary for events in 
Colombia. That is important for the United States because 
Colombia is our strongest friend and ally in the region. So as 
we look at the other countries in the region, they follow 
events there in Colombia very closely, and they are looking for 
continued U.S. support.
    So the Southern Command will do--military-to-military with 
our Colombian partners to help them train, equip and organize 
their military to operate in accordance with human rights, 
tactically effectively against the FARC, and in a way that is 
strategically supportable in a counterinsurgency role.
    So those are my three highest-focused areas. I do a lot of 
other things, but I put those three at the top of the list.

                      BASE REALIGNMENT AND CLOSURE

    Mr. Wamp. One more question in this round, Admiral. As I 
have shared with you, I turned 13 living on the Howard Air 
Force Base in the Panama Canal Zone, spending a few months with 
my aunt and uncle, when my uncle was stationed there. BRAC and 
changes in our military construction facilities around the 
world obviously changed many commands. What do you foresee in 
SOUTHCOM in terms of changes? Are there other bases that might 
be realigned or do you see a need for us longer-term than just 
this budget request, do you see other needs out in the future?
    Admiral Stavridis. Yes, sir--SOUTHCOM, we have a very light 
and lean infrastructure in the region. We have Guantanamo Naval 
Station, very important to us, and we have a request up in 
front of you for that. We have three of what are called forward 
operating locations, and these are really nothing more than a 
couple of hangars, a maintenance building, and access to an air 
strip. There are three of those right now, sir. One is in El 
Salvador, one is on the Dutch-owned island of Curacao, and one 
is in Manta, Ecuador.
    They are operated under 10-year leases. The one I am 
concerned about is the one in Manta, Ecuador. It is under a 10-
year lease. The current president of Ecuador, President Correa, 
has said on several occasions that he does not intend to renew 
that lease. That lease is up in November of 2009.
    Now, we and the Department of Defense are working very 
closely with the Department of State, who have the lead on any 
kind of arrangement like this. We are attempting to convince 
our partners in Ecuador to renew the lease. If they do not, I 
would anticipate in this next budget cycle coming back to this 
committee for additional funds to establish an alternate 
forward-operating location. In terms of scale, that will not be 
a huge project, probably in the $30 million to $45 million 
range.
    Mr. Wamp. Do you mean in Ecuador?
    Admiral Stavridis. No, sir. We will probably need to go 
elsewhere because President Correa evidently, at least in his 
public statements, has indicated a lack of support. So we are 
talking to some of our other friends and allies in the region. 
I can provide a classified addendum because such discussions 
are sensitive, but I have every reason to believe that other 
friends and allies in the region will provide us support. So I 
will then come back to this committee in the next budget cycle 
for, again, a modest level of support to replicate that 
facility.
    Mr. Wamp. All right.
    Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Wamp.
    Mr. Farr.
    Mr. Farr. Thank you, Mr. Chairman.

                          CUBA AND GUANTANAMO

    Admiral, I want to compliment you on your public service, 
and secondly, on your leadership. I was very impressed reading 
about the Southern Command engaging in what you call the battle 
of ideas, not the battle of missiles and bombs in the Western 
Hemisphere. I lived in Colombia for many years as a Peace Corps 
volunteer. I found a new meaning to the phrase I am proud to be 
an American! Well, all of Central and South America says the 
same thing. They all consider themselves a part of the 
Americas.
    Admiral Stavridis. Representative Farr, you have no idea 
how often I make that point to my people. Seriously. We have 
appropriated that term to ourselves, but when I hear somebody 
use it down south, I am always corrected. I associate myself 
with your remarks.
    Mr. Farr. Yes, we have never as a country officially 
embraced--though I think we ought to--have a whole hemispheric 
strategy on energy, and a whole hemispheric strategy. It is the 
only way to go. I appreciate your speaking out about that and 
leading in that direction.
    There are a lot of issues and a lot of details, and I want 
to get to some of the details on some of these issues. I happen 
to disagree with our administration on the matter of Cuba. I 
have been to Cuba five times. One of the conferences I attended 
in Cuba concerned international narcotics enforcement. One 
participant there was a Coast Guard officer who was in civilian 
uniform. His impression was that Cubans are doing a great job 
on the drug war front. They don't want drugs and in this area 
the U.S. has a great collaboration with Cuba.
    I wish we could employ that kind of collaboration in the 
military. It seems to me that it is in our best interests to 
begin creating a more established professional relationship 
with the Cuban military. If they are willing to help us on drug 
interdiction and things like that, we have the building blocks 
for regional or hemispheric stability.
    I think it is just a matter of time before we start 
changing our policy about Cuba. I just don't believe it is a 
terrorist country or capable of being a terrorist country. You 
mentioned preparing for the boatlift. If we just told the 
Cubans that if they come here they are going to have to pay for 
their education and pay for health care, and not have 
affordable housing, not have universal access to health care, I 
don't know if they would want to come at all.
    It would be a lot easier to do the ounce of prevention, 
which I think is what your mission about ideas is, and that of 
the secretary, on this whole new--AFRICOM briefing, this whole 
intergovernmental relationship. Congress has just passed a bill 
which the Defense Department is supporting on setting up a 
Crisis Corps, so that we can on the civilian end, through the 
State Department and the USAID, can respond like the military 
does with special ops that put people with special abilities 
in-country.
    So one of the things that the candidates have all called 
for is for Guantanamo to be closed. Is there a plan if that--if 
they get in the presidency, whoever is elected president, 
follows through, do we have a strategy for that, knowing what 
the cost-benefits of it would be?
    Admiral Stavridis. No, sir, not to my knowledge. Again, at 
SOUTHCOM, our job at SOUTHCOM is not the legal policy part of 
that package. Our job is to provide----
    Mr. Farr. But you do provide for contingencies, don't you?
    Admiral Stavridis. Well, we provide for humane treatment of 
the detainees and contingencies within the island, but in terms 
of a national decision to close the detention facility, we are 
not doing planning of that nature at SOUTHCOM.
    Mr. Farr. Your responsibility?
    Admiral Stavridis. No, sir. That would be appropriately 
vested at the level of the deputy secretary of defense because 
it is a policy matter.

                                COLOMBIA

    Mr. Farr. Well--it would be helpful to get the information 
on what those cost-benefits would be. Since all the candidates 
have indicated that closing Guantanamo is likely, it is 
probably something we ought to look at.
    Another issue, you have been very good with our Andean 
assistance to Colombia and other Andean countries, but 
particularly Colombia, and working to upgrade their military to 
be a professional military. Many times the Washington Post 
reports that the Colombian security forces heavily rely on body 
counts to prove their effectiveness. Recently the Colombian 
Commission found that 287 civilians were allegedly slain by 
military and then dressed up to look like FARC or others had 
committed the deed.
    If you are going to use the body count as a success story, 
are we doing anything to end these extra-judicial killings? Is 
there a responsibility for the DOD in Colombia to vet all their 
military with a background check to see if they have a history 
of human rights violations? Does the military have a role in 
that, in helping civilian investigations of these crimes and 
things like that? Could you just brief me on what is the DOD 
and SOUTHCOM responsibility?
    Admiral Stavridis. Sure. Let me do a couple of things. Let 
me start. You were very gracious to thank me for my service and 
I want to thank you for yours, as a Peace Corps volunteer. I 
spent a fair amount of time over the last 18 months throughout 
this region, and come in contact with many Peace Corps 
volunteers. It is an integral part of what the United States 
needs to do in the region.
    I had a chance to talk to Senator Dodd a couple of days 
ago. I told him the same thing.
    Mr. Farr. Yes, the Peace Corps was taken out of Colombia in 
1981. The violence got so bad. Today there is consideration to 
return the Peace Corps back to Colombia.
    Admiral Stavridis. I think it is time, because I think that 
side of the equation in Colombia is vitally important, working 
with the Afro-Colombian population, working with the agrarian 
sector to find alternatives to the production of coca. So first 
let me thank you for your service.
    Second, let me thank you for coming and visiting Colombia 
recently. I again want to encourage all the members of the 
committee to travel in the region.
    Mr. Farr. A good place--to visit.
    Admiral Stavridis. Indeed. Your questions are right on 
point. I have said personally to the chief of defense, General 
Freddy Padilla, the chief of the army, General Mario Montoya, 
that the center of gravity in this insurgency for the Colombian 
military is human rights, and they have to get off this body-
count strategy. They acknowledge that. I believe they are 
moving away from that. I know that General Montoya has recently 
spoken against the body-count philosophy. They are in the 
process, Representative Farr, of causing that to be penetrated 
down to the lowest levels of their military. They recognize 
that they have got to sort that out.
    Now, what we do at SOUTHCOM, besides just me talking to my 
four-star interlocutors eye-to-eye, is we have a whole 
structure of people who do human rights training for the 
Colombians, and we do an awful lot of it. We are working that 
very hard. I would love to come and talk to you specifically 
about that.
    Mr. Farr. That would be very interesting.
    Admiral Stavridis. Okay. And secondly----
    Mr. Farr. They don't come to SOUTHCOM.
    Admiral Stavridis. That would be terrific. Come to Miami 
and we will give you the whole thing.
    The other thing, and this may surprise you given the 
antecedents of this place, but it is the so-called WHINSEC, the 
Western Hemisphere Institute for National Security, which used 
to be called the School of the Americas. Today, the curriculum 
at WHINSEC is over 35 percent devoted to human rights. I would 
love to take you to Fort Benning and have you sit in a 
classroom there with representatives of the militaries of the 
entire region, including many Colombians, and see how our 
professional military is trying to inculcate those kinds of 
positive values in our mid-grade and junior officers, and that 
is what is so important.
    So I think there is a lot of good to show you there. That 
is not to say all these problems are solved by any means, but 
it is the center of gravity. They are moving away from body 
counts. I would like to talk to you some more about that. And I 
will submit something for the record.

          POLITICAL AND ECONOMIC DEVELOPMENTS IN LATIN AMERICA

    Mr. Edwards. No, no. Very well said. Thank you.
    Admiral, let me ask a broad question follow-on from Mr. 
Wamp. One of the benefits of being on this subcommittee is 
getting to hear the overview of our combatant commanders about 
the economic and political situations in their regions of the 
world. Could you tell us what has happened over the last decade 
or so? It seems like in the 1990s there as a trend toward 
democracies and a lot of hope toward Latin America, and now it 
seems to be going in the opposite direction.
    Tell us, just in general, what is going on politically and 
economically in Latin America? And then if you wouldn't mind, 
tell us the good, the bad and the ugly in terms of their 
perceptions of the people in the United States and our 
government. Those that dislike us, what do they dislike the 
most about us, and what can we do over the next decade to bring 
about positive change in terms of our image in Latin America 
and the Caribbean?
    Admiral Stavridis. Sure. Thank you, Mr. Chairman.
    If I could, you mentioned the 1990s. Let me actually take 
you back to the 1970s. If you looked at a map of the region in 
the 1970s and you put the color red on any country that was a 
dictatorship, you would see that essentially from Mexico south 
everything was a military dictatorship, with the exception at 
the time of three countries. So that was 1977.
    Mr. Edwards. Right.
    Admiral Stavridis. Now, flash forward to 2007. If you 
looked at that map today and you put green on every democracy, 
there would be green everywhere on the map except for Cuba. 
Cuba is the only remaining non-democracy in the region. Now, do 
we get along with all our fellow democracies on every point? 
Absolutely not. I mean, that is the beauty of democracy, right? 
Countries, like people, that are democracies get to have 
opinions about things that aren't tied to an individual.
    So I would say that there is enormous progress in the 
region in driving out the human rights violations that came 
with the military dictatorships, in instituting democracy, in 
by and large observing liberty on bills of rights kinds of 
things, although that is the harder challenge than simply 
having a democracy. But I think there has been enormous 
progress on the political front in that sense.
    Economically, I think the region since the 1970s has 
neither gone up tremendously nor down tremendously. Poverty 
still afflicts this region and is the most salient fact one 
needs to understand. Today, 36.5 percent of the people live on 
less than two dollars a day in the region to the south of the 
United States.
    Mr. Edwards. Wow, 36.5 percent?
    Admiral Stavridis. Yes, sir.
    In Haiti, for example, 80 percent of the people live on 
less than two dollars a day, but throughout the region as a 
whole, poverty is still the most fundamental fact that one 
needs to understand. So economically, it is a commodities-
driven environment. It has had a bit of a run-up over the last 
4 years--about 5 percent growth--but like all commodity-driven 
economies, it is at risk of reversing itself if there is a 
global slow-down. So economically, I would say it has been a 
bit of a roller-coaster. It is on an up-curve at the moment, 
but I am concerned about the potential for a commodity drop-
off.
    I think in terms of--with the United States, which is what 
you asked me to address next, there are places in the region 
where the United States is still very well regarded. I use as 
my statistic here the Latino Barometer, which is a well 
regarded poll that is conducted throughout all the nations of 
this region. Our ratings, if you will, kind of run from 90 
percent positive in places like the Dominican Republic and El 
Salvador and other parts of Central America, to as low as 10 
percent in Argentina, which ought to cause us to pause and say 
why would a country like Argentina be concerned about the 
United States and have less of an approval rating.
    Mr. Edwards. What is the answer?
    Admiral Stavridis. I don't know the answer to that exactly. 
I think there are some remaining resentments about the way the 
financial crisis was handled in Argentina in the early 2000's. 
But I believe we are in the process of rebuilding a stronger 
relationship with Argentina today.
    My point is, our relationships in the region run a gamut 
from very positive and very favorable to very low. I would 
argue, and Representative Farr was saying, I don't believe in a 
war of ideas, and I do not. I do not think we are in a war of 
ideas in this region. I think we are in a marketplace. We have 
to compete. We have to go down there and show that the ideas 
the United States stands for--democracy, liberty, free 
economies, free trade, human rights--that those are the right 
ideas for a society to move forward into a positive future.
    I think we have to do that in intelligent ways. We have to 
do it as an interagency working together. We have to do it with 
visits from important figures in U.S. life like all of you. We 
have to do it in a way that is not patronizing and not 
condescending. We have to do it in a way that looks at our 
partners to the south as equals.
    Let me close by saying, as I travel around people often say 
to me, you know, Admiral, what you are doing is really 
important because that is America's backyard. That is a 
terrible expression if you stop and think about it--America's 
backyard. It is patronizing. It is condescending. Think how it 
translates into Spanish. It is the wrong expression.
    What I say to people is, it is not our backyard. It is not 
our front porch. It is a home that we share together, the 
Americas. The sooner we recognize it as a home and look with an 
eye toward equality toward our partners, and move toward 
communication that is sensible and comes not just from DOD or 
not just from State or not from Commerce, but holistically 
approaches those, I think we will have a better opportunity to 
raise the bar of our national approval in the region.
    Mr. Edwards. And I will just conclude with an observation 
before we go back to Mr. Crenshaw. I will never forget when 
General Jim Jones, who was our European commander----
    Admiral Stavridis. Sir, I know him well.
    Mr. Edwards. He sat in that very chair and after testifying 
about MILCON projects, at the end, and this was as he was 
retiring, he said, you know, we have to do more in Africa to 
get in and prevent wars and prevent terrorist havens from being 
created. He talked about the need for business relationships 
and military and other relationships. And now we had General 
Ward testify about the Africa Command plans, and as you try to 
involve the State Department and other agencies in our efforts, 
it may be a model that works and hopefully will work in some 
parts of the world.
    Admiral Stavridis. Yes, sir. Two officers who I look up to 
in a lot of ways are both Marines, and they are General Zinni, 
who is a former commander of U.S. Central Command, and General 
Jones, a former U.S. European Command. And they both fully get 
it on the ideas of interagency and how we need to approach the 
world. Because the prevention is really a far better place to 
be than trying to solve a problem when it is at the far end of 
the spectrum.
    Mr. Edwards. Thank you, Admiral.
    Admiral Stavridis. Yes, sir.
    Mr. Edwards. Mr. Crenshaw.
    Mr. Crenshaw. Thank you.

                       HOSPITAL SHIP ``COMFORT''

    I just have one other question. It is kind of along the 
line of what we were talking about--the marketplace of ideas 
and what we are trying to do in Africa. I know last year, the 
Navy sent a hospital ship called the Comfort. There is 
something called a global fleet station we are doing. And those 
sound like the kind of humanitarian visible perceptive things 
that we can do to kind of follow through on what we are talking 
about. Can you maybe just kind of describe both the operational 
and the diplomatic successes that that brought? And is that 
something that you see us doing more of in the future?
    Admiral Stavridis. Yes, sir, I sure can. The hospital ship 
Comfort sailed for 4 months last summer and did 400,000 patient 
encounters throughout the region, 12 different ports. We 
measured public opinion in the wake of that particular voyage 
and we really had a positive response to that. We don't want to 
be just a one-trick pony. We have two large-deck amphibious 
ships that are going to come down this summer and essentially 
replicate that voyage. We will bring the Comfort back again in 
the summer of 2009.
    So our object is every year to try and do a large package 
of care from the sea. Now, this complements the medical 
diplomacy that is done by the Army and the Air Force ashore in 
a series of small clinics all over Central America and South 
America. I make that sound small, and you picture a few hundred 
people. It is actually one million patients treated over the 
last 4 years. That is on-shore.
    And then when we add to that what is coming from the sea, 
it is a very visible signal to the region of the compassion and 
the care of the United States. I think it is an important 
approach to take. It is one part of launching ideas, not 
missiles, into this region.
    Mr. Crenshaw. Are there any restrictions on draft or port 
conditions or anything that limit us to where we can go?
    Admiral Stavridis. There are with the big-deck hospital 
ship. So what I have asked Admiral Roughead to do, and he has 
agreed to do, is to purchase some high-speed vessels which are 
dual-hull catamarans that have a draft of only eight feet. 
Those can go almost anywhere. We are breaking down the large 
medical cruises into short-hitters that we can go into places 
like Suriname and Guyana, where there is an alluvial plain and 
it is hard to get in there with a big hospital ship.
    Mr. Crenshaw. Right. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Crenshaw.
    Mr. Wamp.
    Mr. Wamp. Admiral, not to draw a contrast, but I was just 
interested. How many Ph.D. admirals with four stars on their 
shoulder are there?
    Admiral Stavridis. I think I am the sole specimen at the 
moment. [Laughter.]
    Mr. Wamp. That is admirable, Admiral.
    Admiral Stavridis. Thank you.
    Mr. Crenshaw. He lives in my district. [Laughter.]
    Mr. Wamp. How many Ph.D. admirals with four stars live in 
Ander Crenshaw's district? [Laughter.]

                                COLOMBIA

    I don't want to put anybody on the spot, but I do think 
this is important. You mentioned in terms of those things in 
our hemisphere that we need to promote, and you said free trade 
and it went right by. It is important that we have a free trade 
agreement with Colombia at this critical moment, isn't it?
    Admiral Stavridis. Sir, we talked about it in your office. 
I am going to leave aside any political component to the 
answer, and I am going to leave aside any economic component, 
because those are not my lane. But I will tell you, from a 
security perspective, I think that having a free trade 
agreement with Colombia is an important thing to do. I think 
that is because it enables their economy to produce a better 
level of productivity. It allows them to feel geopolitically 
and geo-strategically attached to the United States. And I 
believe that others in the region are watching closely for that 
signal from a security perspective. I will leave aside the 
political or the economic issues to others.

                                  CUBA

    Mr. Wamp. And then to take the conversation we are having, 
as Ander said, a little further. I know from studying a little 
history that Castro, for instance, wanted to reach out to 
people in the Western Hemisphere and he sent doctors all 
throughout South America to try to make friends and influence 
people.
    Admiral Stavridis. He is still doing it.
    Mr. Wamp. That was a very shrewd move on his part, but his 
ideology was wrong. Today, we have some wrongheaded thinking in 
the southern part of the Western Hemisphere and that is 
somewhat a threat to our way of life. And so when we look at 
ways to reach out and build bridges and make friends, frankly, 
and influence people for the good, you are thinking even beyond 
the extensions of the government, I understand, with public-
private partnerships, NGOs, ways to kind of take all of the 
resources available and try to mobilize them through your 
command.
    We also talked in my office about this Os Guinness quote, 
``the power to convene is greater than the power to 
legislate,'' and then we took it a step further and came up 
with ``the power to convene is greater than the power to 
annihilate.'' And our military strength clearly can take out 
enemies, but it is far more effective, frankly, for us to 
empower people to be our friends through our military. How are 
you leveraging these other resources for that purpose?
    Admiral Stavridis. What we are trying to do is to be a 
supporting platform for good works in the region. We are doing 
that, for example, on the hospital ship, the Comfort. We threw 
that open to volunteers and we were able to get a wide variety 
of nongovernmental organizations and medical international 
organizations to come on that cruise and be part of that. We 
are trying to provide the logistic support because we have that 
capability. We have the ability to move large amounts of people 
and materiel. So that is one example on the hospital ship.
    Secondly, we are working with the Department of Homeland 
Security and the Department of State to fund something called 
the Caribbean Support Tender. ``Tender'' is a Navy word for a 
ship that goes from port to port and is helpful in rebuilding 
maritime capability. We are hopeful that we can have an 
international crew on that, have NGOs on it, and use that as a 
ship that would sail around the Caribbean doing not only the 
kind of medical clinic work that we are talking about, but also 
be able to go in and repair fishing boats, repair Coast Guard 
boats, work on a dock, provide maritime capability.
    So I think it is one of these cases, sir, where the sum is 
so much greater than the individual parts. If we at SOUTHCOM 
can be part of the team, and we don't want to take over, we 
don't want to be in charge. We want to be a facilitator and 
create a logistical platform, if you will, that others can hook 
onto. Therefore, we can get everybody's efforts at a higher 
level and try and promote these kind of activities.
    Mr. Wamp. Back to Cuba, do your personnel have the 
capability of leaving the base in Cuba?
    Admiral Stavridis. No, sir.
    Mr. Wamp. So everything is self-sustained right there 
within the base?
    Admiral Stavridis. Yes, sir. The only contact at the base 
itself is once a month the base commander has a very amicable 
conversation with the local Cuban military commander, the so-
called fence-line talks. It is a conversation about logistics, 
waterspace management, air management. But no, our people don't 
go off the base at all.
    Mr. Farr. Do any civilians go off base?
    Admiral Stavridis. There are a very small handful of Cuban 
civilians who come and work on the base and then go back every 
day. They are effectively grandfathered in. When the last few 
of those pass away, then that will be shut off because the 
Cuban government doesn't want to send any more after that.
    Mr. Wamp. Admiral, I am not where Mr. Farr is in 
disagreeing, but I am open-minded to the thought of more 
travel, maybe some trade, religious freedom, openness. But my 
question for you is, does Raul Castro seem to have a different 
attitude than Fidel?
    Admiral Stavridis. I think it is too early to tell, but the 
early indications would be that he does have a different 
approach, simply judging by the fact that he has opened up some 
small economic changes on the island, notably allowing Cubans 
to purchase cell phones. There are lines around the block today 
in Havana of people trying to buy cell phones and buy the 
ability to speak on those.
    He has opened up tourism, hotels that he did not previously 
permit Cubans to go to. Now, those are open to them. He is 
allowing for the first time Cubans--and this is complicated--
but perhaps even buy the houses they live in from the 
government. In the past, they haven't been allowed to do that. 
So we are at the very first stages of what Raul is going to do 
and we are watching that closely.
    To Mr. Farr's point, I think this is a time when there may 
be change and we should be alert to changes and see what 
changes that brings from our perspective.
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Edwards. Thank you.
    Mr. Farr.

                         CRISIS CORPS RESPONSE

    Mr. Farr. Thank you, Mr. Chairman.
    I wanted to follow up on Mr. Wamp's comment. We passed last 
month a bill that I sponsored, and you might even have been a 
cosponsor of it, it was H.R. 1084. It is in the Senate. It is a 
bill that creates within the State Department a Crisis Corps. 
It is strongly supported by DOD because civilians have 
different response capabilities than the military has.
    But I think what you are going to see is that the first 
instance of training for this new corps is all going to fall on 
the military because you have the institutions to do it. And 
right now, the first two schools of training for the State 
Department and USAID and others in this first cadre of first-
responders has been designated at the Naval Postgraduate School 
in Monterey and the NDU.
    From what you are saying and your interest and your agency 
organization, it seems to me that the new direction for 
response strategy is in your mission of ideas which I think is 
very exciting. I think even with regard to Cuba, we are going 
to end up being a friend of Cuba or vice-versa over the years. 
That little island cannot just be without our support, and I 
think it is foolish for us to try not to open up doors down 
there, travel and so on.
    But does SOUTHCOM currently make use of the Center for 
Stabilization and Reconstruction at the Naval Postgraduate 
School? Do you know of any SOUTHCOM officers there? NPS has an 
FEO program now. Originally the Navy didn't have MOS's for 
people who got a master's degree, but now leadership is 
screaming this is what we need to do.
    Admiral Stavridis. Yes, sir. First of all, I agree 
completely with the overall direction that we need to go is 
much more of an interagency approach. You have identified two 
premier programs that are moving in that direction at the 
Postgraduate School in Monterey and at NDU here. We do make use 
of those. We have a center at NDU, the so-called Center for 
Hemispheric Defense Studies. It is focused on this region and 
works very closely with the Stabilization and Reconstruction 
Center, both at Monterey and its counterpart in the INSS at 
NDU.
    There is no question that--in fact today, in front of the 
HASC, Secretary Gates and Secretary Rice sat side by side. I 
think that is the first time there has been a hearing, at least 
in front of the HASC, of both the secretary of state and the 
secretary of defense. And they talked about these exact issues 
in the context of where we need to go in the government to 
approach this interagency process more intelligently and more 
cohesively.
    I think in this region of the world and in AFRICOM, I think 
are the two places where we should try that first. We should 
move out on it. Again, we are not launching Tomahawk missiles 
down here. We are launching ideas.
    Mr. Farr. It seems to me this hemisphere, if any hemisphere 
on the planet can be pulled together, we are closer to and more 
capable of doing it than any other place on the planet.
    Admiral Stavridis. Absolutely. And I would add to that the 
demographics. I mean, demographics are destiny, and the latest 
statistics released by the Census Bureau are that by the middle 
of this century, 30 percent of citizens of the United States 
will be of Latino descent. So the demographic pull between the 
United States and the rest of this region is profound and will 
continue to be profound.
    Today, the United States is the second-largest Spanish-
speaking country in the world, after Mexico. More people speak 
Spanish here than speak Spanish in Spain or in Argentina or in 
Colombia. Almost 50 million people speak Spanish here, who 
speak Spanish and are of Latino descent, to say nothing of 
people like you and Senator Dodd who speak Spanish because you 
learned it and because you studied abroad.
    Mr. Farr. You wouldn't want to hear our Spanish. 
[Laughter.]
    Admiral Stavridis. Anyway, I think that for all the reasons 
you state, as well as the demographics, as well as the 
geography, as well as the economic linkages, 40 percent of the 
trade of the United States runs north and south. That is more 
than runs east and more than runs west. Today, we get 50 
percent of our oil from this hemisphere. If you ask the average 
American, where does the United States get its oil, they would 
say, oh, the Middle East. Well, we get 22 percent of our oil 
from the Middle East. We get 50 percent from this hemisphere.
    Mr. Farr. Mexico and Venezuela?
    Admiral Stavridis. Correct, and Canada, and Brazil just 
discovered at least eight billion barrels of oil off its 
northeast coast. There are reports as of yesterday that 
Petrobras may be about to announce double that in discoveries. 
So the energy sufficiency in the region, you mentioned a policy 
of energy connection.
    Mr. Farr. Wait a second. One thing I would hope that you 
might just keep in mind is that energy is the one issue that 
might totally unify the Americas. If we had a hemispheric 
energy policy that we would be independent of any foreign oil 
from any other place it gets away from the politics of Hugo 
Chavez or Morales or anyone else because they need all the 
technical alternatives that we bring. And we need to better 
utilize and manage our systems. We can do this. And what a 
great spirit to bring these two continents together.
    Admiral Stavridis. Yes, sir. I agree.

                   MILITARY/ARMED FORCES IN SOUTHCOM

    Mr. Edwards. Admiral, let me ask about the long-term 
military challenges or potential threats. While the 
probabilities might be low, what would be some of the scenarios 
that might cause a military conflict? I don't even know what 
size militaries various countries in Latin America have. Could 
you talk about the size of the militaries, their capabilities? 
What would be some scenarios that could lead to military 
conflict?
    Admiral Stavridis. Well, first let me start by saying 
military conflicts state-to-state I believe is very unlikely in 
this region. It is good. I will provide you for the record a 
break-down of each of the militaries. None of them are 
overwhelming. None of them are designed in any way to attack a 
neighbor.
    [The information follows:]

    Military/Armed Forces in USSOUTHCOM Area are:
    1. Antigua and Barbuda Defence Force: Army--86; Navy--29 (Coast 
Guard).
    2. Bahamas Defence Force: Naval/Marine--1200 (Includes air wing).
    3. Barbados Defence Force: Army--800 (Includes reserves); Air 
Force--(Part of the Army); Navy--100.
    4. Belize Defence Force: Army--1000 (includes all forces under the 
Ministry of National Security).
    5. Costa Rica = NA; Police Force only; Coast Guard--285 (Security 
Cooperation Activities only).
    6. Dominica = NA; Police Force only; Coast Guard--22 (Security 
Cooperation Activities only).
    7. Dom Rep Mil Total: Army--8K; Air Force--8.5K; Navy--5.5K.
    8. El Salvador Armed Forces: Army--9600; Air Force--1400; Navy--
1000.
    9. Grenada = NA; Police Forces only; Coast Guard--18 (Security 
Cooperation Activities only).
    10. Guatemala Mil Total: Army--13.2K; AF--700; Navy--860.
    11. Guyana Defence Force: Army--1500; Air Force--100; Navy--30.
    12. Haiti = NA: Police Force only; Coast Guard--92 (Security 
Cooperation Activities only).
    13. Honduras: Army--7113; Air Force--1527; Navy--1140.
    14. Jamaica Defence Force: Army--2500; Air Force--140; Coast 
Guard--190.
    15. Nicaragua Mil Total: Army--12.8K; Air Force--855; Navy--1.1K.
    16. Panama = NA: Police Force Only; National Maritime Service--800 
(Security Cooperation Activities only).
    17. Saint Kitts & Nevis Defence Force: Army--98; Air Force--NA; 
Coast Guard--33.
    18. Saint Lucia = NA: Police Forces Only; Coast Guard--50 (Security 
Cooperation Activities only).
    19. St. Vincent & the Grenadines = NA: Police Forces Only; Coast 
Guard--74 (Security Cooperation Activities only).
    20. Suriname Armed Forces: Army--1800; Air Force--70; Navy--220.
    21. Trinidad & Tobago Defence Force: Army--2500; Air Force--150; 
Navy--1200.
    22. Argentina: Army--40,000; Air Force--13,000; Navy--19,000.
    23. Bolivia: Army--25,000; Air Force--4,000; Navy--2,700; Marines--
1,800.
    24. Brazil: Army--204,000; Air Force--51,000; Navy--33,900; 
Marines--14,600.
    25. Colombia: Army--218,000; Air Force--11,926; Navy--5,502; 
Marines--22,000; Police--133,000.
    26. Ecuador: Army--46,300; Air Force--8,150; Navy--10,500.
    27. Paraguay: Army--7,000; Air Force--1,700; Navy--2,000.
    28. Uruguay: Army--16,500; Air Force--6,000; Navy--3,000.
    29. Peru: Army--75,000; Air Force--20,000; Navy--27,000.
    30. Venezuela: Army--38,500; Air Force--13,500; Navy--15,000; 
(National and Reserve) Guard--180,000.
    31. Chile: Army--45,000; Air Force--26,500; Navy--13,000.

    I think that the most recent close point of concern was 
actually about a month ago when there was a border incursion 
apparently--it is under investigation--but a Colombian 
aircraft, according to the Ecuadoran government, killed a 
Colombian terrorist inside the border of Ecuador. That led 
President Chavez of Venezuela to move tanks to the border of 
Colombia in support of Ecuador. The Ecuadorans also moved some 
troops to the Colombian border.
    Then an interesting thing happened, which is where I ground 
myself in my view that a real conflict in the region is 
unlikely. At that point, the governments in the region took the 
conflict to a summit meeting that coincidentally was occurring 
in the Dominican Republic. They had a conversation about it and 
the situation was defused. It also was helped by turning to the 
OAS that had a conversation about it, promised an 
investigation, which is ongoing now. And thirdly, President 
Lula of Brazil, President Bachelet of Chile stepped up, offered 
their good offices. And together, the countries of the region 
worked out what could have been a potentially dangerous 
situation.
    So there is an example, Mr. Chairman, of democracies and 
all those countries are democracies, disagreeing about an 
event, but then taking a deep breath, talking to each other, 
and defusing the tension. Now, is there continuing tension? 
Yes, but I think that is a good example of how I would foresee 
state-to-state conflict working out in the region. So I do not 
think it is a region where we could logically expect to see 
military activity.
    Mr. Edwards. Does Mr. Chavez have much of a military force?
    Admiral Stavridis. He has a capable military. It is much 
smaller than the Colombian military. It is much smaller than 
the Brazilian military. Senor Chavez has recently decided to 
purchase some advanced weapons from Russia. He has bought 30 
advanced fighter aircraft. He has bought about 50 attack 
helicopters. He has bought 100,000 AK-103 rifles. He is signing 
contracts to buy diesel submarines.
    I am concerned about that. I wouldn't want to overstate 
that. I simply wonder what is the threat that he sees, because 
I don't see it. I don't see the logic of state-to-state warfare 
in the region.
    Mr. Edwards. What would be the purpose of these diesel 
submarines? What kind of weapons would they be?
    Admiral Stavridis. I would refer you to the ambassador of 
Venezuela to answer the question. I cannot as a professional 
military officer come up with a scenario that those would be 
useful, and that is why I wonder about the purchase.
    Mr. Farr. Historically, Venezuela----

                            NEW HEADQUARTERS

    Mr. Edwards. All right. There is longstanding tension.
    Let me just ask quickly about a couple of MILCON projects. 
The new Southern Command headquarters, we appropriated $100 
million last year. There is a request in for $82 million. I 
think originally I had seen where the total cost was supposed 
to be $237 million. Where are we? Has inflation outstripped the 
appropriations?
    Admiral Stavridis. No, sir. We are right there. We have 
sent it out for contract. We have a contract that is within 
that number. We will work extremely hard to keep it inside that 
number. I am very cognizant of this. This will happen on my 
watch and I will deliver this for the committee at the price 
that you have so generously supported.
    Mr. Edwards. I compliment you for that, because 
construction inflation has been difficult, if you can do this 
without having to cut corners and scale down dramatically.
    Admiral Stavridis. As of this minute, I am very confident 
that I will be able to do that, sir. I have an excellent 
command engineer who is with me who briefs me essentially daily 
on the project. It has my full scrutiny and will continue to 
have, sir.
    Mr. Edwards. How about the status of the Guantanamo legal 
complex?
    Admiral Stavridis. Done.
    Mr. Edwards. It is done?
    Admiral Stavridis. Done and built.
    Mr. Edwards. How about the Guantanamo mass migration, the 
initial step to be able to deal with up to 10,000?
    Admiral Stavridis. Yes, 10,000. I think it is a very 
prudent investment. We are 70 percent complete with it, and we 
will finish it before the hurricane season starts. It is on 
schedule and on-budget.

                                 PANAMA

    Mr. Edwards. Okay. And then finally, any sense of what the 
strategic implications are, and perhaps any military 
implications, of the enhanced Panama Canal? And what is the 
timetable for that?
    Admiral Stavridis. It is a very impressive project by the 
Panamanians. I always say this when I talk about the canal. We, 
the United States, went through a big debate about whether to 
turn the canal over to the Panamanians. One of the things you 
heard in those days was, well, the Panamanians won't be able to 
run it very well.
    I have sailed the canal under U.S. auspices and I have 
sailed the canal under Panamanian auspices. It runs better 
today under the Panamanians. They have run it in a professional 
manner. They are safeguarding it. They are up to speed on the 
security issues tantamount to running it. They take very 
seriously their responsibility. It is a well run, and from what 
I can see, corruption-free enterprise, and that is very 
impressive in that part of the world.
    As to the canal expansion project, the Panamanian 
government went to their people and asked for a $5.3 billion 
funding stream to expand the canal so it could handle larger 
ships. That was approved by over 60 percent of the Panamanian 
people. They are generating it out of revenues they garner from 
the canal itself, from bonds they are floating in the 
international bond market, and a small tax they are placing on 
themselves.
    They have the money. They are letting contracts. They are 
starting the project now. Senor Aleman, who runs the Canal 
Authority, has briefed me on it. It is a very impressive 
project. It will be good for the economy of the United States. 
It will be good for the economy of that region. I am very, very 
impressed with the Panamanian management of it.
    Mr. Edwards. It is going to be great for Florida and 
Texas--in California--that is an exciting project.
    Mr. Berry, any questions?
    Mr. Berry. No, I was late.
    Mr. Edwards. No, we appreciate your attendance. Thank you. 
He is the smartest one on the committee, in essence. Thank you, 
Marion.
    Mr. Crenshaw.
    Mr. Crenshaw. I don't have any questions.
    Mr. Edwards. Mr. Wamp.
    Mr. Wamp. Mr. Chairman, it is really just a comment, and no 
more questions. I am really taken aback that if many of the 
people at our State Department had the diplomatic skills and 
the approach that you have we'd be better off, and that is so 
counter to many people's perceptions of our military leadership 
in this country. You are to be commended for having the 
approach that you have. I think it is the most effective 
approach. It puts all of the men and women in uniform under 
your command in a very favorable light in a region and in the 
world.
    Yet security is still your serious business. And so I am 
grateful for that. I think it really bodes well for us, and I 
think the State Department can learn a lot from your diplomatic 
skills.
    I yield back.
    Admiral Stavridis. You are too kind.
    Mr. Berry. Those remarks.
    Mr. Edwards. Well said.
    Mr. Farr.

                      LATIN AMERICAN MILITARY AID

    Mr. Farr. I would, too. In fact, it gives me great 
confidence that regardless of administrations, our regional 
commanders have just been outstanding people.
    Admiral Stavridis. Thank you, sir.
    Mr. Farr. If we had people like yourself the U.S. would be 
a lot healthier around the world.
    I want to ask just one question. I see a nascent arms race 
in Latin America. I remember when Kennedy was president, there 
was a big issue about whether we should support military aid to 
Chile to buy U.S. fighter planes, and some said, well, if they 
don't buy them from us, they will buy them from the French and 
it is good for U.S. business.
    There are some obviously lobbying for all this equipment to 
make sure that they buy American armament. On the other hand, 
you have Argentina upset that Chile is getting better 
equipment, and then Argentina has to have it. If we get into 
this arms race in Latin America where one-third of the people 
are poor as mice, we are spending limited resources on 
modernizing their military instead of on helping uplift the 
people.
    Admiral Stavridis. I agree.
    Mr. Farr. I think that is the problem between Venezuela and 
Colombia. Colombia has gotten all this aid through the Andean 
initiative and the Colombia Plan. Colombia has a much better 
military now which is contributing to this historical silly 
little border war.
    After the recent incident between Colombia and Ecuador the 
two countries brought people from both countries together for a 
rock concert, showing that maybe a little cultural get-together 
could calm things down.
    I am worried about where Guatemala has gotten too. The 
Merida initiative gives the Guatemala military and police 
significant increases in assistance to fight narco-trafficking. 
Their military forces are going to get modernized.
    Do you have concerns about the integrity of their forces to 
be able to handle this and do it properly? I mean, this is a 
country that historically has not gone along with us.
    Admiral Stavridis. Guatemala has had a history.
    Mr. Farr. Going on.
    Admiral Stavridis. Right. My own personal view, having 
traveled several times to Guatemala and having just had the new 
Guatemalan minister of defense at my Headquarters. As you know, 
there is a new president of Guatemala who has stepped away from 
mano duro, and is taking a much more human rights-oriented 
approach. I think it is time to look and give them a chance and 
see how it comes out.
    Mr. Farr. But you will be----
    Admiral Stavridis. With the Merida, oh, absolutely, 
absolutely.
    Mr. Farr. Okay. If you have any suggestions as we go on 
supplying these funds for any conditions we ought to put on 
them, we would appreciate it.
    Admiral Stavridis. I will. Yes, sir.
    Mr. Farr. And thank you for your service.
    Admiral Stavridis. Thank you, sir.
    Mr. Edwards. Admiral Stavridis, I don't have any additional 
questions. There might be some follow-up written questions.
    Admiral Stavridis. Sure.
    Mr. Edwards. Thank you for being here and for your service, 
and for reminding us all of the importance of the Western 
Hemisphere to our country's future.
    Admiral Stavridis. Thank you, sir.
    [Clerk's note.--Questions for the record submitted by 
Chairman Edwards.]

                    Counterdrug Operating Locations

    Question. Explain why the Manta site in Ecuador was originally 
chosen as one of the three forward operating locations under Plan 
Colombia, and the potential impact on operations of losing access to 
this site.
    Answer. The Ecuadorian Air Force Base at Manta, Ecuador was chosen 
as one of three locations required to offset the loss of access to 
major drug trafficking routes resulting from the closure of Howard Air 
Force Base in Panama in 1999. Plan Colombia, a Government of Colombia 
plan to counter the internal unrest fueled in part by counternarcotics 
trafficking, was not related directly to selection of the airbase at 
Manta. Colombia is, however, a focal point for cocaine and heroin 
trafficking from the Source Zone with most trafficking routes beginning 
there. In addition, over 2/3 of the narcotics bound for the United 
States from the Source Zone transit the Eastern Pacific. The location 
of Manta is strategic for Detection and Monitoring of the Eastern 
Pacific departure corridors and provides access for aircraft supporting 
the Air Bridge Denial program in Colombian airspace.
    Question. Please describe the facilities that have been constructed 
with U.S. funds at Manta. What is the residual value of these 
facilities? Does the lease agreement with Ecuador allow the U.S. to 
recover any of its infrastructure investment costs at the Manta site?
    Answer. 1. The following facilities were constructed at Manta, 
total MILCON cost was $75M: Installation infrastructure (sewer, 
electrical, water, roads, communications, etc.) airstrip upgrades and 
parking aprons; administrative facilities; billeting; dining facility; 
aircraft hanger and maintenance shop; four warehouses; and tank 
unloading facilities (no permanent tanks were installed).
    2. The legal arrangement for U.S. use of Eloy Alfaro Airbase at 
Manta is the Agreement of Cooperation between Ecuador and the U.S. 
dated November 12, 1999. Under the terms of the Agreement, the U.S. 
does not pay for access to Eloy Alfaro Airbase. Article XXI addresses 
construction at the Airbase. There is no explicit provision in the 
agreement that allows the U.S. to recover any infrastructure investment 
costs. While a formal evaluation of residual value has not been made, 
the estimate to rebuild the facilities in kind, in the same spot, in 
today's market, would cost approximately $100 million.
    Applicable provisions from the Article XII (Construction) of the 
agreement are:
    a. ``With prior authorization from the Ecuadorian Air Force, the 
United States may undertake new construction or improve, modify, 
remove, or repair the existing structures and areas at the Ecuadorian 
Air Force Base in Manta, in order to meet needs in connection with this 
agreement.''
    b. ``At the termination of use of installations constructed or 
modified in connection with this agreement, the United States shall, 
after due consultations between the Parties transfer such installations 
to the Republic of Ecuador.''
    Question. What are the lease expiration dates for the forward 
operating locations in El Salvador, Aruba, and Curacao? Have the 
responsible governments indicated their intentions regarding renewal of 
those leases?
    Answer. There are no leases for the Forward Operating Locations 
(FOLs) at which the U.S. Government operates. Instead, the U.S. has 
negotiated Agreements of Cooperation that allow the U.S. access to the 
partner nation bases for the purpose of aerial counternarcotics 
operations. The status of our FOL agreements are as follows:
    Comalapa, El Salvador: Current agreement expires on August 22, 
2010. The Government of El Salvador has indicated it will renegotiate 
and is currently assessing a U.S. proposal to extend the initial term 
of the agreement until 2015 after which it will remain in force until 
terminated by either side.
    Aruba and Curacao: Current agreement expires on November 1, 2011. 
The U.S. Defense Attache to The Hague and the U.S. Consul General in 
Curacao have assessed that the Kingdom of the Netherlands will extend 
the agreement. Neither negotiations nor discussions with the Dutch 
government have begun.

                               Guantanamo

    Question. How many permanently assigned military personnel and 
families do you have stationed currently at Naval Station Guantanamo?
    Answer. According to Naval Station Guantanamo and Joint Task 
Force--GTMO there are: 1,797 military members in Bachelor Housing; 197 
military members with families in Family Housing; 1,994 Total military 
personnel.
    Note: Additional information: 66 DoD Civilians in Bachelor Housing; 
122 DoD Civilians with families in Family Housing; 188 Total DoD 
Civilians.
    2182 Total military & DoD civilians (319 of them with families).
    Question. How many juvenile dependents do you have at NS 
Guantanamo? If child care services are provided, do you have a wait 
list?
    Answer. According to Naval Station Guantanamo and Joint Task 
Force--GTMO, the following is a breakdown of the number of juvenile 
dependents currently at Naval Station Guantanamo: 300 High School & 
Elementary School; 37 Child Development Center; 16 Child Development 
Home (Home care); 35 Other (newborns, etc.); 388 Total.
    One pre-toddler is on the waiting list for Child Care Services.
    Question. Other than housing and fitness, are there any other 
quality of life issues at NS Guantanamo that can be addressed through 
military construction?
    Answer. A consolidated fitness center and the family housing are 
our only GTMO projects requiring MILCON in FY09.

                              Southcom Hq

    Question. When do you anticipate contract award, groundbreaking, 
and construction completion on the new SOUTHCOM headquarters facility?
    Answer. The Award date was March 31, 2008, the notice to proceed 
was April 15, 2008, the groundbreaking is scheduled for June 6, 2008, 
and, the facility is scheduled to be completed on September 30, 2010.

                               Soto Cano

    Question. Please describe the state of the facilities at Soto Cano 
Air Base in Honduras, and the challenges of maintaining these 
facilities in the climate.
    Answer. Many of the facilities at Soto Cano Air Base are over 20 
years old and require constant maintenance/repair to mitigate the 
effects of the weather and termite infestation. The Soto Cano Joint 
Task Force-Bravo (JTF-B) Master Plan provides for the required number 
of facilities at Soto Cano. Currently, we have two projects to complete 
the housing requirements for JTF-B; Phase one, Enlisted Barracks in 
FYDP for FY11 at a cost of $11.2M and Phase two, Enlisted Barracks in 
the FYDP for FY12 at a cost of $15.5M.
    Many of the facilities at JTF-B are temporary facilities that are 
now 20-25 years old. To combat the effects of weathering and termite 
infestation, JTF-B must commit significant resources to maintenance and 
repair. Rapid degradation necessitates the replacement of the exterior 
components every 2-4 years. These temporary facilities do not meet DOD 
standards: they are wooden structures that do not meet current building 
codes, do not provide sufficient living space or interior bathrooms, 
and are insufficient given the often-severe weather (e.g. no central 
air conditioning and not hurricane rated).
    The extensive maintenance and repair effort costs JTF-B 
approximately $700,000 plus $100,000 to replace and repair air 
conditioners each year. Moreover, this figure does not include the cost 
of cooling these temporary facilities, and has driven up the annual 
power bills by 35% since 1996.
    Question. What are the terms of U.S. access to Soto Cano AB? Does 
the U.S. pay the Honduran government rent or provide in-kind 
consideration for use of the site?
    Answer. The U.S. operates Joint Task Force--Bravo at Soto Cano 
Airbase, Honduras, under the umbrella of the Bilateral Military 
Assistance Agreement between the Government of the United States and 
the Government of Honduras effective May 20, 1954, and the May 07, 1982 
addendum to such agreement. The agreement establishes conditions for 
U.S. operations and presence in Honduras, but does not specifically 
address Soto Cano Airbase. The U.S. does not pay rent or provide in-
kind consideration for the use of the site.

                                SOCSOUTH

    Question. How long has Special Operations Command--South been 
located at Homestead Air Reserve Base? What is the state of the 
facilities currently used by SOCSOUTH?
    Answer. Special Operations Command--South completed their move from 
Roosevelt Roads, Puerto Rico on March 31, 2004.
    The current facility, originally built in 2004, consists of 38 re-
locatable assembled modular units. In February 2008, the Chief, 
Facilities Policy Division, Assistant Chief of Staff for Installation 
Management purchased the re-locatable facilities for $2.3M using (OPA) 
funds. The re-locatable trailers may be retained for a period not to 
exceed six years.
    These trailers, originally designed for 150 personnel in 2004, 
currently provide workspace for 274 personnel, an 82% increase in 
occupancy. Based upon this increase, the current structure is 
particularly deficient in the following areas:
    --Air Quality (The building's heating ventilation, and air 
conditioning (HVAC) system designed for 150 occupants is inadequate and 
overburdened)
    --Sanitation (does not meet standards established by 29 CFR 1910 
Occupational Safety and Health Standards
    A new SOCSOUTH HQ's construction project for $32M will provide a 
permanent Command and Control HQ's facility for SOCSOUTH and 
accommodate all personnel within established standards. Currently $20M 
is included for this facility in the FYDP and is listed as HAB, 
administrative building. The updated DD1391 for $32M is currently at 
OSD.

    [Clerk's note.--End of questions for the record submitted 
by Chairman Edwards.]
                                         Wednesday, April 16, 2008.

                       SPECIAL OPERATIONS COMMAND

                                WITNESS

ADMIRAL ERIC T. OLSON, COMMANDER, SPECIAL OPERATIONS COMMAND

                       Statement of the Chairman

    Mr. Edwards [presiding]. I will call the committee to 
order. Thank you all for being here.
    Admiral Olson, it is an honor to have you here, and thank 
you for your distinguished service for so many years to our 
country.
    We are here today to review the fiscal year 2009 military 
construction budget request for Special Operations Command. 
SOCOM, which marked its 20th anniversary last year, is the 
designated lead command for the Global War on Terrorism. As 
such, SOCOM intends to transform and grow by 13,000 personnel 
by 2013, pursuant to the policy laid out in the 2006 
Quadrennial Defense Review.
    SOCOM is not a command that ordinarily appears before our 
subcommittee, but there are two very good reasons why we 
requested Admiral Olson to be here and why we are grateful he 
is here today. First, SOCOM itself has called MILCON ``the 
enabler'' of its expansion. Secondly, Special Operations 
forces, much like the rest of the military, has been heavily 
deployed since September 11, 2001.
    One of this committee's main priorities is quality of life, 
so I know we will be interested in hearing about the rate of 
deployments and the impact that has had on the forces, as well 
as the families.
    Admiral, before we proceed, I would like to recognize our 
ranking member, Mr. Wamp, for any opening comments he would 
care to make.

                Statement of the Ranking Minority Member

    Mr. Wamp. Thank you, Mr. Chairman. I just want to say at 
the end of 19 hearings this year through the regular order of 
hearing from all of the different commands and all of the 
different parties that this subcommittee funds, at a total of 
more than $70 billion a year around the world, and all the men 
and women in uniform, it is an honor for us to serve those who 
serve and have served. We do understand the extraordinary 
history of the Special Operations Command, so we can say with 
confidence that we saved the best for last, Admiral Olson.
    We are grateful for your presence here today. You are 
bringing up the rear, but you are doing it from the top. So 
thank you for your presence. I look forward to your testimony 
today.
    Mr. Edwards. Thank you.
    To follow up on those comments, let me also thank the staff 
of the subcommittee, Mary Arnold, and all the staff, for the 
tremendous work you have done in setting up these 19 hearings. 
They have gone smoothly--and all of your support from both 
sides of the aisle, for this staff work.
    By way of very brief introduction, because if I talk about 
his entire distinguished career, I would take all the 
committee's time this morning, but by way of brief introduction 
for Admiral Olson, he was appointed SOCOM commander in July of 
2007. He has served for 35 years, having graduated from the 
Naval Academy in 1973. He qualified as a naval special warfare 
officer in 1974, and previously served as deputy commander of 
SOCOM.
    How long, Admiral, were you in that position?
    Admiral Olson. For 3 years and 10 months, sir. I can't go 
into the days and hours.
    Mr. Edwards. For 3 years and 10 months, and the----
    [Laughter.]
    Mr. Edwards [continuing]. Among his many distinctions, he 
is the first Navy SEAL to reach both the three- and the four-
star rank.
    Admiral, again, we are honored to have you here. By 
unanimous consent your written testimony or anything you might 
want to include will be submitted for the record. We would like 
to recognize you now for any opening comments you care to make, 
and then we will go into discussion and questions and answers 
after that.

                   Statement of Admiral Eric T. Olson

    Admiral Olson. Chairman Edwards, thank you very much for 
the opportunity to be here. Congressman Wamp, Chairman Dicks, 
it is a pleasure to appear before you. I am honored to be the 
19th of 19, and I hope this wraps up your ordeal in a positive 
way.
    Mr. Edwards. I am sure it will.
    Admiral Olson. I appreciate the opportunity to submit my 
written statement for the record, but I would like to highlight 
a couple of things. One of them you mentioned, we did celebrate 
our 20th anniversary as a command last year. We are actually 
celebrating our 21st birthday today.
    Mr. Edwards. That is tremendous.
    Admiral Olson. And we are unique among the combatant 
commands. I know you have had the opportunity to speak with all 
of them. But we were created by this body, by the National 
Defense Authorization Act Amendments of 1986. We were created 
to be different from the other combatant commands. In fact, we 
have a significant number of service-like authorities and 
responsibilities. We are represented in many of the Pentagon-
OSD-level discussions in a service-like capacity.
    Unlike most of the combatant commands, SOCOM is more like a 
service. I do have people assigned to me full-time that I am 
responsible for their care and feeding, training, education, 
and equipping throughout the course of their service in Special 
Operations Command. And the expectation of the requirement is 
that the budget that I am provided be utilized to answer 
Special Operations-peculiar requirements. I am obliged to spend 
those funds on Special Operations-unique equipment, material, 
supplies, and services.
    That makes me heavily dependent on the other services for 
much of what it is we have. We don't own or operate bases. We 
only go to buildings and range facilities, and then once those 
are completed, we actually turn title over to the owner of the 
base, and he becomes responsible for the majority of the 
maintenance to sustain them--the facilities that we--we don't 
build barracks. We don't build dining halls. We don't build 
bowling alleys. We don't build family support facilities. So we 
are very dependent on the services, and what is good for the 
service MILCON budgets is generally very good for Special 
Operations Command personnel as well.
    So what I will address today are really the Special 
Operations-peculiar aspects of military construction. We are in 
a growth period. You mentioned 13,000 growth. That is largely 
the result of the last QDR, but it was also before and after in 
terms of the POM cycle. We are on track with that growth. It 
was front-loaded heavily in fiscal year 2008, so we are seeing 
those people come in rapidly. About 40 percent of the 5-year 
growth is in the first year. But we are on-pace with and in 
some areas exceeding even our optimistic estimates of how 
rapidly we could grow.
    I will say that we are growing at about the maximum rate we 
can absorb the growth in any sense, so any idea that we can 
sort of instantly double the size of the community or create 
this goodness at a more rapid pace is probably not right. Our 
2009 budget request does include 14 projects for a relatively 
small dollar item. Of these 14 projects, 13 of them are in the 
United States and one is overseas to accommodate one of our 
permanently deployed units. The total value is $254.9 million. 
This is $230.4 in major construction and $16.8 million in the 
planning and design, and then $7.7 million in unspecified minor 
construction.
    Of the $230.4 million that is major construction, about 
three-fourths of that is operations and maintenance and about 
one-fourth of that is training. The operations and maintenance 
largely is to accommodate our growth and sustainment. These are 
new buildings for new units that have been provided to us 
through the 13,000 person growth plan. Approximately $50 
million in training facilities mostly has to do with ranges and 
facilities that will enable our people to train closer to home.
    The pace of operational deployment is high enough that we 
are very concerned that when they are not deployed, they ought 
to be home and not away from home training someplace else. 
Because we compete for service ranges on our big bases and 
because we are located in some of the areas where it has just 
been hard to develop ranges, this MILCON for about $50 million 
this program does chip away in order to keep our people home, 
so that they can train during the day and sleep in their own 
bed that night, instead of having to travel too much to train.
    I would say the themes of our program are to keep 
facilities in sync with our overall growth and keep our 
recapitalization rate at a very reasonable level, and again to 
construct training facilities that are closer to home.
    Our fiscal year 2009 request is down significantly from 
fiscal year 2008 at $255 million. But 2008 was a surge year and 
much of the front-loading of the people in the first year of 
the cycle also front-loaded the MILCON in the front year of the 
cycle. And so the fact that we are down from last year is not 
an item of real concern for me.
    We did prioritize within our top line fiscal guidance that 
was provided to us by the department, and that fiscal guidance 
was actually down slightly from fiscal year 2008 for the same 
reason. Fiscal year 2008 had been a surge year for us. Except 
for the surge in 2008 and to a lesser extent in 2007, our 
fiscal year 2009 program is higher than any previous year. It 
is on-pace with the general growth trend that we are 
experiencing across the Special Operations community.
    So I thank this committee for your support. Our MILCON 
request for fiscal year 2009, if approved, will sustain our 
current and programmed growth at a reasonable level and with 
your continued support, I think that Special Operations will 
continue to meet the high expectations of the American people.
    Thank you.
    [Prepared statement of Admiral Eric T. Olson follows:]
    [GRAPHIC] [TIFF OMITTED] T2754E.007
    
    [GRAPHIC] [TIFF OMITTED] T2754E.008
    
    [GRAPHIC] [TIFF OMITTED] T2754E.009
    
    [GRAPHIC] [TIFF OMITTED] T2754E.010
    
    [GRAPHIC] [TIFF OMITTED] T2754E.011
    
    [GRAPHIC] [TIFF OMITTED] T2754E.012
    
    [GRAPHIC] [TIFF OMITTED] T2754E.013
    
    [GRAPHIC] [TIFF OMITTED] T2754E.014
    
    [GRAPHIC] [TIFF OMITTED] T2754E.015
    
    Mr. Edwards. Admiral Olson, thank you very much.
    I think we are going to turn first to Mr. Dicks. He is, as 
you know, senior member of the Defense Appropriations 
Committee, and with his love and commitment to Fort Lewis, I 
know he has had a special hand in supporting the Special 
Operations Command over the years.
    Mr. Dicks, I would like to recognize you.

                            GROWTH OF SOCOM

    Mr. Dicks. Mr. Chairman, thank you very much.
    I also want to welcome Eric Olson here. I know Eric Olson. 
He was born and raised in my district and is a graduate of 
Stadium High School, then the Naval Academy. His mother was my 
first office manager in my district office in 1976 and is still 
a very close friend. We are very proud, obviously, of the work 
that Eric has done in all his assignments, but the fact that he 
has reached three stars and now four stars, and is the head of 
SOCOM, we are very proud of his accomplishments.
    And also, his good work. He has an amazing record and we 
are proud of what you are doing, and the fact that SOCOM is 
growing so fast. Since we didn't have a hearing in Defense, 
maybe we could wander a little bit, Mr. Chairman, just to talk 
a little bit about your overall growth of SOCOM. As I have it, 
you are up to 55,895 civilian and military personnel, of which 
43,745 will be active duty.
    Tell us about where you see this going and then we will 
talk about the $38 million. [Laughter.]
    Admiral Olson. Thank you, sir. The world has changed and I 
think there is a realization that Special Operations is more of 
a solution in the future world than it may have been in the 
past. It is simply that the work for us is very steady now. 
There used to be a sense that Special Operations forces were 
sort of a spot application force, in case of war, break glass. 
But in this totally different environment in which we live now, 
there is a much higher expectation that Special Operations 
forces will be everywhere all the time.
    Our own little mantra is that we may pride ourselves on 
running to the sound of guns, but if we are always running to 
the sound of guns, then we are always too late, that we need to 
be out ahead of the sound of guns. In fact, we woke up this 
morning in about 68 countries of the world in a variety of 
activities, mostly having to do with enabling national 
sovereignty, so that other nations can protect their borders 
and care for their people, that will prevent us from maybe 
having to do that at some future point.
    I mentioned that we are growing 13,000. You mentioned 
55,000-plus today. Those are accurate numbers, with 43,000 
active duty and a much smaller reserve component. Our reserve 
component is mostly in Green Beret Special Forces capability 
and they are highly qualified and full members of the force.
    Of those 43,000 active duty, about 16,000 are what you 
would call the operators of Special Operations--the volunteers 
who have been selected to go through some sort of advanced 
training, generally with a demanding training with a relatively 
high attrition rate in order to earn the badge or the beret or 
the boots or the tab or the wings, or whatever it is that may 
identify them as an operator of Special Operations.
    The others are the full range of enablers--administrative, 
intelligence, logistics--that permit Special Operations forces 
to do their job. They are also highly qualified. They are also 
usually volunteers. They also try to stay with us as long as 
they can, and that is in our interest to keep them.
    So this is a force that really operates at a different 
level. On average, we are much older than the rest of the 
military. On average, we are married at a higher rate. We are 
more stable in the places that we live. We are more engaged in 
our communities because we do tend to regionally orient, 
particularly in the Army Special Forces where language 
qualification is a requirement and one's first assignment is to 
a Special Forces group based on that group's regional 
orientation.
    The First Special Forces Group at Fort Lewis is aimed at 
the Pacific. The Special Forces Group in Colorado is aimed at 
Europe. The Third Special Forces Group is aimed at Africa and 
parts of the Middle East; the Fifth Group at the rest of the 
Middle East; the Seventh Group at South America. So that with 
that orientation, they have a growing expertise in the course 
of their careers, and that contributes then to the stability.
    Mr. Edwards. You just mentioned language, Admiral. And that 
is why Mr. Farr just came in. He is our expert on language 
training for our military personnel.
    Please go ahead.
    Admiral Olson. So, the nature of the force is that we are 
now in demand, not just in response to, but especially in order 
to prevent, as a preemptive force with the language ability and 
cultural skills, and the engagement that we do over time. Our 
measure of linguistic success, for example, is not 75 percent 
accuracy in machine translation. It is exchanging photos of our 
families, because of the relationships that we build through 
that sort of orientation.
    But in specific answer, our ability to grow tops out at 
about 5 percent per year. That is about what we are programmed 
to do now.
    Mr. Dicks. Through 2013?
    Admiral Olson. Yes, sir. The 2008 plan has us growing. We 
are a little bit front-loaded. It is kind of 6 percent in the 
early years and 3 percent to 4 percent in the later years of 
the 2008 to 2013 plan, but that is about what we can do, the 
Army, Navy, Air Force, Marine Corps, with the Marine Corps 
component just having celebrated its second birthday here in 
February.
    Mr. Dicks. What are they going to do--2,500 Marines, what 
will be unique about them?
    Admiral Olson. Sir, the force is really split in thirds. 
They are both trainers on the order of Special Forces 
regionally. They are culturally attuned, language-skilled and 
they will deploy in 14-man teams, not just to the same country, 
but ultimately to the same zip code within that country over 
and over and over again to maintain relationships. And they are 
going to go some of the places where we have always wanted more 
presence and just haven't had the force to do it. The Marines 
are giving us that capability--Chad, Mauritania, Kenya, some of 
those. They are already doing that, and that is a significant 
portion of the force.
    Another significant part of the force is direct action 
strategic reconnaissance company-level--100-man companies who 
are going to fight where there is a fight. Right now, they are 
in Afghanistan. They are in a fairly remote section of Helmand 
Province, and they have been heavily engaged in the fight 
against the Taliban in Helmand Province.
    The third category is the enablers, the military working 
dogs, air-to-ground call-for-fire experts, counterintelligence, 
linguists and interrogators, explosive ordnance disposal--all 
those supportive skills that enable the rest of it to occur.
    Mr. Dicks. Thank you. I have exceeded my time. I will be 
glad to wait until the next round.
    Mr. Edwards. Okay. Thank you, Mr. Dicks.
    Mr. Wamp.
    Mr. Wamp. Wow. We do a lot of talking about the buildings 
and facilities and childcare centers and all those type of 
things, and this is different. You talked about the average age 
being older. I was interested in that. Do we get people to 
fight or serve in Desert Storm and Desert Shield and then come 
back because they are under your command, and they have a 
specialty or they are the kind of soldier or Marine that you 
need in the situation like this? You are talking about the 
average age. They have obviously done things. Did they leave 
and come back? Or do they pretty much stay and they are still 
in this game?
    Admiral Olson. They pretty much stay, sir. In each of the 
services now, there is an opportunity to serve for an extended 
period of time in Special Operations, and there is some 
opportunity to stay forever if they continue to meet our 
standards and we continue to meet theirs. So we do have 
careerists within each of our Special Operations branches. The 
Marines are too new to see exactly how that is going to play 
out, but the discussion is that they will model their career 
activity after the other three services.
    Mr. Wamp. When General Ward came in to brief us on AFRICOM 
and talked about Djibouti being a forward operating base, I 
assume then that your guys work out of any of these facilities 
around the globe. That is like their home away from home, and 
they have access to any of these type places to do whatever is 
necessary.
    Admiral Olson. That is correct, sir. We do have some 
permanently forward-based, but most of our forces are 
expeditionary and they go where they are needed.
    Mr. Wamp. Well, let me ask one other question. I am new and 
I am still learning. It has been a great privilege. But I 
assume then that the average person under your command would 
know more about the quest to capture the Osama bin Laden-types, 
the bad guys, than the average man or woman in uniform in our 
armed forces. Is that a good sense of it?
    Admiral Olson. That is a fair statement. Yes, sir.
    Mr. Wamp. You mentioned when meeting with Chairman Edwards 
and I about the nine principles that guide your organization. 
Can you kind of go through at least those three general 
parameters here?

               MISSION, PEOPLE AND ACQUISITION PRIORITIES

    Admiral Olson. Yes, sir. The three categories are mission, 
people, and acquisition priorities. I call them mission, 
people, and stuff. The mission priorities are to plan and 
conduct special operations at an ever-increasing level. We 
believe that nobody has ever done it quite like this in 
history, and we are reinventing that capacity and capability 
every day. Included within that category as well is 
international engagement and interagency engagement, which we 
understand is absolutely essential to success.
    We understand that we are not going to kill our way or talk 
our way to success in--war on terror. We are going to behave 
our way to success, and much of the opportunity to exhibit that 
behavior is through the interagency and international--people, 
and it is about training and educating them. It is about 
ensuring that they are properly cared for both responsibly and 
proactively and preemptively--ensuring that they get the 
attention and the care that they need to stay with us for as 
long as we need them and beyond.
    And the third is the acquisition priorities, which have to 
do with personal equipment, mobility and situational awareness.
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Wamp.
    Mr. Farr.
    Mr. Farr. Thank you very much, Mr. Chairman.
    Admiral, thank you for your service to our country. We 
appreciate that. Thank you for being here today.

                   NPS FIELD EXPERIMENTATION PROGRAM

    I want to direct some questions on special ops and some 
training that is going on today at the Naval Postgraduate 
School. I received a memo from General Hassim expressing his 
strong support for the field experimentation program for 
Special Operations Command. I just wondered if you could 
comment on the value of that program. As you know, the school 
that I represent, the Naval Postgraduate School, has a program 
and has significant infrastructure--at Camp Roberts and Camp 
Hunter Liggett--to support field experiments and to provide 
real value to the USSOCOM. And other government agencies and 
laboratories, industries and universities work collaboratively 
and innovatively with you on this.
    I have heard some good comments, and was wondering what you 
thought about it. Is the continuing involvement of the Naval 
Postgraduate students a good investment strategy for us?
    Admiral Olson. Yes, sir. We are committed to supporting 
that the best we can, and thank you for your support. We have a 
very strong relationship with the Naval Postgraduate School, 
and it is certainly not because I am Navy. In fact, most of the 
students that we put through the Naval Postgraduate School are 
not Navy. There is a Special Operations low-intensity conflict 
curriculum within their National Security Affairs Department, 
and we have 50 Army students in that at any one time, and fewer 
than 10 Navy and Air Force students. This is really a program 
that is strongly supported by the Army.
    The project you are talking about has mostly to do with 
situational awareness in a battlefield environment. It is how 
to collect, process, analyze, disseminate information from a 
wide variety of sensors, headed up by a retired professor named 
Dave Netzer, who has been kept on to work that project. He has 
been extraordinary in his energy and support for that. So the 
short answer is two thumbs up. We are very high on that 
program, sir.
    Mr. Farr. It is my understanding that you are working 
towards getting FEPSO into the fiscal year 2010 budget so that 
it will not have to be earmarked all the time?
    Admiral Olson. It has been proposed to my headquarters as a 
fiscal year 2010 initiative. We are actually having those 
meetings this week and next to reconcile the priorities for 
fiscal year 2010.
    Mr. Farr. Thank you. All right. I will have to do my 
homework. Thank you.
    Mr. Edwards. Thank you.
    Mr. Boyd.
    Mr. Boyd. Thank you, Mr. Chairman.
    Admiral Olson, you have a naturally very low voice.
    Admiral Olson. Yes, sir. I hope this is on.
    Mr. Edwards. Speak softly and carry a big stick.
    Admiral Olson. All right, sir. [Laughter.]
    Mr. Boyd. A couple of questions, Admiral. Thank you for 
your service to our country.
    Mr. Edwards. Would you mind pulling that microphone up? 
[Laughter.]
    Mr. Boyd. I thought I would speak loudly enough.
    Your fiscal year 2009 MILCON request includes $40 million 
for a Special Forces complex at Eglin Air Force Base.
    Admiral Olson. Yes, sir.

                  SPECIAL FORCES COMPLEX AT EGLIN AFB

    Mr. Boyd. The fiscal year 2009 BRAC request contained $148 
million for a Special Forces complex at Eglin also, to comply 
with the mandate to move the Seventh Special Forces to Eglin.
    Admiral Olson. Correct.
    Mr. Boyd. Is the MILCON project a new requirement since the 
BRAC request? Or was it missed in the BRAC submission? Or is it 
a redundant request? That was somewhat confusing to us.
    Admiral Olson. Yes, sir. It is a new requirement. The 
background is that the BRAC decision was to move the Seventh 
Special Forces Group from Fort Bragg, North Carolina, to Eglin 
Air Force Base. At the time that decision was made, the Seventh 
Special Forces Group consisted of three operational battalions 
and a support battalion. Since that BRAC decision was made, we 
have achieved this Special Operations community-wide growth, 
which includes one additional battalion for each of our Special 
Forces groups. So the Seventh Special Forces Group has four 
operational battalions now, not three, or is programmed to 
have. So this is specific to that.
    The Army was responsible for funding through their MILCON 
program the original BRAC-directed move, but because this is a 
Special Operations initiative to grow the additional battalion, 
that is why it is in our budget.
    Mr. Boyd. And that $40 million will be for housing?
    Admiral Olson. It doesn't include housing. It includes the 
operational-related facilities, headquarters, training 
capability, motor pool--those sorts of things--dive blocker, 
parachute loft--those things that are peculiar to Special 
Operations. Army and Air Force, because this is at Eglin Air 
Force Base, they are responsible for the service-common items.

                           AL UDEID AIR BASE

    Mr. Boyd. Let me shift gears slightly and go across the 
water to Al Udeid, which is a very critical location to our 
activities in the Central Command.
    Admiral Olson. Yes, sir.
    Mr. Boyd. There is a $9 million request for a project 
inside the CENTCOM AOR at Al Udeid Air Base. This is in 
addition to funding in 2007 and 2008, and the 2008 supplemental 
which totaled about $115 million. Can you speak to the long-
term return on this investment in this specific region? Has 
that been carefully considered and does it support an 
investment this large?
    Admiral Olson. Yes, sir, it does. This facility is a 
training facility. It is going to be essential to support SOF 
training in theater for forward-stationed special forces in 
support of U.S. central command.
    We see the demand for Special Operations forces in CENTCOM 
increasing over time, not decreasing. As the environment shifts 
from one of occupy and high-intensity combat to one of train 
and assist, that is a forte of Special Operations. So I believe 
that this project has an enduring value for us.
    Mr. Boyd. So it has to do with communications facilities?
    Admiral Olson. It is a training facility. Yes, sir.
    Mr. Boyd. Okay. Mr. Chairman, do I have time for one more 
quick question?
    Mr. Edwards. Sure.

                         CANNON AIR FORCE BASE

    Mr. Boyd. Let's come back to Florida, to Hurlburt Field. 
Cannon Air Force Base is being converted from a fighter wing to 
a Special Operations forces wing under the BRAC decision.
    Admiral Olson. Yes, sir.
    Mr. Boyd. Currently, we are aware of only one project being 
requested, and that is to construct a hangar. Are there other 
base infrastructure requirements that might be needed that are 
not included here?
    Admiral Olson. Yes, sir. Just for the record, the BRAC 
decision was actually to close Cannon Air Force Base in New 
Mexico unless another user was identified. At the same time, we 
in Special Operations were looking for a western base to 
accommodate the growing Air Force component within Special 
Operations. The Air Force offered us Cannon. We accepted the 
offer and that then became the reason for transferring this 
from a fighter wing to a Special Operations base. That actual 
transfer occurred last October and now the owners-occupiers of 
Cannon Air Force Base are the Special Operations component of 
USSOCOM.
    This is a phased growth. It was not quite a turnkey 
operation, but it was an up and running base. It had 
maintenance facilities. It had people. It had barracks. It had 
chow halls. It had all the rest of it. So the MILCON demands, 
although significant, were not urgent. We can grow into that 
base at the rate our assets are moving in. This is a phased 
period across time. So we will see more projects at Cannon 
beyond 2009, but in 2009 the right level was as we have 
requested it.
    Mr. Boyd. Thank you very much.
    Mr. Chairman, thank you.
    Mr. Edwards. Thank you, Mr. Boyd.
    Mr. Berry.
    Mr. Berry. We would all like to thank you and everyone here 
for this hearing. I am new on this committee and I don't know 
enough to ask you a question that would make any sense. But I 
know enough to appreciate what you do and to know that this 
committee does its best to provide you with what you need. We 
hope that you do and expect that you will--they do know 
something about this stuff. I am appreciative of that.
    So we thank you again for your service.
    Admiral Olson. Thank you very much.
    Mr. Berry. Thank you, Mr. Chairman.
    Mr. Edwards. Just don't believe one thing he said, and that 
is he doesn't know enough to ask tough questions. [Laughter.]
    He is as sharp as a tack.
    Thank you, Mr. Berry.
    Mr. Bishop.
    Mr. Bishop. Thank you very much.
    Sir, welcome.
    Admiral Olson. Thank you, sir.
    Mr. Edwards. Could you pull up the microphone for 
transcription purposes. Thank you.
    Mr. Bishop. Thank you.
    Special Forces kind of--mission involves extensive contact 
with the region's military and police, and much of it is 
through training. The Special Forces teams deploy frequently to 
Latin America to train foreign units in counter-narcotics often 
with joint training activities. Do we have adequate training 
facilities for the operations in Latin America?
    Admiral Olson. Yes, sir. We don't own any of our own 
facilities there. We just use the facilities of the countries 
with which we are training. It typically amounts to a few 
hundred people on any given day spread across five to nine 
Latin and South American countries.

                            GROWTH OF SOCOM

    Mr. Bishop. Thank you, sir. Our understanding is that you 
are responsible for growing the size of the Special Operations 
forces and that it takes almost 2 years to train a Special 
Operations force servicemember. The baseline for recruiting 
folks with the right mental and physical background is 
extremely high and most of the ones who start training don't 
complete it. How are you progressing in increasing your 
numbers?
    In addition, the thought is that quality is better than 
quantity. Have you been required to lower your standards? Or 
will it just take more time to get the right people? Do you 
have adequate facilities for training the folks that you need 
to train in this growth spurt?
    Admiral Olson. There are several questions in there, sir. I 
will try to answer them all.
    First of all, we are not sacrificing quality at all. In 
fact, I think because we are getting smarter about our 
training, our quality is actually improving as we are able to 
tailor it better to the needs of the force. Recruiting is good. 
It has been fairly steady for a couple of decades, but now we 
have better capacity in our school houses so that we can accept 
more volunteers, and therefore we are turning more out.
    So our growth is pretty much on-pace. Through most of our 
specialties, we are on our expected growth slope. We are 
falling behind in a couple of areas, but ahead in a couple of 
others. But as an example, in preparation for our growth, we 
increased the capacity of our Special Forces school house. 
These are the Green Berets who are most of our operational 
force, at least the largest single segment.
    Five years ago, we had never graduated more than 300 Green 
Berets in a year. Last year, we graduated 820. So we are in 
fact increasing by the strength of a battalion per year in Army 
Special Forces. Everybody will tell you that the quality is as 
good or better than it has ever been.
    In terms of training facilities, I think we are very okay 
with that. Our program addresses that, but it is not so much in 
terms of our basic training facilities to create Navy SEALs and 
create Green Berets and create Army Rangers. It is more to 
sustain their training by keeping them closer to home when they 
are not deployed. It is very important to us to have facilities 
that are within commuting range of where people live and work, 
so that when they finish training they can go home at night. 
The operational demands keep them away from home far too much 
as it is. So we are looking for some relief from the 
requirement to travel to train.

                         QUALITY OF LIFE ISSUES

    Mr. Bishop. Well, I guess as a segue then, are there any 
other issues related to quality of life--training facilities 
that we need to be aware of for your folks?
    Admiral Olson. Sir, I like the way a former chief of naval 
operations used to term it. He called it quality of service. 
Quality of service equals quality of life plus quality of work. 
I think that the great interest in recent years for improving 
the quality of housing for all of our servicemembers of all the 
services is paying huge dividends. At least in the force that I 
have responsibility for, I am not hearing complaints about 
inadequate housing. Often the commute is further than they 
would like it to be, but that is because sometimes Special 
Forces are in very desirable places. Our headquarters is in 
Coronado, California and Virginia Beach, Virginia and Fort 
Lewis, Washington, and these are places where people need to 
just buy a little bit further away, where the on-base housing 
isn't sufficient or they choose not to live on-base.
    The quality of all that is very high, and that is a service 
responsibility, not a Special Operations responsibility. So we 
are focused on improving the quality of work, which we can do 
largely by improving the headquarters facilities, the 
maintenance facilities, and the training facilities for our 
forces.
    Mr. Bishop. I was concerned about whether or not you had 
any problems with morale and with retention because of family 
problems related to the commute or related to the requirements 
on the Special Operations forces person which separates them 
from family--family problems with children, with divorces, with 
family violence, any of those types of issues.
    Admiral Olson. Sir, I am concerned about a future fragility 
in the force. We are not seeing it in the data yet, but we are 
on a quest to determine how predictive and preemptive we can be 
in our family care programs. Again, those are largely the 
responsibility of the services to provide those family support, 
child care kinds of activities. The services are good about 
talking to us to see whether or not what they are doing will 
meet our needs. And so that is a good healthy relationship. So 
I am not seeing that sort of stress in the force at this point.
    Mr. Dicks. Would you yield just briefly?
    Mr. Bishop. Yes, sir.
    Mr. Dicks. Does the fact that you have shorter deployments, 
6 months to 7 months, do you think that makes a big difference 
between what is happening with Special Forces and the rest of 
the military, especially the Army and the Marine Corps?
    Admiral Olson. Sir, that is huge. We have great flexibility 
in how we deploy our force and almost none of our forces are 
gone more than 7 months at a shot. In some cases, they are gone 
90 days or 120 days. That is much more sustainable over the 
long haul.
    Mr. Dicks. Thank you for yielding.
    Mr. Edwards. Admiral, let me ask you, what percent of your 
troops or your servicemen are married under your command?
    Admiral Olson. Sir, it is between 60 percent and 70 percent 
married.
    Mr. Edwards. Between 60 and 70 percent. When you said on 
average older age than the services, that was a real surprise 
to me. I guess I would have had the image of these tough single 
guys, young tough single guys out there without families.
    In regard to the families----
    Mr. Farr. Like the Rambo movies.
    Mr. Edwards. Yes, you are right. You are right. That leads 
to one of my other questions later.
    But in terms of housing, since you are dependent upon the 
services, and human nature being what it is, one of my concerns 
would be that sometimes maybe you are not at the top of the 
priority list for each installation commander. Do you have any 
kind of numbers that would show what numbers of forces under 
your command are living in housing, either barracks or family 
housing, that don't meet basic DOD standards?
    Admiral Olson. Sir, I am going to have to take that 
question for the record. I don't have those numbers. I don't 
have any evidence that that is occurring at this point. But I 
would like to put a plug in, if I might, for the public-private 
venture housing program. I know there were a couple of rocky 
starts to that, but I think that program is up and running 
fully now and overall it has been a very good thing for our 
people. Those who are living in public-private venture housing 
are very satisfied with it.
    [The information follows:]

    USSOCOM relies on the Services for service-common support to 
include unaccompanied and accompanied housing. The following chart 
depicts the percentage of barracks and housing that currently do not 
meet DOD standards:

------------------------------------------------------------------------
                                                  Barracks
                   Component                        (%)      Housing (%)
------------------------------------------------------------------------
MARSOC........................................            0            0
AFSOC.........................................           75           55
JSOC..........................................            0            0
USASOC........................................           14            0
NSWC..........................................            0            0
------------------------------------------------------------------------

    Marine Corps Forces Special Operations Command (MARSOC): The United 
States Marine Corps has a permanent 2 + 0 waiver of the 1 + 1 module 
DOD standard for junior personnel (Lance Corporal and below/E1-E3).
    Air Force Special Operations Command (AFSOC): Barracks will require 
significant investment to meet DOD standards. All Air Force owned 
housing is approved for privatization. AFSOC housing will be brought up 
to standards within a 5-year development period.
    United States Army Special Operations Command (USASOC): The Army 
Barracks Improvement Program continues to progress with 1,278 barracks 
projects programmed from now to FY13.

    Mr. Edwards. That is great to hear, because this 
subcommittee played a key role in that when a lot of people 
didn't want to try something in a different way.
    Admiral Olson. Sir, I thank you.
    Mr. Edwards. But if you could give us those numbers. What 
we want to do is have a metric where each year we ask that same 
question of each of the services, but we would also like to ask 
it of you, how many under our leaders' commands are living in 
housing that doesn't meet DOD standards for adequacy. So we 
want to see that coming down.
    I think in family housing, we have made great progress. In 
barracks, I am not quite sure, but we would like to keep a 
special eye on Special Operations folks as well.

                           OPERATIONAL TEMPO

    Could I ask about the op tempo? While the deployments are 
for a shorter period of time relative to the 12 month to 15 
month deployment for Army soldiers, do you have a number in 
terms of the average how much time away from home and family 
have your forces been away since September 11 of 2001?
    Admiral Olson. Sir, the forces in our operational units--
our SEAL platoons, our Special Forces Operational Detachments, 
what we call A-teams, our aviation crews both fixed-wing and 
helicopter, they have been between sort of a one-to-one 
deployment ratio and a 1.5 home for one forward kind of ratio. 
Where we suffer our highest operational tempo is actually in 
our headquarters because we have more flexibility to rotate out 
the tactical elements where the headquarters have to go. So we 
are at just a little bit under one back for one over, 
particularly with our Special Forces group command at the O-6 
level.
    Mr. Edwards. General Casey recently testified to our 
subcommittee that ideally in the long term the ratio he would 
want for time away from home would be 1 year deployed and 3 
years at home. What would be your long-term goal? Would it be 
similar to that?
    Admiral Olson. We subscribe to that ratio. Yes, sir.
    Mr. Edwards. Is your present op tempo sustainable? Or if 
you can continue this level of op tempo of approximately 1-to-1 
for the next 2 or 3 or 4 or 5 years, do you start to see a loss 
of your key leaders and problems in the families?
    Admiral Olson. Sir, I think we do. We don't have the data 
that shows that yet because everybody is still doing exactly 
what they signed up to do. But I don't know how long that is 
sustainable. I do believe that 1-to-1 is not sustainable. I 
think that 2 back and 1 over, we could probably hold for some 
period of time, probably not for the entire course of a career; 
3 over and 1 forward, and we are sustainable for the long haul.
    Mr. Edwards. Okay. Thank you.
    I would like to go to the ranking member, and then we will 
go to Mr. Dicks.
    Mr. Wamp.
    Mr. Wamp. Well, Mr. Chairman, while Mr. Dicks is here 
again, I wanted to comment that if Admiral Olson's mother 
worked in your office, then Mr. Dicks you obviously are older 
than you look. [Laughter.]
    Mr. Dicks. Thank you. That is, I think, a compliment. 
[Laughter.]
    Admiral Olson. I am not sure what that says about my 
mother. [Laughter.]

                         NUCLEAR PROLIFERATION

    Mr. Wamp. I have a couple of things I might talk about 
here. I know you may have to be careful in how you respond. But 
one of the things that I believe you said was under your area 
of responsibility to assert and extend is nuclear 
nonproliferation. There is an article out this morning that 
says threat of nuclear attack in the United States said to have 
grown in recent years. In my 14 years in the House, I don't 
think anyone has spent more time trying to encourage the 
enforcement of Nunn-Lugar and shining the light on this issue 
of nuclear nonproliferation than Chairman Edwards. I have 
served on several subcommittees now with him, and he is a 
champion.
    I happen to represent Oak Ridge, Tennessee, which also 
plays a pretty critical role in this whole business. What can 
you tell us about that from Special Ops and what your men and 
women do around the world, and what you can say about this 
angle today, or anything at all. I know you have to be guarded 
in what you would say.
    Admiral Olson. Yes, sir. Without going into closed session, 
what I can say is that of the nine core activities assigned to 
Special Operations Command, counter-proliferation of weapons of 
mass destruction and weapons of mass effect is one of those 
nine. Special Operations does not own that mission area. We 
have niche tasks to perform within that mission area. Our niche 
tasks have mostly to do with interruption and interdiction of 
the activities associated with proliferation, mostly at the 
operational and tactical levels.
    So we do maintain some specially trained forces who are 
able to detect, interdict, and transfer weapons of mass 
destruction, their chemicals and precursors, and the facilities 
that support those.
    Mr. Wamp. Would you say that your command has more or less 
authority from the Department of Defense now than you had 
before September 11?
    Admiral Olson. Sir, we have significantly more authority 
now than we had before 9/11. That authority is codified in 
unified command plan language that assigned the commander of 
Special Operations Command as the lead combatant command for 
planning, synchronizing and, as directed, executing Department 
of Defense operations against terrorists and terrorist 
networks.
    So that gives us a significant role of leadership in the 
plans and planning for global Department of Defense operations, 
not just Special Operations.
    Mr. Wamp. And even with that said, the lead combatant 
command and your role in the world, in the other room you told 
Chairman Edwards and I that the people under your command are 
very sensitive that every time we kick the proverbial door down 
in the world, we agitate, and that there is a need to be 
effective diplomats as well. And I have been blown away over 
these last 19 hearings to see the effective diplomacy of our 
leaders in uniform of all these commands.
    Frankly just about every DOD person that has been in this 
room this year has proven more effective diplomatically than 
the average State Department person over in another room, which 
to me is very counter to the beliefs, not just in our country, 
but around the world about the nature of our armed forces. It 
is very effective, even under your command, which are the door-
kicking-down guys, and not necessarily the peacemakers. But 
diplomacy and being a good diplomat is also part of the 
mission, correct?
    Admiral Olson. Yes, sir. Just stepping away from Special 
Operations, clearly the agency of our government that has the 
most people in the most places every day is the Department of 
Defense. So within my command, I am reminding them every day 
that they are diplomats whether they like it or not. That is a 
responsibility that they bear and we have high expectations of 
them with respect to that.
    I would also like to say that although we are the door-
kickers of the world, and we are certainly high-end door-
kickers, the civil affairs forces of the Department of Defense 
are under my proponency as well. We are also the school-
builders and the well-diggers and the culvert-placers. Although 
we are doing kinetic kinds of operations, mostly with our 
counterparts in Iraq and Afghanistan every night, in most of 
the places of the world we are doing education, engagement, 
training engagement, civil affairs engagement, advise and 
assist kind of engagement. We are doing much more of that 
globally than we are door-kicking.
    Mr. Wamp. You are doing that with uniformed personnel or a 
combination of uniformed and civilian?
    Admiral Olson. Mostly uniformed personnel, sir.
    Mr. Wamp. Would you say, just briefly, that our combined 
forces around the world, regardless of their mission, are 
pleased to see Special Ops forces come whatever the mission is 
today?
    Admiral Olson. Yes, sir. I would say they are all pleased 
to see us. In fact, we are there at their invitation. But 
sometimes, they are more pleased that the quieter we can be 
about it, the more pleased they are to have us. In many cases, 
our access depends on our ability to not talk about it publicly 
with nations that are not too proud to accept our assistance, 
but they are too proud to publicly acknowledge it.
    Our people are pretty good at that. We are pretty good at 
getting in and training and getting back out without drawing a 
great deal of attention to it. It is mostly small numbers of 
specially trained people who are doing this kind of activity.
    Mr. Wamp. Well, in that case I have no more questions.
    Mr. Edwards. A very good line of questions.
    Mr. Dicks and then Mr. Farr.

                                 C-130

    Mr. Dicks. On equipment, and we will get to the $38 million 
here pretty soon, on the equipment side, I notice, is there a 
shortage of C-130s? Or do we need to get new C-130s? Are these 
the C-130Js?
    Admiral Olson. Sir, the new model is the C-130J. Our effort 
is to recapitalize our older models, most importantly our C-130 
Echo models with C-130Js. There are center wing-box issues. 
There is a degradation of the fleet. Our average age of our C-
130 is 28 years at this point, but we have several that are 35 
and more years old. So it is urgent that we one-for-one replace 
our aging fleet.
    Mr. Dicks. What is the plan? Is there a 5-year plan?
    Admiral Olson. Our requirement is 37. We have in our 
budget--and this is one of these interesting connections 
between us and the services.
    Mr. Dicks. Right.
    Admiral Olson. The C-130 is a service-common airplane, so I 
am not responsible for purchasing that. The Air Force is. Then 
they are obliged to provide that to me so that I can modify it 
with the budget that I am provided for Special Operations-
peculiar items. So in the case of a C-130, about three-quarters 
of the airplane is bought by the Air Force and about one-
quarter by me, and we synchronize that so that it rolls off the 
production line and we can make our modifications for the 
Special Operations-peculiar mission aspects. It is in my budget 
to fund 20 modifications in order to deliver 12 airplanes 
within this 5-year plan. And Air Force is pursuing an 
appropriate amount of funding to make those airplanes 
available.
    Mr. Dicks. Yes, because there may be some opportunity to 
add to that C-130 line. So if there was going to be some money 
added, you would have to add the modifications, too, right?
    Admiral Olson. Yes, sir.
    Mr. Dicks. At some point in the 5-year budget?
    Admiral Olson. The platform money goes in the Air Force's 
budget. The modification money goes in mine.
    Mr. Dicks. Okay.

                        UNMANNED AERIAL VEHICLES

    What about UAVs? How are you doing on UAVs?
    Admiral Olson. Sir, you have hit my top two acquisition 
priorities back to back here.
    Mr. Dicks. That is good.
    Admiral Olson. It is bigger than UAVs. It is the entire 
system that it takes for intelligence, surveillance and 
reconnaissance. We are at the point now where just buying more 
UAVs doesn't solve the problem. It is the people. It is the 
training. It is the ground crews. It is the analysts. It is the 
communications capability. It is the band-width on the 
satellites to transmit the full motion video imagery. There is 
a whole lot to that.
    But if your question is about where do sensors and UAVs 
being part of that package fit in our priority, it is at the 
very top.
    Mr. Dicks. Right at the top.

               SOF RANGER BATTALION COMPLEX AT FORT LEWIS

    Tell me about this SOF Ranger Battalion complex at Fort 
Lewis for $38 million. Tell us about that a little bit.
    Admiral Olson. Yes, sir. Part of the growth plan for 
Special Operations grows one company for each of our three 
Ranger battalions. We will grow from three operational 
companies to four operational companies. Sir, this is specific. 
I know this is a trend here. I talked about growing our Special 
Forces Group from three to four battalions. We are growing our 
Ranger battalions from three to four companies. That is for the 
long-term goal to get us in 3-back-1-forward on a rotational 
basis. So this is fully in sync with General Casey's comments 
on that. So this is to accommodate a new growth company at Fort 
Lewis.
    Mr. Dicks. Okay. We will do our best to help you on that.
    Thank you, Mr. Chairman.
    Mr. Edwards. Thank you, Mr. Dicks.
    Mr. Farr.

                       NAVAL POSTGRADUATE SCHOOL

    Mr. Farr. Thank you very much.
    I want to follow up on Zach Wamp's comments and talk a 
little bit about education. First of all, I would like to echo 
your comments. I served in local and state offices, as other 
members of this committee have, and what is unique about being 
in Congress is working with DOD. We don't have that at the 
state or local government. So the entire military presence 
before our committee is unique to Congress.
    I would like to say that the biggest surprise is the 
competency of the Commands we have heard from. It is just 
incredible. I share those opinions. I think there is much more 
of sensitivity awareness about things that I think are really 
important, which is this understanding other cultures and being 
able to cross the cultural divide--than there is among people 
who are trained professionally in departments that are supposed 
to be doing that. It is a compliment to your sensitivity.
    In the training areas, Congress set up in the Naval 
Postgraduate School a Center for Stabilization and 
Reconstruction. I appreciate you going out and visiting the 
school. I understand that one of your priorities is developing 
capabilities among partner countries to support stability, 
security, transition, and reconstruction operations. What we 
find also, as the commands have been telling me, is that there 
are very few officers who are currently slated for the degree 
program at the Naval Postgraduate School and SSTR because the 
Services have failed to establish an MOS for combatant 
commands, and that the combatant commands have not established 
a formal requirement.
    I think you stated earlier and in your testimony that there 
really is a need for expertise in this area. I wondered if you 
have thought about establishing a requirement for such 
expertise and utilizing the expertise in this area at the Naval 
Postgraduate School for the global peace operations initiative.
    Admiral Olson. Sir, I haven't initiated any effort. That is 
a consideration that I will make. Our Special Forces officers 
are mostly going through the Special Operations in low-
intensity conflict curriculum at Naval Postgraduate School. The 
curriculum that you mentioned in the stability and 
reconstruction areas is mostly appropriate to our civil affairs 
officers, but I will study that, sir.
    Mr. Farr. Well, I know Admiral Mullen is very interested 
and he was very supportive. The Navy has two officers out there 
now, but the problem is that there is no MOS. Why get a degree 
in this field if you are not going to get an assignment. I 
think again we are ahead of the bureaucracy. We need the 
bureaucracy to catch up and create those MOS's.
    The other that we hear a lot about is irregular warfare 
environments and training for that, but not a lot of adjustment 
for the training of it. I wondered what SOCOM has done to 
correct the deficiencies that pertain to stability operations 
and prevention operations. Are the essential training programs 
in place?
    Admiral Olson. Special Operations Command is emerging as a 
leader within the department in the entire field of irregular 
warfare. During the QDR discussions, I represented Special 
Operations in irregular warfare needs to the department as the 
deputy commander of Special Operations Command.
    Since taking command, I have established a new division 
within my headquarters that we call the Irregular Warfare 
Division. It is the J-10 in military-speak. Most commands don't 
go beyond single digits, but we thought it was important enough 
to have an organization dedicated to irregular warfare. So we 
were co-drafters of the irregular warfare joint operations 
concept, for example, for the Department of Defense. We are 
contributing heavily to the Department of Defense directive on 
irregular warfare. So we are trying to put the academic 
underpinnings to this.
    I do have, I call it a junior varsity war college. It is 
called the Joint Special Operations University. It is an 
institution of higher education for us. I call it junior 
varsity because most of its courses are days or single-digit 
weeks long, but we have established an irregular warfare 
curriculum within that Joint Special Operations University as 
well, for both U.S. and international students.
    So we are growing into this, but I agree completely that 
there needs to be a broader awakening within the Department of 
Defense in order to incentivize this sort of behavior that 
leads to irregular warfare expertise.
    Mr. Farr. I understand that about 88 percent of the civil 
affairs personnel reside in the Army Reserves. I wondered if 
that presented any problems for you, that this expertise is 
within the Reserves.
    Admiral Olson. One-hundred percent of civil affairs used to 
reside within Special Operations Command. It was a QDR decision 
to transfer the Reserve component to the Army. I have retained 
the active component of civil affairs under my immediate 
command, and I remain the Department of Defense proponent in 
the terminology for all active and Reserve civil affairs. That 
means I am responsible for the doctrine and the consistency of 
training and compatibility of equipment and those sorts of 
things, even as it extends into the Reserve force.
    The issue is one of qualification and accessibility in the 
Reserve component. To do civil affairs right, you have to be 
steeped in the culture in which you are operating and it is 
very hard for a Reservist to do that. The nature of civil 
affairs, and I am a huge fan of what civil affairs does, but 
the nature of the civil affairs community has changed 
significantly in the last several years. It used to be doctors, 
dentists, lawyers, police chiefs, water purification engineers, 
mayors--people who could sort of come together in their reserve 
capacity to deploy forward and help build governments and 
infrastructures.
    Given the demands of the last few years and the need to 
grow the civil affairs community rapidly, what we have now is a 
much younger force that is learning the civilian skills at the 
same time they are learning their military skills. But our 
maturity in civil affairs as it turns out does reside within 
the Reserve component. It is very important to be able to 
sustain that and be able to get at them.
    Mr. Farr. The largest Army Reserve training base is Fort 
Hunter Liggett, CA. I really want to be able to work with you 
and integrate the training programs to meet the mission needs. 
I appreciate anything you could do to tell us what more we can 
do to help that training process.
    Thank you.
    Mr. Edwards. Mr. Bishop.
    Mr. Wamp.
    Mr. Wamp. No further questions, Mr. Chairman.
    Mr. Edwards. Mr. Dicks.
    Mr. Dicks. I have no further questions.

                               INFLATION

    Mr. Edwards. Let me just ask you, Admiral, and I am going 
to be fairly brief in my final questions. MILCON inflation is 
hitting military construction, as it is highway construction, 
construction in all parts of our economy pretty heavily. Is 
your military construction budget funded in 2008? I know, as 
you mentioned, it was a surge year. Have those dollars been 
eroded because of inflation in ways you didn't expect? Were 
there any challenges there? Are you having to cut corners or 
delay building installations because of inflation?
    Admiral Olson. That is a great question, sir. Because it 
was a robust year for us, there were challenges, but we 
overcame them. Among the ways we overcame them was finding that 
some of our plan and design money was unexecutable, et cetera, 
et cetera. So we found enough buffer within our own program to 
answer most of our needs without having to cut into other 
programs.
    But the larger question is how are we affected by the 
growing construction costs, and the fact that we do have to 
adjust to them every year. It is a real concern for us.
    Mr. Edwards. We have to get a better way. In the past, OMB 
has dictated a 2.4 percent inflation factor, which when you 
talk to the Associated General Contractors it doesn't even pass 
the laugh test. And so we know corners are having to be cut, 
projects delayed, others pushed out in the out-years, so we 
will have to continue to look at that.
    Let me ask you also, SOCOM is going through a process I 
believe of reviewing global posture. When will that report be 
finalized?
    Admiral Olson. Sir, I think very quickly. I think we will 
have the Secretary of Defense guidance on that here within the 
next 2 weeks to a month on that.
    Mr. Edwards. Would conclusions involve new military 
construction needs, change end-strength numbers? Without 
getting into specific conclusions before the report is 
finalized, what would be the kind of issues you would be 
addressing in that?
    Admiral Olson. It would be minor adjustments in the out-
years based on tweaking the presence of our force globally.

                        COUNTERINSURGENCY EFFORT

    Mr. Edwards. Okay. And the final question I have is in 
terms of counterinsurgency efforts. There have to be a lot of 
lessons learned, I would imagine, from Iraq and Afghanistan--
the times you have to kick down the doors, and you have people 
trained the toughest of the tough--but as you commented, it has 
been so important for us to hear. It is also important for us 
to earn the respect of local citizens if we are going to fight 
a counterinsurgency effort.
    Are there some lessons learned out there that you could 
just summarize briefly in terms of how we not only go after the 
worst of the worst enemies, but at the same time deal with 
communities in a way that earns their respect and ultimately 
their support? I know they are critical as we are fighting the 
bad guys. We have to have the local citizens telling us where 
the bad guys are, and not vice versa. Any general thoughts on 
lessons learned there?
    Admiral Olson. Sir, I think you just said them. I think the 
main lesson is in a counterinsurgency is that it is our 
responsibility to provide a better alternative than the 
insurgents. You do that neighborhood by neighborhood, city by 
city in terms of gaining support for anti-insurgent activity 
among the people. We can't operate among the people and rid 
them of the insurgents in their midst. They have to be part of 
it. There has to be an environment that is inhospitable to that 
kind of activity.
    And so it is providing education alternatives to the 
Madrasas. It is providing recreational opportunities, and I 
don't mean to exaggerate recreation, but the kinds of places 
that enable people to gather in a productive way. There are 
many activities that can just return hope to the people, to the 
sense where people everywhere will bet on a winner. When the 
insurgents no longer look like the winners, then that is 
demonstrated success.
    Mr. Edwards. Great.
    Well, any other questions?
    Admiral, I think I can speak for all of us in saying this 
has been very, very informative and helpful to our subcommittee 
to have you here. Thank you for that. My one request of you 
would be to let this committee know where we can be of help on 
military construction projects, even if that involves the 
housing and barracks projects that are funded through the 
various services since that money comes through this 
subcommittee.
    Given the level of sacrifice your personnel are making and 
their families are making in this time of war, in that kind of 
Global War on Terrorism we are fighting won't go away 
overnight, so the sacrifices will continue--let us know where 
we can be of help to your folks on quality of life issues, 
including housing and barracks and child care facilities.
    Mr. Dicks.
    Mr. Dicks. Mr. Chairman, I forgot one thing. I wanted to 
follow up on one aspect.
    Mr. Edwards. Sure.

         POST-TRAUMATIC STRESS SYNDROME/TRAUMATIC BRAIN INJURY

    Mr. Dicks. When we talked about the deployments, 6 or 7 
months. What are you seeing on post-traumatic stress syndrome 
and traumatic brain injuries?
    Mr. Edwards. That is a good question.
    Admiral Olson. We are seeing some, clearly. Within my 
force, it is statistically lower than across the rest of the 
department I think because of the level of training, because 
when you get shorter deployments, because our people do sort of 
stay together longer and have a family within the military to a 
greater degree than most of the force does.
    If you are looking for specific statistics, I can get those 
to you for the record. I have snapshot numbers in my head of 
specific elements of our force, but it is an issue for us.
    [The information follows:]

    All surveys done by the Services show that USSOCOM forces have much 
less Post-Traumatic Stress Syndrome (PTSS)/Post-Traumatic Stress 
Disorder (PTSD)/Traumatic Brain Injury (TBI) than other military units. 
Within the command, we have good survey data which indicate a much 
lower occurrence when compared with our conventional counterparts, but 
we can not validate actual numbers. Experts believe that many personnel 
who experience PTSS/PTSD do not report the conditions for various 
reasons. For those reporting and being seen at medical centers and 
clinics, the Service Surgeons General are best able to track those 
numbers and would prove DOD's most reliable source of the most current 
and accurate statistics.

    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Edwards. No, I am glad you asked that question. RAND 
Corporation is coming out publicly tomorrow with a report. They 
have done a rather extensive report on PTSD and TBI as well. It 
will be interesting to see how much attention that draws.
    Mr. Farr. Can I have a follow-up question on that?
    Mr. Edwards. Sure.
    Mr. Farr. You mentioned that a shorter deployment probably 
is a factor, but how about training? That is something we have 
never looked at, better training. You have people that are 
knowledgeable about where they are going. They are 
linguistically trained. They are culturally trained. So it is 
not such a shock effect when you arrive.
    Admiral Olson. That is exactly right, sir.
    Mr. Farr. You probably aren't as exposed to as many 
improvised explosive devices, are you?
    Admiral Olson. No, sir. I think we are.
    Mr. Farr. You are.
    Admiral Olson. I think we are exposed man-for-man at a 
higher rate than most of the force.
    Mr. Farr. Really?
    Mr. Edwards. Didn't you mention that to Mr. Wamp and me in 
our brief meeting before the hearing?
    Admiral Olson. We invested with real energy in what we call 
medium mine protective vehicles, sort of an MRAP, an off-shoot 
of that program. The specific vehicles are called RG-31s and 
RG-33s. We fielded them to our force for the first time since 
Christmas. In the months of March and April, we have had six 
incidents. It destroyed at least four of those vehicles, 
perhaps all six. Inside those vehicles, we sustained 
casualties, but we are convinced that we saved at least eight 
and maybe ten people.
    But what we have seen is an increasing threat in response 
to the increased capability of the vehicles. The mines that 
these vehicles hit were larger of explosive weight. In the 
past, we were used to 30 pounds or less. These vehicles protect 
very well against that former low-level IED threat. We didn't 
consider it low-level at the time. It was destructive. But 
against these vehicles, it is not destructive, so they are 
upping the explosive weight of the mines. We are going to have 
to continue to struggle to stay ahead of that. The good news is 
that it is a lot harder to move and place a larger mine than it 
is a 30-pound mine, so they are more detectable by us in terms 
of the activity that it takes to get them there. But that has 
been a very successful program.
    For the record, I would like to say that any sense that the 
diminishing of violence in Iraq should lead to a decision to 
back away from protecting our people in these kind of vehicles, 
it is way too early to make that decision.
    Mr. Bishop. Can I follow up on this?
    Mr. Edwards. Please do. It is important.
    Mr. Bishop. The issue that you describe, were they IEDs or 
were they the explosive projectiles?
    Admiral Olson. It is a combination. We had IEDs of the 
traditional IED type. We had the explosively formed projectiles 
and we had the pressure plate contact mines as well.
    Mr. Bishop. And where you had survivors, were those IEDS, 
was it a combination where they were destructive with the EFPs?
    Admiral Olson. Yes, sir. The casualties were killed by 
large contact mines emplaced in a dirt roadway. The EFPs and 
the IEDs were survivable by these vehicles.
    Mr. Bishop. Because you had the MRAP-type vehicle?
    Admiral Olson. Yes, sir.
    Mr. Bishop. Was it with the V-shaped bottoms?
    Admiral Olson. Yes, sir--V-shaped bottoms, and they are 
also designed to be destructed. Much of the energy of the 
explosive is absorbed by throwing the transmission one way and 
the engine in another way and blowing the wheels off and sort 
of taking all that so that the cocoon of the vehicle survives.
    Mr. Dicks. If you would yield. There has been some concern 
that these things don't do well off-road, that they are pretty 
limited in how they can be utilized. We are going out there and 
buying 10,000 of these things or whatever the number is, and 
there has been some concern that maybe we ought to think 
through this a little bit, about the utility. Because you know, 
the next situation may be different.
    Admiral Olson. No, you are right. A family of vehicles is 
required, including some that are off-road-capable. These 
vehicles, all of them, all of the truly mine-protective 
explosive-projectile-protective vehicles, weigh upwards of 
30,000 pounds. Ours are about 37,000 pounds that we are 
delivering. Those are not off-road-capable vehicles. It doesn't 
require hard pavement, but it does require some sort of 
improved hard-packed dirt roadway at a minimum.
    Mr. Edwards. Great. Good questions.
    Mr. Dicks. Thank you.
    Mr. Edwards. Members, as we finish the 19th of 19 2009 
budget hearings, we have had a pretty busy op tempo ourselves. 
Thank you all for your participation, knowing how many other 
subcommittees that you sit on. A special thanks to Mr. Wamp, 
the ranking member, who has been here at each one of the 19 
hearings.
    We all would like to thank again an incredibly able and 
talented and dedicated staff led by Carol Murphy, staff who 
have worked without regard to politics or partisanship. Thank 
you to all of the staff for making these hearings so 
productive.
    With that, we stand adjourned.
    Admiral, thank you very much for being here and for your 
service.
    Admiral Olson. Mr. Chairman, thank you very much.
    [Clerk's note.--Questions for the record submitted by 
Chairman Edwards.]

    Question. Have you identified the total capacity (in square 
footage) of SOF-peculiar facilities that you need to support SOCOM's 
personnel growth and transformation? When do you expect to meet that 
requirement?
    Answer. Yes. The FY 2009 program consisting of 13 projects at 11 
installations in seven states and one overseas location represents a 
total capacity of 1,078,200 square feet. This figure includes the 
second increment of our 323,000 square foot operational requirement at 
Dam Neck, Virginia. Our FY 2009 construction requirement supporting 
USSOCOM's personnel growth and transformation will be met approximately 
2.5 years after project awards.
    Question. How do the various SOF units differ demographically? 
Focus in particular on rates of marriage and number of dependents.
    Answer. Marriage and dependency rates among the Special Operations 
Forces components are higher than their respective Services. The 
following information is provided based on data available as of 30 Sep 
07:
          --58% of Army Special Operations Component (ARSOC) enlisted 
        were married, compared to 53% of the total Army enlisted
          --91% of ARSOC Warrant Officers and 78% of Commissioned 
        Officers in ARSOC were married, compared to 82% and 68% 
        respectively for the total Army Warrant and Commissioned 
        Officers
          --46% of ARSOC enlisted have two or more dependents, compared 
        to 42% of the total Army enlisted
          --82% of ARSOC Warrant Officers have two or more dependents, 
        compared to 73% of the total Army Warrant Officers
          --59% of ARSOC Commissioned Officers have two or more 
        dependents, compared to 52% of the total Army Commissioned 
        Officers
          --64% of Naval Special Warfare (NSW) enlisted were married, 
        compared to 52% of the total Navy enlisted.
          --97% of Warrant Officers and 75% of Commissioned Officers in 
        NSW were married, compared to 88% and 69% respectively for the 
        total Navy
          --42% of NSW Enlisted have two or more dependents, compared 
        to 35% of the total Navy Enlisted
          --79% of NSW Warrant Officers have two or more dependents, 
        compared to 78% of total Navy Warrant Officers
          --55% of NSW Commissioned Officers have two or more 
        dependents, compared to 51% of the total Navy Commissioned 
        Officers
          --65% of Air Forces Special Operations Component (AFSOC) 
        Enlisted were married, compared to 58% of the total Air Force 
        Enlisted
          --75% of AFSOC Officers were married, compared to 72% of the 
        total Air Force Officers.
          --47% of AFSOC Enlisted have two or more dependents, compared 
        to 41 % of the total Air Force Enlisted
          --53% of AFSOC Commissioned Officers have two or more 
        dependents, likewise 53% of the Total Air Force Commissioned 
        Officers have two or more dependents
    Note: ``Married'' includes those who are married, those who are 
separated, and those under an interlocutory decree. The limit for 
tracking ``Dependents'' is two or more, which assumes at least one 
child and one spouse.
    Question. Please describe the optimal training and deployment cycle 
for the various SOF units, and how this has been impacted by GWOT/OEF/
OIF.
    Answer. In general terms, for the majority of SOF units, the 
optimal training and deployment cycle would be 2:1 (in-garrison: 
deployed). However, the deployment cycle for various SOF units has 
adapted to the situation in multiple theaters since the beginning of 
the GWOT, where the majority of our forces are currently operating at a 
1:1 ratio. The actual rotation cycle varies with the unit type and 
mission, and the following typical SOF deployment cycles are based on 
unit schedules for Operations ENDURING FREEDOM, ENDURING FREEDOM--
PHILIPPINES, and IRAQI FREEDOM.
          U.S. Army Special Forces (SF) units: 7 months
          Naval Special Warfare (Sea, Air, and Land [SEAL] and Special 
        Boat Units): 6 months
          Air Force Special Operations Command (AFSOC) air crews and 
        support: 3 to 6 months
          Marine Corps Forces Special Operations Command (MARSOC) 
        deployments: 6 months
          Active Civil Affairs deployments: 6 months
          Active Psychological Operations (PSYOP) deployments: 6 to 12 
        months
          U.S. Army Ranger deployments: 4 months
    SOF deployments for Theater Security Cooperation Events (Joint 
Combined Exercises for Training (JCET), Counter Narco-terrorism, Mobile 
Training Teams, Exercises) typically vary from 2 weeks to 4 months.
    Question. Does the $9 million training range requested for Al Udeid 
reflect a need to conduct more training in theater? Is this related to 
the high rate of deployment?
    Answer. The establishment of a training range is required because 
no enduring special operations training facilities exist in theater. 
Thus the $9 million training complex requested for Al Udeid reflects 
the need for special operations forces to conduct realistic training in 
theater to ensure they are sufficiently prepared to execute their 
mission in support of USCENTCOM.
    Question. What are the Guard and Reserve component units of SOCOM, 
and where are they based?
    Answer. USSOCOM is comprised of the following Guard and Reserve 
Components, listed with their associated locations.

------------------------------------------------------------------------
                                                  Location
------------------------------------------------------------------------
Air National Guard (ANG):
    123rd Special Tactics Flight.  Louisville, KY.
    193rd Special Operations Wing  Middletown, PA.
Army National Guard (ARNG):
    20th Special Forces Group....  Birmingham, AL.
    Company B, 1st Battalion/20th  Decatur, AL.
     Special Forces Group.
    1st Battalion/20th Group       Huntsville, AL.
     Special Forces Group.
     Company B/1st Battalion/20th  Mobile, AL.
     Group Special Forces Group.
     Company A/5th Battalion/19th  Los Alamitos, CA.
     Group Special Forces Group.
    Company A/5th Battalion/19th   Redwood City, CA.
     Group Special Forces Group.
    Company B/5th Battalion/19th   Fort Carson, CO.
     Group Special Forces Group.
    5th Battalion/19th Group       Watkins, CO.
     Special Forces Group.
    3rd Battalion/20th Special     Camp Blanding, FL.
     Forces Group.
    Special Operations Detachment  MacDill AFB, FL.
     Central.
    Company A, 3rd Battalion/20th  Ocala, FL.
     Special Forces Group.
    Company C, 3rd Battalion/20th  Wauchula, FL.
     Special Forces Group.
    Company A/2nd Battalion/20th   Chicago, IL.
     Group Special Forces Group.
    Kentucky Military              Louisvilla, KY.
     Intelligence Detachment.
    Company C/1st Battalion/20th   Springfield, MA.
     Group Special Forces Group.
    Special Operations Detachment  Baltimore, MD.
     Joint Forces.
    Company B/2nd Battalion/20th   Glen Arm, MD.
     Group.
    107th Weather Flight (ANG      Detroit, MI.
     Unit assigned to ARNG Unit).
    Company C/2nd Battalion/20th   Grenada, MS.
     Group Special Forces Group.
    2nd Battalion/20th Group       Jackson, MS.
     Special Forces Group.
    Special Operations Detachment  Jackson, MS.
     South.
    190th Chem Recon Detachment..  Helena, MT.
    Company B/3rd Battalion/20th   Roanoke Rapids, NC.
     Group Special Forces Group.
    Company A/2nd Battalion/19th   Columbus, OH.
     Group Special Forces Group.
    Company A/2nd Battalion/19th   Middletown, RI.
     Group.
    Special Operations Detachment  Providence, RI.
     Global.
    181st Weather Flight (ANG      Forth Worth, TX.
     Unit assigned to ARNG Unit).
    Company C/5th Battalion/19th   San Antonio, TX.
     Group Special Forces Group.
    19th Special Forces Group....  Draper, UT.
    1st Battalion/19th Group       Camp Williams, UT.
     Special Forces Group.
    Company B/1st Battalion/19th   Camp Williams, UT.
     Group Special Forces Group.
    Company C/1st Battalion/19th   Camp Williams, UT.
     Group Special Forces Group.
    Company A/1st Battalion/19th   Camp Buckley, WA
     Group Special Forces Group.
    Special Operations Detachment  Camp Buckley, WA.
     South.
    Company A/1st Battalion/19th   Spokane, WA.
     Group Special Forces Group.
    2nd Battalion/19th Group       Kenova, WV.
     Special Forces Group.
    Company C/2nd Battalion/19th   Kingwood, WV.
     Group.
    Special Operations Detachment  Kingwood, WV.
     Europe.
Navy Reserve (NR):
    Naval Special Warfare          San Diego, CA.
     Operational Support Group.
    Naval Special Warfare          San Diego, CA.
     Operational Support Team ONE.
    Navy Reserve Special Ops Cmd   Hialeah, FL.
     South Detachment 108.
    Navy Reserve Special Ops Cmd   Jacksonville, FL.
     Europe Detachment 530.
    Navy Reserve U.S. Special Ops  Tampa, FL.
     Cmd Headquarters.
    Navy Reserve U.S. Special Ops  Tampa, FL.
     Cmd Intel Detachment.
    Navy Reserve Special Ops Cmd   Tampa, FL.
     Central Detachment 208.
    Navy Reserve Special Ops Cmd   Pearl Harbor, HI.
     Pacific Detachment 620.
    Navy Reserve Special Ops Cmd   Houston, TX.
     Korea Detachment 101.
    Navy Reserve Special Ops Cmd   Norfolk VA.
     JT Forces Cmd Det 606.
    Naval Special Warfare          Norfolk, VA.
     Operational Support Team TWO.
Air Force Reserve (AFR):
    919th Special Operations Wing  Eglin AFB, FL.
------------------------------------------------------------------------

    Question. How does SOCOM generate its MILCON requirements? Are they 
generated at the installation level? What is the role of SOCOM's 
component commands in the process, and what is the role of the 
engineering/facilities commands of the Military Departments?
    Answer. SOCOM generates SOF MILCON requirements through a four-
phased comprehensive Strategic Planning Process (SPP). The SPP ensures 
compliance with DoD directives and policies to produce the USSOCOM 
Major Force Program--11 Program Objective Memorandum/Budget Estimate 
Submission or Program Review/Program Budget Review. The SPP is the 
principal vehicle for assigning priorities and allocating resources 
among approved and validated SOF requirements, including MILCON, with 
the desired goal to include these priorities in the POM to maximize 
USSOCOM's capabilities through the end of the Future Years Defense 
Program. This process is a collaborative effort involving installation, 
component, and headquarters levels. SOCOM's component commands are an 
integral partner in the process. All SOCOM MILCON projects comply with 
DoD and Military Departments engineering/facilities commands policies 
and procedures for construction.
    Question. Is the execution of SOCOM MILCON overseen at the 
headquarters level, or is this delegated to the component commands and/
or installation level?
    Answer. Yes, MILCON execution is overseen at the headquarters level 
together with our executive design and construction agents. The 
component commands also maintain oversight along with SOF tier units at 
the installation level.
    Question. How does the 13,119 growth figure break down among the 
SOCOM component commands?
    Answer. Component command breakout of the 13,119 growth figure is 
as follows: Army--7,769; Marine--2,461; Air Force--1,513; Navy--1,376.
    Question. How many and what types of new units will be stood up 
with the additional 13,119 personnel?
    Answer. The following is a list of new units that will be stood up 
with the 13,119 growth:
    Army: 4 Special Forces Battalions; 3 Ranger Companies; 1 Civil 
Affairs Brigade HQ; 3 Civil Affairs Battalions; 3 Psychological 
Operations Companies.
    Air Force: 1 UAS Squadron; 6 Operational Aviation Detachments--A; 1 
Special Operations Distributed Ground Station Unit.
    Marine: 2 Marine Special Operation Advisory Groups; 2 Marine 
Special Operation Battalions; 1 Marine Special Operation Support Group.
    Question. Are the personnel for the 27th Special Operations Wing at 
Cannon included in the 13,119 growth figure?
    Answer. Personnel for the 27th Special Operations Wing at Cannon 
are not included in the 13,119 growth figure. Cannon relocation 
decisions came post-QDR.

    [Clerk's note.--End of questions for the record submitted 
by Chairman Edwards.]
[GRAPHIC] [TIFF OMITTED] T2754E.016

[GRAPHIC] [TIFF OMITTED] T2754E.017

[GRAPHIC] [TIFF OMITTED] T2754E.018

[GRAPHIC] [TIFF OMITTED] T2754E.019

[GRAPHIC] [TIFF OMITTED] T2754E.020

[GRAPHIC] [TIFF OMITTED] T2754E.021

[GRAPHIC] [TIFF OMITTED] T2754E.022

[GRAPHIC] [TIFF OMITTED] T2754E.023

[GRAPHIC] [TIFF OMITTED] T2754E.024

[GRAPHIC] [TIFF OMITTED] T2754E.025

[GRAPHIC] [TIFF OMITTED] T2754E.026

[GRAPHIC] [TIFF OMITTED] T2754E.027

[GRAPHIC] [TIFF OMITTED] T2754E.028

[GRAPHIC] [TIFF OMITTED] T2754E.029

[GRAPHIC] [TIFF OMITTED] T2754E.030

[GRAPHIC] [TIFF OMITTED] T2754E.031

[GRAPHIC] [TIFF OMITTED] T2754E.032

[GRAPHIC] [TIFF OMITTED] T2754E.033

[GRAPHIC] [TIFF OMITTED] T2754E.034

[GRAPHIC] [TIFF OMITTED] T2754E.035

[GRAPHIC] [TIFF OMITTED] T2754E.036

[GRAPHIC] [TIFF OMITTED] T2754E.037

[GRAPHIC] [TIFF OMITTED] T2754E.038

[GRAPHIC] [TIFF OMITTED] T2754E.039

[GRAPHIC] [TIFF OMITTED] T2754E.040

[GRAPHIC] [TIFF OMITTED] T2754E.041

[GRAPHIC] [TIFF OMITTED] T2754E.042



                           W I T N E S S E S

                              ----------                              
                                                                   Page
Abate, Statement of Paul.........................................   766
Arny, Wayne......................................................   955
Baker, Statement of Kerry........................................   851
Bell, General B. B...............................................   531
Beversdorf, Statement of Cheryl..................................   659
Blake, Statement of Carl.........................................   838
Breckler, Statement of Steven....................................   754
Brown, Statement of James K......................................   737
Campa, Master Chief Petty Officer Joe R..........................    45
Casey, General George W., Jr.....................................  1036
Conway, General James T..........................................   459
Cox, Timothy C...................................................   197
Craddock, General Bantz J........................................  1084
Daigh, John Jr...................................................   237
Davis, Statement of John R.......................................   724
Eulberg, Major General Del.......................................   619
Fallon, Admiral William J........................................   350
Finn, Belinda....................................................   260
Granahan, Statement of Marcie....................................   745
Greene, Chief Judge William P., Jr...............................   218
Hake, Statement of Jonathan E....................................   713
Howard, the Honorable Robert T...................................   896
Jonas, the Honorable Tina W......................................   950
Jones, Statement of Rick.........................................   692
Keating, Admiral Timothy J.......................................   517
Kelley, Statement of Raymond.....................................   868
Kent, Sergeant Major Carlton W. Kent.............................    24
Kussman, the Honorable Michael J.................................   390
Maupin, Statement of John E., Jr.................................   681
McKinley, Chief Master Sergeant Rodney J.........................    58
Mosely, General T. Michael.......................................   588
Needham, Statement of Christopher................................   861
Nicholson, Brigadier General John W..............................   171
O'Neill, James J.................................................   250
Olson, Admiral Eric T............................................  1170
Peake, Honorable James B., M.D...................................   108
Preston, Sergeant Major Kenneth O................................     5
Regan, Maureen...................................................   262
Robertson, Statement of Steve....................................   821
Rodriguez, Statement of the Honorable Ciro.......................   652
Roughead, Admiral Gary...........................................   446
Stavridis, Admiral James G.......................................  1140
Weaver, Statement of Terri.......................................   673
Woodley, the Honorable John Paul, Jr.............................   182


                               I N D E X

                              ----------                              

                            Quality of Life

                                                                   Page
Base Realignment and Closure, Effects of.........................    97
Campa, Prepared Statement of Master Chief Petty Officer Joe R....    47
Campa, Statement of Master Chief Petty Officer Joe R.............    45
Chairman, Statement of...........................................     l
Child Development Centers........................................    94
Family Housing...................................................    80
Family Support Network, Integrated...............................    92
Financial Counseling.............................................    96
Guard and Reserve................................................    90
Health Care, Quality of..........................................    86
High School Graduates............................................    81
Joint Basing.....................................................    92
Kent, Prepared Statement of Sergeant Major Carlton W. Kent.......    25
Kent, Statement of Sergeant Major Carlton W. Kent................    24
McKinley, Prepared Statement of Chief Master Sergeant Rodney J...    61
McKinley, Statement of Chief Master Sergeant Rodney J............    58
Post Traumatic Stress Disorder...................................    84
Preston, Prepared Statement of Sergeant Major Kenneth O..........     8
Preston, Statement of Sergeant Major Kenneth O...................     5
Quality of Life Priorities, Top..................................    88
Ranking Minority Member, Statement of............................     3
Sexual Assault, Programs for Victims of..........................    82

                            Veterans Affairs

American Lake, Washington........................................   134
Benefits, Overpayment of.........................................   151
Blood Glucose Monitoring.........................................   154
Budget Projections...............................................   138
Capital Asset Realignment for Enhanced Services (CARES)..........   136
Chairman, Statement of...........................................   105
Construction Inflation...........................................   144
Denver, Colorado--Major Construction.............................   165
Dole-Shalala Commission--Disability Compensation.................   157
Fiscal Year 2008 Budget Implementation of........................   129
Gravesite Expansions--Major Construction.........................   168
Information Technology...........................................   146
Legislative Proposals............................................   156
Long-Term Care...................................................   159
Louisville, Kentucky Hospital....................................   166
Medical Research.................................................   160
Mental Health and Traumatic Brain Injury.........................   137
National Cemetery Administration--Minor Construction.............   161
Orlando, Florida--Major Construction.............................   162
Outpatient Clinic in Jacksonville, Florida.......................   148
Peake, Prepared Statement of the Honorable James B., M.D.........   113
Peake, Statement of the Honorable James B., M.D..................   108
Post Traumatic Stress Disorder...................................   130
Prosthetic Research..............................................   145
Ranking Minority Member, Statement of............................   106
San Juan, Puerto Rico--Major Construction........................   163
St. Louis, Missouri--Major Construction..........................   164
Suicide Rate among Veterans......................................   150
Sustainability and Energy........................................   167
Transition to VA.................................................   134
Vet Centers......................................................   152
Veterans Cemetery in Jacksonville, Florida.......................   149
Veterans, Burial Needs for.......................................   132

                  American Battle Monuments Commission

Chairman, Statement of the.......................................   169
Foreign Currency Fluctuation.....................................   177
Nicholson, Prepared Statement of Brigadier General John W........   173
Nicholson, Statement of Brigadier General John W.................   171
Ranking Minority Member, Statement of............................   170
Security at Normandy Visitor Center..............................   179
Supplemental.....................................................   177

                       Cemeterial Expenses, Army

Amphitheater.....................................................   195
Cemetery Management Plan.........................................   192
Chairman, Statement of the.......................................   182
Honor Guard and Horses, Care of..................................   193
Tomb of the Unknowns.............................................   193
Woodley, Prepared Statement of the Honorable John Paul, Jr.......   185
Woodley, Statement of the Honorable John Paul, Jr................   182

                      Armed Forces Retirement Home

Cox, Prepared Statement of Timothy C.............................   200
Cox, Statement of Timothy C......................................   197
Green Construction...............................................   210
Gulfport Facility................................................   210
Homeless Veterans................................................   208
Private Developments, Other......................................   211
Washington Facility..............................................   212

                            Court of Appeals

Appeals Process..................................................   230
Cases, Backlog of................................................   228
Full Time Equivalents............................................   230
Greene, Prepared Statement of Chief Judge William P., Jr.........   221
Greene, Statement of Chief Judge William P., Jr..................   218
Pro Bono Consortium..............................................   229

                      Office of Inspector General

Benefit Overpayments.............................................   268
Benefits Claims, Backlog of......................................   296
Benefits Processing..............................................   297
Bureaucratic Management Issues...................................   272
Chairman, Statement of...........................................   235
Contracting......................................................   266
Daigh, Statement of John Jr......................................   237
Data-Mining......................................................   257
Drug Diversion...................................................   287
Finn, Statement of Belinda.......................................   260
Hiring Personnel.................................................   285
Inadequate Care..................................................   253
Information Management...........................................   296
Inspector General, Authority over................................   282
Interoperability between DoD and VA..............................   273
Las Vegas, Nevada Office.........................................   255
O'Neill, Statement of James J....................................   250
Office of Inspector General, Prepared Statement from the.........   239
Patient Advocate System..........................................   284
Personnel, Hiring Additional...................................251, 285
Post Traumatic Stress Disorder...................................   293
Prescriptions, Cost of...........................................   274
Private Health Care Providers, Contracting with..................   266
Ranking Minority Member, Statement of............................   236
Recruitment......................................................   255
Regan, Statement of Maureen......................................   262
Reports, Request for Copies of...................................   297
Staff Resources and Workload.....................................   256
Tallahassee, Florida Office......................................   255
VA Facilities, Staffing Issues...................................   298
Procurement Activities...........................................   346
VA Standards of Delivery of Care.................................   273
VISN Management Issues...........................................   264
VISN Structure...................................................   295
Whistleblower Protection Act.....................................   283

                            Central Command

2009, Beyond.....................................................   379
Afghanistan...............................................366, 374, 383
Banking and Mail Delivery........................................   381
Chairman, Statement of...........................................   349
Countries in CENTCOM.............................................   370
Djibouti.........................................................   374
Fallon, Prepared Statement of Admiral William J..................   354
Fallon, Statement of Admiral William J...........................   350
Host Nations.....................................................   380
Iran.............................................................   371
Iraq, Daily Life in..............................................   377
Iraq, U.S. Footprint in..........................................   376
Long Term Security...............................................   365
MacDill AFB....................................................376, 379
Parking at CENTCOM Headquarters..................................   375
Ranking Minority Member..........................................   350
Syrian Border....................................................   366

                     Veterans Affairs--Medical Care

Chairman, Statement of...........................................   389
Chattanooga Area Health Care and CARES Decision..................   437
Community-Based Outpatient Clinics.............................402, 435
Disability Evaluation System/Wounded Warriors....................   437
Dual Diagnosis Mental Health Programs............................   432
Electronic Health Records........................................   401
Federal Recovery Coordinators/Wounded Warriors...................   436
Future of Healthcare Research....................................   416
GAO Report.......................................................   437
Head Trauma......................................................   409
Homeless.........................................................   431
Innovation.......................................................   413
Joint VA/DoD Medical Facilities..................................   425
Kussman, Prepared Statement of the Honorable Michael J...........   393
Kussman, Statement of the Honorable Michael J....................   390
Long-Term Care...................................................   433
Louisville, Kentucky Hospital....................................   431
Medical Accounts.................................................   430
Medical Administration and Medical Services Accounts, Request to 
  Merge..........................................................   434
Medical Research.................................................   433
Non-Institutional Long-Term Care.................................   440
Post Traumatic Stress Disorder...................................   432
Priority Eight Veterans..........................................   412
Quality Care, Access to..........................................   428
Ranking Minority Member, Statement of............................   390
Rural Health Care................................................   441
Seamless Transition between VA and DoD...........................   440
Smoking Cessation................................................   433
Suicide Rate of Veterans.........................................   418
Transfer of Records from DoD to VA...............................   404
Vet Centers......................................................   439
Vision Impaired Veterans.........................................   407
VISN Structure...................................................   441
Women's Health...................................................   430

                              Navy Budget

Afghanistan......................................................   481
AFRICOM..........................................................   493
Barracks, Aged--Replacement Projects.............................   503
Barracks MilCon..................................................   500
Barracks PPV.....................................................   500
Base Realignment and Closure 2005................................   507
Base Realignment and Closure.....................................   480
Basic Housing Allowance..........................................   509
Blount Island....................................................   495
Camp Lejeune Water Contamination.................................   512
Camp Lemonier Budget Request.....................................   508
Chairman, Statement of...........................................   445
Child Development Center Construction............................   511
Child Development Centers Expansion Plan.........................   511
Child Development Centers........................................   490
Conway, Prepared Statement of General James T....................   461
Conway, Statement of General James T.............................   459
DDG 1000.........................................................   488
Dispersal of Assets..............................................   485
Environmental Impact for LCS Homeporting.........................   501
Environmental Impact Study.......................................   486
Family Housing--Construction, Improvements, Planning and Design..   509
Family Housing--O&M and Leasing Costs............................   511
Family Housing--Renovate, Replace, Sustain Housing in Overseas 
  Locations......................................................   510
Family Housing Budget Overseas Locations.........................   510
Family Housing Budget............................................   509
Family Services Program..........................................   489
Grow the Force--Barracks Acquisition Strategy....................   502
Grow the Force--Barracks.........................................   502
Grow the Force--Construction.....................................   502
Grow the Force--FY 09 Requirements...............................   508
Grow the Force--Marine Corps.....................................   508
Grow the Force--Reserves.........................................   502
Grow the Force--Temporary Facilities.............................   502
Guam--Flag Housing...............................................   502
Guam Realignment.................................................   506
Guam Relocation--Futenma Replacement Facility....................   506
Guam Relocation--Plans, Decisions, Budget........................   507
Guam Relocation--Units and Capabilities..........................   505
Guam Requirements................................................   501
Guantanamo Bay, Cuba.............................................   498
Housing Privatization............................................   487
Inadequate Housing...............................................   477
Incremental Funding..............................................   498
Inflation Figures................................................   500
Japan to Guam, Moving from.......................................   480
Joint Basing.....................................................   493
Joint Basing Process.............................................   508
MV-22--Military Construction Cost for Beddown....................   506
Naval War College................................................   497
PPV-Child Development Facilities.................................   501
Ranking Minority Member, Statement of............................   445
Reprogrammings...................................................   492
Roughead, Prepared Statement of Admiral Gary.....................   448
Roughead, Statement of Admiral Gary..............................   446
Single vs. Married Servicemembers................................   477
Special Weapons Security.........................................   500
Training Barracks................................................   503
Unaccompanied Housing Construction Strategy......................   499
Unaccompanied Housing FYDP.......................................   499
Youth Activity Needs.............................................   501

                            Pacific Command

1-Year Tour......................................................   564
Accompanied Tours................................................   573
Bell, Prepared Statement of General B. B.........................   534
Bell, Statement of General B. B..................................   531
Chairman, Statement of...........................................   515
China............................................................   560
Construction Costs...............................................   584
DMZ..............................................................   577
Family Housing in Korea..........................................   571
Guam Construction Costs..........................................   576
Guam.............................................................   560
Housing..........................................................   562
Housing, Substandard.............................................   575
Keating, Prepared Statement of Admiral Timothy J.................   519
Keating, Statement of Admiral Timothy J..........................   517
Long-Term Leasing................................................   570
Military to Military Engagement/Security Progress................   585
Okinawa to Guam Transition.......................................   567
PACOM Global War on Terror Efforts...............................   569
Ranking Minority Member, Statement of............................   515
South Korean Economy.............................................   559
Strategic Culmination Plan.......................................   585
Taiwan...........................................................   566
Yongsan Garrison Relocation Plan.................................   578

                               Air Force

AFSOC Wing at Cannon Air Force Base..............................   644
B-35 Beddown.....................................................   642
Bachelor Housing.................................................   648
Base Realignment and Closure Funding...........................627, 649
Base Realignment and Closure.....................................   623
Chairman, Statement of...........................................   587
Child Care Waiting List..........................................   634
Child Development Centers........................................   649
Combat Search and Research Helicopter............................   643
Cyber Command....................................................   631
Dorms-4-Airmen...................................................   643
Engineer Shortage................................................   647
Eulberg, Statement of Major General Del..........................   619
Family Housing...................................................   648
Fitness Centers..................................................   649
Guam Military Construction.......................................   643
Housing, Inadequate..............................................   621
Inflation Assumption.............................................   629
Infrastructure Funding, Risk in..................................   646
Infrastructure...................................................   638
Joint Basing.....................................................   603
Korea, Training Ranges in........................................   644
Military Construction and Family Housing.........................   642
Military Construction, Decrease in...............................   626
Moody Air Force Base.............................................   632
Moseley, Prepared Statement of General T. Michael................   591
Moseley, Statement of General T. Michael.........................   588
Okinawa to Guam, Relocation from.................................   644
Permanent Party Dormitories......................................   643
Personnel Relocations in the National Capital Region.............   645
Pipeline Dormitories.............................................   643
Private Sector...................................................   639
Ranking Minority Member, Statement of............................   588
RED HORSE and Prime BEEF.........................................   624
Renewable Energy.................................................   648
Road Map.........................................................   642

                           Outside Witnesses

Abate, Prepared Statement of Paul................................   768
Abate, Statement of Paul.........................................   766
Baker, Prepared Statement of Kerry...............................   853
Baker, Statement of Kerry........................................   851
Beversdorf, Prepared Statement of Cheryl.........................   662
Beversdorf, Statement of Cheryl..................................   659
Blake, Prepared Statement of Carl................................   841
Blake, Statement of Carl.........................................   838
Breckler, Prepared Statement of Steven...........................   756
Breckler, Statement of Steven....................................   754
Brown, Prepared Statement of James K.............................   739
Brown, Statement of James K......................................   737
Chairman, Statement of...........................................   651
Davis, Prepared Statement of John R..............................   727
Davis, Statement of John R.......................................   724
Granahan, Prepared Statement of Marcie...........................   748
Granahan, Statement of Marcie....................................   745
Hake, Prepared Statement of Jonathan E...........................   716
Hake, Statement of Jonathan E....................................   713
Jones, Prepared Statement of Rick................................   695
Jones, Statement of Rick.........................................   692
Kelley, Prepared Statement of Raymond............................   870
Kelley, Statement of Raymond.....................................   868
Maupin, Prepared Statement of John E., Jr........................   684
Maupin, Statement of John E., Jr.................................   681
Needham, Prepared Statement of Christopher.......................   863
Needham, Statement of Christopher................................   861
Ranking Minority Member, Statement of............................   651
Robertson, Prepared Statement of Steve...........................   824
Robertson, Statement of Steve....................................   821
Rodriguez, Prepared Statement of the Honorable Ciro..............   655
Rodriguez, Statement of the Honorable Ciro.......................   652
Weaver, Prepared Statement of Terri..............................   675
Weaver, Statement of Terri.......................................   673

                Veterans Affairs--Information Technology

Accountability...................................................   924
Chairman, Statement of...........................................   895
Community-Based Outpatient Clinics...............................   915
Consolidated Information Technology Operations...................   942
Data Exchange..................................................916, 927
District Casework Overload.......................................   940
Electronic Health Record.........................................   937
Encryption/Privacy of Mobile Service Delivery....................   936
Financial Management.............................................   913
Fiscal Year 2009 Information Technology Budget Request...........   942
Howard, Prepared Statement of the Honorable Robert T.............   898
Howard, Statement of the Honorable Robert T......................   896
Information Technology Initiatives...............................   939
Information Technology Systems...................................   926
Internal Facing Information Technology Systems...................   937
Lost Data........................................................   933
Lost Records.....................................................   942
Office of Information and Technology.............................   931
Proposed Legislative Language....................................   931
Reprogramming Letter.............................................   934
Rescheduling Projects..........................................924, 935
Security Breach Developments.....................................   911
Staffing Requirements............................................   914
Surveys and Investigations Report................................   934
Transmission of Electronic Health Records........................   919
VA Communications System.........................................   943
VA/DoD Coordination on Disability Claims.........................   941
Veteran Facing Information Technology (IT) Systems...............   937
VISTA Contracting................................................   932
VISTA Foundations Modernization..................................   932
VISTA Legacy System..............................................   939

                            Budget Overview

AFRICOM..........................................................   996
Army, Prepared Statement of Wayne................................   959
Army, Statement of Wayne.........................................   955
Base Realignment and Closure Sites, Cleanup of...................  1019
Base Realignment and Closure.............................995, 999, 1006
Camp Lejeune War Contamination...................................  1011
Chairman, Statement of...........................................   949
Child Development Centers........................................  1011
Construction Inflation...........................................   997
Cuba, Plan for...................................................  l018
Directive 3005...................................................  1002
Economic Development Conveyance..................................  1016
Global Center for Security Cooperation...........................  1003
Guam.............................................................  l014
Health Care......................................................  1025
Inadequate Housing...............................................  1023
Joint Basing.....................................................  1004
Jonas, Prepared Statement of the Honorable Tina W................   952
Jonas, Statement of the Honorable Tina W.........................   950
Naval Station Newport............................................  1009
Overseas Housing.................................................  1021
Privatization....................................................  1007
Rebalancing the Army.............................................  1013

                                  Army

Army Medical Action Plan and the Soldier Family Assistance Plan..  1075
Army Training Reserve Facility...................................  1074
Balance, Restoring...............................................  1051
Barracks Privatization...........................................  1076
Base Realignment and Closure 2005................................  1081
Base Realignment and Closure Privatization.......................  1070
CACTF............................................................  1074
Casey, Prepared Statement of General George W., Jr...............  1040
Casey, Statement of General George W., Jr........................  1036
Chairman, Statement of...........................................  1035
Child Care Fees for an E-5.......................................  1072
Child Development Centers........................................  1071
Community Based Outpatient Clinic at Former Fort Ord.............  1054
Construction Inflation on Military Construction..................  1053
Europe, Footprint in.............................................  1071
Family Housing, Impact of Grow the Force.........................  1077
Fiscal Accountability............................................  1067
Fort Benning, Georgia............................................  1055
Fort Riley, Health Care Needs at.................................  1064
Full Spectrum Operations.........................................  1057
Grow the Army....................................................  1079
Guard and Reserve................................................  1059
Health Care......................................................  1063
Impact Aid.......................................................  1061
Korea............................................................  1072
Modularity.......................................................  1077
Monterey, Staffing New Medical Clinic in.........................  1054
Mortgages........................................................  1062
National Guard Equipment.........................................  1069
Prepare..........................................................  1080
Quality of Life Issues...........................................  1053
Range and Training Land Strategy.................................  1078
Ranking Minority Member, Statement of............................  1036
Recruitment Goals................................................  1066
Stability, Security, Transition and Reconstruction...........1068, 1074
Stress...........................................................  1050
Sustainment......................................................  1079
Temporary Facilities and Interim Capacity........................  1078
Tour Lengths, Reduced............................................  1070
Training Facilities..............................................  1052

                            European Command

AFRICOM..........................................................  1123
Chairman, Statement of...........................................  1083
Craddock, Prepared Statement of General Bantz J..................  1087
Craddock, Statement of General Bantz J...........................  1084
Education........................................................  1127
Egypt............................................................  1120
European Command Area of Operation...............................  1130
Fluctuation of the Dollar........................................  1115
Germany, Force Posture in....................................1114, 1121
Inadequate Housing...............................................  1123
Kosovo...........................................................  1131
Military Presence in Europe......................................  1132
Missile Defense..................................................  1117
NATO.............................................................  1128
Ranking Minority Member, Statement of............................  1083

                            Southern Command

Base Realignment and Closure.....................................  1151
Chairman, Statement of...........................................  1139
Columbia...............................................1150, 1153, 1157
Counter Narcotics Effort.........................................  1150
Counterdrug Operating Locations..................................  1166
Crisis Corps Response............................................  1159
Cuba and Guantanamo..............................................  1151
Cuba.........................................................1149, 1158
Fourth Fleet.....................................................  1148
Guantanamo.......................................................  1167
Hospital Ship Comfort............................................  1156
Latin American Military Aid......................................  1165
Military Construction in Region..................................  1148
Military/Armed Forces in SOUTHCOM................................  1161
New Headquarters.................................................  1163
Panama...........................................................  1163
Political and Economic Developments in Latin America.............  1154
Ranking Minority Member, Statement of............................  1139
SOCSOUTH.........................................................  1168
Soto Cano Air Base, Honduras.....................................  1167
SOUTHCOM Headquarters............................................  1167
Stavridis, Prepared Statement of Admiral James G.................  1142
Stavridis, Statement of Admiral James G..........................  1140

                           Special Operations

Al Udeid Air Base................................................  1187
C-130............................................................  1194
Cannon Air Force Base............................................  1187
Chairman, Statement of...........................................  1169
Counterinsurgency Effort.........................................  1198
Inflation........................................................  1197
Mission, People and Acquisition Priorities.......................  1185
Naval Post-Graduate School Field Experimentation Program.........  1185
Naval Post-Graduate School.......................................  1195
Nuclear Proliferation............................................  1192
Olson, Prepared Statement of Admiral Eric T......................  1173
Olson, Statement of Admiral Eric T...............................  1170
Operational Tempo................................................  1191
Post-Traumatic Stress Syndrome/Traumatic Brain Injury............  1199
Quality of Life Issues...........................................  1189
Ranking Minority Member, Statement of............................  1169
SOF Ranger Battalion Complex, Fort Lewis.........................  1195
Special Forces Complex, Eglin Air Force Base.....................  1186
Special Operations Command, Growth of........................1182, 1188
Unmanned Aerial Vehicles.........................................  1194

                                  <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
